<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 110TH CONGRESS</title>
<body><pre>[Senate Hearing 110-666]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 110-666
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     SECOND SESSION, 110TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

GEN DAVID D. McKIERNAN, USA; LTG RAYMOND T. ODIERNO, USA; LTG WALTER L. 
 SHARP, USA; GEN DAVID H. PETRAEUS, USA; LTG RAYMOND T. ODIERNO, USA; 
HON. NELSON M. FORD; JOSEPH A. BENKERT; SEAN J. STACKLEY; FREDERICK S. 
   CELEC; MICHAEL B. DONLEY; GEN. NORTON A. SCHWARTZ, USAF; AND GEN. 
                         DUNCAN J. McNABB, USAF

                               ----------                              

          FEBRUARY 6; APRIL 3; MAY 22; JUNE 26; JULY 22, 2008

                               ----------                              

         Printed for the use of the Committee on Armed Services


NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             110TH CONGRESS

                                                        S. Hrg. 110-666

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     SECOND SESSION, 110TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

GEN DAVID D. McKIERNAN, USA; LTG RAYMOND T. ODIERNO, USA; LTG WALTER L. 
 SHARP, USA; GEN DAVID H. PETRAEUS, USA; LTG RAYMOND T. ODIERNO, USA; 
HON. NELSON M. FORD; JOSEPH A. BENKERT; SEAN J. STACKLEY; FREDERICK S. 
   CELEC; MICHAEL B. DONLEY; GEN. NORTON A. SCHWARTZ, USAF; AND GEN. 
                         DUNCAN J. McNABB, USAF

                               __________

          FEBRUARY 6; APRIL 3; MAY 22; JUNE 26; JULY 22, 2008

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
46-092 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            february 6, 2008

Vote on Certain Pending Military Nominations.....................     1

                             april 3, 2008

Nominations of GEN David D. McKiernan, USA, for Reappointment to 
  the Grade of General and to be Commander, International 
  Security Assistance Force, Afghanistan; LTG Raymond T. Odierno, 
  USA, for appointment to the Grade of General and to be Vice 
  Chief of Staff, United States Army; and LTG Walter L. Sharp, 
  USA, for appointment to the Grade of General and to be 
  Commander, United Nations Command/Combined Forces Command/
  United States Forces Korea.....................................     5

Statement of:

McKiernan, GEN David D., USA, for Reappointment to the Grade of 
  General and to be Commander, International Security Assistance 
  Force, Afghanistan.............................................    12
Odierno, LTG Raymond T., USA, for Appointment to the Grade of 
  General and to be Vice Chief of Staff, United States Army......    13
Sharp, LTG Walter L., USA, for Appointment to the Grade of 
  General and to be Commander, United Nations Command/Combined 
  Forces Command/United States Forces Korea......................    13

                              may 22, 2008

Nominations of GEN David H. Petraeus, USA, for Reappointment to 
  the Grade of General and to be Commander, United States Central 
  Command; and LTG Raymond T. Odierno, USA, for Appointment to 
  the Grade of General and to be Commander, Multi-National Force-
  Iraq...........................................................   101

Statement of:

Petraeus, GEN David H., USA, for Reappointment to the Grade of 
  General and to be Commander, United States Central Command.....   105
Odierno, LTG Raymond T., USA, for Appointment to the Grade of 
  General and to be Commander, Multi-National Force-Iraq.........   111

                              may 22, 2008

To Consider Certain Pending Military Nominations.................   215

                                 (iii)
                             june 26, 2008

Nominations of Hon. Nelson M. Ford to be Under Secretary of the 
  Army; Joseph A. Benkert to be Assistant Secretary of Defense 
  for Global Security Affairs; Sean J. Stackley to be Assistant 
  Secretary of the Navy for Research, Development, and 
  Acquisition; and Frederick S. Celec to be Assistant to the 
  Secretary of Defense for Nuclear and Chemical and Biological 
  Defense Programs...............................................   219

Statement of:

Ford, Hon. Nelson M., to be Under Secretary of the Army..........   223
Benkert, Joseph A., to be Assistant Secretary of Defense for 
  Global Security Affairs........................................   224
Stackley, Sean J., to be Assistant Secretary of the Navy for 
  Research, Development, and Acquisition.........................   225
Celec, Frederick S., to be Assistant to the Secretary of Defense 
  for Nuclear and Chemical and Biological Defense Programs.......   225

                             july 22, 2008

Nominations of Michael B. Donley to be Secretary of the Air 
  Force; Gen. Norton A. Schwartz, USAF, for Reappointment to the 
  Grade of General and to be Chief of Staff, United States Air 
  Force; and Gen. Duncan J. McNabb, USAF, for Reappointment to 
  the Grade of General and to be Commander, United States 
  Transportation Command.........................................   339

Statement of:

Stevens, Hon. Ted, U.S. Senator from the State of Alaska.........   344
Donley, Michael B., to be Secretary of the Air Force.............   346
Schwartz, Gen. Norton A., USAF, for Reappointment to the Grade of 
  General and to be Chief of Staff, United States Air Force......   348
McNabb, Gen. Duncan J., USAF, for Reappointment to the Grade of 
  General and to be Commander, United States Transportation 
  Command........................................................   348
Conrad, Hon. Kent, U.S. Senator from the State of North Dakota...   368

APPENDIX.........................................................   485


              VOTE ON CERTAIN PENDING MILITARY NOMINATIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:46 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Pryor, Webb, Warner, 
Inhofe, Sessions, Collins, Chambliss, Dole, Cornyn, Thune, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Mary J. Kyle, legislative clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; 
Gabriella Eisen, counsel; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Green, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Thomas K. McConnell, professional 
staff member; Michael J. McCord, professional staff member; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Gregory T. 
Kiley, professional staff member; Lucian L. Niemeyer, 
professional staff member; Lynn F. Rusten, professional staff 
member; Robert M. Soofer, professional staff member; Sean G. 
Stackley, professional staff member; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Jessica L. Kingston, Benjamin L. 
Rubin, and Brian F. Sebold.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Bonni Berge, assistant to Senator Akaka; Christopher Caple and 
Caroline Tess, assistants to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley, assistant to 
Senator Pryor; Gordon I. Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum and Todd Stiefler, assistants 
to Senator Sessions; Mark J. Winter, assistant to Senator 
Collins; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Lindsey Neas, assistant to Senator Dole; David Hanke, assistant 
to Senator Cornyn; John L. Goetchius and Brian W. Walsh, 
assistants to Senator Martinez; and Erskine W. Wells III, 
assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Since a quorum is now present, before I 
call on you, Secretary Gates, I will ask the committee to 
consider a list of 782 pending military nominations. They've 
all been before the committee the required length of time. Is 
there a motion to favorably report those nominations?
    Senator Warner. So moved.
    Chairman Levin. Is there a second?
    Senator Inhofe. Second.
    Chairman Levin. It's been moved and seconded. All in favor 
say aye? [A chorus of ayes.]
    Opposed, nay? [No response.]
    The motion carries and those nominations will be reported 
to the Senate. Thank you.
    [The list of nominations considered and approved by the 
committee follows:]
 MILITARY NOMINATIONS PENDING WITH THE SENATE ARMED SERVICES COMMITTEE 
  WHICH ARE PROPOSED FOR THE COMMITTEE'S CONSIDERATION ON FEBRUARY 6, 
                                 2008.
    1. In the Marine Corps there is one appointment to the grade of 
major (Lester W. Thompson) (Reference No. 902).
    2. In the Army there are 16 appointments to the grade of colonel 
(list begins with Gerald K. Bebber) (Reference No. 968).
    3. In the Navy there is one appointment to the grade of captain 
(Thomas J. Harvan) (Reference No. 1104).
    4. In the Navy there is one appointment to the grade of captain 
(John G. Bruening) (Reference No. 1105).
    5. In the Air Force there are three appointments to the grade of 
brigadier general (list begins with Col. Mark A. Ediger) (Reference No. 
1142).
    6. In the Army there are two appointments to the grade of 
lieutenant colonel and below (list begins with Manuel Pozoalanso) 
(Reference No. 1174).
    7. MG Joseph F. Fil, Jr., USA to be lieutenant general and 
Commanding General, Eight U.S. Army/Chief of Staff, United Nations 
Command/Combined Forces Command/U.S. Forces Korea (Reference No. 1192).
    8. Brig. Gen. Cecil R. Richardson, USAF, to be major general 
(Reference No. 1201).
    9. Col. Robert G. Kenny, USAFR, to be brigadier general (Reference 
No. 1202).
    10. In the Air Force Reserve, there are two appointments to the 
grade of brigadier general (list begins with Daniel P. Gillen) 
(Reference No. 1203).
    11. In the Air Force Reserve, there are six appointments to the 
grade of major general (list begins with Robert Benjamin Bartlett) 
(Reference No. 1204).
    12. In the Air Force Reserve, there are nine appointments to the 
grade of brigadier general (list begins with Robert S. Arthur) 
(Reference No. 1205).
    13. In the Air Force, there is one appointment to the grade of 
colonel (Chevalier P. Cleaves) (Reference No. 1207).
    14. In the Air Force Reserve, there is one appointment to the grade 
of colonel (Jawn M. Sischo) (Reference No. 1208).
    15. In the Air Force Reserve, there is one appointment to the grade 
of colonel (Joaquin Sariego) (Reference No. 1209).
    16. In the Air Force Reserve, there are four appointments to the 
grade of colonel (list begins with John A. Calcaterra, Jr.) (Reference 
No. 1210).
    17. In the Air Force Reserve, there are three appointments to the 
grade of colonel (list begins with Jerry Alan Arends) (Reference No. 
1211).
    18. In the Air Force Reserve, there are five appointments to the 
grade of colonel (list begins with Donnie W. Bethel) (Reference No. 
1212).
    19. In the Air Force Reserve, there are 11 appointments to the 
grade of colonel (list begins with Paul A. Abson) (Reference No. 1213).
    20. In the Air Force Reserve, there are 14 appointments to the 
grade of colonel (list begins with Mari L. Archer) (Reference No. 
1214).
    21. In the Air Force Reserve, there are four appointments to the 
grade of colonel (list begins with William A. Beyers III) (Reference 
No. 1215).
    22. In the Air Force Reserve, there are six appointments to the 
grade of colonel (list begins with Robert R. Cannon) (Reference No. 
1216).
    23. In the Air Force Reserve, there are 176 appointments to the 
grade of colonel (list begins with Vito Emil Addabbo) (Reference No. 
1217).
    24. In the Air Force, there are two appointments to the grade of 
lieutenant colonel (list begins with Azad Y. Keval) (Reference No. 
1218).
    25. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Lance A. Avery) (Reference No. 1219).
    26. In the Air Force, there are four appointments to the grade of 
colonel and below (list begins with Billy R. Morgan) (Reference No. 
1220).
    27. In the Air Force, there is one appointment to the grade of 
major (Inaam A. Pedalino) (Reference No. 1221).
    28. In the Air Force, there are 62 appointments to the grade of 
major (list begins with Demea A. Alderman) (Reference No. 1222).
    29. In the Air Force, there is one appointment to the grade of 
major (Theresa D. Clark) (Reference No. 1223).
    30. In the Air Force, there are 113 appointments to the grade of 
major (list begins with Lee E. Ackley) (Reference No. 1224).
    31. In the Air Force, there are 129 appointments to the grade of 
major (list begins with Said R. Acosta) (Reference No. 1225).
    32. In the Air Force, there are two appointments to the grade of 
major (list begins with Jason E. MacDonald) (Reference No. 1226).
    33. In the Army, there is one appointment to the grade of major 
(Jeffrey P. Short) (Reference No. 1227).
    34. In the Army, there is one appointment to the grade of major 
(Saqib Ishteeaque) (Reference No. 1228).
    35. In the Army, there are three appointments to the grade of major 
(list begins with Wanda L. Horton) (Reference No. 1229).
    36. In the Army, there are five appointments to the grade of 
colonel and below (list begins with David J. Barillo) (Reference No. 
1230).
    37. In the Army, there is one appointment to the grade of colonel 
(Joseph B. Dore) (Reference No. 1231).
    38. In the Army Reserve, there is one appointment to the grade of 
colonel (William J. Hersh) (Reference No. 1232).
    39. In the Army Reserve, there is one appointment to the grade of 
colonel (James C. Cummings) (Reference No. 1233).
    40. In the Army Reserve, there is one appointment to the grade of 
colonel (Eugene W. Gavin) (Reference No. 1234).
    41. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Bruce H. Bahr) (Reference No. 1235)
    42. In the Army Reserve, there are seven appointments to the grade 
of colonel (list begins with David A. Brant) (Reference No. 1236).
    43. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Harold A. Felton) (Reference No. 1237).
    44. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Anne M. Bauer) (Reference No. 1238).
    45. In the Army Reserve, there are four appointments to the grade 
of colonel (list begins with Deborah G. Davis) (Reference No. 1239).
    46. In the Army Reserve, there are 37 appointments to the grade of 
colonel (list begins with Ruben Alvero) (Reference No. 1240).
    47. In the Army Reserve, there are nine appointments to the grade 
of colonel (list begins with Ronald L. Bonheur) (Reference No. 1241).
    48. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Gerard P. Curran) (Reference No. 1242).
    49. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Jeffrey A. Weiss) (Reference No. 1243).
    50. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Charles S. Oleary) (Reference No. 1244).
    51. In the Army Reserve, there are 10 appointments to the grade of 
colonel (list begins with Patrick S. Allison) (Reference No. 1245).
    52. In the Army Reserve, there are 30 appointments to the grade of 
colonel (list begins with Edward B. Browning) (Reference No. 1246).
    53. In the Army Reserve, there are 51 appointments to the grade of 
colonel (list begins with Sandra G. Apostolos) (Reference No. 1247).
    54. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with Russell L. Bergeman) (Reference 
No. 1248).
    55. In the Navy, there is one appointment to the grade of captain 
(John M. Dorey) (Reference No. 1250).
    56. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Thomas P. Carroll) (Reference 
No. 1252).
    57. In the Navy, there are four appointments to the grade of 
commander and below (list begins with David J. Robillard) (Reference 
No. 1253).
    58. Lt. Gen. Douglas M. Fraser, USAF, to be lieutenant general and 
Deputy Commander, U.S. Pacific Command (Reference No. 1260).
    59. RADM Mark E. Ferguson III, USN, to be vice admiral and Deputy 
Chief of Naval Operations for Manpower, Personnel, Training, and 
Education, N1, Office of the Chief of Naval Operations and Chief of 
Naval Personnel (Reference No. 1261).
    60. VADM John C. Harvey, Jr., USN, to be vice admiral and Director, 
Navy Staff, N09B, Office of the Chief of Naval Operations (Reference 
No. 1262).
    61. In the Army Reserve, there is one appointment to the grade of 
colonel (Orlando Salinas) (Reference No. 1263).
    62. In the Army Reserve, there is one appointment to the grade of 
colonel (Debra D. Rice) (Reference No. 1264).
    63. In the Army Reserve, there is one appointment to the grade of 
colonel (Robert J. Mouw) (Reference No. 1265).
    64. In the Army, there is one appointment to the grade of major 
(Rabi L. Singh) (Reference No. 1266).
    65. In the Navy, there is one appointment to the grade of commander 
(Michael V. Misiewicz) (Reference No. 1267).
    66. In the Navy, there is one appointment to the grade of 
lieutenant commander (John A. Bowman) (Reference No. 1268).
    67. In the Navy, there is one appointment to the grade of 
lieutenant commander (John A. Bowman) (Reference No. 1269).
    Total: 782.

    [Whereupon, at 9:47 a.m., the committee adjourned.]


 NOMINATIONS OF GEN DAVID D. McKIERNAN, USA, FOR REAPPOINTMENT TO THE 
GRADE OF GENERAL AND TO BE COMMANDER, INTERNATIONAL SECURITY ASSISTANCE 
FORCE, AFGHANISTAN; LTG RAYMOND T. ODIERNO, USA, FOR APPOINTMENT TO THE 
GRADE OF GENERAL AND TO BE VICE CHIEF OF STAFF, UNITED STATES ARMY; AND 
 LTG WALTER L. SHARP, USA, FOR APPOINTMENT TO THE GRADE OF GENERAL AND 
TO BE COMMANDER, UNITED NATIONS COMMAND/COMBINED FORCES COMMAND/UNITED 
                          STATES FORCES KOREA

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Warner, 
Inhofe, Graham, Cornyn, and Thune.
    Committee staff member present: Richard D. DeBobes, staff 
director.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, professional staff member; Evelyn N. Farkas, 
professional staff member; Michael J. Kuiken, professional 
staff member; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, research assistant; Lucian L. 
Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Ali Z. Pasha.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Brian Polley, assistant to Senator Cornyn; 
Jason Van Beek, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today the committee considers the nominations of three 
distinguished senior military officers: General David 
McKiernan, the nominee for Commander, International Security 
Assistance Force (ISAF), Afghanistan; Lieutenant General 
Raymond Odierno, the nominee for Vice Chief of Staff, United 
States Army; and Lieutenant General Walter Sharp, the nominee 
for Commander, United Nations Command, Combined Forces Command, 
and United States Forces Korea.
    We all know that the long hours and the hard work put in by 
our senior military officials at the Department of Defense 
(DOD) require commitment and sacrifice not only from our 
nominees, but also from their families. We appreciate your and 
their willingness to bear that burden.
    Each of our nominees has served this country in the 
military for more than 30 years. Their successful careers can 
be seen in the positions in which they serve today: Commanding 
General, U.S. Army Europe, and 7th Army Germany; Commanding 
General, III Corps and Commander Multi-National Corps-Iraq; and 
Director of the Joint Staff at the Pentagon.
    When confirmed, each of our nominees will be responsible 
for helping DOD face critical challenges. General McKiernan 
will take command of the ISAF, Afghanistan, at a time when 
independent reviews indicate that the mission to stabilize 
Afghanistan is faltering, leading to a strategic stalemate 
between coalition forces and the Taliban-led insurgency, and 
that in the words of one of those independent reviews, the 
violence, insecurity, and opium production have risen 
dramatically as Afghan confidence in their government and its 
international partners falls.
    The next ISAF commander will face significant challenges 
within the North Atlantic Treaty Organization (NATO) alliance 
as well. The Bucharest Summit has resulted in some additional 
troop commitments by allies to the Afghan conflict, but 
shortfalls remain in NATO members' commitments to provide the 
troops, helicopters, and other assets needed to meet ISAF 
mission requirements.
    In addition, some nations place restrictions on the use of 
their national forces, which reduce the ISAF commander's 
ability to deploy these forces as necessary.
    General Odierno will become Vice Chief of Staff at a time 
when the Army is highly stressed by continuing operations in 
Iraq and Afghanistan. Equipment and people are increasingly 
worn out, and the readiness of our nondeployed units has 
steadily declined.
    General George Casey, the Army Chief of Staff, has said, 
``Today's Army is out of balance. The current demand for our 
forces exceeds the sustainable supply.''
    Earlier this week, General Richard Cody, the current Vice 
Chief of Staff, testified before our Readiness and Management 
Support Subcommittee that ongoing deployments are inflicting 
``incredible stress on soldiers and families and pose a 
significant risk'' in his words to the All-Volunteer Army.
    As daunting as it will be to meet current readiness needs, 
the next Vice Chief of Staff will also be faced with the 
necessity to modernize the Army to meet national security 
requirements of the future. It will not be easy to modernize 
and transform the Army to meet these future requirements while 
improving current readiness and sustaining an Army fully 
engaged in Iraq and Afghanistan.
    Finally, General Sharp will be the first U.S. Commander to 
assume command in Korea since North Korea became a nuclear 
weapons state. It will be his responsibility to ensure that 
U.S. conventional forces continue to provide a strong deterrent 
to North Korean military action and that the military alliance 
with South Korea remains robust.
    I know our nominees look forward to these challenges.
    We look forward to these hearings, and also we would 
welcome each of our nominees introducing any of their family 
members who might be with them today.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. I think General Sharp is the only one that 
has family with him this morning. General, would you introduce 
your wife of 34 years?
    General Sharp. Thank you, sir. I am honored to be joined 
today by my wife, Joanne, of 34 years. We were married right 
out of West Point, and I definitely would not be sitting here 
today without her support.
    Sir, with your indulgence, I would also like to introduce 
my executive assistant, Cherylanne Anderson, who is also here 
today with my wife and to thank her and really the thousands of 
others like her that work and make sure that our offices run 
smoothly so that we do what we can do to protect and defend. I 
would like to thank her and recognize her also.
    Chairman Levin. We welcome both of them and thank both of 
them.
    Senator Warner. General McKiernan, I believe your family is 
still in Europe, that is your residence at this time. Is that 
correct?
    General McKiernan. Yes, Senator Warner. My immediate family 
could not join me today, but I am very proud that my sister, 
Kathe Carney, and one of her sons, Sean Carney, are here today. 
She is a special education teacher here in Northern Virginia. I 
am very proud of her.
    Senator Warner. We thank you.
    General Odierno, in my visits with you, you always make 
reference to your family. They are somewhere today. Back at 
your post, I believe?
    General Odierno. Yes, sir. My wife of 32 years, Linda, who 
is my high school sweetheart and who has been through a lot and 
volunteered much of her time and her efforts to the Army and 
our soldiers and their families. I could not do it without her, 
as well as the dedication of my children, who have always been 
dedicated to the Army themselves.
    Senator Warner. Your son, sir? How is he?
    General Odierno. Sir, he is doing very well. He is 
currently getting his masters degree at New York University in 
New York City, has done very well recovering from his injury, 
and I am very proud of his service and how he has handled his 
injury as part of the Iraq war.
    Senator Warner. Thank you, General.
    Mr. Chairman, I would like to say much of my statement will 
go in the record. I have not too strong a voice here this 
morning, but I recognize 100 years of service to America in 
uniform before us and we are fortunate in this country to have 
individuals, together with their families, that provide this 
dedication. It is the very foundation of our national security, 
the men and women who proudly wear their arms and uniforms and 
their families.
    General McKiernan, we had a very excellent consultation 
when you visited my office. We have visited together on 
previous assignments you have had. In fact, Senator Levin and I 
visited you on one of our trips to Kuwait and the Iraqi 
situation.
    Now, in Afghanistan, General, as I talked with you, there 
is the problem, of course, of the force levels. The President 
of France, to his great credit, I think, is announcing today an 
augmentation of forces. Two battalions of marines are going 
over as a consequence of the shortfall of other nations in 
their force levels. That was directly testified to before this 
committee here not long ago in another hearing.
    But there is growing concern about the Taliban's resurgence 
and the presence of the cross-border sanctuaries in Pakistan. 
The easy access that the insurgents have to cross various parts 
of that border severely complicate the ability not only to 
protect our forces but to conduct the campaigns over there to 
return to the people of Afghanistan this country.
    I also addressed to you the question of narcotics related 
by our distinguished chairman. I have spent a great deal of 
time in the past couple of months on this subject. I have had 
the opportunity to consult with prime ministers, ambassadors, a 
lot of senior officers of our uniformed forces, and junior 
officers. What concerns me is that each year this level of 
narcotics has gone up. Now, that is hardly the image, the 
picture, a benchmark of achievement that our forces, together 
with NATO and the other combatant forces, want to send to the 
world. We went there to enable that country to reestablish 
itself to have a democracy.
    My most severe concern is that the increase each year 
allows increases in money that is drained off from the farmer's 
field to the ultimate destination of those drugs. Those monies 
are providing arms. The Taliban and other insurgent groups are 
able to take their cut and buy arms and use those weapons 
against our forces.
    There is not a one of us in this room who have not gone to 
the funerals of our brave men and women who have lost their 
lives, and visited others who are wounded. When we try to 
comfort them, I find it particularly difficult with this 
Afghani situation when I say to myself this soldier could well 
have lost his life, his limb as a consequence of weaponry 
directed at him and paid for out of this drug trade.
    I wrote the President a letter--I do not intend to release 
it at this time--urging that at this ongoing NATO conference, 
he ensure that is becoming a top-level agenda item. I will soon 
find out whether, in fact, without that letter those NATO heads 
of state address this problem. I think it is unconscionable not 
only for the United States but of all governments involved in 
this Afghani operation not to address full-level attention to 
it.
    It is primarily a problem that should be confronted by the 
Karzai government. I understand that there has been a battalion 
established to be in training to work on this problem at this 
time, but that should have been done years ago.
    I urge you, General McKiernan, as you take up your 
responsibilities, to unrelentlessly bring this to the attention 
of your superiors wherever they may be.
    The national caveat issue is a subject at the NATO 
conference. Let us see what is provided because it puts an 
instability in the command and control of these forces where it 
is well recognized and known that certain nations do not have 
caveats and they are undertaking the majority of the high-risk 
operations. To me it conveys a completely inaccurate image of 
NATO and its ability to do out-of-area operations if some 
forces are going to be responsible for the heavy lifting and 
others to do whatever their countries permit them to do.
    I commend Secretary Robert Gates. I think he is one of the 
finest Secretaries of Defense we have ever had; I have had the 
privilege of working with and have known almost a dozen now, 
and I would put him at the very top in the way he has stood up 
for his forces and the principles for which we are fighting in 
both Afghanistan and Iraq.
    General Jim Jones, the former NATO Supreme Allied Commander 
and Commandant of the United States Marine Corps; and 
Ambassador Thomas Pickering of the Afghan Study Group sponsored 
by a distinguished organization, the Center for the Study of 
the Presidency, under the direction of David Abshire, published 
reports on these questions, and I am going to quote General 
Jones' report: ``Make no mistake, NATO is not winning in 
Afghanistan.'' I hope you have the opportunity to review those 
reports. They are very clear in the concerns that they have.
    I have also, Mr. Chairman, had the privilege of meeting 
with the Ambassador from Denmark and others connected with that 
country, and I want to say for the record here today Denmark 
has more than 600 troops in southern Afghanistan standing side 
by side with the British in one of the most dangerous areas in 
Afghanistan.
    Again, Secretary Gates went by on his way to this NATO 
conference and visited the country of Denmark. He singled it 
out because it is a small country, but those forces are an 
integral part of the fighting force. They are there with no 
caveats. Unfortunately, some have mixed them in with that group 
of nations which have caveats. But let us make it clear on our 
record today. As Secretary Gates said, ``This is an ally who, 
in my opinion, is really punching above its weight, and I want 
to visit and basically thank them for that.''
    General McKiernan, we wish you good luck, your 
distinguished career ably qualifies you to take on this 
responsibility and to move it towards achievement of our goals, 
and part of that will be the commencement of a significant 
lessening of the drug trade. It is not going to go away 
overnight, but it has been rising in output production every 
single year for the last 4 years.
    General Odierno, Senator Levin and I have had the 
opportunity to visit you many times. I remember on my first 
trip, you were in the room. At that time, you did not have 
quite as many stars as you have now, and you were among the 
general officers who were in the back row, but I remember your 
impressive statements to us at that time. It is funny how you 
can remember those days to this day. Your career has won the 
hearts and minds of the soldiers and the families that you have 
been associated with these many years, and you will join the 
Chief of Staff of the Army in this challenging task of 
rebuilding our Army.
    I would like to say at this time, Mr. Chairman and members 
of the committee, I think General Cody has done a fine job. One 
of the things I admire about General Cody is he grabs that 
telephone, certainly in the 6 years I was chairman, and he 
rifles through his messages without hesitation. I hope you will 
follow on in that same way.
    All the members of this committee and I think throughout 
Congress, other members, are very conscious of the need to put 
a lot of emphasis on rebuilding this Army, to do what we can to 
see that our forces who are deployed not only have all the 
equipment they need, but have some certainty as to the time of 
that commitment of how long they will be overseas.
    While you may not be able to speak with specificity this 
morning, I did hear the Chairman of the Joint Chiefs last night 
state that in his professional judgment, we monitor daily the 
situation over there, but thus far, the turbulence that we have 
experienced--I say ``we''--all the Afghan fighting forces 
experienced here in the past month or so in the Basra region--
is not going to change the schedule to bring back those 
brigades and take it down to 15 brigades in July.
    Now, he had to leave the door open, as any prudent chairman 
would, and I am sure you would. I hope we can achieve that, and 
simultaneously with achieving that, I hope we can go from the 
15-month tour to the 12-month tour and probably a slightly 
larger period of time than 12 months back at home in retraining 
and spending some time with the family.
    Mr. Chairman, I will close out here with a comment or two 
about General Sharp. I have had the privilege of visiting with 
him. You are taking on an interesting job in an area which I 
spent a little time as a youngster many years ago at age 22. It 
is still as cold over there today as it was when I was there, 
and I expressed that to your lovely wife.
    It has been a half a century that our forces have been in 
there. We went in there in 1950. I left in 1952. What troubles 
me about that situation over there is that we have been working 
a half century-plus, and yet we still cannot get their command 
and control, their training of the South Korean forces up to a 
level where they can take operational control (OPCON). As I 
told you, the latest estimate is 2012. 2012. That is 62 years 
if you add it up from the date that we went into South Korea to 
help liberate that country.
    I find that unacceptable and I hope that perhaps you, 
together with our diplomatic representatives over there, can 
shorten that time and let them get on with it because the 
people of our country, while we are ready to make the 
sacrifices to help others achieve their freedom and stability--
certainly South Korea has an enormous economic stability. It 
ranks in the top 10 nations of the world in terms of their 
gross national product, and they ought to be able to have a 
commensurate military establishment to support the growth and 
progress of that country. I hope you will accept my comments 
this morning as a challenge to work on reducing that date down 
from 2012.
    I thank the chair and the indulgence of the members as I 
have chatted a few minutes here.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Senator Levin.
    I join you in welcoming General McKiernan, General Odierno, and 
General Sharp. The breadth and depth of experience possessed by these 
nominees--both in the Army and while serving in joint commands--is 
extraordinary. I thank each of them for their service and their 
commitment to continue serving in these key positions.
    General McKiernan, you bring a most impressive professional record 
to one of the most demanding military positions.
    Success in Afghanistan remains a critical national security 
requirement for not only the United States, but the international 
community. Today, there is no doubt that progress has been made in 
Afghanistan since 2001.
    U.S. efforts, together with the service of 25 North Atlantic Treaty 
Organization (NATO) allies and 15 partner countries have assisted the 
Afghan people in securing their freedoms and rebuilding their nation.
    However, there is growing concern about the Taliban's resurgence; 
the presence of cross-border sanctuaries in Pakistan; the commitment of 
our NATO allies to what is likely be a longer military presence in 
Afghanistan; and the capacity of the Afghan government to achieve self 
governance. However, in my opinion, the greatest concern is the 
escalating opium economy. You should be prepared to discuss the 
counternarcotics strategies in Afghanistan.
    August 2008 marks the fifth anniversary of NATO's presence in 
Afghanistan. In the session of the NATO Heads of State and Government 
summit held today, the agenda item is Afghanistan.
    President Karzai, Secretary-General of the U.N., and other major 
international organizations working in Afghanistan, including the 
European Union and the World Bank will be present. The broad 
international participation demonstrates that the way ahead in 
Afghanistan requires a comprehensive approach in bringing together 
improvements in governance, reconstruction, development, and security.
    There is also unease about the security situation in Afghanistan, 
the size of the NATO military commitment in Afghanistan, and the 
performance of NATO member countries in International Security 
Assistance Force. This committee has often addressed the troubling 
issue of national caveats and commended Secretary Gates for his warning 
in February that ``the alliance evolving into a two-tiered alliance, in 
which some are willing to fight and die to protect people's security, 
and some are not.''
    General Jim Jones, the former NATO supreme allied commander, and 
co-chair--with Ambassador Thomas Pickering--of the Afghanistan Study 
Group Report which was sponsored by the Center for the Study of the 
Presidency, went even further and said: ``Make no mistake; NATO is not 
winning in Afghanistan.'' You should be prepared to discuss the 
findings of the Afghanistan Study Group, among other studies.
    Mr. Chairman, I would also like to join Secretary Gates in this 
recent praise of Denmark. Denmark has more than 600 troops in southern 
Afghanistan, standing side by side with British in one of the most 
dangerous areas in Afghanistan. Secretary Gates said, ``This is an ally 
who, in my opinion, is really punching above its weight, and I want to 
visit and basically thank them for that.''
    General Odierno, you have been referred to in at least one media 
account as the ``Patton of Counterinsurgency''--the leader who took the 
theory and vision and put them into action. The war continues, but your 
record as the Commander of the Multi-National Corps-Iraq from May 2006 
to February of this year brought welcome success in putting al Qaeda 
forces on the defensive, providing protection to the civilian 
population, engaging the Sunni population in Anbar province, and 
significantly lowering the rates of violence.
    Your personal and professional experiences make you perhaps the 
best qualified officer in the Army to join General Casey and Secretary 
Geren in carrying out the critically important tasks of recruiting, 
training, equipping, and organizing our great Army at a time of 
enormous stress on the force. General Cody, the current Vice Chief, 
testified before the Readiness and Management Support Subcommittee 2 
days ago. He testified about a ``resilient'' Army, but one that is 
stressed to the maximum and lacking shock absorbency--that is--the 
capability to respond to emergent crises or additional demands.
    I brought with me the famous James Montgomery Flagg recruiting 
poster that was introduced in World War I and relied on again in World 
War II to urge young men and women to join the Army. I'd note that a 
similar poster that appeared at that time for the Navy and Marines 
stated ``I need you.'' I think we all have a duty to turn to those 
eligible to serve today in our magnificent All Volunteer Army, and 
their families, and convey this message in the strongest terms. We want 
them and we need them--we want them for service to country.
    General Sharp, you have served since August 2005 as Director of the 
Joint Staff and undoubtedly are eager to get back to the field. The 
joint mission in Korea has not waned in importance since I took my turn 
on Active Duty over 50 years ago. I am encouraged by the commitment to 
turn operational control of the Republic of Korea armed forces over to 
the South Korean military leaders in 2012, as testified to recently by 
General Bell, but I wish it would happen sooner. I wish you great 
success in your new assignment as Commander, U.S. Forces Korea.

    Chairman Levin. Thank you so much, Senator Warner.
    General McKiernan?

STATEMENT OF GEN DAVID D. McKIERNAN, USA, FOR REAPPOINTMENT TO 
    THE GRADE OF GENERAL AND TO BE COMMANDER, INTERNATIONAL 
             SECURITY ASSISTANCE FORCE, AFGHANISTAN

    General McKiernan. Chairman Levin, Senator Warner, other 
distinguished members of the Senate Armed Services Committee, I 
am truly honored to be here today.
    I would like to thank the Secretary of Defense and the 
President for nominating me for this important NATO command 
position. If confirmed by the United States Senate, I can 
pledge to you that every ounce of my leadership ability will go 
into what is certainly a continuing tough, challenging mission 
set in Afghanistan, to include, as Senator Warner rightfully 
points out, the counternarcotics challenges.
    I also would like to take this opportunity to thank the 
Senate Armed Services Committee for your steadfast and truly 
magnificent support to all our men and women in uniform these 
past several years. We could not be doing what we are doing 
globally without your support.
    With that, I will stand by for any questions from the 
committee this morning.
    Chairman Levin. Thank you so much, General McKiernan.
    General Odierno?

 STATEMENT OF LTG RAYMOND T. ODIERNO, USA, FOR APPOINTMENT TO 
  THE GRADE OF GENERAL AND TO BE VICE CHIEF OF STAFF, UNITED 
                          STATES ARMY

    General Odierno. Chairman Levin, Senator Warner, and 
distinguished members of the Senate Armed Services Committee, I 
appreciate the opportunity to be here with you this morning.
    As Commander of Multi-National Corps-Iraq, I had the honor 
of speaking with many of you during a number of congressional 
visits to the Iraqi theater of operations, and I am so well 
aware of your dedicated support to our soldiers serving there, 
your faith in their outstanding abilities, and your 
understanding of the many sacrifices they and their families 
endure for the sake of their country, comrades, and loved ones. 
For all of this, I thank the members of the committee for your 
support and steadfast commitment of them.
    I am humbled and honored on my nomination to be the next 
Army Vice Chief of Staff. I serve with a tremendous sense of 
awe for the soldiers, sailors, airmen, marines, leaders, and 
families who have served alongside of me, and I am inspired by 
what they have accomplished. I am hopeful for what they will be 
able to accomplish in the years ahead. It is truly, without a 
doubt, the best army in the world. I consider myself blessed 
with the chance to continue serving in its ranks, and if 
confirmed, I will do so with the integrity, commitment, and 
drive that such a special position of trust and responsibility 
demands.
    Thank you so much for allowing me to be here today. With 
that, Mr. Chairman, I look forward to answering your questions.
    Chairman Levin. Thank you, General Odierno.
    General Sharp?

 STATEMENT OF LTG WALTER L. SHARP, USA, FOR APPOINTMENT TO THE 
 GRADE OF GENERAL AND TO BE COMMANDER, UNITED NATIONS COMMAND/
       COMBINED FORCES COMMAND/UNITED STATES FORCES KOREA

    General Sharp. Mr. Chairman, Senator Warner, distinguished 
members of this committee, I also thank you for the opportunity 
to appear here today.
    I am deeply honored to be nominated by the President and 
the Secretary of Defense for the responsibility to serve as the 
next Commander, United Nations Command; Commander, Republic of 
Korea, United States Combined Forces Command; and Commander of 
U.S. Forces Korea.
    I would also like to thank this committee for your 
continued support to our men, women, and their families who 
selflessly serve our great Nation both at home and around the 
world.
    Mr. Chairman, if confirmed, I look forward to working 
closely with this committee and its members and with our strong 
partner in the Republic of Korea during the challenges that we 
face in the months and years ahead.
    Sir, I stand by for your questions.
    Senator Warner. Mr. Chairman, would you indulge me for a 
minute?
    Accompanying General Sharp today is Mrs. Abell, the wife of 
Charlie Abell, who was a former soldier and former presidential 
appointee to DOD, and most importantly, he was the Staff 
Director of the staff of the Senate Armed Services Committee. I 
welcome you, Mrs. Abell. Please pass on the very best to your 
husband. We may have to recall him.
    Chairman Levin. Give him the good news, though, would you? 
[Laughter.]
    Let me ask you the standard questions first to each of our 
witnesses. You can respond together.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General McKiernan. No, sir.
    General Odierno. No, sir.
    General Sharp. No, sir.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Do you agree to give your personal views 
when asked before this committee to do so even if those views 
differ from the administration in power?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General McKiernan. Yes, sir.
    General Odierno. Yes, sir.
    General Sharp. Yes, sir.
    Chairman Levin. Thank you all.
    We will have a 10-minute round for our first round.
    Admiral Michael Mullen was quoted in the press yesterday as 
saying, ``Having forces in Iraq at the level that they're at 
doesn't allow us to fill the need that we have in 
Afghanistan.''
    Let me ask both General Odierno and General McKiernan. Do 
you agree with Admiral Mullen? General Odierno?
    General Odierno. Sir, what I would say initially is we do 
understand that what the Army is able and the Marine Corps are 
able to provide now is about at the level we can sustain over 
time. In order to provide additional forces, there would be 
some give and take between priorities in other contingencies. I 
think we would have to consider that as we continue to provide 
forces, if an increase in forces is necessary.
    Chairman Levin. When you say there has to be some give and 
take, in other words, you are saying, in terms of the 
allocation of forces to Iraq and Afghanistan. Is that what you 
are referring to?
    General Odierno. Yes, sir, or other contingencies as well.
    Chairman Levin. What would the other contingencies be?
    General Odierno. For example, Korea. If we would decide to 
take risk there or some other place where we might have to have 
forces available in the future. But as of today, Iraq and 
Afghanistan.
    Chairman Levin. General McKiernan, do you agree with 
Admiral Mullen?
    General McKiernan. Mr. Chairman, I do agree with Admiral 
Mullen, and the challenge is exacerbated by the current 
shortfalls in filling the combined joint statement of 
requirements by NATO.
    Chairman Levin. Now, in terms of more troops going to 
Afghanistan, is that going to be difficult to pull off if the 
force levels in Iraq are maintained at the pre-surge level of 
about 140,000 troops, General McKiernan?
    General McKiernan. Sir, I think it will continue to be a 
challenge for all the reasons that General Odierno just 
mentioned.
    Chairman Levin. What about trying to reduce the deployment 
tours from 15 months to 12 months? If all we are going to have 
is a 12-month dwell time for the Army, is that going to be 
difficult? Is that going to be possible if we are going to have 
more troops going to Afghanistan or if we keep our force level 
in Iraq at 140,000, General McKiernan?
    General McKiernan. Sir, the senior leadership I think 
unanimously agrees that 15-month deployments are too long, and 
they are not sustainable. Our goal is certainly to reduce the 
boots-on-the-ground time to 12 months and try to get eventually 
to a 1 to 2 ratio, but with the requirements as they are today, 
that is extremely hard with the size of the military we have.
    Chairman Levin. Will that be extremely hard if we keep that 
troop level in Iraq at the pre-surge level of 140,000?
    General McKiernan. I think it will be challenging, sir. I 
cannot answer whether we can get it down to 12 months.
    Chairman Levin. General McKiernan, the deployment of an 
additional 3,200 marines to Afghanistan was announced as a one-
time deal for the next 7 months. If there are no further large 
troop reductions in Iraq, will there be U.S. forces available 
to replace those marines at the end of the current 7-month 
deployment?
    General McKiernan. Sir, in terms of brigade combat teams or 
replacement for the 24th Marine Expeditionary Unit, not to my 
knowledge is there a force that can be missioned for that 
following the deployment of the marines.
    Chairman Levin. General Odierno, General Cody yesterday 
testified before our Readiness and Management Support 
Subcommittee that the ongoing deployments are inflicting 
``incredible stress on soldiers and families,'' and in his 
words, ``pose a significant risk to the All-Volunteer Army.'' 
He said also that he has never seen our lack of strategic depth 
to be where it is today.
    Do you agree with General Cody?
    General Odierno. What I would say is I have had a chance to 
experience this in my most recent assignment, first as the 
Multi-National Corps-Iraq Commander and also as III Corps 
Commander as a force provider, that we are, in fact, out of 
balance. What I have seen as the Commander, Multi-National 
Corps-Iraq is that we receive forces that are, in fact, well 
trained, equipped, and at the proper levels, but as the III 
Corps Commander, I also see that the forces that are left 
behind do not have all the equipment they need. They do not 
have the people they need to help to respond to other 
contingencies. So there is a stress there on the force that is 
fairly consistent.
    Chairman Levin. Fairly consistent. What does that mean? You 
mean fairly heavy?
    General Odierno. Fairly heavy, yes, sir.
    I would also say that one of the hardest recommendations I 
had to make as the Multi-National Corps-Iraq Commander was the 
extension of the surge forces that I knew would lead to 15-
month tours in Iraq as I made that recommendation up my chain 
of command. I realized that, in fact, 12 months is our goal and 
12 months is what we need to try to get to in order to have a 
viable, sustainable Army over the long-term. We have to 
continually work to move towards that. There are a number of 
ways we can do that, by reducing the requirements and also to 
continue to grow the Army, that it gives us the additional 
forces in order to continue to meet the needs of our national 
security.
    Chairman Levin. General Odierno, when these recent events 
took place in Basra, I think you were already gone, but I think 
you have enough background and you were close enough to it to 
perhaps be able to answer this question. Do you know whether or 
not Prime Minister Maliki took the steps that he took in Basra 
after consultation with the U.S. Army?
    General Odierno. Mr. Chairman, I do not know for sure. I 
really only know about the reports that we both have probably 
read in the newspapers. I have not talked to any of the leaders 
there to know, in fact, if he did operate independently without 
consultation or not.
    Chairman Levin. Do you think it would have been wise for 
him to consult with us prior to his venture into Basra, if in 
fact he did not?
    General Odierno. Yes, I think it is important, the 
partnership with us working these issues. First, it is a 
positive step that we want to try to deal against these 
nongovernmental groups, militias. That is a very important 
piece. But it is also important with the partnership that we 
have full consultation as we conduct operations within Iraq.
    Chairman Levin. That consultation take place sufficiently 
prior to the action on his part so that he can consider 
whatever advice we give him?
    General Odierno. Yes, it should. We should be part of that 
process.
    Chairman Levin. General Odierno, do you think it is useful 
to keep pressure on the Iraqi political leaders to reach 
political settlements on the outstanding key issues?
    General Odierno. I think it is important. As I have stated 
before, Mr. Chairman, we have security at a certain level now. 
In order to continue to improve the security in Iraq, it not 
only takes the use of continued military forces, but also 
improvement in economic, political, and basic services, and it 
is important that the Government of Iraq and its leaders step 
up and continue to work these very significant issues to the 
Iraqi people themselves. I believe by doing this, it would 
continue to reduce the passive support for any insurgent forces 
or militias that are left within Iraq.
    Chairman Levin. Do you think it is useful for us to remind 
them of the importance of their doing that?
    General Odierno. I think it is always important to do that, 
Mr. Chairman.
    Chairman Levin. General McKiernan, I want to discuss the 
drug issue in Afghanistan with you. Senator Warner has laid out 
the problem, and that problem is real and apparently growing.
    Part of the solution relates to going after the labs that 
produce these drugs. The small farmers are looking for small 
amounts of money that they get, which is more than they are 
able to get from other crops, and we obviously want to try to 
work with them to substitute crops. But the big money is made 
by the people who run these laboratories, the higher-ups, and 
we have not gone after the labs. There have been some rumors 
that some of these labs are off limits because of some kind of 
political connections with leaders in Kabul.
    I am wondering whether you are willing to look at that 
issue to report to us whether or not there is any reluctance, 
restraint, or restriction on our forces in terms of going after 
those labs where most of the problem resides and where most of 
the money is being produced? Would you make an independent 
assessment of that and give us your assessment as to whether 
there is any truth to the fact that there is some reluctance or 
restraint upon our forces, the Afghan forces or any other 
forces in terms of shutting down those labs?
    General McKiernan. Mr. Chairman, I can assure you, if 
confirmed, I will certainly make that assessment and provide 
that information back to this committee. I share your concern 
and Senator Warner's concern that this problem is a problem for 
the international community. It is a problem for Afghanistan. 
ISAF has a mandate to provide certain support to the Afghan 
Government to work the counternarcotics problem, and if we have 
actionable intelligence of opium labs, I certainly think that 
should be part of the ISAF mandate. I will make that assessment 
and come back to this committee.
    Chairman Levin. That is very important that you do that, 
and we are counting on you to do that. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman, I would like to accommodate 
our colleague from Texas, as I will be here with you until the 
conclusion of the hearing.
    Chairman Levin. I am happy to do that.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman, and Senator 
Warner, I appreciate your usual courtesy.
    Gentlemen, thank you for being here today. Again, let me 
reiterate what we have all said, but we cannot say enough. 
Thank you for your service to our country and the people that 
serve under your command. We are in their debt.
    I wanted to ask two lines of questions. First, General 
McKiernan, perhaps as Commander of U.S. Army Forces in Europe, 
you would be able to comment on a story that appeared today in 
the New York Times where the President had secured the backing 
of NATO for a robust missile defense system. NATO leaders 
adopted a communique saying that ballistic missile 
proliferation poses an increasing threat to allied forces' 
territory and populations. It will also recognize the 
substantial contribution to the protection of allies to be 
provided by the U.S.-led system, according to senior officials 
who spoke on condition of anonymity ahead of the statement's 
release.
    First, do you agree that ballistic missile proliferation 
poses a threat to the United States, as well as our allies?
    General McKiernan. Sir, I certainly agree with that 
statement. I have not worked personally with the theater 
missile defense question in Europe to any great degree. So I am 
not familiar with too many of the specifics about that. But the 
threat is certainly there.
    Senator Cornyn. I appreciate that very much.
    General Odierno, let me ask you. We talked briefly about 
this in my office when you were kind enough to drop by. Welcome 
back to the United States.
    General Odierno. Thank you, sir.
    Senator Cornyn. Thank you for your service in the III Corps 
and Fort Hood, as well as Commander of Multi-National Forces in 
Iraq.
    I asked you in my office, when you were kind enough to come 
by about the Iraqi assault on Basra, how you viewed that. I 
mentioned to you that while there is some indication in the New 
York Times today that the Iraqis did not necessarily consult 
with their American allies, that it actually, to my perception, 
demonstrated the sort of acceptance of responsibility and an 
Iraqi initiative against these Iranian-backed militias that 
could be viewed as a positive development, while we recognize 
they were not able to handle this independently and required 
U.S. support, which is frankly not a surprise.
    Could you tell me whether you believe that this sort of 
initiative against Iranian-backed militias, euphemistically 
called ``special groups,'' is a positive or a negative?
    General Odierno. If I could just say as the conflict in 
Iraq continues to evolve, it changes over time. Although there 
is still terrorism and insurgency, it is much less than it was. 
The bigger threat is the communal struggle for power which in 
my view is being fueled by Iranian support to the special 
groups. One of the things that will have to be tackled is these 
militias that are equipped, funded, and trained by either 
Iran's Quds Force or Iranian surrogates within Iraq.
    The Government of Iraq stepping up to take action against 
these groups in my mind is an important step of eliminating 
these nongovernmental security organizations that are trying to 
sustain control over the population. So I think for that, it is 
a very important step forward. Obviously, we would much rather 
be able to resolve these through reconciliation and peaceful 
ways instead of having to use force. In that way, I think it is 
a positive step forward.
    Senator Cornyn. Prime Minister Maliki called these militias 
criminals and gang leaders. Would you agree or disagree with 
his comments?
    General Odierno. I think there is a mixture. I think as we 
continue to analyze the threat, there are some that I believe 
are clearly Iranian surrogates that have a very specific 
purpose to destabilize the Government of Iraq because Iran 
thinks a weak Government of Iraq is in their best interest. 
Then there are criminals that are out there that, in fact, are 
thugs, have organized crime, and are flat-out criminals trying 
to extort money from the population. So it is a mixture of 
both.
    Senator Cornyn. I have just two more questions for you, 
General Odierno.
    First of all, let me just quote the words of President John 
F. Kennedy who once remarked that ``the cost of freedom is 
always high, but Americans have always paid it. One path we 
shall never choose and that is a path of surrender or 
submission.''
    There are some who suggest that the cost of the war in Iraq 
is too high, and that we should spend the money that we are 
spending supporting the troops and on ongoing operations in 
Iraq on other things here domestically. But as a military 
leader, without commenting maybe on the specifics, I would like 
for you to comment on how you view the cost of protecting our 
freedom and that of our allies and whether you feel like we can 
put a cost/benefit analysis on that from a strictly financial 
point of view.
    General Odierno. Senator Cornyn, first of all, I want to 
make sure it is clear that I understand the costs involved, the 
cost monetarily, but more importantly to me, the costs in lives 
of our soldiers, sailors, airmen, and marines, as well as those 
who have been wounded and who will forever have a scar to bear 
because of this war and will never forget their sacrifices.
    But it is always difficult to put a price tag on what I 
believe to be the security of our Nation. I do believe that the 
Middle East is an extremely important place for us to ensure 
that we maintain the security of our country. I will leave it 
at that, sir.
    Senator Cornyn. My last question really has to do with 
that. I think there are some who have suggested that what we 
are doing in Iraq is irrelevant to our security here on the 
mainland of the United States. What is your opinion?
    General Odierno. I would say that Iraq is an important 
place, as well as Afghanistan, in the Middle East. The Middle 
East is a place that we all know there has been a lot of 
violence over the last several years. It has created violence 
around the entire world. I think it is important for us to 
establish what I believe to be a self-reliant government that 
is stable, that is committed to governance representing all its 
people, denied as a safe haven for terrorists, and integrated 
into the national community as an engine of security and 
economic development. I believe establishing a strategic 
partnership within the Middle East with these countries is 
extremely important for the security of the United States.
    Senator Cornyn. Thank you very much, each of you, and good 
luck. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    General McKiernan, when I look back on the history of the 
United States' participation in terms of operating as a part of 
a coalition force, we certainly did it in France. We did it in 
World War II. We did it in Korea, as a matter of fact.
    NATO evolved out of that concept of coalition forces 
operating together. It took a long time before NATO realized 
that it had to expand its authority to what we term ``out-of-
area operations.'' You know the history of that as well as I 
do. Europe had certainly a comparative period of stability that 
enabled NATO to take on these out-of-area operations.
    The first was the Balkans, and I believe on the whole that 
the record of NATO's performance there was quite good. It 
continues to some extent.
    But this question in Afghanistan has not worked as we had 
all hoped. I am wondering if you would join me in saying that 
if we do not succeed--I do not call it winning and victory, but 
just succeed with the basic goals of enabling the Afghan 
government to establish a democratic form of government. They 
have it in framework now and they are trying to work the pieces 
together.
    As a matter of fact, in my last trip over there, they just 
finished putting the legislature together. I remember President 
Karzai grumbling about the insubordinate members of their 
legislature. Do you recall that, Senator?
    Chairman Levin. I do and it reminded me of home.
    Senator Warner. Yes, yes, it did.
    But I fear that if NATO does not enable this country to 
succeed in its goals, that the commitment of the nations of the 
world to continue NATO will be truly tested. Or to put it in a 
blunt way, this could end up with the demise of NATO as we have 
known it these many years, a half century.
    Where do you rank the seriousness of attaining the goals in 
Afghanistan in relation to the continuation of NATO?
    General McKiernan. First of all, I share your sentiments. I 
think that the success of the NATO mission of ISAF in 
Afghanistan is directly linked really to the relevancy of NATO 
as a global security means in the 21st century. As you know, 
sir, I served in the NATO headquarters in the early days in the 
Balkans, and I think NATO was successful and continues to be 
successful in the Balkans, specifically Kosovo, today.
    I think there is certainly the capacity and the capability 
for NATO to succeed in Afghanistan. However, there is a 
question of will in terms of getting all the right 
contributions so that we build the right capacity to execute 
the mission.
    Senator Warner. I would go so far as to say that that will, 
which you properly and carefully pointed out, is not among the 
uniformed persons of NATO. It, frankly, resides in the several 
governments that train, equip, and send those troops to NATO. I 
am not about to open up all the chapters of European history, 
but frankly, their legislatures, the heads of state and 
government of many of the European nations simply are not able. 
They may well have the will, the heads of those governments, 
but the legislatures, for whatever reason, are not giving those 
heads of State and governments the type of support they need.
    I think, from time to time, some of us have to sound the 
alarm because while NATO is the most extraordinary and the most 
successful military alliance in the history of mankind in my 
judgment, there could well be a reexamination of the very 
significant participation, about 25 percent, of this Nation in 
NATO.
    I can remember--and I am sure the chairman can remember, if 
you will listen to what I am saying here, when we were young 
Senators, I can recall going to the floor to defend NATO. There 
were some of our most distinguished colleagues questioning the 
continuation of NATO at a great cost to the American people and 
the major portions of our military. I will not name the names, 
but it is in the record if anybody wants to look at it. They 
said NATO has finished its mission. Europe is secure and it is 
time that we redirected those expenditures and those forces to 
other requirements of the United States.
    So maybe out of this hearing can come some little message 
to NATO. They are not there forever. They are there only so 
long as they can perform and achieve the goals that we have 
assigned to them. I say ``we.'' I mean collectively the 25 
member nations.
    Unless you have a comment, I will move to another question. 
Do you basically endorse what I had to say?
    General McKiernan. I do, Senator Warner.
    Senator Warner. Thank you.
    General Odierno, another great institution we have is the 
All-Volunteer Force, and some of us are getting somewhat 
concerned about the absolute necessity of the Army to begin to 
somewhat lower the requirements of those recruits coming in to 
meet the needs as established by quotas. I for one--and I would 
state it right here--would rather have a smaller Army composed 
of the right people who can continue to preserve the concept of 
the All-Volunteer Force than to begin to bring in people that 
fall considerably below the standards that we have been able to 
maintain for this Army and the other military forces, the Navy, 
the Air Force, and the Marine Corps, these many years.
    First, your own view about the All-Volunteer Force.
    General Odierno. Senator Warner, first, I think it is 
critical that we continue to maintain an All-Volunteer Force. I 
think it has proven over time the quality of the force that we 
have been able to put together and the dedication of the 
soldiers, sailors, airmen, and marines that are a part of it 
and how they have been able to perform over, specifically here 
recently, the last 7 years. I think it is important that we 
want to maintain that for the long term, sir.
    Senator Warner. I can just speak for myself. You will 
recall in World War II, the draft was adopted by Congress by 
one vote. Today, I do not think Congress would consider, under 
the current circumstances and the commitments we have abroad 
now, any concept of returning to compulsive military training, 
be it a draft or some other concoction that we might come up 
with. That is not going to be the case.
    That puts a special responsibility on your shoulders. You 
are a trustee of that Army. You are not just the Vice Chief. 
The long-term view of what you are doing today is going to 
shape that Army of tomorrow and the future. I, frankly, urge 
you to make certain that whatever requirements you have to 
readjust, let us say, in terms of recruiting will not result in 
any risk to the All-Volunteer Force or bring the perception and 
quality of the Army down.
    After all, the concept of military training, military 
operations is very simple. It is dependent on the person that 
you are working with. You call it an ``Army of One,'' which is 
quite a good slogan, but it is really in that foxhole. One 
sleeps while the other is on duty. Aboard ship, some sleep 
while the others are on duty. You are dependent on your fellow 
soldiers, sailors, airmen, and marines to do their duties at 
such times as you may have to get the needed rest that you need 
to carry out. If you begin to put into that foxhole people who 
cannot establish that mutual trust and bond, I think you will 
see this thing getting worse. It is a problem.
    How would you judge the morale of the Army today? It is 
really interesting, the quotes of Eisenhower and George 
Marshall. I love history. Marshall said morale is a state of 
mind. It is steadfastness and courage and hope. It is 
confidence and zeal and loyalty. Eisenhower once said in war 
morale is everything. After 6 years of now conflict, what is 
your judgment as to the morale of the United States Army?
    General Odierno. I would just comment, Senator Warner, that 
over the last 15, 16, 17 months, as I have observed up close 
and personal the performance of all our servicemembers of all 
the Services in Iraq, their dedication, their steadfast 
commitment, their loyalty to their mission, and their 
dedication to complete their mission has never wavered. We can 
talk a lot about how you show morale, but how you show it is 
doing your job every single day without hesitation, the fact 
that you want to follow your leaders, the fact that you will do 
anything for your teammates, the person to your right, the 
person to your left, under very difficult conditions. We 
witness that every single day.
    I used to tell people when I was the corps commander over 
there that when I was feeling bad or I thought I was down, the 
first thing I would do is go visit our soldiers or our marines.
    Senator Warner. That would build you back up.
    General Odierno. It built me back up when I had a chance to 
hang out with them because of their dedication and loyalty.
    Senator Warner. Let me close out here on my time. We have 
talked this morning about the necessity to go from the 15-month 
to the 12-month tour. To what extent can you say now your level 
of confidence that we can achieve that transition from 15 to 12 
by early this summer?
    General Odierno. Senator, I am going to leave that to 
others to make that determination, but I would just say that--
--
    Senator Warner. Well, you will be a part of that 
decisionmaking.
    General Odierno. I will.
    I would just say our goal is to get down to 12-month tours 
as soon as we possibly can. We fully realize that 12-month 
tours is the maximum length that we should have our tours, and 
so our goal is to push that as fast as we possibly can.
    Senator Warner. Good.
    General McKiernan, back to the drug problem in Afghanistan. 
We have had programs here in American agriculture where we put 
land into retirement and pay farmers a certain amount of money 
for keeping it in retirement.
    Now, it seems to me that we could establish sort of a delta 
between what that farmer is getting for an opium crop and what 
he would get for another crop which is less cash, and we would 
just go in there and subsidize the difference between those two 
crops. If you look at the dollars involved, it is nickels and 
dimes compared to the overall value of that crop as it begins 
to move up and eventually is dispersed, a lot of it, into 
Europe.
    I cannot understand why Europe does not see this 
Afghanistan operation as central to their security not only 
from the standpoint of a breeding ground for terrorism, but 
also the drugs that are infiltrating into Europe.
    Start with some very simple program. Stop the poppies. Try 
turnips, whatever, potatoes. Whatever you get for that crop of 
potatoes, if it is less than the poppy crop, here is the cash. 
If we can choke it off right there in the field, I think we 
could make some progress.
    I do not feel that we should do the spraying because I have 
done some agriculture myself. That could result in working to 
the detriment of the water supply for human consumption if you 
put that much spray around in some of those provinces.
    I just think we ought to come up with some innovative 
ideas, and I am ensured by our discussions together and your 
testimony this morning you are going to devote your time to it. 
But as one old farmer who lost a lot of money farming, I can 
tell that is one way to get at it. Retire that land or pay them 
the delta between the crops.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Thune.
    Senator Warner. There is a man down there that understands 
agriculture, Mr. Chairman.
    Senator Thune. Not tobacco farming, however, Senator.
    Thank you, Mr. Chairman. I would like to associate myself 
with the remarks of the Senator from Virginia.
    Senator Warner. We had a lot of peanuts, and you have eaten 
those.
    Senator Thune. That is exactly right.
    But I do want to associate myself with the comments from 
the Senator from Virginia with regard to NATO. NATO is a club 
that everybody wants to be in but nobody wants to do the work. 
The numbers keep getting larger. We keep adding member nations 
to that organization, but its effectiveness I think is very 
much in question if we are not able to step up to some of the 
challenges we face around the world, particularly in places 
like Afghanistan.
    General McKiernan, General Odierno, and General Sharp, 
thank you. Each of you has had incredibly impressive and 
distinguished careers, and we thank you for your service to the 
country. Each of you has spent a long time overseas in support 
of your country, and we thank you for your and your families' 
sacrifice. We appreciate everything you do for our country's 
freedoms.
    General McKiernan, you stated in your response to the 
committee's advance policy questions that some of the 
challenges that you will face as Commander of ISAF are under-
resourcing and constrained forces. You also go on to state that 
fully resourcing military requirements and removing remaining 
caveats will be a major focus, and that we should look closely 
at options for deploying additional brigade combat teams to 
Afghanistan.
    How many more brigade combat teams do you anticipate you 
will need to continue the mission?
    General McKiernan. Sir, if confirmed, I would need to be on 
the ground to make an assessment for specific numbers, but 
again, it is a fact that the requirements stated by current 
commanders there in Afghanistan--that those requirements have 
not been filled through the NATO force generation process. So 
specific numbers of brigades or other military capabilities--I 
cannot give you the exact numbers today. It would be part of an 
assessment I would need to make. But we certainly need to build 
more capacity not just in the military line of operation, but 
also in the developmental and governance lines of operation. 
There is more capacity that has to be built there in 
Afghanistan.
    Senator Thune. What else do you anticipate requesting that 
has not already been identified, if confirmed in the position?
    General McKiernan. Senator, I am not sure if there is 
anything besides what has already been identified, but what has 
already been identified, as you correctly state, is more than 
just ground combat capability, but it is also more aviation, 
more intelligence, surveillance, and reconnaissance capability, 
additional operational mentoring and liaison teams, Provincial 
Reconstruction Teams, et cetera. So those requirements that are 
already validated and are waiting to be filled I think is the 
starting point.
    Senator Thune. You also stated that there have been recent 
reductions in the number and severity of caveats with regard to 
some of our NATO allies in Afghanistan. Could you describe in 
more detail what those reductions are?
    General McKiernan. I really do not think there necessarily 
have been reductions in caveats. I think what I meant to say in 
that statement, if I did not, is that we need to continue to 
work to remove caveats because what they end up ultimately 
doing is degrading NATO's advantages in terms of mobility, fire 
power, sustainment, and intelligence. We have to, I think, work 
to continue to remove those caveats.
    Senator Thune. Are some of the caveats worse than others?
    General McKiernan. I think so. Certainly military 
contributions that are precluded really from conducting combat 
operations make it very difficult for those same forces to be 
effective in a counterinsurgency environment.
    Senator Thune. General Odierno, General Casey has argued 
that we are in an era of persistent conflict. Assuming that he 
is correct, do you see any utility to the concept of standing 
provincial reconstruction teams, in other words, teams that are 
ready to deploy on a moment's notice?
    General Odierno. One of the recommendations I made coming 
out of Iraq was that we should take a look at how we might do 
that so they can be deployable, no notice, as we continue to 
look at potential contingencies in the future because I believe 
with any contingency we might run into, it would be important 
for us to immediately be able to have an interagency team on 
the ground to help us work the socioeconomic, political issues 
that ultimately are linked to operations.
    Senator Thune. What about standing operational mentor teams 
or standing embedded training teams? Is that something you 
foresee?
    General Odierno. The one thing I would say is what I want 
is the Army has centered around brigade combat teams, and I 
believe our brigade combat teams we want to be full spectrum in 
nature where they can accomplish a variety of missions. It is 
important for us to do that to get the efficiency out of our 
Army. So in order to get the efficiency out of our Army, what 
we want is units that can do a number of things. I think 
through task organization and other kinds of things, they can 
conduct those type of operations as well as combat operations. 
We want that flexibility within our force so we get the most 
out of our leaders and our soldiers.
    Senator Thune. General Sharp, one of the questions that was 
posed to you by the committee in its advance policy questions 
regarded the missile defense systems and capabilities that you 
believe are needed to meet the operational needs of U.S. Forces 
Korea and Combined Forces Command. That is, I think, on page 6 
of your advance policy questions responses. You responded that 
among other things, continued development of the airborne laser 
is needed to provide the layered, systematic missile defense 
capability required to protect critical United States 
facilities in the Republic of Korea.
    Could you expand a little bit further on why you believe 
development of the airborne laser is needed to meet the 
operational needs of U.S. Forces Korea?
    General Sharp. Sir, I think as you look across the entire 
missile defense spectrum, you have to have a layered defense 
that starts from space and works all the way down to Aegis and 
other ground-based systems to intercept the missiles. I believe 
the airborne laser is a critical part of that ballistic missile 
enterprise to be able to allow for that effective defense.
    Senator Thune. Looking at the readiness challenge, what do 
you see as the major challenge to readiness? Are the challenges 
with personnel, equipment, or training, and given events in 
Iraq and Afghanistan, are we resourcing our forces in Korea 
correctly?
    General Sharp. Sir, the forces that are in Korea today, the 
U.S. forces that are there today, are properly trained and 
equipped to be able to accomplish the task and the mission that 
we have working with our Republic of Korea allies to defend the 
peninsula. Likewise, the Republic of Korea forces are also very 
well trained and very well equipped. They are an outstanding 
military, and they are also prepared to defend the Republic of 
Korea.
    The forces that we would deploy from the United States, if 
we had to go do that conflict today, are not as well trained, 
as General Casey has said, because they are training on the 
missions that they have to do in Iraq and Afghanistan. They are 
counter-insurgency experts of the world. But we are confident 
that we would be able to deploy those forces and we would be 
able to win in the Republic of Korea with our Republic of Korea 
allies.
    One other point I would like to make. Because of the amount 
of Reserve Forces that we have deployed to Iraq and 
Afghanistan, Reserve and National Guard, I personally believe 
right now they are the best trained that they have ever been 
trained because we have used them in combat environments. They 
would be also a key component of any conflict in Korea.
    Senator Thune. Do you have any major concerns with 
transferring wartime OPCON to the Republic of Korea?
    General Sharp. General Bell has worked very closely with 
our allies, and I believe that he has an excellent plan of 
exercises. He has an excellent plan working with the Republic 
of Korea to make sure that they have the capabilities that they 
need from surveillance to command and control to the ability to 
be able to, at a high level, command the fight. I am confident 
that by 2012, which is the currently agreed upon time to 
transfer, we will be ready and the Koreans will be ready to 
take control of that fight.
    Senator Thune. Thank you all very much and thanks again for 
your service. We look forward to a speedy confirmation process, 
and godspeed in your new endeavors. Thank you for what you do.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I came at the beginning of this and then left and went to 
the floor and talked for 30 minutes, having just come back 3 
days ago from Iraq and from Africa, giving my assessment of it. 
This was my 18th trip into that theater. So I do not think I am 
going to ask you what you have already been asked before 
because my staff has kind of gone over some of the interests 
that I had.
    I would like to start off with General McKiernan--and I 
appreciate your coming by so we had a chance to visit before 
this meeting. A lot of reports claim that the insurgency is 
growing in Afghanistan and that the security situation is 
deteriorating. However, in December, General McNeil said--and I 
was there at that time in December--``My view of the security 
situation is that it is not deteriorating like other people 
say. It is showing exactly what it is. There is insurgency 
here. There is a strong international and indigenous force 
going after it, and you are going to have contacts.'' Do you 
generally agree with that statement?
    General McKiernan. I do generally agree with that, sir. I 
think there are certainly no signs that the insurgency is ready 
to collapse, and I believe that the environment there in 
Afghanistan today reflects an interlinkage between the 
insurgency, terrorism, corruption at various levels, and 
criminal activity. I think all of those have to be factored 
into the approach that ISAF takes in the mission.
    Senator Inhofe. When you say the criminal activity, it is 
my observation that one of the differences between Iraq and 
Afghanistan is that there is just no central authority there. 
Afghanistan is kind of a convoluted grouping of cities and 
local administrations, and there is a lot of corruption there 
and there is no central place where you can really attack this. 
Is that accurate?
    General McKiernan. I would agree that the history of 
Afghanistan is really a history of local autonomy. So a strong 
central government is not exactly the historical trend in 
Afghanistan.
    Senator Inhofe. Does that not create a problem, though? You 
do not have a strong Federal Government where you can go to one 
place as opposed to trying to work around the edges.
    General McKiernan. I think it is part of the challenge. The 
challenge is not only building capacity and coherence between 
governance development and security. But it is developing 
institutions that were not there previously.
    Senator Inhofe. A few months ago I was privileged to go 
with General Jones. It was his last trip there. That is 
essentially the assessment that he had of the situation.
    When I was over there 3 days ago, I met with your 
replacement at the Multi-National Corps, General Austin, and we 
talked about the recent violence down in Basra. I know you have 
already talked about this before I came in. But we were down at 
Buka, which is right next to Basra, and we had talked to an 
awful lot of people, even a lot of the troops on the ground. 
The response that Prime Minister Maliki had down there and the 
fact that he took a level of control I thought was good, but 
some people are criticizing the fact that he was the one who 
went down and did it and he did not do the job properly.
    What is your assessment of what he did on that crackdown in 
Basra?
    General Odierno. Sir, I would just say again, as I said 
earlier, the communal struggle for power is growing more and 
more within Iraq. We still have some terrorism and insurgency. 
But it is about Shia-on-Shia violence. It is about those 
nongovernmental entities that are trying to exert their 
influence. Some of them are Iranian-supported and backed by 
funding, weapons, and equipment from Iran. It is important that 
the government understands that they have to take action 
against these groups in order for the governmental entities, 
the police force, the army, and others, to be the ones who in 
fact provide security. So from that aspect, I think it is 
important that they understand this problem and they understand 
that action has to be taken.
    Having not been there, I am not sure what the level of 
coordination was that went on, but I do believe it is a 
partnership and we should do all of these things as partners.
    Senator Inhofe. Yes. It appeared that that is the first 
time they really did take the initiative. At least, it seemed 
that way to me.
    Just for a minute--I was talking about this on the floor a 
minute ago--the Iranian threat that is over there. Back when 
there were a lot of resolutions about leaving, it got a lot of 
attention there. About that time, Ahmadinejad made the 
statement that when we leave--at that time, he was convinced 
that we would leave and that would create a vacuum and he would 
be able to fill that vacuum. I agree that he would like to do 
it.
    But what would the Iraqi people's response be if they were 
to look at the Iranians coming in and filling that vacuum?
    General Odierno. My assessment is that I believe the Iraqi 
people, the large, large, large majority, are very 
nationalistic, and they want Iraqis to solve Iraqi problems. 
They do not want interference from Iran and want them filling 
any vacuums. So I believe, for the most part, the Iraqis want 
to be involved in the solutions.
    I would just say that I get some concern because you could 
make the argument that, in fact, through some of the Iranian 
support that goes on in Iraq, they are creating the 
instability. Then they are saying they want to come in and fill 
the vacuum to correct the instability. So I think we have to 
make sure we understand that very carefully, and I think we 
have to watch that extremely carefully.
    Senator Inhofe. It was not too many years ago that they 
were launching missiles back and forth on each other, killing 
hundreds of thousands of people.
    I heard Senator Thune talking to you, General Sharp, a 
little bit about some of the things that were going on over 
there in terms of Korea and Korea's capability. I have always 
been concerned about their capability. I always remember, 
because I was on this committee, and I remember in August 1998 
when we were trying to get an assessment. We had come out with 
our assessment at that time--that was 1998--as to how long 
would it be until the North Koreans would have a multistage 
rocket that could reach the United States, and they came back. 
I have the documentation. It was around 12 to 15 years. That 
was on August 24, 1998. On August 31, 7 days later, they fired 
one.
    I say that because how comfortable are you and our 
intelligence as to exactly what capability they have and what 
they are going to do with it.
    General Sharp. Sir, we are never comfortable that we have 
enough intelligence. They do continue to surprise us. That is 
why we and the Koreans need robust capability in order to be 
able to defend that peninsula. You have seen--and I think we 
have fairly good evidence--that we do believe there is enough 
plutonium that they could have and probably have created some 
nuclear weapons that are in North Korea right now.
    In a closed session, we could go into more details of 
exactly what we do know and where we think we have holes in 
that intelligence. But there are holes, and as I said, we need 
to make sure that we, the United States and the Republic of 
Korea, are prepared to win that conflict, which I do believe we 
are today, but it requires the continued commitment of all of 
us and the Koreans.
    Senator Inhofe. The other day in a subcommittee hearing, I 
commented that I did not think they were making the progress 
they should be making with the Czech Republic and Poland. I 
found out later that it appears that they are making great 
progress right now, and I am glad I was wrong.
    Finally, General Sharp, several of the programs that I have 
really pushed hard are the 1206, 1207, 1208, 1210 train and 
equip programs and the International Military Education and 
Training (IMET) programs. In fact, it was our attitude up till 
the last reauthorization bill that when we invite people to 
come over--and I do not think there is anything that solidifies 
for the future better relations for their officers, whatever 
the country is, Africa or anyplace else, to be training with 
ours. I think the IMET program has been very successful.
    But we had the attitude that we are doing them a favor when 
we do that, and that is because we had this restriction that 
you cannot come over unless they sign an Article 98. I put 
language in last time with the argument that they are doing us 
a favor more than we are doing them a favor because if they are 
not over here training with us, there is always the Chinese and 
others who would like to get their hands on them and 
participate in that kind of training activity. So we have taken 
away that requirement.
    Lastly, we want to increase that program.
    What is your feeling about that program and the success of 
it?
    General Sharp. Sir, thanks to your leadership, I agree 
completely with the way you are going. I think it is critical 
for us and really for the world. One of the critical things 
that came out of the findings of the last Quadrennial Defense 
Review was that we really need to build partnership capacity 
around the world. We are no longer having programs just to give 
money away to buy friends. We need to have programs so that 
militaries around the world are prepared, capable, and willing 
to be able to go and help in all types of conflicts from 
peacekeeping operations to what we are doing in Iraq and 
Afghanistan today. The programs that you mentioned are critical 
to that.
    IMET is critical specifically because of its ability to be 
able to fund military officers and noncommissioned officers to 
be able to come to the United States to go to our schools so 
that we can learn from each other and to be able to better 
interoperate in present and future conflicts.
    Sir, I thank you for your leadership.
    Senator Inhofe. Those relationships endure.
    Do you agree generally with what General Sharp is saying?
    General McKiernan. I do, sir, absolutely.
    Senator Inhofe. The last thing I would say--my time has 
expired--would be on the Commanders Emergency Relief Program 
(CERP) which we have been wanting to expand both in the funding 
level as well as the geographic level, to be able to get other 
places. Would each one of you agree that that is a good idea?
    General Sharp. Absolutely.
    General Odierno. If I could, sir. I would just say it 
becomes even more important as we look at the reduction of our 
forces, that in fact the use of our money in order to move 
forward, as I talked earlier about continued economic 
revitalization of basic services becomes more important. So the 
money that the commanders have to do that becomes an important 
tool.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. I get to walk in 
and ask questions. That is great.
    To all of you, thank you for your service.
    General Odierno, congratulations on what I think is going 
to be seen in history as a very eventful tour of duty regarding 
the last year.
    The one thing that I have on my mind is this tension we 
have with the pressure on the Army and the outcome in Iraq. 
From a morale point of view, I know that the force has been 
strained, but generally speaking, how does the force feel, from 
your point of view as a commander, about the operations and the 
reasons we are there?
    General Odierno. What I would say first is, again, I judge 
morale on how soldiers, marines, and others perform on the 
ground, and every day that they are there, they are dedicated 
to doing their job. They are dedicated to protecting each 
other. I would say that over the last 12 months for sure, that 
they really have seen some viable progress going on inside of 
Iraq, and they understand that, in fact, that progress has been 
made. They feel that they can continue to make that progress.
    Senator Graham. Regarding Iran, as I understand Iraq in the 
last year, Anbar Province has substantially changed for the 
better. Is that correct?
    General Odierno. Yes, Senator.
    Senator Graham. The awakening, as it is being called, the 
Sunni Awakening--I think the event that started it was a sheik 
came to a colonel and said, I have had it with these al Qaeda 
guys. I am ready to help you. Is that generally what happened?
    General Odierno. Much communication. That is correct, sir.
    Senator Graham. The colonel, pretty much on his own 
initiative, said, okay, we are going to put a tank in front of 
your house.
    General Odierno. That is pretty close, sir.
    Senator Graham. The point is that you had al Qaeda 
overplaying their hand, driving the population toward us, and 
the reaction of the colonel was to provide that individual 
better security, to reinforce his willingness to fight al 
Qaeda. Is that correct?
    General Odierno. It is, sir.
    Senator Graham. That general model was used in Anbar that 
we would increase military capacity and try to peel people away 
from al Qaeda. From that, we have gotten now what is called the 
Sons of Iraq. Is that correct?
    General Odierno. Yes, sir.
    Senator Graham. Tell me how the Sons of Iraq has changed 
things in Anbar?
    General Odierno. First, I would say, again, people are 
willing to come forward and looking for security, rejecting al 
Qaeda. The change that occurred was the rejection of al Qaeda 
throughout Iraq, starting in Anbar, the elimination of the 
passive support that al Qaeda had for a long time. What I mean 
by passive support is not that you supported them, but you did 
not do anything to help us to get after them. That changed. 
Like you said, they got tired of how al Qaeda was treating them 
and rejected their ideologies and what they stood for.
    So what happened was once they were able to get security 
provided to them and they came to the coalition forces to help, 
once we continued to provide security for them, they then 
continued to come forward more and more and they wanted to be 
part of the process of going after al Qaeda in Anbar Province.
    Senator Graham. Would you say there is a direct link 
between our willingness to reinforce and provide security to 
Anbar Province and the population's boldness to say no to al 
Qaeda?
    General Odierno. As we became more aggressive in what I 
call liberating the major cities in Anbar, finishing with 
Ramadi in March/April 2007, they started to come more and more 
forward. One of the key components, as we asked for additional 
forces, was the addition of two Marine battalions that we would 
put in Anbar so we could control the Euphrates River Valley and 
all of the population centers along the Euphrates River Valley 
in order to exploit the success that had begun by this action 
you talked about.
    Senator Graham. Let us talk about Baghdad. The strategy in 
Baghdad, as I understand it, was to get troops out into joint 
security stations, out behind the walls into neighborhoods. Is 
that correct?
    General Odierno. It is, Senator.
    Senator Graham. Can you tell us about a joint security 
station? Why such a thing exists, and how that has affected the 
battle in Baghdad?
    General Odierno. Not only was it additional forces but it 
was our change in strategy to get our forces among the 
population to create confidence between the population and 
security forces.
    The joint security stations were established so we could 
have a place where coalition forces, Iraqi Army, and Iraqi 
police would operate together, would operate among the 
population. So they felt more secure so they could come forward 
with information, feel more secure about opening shops, feel 
more secure about their daily lives, and then also build 
confidence between Iraqis and their own security forces, 
confidence with their own police and their own army over time.
    It also developed better relationships between coalition 
forces and the Iraqi population because on a daily basis, they 
would interact with each other, and it made a very significant 
difference as we continued to move forward in Baghdad.
    Senator Graham. Now, there is a statement being made that 
sectarian violence in the last year of Sunni and Shia violence 
has dramatically been reduced. Is that an accurate statement?
    General Odierno. That is correct, Senator.
    Senator Graham. What do you account for that?
    General Odierno. It is a number of things. I think, again, 
it is first providing security to each other. It is a fact that 
people realize that in the beginning of 2007, we would not 
tolerate sectarian violence from either side, either Shia or 
Sunni. Most Iraqis are not sectarian. There were a few 
conducting many of the operations.
    We went after the leaders who in fact were, in my mind, 
encouraging sectarian violence for their own gains. Al Qaeda 
was trying to accelerate sectarian violence because they saw 
that as a way to continue to destabilize Iraq as it continued 
to move forward. So we went after al Qaeda. We had some Shia 
extremists that were supported by Iranians and others who were 
conducting sectarian violence. We went after them.
    The population realized this and they started to understand 
this. They realized that we were going to eliminate this 
sectarian violence. Since then, it has dropped dramatically.
    Senator Graham. Mr. Chairman, I do not mean to take much 
time. How long do we have? 5 minutes?
    Chairman Levin. 10 minutes.
    Senator Graham. 10 minutes, okay. Thank you.
    Economic activity in Iraq. I flew over Baghdad with General 
Petraeus in February, just a little over a month ago. You said 
you saw 180 soccer games? I stopped counting, but it was a lot. 
We all know Baghdad. There is no place in Iraq that is 
completely normal in terms of what we would like it to be. But 
it was astonishing to me, in flying over Baghdad, the amount of 
activity.
    Have you seen an economic improvement as a result of better 
security?
    General Odierno. Obviously, we have seen the markets grow. 
In fact, most of the time, it is about 10-fold. We saw places 
where, frankly, there were no shops open to where now there are 
300 to 400, whether it be the Doura market in southern Baghdad, 
Shorja market in eastern Baghdad, and Shula in western Baghdad. 
So a significant increase. What you had was an increase in 
goods being sold, but also, obviously, a precipitate increase 
in retail goods that would be developed.
    Senator Graham. As you know, I have been very interested in 
the prisoner issue, and I want to compliment you and General 
Stone for coming up with--I think it will be seen in history as 
one of the most novel approaches to dealing with the prison 
population, having a counterinsurgency program in the prison 
where you educate prisoners. We are providing education to 
every prisoner at Camp Buka and Camp Crawford. Exposure to 
moderate influences in terms of the Koran, and basically trying 
to give people a second chance on life for those that we feel 
like we can let go. I just want to recognize your work there 
and compliment you.
    On the political front, the amnesty law, the 
deBaathification law, the provincial elections, and a $48 
billion budget. In your opinion, what does that mean, if 
anything, for the future of Iraq? What would account for these 
breakthroughs?
    General Odierno. First, again, I believe the fact that we 
improved the security, it enabled the political factions within 
the Iraqi Government now to start focusing on what I believe to 
be significantly important political issues. One is, obviously, 
the distribution of the wealth to all of the provinces through 
the budget, through the allocation of reconstruction funds. 
Second was the passing of the provincial election law. In 
addition, the accountability and justice law, which was 
basically the old de-Baathification law, then the amnesty law.
    Now what we have to continue to focus on is the 
implementation of these laws, which is the next step. We have 
the laws passed. It is now most important that we go through 
the implementation of these.
    Senator Graham. Very briefly, as I understand the law about 
a limited amnesty, the Shias and the Kurds are saying to at 
least some Sunnis, we are going to create a process where you 
were fighting us last year, but we are going to let you go home 
and start over.
    General Odierno. That is right. Not only Sunnis, but also 
Shia and other people. That is correct.
    Senator Graham. In the south, the Iranian influence in Iraq 
is constructive or not?
    General Odierno. For the most part, I would say that it is 
clear to me that they continue to fund. They continue to train. 
They continue to provide weapons to extremist groups in order, 
in my mind, to destabilize and weaken the Government of Iraq.
    Senator Graham. Finally, if Iran were engaging in 
constructive behavior as a neighbor, what impact would it have 
on Iraq, if any?
    General Odierno. It could have significant impact. They are 
neighbors. They can help each other. It is important for 
stability of the region. I see it as a critical piece as we 
move forward, that they become much more constructive in their 
help with Iraq.
    Senator Graham. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Graham.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman, for allowing me to 
ask this additional question.
    General McKiernan, as we look back over the history of our 
operations in Afghanistan--I say ``our,'' that is the combined 
operation of forces that are aligned with us--we see, I think, 
an ever-increasing dependence upon support, a strong 
partnership with Pakistan. The relationship between Karzai and 
Musharraf was not the best at times. It is a little early, I 
expect, for us to try and assess how the new government is 
going to work in this area.
    But I think this record should reflect what you know very 
well. Our supply lines are dependent in large measure on the 
cooperation of the Pakistani Government and people. We use its 
ports, its airfields to logistically care for our forces and, I 
presume, the greater proportion of the NATO forces.
    Now, you are going to have to be a part-time ambassador. 
Let me ask that question. Are you prepared to become a part-
time ambassador? Should we call the Foreign Relations Committee 
up and just have you have a second hearing on this?
    General McKiernan. Sir, I am not advocating a second 
hearing on anything. [Laughter.]
    But there is a quarterly Tripartite Commission which as you 
know, the Commander of ISAF and the Chief of Defense in 
Afghanistan and the Chief of Staff of the Army in Pakistan get 
together and talk about mutual security interests along the 
border. I for one--and I know General McNeil agrees that there 
can be no successful, by any metrics, outcome in Afghanistan 
without dealing with the sanctuaries right across the border in 
the Federally-Administered Tribal Areas (FATA) and the 
northwest frontier province.
    Senator Warner. We currently have in the United States a 
very competent U.S. Ambassador, Ambassador William Wood, a 
personal acquaintance, as I understand, of our Staff Director, 
Mike Kostiw. We were talking about him yesterday. Have you 
worked with him thus far?
    General McKiernan. Sir, I have not, but I could tell you, 
if confirmed, I would hope to have an absolutely linked-at-the-
hip relationship with the United States Ambassador.
    Senator Warner. I appreciate that. I think one of the great 
high water marks has been General Petraeus and our U.S. 
Ambassador in Iraq, and I think it is essential that you have a 
comparable relationship with Ambassador Wood.
    Thank you very much and good luck to each of you. I think 
the record should also show--how much time have you spent in 
your area of responsibility (AOR) before your new AOR, 
Afghanistan?
    General McKiernan. Sir, I have probably made about half a 
dozen trips over there to see U.S. forces that we have provided 
from Europe that are operating in Afghanistan.
    Senator Warner. General Odierno?
    General Odierno. I have spent a little over 30 months in 
Iraq over the last several years both serving there, then also 
several months visiting around the region.
    Senator Warner. When you were in your capacity as a 
Military Advisor to the Secretary of State, you spent a lot of 
time there?
    General Odierno. I have spent a lot of time in the Middle 
East, in Afghanistan, Pakistan, Turkey, all of those countries, 
sir.
    Senator Warner. General Sharp, you had a tour in Korea?
    General Sharp. Yes, sir, almost 2\1/2\ years working for a 
former boss. General John H. Tilleli, Jr., was the commander in 
chief there at that time, and then also 17-18 months up in the 
2nd Infantry Division as an assistant division commander.
    Senator Warner. Thank you. We are fortunate, Mr. Chairman, 
of that background of experience.
    I thank the chair.
    Chairman Levin. We are, indeed. Thank you, Senator Warner.
    General Odierno, I think what you testified to, if I 
understand it, is that there is a number of reasons for the 
reduction in violence in terms of sectarian violence that we 
saw, one of them being the increase in the number of U.S. 
forces, another one being the change in the strategy for those 
forces, another one being the ability to exploit the success of 
the event that took place when the Sunni Awakening took place. 
Is that fair?
    General Odierno. That is fair, sure.
    Chairman Levin. So there is a number of reasons for the 
reduction in that sectarian violence?
    General Odierno. That is fair.
    Chairman Levin. At the same time, you told us today that 
the biggest threat now in many parts of Iraq is the increase in 
the communal struggle for power. Would you describe that 
struggle and why that is the biggest threat?
    General Odierno. I would. Mr. Chairman, as we have been 
able to reduce the threat of al Qaeda, although they are still 
capable of conducting attacks in Iraq--I do not want to ever 
downplay that at all. They are still capable, but their 
capacity has been reduced. The insurgency in itself, as it was 
in 2004-2005, is reduced.
    What we are seeing now is a struggle for power as the 
country moves forward, a struggle between Shia communities, 
some struggle between Shia and Sunni, struggle between the 
Kurds and the Sunnis. It is about controlling parts of the 
country or having influence in parts of the country for the 
future as the country continues to move forward.
    Our goal in all of this is for that to happen peacefully 
through communication, through diplomatic efforts internal to 
the country. However, the history of the Middle East and Iraq 
in some cases causes them sometimes to want to use violence, 
and we have to be able to continue to work that issue. I think 
as we continue to make progress in Iraq, again the threat will 
evolve. This is what I believe to be how it is evolving today 
as a communal struggle.
    The only other thing I would caveat, Mr. Chairman, is you 
have the external influences from Iran and also from other 
forces such as al Qaeda and other forces still trying to 
influence using Syria and other places.
    Chairman Levin. For that violence to be resolved, is it 
still true that there needs to be a political settlement?
    General Odierno. It does. A big part of it has to do with 
the political piece of it.
    Chairman Levin. There has been some progress, a couple 
steps forward and then some steps back, on the political side, 
but is it still true that for there to be an election on 
October 1, that there has to be a provincial elections law 
passed? Is that still true?
    General Odierno. It is, Mr. Chairman. They really have to 
pass the specifics of how they will conduct the election, and 
it is about implementation, as I have talked about.
    Chairman Levin. As well as implementation of the laws that 
have been passed. Is it still true that there has not been a 
provincial elections law passed? I think you misspoke. I think 
what has passed--and correct me if I am wrong. There is a 
provincial powers law.
    General Odierno. I misspoke. That is correct, Mr. Chairman.
    Chairman Levin. That has passed. That is the one which 
requires implementation?
    General Odierno. That is right.
    Chairman Levin. That specified that there would be an 
election on October 1, but without a provincial elections law, 
that election will not take place.
    General Odierno. That is correct.
    Chairman Levin. So we still have to put some pressure on 
the Iraqis to pass the critical provincial elections law for 
those elections of October 1 to occur.
    How important is it that there be elections on October 1?
    General Odierno. I think, first, the provincial elections 
are one of the most important things that must take place. As 
most of us remember, there are Sunnis that did not participate, 
and in fact, there were many Shia who did not participate in 
the last set of elections that currently elected the provincial 
leaders. So the provincial elections happening as soon as 
possible in my mind will make people in the provinces believe 
they are represented by those who truly are part of their 
province and represent the people. Therefore, it is extremely 
important it happens as soon as possible.
    Chairman Levin. But the date specified in the other law is 
October 1. Is that correct?
    General Odierno. That is correct, sir.
    Chairman Levin. It is important that that date be met?
    General Odierno. I think it is very important we try to 
meet that date.
    Chairman Levin. As I gather, there is a real possibility 
that that date will not be met. Would you say that that is a 
real possibility?
    General Odierno. I cannot comment, Mr. Chairman. I do not 
know that.
    Chairman Levin. All right.
    There are also constitutional changes which are supposed to 
have been considered by now. Is that correct?
    General Odierno. They are supposed to continually review 
the constitution.
    Chairman Levin. Has that commission met and made 
recommendations yet?
    General Odierno. It is unclear. I can get back to you for 
the record on that.
    [The information referred to follows:]

    Mr. Chairman, at the time of my testimony, the Iraqi Constitutional 
Review Committee had not yet met.

    Chairman Levin. All right. It is my understanding they have 
not, but you can confirm that for the record.
    General McKiernan, you have spoken a lot about Afghanistan. 
I wonder if you can summarize where we are on it. Would you say 
that the overall level of security among the Afghan people is 
moving forward, backward, or sideways?
    General McKiernan. Sir, I think it depends on the 
geography. I think where we have most of our U.S. forces in 
Regional Command East, I think it is moving forward. I think in 
Regional Command South, specifically in the Helmand/Kandahar 
area, I think it is in question. I think there is continued 
need, as I have said this morning, for building capacity, 
coherence, and dealing with the problem along the Pakistani-
Afghan border.
    Chairman Levin. Would you say that the insurgency has yet 
been contained in Afghanistan?
    General McKiernan. Sir, until I have the opportunity to 
make an assessment on the ground, I do not know if I could say 
that it has been contained.
    Chairman Levin. General, you and I spoke in my office about 
this question of decoupling the Iraqi and the Afghanistan issue 
because of the problem which exists in some countries in Europe 
where popular support has been lost for the Afghan mission 
based on opposition to the war in Iraq and that there might be 
value in decoupling rhetorically, perhaps budget-wise, but at 
least rhetorically, and in terms of diplomacy, for both 
reasons, we could perhaps get greater support in Europe, a 
greater focus on Afghanistan, if we made that decoupling. Would 
you comment on that?
    I believe you also in your answer to prehearing questions 
stated that the public opposition in a number of European 
countries has contributed to the loss of support for engagement 
in Afghanistan. Would you comment on that?
    General McKiernan. Sir, I think from my experience in the 
last 2\1/2\ years in Europe, in terms of decoupling Iraq and 
Afghanistan in the minds of our European allies, I think that 
is certainly something we ought to try to do in our strategic 
communications.
    I also think that we have to continue to encourage our 
European allies to understand that the threat in Afghanistan 
and across the border to the south is their threat as well. I 
do see a need to decouple in the international community. Our 
discussions also were whether we decouple in some of our 
processes back here in the United States. My statement at that 
time--and I continue to believe it--is in terms of application 
of resources, we have to balance, at least in the DOD, 
globally. So it is very hard to decouple Iraq from Afghanistan.
    Chairman Levin. In that sense.
    General Odierno. In that sense.
    Chairman Levin. General McKiernan, the Atlantic Council has 
found that less than 10 cents of every dollar of aid for 
Afghanistan goes directly to the Afghan people. Assistant 
Secretary of State Richard A. Boucher at this committee's 
hearing in February endorsed a program that is intended to 
empower rural Afghan communities to manage their own 
development projects. It is called the National Solidarity 
Program. This program is within the Afghanistan Ministry of 
Rural Rehabilitation and Development and provides small block 
grants directly to locally elected community development 
councils. They are responsible for identifying, planning, and 
managing their own development projects. Funding for the 
National Solidarity Program comes from the World Bank and the 
International Development Association, bilateral donors through 
the Afghan Reconstruction Trust Fund.
    According to a press release last December, the National 
Solidarity Program has provided $400 million in payments which 
were disbursed to 16,000 local community development councils 
in Afghanistan, and those payments have financed more than 
30,000 community development subprojects, which have improved 
access to infrastructure, markets, and services. Those councils 
are being established in all 34 provinces and the vast majority 
of the districts throughout Afghanistan.
    A University of York study in Great Britain said that the 
National Solidarity Program has the potential to be a beacon of 
good practice among community-driven development programs.
    So a couple questions. Are you familiar with the National 
Solidarity Program? In your judgment, is it a good program?
    General McKiernan. Sir, I have done a lot of reading about 
it, and the people that I have talked to that work it in 
Afghanistan--I would conclude that it has huge potential as a 
bottom-up approach for development. Coupled with programs like 
CERP and what provincial reconstruction teams do, I think in a 
bottom-up sense, it has huge potential.
    Chairman Levin. Will you, when you get to Afghanistan, take 
a personal look at them? If you continue to be satisfied with 
their value, can you find ways to encourage the support for 
those programs?
    General McKiernan. Yes, sir, I will.
    Chairman Levin. Thank you.
    General Sharp, Senator Warner commented on this 2012 date, 
and I happen to agree with him. As I mentioned to you in the 
office, I think that the Korean Army is capable to take command 
earlier and that the fears of symbolism when that happens are 
not justified by any actions which we have taken and that it is 
essential that you continue to see if that cannot be pushed 
forward. I know that date has been set, but that is a long way 
off. There is no reason for 4 more years to pass in my 
judgment--and I concur with Senator Warner on this--before that 
OPCON is transferred to the South Korean forces.
    I do not need you, unless you would like to, to respond, 
but I just simply want to add my voice to Senator Warner on 
that point and give you an opportunity, if you would like to 
comment on it.
    General Sharp. Sir, if confirmed, I do pledge to work with 
the Republic of Korea, Chairman General Kim Tae-Young, to 
continually push to make sure that they have the capabilities, 
the training necessary in order to be able to take OPCON change 
and to continually assess that between now and 2012 to make 
that goal.
    Chairman Levin. Thank you, General.
    The Six Party Talks. Would you view them, from what you 
know of them, as constructive?
    General Sharp. Sir, they are constructive. They would be a 
lot more constructive if the North Koreans lived up to what 
they promised and gave a complete and open declaration, as they 
were supposed to do and they pledged to do by the end of last 
calendar year, which they have yet to do. But they are 
constructive.
    Chairman Levin. Do you see value in military-to-military 
contacts with North Korea?
    General Sharp. Sir, I do. I see that military-to-military 
contacts make sure that each side understands where each other 
stands so that there is less of a chance of missteps because of 
miscommunications, and I encourage that. The North Koreans cut 
off general officer-level talks several years ago, and I would 
encourage that to start back up again.
    Chairman Levin. Do you believe the right number of ground 
forces are postured--and I am talking here to U.S. ground 
forces--to meet any warfighting requirements on the Korean 
peninsula?
    General Sharp. Sir, I believe what we currently have on the 
peninsula--that General Bell has worked very hard, not just 
numbers, but more importantly the capabilities that we have 
there, in order to be able to do the requirements in order to 
be able to, with our Republic of Korea allies, win the war, win 
any conflict. We do have the right number and the right 
capabilities there at this time.
    Chairman Levin. You would not support further reductions?
    General Sharp. Sir, again, if confirmed, I will continually 
assess that, but from what I have seen so far working with the 
Army, the capabilities that are there now are the ones that we 
need for the future.
    Chairman Levin. Thank you. We thank all of you and, again, 
your families for your service, for their service to this 
country, and we look forward to a speedy confirmation process.
    We will stand adjourned.
    [Whereupon, at 11:25 a.m., the committee adjourned.]

    [Prepared questions submitted to GEN David D. McKiernan, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, North Atlantic Treaty Organization (NATO) International 
Security Assistance Force (ISAF)?
    Answer. The Commander International Security Assistance Force 
(COMISAF) is responsible for executing NATO's strategy in Afghanistan 
as delineated in Operations Plan (OPLAN) 10302. My responsibility is to 
ensure that ISAF accomplishes its objectives and meets the reporting 
requirements of Supreme Allied Commander Europe (SACEUR) (as Commander 
of NATO Operations).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As a U.S. general officer with multiple deployment and 
multinational experiences, I have been closely involved with or in 
command of NATO and coalition military operations. I feel thoroughly 
qualified and prepared to lead this complex effort in Afghanistan.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
ISAF?
    Answer. Since nomination by the Secretary of Defense for this 
assignment, I have been able to take advantage of several opportunities 
to engage with key leaders and organizations that contribute to the 
campaign in Afghanistan. I will continue to do everything possible to 
prepare for this assignment in the 2 months to follow.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Commander, ISAF, to the following:
    U.S. Secretary of Defense.
    Answer. As a U.S. Army general officer, I would be required to 
ensure that the U.S. Secretary of Defense is advised and informed on 
the progress of my operation in ISAF and any issues that need to be 
resolved from a U.S. perspective. While I would be a NATO Commander who 
obviously has a NATO chain of command thru Joint Force Commander (JFC) 
Brunssum and then Supreme Headquarters Allied Powers, Europe (SHAPE), I 
also would be prepared to keep U.S. Secretary of Defense familiar with 
appropriate operational issues.
    Question. NATO Secretary General.
    Answer. The relationship between the Commander, ISAF and the NATO 
Secretary General is an indirect one. As the senior international 
statesmen for the Alliance, he is responsible for promoting and 
directing the process of consultation and decisionmaking within the 
Alliance.
    Question. NATO North Atlantic Council.
    Answer. There is not a direct command relationship between the NATO 
North Atlantic Council (NAC) and the ISAF Commander. The NAC is the 
principal decisionmaking body within NATO. It is comprised of high-
level national representatives (Ambassadors, Defense Ministers, Foreign 
Ministers, and Heads of State and Government) from each member country 
that discuss policy or operational questions requiring collective 
decisions. The NAC provides guidance to SACEUR for all NATO military 
operations and SACEUR subsequently passes operational military 
direction to subordinate commands.
    Question. Chairman of the Joint Chiefs of Staff.
    Answer. The relationship between the Commander, ISAF and the 
Chairman of the Joint Chiefs of Staff is an indirect one. He is one of 
26 NATO Chiefs of Defense (CHODs), who combine to form the NATO 
Military Committee, which serves as the senior military authority in 
NATO. The CHODs in the Military Committee are responsible for 
recommending to NATO's political authorities those measures considered 
necessary for the common defense of the NATO area and for the 
implementation of decisions regarding NATO's operations and missions.
    Question. NATO Supreme Allied Commander, Europe.
    Answer. The relationship between the Commander, ISAF and NATO's 
Supreme Allied Commander, Europe is a chain of command one. SACEUR is 
one of NATO's two strategic commanders and is the head of Allied 
Command Operations. He is responsible to NATO's Military Committee, the 
highest military authority in NATO, for the command, planning and 
conduct of all NATO military operations. SACEUR also identifies forces 
required for the mission and requests those forces from NATO countries, 
as authorized by the NAC and as directed by NATO's Military Committee. 
As COMISAF, I would report directly to JFC Brunssum (Land Component 
Commander under SACEUR for ISAF), who subsequently reports directly to 
SACEUR.
    Question. NATO Supreme Allied Commander, Transformation.
    Answer. Both NATO's Strategic Commanders, SACEUR and Supreme Allied 
Commander Transformation (SACT), carry out roles and missions assigned 
to them by the NAC or in some circumstances by NATO's Defense Planning 
Committee. SACEUR and SACT work together to ensure the transformation 
of NATO's military capabilities and necessary interoperability. As an 
operational commander in NATO, I will coordinate with SACT to ensure we 
are leveraging the capability of his staff and command to maximize the 
effectiveness of our training efforts and NATO operational capabilities 
in theater.
    Question. NATO Military Committee.
    Answer. There is not a direct command relationship between the NATO 
Military Committee and the ISAF Commander. The Military Committee 
coordinates military advice to the NAC on policy and strategy. As an 
operational commander in NATO I will ensure SHAPE has the best military 
advice possible.
    Question. Commander, U.S. Central Command.
    Answer. The Commander of United States Central Command exercises 
authority over U.S. Forces assigned to Operation Enduring Freedom, 
including forces assigned to Combined Security Transition Command-
Afghanistan (CSTC-A). As the ISAF operates within the U.S. Central 
Commander area of responsibility, it is essential that both commanders 
closely coordinate as necessary to accomplish assigned missions.
    Question. Commander, Combined Joint Task Force 82, Afghanistan
    Answer. Operational control of forces assigned to ISAF is exercised 
through the Regional Commanders. The U.S. is the designated lead for 
Regional Command East, and as such, COMISAF exercises control over U.S. 
forces assigned to RC East via Combined Joint Task Force-82. The 101st 
Airborne Division is currently transitioning with the 82nd Airborne 
Division and is expected to complete transfer of Authority (TOA) by 10 
Apr 08.
    Question. Commander, Combined Security Transition Command 
Afghanistan.
    Answer. There is not a direct command relationship between CSTC-A 
commander and COMISAF. It is a coordinating relationship with CSTC-A 
which is a force provider to ISAF operations. The coordination of our 
efforts is absolutely critical to mutual success. CSTC-A is a force 
provider in the role of developing Afghan National Security Force 
capability. Our coordinating relationship will remain focused on 
ensuring that well trained and equipped Afghan security forces are 
produced, sustained and provided to the Afghan people.
    Question. United Nations Special Representative in Afghanistan.
    Answer. There is not a direct command relationship between the U.N. 
Special Representation of the Secretary General (SRSG) and Commander, 
ISAF; however, productive coordination is essential. The ISAF Commander 
must ensure that ISAF operations are creating necessary security and 
working in conjunction with international organizations toward 
necessary development and reconstruction. My relationship with the U.N. 
SRSG will focus on developing and implementing comprehensive regional 
and national strategies to benefit the Afghan government and its 
people.
    Question. U.S. Ambassador to Afghanistan.
    Answer. There is not a direct command relationship between the U.S. 
Ambassador and Commander, ISAF but the requirement for close 
coordination and synchronization of activities is critical. The ISAF 
Commander and U.S. Ambassador cooperate on the development and 
implementation of regional and national strategy in Afghanistan and I 
will work to ensure the effectiveness of that relationship.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges and problems 
you would confront if confirmed as the next Commander, ISAF?
    Answer. Under-resourcing and constrained forces confront the 
Commander today and I anticipate facing the same challenges in my 
initial months as COMISAF. Coherency among the many international and 
interagency actors is also a primary concern that is being addressed 
most notably with the recent nomination of the Senior Representative to 
the Secretary General of the United Nations, Ambassador Kai Eide. 
Additionally, the security situation in Afghanistan is directly linked 
to security conditions in Pakistan.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. Fully resourcing military requirements and removing 
remaining caveats that constrain effectiveness will be a major focus. 
It is critical for ISAF to maximize its contribution to Afghanistan's 
ability to provide and maintain a secure environment with the forces 
and resources provided, despite any known shortfalls. As for coherency, 
we must address the need for unity of effort through organizational 
structure, coordinated planning, responsive resourcing, useful measures 
of success and transparency among the many national and international 
actors. I will also strive to improve mutual Afghan-Pakistan security 
challenges through such means as the Tripartite Commission.

                   SECURITY SITUATION IN AFGHANISTAN

    Question. Recently-released independent reports have found that 
NATO is not achieving ISAF goals in Afghanistan and that the Taliban-
led anti-government insurgency has grown over the last 2 years.
    What is your assessment of the security situation in Afghanistan 
and the nature, size, and scope of the anti-government insurgency?
    Answer. The security situation in Afghanistan is very complex, and 
reflects blurred linkages between criminal, corruption and insurgency 
based activities. While it is certainly true that violence, 
particularly suicide attacks, is up in comparison to the past several 
years, the raw statistics may not tell the entire story. Raw total 
measures of violence can increase when a greater portion of that 
violence is initiated by ISAF forces. The insurgency has suffered 
significant casualties in the past year, including numerous mid- and 
high-level Taliban leaders. The Taliban have been repeatedly defeated 
at the tactical level since operations in Afghanistan began, and are no 
closer to their strategic goal of recapturing Kandahar than they were 2 
years ago. The current assessment of ISAF from the past year's 
activities is that aggressive ISAF actions in the spring of 2007 
significantly degraded insurgent tempo and preempted operations. That 
will be repeated in 2008. Some analysts even assess that the Taliban 
adoption of suicide tactics is less of an indicator of success than an 
indicator of desperation and an opportunity for us to further alienate 
them from the people of Afghanistan. All said though, the insurgency is 
not on the verge of collapse, but we are not in danger of losing. 
Progress is being made, albeit at a pace that is not as great as we 
would like. The Afghan National Security Forces continue to improve 
capabilities and grow capacity, from having no national forces in 2001 
to over 124,000 uniformed members today, and our allies continue to 
renew or increase their commitments to the mission.
    Question. What changes, if any, do you believe are needed in ISAF 
operations to respond to the evolving insurgency threat?
    Answer. Despite all the outstanding work that has already been 
achieved in Afghanistan, there is still room for improvement. Counter-
Insurgency (COIN) doctrine tells us that one of the key elements of a 
successful COIN campaign is establishing a strong national security 
infrastructure and connecting the population to its government. A 
strong national force is critical to holding ground and denial of 
insurgent access to the population. The true long-term solution to the 
insurgency in Afghanistan is an Afghan one and it includes a strong 
national security force. Accordingly, one of our top priorities must be 
increasing and improving the Afghan National Security Force by focusing 
significant resources and effort on them. Creating a national army and 
police force is not a quick or easy process. The Afghan National Army 
continues to make huge gains in capability and is a respected by the 
Afghan population. Progress in development of the Afghan National 
Police has not been as successful. There is significant momentum, but 
it will continue to require our highest priority. Police initiatives 
such as Focused District Development and plans to field over 2,000 
additional military personnel in a training role show promise.
    Another cornerstone of a comprehensive COIN strategy is the 
necessity to protect the population. To this end, we should look 
closely at options for deploying additional brigade combat teams to 
Afghanistan, with a particular focus on the turbulent southern part of 
the country. The focus should be on traditional COIN operations, 
safeguarding key populations centers, securing roads and 
infrastructure, pursuing insurgents in their traditional sanctuaries 
and defeating them.
    Finally, we must continue to focus on refining the strategy to 
ensure it is comprehensive, fully coordinated and understood by all the 
allied partners. ISAF, International Community and, most importantly, 
Afghan success will rely on development and good governance as well as 
security.

                         NATO ISAF CAPABILITIES

    Question. Do you believe that the current level of ISAF troops and 
equipment in Afghanistan is sufficient to carry out the mission? If 
not, what are the current shortfalls in troops and/or equipment 
required for the ISAF mission?
    Answer. ISAF certainly needs what was already stated as the CJSOR 
requirements and the forces need to have critical caveats removed. The 
underresourced condition of ISAF affects its ability to control battle-
space, maintain enduring effects and accelerate Afghan National 
Security Force development. Additionally, the ability to support the 
Government of Afghanistan in other than purely military lines of 
operation is limited. Among the specific shortfalls identified by the 
current ISAF commander are the unfilled requirement for three maneuver 
battalions, strategic Reserves, fixed and rotary wing aviation, 
Operational Mentor and Liaison Teams (OMLTs) and Embedded Training 
Teams (ETTs), Afghan Security Force trainers, Intelligence Surveillance 
and Reconnaissance assets and Provincial Reconstruction Team assets.
    Question. Do you believe our NATO allies should do more to 
eliminate the shortfalls in resources for the ISAF mission?
    Answer. Yes, but the ability to do more is limited by the 
willingness of the populations of some countries. We need to better 
make the case in these nations that this mission is important to their 
own strategic interests and the right thing to do for the people of 
Afghanistan.
    Question. What is your assessment of the military capabilities of 
the NATO member states participating in ISAF, and of NATO ISAF as a 
whole? In what specific areas is more improvement needed? In what areas 
has there been the most progress?
    Answer. Capabilities vary widely by nation. I cannot yet give a 
complete personal observation or assessment as to either ISAF's current 
capabilities or its effectiveness until I have been on the ground for a 
while. However, I have seen that ISAF forces have conducted themselves 
very well in the most contested portions of the south and east. I am 
extremely impressed by ISAF performance and fully respect the 
sacrifices made and burdens borne by all throughout Afghanistan. As 
Commander of U.S. Army Europe, I have assisted the training and 
preparation of many of the forces that make up ISAF and have seen great 
commitment and progress in the understanding of Counterinsurgency 
Operations and the importance of Afghan National Security Force 
development. Let me be clear, however, in stating that these training 
and readiness efforts must continue and strengthen in the future.

                            NATIONAL CAVEATS

    Question. To what extent have national caveats limited the ISAF 
Commander's ability to deploy effectively the forces under his command 
in Afghanistan?
    Answer. I believe that COMISAF is definitely hampered by caveats. 
NATO forces possess superior mobility, sustainability and firepower. 
Caveats tend to negate some of those advantages and cause a level of 
command friction that makes planning and execution of flexible 
operations either very difficult or prone to enemy exploitation. Again, 
I can better assess the operational effects of caveats once I am on the 
ground.
    Question. What do you believe should be done to encourage our NATO 
allies to remove national caveats?
    Answer. At the most fundamental level, the argument has to be made 
and accepted by the leadership and citizenry of each member nation that 
ISAF and Afghanistan are important; that the sacrifices required to 
defeat extremists, build a better life for the Afghans and safeguard 
our own security are worth it. Also, and very fundamental to this 
issue, national caveats usually increase the risk to ISAF 
servicemembers and to mission success.

                             NATO COHESION

    Question.Secretary Gates has expressed concern that NATO could 
become a ``two-tiered alliance'' composed of some countries who are 
willing to fight and others who are not. A recent independent report 
warns that if NATO is unable to produce the forces required to fight in 
the southern region of Afghanistan, NATO's credibility and cohesion 
will be harmed.
    Do you believe that NATO's credibility and cohesion are at stake in 
the conduct of the ISAF mission?
    Answer. NATO's credibility and cohesion in the 21st century could 
certainly be affected.
    Question. How confident are you that NATO will be able to sustain 
its commitment to ISAF given the challenging security situation in 
Afghanistan?
    Answer. I am optimistic, despite the challenges. Several heads of 
state have confirmed commitment to NATO, ISAF and Afghanistan. The 
military leaders I talk to in Europe recognize the importance of the 
campaign. There have been recent reductions in the number and severity 
of caveats, certain new troop commitments are likely to be made and the 
results of the NATO summit in Bucharest could signal increased support. 
Effective strategic communications that inform our respective 
populations and political leadership on the stakes and value of the 
campaign in Afghanistan will also help. Credible success will also add 
to popular support.

                    DECOUPLING IRAQ AND AFGHANISTAN

    Question. Secretary Gates reportedly indicated that among some 
European publics, opposition to the war in Iraq has contributed to a 
loss of support for the conflict in Afghanistan. The Afghanistan Study 
Group recommended the administration ``de-couple'' Afghanistan and 
Iraq, in terms of funding and diplomacy, to enable more coherence and 
focus on Afghanistan.
    Do you believe that opposition to the war in Iraq has led to a loss 
of support among some European publics for the effort in Afghanistan?
    Answer. Yes, I believe that to be true in a number of European 
countries.
    Question. Would you support de-coupling Afghanistan and Iraq to 
improve the focus on Afghanistan?
    Answer. Yes, internationally that would be helpful.
    I believe that our efforts in Afghanistan would not stand to gain 
by ``decoupling'' it from Iraq in the U.S. defense budget process. 
Requirements for funding Operation Enduring Freedom (OEF) in 
Afghanistan are developed and approved independent of those funding 
requirements for OEF, and the Department has consistently received the 
levels of funding it has requested for the mission in Afghanistan.
    I also believe that our force capabilities and the process to 
provide trained and ready joint forces to both Operation Iraqi Freedom 
and OEF (and other requirements) ``couple'' our commitments in 
Afghanistan and Iraq.

                       COUNTERNARCOTICS STRATEGY

    Question. A recent report from the United Nations Office on Drugs 
and Crime finds that Afghanistan provides over 90 percent of the 
world's illicit opium and that poppy cultivation levels for the coming 
spring are expected to remain at or near last year's levels.
    Should ISAF have a drug interdiction mission in Afghanistan, 
including capturing drug lords and dismantling drug laboratories?
    Answer. No, I believe the responsibility should remain with Afghan 
and international law enforcement organizations. However, supporting 
Government of the Islamic Republic of Afghanistan (GIRoA) 
counternarcotics programs is a validated ISAF task. ISAF should not 
conduct direct military action against narcotics producers, except for 
self defense or force protection reasons. I support General McNeil's 
recent commitment to support the GIRoA's counter-narcotics efforts 
within the means and capabilities of ISAF, specifically by helping to 
coordinate and synchronize the efforts of the Poppy Eradication Force, 
enabling support to Afghan Government and international law enforcement 
interdiction operations and employing a holistic provincial engagement 
approach in the context of counterinsurgency operations. (mirroring the 
U.S. efforts in Nangahar as a model for success).

                    TRAINING MISSION IN AFGHANISTAN

    Question. Current plans call for training and equipping the Afghan 
National Army to a level of 80,000 and building the Afghan National 
Police to a level of 82,000 in the next few years. A recent independent 
report by the Afghanistan Study Group recommended that NATO could take 
over the mission of training the Afghan National Army, currently led by 
the United States, once NATO members have committed enough resources 
for this purpose.
    Do you believe that NATO should do more to assist in building the 
capacity of the Afghan Security Forces? Should NATO take over the 
training mission for the Afghan National Army?
    Answer. NATO is contributing to the training mission through the 
contribution of Operational Mentoring and Liaison Teams and personnel 
assigned to the CSTC-A staff, but more could be done. I would not be 
opposed to NATO taking over the training mission in the future and 
suspect that the U.S. would need to pledge continued resourcing of the 
program in order to gain NATO consensus and support for addition of 
this task. The key principle is unity of effort and there is a clear 
advantage to greater consolidation of the related missions of the 
current ISAF and CSTC-A.
    Question. Should NATO allies play a greater role in providing these 
embedded training teams? If so, what should be done to encourage NATO 
allies to provide more of these teams?
    Answer. The U.S. Secretary of Defense and NATO civilian and 
military leadership have recently been very clear about desiring 
increased Allied contributions to the development of the Afghan 
National Security Forces in the form of Operational Mentor and Liaison 
Teams (OMLTs). OMLTs must, however, be totally trained and capable when 
they assume their mission. Until those requirements are sourced, I 
think NATO's primary focus should be on partnering forces with the ANA 
units in the field and working with these units in that way to improve 
their capabilities.
    Question. What is your assessment of the Afghan National Police? 
What more can NATO do to improve the effectiveness of the police?
    Answer. Progress is being made in the development of the Afghan 
National Police, but police development is more problematic than 
military reform at this point. Current initiatives in rank and pay 
reform are promising as are the already mentioned approaches to Focused 
District Development. NATO countries could certainly assist by 
contributing more law enforcement expertise and training/sustainment 
resources. Ultimately, the Afghan National Police effect will only be 
as good as their credibility with the Afghan population.

       RECONSTRUCTION EFFORTS AND PROVINCIAL RECONSTRUCTION TEAMS

    Question. What is your role as Commander, ISAF, in reconstruction 
efforts in Afghanistan?
    Answer. The ISAF commander's most important contribution to 
reconstruction is security. Besides personal engagement and 
coordination with Afghan and international agencies whose primary 
mission is reconstruction, the ISAF commander co-chairs, along with the 
Minister of Interior, the ambassador--minister-level Provincial 
Reconstruction Team (PRT) Executive Steering Committee. PRT support for 
elements of security sector reform, reconstruction and development are 
a major focus for ISAF. PRTs report to the ISAF Commander through the 
Regional Commands.
    Question. What is your assessment of the performance of the 
Provincial Reconstruction Teams in Afghanistan?
    Answer. Provincial Reconstruction Teams in Afghanistan are an 
essential part of our development efforts in Afghanistan, and the 
primary means by which the ISAF acts to improve the capacity of the 
Government of Afghanistan to govern itself and develop essential 
quality of life services at the subnational level. From what I have 
seen, I think they have been exceptionally effective overall.
    Question. What improvements, if any, do you believe need to be made 
in the operations or coordination of the Provincial Reconstruction 
Teams in Afghanistan?
    Answer. Each PRT is established and run by a Lead Nation, often 
with the assistance of one or more Partner Nations. So coherency will 
continue to be a challenge. The PRTs have only been under the command 
of COMISAF since the completion of NATO's four-stage geographic 
expansion in October 2006. Since that time, NATO has identified and 
initiated actions to maintain a positive momentum of change for PRTs in 
Afghanistan. Better integration between the PRTs and the ISAF maneuver 
unit commanders in the Province, and more importantly the Regional 
Commands, could produce the same coherence and success of the PRTs that 
is currently experienced by those in Regional Command East. Funding 
mechanisms should also be reviewed. Instead of National Capitols 
financing the development, governance and security sector reform 
efforts of only ``their PRTs,'' the funds for PRTs, or a portion 
thereof, could be pooled at the regional level so the Regional 
Commander's could allocate the funds in support of better-coordinated, 
regional counterinsurgency goals and objectives.

            LOCAL GOVERNANCE AND NATIONAL SOLIDARITY PROGRAM

    Question. A key component of the Afghan Government's development 
strategy is to strengthen local governance capacity. One program that 
contributes to enhancing development and empowering governance at the 
local level is the National Solidarity Program (NSP). This program, 
within the Afghanistan Ministry of Rural Rehabilitation and 
Development, provides block grants directly to locally-elected 
Community Development Councils, which are responsible for identifying, 
planning and managing their own development projects. Funding for the 
NSP comes from the World Bank/International Development Association, 
bilateral donors, and through the Afghanistan Reconstruction Trust 
Fund. According to its website, the NSP has provided $400 million in 
payments to 16,000 Community Development Councils, which have financed 
more than 30,600 subprojects to improve access to infrastructure, 
markets, and services.
    What is your understanding of the strengths and weaknesses of the 
NSP in Afghanistan?
    Answer. My understanding of the NSP is that it reflects the right 
intent from the bottom-up perspective to develop Afghan capacity. An 
important feature of the program is that it is Afghan-led. The rural 
development projects including irrigation, transportation, education, 
water supply and sanitation are all very important and consistent with 
ISAF objectives at the local level. Anything that contributes to Afghan 
government effectiveness, credibility and governance is positive. The 
NSP demonstrates clear advantages of the Afghan government in contrast 
to the destructive activity of the insurgency.
    Question. Would you support expanding the NSP as a means of 
building local governance and strengthening development?
    Answer. I see potential to an expansion of the program at this 
point so long as it retains the current principles, is nested in the 
overall strategy to develop Afghan capacity and does not become a 
program of inefficiency or corruption.

                          CIVILIAN CASUALTIES

    Question. Recent United Nations reports have found that there were 
over 1,500 civilian casualties in Afghanistan in 2007 and that almost 
half of the non-combatant casualties recorded by the United National 
Assistance Mission in Afghanistan were attributed to combat operations 
by Afghan national and international security forces.
    What measures have been taken to reduce the levels of civilian 
casualties resulting from combat operations by Afghan national and ISAF 
security forces?
    Answer. Avoiding civilian casualties is a priority within the 
Alliance, because of the moral and legal imperatives, but also because 
civilian casualties are counter to the principles of a successful 
counter-insurgency campaign.
    Question. What more needs to be done to address the level of 
civilian casualties in Afghanistan?
    Answer. The U.S. and all Allies clearly consider minimizing 
civilian casualties an imperative. Any civilian casualties are a cause 
for concern, particularly in a COIN campaign where one of our 
preeminent tasks is to protect the population and engender their 
support for the Government. NATO needs to continue to take measures, in 
concert with the Afghan Government and Afghan Security Forces, to 
prevent any unnecessary casualties. Continued adherence to the law of 
armed conflict and strict application of proper procedures for attack 
aviation are also critical. We must continuously adapt operating 
procedures in accordance with changing conditions and enemy tactics to 
prevent unnecessary casualties. When tragic casualties do occur, we 
must conduct deliberate reviews and learn from them. Unfortunately, our 
foes do not share our moral values and have made it a general practice 
to occupy positions adjacent to or inside civilian structures, in an 
attempt to shield themselves from our forces and cause more civilian 
casualties. This makes the task more difficult, but no less important.

                        SAFE HAVENS IN PAKISTAN

    Question. The Intelligence Community assesses that Pakistan's 
Federally-Administered Tribal Areas (FATAs) along the border with 
Afghanistan provide a safe haven for al Qaeda and other extremists 
supporting the Taliban-led insurgency in Afghanistan.
    What can be done to prevent cross-border incursions by al Qaeda and 
the Taliban from Pakistan into Afghanistan?
    Answer. Preventing cross-border incursions from Pakistan into 
Afghanistan requires close cooperation between Afghan, Pakistan and 
ISAF security forces so that we can interdict enemy elements as a team. 
Another imperative is improvement of Pakistan military and paramilitary 
force capability. U.S. support to Pakistan's border area strategy 
including training and equipping Pakistan's Frontier Corps will help. 
Economic assistance to the people in the FATA and a comprehensive 
counterinsurgency campaign on the Pakistan side would also help.
    Question. What role, if any, should ISAF forces play in countering 
this threat?
    Answer. ISAF should play a significant role in the tri-partite 
program. ISAF could also act to facilitate and support effective Afghan 
border security management within the guidance of the NATO OPLAN.
    Question. In your view, should the Pakistan Government be doing 
more to prevent these incursions?
    Answer. Yes, but they need the help of the others in the region and 
the international community to help work on the causes of instability 
in the FATA. In other words, incursions are only a part of the larger 
security challenges inside Pakistan.

                      REGIONAL DIPLOMATIC STRATEGY

    Question. Recent independent reports by the Atlantic Council and 
the Afghanistan Study Group call for adopting a regional approach to 
promoting stability in Afghanistan by bringing Afghanistan's neighbors 
together to discuss common issues.
    What is your understanding of NATO ISAF's position regarding 
establishing a regional process for engaging Afghanistan's neighbors on 
promoting security in Afghanistan?
    Answer. NATO, ISAF, and the Government of the Islamic Republic of 
Afghanistan have an established process and strategy for engaging 
Afghanistan's neighbors to promote security in Afghanistan. This 
process and strategy, through constructive, cooperative, and productive 
dialogue, is designed to improve bilateral political and economic 
relations, enhance border security, and seek bilateral and multilateral 
solutions to combating the narcotics trade. There are numerous 
mechanisms through which this strategy, which is reviewed every 6 
months by NATO, is executed:

        <bullet> ISAF and NATO's Senior Civilian Representative (SCR) 
        in Afghanistan engaging representatives from neighboring 
        countries in Kabul;
        <bullet> NATO's SCR visiting select embassies of neighboring 
        states;
        <bullet> ISAF Participation in the Tripartite Commission, 
        comprised of senior Afghan, Pakistani, and Afghanistan/Pakistan 
        border, and
        <bullet> NATO-Afghan consultations with NATO's Central Asian 
        Partners to discuss regional issues.

        <bullet> If confirmed, would you support including Iran in such 
        a position?
    Answer. Yes, from a purely military perspective, I would support 
including Iran in ISAF's regional process for engaging Afghanistan's 
neighbors on promoting security in Afghanistan. While it would be 
inappropriate for me to try to give an assessment on the current 
situation, I support any approved way for NATO to leverage the 
international community with the Government of Afghanistan to find more 
effective means to integrate Afghanistan's neighbors into the 
development and stabilization of Afghanistan. However, the decision 
regarding the extent and means through which NATO and ISAF will engage 
Iran is a political one that NATO's NAC must make with input provided 
from NATO's military authorities. That said, I can tell you that 
currently, NATO and ISAF may engage Iranian officials in Kabul for 
tactical military coordination of border issues.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, ISAF?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of GEN David D. McKiernan, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 22, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN David D. McKiernan, 0000.
                                 ______
                                 
    [The biographical sketch of GEN David D. McKiernan, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
           Biographical Sketch of GEN David D. McKiernan, USA
Source of commissioned service: ROTC.

Military schools attended:
    Infantry Officer Basic Course
    Armor Officer Advanced Course
    United States Army Command and General Staff College
    United States Army War College

Educational degrees:
    College of William and Mary - BA - History
    Shippensburg University - MPA - Public Administration

Foreign languages: None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of Appointment
------------------------------------------------------------------------
2LT.......................................  28 Aug 72
1LT.......................................  28 Aug 74
CPT.......................................  28 Aug 76
MAJ.......................................  1 Dec 81
LTC.......................................  1 Feb 88
COL.......................................  1 Aug 93
BG........................................  1 Oct 96
MG........................................  1 Feb 00
LTG.......................................  6 Nov 01
GEN.......................................  14 Dec 05
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 73..........................  Jul 75............  Scout Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       later Executive
                                                       Officer, B
                                                       Company, 4th
                                                       Battalion, 63d
                                                       Armor, 1st
                                                       Infantry
                                                       Division, Fort
                                                       Riley, KS
Jul 75..........................  Sep 76............  Executive Officer,
                                                       B Troop, later C
                                                       Troop, 4th
                                                       Squadron, 7th
                                                       Cavalry, 2d
                                                       Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea
Jan 77..........................  Jul 77............  Student, Armor
                                                       Officer Advanced
                                                       Course, United
                                                       States Army Armor
                                                       School, Fort
                                                       Knox, KY
Jul 77..........................  Oct 79............  Motor Officer,
                                                       later Commander,
                                                       B Company, 2d
                                                       Battalion, 33d
                                                       Armor, 3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe, Germany
Oct 79..........................  May 80............  Assistant S-3
                                                       (Air), 1st
                                                       Brigade, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe,
                                                       Germany
May 80..........................  May 81............  S-3 (Operations),
                                                       2d Battalion, 33d
                                                       Armor, 3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe, Germany
May 81..........................  Jun 82............  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jun 82..........................  May 84............  Operations
                                                       Training Staff
                                                       Officer, United
                                                       States Army
                                                       Training and
                                                       Doctrine Command,
                                                       Fort Monroe, VA
May 84..........................  Sep 85............  S-3, 1st Brigade,
                                                       3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe, Germany
Sep 85..........................  May 86............  Executive Officer,
                                                       2d Battalion, 32d
                                                       Armor, 3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe, Germany
May 86..........................  Dec 86............  Assistant G-3
                                                       (Training), 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe,
                                                       Germany
Jan 87..........................  Jun 88............  Assignment
                                                       Officer,
                                                       Colonel's
                                                       Division, United
                                                       States Total Army
                                                       Personnel
                                                       Command,
                                                       Alexandria, VA
Jun 88..........................  Jul 90............  Commander, 1st
                                                       Battalion, 35th
                                                       Armor, 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe,
                                                       Germany
Jul 90..........................  Dec 90............  Senior Task Force
                                                       Observer/
                                                       Controller,
                                                       Combat Maneuver
                                                       Training Center,
                                                       7th Army Training
                                                       Center, United
                                                       States Army,
                                                       Germany
Dec 90..........................  Apr 91............  Assistant G-3
                                                       (Operations), VII
                                                       Corps, Operations
                                                       Desert Shield/
                                                       Storm, Saudi
                                                       Arabia
Apr 91..........................  Jun 91............  Senior Task Force
                                                       Observer/
                                                       Controller,
                                                       Combat Maneuver
                                                       Training Center,
                                                       7th Army Training
                                                       Center, United
                                                       States Army,
                                                       Germany
Jun 91..........................  Jun 92............  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks, PA
Jun 92..........................  May 93............  G-3, 1st Cavalry
                                                       Division, Fort
                                                       Hood, TX
May 93..........................  Jun 95............  Commander, 1st
                                                       Brigade, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX
Jun 95..........................  Aug 96............  Executive Officer
                                                       to the Commanding
                                                       General, United
                                                       States Army
                                                       Forces Command,
                                                       Fort McPherson,
                                                       GA
Aug 96..........................  Nov 97............  Deputy Chief of
                                                       Staff, G-2/G-3,
                                                       Allied Command
                                                       Europe Rapid
                                                       Reaction Corps,
                                                       Germany and
                                                       Sarajevo
Nov 97..........................  Aug 98............  Assistant Division
                                                       Commander
                                                       (Maneuver), 1st
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug 98..........................  Oct 99............  Deputy Chief of
                                                       Staff for
                                                       Operations,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Oct 99..........................  Oct 01............  Commanding
                                                       General, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX
Oct 01..........................  Sep 02............  Deputy Chief of
                                                       Staff, G-3,
                                                       United States
                                                       Army, Washington,
                                                       DC
Sep 02..........................  Sep 04............  Commanding
                                                       General, Third
                                                       United, States
                                                       Army/Commander,
                                                       United States,
                                                       Army Forces
                                                       Central Command,
                                                       Fort McPherson,
                                                       GA, to include
                                                       duty as
                                                       Commanding
                                                       General,
                                                       Coalition Forces
                                                       Land Component
                                                       Command,
                                                       Operation Iraqi
                                                       Freedom, Kuwait
Oct 04..........................  Nov 05............  Deputy Commanding
                                                       General/Chief of
                                                       Staff, United
                                                       States Army
                                                       Forces Command,
                                                       Fort McPherson,
                                                       GA
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Deputy Chief of Staff, G-2/G-3,   Aug 96-Nov 97.....  Brigadier General
 Allied Command Europe Rapid
 Reaction Corps, Germany and
 Sarajevo.
Commanding General, Third         Nov 02-Sep 04.....  Lieutenant General
 United, States Army/Commander,
 United States, Army Forces
 Central Command, Fort
 McPherson, GA, to include duty
 as Commanding General,
 Coalition Forces Land Component
 Command, Operation Iraqi
 Freedom, Kuwait (No Joint
 Credit).
Commanding General, United        Dec 05-Present....  General
 States Army Europe and Seventh
 Army, Commander, Allied Land
 Component Command Heidelberg,
 North Atlantic Treaty
 Organization, Germany.
------------------------------------------------------------------------

U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Army Commendation Medal (with three Oak Leaf Clusters)
    Army Achievement Medal (with Oak Leaf Cluster)
    Parachutist Badge
    Ranger Tab
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN David D. 
McKiernan, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David D. McKiernan.

    2. Position to which nominated:
    Commander, International Security Assistance Force.

    3. Date of nomination:
    January 22, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 11, 1950; Atlanta, GA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Carmen Dittrich.

    7. Names and ages of children:
    Michelle, 30; Michael, 29; Stephanie, 19.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    N/A

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    N/A.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army (AUSA).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Honorary Doctorate (College of William and Mary), Public Service.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                David D. McKiernan.
    This 18th day of January, 2008.

    [The nomination of GEN David D. McKiernan, USA, was 
reported to the Senate by Chairman Levin on April 24, 2008, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on April 29, 2008.]
                              ----------                              

    [Prepared questions submitted to LTG Raymond T. Odierno, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols has significantly improved our ability to 
conduct joint operations. I believe it is important to review and 
update based on the changing environment. There should be a requirement 
to constantly review and adjust to ensure it continues to meet the 
desired intent.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. There is good reason to consider the development of 
Goldwater-Nichols Act-like legislation to delineate roles and 
responsibilities of Federal agencies in support of contingency 
operations.

                                 DUTIES

    Question. Section 3034 of title 10, U.S.C., states that the Vice 
Chief of Staff of the Army has such authority and duties with respect 
to the Department of the Army as the Chief of Staff, with the approval 
of the Secretary of the Army, may delegate to or prescribe for him.
    Assuming you are confirmed, what duties and powers do you expect to 
be assigned?
    Answer. Oversee day-to-day operations of the Army involving a wide 
variety of activities from serving as a principal advisor to the Chief 
of Staff of the Army on recommendations and plans of the Army Staff, to 
ensuring the care of soldiers and their families and ensuring the Army 
continues to be sensitive to their needs. Maintain our relevance to 
future contingencies and ensure we incorporate lessons learned 
throughout the institution. Establish priorities to meet demands and 
synchronize and focus the Army Staff to ensure strategic relevance.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. During my nearly 32 years of commissioned service, I have 
served the Army and the Nation from the tactical thru the strategic 
level. I have been assigned in tactical and operational units for 22 
years and have commanded soldiers from company to Corps level while 
participating in numerous training and operational deployments. I have 
served in a variety of command and staff positions to include joint and 
multinational staffs, where I gained experience in strategic and 
combined operations, including a tour as a Military Advisor for Arms 
Control in the Office of the Secretary of Defense (OSD), a tour of duty 
as the Director of Force Management in the Headquarters, Department of 
the Army. I also served as the Chief of Staff of V Corps during Bosnia 
operations and served as Deputy Commander Task Force Hawk in Albania 
during the Kosovo Conflict. I also commanded the 4th Infantry Division 
during Operation Iraqi Freedom I, then served as the Assistant to the 
Chairman of the Joint Chiefs of Staff which entailed being an advisor 
to the Secretary of State, and most recently as Commander of III Corps/
Multi-National Corps-Iraq for the last 23 months. My professional 
military education, deployment experience, and assignment history have 
provided me broad knowledge, experience, and insight into the business 
of running the Army in support of the requirements of the national 
security strategy. In particular, my tours of duty in Iraq have 
provided me with unique insights into the leadership, training, manning 
and equipping requirements that will make our Army successful on the 
battlefields of today and tomorrow.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Vice Chief of Staff 
of the Army?
    Answer. If confirmed for this position, I intend to:

        <bullet> Stay connected to the field commands,
        <bullet> Stay attuned to the ever changing needs of our 
        soldiers and their families,
        <bullet> Ensure we incorporate the lessons learned over the 
        last 5 years,
        <bullet> Maintain focus on the warrior ethos,
        <bullet> Demand high moral and ethical behavior,
        <bullet> Be aggressive--tackle challenges as they arise.

                             RELATIONSHIPS

    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of the Army.
    Answer. If confirmed, I would assist the Secretary of the Army in 
his duties to communicate the Army Staff's plans to the Secretary of 
the Army and to supervise the implementation of the Secretary and 
Chief's decisions through the Army Staff and Army commands and 
agencies. In this capacity, my actions would be subject to the 
authority, direction, and control of the Chief of Staff, and the 
Secretary of the Army. In my capacity as a member of the Joint 
Requirements Oversight Council (JROC), I would also be responsible for 
appropriately informing the Secretary of the Army about conclusions 
reached by the JROC about significant requirements. I anticipate that I 
would at all times work closely and in concert with the Chief of Staff 
and the Secretary of the Army to establish the best policies for the 
Army in light of national interests.
    Question. The Chief of Staff of the Army
    Answer. The Chief of Staff performs his duties under the authority, 
direction, and control of the Secretary of the Army and is directly 
responsible to the Secretary. The Chief of Staff of the Army presides 
over the Army Staff, transmits the plans and recommendations of the 
Army Staff to the Secretary, advises the Secretary with regard to such 
plans and recommendations; and acts as the agent of the Secretary in 
executing them. The Chief of Staff shall also perform the duties 
prescribed for him as a member of the Joint Chiefs of Staff. I enjoy a 
close working relationship with the Chief of Staff of the Army and if 
confirmed, I will assist him as required in the execution of his 
duties.
    Question. The Chairman and the other members of the Joint Chiefs of 
Staff
    Answer. If confirmed, it would be my duty, as a member of the JROC, 
to review and validate all Joint Capabilities Integration and 
Development System documents for Acquisition Category I and IA 
programs, and other high-interest programs. I look forward to a 
collaborative and frank relationship with the other Service Vice Chiefs 
in this role, and on all actions of national interest.
    Question. The Under Secretary of the Army.
    Answer. The Under Secretary of the Army is the Secretary's 
principal civilian assistant and performs such duties and exercises 
such powers as the Secretary of the Army prescribes. His 
responsibilities require him, from time to time, to issue guidance and 
direction to the Army Staff. If confirmed, I will be responsible to the 
Secretary of the Army, and to the Under Secretary through the Secretary 
of the Army and Chief of Staff of the Army, for the operation of the 
Army in accordance with such directives. I will cooperate fully with 
the Under Secretary of the Army to ensure that the policies established 
by the Office of the Secretary of the Army are properly implemented. I 
will communicate openly and directly with the Under Secretary of the 
Army in articulating the views of the Army Staff, Army commands, and 
Army agencies.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army have functional 
responsibilities that, from time to time, require the issuance of 
guidance to the Army Staff and to the Army as a whole. If confirmed, I 
will establish and maintain close, professional relationships with each 
of the Assistant Secretaries to foster an environment of cooperative 
teamwork between the Army Staff and the Army Secretariat as we deal 
together with the day-to-day management and long-range planning 
requirements facing the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army and serves as counsel to the Secretary and other 
Secretariat officials. His duties include coordinating legal and policy 
advice to all members of the Army regarding matters of interest to the 
Secretariat, as well as determining the position of the Army on any 
legal questions or procedures. If confirmed, I will establish and 
maintain a close, professional relationship with the General Counsel.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General is the legal advisor of the 
Chief of Staff of the Army, member of the Army Staff, and members of 
the Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal advisor to the 
Secretary of the Army. The Judge Advocate General also directs the 
members of the Judge Advocate General's Corps in the performance of 
their duties and, by law, is primarily responsible for providing legal 
advice and services regarding the Uniform Code of Military Justice and 
the administration of military discipline. Therefore, I will establish 
and maintain a professional and inclusive relationship with The Judge 
Advocate General and always welcome his expression of independent views 
about any legal matter under consideration.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges that will 
face the Vice Chief of Staff of the Army?
    Answer. We must maintain a balance between our ability to meet our 
requirements and the resources available. Soldiers and units in the 
Active and Reserve components have been hard at work serving the Nation 
in the war on terror. Despite our Army's remarkable performance, this 
has had an undeniable effect on equipment, training, and overall 
preparedness--not to mention the impact on families and the men and 
women of the All-Volunteer Force themselves. Maintaining a high-quality 
force able to excel in the current campaigns is a tough, multi-faceted 
challenge made more formidable by the imperative to be ready for other 
contingencies or conflicts the Army may undertake in support of our 
national security. This tension between meeting the priorities of the 
present while preparing for the future--in light of existing and 
emerging threats along a broad spectrum of conflict; the extent to 
which we do one at the expense of the other; and managing the 
associated costs and risks are fundamental to the decisions the 
Nation's military and civilian leaders will shape and make.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will assist the Secretary of the Army and 
the Chief of Staff of the Army to restore balance through the Army's 
four imperatives. I will work to sustain our soldiers and their 
families to insure that they have the quality of life they deserve and 
that we recruit and sustain a high quality force. To prepare our 
solders, units, and equipment we must maintain a high level of 
readiness for the current operational environments, especially in Iraq 
and Afghanistan. To reset our force we must prepare our soldiers, 
units, and equipment for future deployments and other contingencies. 
Finally, to transform our force, we must continuously improve our 
ability to meet the needs of the combatant commanders in a changing 
security environment. I intend to work closely with the Secretary of 
the Army and Chief of Staff of the Army, and appropriate agencies in 
both executive and legislative branches to develop and execute these 
plans.

                           ARMY BUDGET SHARE

    Question. Last year's Army Posture Statement points out that the 
defense budget allocation by Service has changed little over time with 
the Air Force and Navy around 30 percent and the Army around 25 
percent. Moreover, since the Army is manpower intensive, and personnel 
costs eat up a large part of its budget, only 25 percent of the Army's 
budget goes toward research, development, and acquisition, as compared 
to 38 percent in the Navy and 43 percent in the Air Force. Further, the 
Army's overall share of the DOD investment dollars is only 17 percent, 
as compared to 33 percent for the Navy and 35 percent for the Air 
Force. The result, according to the posture statement, is that ``the 
Army has been unable to invest in the capabilities needed to sustain a 
rising operational tempo and to prepare for emerging threats.''
    What is your understanding of the effects of this funding 
discrepancy on the Army?
    Answer. The effect is the Army is out of balance as demand has out 
paced our ability to provide trained and ready soldiers to the 
combatant commanders. Through supplemental funding for the global war 
on terror, we've been able to meet the immediate demands, but our 
soldiers are stressed and our equipment has been used hard. We must 
restore the necessary breadth and depth of Army capabilities to support 
and sustain essential capacity for the future demands on our 
Expeditionary Force. The solution lies not just in the Army's share of 
the defense budget but, more importantly, in the size of the overall 
defense budget.
    Question. What is your understanding about what, if anything, the 
Secretary of the Army, the Chief of Staff of the Army, and the 
Secretary of Defense intend to do to address this discrepancy?
    Answer. I saw first hand the results of the hard work and personal 
commitment of the Army and DOD leadership as well as Congress to 
immediately address any shortfall. We received the equipment we needed 
along with trained, ready and capable soldiers in Iraq. They've taken a 
step toward correcting this discrepancy by increasing the strength of 
the Army funded from the base budget in the fiscal year 2009 
President's budget rather than relying on supplemental appropriations. 
I understand the Secretary of Defense is working with the Army to 
achieve readiness requirements and to ensure the Army has the resources 
necessary to support the National Military Strategy.

                         POSTURE FOR THE FUTURE

    Question. Do you believe that current Army initiatives such as Grow 
the Force, Modularity, and Transformation to the Future Combat Systems 
(FCSs) adequately posture the Army to meet the most likely threats of 
the next 2 or 3 decades?
    Answer. The Army's future threats are defined in the National 
Defense Strategy and the National Military Strategy. Grow the Force, 
Modularity, and Transformation to the FCSs will help posture the Army 
to meet those threats. As we cannot predict threats with any certainty, 
we must build readiness and strategic depth that can respond to a broad 
range of possible situations. Our goal must be to build an Army 
versatile and agile enough to be employed in the range of military 
operations, across the major operational environments, in support of 
our National Security Strategy. The Army Initiatives are designed to 
give the Army required capabilities and adequate capacity providing 
maximum flexibility to respond to continual and asymmetrical threats 
over the next 30 years.
    Question. What other initiatives would you recommend the Army 
pursue in this regard if confirmed as Vice Chief of Staff of the Army?
    Answer. As our Nation's Army, we must always stay focused on our 
soldiers and their families. They are the centerpiece of our capacity 
to meet our future requirements.

                            LESSONS LEARNED

    Question. What do you believe are the major lessons learned from 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF), in 
particular concerning manning, training, and equipping the Army, which 
you intend to address if confirmed?
    Answer. First, the importance of environmental analysis which 
encompasses the entire geo-political, socio-economic, and global 
communications spectrums as they relate to the current conflict. Next, 
we must remember that it takes a network to defeat a network. 
Integration of conventional forces and special operations forces must 
continue to improve. We must also continue to integrate asymmetric 
warfare capabilities into our full spectrum operations. Finally, our 
leader training programs must emphasize the key tenets of adaptability, 
ingenuity, warrior ethos, and moral-ethical conduct.

                    IRAQ AND AFGHANISTAN DEPLOYMENTS

    Question. Many soldiers are on their third or fourth major 
deployment to Iraq or Afghanistan. Last year, unit deployments were 
extended to 15 months and dwell time in some cases is less than 12 
months.
    What is your assessment of the impact multiple deployments of 
troops to Afghanistan and Iraq is having on retention, particularly 
among young enlisted and officer personnel after their initial 
obligated service has been completed?
    Answer. The pace of deployments to Afghanistan and Iraq has not had 
an adverse impact on retention to date. Fiscal year 2007 retention of 
officers was slightly better than the overall 10-year average. The 
recently instituted Captains' retention program, which offers a number 
of incentives, to include attendance at graduate school or a retention 
bonus, has enhanced retention of officers at historic rates through 
fiscal year 2010.
    The retention rates of initial term and mid-career soldiers in 
deploying units has remained between 120-140 percent since fiscal year 
2005. For example, nearly 600 troops reenlisted in Baghdad on 
Independence Day this past year. In addition, more than 100 Army 
Reserve soldiers gathered at the Al Faw palace at Camp Victory, Iraq, 
on January 18, 2008, to reenlist during a ceremony marking the 100th 
Anniversary of the Army Reserve. Recently deployed units and units 
currently deployed to Afghanistan and Iraq have reenlistment rates 
averaging 110-120 percent of their yearly goals. This is a significant 
indicator of the quality of leadership within our ranks, the fact that 
soldiers believe in what they are doing, and the fact that soldiers 
value the tradition of service to the Nation.
    Question. What are the key indicators of stress on the force, and 
what do these indicators tell you about that level of stress currently?
    Answer. Our soldiers and families are strained and stretched, but 
they are also remarkably resilient. The Army monitors key indicators of 
individual behaviors and aggressively pursues policy or program changes 
to address negative trends. As an example, rates of substantiated 
spouse abuse have declined steadily since fiscal year 2001 and child 
abuse since fiscal year 2004. In addition to programs like ``Strong 
Bonds,'' the Army is committed to providing programs and services that 
support soldiers and their families. The overall health of the Force 
reflects a resilient Army, strained by persistent conflict, but still 
maintaining a solid foundation.
    Question. In addition to any other stress indicators that you 
address, please discuss suicide and divorce rates, drug and alcohol 
abuse, AWOLs, and rates of indiscipline.
    Answer. Our soldiers and families are strained and stretched, but 
they are also remarkably resilient. The Army monitors key indicators of 
individual behaviors and aggressively pursues policy or program changes 
to address negative trends.
    We see the following trends:
    The suicide rates are trending upward. Applying a multi-
disciplinary approach, we are continuously reviewing and adapting our 
awareness, intervention, and treatment resources in support of soldiers 
and commanders.
    Overall officer divorce rates are declining. Enlisted divorce rates 
trended upward from fiscal years 2006 to 2007, but remain below or 
equal to rates since 2004. Divorce rates have increased among enlisted 
female soldiers, and deployed soldiers divorce at a higher rate than 
those who have not deployed. The Army offers a robust chaplain-
sponsored ``Strong Bonds'' training program to help soldiers and 
families build and maintain stronger relationships.
    Drug abuse rates overall show a slight increase, but rates in 
deployed areas are declining. The Army has continued its aggressive 
drug education, awareness, and testing programs.
    Enrollments for alcohol abuse treatment are continuing in an upward 
trend. The Army provides comprehensive education packages directed at 
the reduction of alcohol abuse, to include post deployment training. 
Alcohol abuse rates are monitored continuously via the Army's Risk 
Reduction Program. We are also developing and implementing preventative 
intervention programs for soldiers at the first sign of trouble. 
``Prevention of Alcohol Abuse'' messages are incorporated in Army-wide 
prevention of substance abuse campaigns like ``Warrior Pride.''
    Rates for absence without leave (AWOL) show an upward trend. Rates 
are monitored closely and commanders adjudicate each instance of AWOL 
based on the facts and circumstances of the soldier's individual case.
    In fiscal year 2007, the number of General and Special Courts-
Martial increased, but rates remain below the highest post-fiscal year 
2001 rates.
    Substantiated rates of spouse and child abuse have declined 
steadily since fiscal year 2001. In addition to programs like ``Strong 
Bonds,'' the Army continues to focus resources on programs and services 
that support soldiers and their families.
    The overall health of the force reflects a resilient Army, strained 
by persistent conflict, but still maintaining a solid foundation.
    Question. For how long do you believe these levels of commitments, 
in particular the 15 month deployments for combat units, can continue 
before there will be significant adverse consequences for the Army?
    Answer. Over the past few years we have seen definitive indications 
that the force is strained. Stress on soldiers and units resulting from 
increased time deployed and decreased time at home are visible in 
several different areas including training, readiness and recruitment. 
However, we have a plan that will, with congressional assistance, 
restore balance to our force. We have identified four imperatives that 
we must accomplish to place ourselves back into balance: sustain, 
prepare, reset, and transform.
    We have and will continue to make significant progress in these 
areas to bring the Army back into balance. We assess that we will 
continue to recruit and retain enough soldiers to meet our end strength 
requirements. We also have received authorization to accelerate our 
growth plan to 2011, which will assist the Army in restoring balance to 
preserve our All-Volunteer Force, restoring the necessary strategic 
depth and capacity for the future while sustaining a provision of 
forces to combatant commanders at pre-surge levels.
    While the Army is continually working to reduce the deployment 
times of its soldiers, it is capable of meeting the current level of 
global commitments as long as they remain at or below pre-surge levels 
for the foreseeable future. In doing so, we will continue to deploy 
only the best led, manned, equipped, and trained soldiers into combat 
to meet the national strategy.

                    POST-DEPLOYMENT HEALTH CONCERNS

    Question. The health-related problems experienced after Operations 
Desert Shield and Desert Storm led to the undertaking of extensive 
efforts to establish a comprehensive health database on deployed forces 
based on pre- and post-deployment health surveys.
    If confirmed, what actions would you expect to take to ensure that 
the Army uses available data--and generates additional data--on the 
health of returning soldiers to ensure that appropriate treatment is 
available and that all signs of deployment-related illnesses or 
potential illnesses are identified?
    Answer. If confirmed, I will work to ensure that soldiers are 
referred to appropriate care when their survey responses indicate that 
additional evaluation and treatment are needed. This will require 
improving the process to track referrals and treatment plans.
    The addition of the Post-Deployment Health Reassessment and the new 
annual Periodic Health Assessment provides us with the ability to 
monitor the ongoing health, readiness, and wellness of our soldiers 
after initial redeployment, and long before they start preparing for 
their next deployment.
    The Army has recognized that building soldier and family resiliency 
is key to maintaining their health and welfare. We developed 
``Battlemind'' training products to increase this resiliency and have 
several different training programs available for pre, during and post-
deployment.
    Last summer the Army initiated a leader chain teaching program to 
educate all soldiers and leaders about post-traumatic stress and signs 
and symptoms of concussive brain injury. This was intended to help us 
all recognize symptoms and encourage seeking treatment for these 
conditions. We are now institutionalizing this training within our Army 
education and training system to share the information with our new 
soldiers and leaders and to continue to emphasize that these signs and 
symptoms are normal reactions to stressful situations and it is 
absolutely acceptable to seek assistance to cope with these issues.

                     MENTAL HEALTH ADVISORY TEAM V

    Question. The Army's mental health assessment studies in the Iraq 
and Afghanistan theaters have been valuable in identifying the extent 
of mental health conditions and resource and training challenges being 
experienced in OIF and OEF.
    Based on the findings of the Mental Health Advisory Team (MHAT) V 
that soldiers experience increased stress due to multiple and 
lengthened deployments, what actions would you take, if confirmed, to 
ensure that appropriate kinds and amounts of mental health resources 
are available to soldiers in theater, as well as upon their return?
    Answer. If confirmed, I fully support continuation of MHAT 
assessments in theater to ensure that the correct ratio and 
distribution of deployed behavioral health providers are maintained to 
meet the psychological needs of the deployed force. Last summer the 
Army Medical Command initiated action to hire 275 behavioral health 
providers to care for soldiers and families in the United States. To 
date, we have hired 162 providers who are already making a difference 
in our military communities. If confirmed, it is my plan to ensure the 
Army Medical Command has the resources and flexibility required to fill 
all of our behavioral health care requirements.
    Question. What do you think have been the most valuable findings of 
the Army's mental health advisory teams, and what are the lessons which 
can be applied to future deployments?
    Answer. MHAT findings have been used as the basis to reshape 
existing Combat and Operational Stress Control units to create more 
flexible and capable units. MHAT information has also been used to 
predict better the quantity of behavioral health assets required for 
current and future conflicts. Finally, MHAT information has been 
utilized to create a training program known as ``Battlemind,'' which 
changes the way the Army prepares soldiers, leaders, and families for 
high stress deployments.

              TRICARE FEE INCREASES FOR MILITARY RETIREES

    Question. In its fiscal year 2009 budget request, the Department of 
Defense assumed $1.2 billion in cost savings based on its proposal to 
implement increases in TRICARE costs for certain beneficiaries, 
including higher enrollment fees for military retirees and their 
families.
    If these fee increases are implemented, what do you see as the 
likely impact of these changes on the Department of the Army?
    Answer. The proposed plan would charge both higher enrollment fees 
and civilian visit co-payments for TRICARE Prime and initiate 
enrollment fees and higher deductibles for TRICARE Standard ``working 
age'' retirees under 65 and their families. For these beneficiaries, 
some cost increases would be based on a three-tiered system of annual 
military retired pay. Last, the proposed budget would raise co-payments 
for all beneficiaries on prescriptions filled at retail pharmacies. 
While the budgetary impacts of these changes would be recognized in OSD 
accounts, reductions in expense for medical benefits for retirees would 
lessen pressure on the total Defense budget and begin to address 
benefit inequities between military retirees and other Federal 
retirees.
    Question. What is your personal view of the DOD justification 
provided for increases in TRICARE enrollment fees for retirees and are 
there alternatives to such increases you would recommend if confirmed?
    Answer. We must maintain world-class medical support for our 
retirees, but must be realistic in establishing costs and planning for 
the future.

                          STOP LOSS AUTHORITY

    Question. How many soldiers do you expect to be on active duty, 
retained under stop loss authority at the end of fiscal year 2008?
    Answer. The Army expects to have 8,046 Active component soldiers 
retained under Stop Loss authority serving in the Army at the end of 
fiscal year 2008. The Stop Loss forecast for the Reserve components for 
September 2008 is approximately 6,000.
    Question. What is the Army's plan for reducing stop loss as it 
increases its end strength through 2012?
    Answer. Department of Defense guidance directs the Services to 
discontinue Stop Loss policies as soon as operationally feasible. The 
plan to reduce, and eventually eliminate, Stop Loss will be based on a 
reduction in demand and a return to a cycle of ``1 year deployed with 2 
years at home.'' The growth of Army end strength supports the growth of 
additional Brigade Combat Teams (BCTs), which supports a return to a 
cycle of ``1 year deployed with 2 years at home.''

                  RESERVE DEPLOYMENT AND MOBILIZATION

    Question. In recent years, Reserve Force management policies and 
systems have been characterized as ``inefficient and rigid,'' and 
readiness levels have been adversely affected by equipment stay behind, 
cross-leveling, and reset policies.
    What are your views about the optimal role for the Reserve 
component forces in meeting combat missions?
    Answer. To respond to Joint Staff and combatant commanders' 
requests for forces and capabilities, the Army considers all three 
components (Active, Guard, and Reserve) in developing sourcing 
solutions. Each component plays a critical role in meeting our 
operational requirements. Transformation continues from a strategic to 
an Operational Reserve. It is an operational, expeditionary and 
domestic force that is an essential piece of our Army. The Army will 
continue to select the best units, capable of meeting Joint Staff and 
combatant command requirements, with full confidence in each unit's 
ability to carry out its assigned mission.
    Question. What is your opinion about the sufficiency of current 
Reserve Force management policies?
    Answer. The Army has made considerable progress in ``total force'' 
management in the last few years. Our Army Force Generation (ARFORGEN) 
process will, as it matures, enable us to balance the demands of known 
operations across all three components (Active, Guard, and Reserve) and 
reduce the stress on the force. Our Secretary and our Chief of Staff 
continue the practice set by their predecessors of fully engaging 
Reserve component leaders and staffs in programming, equipping and 
readiness decisions. Over the past few years, the Army has made 
considerable funding commitments to the Reserve components for re-set 
and re-equipping actions, and our Chief's initiatives and imperatives 
include the Total Army. Together, these efforts will set the stage for 
effectively transforming, manning, training, equipping, and sustaining 
America's Army, while fully meeting our commitments at home and 
overseas.
    Question. Do you support assigning any combat, combat support, or 
combat service support missions exclusively to the Reserve?
    Answer. Both the Army Reserve and the Army National Guard are 
organized and arrayed to perform missions across the full spectrum of 
combat, combat support, and combat service support operations. In 
today's operational environment, it is prudent to assign missions and 
capabilities across all components of the Army. There are opportunities 
to balance our force to meet current contingencies and to prepare for 
future operations, and the Secretary and Chief of Staff are fully 
engaged in such an effort with the aim of arraying capabilities across 
the Army so that operational demands are fully met.
    Question. What is the appropriate role for the Army Reserve and 
National Guard in homeland defense and homeland security missions?
    Answer. The National Guard forces respond to a natural disaster or 
provide assistance to civil authorities under control of the Governor 
in title 32 status or under Federal control in a title 10 status. The 
National Guard Bureau (NGB) supports the channel of communications 
between the State and Federal forces.
    The Army Reserve plays a unique role since it commands a highly-
skilled, flexible force that provides 50-100 percent of the entire 
Army's force structure for 21 specialized capabilities such as water 
supply, medical, transportation, signal, and chemical units.
    When a domestic emergency occurs, including chemical, biological, 
or nuclear attack, the affected Governor(s) shall first employ their 
Air and or Army National Guard with State authority, as the State 
response forces, if required. In the event of a catastrophic event, the 
States will likely request Federal military assistance. The Army will 
provide the majority of that assistance with capabilities allocated to 
Northern Command from Active, Guard, and Reserve components in a title 
10 status, both to support Homeland Defense, and provide Defense 
Support to Civil Authorities.

                 INDIVIDUAL READY RESERVE RECALL POLICY

    Question. A July 2006 report by the Center for Strategic and 
International Studies (CSIS) recommended that the Army revitalize its 
Individual Ready Reserve (IRR) program by culling existing IRR 
databases and ensuring that the Army has valid contact information on 
IRR members who may be recalled to serve.
    What has the Army done to clarify the mobilization policy that 
applies to both officer and enlisted members of the IRR?
    Answer. The Army has programmed for and has developed plans to 
optimize the operational and strategic value of the IRR by improving 
individual deployment readiness levels to ensure timely availability; 
maintaining a reliable database of mobilization assets; and promoting 
continuum of service by managing expectations throughout a soldier's 
career life-cycle. Human Resource Command (HRC) is accomplishing by 
implementing the following:
    Select soldiers attend Readiness and Personnel Accountability 
Musters at local Reserve Centers and execute personnel updates, medical 
readiness evaluations, and training briefings. Executing musters each 
year will ensure that individual expectations are being established, 
soldiers are aware of their annual requirements and potential for 
mobilization, as well as educated on how to build upon a military 
career while assigned to the IRR. In fiscal year 2007 over 8,400 IRR 
soldiers were mustered and over 720 IRR soldiers transferred to the 
Selected Reserves (SELRES). HRC is planning on mustering 10,000 IRR 
soldiers in fiscal year 2008 and anticipates similar number of 
transfers to the SELRES.
    Educate and raise awareness at time of transition. Soldiers are 
counseled and provided information regarding their assignment to the 
IRR. The IRR Orientation Handbook has been developed and is provided to 
newly assigned IRR soldiers in order to establish expectations, provide 
key information regarding their assignment and annual requirements, 
promotions, training opportunities, as well as continued service in the 
Selective Reserves.
    Question. What has the Army done to update its IRR mobilization 
database?
    Answer. In the last 3 years the IRR has decreased in size by 33 
percent. HRC has conducted a systematic screening of the IRR database 
to reconcile existing records (blank and erroneous data fields, 
obsolete military occupational skills, bad addresses); identify non-
mobilization assets (passed over for promotion, security violation, 
physically disqualified, determined hardship, adverse character of 
service); and separated those soldiers who no longer have further 
potential for useful military service if mobilized. Incorrect IRR 
addresses have been the single largest mobilization exclusion, but are 
at a 10-year low overall. Approximately 9 percent of those ineligible 
for mobilization are excluded for an incorrect address.
    DOD established a policy in July 2005 mandating the discharge of 
officers in the IRR who are beyond their Military Service Obligation 
(MSO) unless the officer specifically requests retention in the IRR. 
Officers who have fulfilled their MSO and have not taken action to 
elect to remain in the IRR shall be transferred to the Standby Reserve 
and discharged within 2 years of transfer. To date approximately 14,000 
IRR officers have been affected by this policy: 2,800 officers elected 
to transfer to the Standby Reserve and 2,900 have been honorably 
discharged.
    HRC has developed the Individual Warrior Virtual Screening Portal 
(IW-VSP) for IRR soldiers to update their contact information and 
verify their readiness level without having to report to a physical 
location. HRC screens all information submitted through the website, 
reconciles deficiencies, and contacts soldiers that require additional 
assistance.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Total Force, and what is your opinion about the role the 
IRR should play in the future?
    Answer. Retaining required skills and maintaining the population in 
the IRR is important to managing our operational and strategic 
capability. The Army recognizes the value of keeping trained and 
motivated members in the service and we continue to offer opportunities 
for continued service. The IRR is an important and critical source of 
personnel resources to fill deploying units and individual 
requirements.

                           OFFICER SHORTAGES

    Question. A report issued by the Congressional Research Service 
(CRS) in July 2006 concluded that the Army projected an officer 
shortage of nearly 3,000 in fiscal year 2007, with the most acute 
shortfalls in the grades of captain and major with 11 to 17 years of 
service. Unless corrective action is taken, CRS found that shortages 
will persist through 2013 unless accessions are increased and retention 
improves.
    What is your understanding of the reasons for the shortfall, and 
what steps is the Army taking to meet this mid-career officer 
shortfall?
    Answer. Our current officer shortages are not caused by increased 
attrition. Attrition rates are at or below the 10-year average rates. 
The officer shortfalls are due to the growth of officer requirements of 
10,000 ACC officers from fiscal year 2004 to fiscal year 2012. Nearly 
6,200 of these requirements are in the grades of Captain and Major. To 
address this shortfall, we have increased accessions and will have 
produced nearly 5,000 additional officers by fiscal year 2009.
    The Army instituted a precommissioning retention incentives program 
that is projected to increase by nearly 30 percent our retention of 
high performing USMA and ROTC scholarship officers by offering them 
graduate school, branch choice, or assignment choice in exchange for 
additional active duty service. The Army has sought officers 
aggressively from outside the Active Army and has accessed nearly 1,500 
officers from the inactive Reserve and from the other services through 
the ``Blue to Green Program.''
    The Army's biggest success has been the institution of an 
unprecedented Captains' retention program that offers a number of 
incentives, including attendance at graduate school or a retention 
bonus, to encourage our best and brightest officers to remain on active 
duty. This program has guaranteed the retention, already within a few 
hundred officers of historic rates, of our valuable force of heavily 
combat-experienced officers through fiscal year 2010 and beyond.
    Question. If confirmed, what actions would you take to ensure 
adequate numbers of highly qualified captains and majors are serving on 
active duty over the next 10 years?
    Answer. The Army has developed policies to retain our ``best and 
brightest,'' combat-experienced officers and NCO's. We will not allow 
the Army to drift into a post-conflict setting or mindset. This will 
require refocusing the Army and a commitment to leveraging combat-
experienced soldiers in key and critical assignments, such as in the 
schools and battlelabs of U.S. Army Training and Doctrine Command.
    The Army will continue to monitor and analyze officer attrition and 
develop additional measures to retain our highly performing officers. 
To aid our retention efforts we also must continue resourcing programs 
to support Families in an expeditionary Army during a period of 
persistent conflict.

                OFFICER RETENTION FOLLOWING REDEPLOYMENT

    Question. After the Vietnam War there was a large reduction in 
force which some believed masked a voluntary departure of some of the 
best and brightest junior officers from active duty who, after serving 
in very responsible positions at a relatively young age in combat, had 
difficulty adjusting to a peacetime Army. The nature of the wars in 
Iraq and Afghanistan--small unit actions where junior officers are not 
only military leaders, but also diplomats and city managers, and where 
they have even greater authority to act on their own initiatives--may 
produce similar behavior and consequent difficulty in retaining highly-
trained and experienced junior officers.
    Do you fear a similar syndrome once the current deployment cycle 
slows? If so, what do you believe should be done to preclude that from 
happening?
    Answer. It is something that we must constantly monitor. We have 
established several programs to retain our combat experienced NCOs and 
officers and allow for their continued growth.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. The Army is facing significant shortages in critically 
needed medical personnel in both Active and Reserve components. Growing 
medical support requirements, caused by the stand-up of BCTs, growth 
Army end strength, surge requirements in theater, and other factors may 
compound the already serious challenges faced in recruitment and 
retention of medical, dental, nurse, and behavioral health personnel.
    Do you think a comprehensive review of the medical support 
requirements for the Army is needed?
    Answer. Yes, I believe it is important to review medical support 
requirements on a regular, recurring basis; the Army already reviews 
medical support requirements as a part of its ongoing internal 
processes. For example, in Total Army Analysis (TAA), the Army 
validated over 3,000 new military medical requirements for the 
operational force. In the Institutional Army TAA, the Army identified 
over 2,500 new military medical requirements and over 2,400 new 
civilian medical requirements for the institutional Army. There are 
other reviews looking at important specific issues like military to 
civilian conversion, behavioral health, and traumatic brain injury, to 
name just a few.
    Question. Does the Army have sufficient mental health resources to 
handle the redeployment of large combat units?
    Answer. The Army is committed to ensuring all redeploying soldiers 
receive the behavioral health care they need. We anticipate that 
repeated and extended deployments will lead to increased distress and 
anxiety, and a higher demand for behavioral health services, and are 
planning to respond to that demand. An extensive array of behavioral 
health services has long been available to address the strain on our 
soldiers and families who have experienced multiple deployments. 
However, especially at our larger power projection platforms, the 
mental health resources are strained. The TRICARE purchased care 
network is also variable in its ability to support the mental health 
needs of our soldiers and their families. Currently we are focused on 
the needs at Fort Drum and Fort Bragg, but all installations with large 
numbers of returning soldiers will need resources.
    We have a variety of initiatives in place to garner additional 
behavioral health resources. Most significantly, last year we 
identified a gap between behavioral health staffing and the increased 
needs of our patient population. As a result, we initiated an effort to 
hire 265 behavioral health providers to meet this gap in the U.S. The 
number of requirements has increased to about 330 providers, both in 
the U.S. and at our overseas locations. As of March 28, 2008, we have 
162 new behavioral health contract providers working in our treatment 
facilities.
    Question. What plans does the Army have in place to ensure that a 
surge capability of mental health professionals is available to 
returning soldiers and their families?
    Answer. Through our Regional Medical Commands we shift our assets 
to fill needs. For example, the North Atlantic Regional Medical Command 
has been providing behavioral health staff from Walter Reed to support 
needs at Fort Drum and Fort Bragg. However, our behavioral health 
resources are strained across the Army, so we have only limited 
flexibility to shift resources. Our strategy is to enhance our 
behavioral health infrastructure throughout the system rather than 
providing surge teams, which can be inefficient and cumbersome. We also 
use tele-psychiatry to augment our outreach capacity. Walter Reed has 
long supported the Northeast with tele-psychiatry and recently has 
begun to support Fort Hood. Madigan Army Medical Center is currently 
supporting Fort Irwin and Alaska through tele-psychiatry. Finally, in 
coordination with the TRICARE Management Activity, we are encouraging 
civilian providers to join the TRICARE network.
    Question. What policy and/or legislative initiatives do you think 
are necessary in order to ensure that the Army can continue to fulfill 
medical support requirements as its mission and end strength grow?
    Answer. Given the policy initiatives currently underway and the 
changes implemented by the National Defense Authorization Act for 
Fiscal Year 2008, we are optimistic that further policy and legislative 
changes will not be needed. We will monitor these important resources 
closely to ensure our goals are realized.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department of the Army has implemented changes in 
policy and procedures aimed at preventing and responding appropriately 
to incidents of sexual assault.
    What is your view of the appropriate role for senior military and 
civilian leaders in the Department of the Army in overseeing the 
effectiveness of implementation of new policies relating to sexual 
assault?
    Answer. Sexual assault is a crime that has no place in our ranks. 
The role of senior Army leadership is to ensure an organizational 
climate where such behavior is not tolerated, and where victims feel 
free to report incidents without fear of reprisal. The Secretariat and 
Army Staff oversee and implement the Army's Sexual Assault Prevention 
and Response Program, which is now more than 3 years old. The 
Secretary, in fact, has taken a personal interest in this issue and has 
directed the expansion and implementation of new strategies to increase 
emphasis on sexual assault prevention measures. If confirmed, I will 
assist him in this vitally important effort.
    As part of senior leader involvement, senior Army leaders review 
the Army Sexual Assault Report quarterly and submit statistical data to 
DOD on both a quarterly and an annual basis. Senior leaders also submit 
an annual Army report and program assessment to the Secretary of 
Defense in accordance with statutory requirements and Department of 
Defense policy. Finally, Senior Army leaders require their Inspector 
Generals periodically to assess the program for compliance with 
statutory and regulatory requirements.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. The Department of the Army has taken a very deliberate and 
direct approach to SES management. If confirmed, I intend to continue 
this initiative. The Army looks to its SES Corps as a replacement for 
military leaders in critically important areas, such as acquisition, 
financial management, science, engineering, and human resource 
management. As the Army has sent its flag officers into joint billets 
to support the war, it has replaced them with SES members. The Army is 
reallocating positions to ensure senior executives are aligned with 
evolving business strategy. My vision for the management and 
development of senior executives is a senior civilian workforce that 
possesses a broad background of experiences to prepare them to move 
between positions in order to meet the continually changing mission 
needs of the Army. I am committed to providing for the professional 
development and management of our civilian executives in ways 
consistent with what the Army has done for its General Officer Corps 
for many years. As the Army moves forward with its transformation, if 
confirmed, I will be committed to reinforcing and institutionalizing 
the value that each senior executive brings to the leadership team and 
to promoting and sustaining high morale and esprit de corps.

                        ARMY FAMILY ACTION PLAN

    Question. The Army Family Action Plan has been successful in 
identifying and promoting quality of life issues for Army families.
    What do you consider to be the most important family readiness 
issues in the Army, and, if confirmed, what role would you play to 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. The pace of operations has placed great stress on Army 
families. Secretary Geren and General Casey have responded to that 
challenge by making the commitments set forth in the Army Family 
Covenant, a promise to provide soldiers and families a quality of life 
commensurate with their voluntary service and daily sacrifices. The 
Army Family Covenant is focused on five areas: Family programs and 
services; health care; soldier and family housing; excellent schools, 
youth services and child care; and expanded employment and education 
opportunities for Family members. I will also work to help further 
standardize the support being provided to soldiers and families and to 
obtain predictable funding to these important programs. One area of 
particular concern that has already been addressed is the fatigue and 
burnout of Family Readiness Group leaders and support staff as they 
support our families in a time of persistent conflict. We are improving 
our ability to address soldier-family reintegration and reunion issues. 
The Family Readiness Support Assistant (FRSA) program supports Army 
spouses who volunteer as Family Readiness Group Leaders, Unit 
Commanders, and Rear Detachment Commanders. The FRSA helps mitigate 
volunteer stress and ensures an effective interface between families 
and support programs.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, extended deployment lengths, and the 
planned growth of the Army?
    Answer. The Installation Management Command works extensively with 
garrisons to develop individual plans to meet staffing, funding, and 
programming requirements. Our BRAC plans address the needs of families 
as their numbers change on our installations. Our global rebasing plans 
include maintaining support to our soldiers and families throughout the 
process. At the installations that are expected to grow, we have 
programmed new child development centers, youth centers, and fitness 
facilities. Likewise, we have plans to support our soldiers and 
families in isolated locations. If confirmed, I will closely monitor 
these efforts to ensure that our families' needs are met as the Army 
undergoes this dramatic era of growth, restationing, realignment, 
deployment.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment, and family 
readiness?
    Answer. The Army Integrated Family Support Network (AIFSN) will 
provide a comprehensive, multi-agency approach for community support 
and services to meet the needs of the Army's geographically dispersed 
population. This effort is crucial in supporting Army National Guard 
and Army Reserve Families. The baseline services are: information, 
referral, and follow-up services; child care services; youth services; 
school transition services; employer support to the Guard and Reserve 
services; wounded warrior program services; survivor support services; 
transition assistance services; employment; home and family life 
management services; financial services; medical care services; and 
legal services. AIFSN provides additional manning for 249 Army National 
Guard Family Assistance Centers spread across the country. AIFSN will 
provide a network consisting of virtual programs, brick-and-mortar 
facilities, and access to public and private programs and services. 
AIFSN will ensure services and support are available throughout the 
full spectrum of the mobilization process. Additionally, the NDAA for 
Fiscal Year 2008 requires the OSD to establish a reintegration program 
for the Army National Guard. This program, called the Yellow Ribbon 
Reintegration Program, is a key aspect of AIFSN and provides programs 
and services that specifically address the needs of our Guardsmen and 
their Families. If confirmed I will work to ensure that these programs 
are implemented fully and assessed properly to insure we attain 
expected outcomes.

                    MORALE, WELFARE, AND RECREATION

    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments.
    What are the challenges in sustaining Army MWR programs that you 
foresee, and, if confirmed, what improvements would you seek to 
achieve?
    Answer. Army MWR programs contribute immensely to the quality of 
life of our military families. Their continued vitality depends on 
consistent appropriated and non-appropriated funding to support all of 
our MWR activities. The Army increased funding for family and MWR 
programs by $739 million with supplemental funds in fiscal year 2008 
and is moving a significant amount of base funding to the care of 
soldiers and families. The Army's MWR funds are currently in sound 
financial condition. All MWR activities report a high degree of 
solvency through the use of best business practices and enterprise 
purchasing. This allows us to increase the value of our programs by 
eliminating inefficiencies, which would otherwise have to be passed on 
in the form of higher prices.
    The road ahead is challenging. The Army is fighting a war while 
transforming to a more consolidated, expeditionary, and joint force. 
However, the needs of individual servicemembers and their families must 
still be met, particularly as soldiers return from combat. We are 
developing programs like Adventure Quest, which allows a means of 
adjusting from the adrenalin rush prevalent in the combat environment 
and redirecting that energy into recreational pursuits. The Army will 
continue to explore the most effective means of supporting MWR programs 
to ensure we are meeting the needs of soldiers and families and 
contributing positively to recruiting, retention, and readiness. We 
will also use the efficiencies in our MWR business activities as the 
basis for investment capital development to fund an $85 million Capital 
Program annually for the next 10 years to build Travel Camps, Bowling 
Centers, Water Parks, Youth Centers, Single Soldier Entertainment 
Centers, and other facilities for our highly deserving soldiers and 
families. We will begin privatizing our lodging programs this summer by 
transferring our lodging facilities on 11 U.S. installations to a 
highly successful national hotel operating company, which will invest 
$450 million to upgrade and modernize these facilities. This will 
insure the quality of the lodging we provide our soldiers and families 
is equal to the quality available in the communities from which we 
recruit America's sons and daughters. We appreciate your support of 
these important programs, and will continue to consult with you as we 
implement these far-reaching and enduring changes.

                   RESERVE AND NATIONAL GUARD SERVICE

    Question. Heavy demand on the Army National Guard and Army Reserve 
since the attacks of September 11 have significantly changed the 
expectation of Reserve and Guard soldiers about their participation in 
an operational Army Reserve. The Commission on the National Guard and 
Reserve recently submitted its final report calling for formal 
recognition of this new and developing role for the Reserve components 
and recommending changes in career patterns to facilitate development 
of the Operational Reserve.
    In your view, how should the Army's Reserve component forces best 
be managed to provide essential support for operational deployments in 
Afghanistan and Iraq?
    Answer. The Army endeavors to respond to Joint Staff and Combatant 
Commanders' requests for forces and capabilities by considering all 
three components (Active, Guard, and Reserve) in our sourcing solution. 
The Guard and the Reserve have combat arms units (e.g., Infantry, 
Armor, Artillery, and Aviation) which are regarded as fully capable for 
combat service, and have demonstrated their abilities in a superb 
manner over the past few years. The same applies to the broad spectrum 
of Combat Support and Combat Service Support units and soldiers in our 
Reserve components. The Army will continue to select the best units 
capable of meeting Joint Staff and combatant command requirements, with 
full confidence in each unit's ability to carry out its assigned 
mission.
    Question. What is your understanding of the Army's plans to avoid 
excessive demands on personnel and units in low density, high demand 
specialties whose skills are found primarily in the Reserve, such as 
civil affairs, military police, and logistics?
    Answer. The Army is meeting the demands of persistent conflict by 
taking initiatives in force structure growth and by rebalancing 
capabilities across all three components to minimize excessive demand 
on low density, high demand specialties. The Grow the Army Plan 
approved in fiscal year 2007 increases the Army end strength by 74,200, 
a growth of 65,000 in the Active component (AC), 8,200 in the Army 
National Guard (ARNG), and 1,000 in the United States Army Reserve 
(USAR). With associated redistribution of Reserve component (RC) 
Generating Force structure to build Operating Force capabilities, the 
Plan will increase Army Operating Force capabilities by over 80,000. 
Since fiscal year 2003, the Army has undertaken rebalance initiatives 
to achieve the proper mix of capabilities across all three components, 
eliminate involuntary mobilization of the RC, eliminate manning 
shortfalls in the AC, eliminate over-structure in the RC and minimize 
high demand/low density shortfalls. By the close of fiscal year 2007, 
the Army had completed rebalance of 53,600 structure spaces and will 
rebalance an additional 88,700 spaces by fiscal year 2013, bringing the 
Army rebalance total, since fiscal year 2003, to 142,300 spaces. The 
combination of the Grow the Army Plan and ongoing rebalance initiatives 
has addressed persistent shortfall capabilities increasing logistics by 
24,700; Military Police by 16,700, Engineers by 11,400, Military 
Intelligence by 9,100, and adds 11,200 of structure to SOF (to include 
growth in PSYOP by 2,200, Special Forces by 1,600 and Civil Affairs by 
400). The combined impact of rebalance and growth will build strategic 
and operational depth across all three components to meet Combatant 
Commander requirements, mitigate high demand, low density persistent 
shortfalls, and enable strategy.

                        RECRUITING AND RETENTION

    Question. What is your assessment of the Army's ability to reach 
its recruiting goals for the Army, Army Reserve, and Army National 
Guard in fiscal year 2008 and fiscal year 2009?
    Answer. Recruiting America's All-Volunteer Force will continue to 
be a challenge because of the growing percentage of youth ineligible 
for military services (disqualified for medical, fitness, aptitude, 
etc,), the increased competition with private industry and other 
governmental agencies, and the decreasing propensity to serve the 
Nation through military service. Despite these challenges, we remain 
confident that all Army components will attain the accession targets 
necessary to sustain or grow end strength.
    Question. What is your assessment of the impact multiple 
deployments of troops to Afghanistan and Iraq is having on retention, 
particularly among young enlisted and officer personnel after their 
initial obligated service has been completed?
    Answer. The pace of deployments to Afghanistan and Iraq has not had 
an adverse impact on retention to date. As mentioned above, fiscal year 
2007 retention of officers was slightly better than the overall 10-year 
average.
    The retention rates of initial term and mid-career soldiers in 
deploying units has remained between 120-140 percent since fiscal year 
2005. Recently deployed units or units currently deployed to 
Afghanistan and Iraq have reenlistment rates at 110-120 percent of 
their yearly goals. This is a significant indicator of the quality of 
leadership within our ranks, the fact that soldiers believe in what 
they are doing, and the fact that soldiers value the tradition of 
service to the Nation.
    Question. The administration has requested that Congress authorize 
an active-duty end strength of 532,400 for fiscal year 2009 and intends 
to grow the active-duty Army to 547,400 soldiers over the next several 
years.
    Has the Army increased its recruiting goal from fiscal year 2008?
    Answer. The Army has not increased its recruiting goals from fiscal 
year 2008. Based on current analysis, an increase in recruiting goals 
is not necessary to meet our planned growth in Army end-strength.
    Question. If not, how does the Army plan to grow the force an 
additional 7,000 soldiers with no increase in recruiting?
    Answer. In addition to recruiting, the Army uses retention and loss 
management tools as levers to manage end-strength. Throughout fiscal 
year 2007 and the first half of fiscal year 2008, the Army has focused 
on retaining more initial term soldiers and has seen attrition drop to 
record lows. The combination of these tools has enabled the Army to 
grow strength without increasing recruiting goals.
    Question. When will the Army achieve an active end strength of 
547,400, and once it does, do you foresee requesting additional end 
strength increases based on current and anticipated operational 
requirements?
    Answer. The Army will achieve a strength of 547,400 by 30 September 
2010. While we grow the Army, we will continue to work the 
transformation, move soldiers into high demand specialties, and examine 
how effectively we can operationalize the Guard and Reserve. Then we 
will make a decision regarding whether the Army can meet the needs of 
the future.
    Question. According to Army data, retention of U.S. Military 
Academy graduates is lower than historical norms. The West Point class 
of 2000, for example, saw 34.2 percent leave the Service as soon as 
they were able, and according to press accounts, 54 percent of that 
class had left Active Service by the 5 year point. The Class of 2001 
saw 35.3 percent of its graduates leave Active Service as soon as they 
reached their 5 year point, and within the next year, a total of 46 
percent of that class had left the Service.
    How can the Army reverse this trend?
    Answer. The West Point Class of 2000 saw 35.5 percent leave the 
Service by the 5 year point. The Class of 2001 saw 38.3 percent leave 
by the 5 year point. A year later (the 6 year point) 48.9 percent of 
Class of 2000 and 49.5 percent of Class of 2001 had separated. These 
trends are not statistically different than previous Classes 1991-1999. 
In fact, there is not currently a statistically significant difference 
in the Army Competitive Category (ACC) Company Grade loss rates for any 
source of commission. The losses through the first 5 months of fiscal 
year 2008 are lower than previous years except for 2003, where losses 
were lower than normal due to the start of Operation Iraqi Freedom. In 
fact, the success of recent captain and pre-commissioning retention 
incentives has already guaranteed the retention above historic rates of 
our valuable force of heavily combat-experienced junior officers 
through fiscal year 2010 and beyond.
    Question. What resources, if any, does the Army need to better 
manage the early- and mid-career officer population?
    Answer. The Army has been given the authority through September 
2009 to conduct an unprecedented Captains' retention program that 
offers a number of incentives, including attendance at graduate school 
or a retention bonus, to encourage our best and brightest officers to 
remain on active duty. Though it may be too early to directly tie the 
program to recent retention trends, the Army has recently experienced 
increased retention among our captains over past years, with loss rates 
over the first 5 months of fiscal year 2008 lower than all but 1 of the 
previous 9 years for the same time period. Analysis of our initial 
phase of execution of the retention program compared to recent Defense 
Military Data Center surveys indicates that our incentive program has 
made a significant impact on the retention behavior of our captains. 
Prior surveys indicated that 52 percent of captains polled intended to 
separate or were undecided about continuing in a military career. Of 
those officers, 54 percent took a menu incentive and will now retain to 
fiscal year 2011. The Army will continue to monitor and analyze officer 
attrition and develop additional measures to retain our highly 
performing officers.
    Question. Army data also shows a large increase over the past 4 
years of new recruits lacking a high school diploma. In fiscal year 
2003, 94 percent of all new recruits graduated from high school; in 
fiscal year 2007, that number dropped to 79 percent.
    In your opinion, has the Army sacrificed quality for quantity?
    Answer. No, the Army has not lowered recruiting standards, but they 
have become more difficult to meet because of declining high school 
graduation rates and the toughest recruiting environment in the 34+ 
year history of the All-Volunteer Force. We remain focused on attaining 
Department of Defense Quality Benchmarks as our recruiting standards. 
Without exception, soldiers who enlist into the Army are qualified for 
their skill/job.
    Question. How does the Army intend to reverse this trend?
    Answer. The Army has and will continue to implement measures to 
reduce this challenge through programs and policies that increase the 
potential market. The Army is also utilizing enlistment bonuses and 
other incentives, such as the Army College Fund, Loan Repayment, and 
Army Advantage Fund to attract quality recruits. However, the Army will 
only enlist soldiers who are qualified and volunteer to serve this 
Nation.
    Question. How many Category IV soldiers did the Army recruit for 
the Active-Duty Force and Army Reserve in fiscal year 2007, and what 
percentage of the total number of 2008 recruits is made up of Category 
IV soldiers?
    Answer. In fiscal year 2007 the Active component accessed 2,738 
(3.97 percent) Category IV soldiers. The Army Reserve accessed 782 
(3.94 percent) Category IV soldiers. Year-to-date fiscal year 2008 
(thru February 2008) the Active component has accessed 1,953 Category 
IV soldiers (5.5 percent) and the Army Reserve has accessed 431 
Category IV soldiers (4.61 percent). Quality Marks are measured on an 
annual basis. The number of Category IV recruits is closely monitored 
throughout the year. As Non-Prior Service volume increases, the 
Category IV percent will decrease. The Active Army and the Army Reserve 
will be within the Category IV benchmark of 4 percent by the end of 
fiscal year 2008.
    Question. According to the Army Times, a new Army assessment has 
concluded that recruits who receive moral, medical, or other waivers 
are less likely to drop out of basic training, have lower rates of 
personality disorder, and re-enlist in higher numbers than other 
recruits. The assessment also noted, however, that recruits who receive 
waivers are more likely to desert, experience more drug and alcohol 
issues, and have higher rates of misconduct, including an increased 
likelihood of receiving a bad conduct discharge.
    Please describe the Army's current use of waivers, and how these 
rates compare historically.
    Answer. The Army utilizes the recruit waiver process to extend the 
opportunity to serve the Nation to applicants who fall outside the 
medical, conduct, drug/alcohol, or administrative screening parameters 
established for Army recruits. Army leaders and physicians review the 
files of disqualified applicants to determine if an applicant's 
previous medical, conduct, or drug/alcohol history will adversely 
affect his/her likelihood of serving successfully as a soldier. This 
comprehensive process allows the Army (and the other military services) 
to expand the pool of applicants willing to answer the Nation's call to 
service. The percentage of recruits enlisting with waivers has 
increased over the past several years. Year-to-date fiscal year 2008 
(thru February 2008) overall percentage of personnel who enlisted with 
a waiver for the Regular Army (RA) and Army Reserve (AR) combined is 
19.8 percent. In fiscal year 2007, the overall percentage of personnel 
who enlisted with a waiver for the RA and AR combined is 18.8 percent. 
In fiscal year 2005 and fiscal year 2004, the overall percentage of 
personnel who enlisted with a waiver for the RA and AR combined was 
13.7 percent and 11.2 percent respectively. The Army will only enlist 
soldiers who are qualified and volunteer to serve this Nation.
    Question. What changes, if any, have been made in tracking and 
documenting the performance and impact, positive or negative, of 
recruiting more individuals requiring waivers for enlistment?
    Answer. The Army--through the Center for Accessions Research, the 
RAND Corporation and the Army G-1--is conducting ongoing longitudinal 
analyses of recent Fiscal Year Recruiting Cohorts to determine any 
significant trends and differences of those soldiers accessed with a 
waiver (i.e., medical, conduct, etc.) and those soldiers accessed not 
requiring a waiver. To date, results indicate soldiers with waivers 
perform comparable or better in most areas observed (e.g., promotions, 
awards, reenlistment). These studies, the comments of leaders in the 
field, and the overall performance of young soldiers during this 
protracted conflict indicate that the Army waiver process is 
functioning properly in its role of screening in willing applicants to 
join America's All-Volunteer Force.
    Question. Have the increased use of waivers for criminal offenses 
had any impact to date on the good order and discipline in the units to 
which these soldiers have been assigned?
    Answer. The number of recruits requiring enlistment waivers has 
increased over the last few years, in an era of persistent conflict and 
growth of the Army. However, commanders consistently tell us how proud 
they are of the young volunteer, combat proven soldiers who are serving 
under them. Army mechanisms for screening these individuals are 
designed to mitigate risk and have proven very effective in the past 
and today. A recent study comparing trends of waivered soldiers and 
non-waivered soldiers who entered the Army from fiscal year 2003 
through fiscal year 2006 indicates that they perform comparably in most 
areas. At this time there is no indication to suggest that waivered 
soldiers are a detriment to the force. We will continue to conduct 
studies and analyze the trends.

          SUPPORT FOR ARMY FAMILIES IN THE REBASING INITIATIVE

    Question. Plans for the relocation of numerous Army units under the 
Department's rebasing initiative will present significant challenges to 
the continental United States (CONUS) installations and their 
surrounding local communities in order to ensure adequate resources, 
including housing and schools, are made available.
    What is your understanding of the steps being taken by the Army to 
ensure the successful implementation of rebasing for both soldiers and 
receiving communities?
    Answer. The Army is partnering with local communities to deal with 
increased community needs, such as schools, housing, and community 
activities, associated with Army stationing and growth. Garrison 
commanders and staff regularly engage with community leaders and have 
school liaison officers who facilitate communication with local 
education agencies to help communities deal with stationing and growth. 
Although Impact Aid is a Department of Education responsibility, the 
Army provides quarterly updates to the Department of Education on 
projected school-age dependent growth.
    The Army will rely on local communities as its primary supplier of 
family housing and will privatize or build family housing at U.S. 
locations only where necessary. To support Army Growth, Congress 
approved $266 million in fiscal year 2008 for government equity 
contributions for additional housing at Forts Bliss, Bragg, Carson, and 
Lewis. Additionally, the Army is requesting $334 million in fiscal year 
2009 for government equity contributions for additional housing at 
Forts Bliss, Carson, and Stewart. We will program additional funds in 
fiscal year 2010 after updated Housing Market Analyses are completed at 
other gaining installations.
    Question. What actions will you take, if confirmed, to ensure that 
the challenges associated with rebasing are met?
    Answer. The Army has an aggressive, carefully synchronized 
stationing plan that links Base Realignment and Closure (BRAC) 2005, 
Global Defense Posture Realignment, Army Modular Force Transformation, 
and Grow the Force. The Army's BRAC plan supports these major 
stationing initiatives, while supporting ongoing missions and national 
security priorities, and is designed to meet the September 2011 
statutory BRAC implementation deadline.
    The Consolidated Appropriations Act for Fiscal Year 2008 contained 
a significant decrease in BRAC funding, of which $560 million was 
reduced from the Army's BRAC budget. I cannot overstate the 
difficulties that cuts or delays in BRAC funding pose to the Army as we 
implement BRAC and restationing plans. If the $560 million decrement is 
not restored, the Army will find it very difficult to comply with all 
aspects of the BRAC Law.
    If confirmed, I will ensure Army stationing requirements are fully 
vetted and work with Congress to garner the resources to implement our 
BRAC and stationing requirements in a timely and efficient manner.

                      SUPPORT FOR WOUNDED SOLDIERS

    Question. Wounded soldiers from Operations Enduring Freedom and 
Iraqi Freedom deserve the highest priority from the Army for support 
services, healing and recuperation, rehabilitation, evaluation for 
return to duty, successful transition from active duty if required, and 
continuing support beyond retirement or discharge.
    What is your assessment of the effectiveness of Army programs now 
in place to care for the wounded, including the Wounded Warrior 
Program, and programs for soldiers in Warrior Transition Units (WTUs)?
    Answer. The Army has made and continues to make significant 
improvements in the areas of infrastructure, leadership, and processes 
as part of our Army Medical Action Plan (AMAP). Over the past 12 
months, execution of the AMAP has seen the creation of 35 WTUs at 
installations across the Army. These WTUs are staffed by 2,655 
personnel who provide care and support to over 9,339 soldiers and their 
families. Although I believe these programs are a significant 
improvement over past practices, we need to continue tracking and 
monitoring the programs through a variety of internal and external 
feedback mechanisms. If confirmed, I will continue this 
transformational effort to care for and support our wounded, ill, and 
injured soldiers and their families.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from active service?
    Answer. The Army has a number of programs to assist wounded 
personnel who have separated from active service. In close coordination 
with the Department of Veterans Affairs, the Army has added 16 Veterans 
Affairs advisors at major medical treatment facilities to facilitate 
the process of applying for benefits and finalizing arrangements for 
follow-on care and services, all with the view to ensuring that 
everything is in place when soldiers transition to civilian status.
    The Army recently created the Wounded Warrior Education Initiative, 
which will allow participants to complete an advanced degree and then 
return to the Army to work in assignments in the Institutional Army 
where their education and personal experiences can be put to the best 
use. In addition, the Army is currently piloting the Warrior Transition 
Employment Reintegration and Training Program at Fort Bragg, NC. This 
program enables Wounded Warriors, working with the staff of the Soldier 
Family Assistance Centers--which support WTUs and are operated by the 
Army Installation Management Command--to receive education and training 
in the development of a resume, networking, and job seeking skills. 
Through this program, Warriors in Transition are assisted by counselors 
from the Army Wounded Warrior Program, Veterans Affairs advisors, and 
the staff of the Army Career and Alumni Program to develop a winning 
approach to obtaining employment when they leave the Army.
    I also want to highlight the U.S. Army Wounded Warrior Program 
(AW2) which assists and advocates for severely wounded, ill, or injured 
soldiers and their families throughout their lifetimes, wherever they 
are located. AW2 currently serves more than 2,300 soldiers, 600 on 
active duty and 1,700 veterans. AW2 Program caseworkers work with 
soldiers and their families to address and mitigate proactively any 
issues they may encounter in their recovery. If confirmed, it will be 
my honor to do all I can to ensure that those who have given so much 
for their country know that the Army will always be there for them.
    Question. How is the Army seeking to measure and ensure the 
effectiveness of these programs?
    Answer. Tracking performance is critical to managing, adjusting, 
and resourcing WTU operations. The Army is using Unit Status Reports 
and other measures to track short-, near-, and long-term objectives. 
These measures show specific details, to include day-to-day operations, 
but also provide aggregate trending information to ensure the 
organization is on the correct path to success. If confirmed, I would 
continue to use this dashboard approach to monitoring performance on 
all standards.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded soldiers, and to monitor their progress in returning to 
civilian life?
    Answer. I think we have some terrific programs in place to support 
our wounded, ill, and injured soldiers, including some recent pilot 
programs. If confirmed, I intend to monitor the success of these pilot 
programs to assess their potential for expansion. I would like to 
continue to partner with academic institutions, industry, and Congress 
to find innovative ways to return all of our Warriors to productive 
civilian lives as proud veterans.

                       JOINT ACQUISITION PROGRAMS

    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System?
    Answer. There are great efficiencies to be gained by joint programs 
as opposed to individual Service procurements. Joint programs have the 
advantages of economies of scale, reduction in Service spares 
inventories, and Service sharing of training costs. However, the 
critical start-point for a joint program is a ``joint'' requirement. 
Without a solid joint requirement, it is doubtful that a joint 
acquisition program will be cost effective.
    Question. Do you see utility in encouraging the Services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes, a joint development approach has utility in this area. 
Key national strategic guidance and well defined joint capability voids 
provide incentives for the Services to collaborate to define and 
produce weapon systems that best meet our national security needs. At 
the same time, it is very important for the Services to maintain 
separate resourcing and the ability to manage to Service priorities 
within a jointly-enabled construct without adversely constraining or 
increasing program costs.
    Question. If so, what enforcement mechanisms would you recommend to 
implement more joint program acquisition?
    Answer. DOD has an established process for the development and 
approval of joint capability documents. This process includes oversight 
at the Joint Service level through the Joint Requirements Oversight 
Council (JROC). As these capabilities are evaluated, a joint service 
designation is assigned. In response to these capabilities documents, 
DOD Initiative 5000.2 stipulates that joint service programs must be 
approved, and any changes therein must be approved, by the Under 
Secretary of Defense (Acquisition, Technology, and Logistics 
(USD(AT&L)). Further, as the Services and DOD prepare their budget 
submissions, resourcing decisions can be made by the Service or OSD. 
Lastly, with the creation of Capability Portfolio Managers (CPMs) at 
the OSD level, a CPM can recommend a host of possible decisions to the 
OSD leadership.

                  REQUIREMENTS AND PLANNING PROCESSES

    Question. As rising personnel and operation and maintenance costs 
expend an increasing portion of the Army's budget authority, and as 
competing demands for Federal dollars increase in the future years, it 
is likely that the Army will have to address the challenges of reset, 
modernization, and transformation with fewer and fewer resources.
    What changes, if any, would you recommend to the way the Army 
prioritizes resources to maintain the momentum of Army transformation?
    Answer. Army personnel and operations and maintenance costs are 
accounting for a larger proportion of our base budget and will continue 
to do so in the foreseeable future. This growth naturally increases the 
tension between these costs and our investments, which we use to 
transform the Army. Since 2002, the strategic environment has changed 
dramatically, requiring our Nation's Army to reorganize, grow, 
restation, and transform while fighting the war on terrorism. These 
demands have caused the Army to become more dependent on supplementals. 
While increases in our base budget provide for growth of the Army, they 
have not kept pace with operational demands that the Army must respond 
to and request support for, largely through requests for supplemental 
appropriations.
    I believe the Army has, and will continue to implement, a sound 
resourcing scheme that produces a force that meets the needs of the 
Nation. However, without a reduction in expected missions or increased 
resources to match increased missions, the Army will eventually lose 
the ability to modernize and sustain current capabilities. We have 
experienced this situation in the past. During the 1990s, Army 
investment was reduced sharply, which created significant equipment 
shortages in our forces that we have been scrambling to correct with 
new procurement, just-in-time fieldings and retention of theater-
provided equipment. Another approach to sustaining transformation would 
be to concentrate our modernization efforts on a reduced force 
structure, but that would be inconsistent with current demand. Using 
the lessons from today's fight, we are transforming to a future force 
with even more robust protection capabilities. The Army is committed to 
providing the best protection to our soldiers today and in the future.

                     BASE CLOSURES AND REALIGNMENTS

    Question. The military Services are in the process of developing 
business plans for the implementation of the 2005 Defense Base 
Realignment and Closure (BRAC) decisions.
    What do you see as the responsibilities of the Department of the 
Army in implementing BRAC decisions?
    Answer. The Army is responsible for executing both the Army's BRAC 
recommendations and a portion of the joint cross service group 
recommendations, as assigned by the USD(AT&L). The Army has developed 
business plans and budget justification materials, and is executing the 
program in accordance with those plans and the BRAC appropriations.
    Question. What do you see as the priorities of the Department of 
the Army in implementing BRAC decisions?
    Answer. The Army's priority is to complete the construction 
projects required to enable unit and organizational moves from closing 
and realigning installations to meet the timeframe directed by the law. 
The bulk of construction funds ($13 billion) will be used in fiscal 
years 2008, 2009, and 2010. This is a carefully integrated plan. If the 
Army program is not fully funded in a timely manner each year, we will 
be significantly challenged to execute BRAC as intended.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active role in 
the reuse of property. In rare cases, the goals of the local community 
may not be compatible with proposals considered by the Department of 
Defense. For example, the recent closure of the Walter Reed Medical 
Center in Washington, DC, will present opportunities for both the local 
community and the Federal Government to re-use the land based on 
potentially competing plans.
    If confirmed, what goals and policies would you propose to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. If confirmed, and with the guidance of the Secretary, I 
will work closely with the Office of Economic Adjustment, Local 
Redevelopment Authorities, the Governors, and other appropriate State 
and local officials to accelerate the property disposal process 
whenever possible. The Army has completed the Federal screening and has 
made the determination of surplus for all of the closure installations 
except for the Chemical Demilitarization facilities. The Local 
Redevelopment Authorities are submitting their redevelopment plans, and 
they will be integrated into the Army property disposal process.
    Question. What lessons did the Army learn during the BRAC process 
that you would recommend be included in future BRAC legislation?
    Answer. I believe the Army is generally satisfied with the current 
BRAC authorities, and, if confirmed, I look forward to working with 
Congress to execute BRAC 2005.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain in institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What challenges to transition do you see within the Army?
    Answer. The Army carefully coordinates between acquisition programs 
of record and the laboratories and Research, Development and 
Engineering Centers (RDECs) which are developing and evaluating 
technology options for these programs. The Army's key advanced 
technology demonstration efforts are required to have a technology 
transition agreement with the receiving acquisition program. However, 
because of the demands of the ongoing global war on terror, the Army 
has not been able to fund some acquisition programs to receive the 
technology that has been matured.
    The Army also fields technologies rapidly through the Rapid 
Equipping Force and the Rapid Fielding Initiative. Technologies 
transitioned to the field via these programs typically have not been 
through a formal acquisition development, and the Army must deal with 
the challenges of ensuring that this equipment is safe, effective, and 
logistically supportable in the operational environment. Further, even 
for those technologies that have been effective in the theatres of 
operation, the Army has procedures to assess the military utility of 
those technologies for full spectrum Army-wide applications.
    Question. If confirmed, how would you ensure that technologies are 
rapidly transitioned from the laboratory into the hands of the 
warfighter?
    Answer. The Army laboratories and RDECs work closely with industry, 
academia, and the other Services and Defense Agencies to explore 
technology options for the soldier. As discussed above, the Army's key 
advanced technology demonstration efforts are required to have a 
technology transition agreement with the receiving acquisition program. 
These agreements document what products the Science and Technology 
(S&T) program will deliver, at what time, and with what level of 
performance and maturity, as well as the transition path forward for 
that technology. The Army will continue to focus on obtaining validated 
needs and continue to synchronize work between S&T and program 
evaluation offices and program managers. We must guard against 
pressures for technology solutions from the non-technical community 
that reads the popular press and thinks that they are ``discovering'' 
technology opportunities. This may lead to unrealistic expectations 
about technology capabilities and the temptation to redirect 
disciplined technology development and technology maturity assessments 
towards work of less technical merit which is typically unable to 
withstand rigorous evaluation.
    Question. What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. The Army is rapidly fielding the best new equipment to the 
current force through several initiatives, including the Rapid 
Equipping Force and the Rapid Fielding Initiative. The Army's number 
one priority is force protection of our soldiers with individual 
weapons and protective equipment. I would plan to upgrade and modernize 
existing systems to ensure all soldiers have the equipment they need. I 
would incorporate new technologies derived from the Army Science and 
Technology program, and from Future Combat System (FCS) development. I 
would field the FCS Brigade Combat Teams (BCTs). FCS is the core of the 
Army's modernization effort and will provide our soldiers an 
unparalleled understanding of their operational environment, increased 
precision and lethality, and enhanced survivability. My objective will 
be to have our soldiers equipped with world-class weapon systems and 
equipment, keeping the Army the most dominant land power in the world 
with full-spectrum capabilities.

  ARMY RESEARCH, DEVELOPMENT, AND ENGINEERING CENTERS AND LABORATORIES

    Question. Among the roles the Army's Research, Development, and 
Engineering Centers and Laboratories are supposed to play is the 
development of innovative systems and technologies, supporting their 
transition to the warfighter, and supporting the Army in making 
technically sound acquisition decisions.
    In your opinion, are the Army's Research, Development, and 
Engineering Centers and Laboratories sufficiently resourced in funding, 
personnel and equipment to perform these missions?
    Answer. Despite the demands of the ongoing global war on terrorism 
the Army has been able to maintain its Science and Technology (S&T) 
investment at over $1.7 billion for each of the past three budget 
requests and has actually increased its proposed fiscal year 2009 S&T 
investment to $1.8 billion. We believe this level of investment is 
sufficient to support our S&T personnel, projects, and equipment 
consistent with our broad resource demands.
    Question. In your view, do the Army's Research, Development, and 
Engineering Centers and Laboratories have the appropriate personnel 
systems and authorities to support the recruiting and retaining of 
their needed highly qualified technical workforce?
    Answer. Under congressionally authorized laboratory demonstration 
program authorities, the Army has the appropriate personnel systems and 
authorities to support the recruiting and retaining of their highly 
qualified technical workforce. The laboratories and centers have 
already taken significant advantage of the authorities provided by 
Congress for recruiting bonuses, laboratory pay banding, pay-for-
performance, incentive awards, and employee advanced education and 
development programs. Our vital laboratory infrastructure is 
fundamental to exploit the knowledge of our people and to attract and 
retain the most talented scientists and engineers to work for the Army.
    Question. Do the Army's Research, Development and Engineering 
Centers and Laboratories have the appropriate flexibility for 
technology transfer and authority to support in-house laboratory 
research in order to help them best support their missions?
    Answer. Yes the Army has sufficient authority for the technology 
transfer and authority to support in-house laboratory research. What in 
your view are the biggest deficiencies in the performance of the Army's 
Research, Development, and Engineering Centers and Laboratories?
    Answer. The biggest deficiency in the performance of the Army's 
Research, Development and Engineering Centers and Laboratories is their 
inability to effectively modernize their laboratory infrastructure.
    Question. If confirmed, what would you plan to do to address those 
deficiencies?
    Answer. To the maximum extent possible, the Army's Research, 
Development and Engineering Centers and Laboratories will utilize the 
flexibility provided in title 10, U.S.C., section 2805, to recapitalize 
critical mission infrastructure. We are also seeking to reauthorize the 
Laboratory Revitalization Demonstration Program and increase the 
associated minor construction limit to $2.5 million, with a $3 million 
limit for unspecified minor construction. The renewal will provide 
laboratory/center directors the ability to recapitalize critical 
mission infrastructure and reduce reliance on military construction to 
meet critical mission needs and corrects construction approval limits 
to account for major increase in the cost of laboratory construction 
over more common forms of construction.

COMMISSION ON ARMY ACQUISITION AND PROGRAM MANAGEMENT IN EXPEDITIONARY 
                               OPERATIONS

    Question. The Commission on Army Acquisition and Program Management 
in Expeditionary Operations concluded that ``the Army sent a skeleton 
contracting force into theater without the tools or resources necessary 
to adequately support our warfighters.'' According to the Commission, 
``Contracting, from requirements definition to contract management, is 
not an Army Core Competence. The Army has excellent, dedicated people; 
but they are understaffed, overworked, undertrained, undersupported 
and, most important, undervalued.''
    Do you agree with the conclusions reached by the Commission?
    Answer. The Army greatly appreciates the work of the Commission and 
is in full agreement with the Commission's general recommendations for 
improvement. Many of the Commission's recommendations are consistent 
with the issues identified by the Army Contracting Study completed in 
2005 and the Army Contracting Task Force, which was Co-Chaired by 
Kathryn Condon and LTG Ross Thompson, U.S. Army. The Army is currently 
addressing structural weaknesses and shortcomings identified in the 
reports with a view to improving both current and future expeditionary 
contracting operations. The Army is conducting in-depth analysis of all 
areas. Significant action has already been taken against most of the 22 
findings of the Gansler Commission recommendations specific to the 
Army. The Army is aggressively addressing the structural weaknesses and 
shortcomings identified to improve current and future Army contracting 
activities. Our actions stretch across the Army and include an ongoing, 
comprehensive review of doctrine, organization, training, materiel, 
leader development, personnel, and facilities
    Question. If confirmed, what role would you expect to play in 
addressing these concerns?
    Answer. Secretary of the Army Geren recently announced the 
establishment of the Army Contracting Campaign Plan, which is a focused 
commitment to implement changes across the Army to ensure that our 
doctrine, manning, training, and support structure for contracting are 
comprehensive, consistent and fully implemented. Secretary Geren 
directed Under Secretary of the Army, Hon. Ford, to implement specific 
recommendations of both the Gansler Commission and the Army Contracting 
Task Force as expeditiously as possible. The Army is committed to 
finishing the development and then implementing an Army-wide 
contracting campaign plan to improve doctrine, organization, training, 
leadership, materiel, personnel, and facilities. Achieving this 
objective will require resources, time, and sustained leadership focus. 
The contracting campaign plan will continue the initiatives already 
underway in the Army. The VCSA is the conduit for ensuring the 
consistency in coordination necessary to implement and institutionalize 
changes across the Army as related to doctrine, manning, training and 
support structure changes.
    Question. The Commission report states that ``The Army's difficulty 
in adjusting to the singular problems of Kuwait, Iraq, and Afghanistan 
is in large part due to the fact that there are no Generals assigned to 
contracting responsibilities.'' The commission recommends that Congress 
authorize ``a core set of ten additional General Officers for 
contracting positions.''
    Do you support the recommendation of the Commission?
    Answer. I support the Army's plans to continue to grow additional 
military contracting structure in the Active Force and civilian 
contracting workforce in line with the Gansler Commission 
recommendations. Specifically, Secretary Geren directed the realignment 
of the U.S. Army Contracting Agency (ACA) to the U.S. Army Materiel 
Command (AMC) and the establishment of the U.S. Army Contracting 
Command (ACC) (Provisional) under AMC. The ACC (Provisional) stand-up 
ceremony on March 13, 2008 is in keeping with the Gansler Commission's 
second recommendation--to restructure Army contracting organizations 
and restore responsibility to better facilitate contracting and 
contract management in expeditionary and U.S.-based operations. The ACC 
is a two-star level command with two one-star level subordinate 
commands--an Expeditionary Contracting Command and an Installation 
Contracting Command. The Army is seeking five additional general 
officer authorizations to lead these commands and to fill additional 
contracting leadership needs outside of AMC. This recommendation will 
restore Uniformed Contracting General Officer positions cut as part of 
Acquisition drawdowns in the 1990s.
    Question. In your view, is legislation required to implement this 
recommendation, or can the Army assign new General Officers to 
contracting functions without legislation?
    Answer. There is flexibility to assign General Officers to 
contracting functions within the Army's current General Officer 
allocations. Given the current optempo and the stress on Army 
leadership, both military and civilian, the Army's current allotment of 
General Officers cannot support the new contracting requirements. 
Therefore, the Army is working closely with OSD to obtain authority for 
five additional Army General Officer billets for contracting.
    Question. The Commission report states that ``The number and 
expertise of the military contracting professionals must be 
significantly increased'' to address the problems we have experienced 
in theater. The Commission recommends that the Army hire 2,000 new 
contracting personnel.
    Do you support the recommendation of the Commission?
    Answer. The acquisition workforce has declined significantly in the 
last decade (25 percent cut mandated by Congress in National Defense 
Authorization Act for Fiscal Year 1996) while the number of dollars we 
are executing in the Army has increased more than 4-fold ($23.3 
billion-1992 vs. $100.6 billion-2006). The Army has never fought an 
extended conflict that required such reliance on contractor support. We 
are currently addressing the need to expand, train, structure, and 
empower our contracting personnel to support the full range of military 
operations. To date, the Army has identified the need to increase Army 
contracting and support personnel by 906 military positions and 1,327 
civilian positions. These numbers are organizational assessments and 
may go up or down as our Army Contracting Campaign Planning analysis 
continues.
    Question. What is your understanding of the steps being taken to 
implement this recommendation?
    Answer. Contingency Contracting force structure increases were 
being incorporated in the Army's modular force design even prior to the 
establishment of the Army Contracting Task Force. While the Army did 
not have the force structure necessary to support expeditionary 
operations in Iraq and Afghanistan, we have now established a 
contingency contracting structure that consists of Contracting Support 
Brigades (commanded by a Colonel), Contingency Contracting Battalions, 
and Contingency Contracting Teams. Recommended increases of 906 
military and 1,327 civilians are now under review as part of Army 
Contracting Campaign Plan process to fill the new Army contracting 
structure.
    Question. The Commission report states that most civilians working 
on contracting issues in Iraq were ``volunteers, often with inadequate 
or wrong skill sets for the job at hand, and often getting their 
required contracting experience on-the-job as part of their 
deployment.'' The Commission recommends that qualified civilians who 
agree to deploy be provided enhanced career and job incentives. These 
include the elimination of an existing pay cap, tax free status, and 
long-term medical care for injuries incurred in-theater.
    Do you support the recommendations of the Commission?
    Answer. The Army agrees with the Commission that civilians who 
agree to deploy deserve the benefits and professional opportunities 
commensurate with their skills, hardships and contributions. We are 
working with OSD to examine the entitlements, compensation, and 
benefits currently afforded to deployed civilian employees. As we 
identify areas in need of improvement or enhancement, we will work with 
the OSD and the administration to seek legislative changes.
    Question. What is your understanding of the steps that the Army has 
taken, or plans to take, to implement these recommendations?
    Answer. The Army has conducted a review of the pay and benefits 
that are afforded to deployed civilians. We have also partnered with a 
team led by OSD. Several legislative and regulatory reforms have been 
identified to improve the benefits for deployed civilians and we have 
initiated the staffing process in these areas. To enhance incentives 
for civilian contracting personnel to ``pre-volunteer'' for 
expeditionary operations, OSD has taken the lead to request a 
legislative change to waive the annual limitation on premium pay and 
the aggregate limitation on pay for Federal civilian employees. In 
addition, OSD is working with the U.S. Department of Labor to ensure 
there are no conflicts with Workers' Compensation Laws. The Office of 
Management and Budget disapproved a proposal to provide combat zone tax 
benefits for civilian employees; OSD is considering an appeal of this 
decision.
    Question. The Commission report states that some DOD and Army 
policies actively discourage the deployment of civilians. For example, 
the report states that volunteers are required to be sent on `detail' 
so that the providing office has to pay salary and expenses of 
deploying civilians out of their existing budgets without any 
reimbursement or backfilling. As a result, the Commission reports, 
managers in the U.S. have actively discouraged civilians from 
volunteering.
    Do you agree with the Commission's findings on this issue?
    Answer. The Army does not have evidence suggesting that employees 
have been discouraged from deploying. In some instances, however, 
organizations have been required to continue paying salary and other 
expenses of deployed employees. With the current tight budget 
situation, commands are often unable to backfill a deployed civilian. 
We are working with OSD to clarify the policy in this area to reduce 
the organizational disruptions caused by deployment of civilian 
personnel. The Army Contracting Campaign Plan Task Force is also 
studying options to assist CONUS organizations that lose deployed 
civilian volunteers, by activating Reserve component soldiers, enabling 
them to get much needed contracting experience prior to an overseas 
deployment.
    Question. What is your understanding of the steps that the Army has 
taken, or plans to take, to address this problem?
    Answer. The Deputy Under Secretary of Defense (Personnel and 
Readiness) issued a memo on February 12, 2008, with the subject 
``Building Increased Civilian Deployment Capacity.'' In the memo and 
attached policy guidance, Dr. Chu reiterated the need to support the 
deployment of DOD civilians for contingency contracting operations. The 
Department of the Army fully supports the requirement to deploy 
civilians and lift the burden from losing organizations, and will 
continue to review recommendations for resolving the issue.
    Question. The report states that Contracting Officer's 
Representatives (CORs) are an ``essential part of contract 
management'', because they are responsible for ensuring contract 
performance. According to the report, however, ``CORs are assigned as 
an `extra duty,' requiring no experience the COR assignment is often 
used to send a young soldier to the other side of the base when a 
commander does not want to have to deal with the person. Additionally, 
little, if any training is provided despite this, there are still too 
few CORs. Moreover, COR turnover is high, frequently leaving many gaps 
in contract coverage.''
    Do you agree with the Commission's assessment of the CORs assigned 
in Iraq and Afghanistan?
    Answer. Yes, a Contracting Officer Representative (COR) town hall 
in Kuwait led by ACTF leadership in October 2007 identified both 
individual COR training and execution shortcomings. CORs stated that 
they lacked the appropriate level of training and expertise to oversee 
complex theater contracts. While CORs are not contracting personnel, 
they are the ``eyes and ears'' of the contracting officer and the 
customer, and must be viewed with the appropriate level of authority 
across the Army. The customer in most cases is also a Commander. The 
COR is also the ``eyes and ears'' of the Commander. Today's commanders 
get much of their warfighting support from contractors. As we train and 
educate our leaders to understand the implications of predominantly 
contracted-support to operations vs. traditional military support they 
will fully understand and acknowledge the importance of the COR.
    Question. What is your understanding of the steps that the Army has 
taken, or plans to take, to address this problem?
    Answer. A standard, minimum training requirement has already been 
established for Army CORs. CORs must complete the Defense Acquisition 
University on-line continuous learning module, ``COR with a Mission 
Focus,'' prior to appointment. As of November 1, 2007, over 4500 Army 
personnel have completed this course. Since October 1, 2007, 190 CORs 
have been trained in Kuwait. All contracts awarded now by the Kuwait 
Contracting Office have a trained COR performing surveillance.

                 MILITARY ROLE IN DOMESTIC EMERGENCIES

    Question. Shortfalls in the Nation's ability to respond to national 
and manmade disasters, including terrorist attacks, as discussed in the 
final report of the Commission on the National Guard and Reserves, have 
resulted in debate about the appropriate role of the Department of 
Defense and the Armed Forces in responding to domestic emergencies.
    In your view, should the Army have a larger role in responding to 
domestic emergencies that require military support?
    Answer. Our Nation has been at war for over 6 years. Our Army--
Active, Guard, and Reserve--has been a leader in this war and has been 
fully engaged in Iraq, Afghanistan, and defending the homeland. The 
Army has always supported requests for military assistance and will 
continue to do so. However, the ``role'' of the Army in domestic 
emergencies should continue to remain within prescribed law and in 
support of the Department of Homeland Security or other lead Federal 
agency.
    Question. What do you believe the Army's role should be in 
supporting U.S. Northern Command in homeland defense and civil support 
missions, including consequence management of a domestic WMD attack?
    Answer. The Department of Defense and United States Northern 
Command have worked in concert with the Department of Homeland Security 
to plan and prepare for response to domestic emergencies. United States 
Army North is the dedicated Army Service Component Command to the 
United States Northern Command for Homeland Defense and Defense Support 
to Civil Authorities for the CONUS and Alaska.
    Northern Command is the Department of Defense's conduit to each 
Federal Emergency Management Agency Region for Defense Support to Civil 
Authorities. The Command collocates within the Federal Emergency 
Management Agency Headquarters and builds synergy and habitual 
relationships with Federal Emergency Management Agency staff, other 
government agencies, State emergency responders, State Adjutant 
Generals, and potential base support installations.
    When a domestic emergency occurs, including chemical, biological, 
or nuclear attack, the affected Governor or Governors shall first 
employ their Air and/or Army National Guard with state authority, if 
required. Each State and Territory has its own Weapons of Mass 
Destruction Civil Support Team (for detection and identification). 
Moreover, 17 States have created federally-funded National Guard 
Chemical, Biological, Nuclear and high yield Explosive Enhanced 
Response Force Packages (commonly known as CERFP) for search and 
rescue, decontamination, emergency medical care, and force protection. 
These force packages are designed to support all States within their 
FEMA region and also may deploy throughout the country.
    In an event of a catastrophic impact, the States will likely 
request Federal military assistance. The Army provides the majority of 
assets to Northern Command for the Chemical, Biological, Nuclear and 
high yield Explosive Consequence Management Response Force (commonly 
known as CCMRF). This force provides assessment teams and enhances the 
civil authority's ability to provide command and control, medical, 
logistics, extraction and decontamination, transportation, security, 
public affairs and mortuary affairs.
    Question. What is your assessment of the Army National Guard's 
ability to meet its state contingency and homeland defense missions, 
given its operational commitments overseas and current personnel and 
equipment shortfalls?
    Answer. The Army National Guard continues to demonstrate its 
ability to respond to state contingency and homeland missions as well 
as to its operational commitments.
    The States use their Army National Guard assets cooperatively 
through participation in the Emergency Management Assistance Compact. 
As you know, the Emergency Management Assistance Compact is a 
congressionally ratified organization that provides form and structure 
to interstate mutual aid. Through the Compact, a disaster impacted 
state can request and receive assistance from other member states 
quickly and efficiently; the Compact resolves two key issues upfront: 
liability and reimbursement.
    Current Army planning, programming, and budgeting process has been 
effective in examining, assessing, prioritizing and allocating 
resources to the Total Army--the Active component and the Reserve 
components. The Army is currently executing and programming 
unprecedented resource levels to the Reserve components. The Director 
of the Army National Guard and the Chief of the National Guard Bureau 
are fully represented in Army planning and programming deliberations. 
Their respective staffs have been integrated directly into the HQDA 
staff so that we fully understand Reserve component requirements 
resulting in an improved total force.
    Since September 11, 2001, the Army has resourced over $49 billion 
in Army National Guard procurement (for fiscal years 2001-2013). 
Funding and equipment distributions are firewalled: promises made are 
promises kept. For fiscal years 2001-2007, the Army resourced $15.3 
billion in Army National Guard procurement. Over the next 24 months, 
the Army will distribute over 400,000 items of equipment to the Army 
National Guard, valued at $17.5 billion--36 percent of Total Army 
distributions. This includes 16,000 trucks, 31,000 radios, 74,000 night 
vision devices, and 86,000 weapons.

                    TRANSITION OF THAAD TO THE ARMY

    Question. The Army currently produces and operates the Patriot air 
and missile defense system, including the PAC-3 system. The Terminal 
High Altitude Area Defense (THAAD) is being developed and initially 
fielded by the Missile Defense Agency (MDA), with the plan that it will 
be transitioned and transferred to the Army at some point.
    What is your view of the best approach to transitioning the THAAD 
system to the Army?
    Answer. The Army and MDA have been working plans to transition and 
transfer those Ballistic Missile Defense System (BMDS) elements 
including the Theater High Altitude Area Defense (THAAD) system for 
which the Army is the lead Service. We have collaborated on the past 
two annual Transition and Transfer Plans and participate in Integrated 
Product Teams (IPTs) for each element to work the specific details 
associated with transition and transfer. Transition and transfer was 
the main topic of a recent Army/MDA Board of Directors meeting where it 
was decided that the best approach for transitioning the THAAD system 
was to develop and sign an overarching memorandum of agreement (MOA) 
that incorporates individual, event-driven element annexes to further 
guide the transition and transfer process.
    Question. When do you believe it should happen, and where should 
the initial funding come from?
    Answer. The Army and MDA will be collaborating on defining a series 
of event driven milestones which are designed to minimize cost and 
reduce risk, while transitioning an operational capability to the Army. 
This operational capability will be verified through participation in 
Force Development Experimentation (FDE) and Limited User Test (LUT). At 
that point I believe an informed decision to transition can be made.
    Initial funding should come from a Defense Wide account. The 
funding would stay within the DOD agency. MDA would use the account to 
fund R&D, Procurement and sustainment activities. The services will 
program for military pay, and specific O&M costs. Detailed funding 
responsibilities will be specified in the MOA and the annexes.
    Question. Do you have any concerns, including resource concerns, 
about transitioning THAAD to the Army?
    Answer. Our primary concern with the transition and transfer of 
BMDS elements to the Army is long term affordability. Element 
transitions must only occur when full funding is secured. The 
procurement and operations and support costs anticipated at transfer 
are beyond the Army's ability to program and fund without a total 
obligation authority (TOA) increase.

                       FORCE PROTECTION PROGRAMS

    Question. Over the past several years, the Army, with the support 
of Congress, has concentrated on the procurement of force protection 
measures (e.g., Interceptor Body Armor, uparmored high mobility 
multipurpose vehicles, counterimprovised explosive device measures) 
primarily relying on supplemental appropriations.
    If confirmed, what problems do you foresee and what priority would 
you place on continuing to expand and fund force protection programs, 
even in the absence of supplemental appropriations legislation?
    Answer. I appreciate the assistance of Congress in protecting our 
soldiers by supporting Army critical Force Protection programs. I can 
assure you that equipment necessary to protect the lives of soldiers 
will always be my highest priority for funding. The Army has become 
increasingly dependent upon supplemental funds to meet war-related 
requirements and many programs funded through supplemental 
appropriations, like force protection, have persisted--a symptom of 
finding ourselves in an era of persistent conflict. As your question 
implies, we must continue critical enduring programs even if 
supplemental appropriations go away. Finally, the Army must be prepared 
for full spectrum operations globally in an era of persistent conflict. 
While doing so it is important to balance current force needs against 
modernizing so our soldiers are never in a fair fight.

                            EQUIPMENT RESET

    Question. The ongoing requirements of the global war on terror have 
significantly increased usage rates on the Army's equipment. As a 
result, we know there will be a requirement to ``reset'' the force not 
only as the current operations continue but also for some time after 
they conclude. Given the ongoing nature of both the war in Iraq and the 
larger war on terror, we need to ensure that our force remains ready to 
respond to whatever contingencies arise.
    Do you think that the Army's equipment reset program meets the 
requirements of the global war on terror, as well as the requirements 
for transition to a modular force?
    Answer. The Army's reset program has kept pace with the 
requirements for deployed forces by maintaining equipment readiness 
with rates at more than 90 percent for ground equipment and more than 
75 percent for aviation equipment. As you know, our reset efforts are a 
significant element of our efforts to maintain readiness across the 
force. Timely and predictable funding is key to ensuring that these 
reset requirements are met.
    Question. In your view, what is the greatest source of risk in the 
Army reset program and, if confirmed, how would you eliminate or 
mitigate that risk?
    Answer. Timely and accurate funding is the greatest source of risk 
to the Army's reset program. Full funding received at the beginning of 
the fiscal year allows for the early purchase of long lead parts which 
reduce reset timelines, minimizes delays in replacing battle losses, 
and ensures the retention of the skilled labor force at the depots. To 
mitigate this risk, it is imperative for the Army to maintain constant 
and open communication to ensure that our requirements and the 
reasoning behind them are understood.
    Question. If confirmed, how would you ensure that sufficient 
resources are programmed and requested in the Army's budget to meet 
reset requirements and provide trained and ready forces across the 
spectrum of military operations?
    Answer. The development of the Army's reset requirements is driven 
by current wartime commitments: size of force structure; operational 
tempo; equipment stress; battle losses; lessons learned; and the need 
to reconstitute equipment readiness for the next contingency, which 
could be any mission across the full spectrum of conflict from low 
intensity to full spectrum operations. Current operations have greatly 
increased the wear and tear on our equipment and the associated reset 
requirements must be funded to ensure Army readiness.
    Question. What is your understanding regarding the capacity at 
which our repair depots are operating to meet recapitalization, 
modernization, rebuild, and repair requirements for reset?
    Answer. Depots are not operating at full/maximum capacity but are 
operating at a level that theater equipment retrograde will support. In 
peace time our depots expend approximately 12 million direct labor 
hours annually. They are currently executing 27 million and have the 
capacity to expand up to 40 million. Each depot's production capacity 
is being optimized by equipment type/commodity. Our depots have enabled 
deployed forces to maintain equipment readiness for the last 5 years at 
90 percent or better for ground equipment and 75 percent or better for 
aviation and are repairing enough equipment to meet the requirements of 
the next deploying force. Should Army requirements change, depots could 
do more and increase their capacity with predictable funding, available 
spare parts, increased work force and more retrograded equipment.
    Question. What additional steps, if any, do you believe could be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. Timely and adequate funding is essential. It enables depots 
to procure long lead time parts, maintain a skilled workforce, replace 
and repair maintenance equipment and set the conditions for resetting 
our redeploying forces. In addition, we are putting in place several 
logistic initiatives that will speed retrograde, improve asset 
visibility, reduce transportation time and target certain equipment for 
direct return to depots. These initiatives are being tested in the CSA 
Reset Pilot Program and are already beginning to show results. Depots 
are implementing Lean Six Sigma programs and are showing tremendous 
success in improving production rates and reducing turn around times.

                      ARMY PREPOSITIONED EQUIPMENT

    Question. The Army has long included as a critical element of its 
strategic readiness sufficient prepositioned equipment and stocks 
around the world and afloat to accelerate the deployment and employment 
of forces in response to crises. However, Army Prepositioned Stocks 
(APS) are nearly completely committed in support of operations in Iraq 
leaving the Army and the Nation little strategic flexibility or 
options.
    What changes, if any, to policies regarding use of prepositioned 
equipment stocks would you recommend if confirmed?
    Answer. No changes are recommended to the current policy for the 
use of APS at this time. The last 4 years demonstrated that the APS 
program was flexible, responsive, and critical to the Army's ability to 
deploy forces in support of COCOM requirements and adapt to changing 
strategic requirements. The Army carefully monitors the use of APS 
assets and closely coordinates their use with the Combatant Commanders. 
Whenever use of APS equipment is required, the Army evaluates the 
strategic risk and implements mitigation factors. We must continue to 
replenish our APS with ``modernized'' equipment that meets the needs of 
the modular force.
    Question. What is your understanding and assessment of the current 
plan for reconstituting Army prepositioned equipment to re-establish 
this strategic capability?
    Answer. APS capabilities will be reconstituted to provide the 
maximum level of strategic flexibility and operational agility. The 
Army has an APS Strategy 2015 which articulates the afloat and ashore 
equipment required to meet the future responsiveness needs of the 
combatant commanders. Reconstitution of APS is already underway and the 
Army has an executable timeline to reset its APS sets according to the 
APS Strategy 2015, contingent on available resources and operational 
requirements.

                         EQUIPMENT AVAILABILITY

    Question. Do you believe that the Army has enough equipment to 
fully support the pre-deployment training and operations for the next 
rotation to OIF/OEF?
    Answer. The Army has enough equipment to ensure forces are 
adequately prepared for and can successfully conduct operations in OIF/
OEF. No soldier will go into combat without the proper training and 
equipment. There are, however, some equipment shortages in CONUS that 
require sharing equipment among pre-deployed units to ensure they are 
fully trained before deploying. Equipment sharing is generally managed 
at the brigade or division-level by transferring equipment among units 
to support specific training events. The Army works diligently to 
schedule forces for deployment as early as possible and to project the 
mission they must perform when deployed. As part of each 
synchronization cycle, a Department-level Force Validation Committee 
works to ensure that deploying forces are provided all the personnel 
and equipment required for their mission. Additionally, a Training 
Support and Resources Conference meets to ensure deploying forces have 
all the training support tools they need to train for their mission and 
are scheduled for a mission rehearsal exercise.
    Question. What do you see as the critical equipment shortfalls for 
training and operations?
    Answer. All soldiers receive the required training and equipment 
before going into combat. Active, Guard, and Reserve must be certified 
as ready before they are put in harms way. Achieving the necessary unit 
readiness involves consolidating training sets at our installations to 
compensate for equipment shortfalls among non-deployed units. The most 
common Active and Reserve component high-demand pre-deployment training 
equipment shortfalls occur with some types of mission-specific 
organizational equipment, where equipping solutions are developed to 
meet specific theater requirements. Most of the production of these 
items goes straight into theater to meet the force protection demand. 
These items include up armored light, medium, and heavy tactical 
trucks; special route clearance vehicles (to include the RG-31, 
Buffalo, Husky, and Cougar); and counter remote-controlled improvised 
explosive device warfare (CREW) devices. We retain a limited number of 
these systems for home station training and at our Combat Training 
Centers so soldiers will gain experience with these systems before they 
deploy. Additionally, a large number of our soldiers already have one 
or more rotations in Iraq and Afghanistan and have direct experience 
with these systems.
    Other items of equipment with limited availability for home station 
training include kits designed to increase the survivability of 
standard Army equipment, including the Bradley and Tank Urban 
Survivability Kits, and uparmored highly-mobile multipurpose wheeled 
vehicle fragmentation kits. These kits are provided in theater. 
Finally, there are some additional training equipment gaps in specific 
areas which are driven by the Army's desire to get the most modern and 
capable systems immediately into the hands of our soldiers in combat 
operations. These items include the most recent version of the Army 
Battle Command System, the Command Post of the Future, some advanced 
intelligence 12 systems, and biometric systems. The Army is working to 
get appropriate levels of systems to support training the force into 
the training base and at unit home stations, as well as in our Combat 
Training Centers.
    Significant quantities of Army equipment remain in Iraq and 
Afghanistan to minimize the time lost, and the associated costs, in 
transporting equipment to and from these missions. The result is that 
units at home station have less than full sets of authorized equipment. 
Although rotating equipment between training units allows us to achieve 
the training requirements before deployment, these units are limited in 
their ability to support other contingencies around the world should 
the need arise.
    Question. What steps would you take, if confirmed, to address these 
shortfalls and ensure that units have what they need in time to train 
before deploying and as well as for operations in Iraq and Afghanistan?
    Answer. The Army is prioritizing and tracking the use of inventory 
and procurement dollars to repair equipment used and damaged in the 
global war on terrorism, and to replace critical equipment destroyed in 
battle. The Army is also prioritizing and managing procurements and 
distributions to fill other critical shortages to ensure our forces are 
organized and equipped for required capabilities, with standard 
quantities and qualities of equipment across all components. While the 
use of training sets, theater provided equipment and cross-leveling of 
equipment to meet training and operational requirements are not the 
optimal solution, units have and will continue to meet all required 
training and readiness standards prior to commitment into combat.

            MINE-RESISTANT, AMBUSH-PROTECTED (MRAP) VEHICLES

    Question. In September 2007, JROC capped MRAP procurement at 15,374 
vehicles, with about 3,700 going to the Marine Corps and approximately 
10,000 to the Army. In November 2007, the Marines decreased their 
requirement from 3,700 to approximately 2,300 vehicles--citing, in 
part, an improved security situation in Iraq and the MRAP's 
unsuitability in some off-road and urban situations. Reports suggest 
that the Army may follow suit and reduce its overall MRAP requirement.
    Are you aware of a revised Army requirement for MRAPs?
    Answer. Yes.
    Question. If the Army has decreased its requirement for MRAPs, is 
this the Army's final requirement or can we expect the requirement to 
change again?
    Answer. The new JROC approved interim requirement to support Army 
units is 12,000. In January 2007, the Army requirement, based on 
requests from U.S. Central Command commanders was identified to be 
17,770. To ensure this assessment met our emerging requirements, the 
Army worked closely with the Joint Staff and OSD to continuously re-
assess and raise the procurement quantity in a stair-step fashion to 
ensure a continuous and rapid flow of vehicles to Theater while 
remaining good stewards of our Nation's resources. Recently, based on 
input from Theater, the Army was able to reduce its estimate from 
17,770 down to a range of between 15,500 and 11,500, a reduction of 
nearly 2,000 to 5,000 vehicles. To ensure we do not overstate our 
requirement, we raised our interim requirement from 10,000 to almost 
12,000 and are actively working with OSD, the Joint Staff and the Joint 
Program Office to place appropriate production orders that meet 
warfighters needs for protected mobility; preserve options for 
commanders in the field to make adjustments as force levels and 
situations change; and to manage fiscal resources appropriately.
    Question. Do you see a role for MRAPs beyond the Iraq and 
Afghanistan conflicts?
    Answer. The MRAP has addressed the Army's most critical current 
battlefield deficiency (force protection of our forces against 
improvised explosive devices) with a capable, survivable and 
sustainable vehicle for the current Theater of Operation. However, with 
the exception of a limited number of vehicles going to Route Clearance 
and EOD teams, it is premature to describe where MRAP may fit into 
tomorrow's force structure. Training and Doctrine Command is conducting 
a tactical wheeled vehicle analysis of mission, roles, profiles, 
threats, and capabilities of the various fleets. This analysis includes 
the MRAP, Joint Light Tactical Vehicle, and the HMMWV. The initial 
results will influence POM decisions, the Force Mix Brief to Congress, 
and the Combat and Tactical Wheeled Vehicle Strategy due to the Deputy 
Secretary of Defense in July 2008. The Army's Tactical Wheeled Vehicle 
strategy is an ongoing effort to ensure our soldiers receive the best 
capabilities available in ground wheeled vehicles to meet current and 
emerging threats.

     SPECIAL UNITS FOR STABILIZATION AND TRAINING/ADVISORY MISSIONS

    Question. On October 10, 2007, the Secretary of Defense emphasized 
the role that ``unconventional warfare'' will play in the Army's future 
as well as the need to organize and prepare for a training and advisory 
role. Some, both inside and outside of the Army, have suggested that 
special units or organizations should be established to address these 
mission areas, while others maintain that these missions are best 
handled by the Army's full-spectum BCTs and their supporting forces.
    Do you believe special units--such as a Training and Advisory 
Corps--should be established? Please explain.
    Answer. No, I believe future requirements to train and advise 
foreign security forces should be addressed with a combination of 
special operations forces, small scale specialized forces, embassy 
military groups, and Army full spectrum modular forces. Pre-conflict 
security cooperation activities will emphasize Special Operations 
Forces, small scale specialized forces, and small deployments of full 
spectrum modular forces working under U.S. embassy control, while post 
conflict efforts will rely heavily on full spectrum modular forces.
    The key consideration for training and advising is expertise in 
your core function. For example, U.S. Army infantry, medical, or 
engineer companies are experts at conducting their wartime function and 
can therefore train and advise foreign infantry, medical, or engineer 
companies. With some additional training and minor task organization 
changes, Army modular forces can be ideally suited to train and advise.

                  U.S. ARMY SPECIAL OPERATIONS COMMAND

    Question. The U.S. Special Operations Command, pursuant to QDR 
guidelines, is currently expanding the size of its Army component. It 
is also working to raise the language proficiency of its Army special 
operators.
    If confirmed, how would you support U.S. Army Special Operations 
Command's (USASOC) end strength growth?
    Answer. If confirmed, I will support USASOC's end strength growth 
as currently planned. QDR 2006 directed that Special Forces battalions 
be increased by one-third and that Civil Affairs and Psychological 
Operations be increased by 33 percent. The Army has already programmed 
and is executing these important decisions. By fiscal year 2013, the 
Army will have completed this growth. If confirmed, I will monitor this 
growth and ensure it meets operational requirements.
    Special Operations Forces are performing extremely demanding and 
specialized tasks in combating terrorism. This increase in end strength 
will mitigate the extremely high operational tempo now experienced by 
these specially selected and trained forces. Growth of Special 
Operations Forces is within programmed endstrengh of 547,400 (Active), 
358,200 (National Guard), and 206,000 (Reserve). The growth in Special 
Operations Forces will greatly contribute to the Army's ability to 
confront irregular challenges and to conduct stability operations.
    Question. What do you see as the best way to enhance language 
skills among Army special operators?
    Answer. The Army supports the Defense Language Program goal to 
increase language capability across the force, to include Special 
Operations. The Army trains our language cadre to the minimum 
Interagency Language Roundtable level of 2 for language proficiency, 
with a goal to reach a proficiency of 3. Currently Active component and 
Reserve component soldiers may earn up to $400 per month per language 
depending on their level of proficiency, up to a maximum rate of $1000 
per month. Soldiers who are in language dependent military operation 
specialties, such as special operators, are paid the highest rate based 
on their proficiency for their primary language. This is true even for 
languages such as Spanish, which has been identified as ``dominant in 
the force'' and is not usually authorized for language pay for other 
Army soldiers. This will provide an added incentive to soldiers to 
maintain their proficiency.

                         FUTURE COMBAT SYSTEMS

    Question. FCS is the largest modernization program in the Army. 
Total cost of the program is expected to be $162 billion. The Army's 
FCS includes both manned and robot-controlled weapons linked together 
by a communications network. Army leaders have strongly advocated for 
continued funding and support for FCS, but, in February 2008, Secretary 
of Defense Gates told this committee: ``It is hard for me to see how 
that program can be completed in its entirety. I think that in light of 
what are inevitably going to be pressures on the defense budget in the 
future, I think that that one is one we will have to look at 
carefully.''
    How would you respond to those who question the feasibility and 
affordability of FCS, and who call it ill-defined and technologically 
risky?
    Answer. FCS's precursor technologies have already made a difference 
today in combat. FCS precursor Unmanned Air Vehicles (UAVs) and 
robotics show the promise of these emerging capabilities in vital IED 
defeat and route clearance missions. The Army currently is fielding FCS 
Spin-out 1 to the Army Evaluation Task Force (AETF) at Fort Bliss, TX. 
The Army established the AETF so that combat-tested soldiers can test 
and evaluate FCS technologies. Through rigorous testing and phased 
software development the Army is mitigating risk to this ambitious plan 
to deliver needed capabilities.
    FCS is currently less than 3 percent of the Army's base budget. At 
its peak (fiscal year 2015) FCS is projected to be less than a third of 
the Army's investment (RDA) account. That would be less than 8 percent 
of the overall Army budget, assuming that budget stays constant.
    The FCS BCT is designed to be an integrated combat formation that 
delivers the full spectrum. As an adaptive force, we will rigorously 
apply the lessons of combat to the development of the FCS BCT.
    Risk is being carefully managed. The standup of the AETF at a cost 
of 900 soldiers during a time of war is an example of the Army's 
commitment to bring FCS technologies to soldiers for rigorous 
evaluation prior to program decisions.
    Question. Can you explain how FCS addresses the imbalance in the 
Army to which Army leaders have spoken in defending the requirement for 
the capabilities the FCS offers?
    Answer. The current imbalance in the Army is caused by our 
inability to meet the demands placed on the Army to generate the ready 
forces we need to meet global demand.
    The Army is addressing the imbalance by completing its capabilities 
transformation into modular formations, while simultaneously growing 
the size of deployable formations. These actions will increase the 
global force pool, enable sustainable periods of dwell for training, 
and reduce stress on the current operational force.
    In parallel with these efforts, FCS is our core effort to complete 
the transformation of the Army by providing modular formations vastly 
increased capabilities to meet the needs of the 21st century. FCS 
achieves these goals by providing the Army increased abilities to 
project our forces, connect soldiers to the network, and protect 
soldiers in this century's complex operating environments. Spin outs 
ensure that we speed these improvements to the Army to meet the needs 
of warfighters who can't wait for needed capabilities.

                          JOINT CARGO AIRCRAFT

    Question. In June 2006, the Army and Air Force signed a Memorandum 
of Understanding (MOU) regarding merging two separate small cargo 
aircraft programs into the Joint Cargo Aircraft (JCA).
    In your opinion, is there a roles-and-missions redundancy between 
the Army and the Air Force in the JCA program?
    Answer. No. The primary mission of the Army JCA is to transport 
Army time-sensitive mission-critical (TSMC) cargo and personnel to 
forward deployed units, often in remote and austere locations, commonly 
referred to as ``the last tactical mile''. Because of the critical 
nature of this cargo to the success of the tactical ground commander's 
mission and the short-notice of its need (usually less than 24 hours), 
lift assets must be in a direct support relationship to provide the 
necessary responsiveness.
    For sustainment operations, Army fixed wing aviation performs those 
missions which lie between the strategic and intra-theater missions 
performed by the USAF and the tactical maneuver and movement performed 
by Army rotary wing or ground assets. The JCA will provide point to 
point distribution where effectiveness vice efficiency is critical to 
meeting the ground tactical mission needs, while simultaneously 
continuing to push the majority of supplies forward, maintaining the 
potential synergistic affect between efficiency and effectiveness. The 
JCA, Army and Air Force, is meant to be a complimentary asset.
    The Chief of Staff of the Army and Chief of Staff of the Air Force 
have agreed to examine Intra-theater Air Lift Roles and Missions as 
part of the QDR. In the most recent Air Force-Army Warfighter talks, we 
recommitted our Services to the success of the C-27 program in its 
current format, on the current fielding timeline, and in accordance 
with the current beddown plan. Together, both services will work any 
roles and missions issues that may arise.

           MEDIUM AND HIGH ALTITUDE UNMANNED AERIAL VEHICLES

    Question. In a March 5, 2007, memorandum, the Air Force Chief of 
Staff spelled out the case for the Air Force to become the Executive 
Agent (EA) for all medium and high altitude UAVs. General Moseley 
stated his desire to follow up with a comprehensive plan to optimize 
the Nation's Intelligence, Surveillance, and Reconnaissance assets.
    What is your understanding of the Army's position regarding the Air 
Force proposal that it be assigned as the EA for medium and high 
altitude UAVs?
    Answer. The Army does not support a single Service as executive 
agent for Unmanned Aircraft Systems (UAS). The Army supports the Joint 
Staff's 2005 and 2007 decisions to not establish an executive agent for 
UAS (JROC memorandums 043-08 and 136-05), as well as, the Deputy 
Secretary of Defense 13 September 2007 decision that, in lieu of a 
single Service designation as executive agent for UAS, directs a UAS 
Task Force (TF) led by the OSD for Acquisition, Technology, and 
Logistics (AT&L) to coordinate critical UAS interoperability issues and 
develop a common acquisition path forward.

                        ARMY MEDICAL ACTION PLAN

    Question. The National Defense Authorization Act (NDAA) for Fiscal 
Year 2008 (Public Law 110-181) requires the Secretary of Defense to 
report to Congress bi-annually on implementation of the Army Medical 
Action Plan to correct deficiencies identified in the condition of 
facilities and patient administration for wounded and ill soldiers.
    If confirmed, what would be your responsibilities with respect to 
the implementation of the Army Medical Action Plan and compliance with 
the requirements included in the (NDAA)?
    Answer. If confirmed, I will ensure the smooth transition of the 
highly effective Army Medical Action Plan Cell to the new Warrior Care 
and Transition Office under the supervision of the Director of the Army 
Staff. The Warrior Care and Transition Office will provide 
Headquarters, Department of the Army oversight, policy, and direction 
to synchronize and integrate the array of Army warrior care initiatives 
and related programs dedicated to the support, care, and healing of 
wounded, injured, and ill soldiers and their families. Through numerous 
monitoring and oversight mechanisms, including the Medical Strategic 
Review Group, I will ensure Army complies with all requirements of the 
NDAA. The Army has prepared an initial report to Congress, which 
details the extraordinary effort and accomplishments made in the first 
year of the Army Medical Action Plan. I look forward to continuing to 
work with Congress on behalf of our wounded, ill, and injured warriors.
    Question. In September 2007 the GAO reported that over half of the 
Warrior Transition Units (WTUs) had significant personnel/staffing 
shortfalls.
    If confirmed, how would you ensure that WTUs are adequately 
resourced to meet the medical and mental health needs of wounded and 
ill soldiers returning from deployments now and in the coming years?
    Answer. In follow-up testimony, February 2008, GAO reported on the 
significant progress the Army has made staffing the 35 WTUs established 
as part of the Army Medical Action Plan (AMAP). Currently 2,655 WTU 
staff members are caring for 9,339 Warriors in Transition and their 
families. If confirmed, I will continue to demand the right level of 
support for our brave men and women whose sacrifice demands no less. I 
also look forward to working with Congress to fund the rapid 
construction, furnishing, and ongoing support of Warrior Transition 
complexes. These healing complexes will co-locate fully accessible 
housing, administrative facilities, and Soldier Family Assistance 
Centers near our Military Treatment Facilities to provide better 
support for our Warriors in Transition and their families.

                   RISE IN SUICIDE RATES IN THE ARMY

    Question. In your view, what are the strengths and weaknesses of 
the Army's current suicide prevention program?
    Answer. We are continuously strengthening and revitalizing our 
suicide prevention efforts. This has never been more important, given 
the higher than normal suicide rates we are experiencing. While engaged 
leadership is key to our efforts, just as important is informing 
soldiers and family members about the risk factors associated with 
suicide, how to identify suicidal behavior, and what actions are needed 
to help at-risk soldiers.
    Our multifaceted approach includes increasing awareness about 
suicide, reducing the stigma associated with seeking care, and 
providing leaders with relevant information they can use to improve 
their suicide prevention efforts at the unit level.
    We recently formed a suicide prevention steering committee composed 
of general officers from across the Army that includes those with 
expertise in the personnel, health care, spiritual, and legal 
communities to provide senior-level oversight of our suicide prevention 
efforts. This group will ensure we have a program that provides robust, 
evidence and research-based resources, programs, and services for all 
aspects of the program.
    The bottom-line is that we must constantly renew our focus on 
leadership and battle buddy involvement both in prevention and 
intervention. It is crucial for all leaders to have access to lessons 
learned from suicide cases (both completions and attempts) to effect 
new programs, services, and policies. We are in the process of creating 
an analysis cell to collect suicide data, analyze trends, develop 
lessons learned, and provide that information up and down the chain on 
a continuous basis.
    We are keenly aware that, despite our efforts, the suicide rate has 
continued to climb. We know that we have to change the culture in the 
Army to reshape attitudes toward those with behavioral health issues.
    Question. If confirmed, what additional steps would you take to 
reduce the incidence of suicide in the Army?
    Answer. If confirmed, I will fully support the newly-formed suicide 
prevention flag officer panel. The first priority of this 
multidisciplinary group is to reduce the perceived stigma of soldiers 
seeking help for mental health issues. It is also focused on building 
in our leaders at every level the understanding of the need to 
carefully monitor the welfare of their soldiers and then ensure they 
have the necessary skills to knowledgeably question and intervene when 
they see a soldier who may be at-risk. This involves training that 
begins when soldiers enter the Army and continues through every 
leadership course. Leaders know that it is within their responsibility 
to check on a soldier's living conditions, ask about his/her family, 
and, when he senses that something is not right, to professionally, but 
caringly determine what is going on. I would reemphasize the importance 
of leadership involvement.
    We must also increase our research into the factors that will 
reduce suicide risk in the Army. I'm not convinced that what we know 
about civilian suicides can be translated directly into an actionable 
plan for our population and research in the Army on this issue is 
incomplete. I would task the General Officer Steering Committee to do a 
bottom-up study of the factors related to suicide to ensure that our 
strategy is complete and sufficient.
    We must also help our soldiers and their families to build great 
lives. I am told that four out of five soldiers who commit suicide do 
so because of relationship issues or because of a poor personal 
decision that led to legal problems in his or her life. We must expand 
life skills and relationship training so that soldiers make good 
decisions and avoid the cascade of negative events that is so often the 
precursor to suicide. It is also important to enforce the battle buddy 
in the total Army, emphasizing in interpersonal relationships, 
mentorship, and counseling at first line leader level.
    Question. If confirmed, how would you seek to ensure that senior 
Army leaders take steps to eliminate the stigma associated by soldiers 
with seeking mental health care?
    Answer. We must continue to change our culture that does not place 
a shame on those soldiers who seek mental health assistance. If 
confirmed, I would look at a number of ways in which to continue to 
address this issue. Again, it starts with informed and engaged 
leadership. Leaders who are aware of the impact of uninformed, 
judgmental attitudes on those at risk for suicide are in the best 
position of shifting the culture toward one that better supports those 
in crisis.
    We must increase the number of health care professionals to ensure 
they are present and available to soldiers in units. This includes 
behavioral health professionals and chaplains.
    We have to do better at ensuring that soldiers are completely aware 
of the process, risks, and limits when they access behavioral health 
care. I'm convinced that soldiers don't really understand how low their 
risk is when they seek help and we need to change that paradigm.

           FULL RESOURCING OF WALTER REED ARMY MEDICAL CENTER

    Question. Under the NDAA for Fiscal Year 2008 (Public Law 110-181) 
adequate funding must be provided for the operation and sustainment of 
the current Walter Reed Army Medical Center (WRAMC) until new 
facilities are completed and operational at both National Naval Medical 
Center, Bethesda, MD, and Fort Belvoir in Northern Virginia.
    If confirmed, how would you ensure that all support requirements 
are identified and supported, to include facilities, personnel, 
installation support and medical operations and maintenance?
    Answer. The Army Medical Command (MEDCOM) has a very effective 
budgeting system that allocates resources based on workload and 
population health. The MEDCOM will continue to resource WRAMC as a 
fully operational medical center until the fiscal year of closure. The 
budget will not be decremented for any closure-related actions. In 
addition, through the Army Medical Action Plan, we have identified and 
remedied the circumstances that led to problems highlighted at WRAMC 
last year. All support requirements are routinely monitored by the 
MEDCOM, the Army's Installation Management Command, and the Office of 
Warrior Care and Transition.

                          ARMY FAMILY COVENANT

    Question. In the fall of 2007, senior military and civilian leaders 
and installation commanders throughout the Army agreed to the Army 
Family Covenant, a pledge to provide soldiers and their families with 
the level of support that they need and which their level of service 
deserves. The Chief of Staff of the Army has stated that the covenant 
represents a $1.4 billion commitment in 2008 and that Army leadership 
is working to include a similar level in the budget for the next 5 
years.
    What do you view as the most essential quality of life needs 
addressed by the Army Family Covenant?
    Answer. The most essential aspect of the Army Family Covenant is 
its unprecedented level of commitment. Last year, Secretary Geren and 
General Casey asked our soldiers and families to tell us how well the 
Army's systems were supporting them. Soldiers and their families asked 
for more consistent standards and better access throughout the Army to 
Family programs and services, physical and mental healthcare, better 
housing, education, child and youth services, and employment 
opportunities for spouses. The needs addressed in the Army Family 
Covenant represent the voices of soldiers and their families. Each 
facet of the Covenant is interwoven in our Army communities and that is 
what creates a supportive environment in which soldiers and their 
families can live and thrive. We will continue to ask our soldiers and 
families to identify their needs.
    Question. What are the greatest challenges which the Army faces in 
making good on the promises made by the Army Family Covenant, and what 
would you do, if confirmed, to overcome them?
    Answer. The greatest challenges associated with fulfilling the 
promises made in the Army Family Covenant are maintaining a predictable 
level of funding after the next 4 years and at the same time, managing 
the expectations created by our commitment to address the needs of Army 
families. To preserve the All-Volunteer Force, the Army is committed to 
providing soldiers and families a full range of essential services to 
support readiness and retention and enhance family resiliency. The 
Family Covenant is our promise to provide a strong supportive 
environment and our families want to trust and believe in the Family 
Covenant and Army Leadership's commitment. As we enter year seven of 
the war, we must also maintain our ability to respond to the 
unpredictable family requirements the changing environment will 
present. To overcome these challenges, we will balance our requirements 
within the Army to provide for our soldiers and their families and we 
will continue to focus on their specific needs. Taking care of our 
soldiers and their families is essential if we are to sustain our Army 
throughout this era of persistent conflict.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, when asked, to give your personal views, even if 
those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed for this high position, to 
appear before this committee and other appropriate committees of 
Congress and provide information, subject to appropriate and necessary 
security protection, with respect to your responsibilities as the Vice 
Chief of Staff of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of LTG Raymond T. Odierno, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 5, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Vice Chief of 
Staff, United States Army to the grade indicated while assigned to a 
position of importance and responsibility under title 10, U.S.C., 
sections 601 and 3034:

                             To be General.

    LTG Raymond T. Odierno, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Raymond T. Odierno, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
           Biographical Sketch of LTG Raymond T. Odierno, USA
Source of commissioned service: USMA.

Military schools attended:
    Field Artillery Officer Basic and Advanced Courses
    United States Naval Command and Staff College
    United States Army War College

Educational degrees:
    United States Military Academy - BS - No Major
    North Carolina State University - MS - Engineering, Nuclear Effects
    United States Naval War College - MA - National Security and 
Strategy

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  2 Jun 76
1LT.......................................  2 Jun 78
CPT.......................................  1 Aug 80
MAJ.......................................  1 Dec 86
LTC.......................................  1 Feb 92
COL.......................................  1 Sep 95
BG........................................  1 Jul 99
MG........................................  1 Nov 02
LTG.......................................  1 Jan 05
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Oct 76..........................  Jan 78............  Support Platoon
                                                       Leader, later
                                                       Firing Platoon
                                                       Leader, C
                                                       Battery, 1st
                                                       Battalion, 41st
                                                       Field Artillery,
                                                       56th Field
                                                       Artillery
                                                       Brigade, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jan 78..........................  Aug 78............  Survey Officer,
                                                       1st Battalion,
                                                       41st Field
                                                       Artillery, 56th
                                                       Field Artillery
                                                       Brigade, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug 78..........................  Oct 79............  Aide-de-Camp to
                                                       the Commanding
                                                       General, 56th
                                                       Field Artillery
                                                       Brigade, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Nov 79..........................  Jul 80............  Student, Field
                                                       Artillery
                                                       Advanced Course,
                                                       Fort Sill, OK
Aug 80..........................  Dec 80............  Liaison Officer,
                                                       1st Battalion,
                                                       73d Field
                                                       Artillery, XVIII
                                                       Airborne Corps,
                                                       Fort Bragg, NC
Dec 80..........................  Dec 82............  Commander, Service
                                                       Battery, later A
                                                       Battery, 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Dec 82..........................  May 83............  Assistant S-3
                                                       (Operations), 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVLII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Jun 83..........................  May 84............  S-3 (Operations),
                                                       3d Battalion, 8th
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Jun 84..........................  Aug 86............  Student, North
                                                       Carolina State
                                                       University,
                                                       Raleigh, NC
Sep 86..........................  Jun 89............  Nuclear Research
                                                       Officer, later
                                                       Chief,
                                                       Acquisition
                                                       Support Division,
                                                       Defense Nuclear
                                                       Agency,
                                                       Alexandria, VA,
                                                       later detailed as
                                                       Military Advisor
                                                       for Arms Control,
                                                       Office of the
                                                       Secretary of
                                                       Defense,
                                                       Washington, DC
Jun 89..........................  Jun 90............  Student, United
                                                       States Naval
                                                       Command and Staff
                                                       Course, Newport,
                                                       RI
Jul 90..........................  Dec 90............  Executive Officer,
                                                       2d Battalion, 3d
                                                       Field Artillery,
                                                       3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Dec 90..........................  Jun 91............  Executive Officer,
                                                       Division
                                                       Artillery, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jun 91..........................  May 92............  Executive Officer,
                                                       42d Field
                                                       Artillery
                                                       Brigade, V Corps,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jun 92..........................  Jun 94............  Commander, 2d
                                                       Battalion, 8th
                                                       Field Artillery,
                                                       7th Infantry
                                                       Division (Light),
                                                       Fort Ord, CA,
                                                       (relocated to
                                                       Fort Lewis, WA)
Jun 94..........................  Jun 95............  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks, PA
Jun 95..........................  Jun 97............  Commander,
                                                       Division
                                                       Artillery, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX
Jun 97..........................  Aug 98............  Chief of Staff, V
                                                       Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug 98..........................  Jul 99............  Assistant Division
                                                       Commander
                                                       (Support), 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany to
                                                       include duty as
                                                       Deputy Commanding
                                                       General for
                                                       Ground
                                                       Operations, Task
                                                       Force Hawk,
                                                       Operation Allied
                                                       Force, Albania
Jul 99..........................  Jul 01............  Director, Force
                                                       Management,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Operations and
                                                       Plans, United
                                                       States Army,
                                                       Washington, DC
Oct 01..........................  Aug 04............  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX,
                                                       and Operation
                                                       Iraqi Freedom,
                                                       Iraq
Aug 04..........................  Oct 04............  Special Assistant
                                                       to Vice Chief of
                                                       Staff, United
                                                       States Army,
                                                       Washington, DC
Oct 04..........................  May 06............  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff, Office of
                                                       the Joint Chiefs
                                                       of Staff,
                                                       Washington, DC
May 06..........................  Feb 08............  Commanding
                                                       General, III
                                                       Corps/Commander,
                                                       Multi-National
                                                       Corps-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Feb 08..........................  Present...........  Commanding
                                                       General, III
                                                       Corps and Fort
                                                       Hood, Fort Hood,
                                                       TX
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Nuclear Research Officer, later   Sep 86-Jun 89.....  Captain/Major
 Chief, Acquisition Support
 Division, Defense Nuclear
 Agency, Alexandria, VA, later
 detailed as Military' Advisor
 for Arms Control, Office of the
 Secretary of Defense,
 Washington, DC.
Assistant to the Chairman of the  Oct 04-May 06.....  Lieutenant General
 Joint Chiefs of Staff, Office
 of the Joint Chiefs of Staff,
 Washington, DC.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with five Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Raymond T. 
Odierno, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Raymond T. Odierno.

    2. Position to which nominated:
    Vice Chief of Staff, United States Army.

    3. Date of nomination:
    February 5, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 8, 1954; Dover, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Marie Odierno (Maiden Name: Burkarth).

    7. Names and ages of children:
    Anthony, 29; Kathrin, 27; Michael, 21.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Legion (Member), Association of the United States Army 
(Member), 4th Infantry Division Association (Member), 8th Field 
Artillery Regimental Affiliation (Member), the 9th Infantry Regiment 
Association (Member), and the 1st Cavalry Division Association 
(Member).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes, I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes, I do.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Raymond T. Odierno.
    This 4th day of February, 2008.

    [The nomination of LTG Raymond T. Odierno, USA, was 
withdrawn by the President on April 30, 2008.]
                              ----------                              

    [Prepared questions submitted to LTG Walter L. Sharp, USA, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The current transformation of DOD--the largest since World 
War II, as prescribed in our national defense and military strategies 
and quadrennial defense reviews since 2001, was in many ways enabled 
through Goldwater-Nichols reorganization act of 1986--in this regard I 
would assess that the provisions continue to remain relevant and 
effective. If confirmed, I will continue to assess the conduct of our 
joint operations and make recommendations as required. It is 
imperative, however, to apply similar reform to interagency authorities 
and relationships we must apply and integrate effectively all elements 
of our national power to the challenges that face the Nation today and 
tomorrow.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The emerging strategic environment presents more complex 
asymmetrical challenges, regionally and globally, that demand broader 
and more integrated cooperation of agencies within our own government, 
and with those of our partners around the world. The employment of all 
elements of our national power, and that of our partners, must be 
applied in an integrated fashion. We should seek to continue efforts 
such as Beyond Goldwater Nichols, the Project for National Security 
Reform, and Project Horizon, so we can codify a framework of 
interagency authorities, relationships, and capabilities that more 
effectively bring to bare all elements of national power to strategic 
challenges facing us now and in the future.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, United Nations Command/Combined Forces Command/United 
States Forces Korea?
    Answer. The Commander, United Nations Command (CDRUNC), serves as 
commander of an international command and is responsible for 
maintaining the Armistice Agreement on the Korean Peninsula. The CDRUNC 
acts in accordance with U.N. Security Council resolutions and 
directives. The CDRUNC also acts in accordance with directives from the 
U.S. Government that are transmitted by the Secretary of Defense 
through the Chairman, keeping CDRUSPACOM informed. The CDRUNC is 
responsible for the strategic direction, guidance, operational control 
of forces, conduct of combat operations and acceptance and integration 
of UNC member nations' forces during contingencies. This includes 
enabling access to the seven UNC bases in Japan.
    The Commander, Combined Forces Command (CDRCFC), as commander of a 
binational command, supports Armistice Agreement compliance, deters 
hostile acts of external aggression against the Republic of Korea, and, 
should deterrence fail, defeat an external armed attack. In this 
position, he is responsible for receiving strategic direction and 
missions from the ROK-U.S. Military Committee, which acts as the 
strategic coordinating interface for ROK and U.S. national authorities. 
The missions and functions for the CDRCFC are prescribed in the Terms 
of Reference for the Military Committee and in the US/ROK Military 
Committee Strategic Directive No. 2.
    The Commander, United States Forces Korea (COMUSKOREA), as a sub-
unified commander of the U.S. Pacific Command (USPACOM), is responsible 
for all duties and functions associated with title 10, U.S.C., the 
Unified Command Plan, and CJCSI 5130. This role provides the U.S. with 
the means to provide forces to CDR UNC/CFC as required, and to support 
these forces with the required logistics, administration, and policy 
initiatives necessary to maintain readiness.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. The situation in Korea reflects all aspects of both the 
asymmetrical challenges of the new strategic environment, and our need 
to transform plans, posture, capabilities and relationships with our 
partners and allies to better meet those challenges. Our alliance in 
Korea is one that is transforming into a broad strategic relationship 
that has peninsular, regional, and global components to better meet 
each of those challenges. I have served in Korea at times when we 
focused predominately on the traditional and symmetrical threat of 
North Korea, and I am very familiar with that aspect of the threat that 
remains on the peninsula. I have also served in a number of 
Peacekeeping and Multinational assignments that would be beneficial in 
my role as UNC Commander, and would also allow me to develop further 
our global partnership with the ROK--a steadfast and significant 
contributor to stability and security operations in Iraq and 
Afghanistan. Most recently, my positions on the Joint Staff provide me 
the background and expertise on the transformation of our military to 
meet traditional, irregular, catastrophic, and disruptive challenges 
that face us today and tomorrow--and North Korea is a prime example of 
a threat that has evolved asymmetrically over the last few decades. 
This experience positions me well to continue assessment, integration, 
and implementation of plans to transform the alliance with South Korea 
and maximize the strategic relevance and value of that alliance. If 
confirmed, I will effectively apply U.S. policies and strategies with 
our ROK Ally, and will provide valuable assessments and recommendations 
to our defense and national leadership to better shape those policies 
and strategies.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
United Nations Command/Combined Forces Command, United States Forces 
Korea?
    Question. If confirmed, I intend to conduct in-depth discussions 
and assessments with key personnel and analysts from relevant ROK and 
U.S. Government agencies as well as non-governmental specialists. 
Throughout my time in command, I will continue this dialogue with ROK 
and U.S. leaders to improve my understanding of all aspects of the 
evolving situation within the Korean theater.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
United Nations Command/Combined Forces Command/United States Forces 
Korea with the following officials:
    The Secretary of Defense.
    Answer. The Department of Defense is composed of the Office of the 
Secretary of Defense (OSD), the Military Departments, the Chairman of 
the Joint Chiefs of Staff (JCS), the Combatant Commands, the Inspector 
General of the Department of Defense, the Defense Agencies, the DOD 
Field Activities, and such other offices, agencies, activities, and 
commands established or designated by law, or by the President or by 
the Secretary of Defense. The functions of the heads of these offices 
are assigned by the Secretary of Defense according to existing law. CDR 
UNC reports to the Secretary of Defense, and through him to the 
President, while at the same time keeping the Commander, USPACOM, 
informed of any communications with U.S. national authorities. A 
validated binational ROK-U.S. document provides further guidance on CDR 
CFC's unique relationship with the ROK National Command and Military 
Authorities and the U.S. Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act.
    Question. The Under Secretary of Defense for Policy.
    Answer. Title 10, U.S.C., and current directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary regarding matters related to their functional 
areas. Under Secretaries exercise policy and oversight functions within 
their areas, and may issue instructions and directive type memoranda 
that implement policy approved by the Secretary.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Title 10, U.S.C., and current directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary regarding matters related to their functional 
areas. Under Secretaries exercise policy and oversight functions within 
their areas, and may issue instructions and directive type memoranda 
that implement policy approved by the Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman, Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. CDR UNC communicates through the Chairman, 
Joint Chiefs of Staff, to the Secretary of Defense.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, U.S.C., provides that, subject to authority, 
direction, and control of the Secretary of Defense, and subject to the 
authority of the combatant commanders, the Secretaries of the Military 
Departments are responsible for administration and support of forces 
that are assigned to unique and specified commands.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services are responsible for the 
organization, training, and equipping of the Services, under Title 10, 
U.S.C. Their support is critical to meet readiness needs. They also 
provide military advice to the Chairman of the Joint Chief's of Staff 
and the Secretary of Defense as members of the Joint Chiefs of Staff.
    Question. The other combatant commanders, especially the Commander, 
United States Pacific Command
    Answer. COMUSKOREA, as commander of a sub-unified command of 
USPACOM, reports directly to the Commander, USPACOM, on matters 
directly pertaining to U.S. Forces Korea areas of responsibility. CDR 
UNC and CDR CFC keeps the Commander, USPACOM, informed of any 
communications with U.S. national authorities.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, United Nations Command/Combined Forces 
Command/United States Forces Korea?
    Answer. The major challenges include maintaining readiness and 
deterrence, while implementing the transformation of U.S. forces in 
Korea and implementation of the plan to transfer wartime operational 
control to the ROK. Readiness of U.S. forces will be my primary near-
term focus if confirmed for this position. The ROK-U.S. Alliance must 
be ``ready to fight tonight'' due to the proximity and lethality of the 
threat. A highly trained and ready force provides stability and 
mitigates risk. Sustaining readiness requires tough, realistic 
training; appropriate levels of manning and modern equipment; training 
infrastructure; and a quality of life which supports and sustains our 
people. I am personally committed to ensuring that the combat readiness 
of our forces in Korea.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I will ensure that our forces remain vigilant 
and well-prepared, by maintaining readiness and rigorous training and 
exercises. If confirmed I will immediately review these elements to 
ensure that we are as strong and as ready as we can possibly be. I will 
devote myself to maintaining the strong Alliance between the United 
States and the Republic of Korea. A strong, healthy, and capable 
Alliance is necessary to meet the challenges we face on the Korean 
Peninsula. Should deterrence fail, combined forces must be, and will 
be, ready to defeat North Korean aggression.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near term 
threats to U.S. national security interests in Asia.
    What is your assessment of the current security situation on the 
Korean peninsula and the diplomatic efforts to persuade North Korea to 
verifiably dismantle its nuclear weapons program?
    Answer. North Korea remains the primary threat to security in 
Northeast Asia. Notwithstanding progress in the ongoing Six-Party Talks 
and the ongoing disablement of North Korea's Yongbyon nuclear reactor 
facility, North Korea's historical opposition to meaningful reform and 
its long-term pattern of provocative behavior and proliferation present 
significant challenges to achieving lasting regional and global 
stability. In addition to North Korea's nuclear threat, its missile 
program, coupled with its aging but still lethal and forward positioned 
conventional force, continues to present significant challenges. All 
elements of U.S. and partner national power must be applied to achieve 
our combating WMD objectives. Nonproliferation diplomatic efforts, such 
as the Six-Party Talks negotiations, in addition to 
Counterproliferation, and Consequence Management plans, capabilities, 
and posture, are part of a comprehensive strategy to combat WMD. We 
must maintain readiness across this spectrum and employ our 
capabilities consistently and appropriately.
    Question. What is your assessment of the threat posed to South 
Korea, Japan, and the United States by North Korea's ballistic missile 
and weapons of mass destruction capabilities and the export of those 
capabilities?
    Answer. The October 2006 nuclear test at the Punggye facility 
supported previous assessments that North Korea had produced nuclear 
weapons. Prior to the test, it is assessed that North Korea produced 
enough plutonium jars for at least a half dozen nuclear weapons. 
According to recent assessments, North Korea pursued a Highly Enriched 
Uranium (HEU) capability at least in the past, and the Intelligence 
Community (IC) judges with at least moderate confidence that the effort 
continues today. If fully developed, an HEU capability could provide an 
alternative method of nuclear weapons development independent of its 
plutonium production facility at Yongbyon. The IC remains uncertain 
about Kim Jong-Il's commitment to full denuclearization, as he promised 
in the October 2007 Six-Party Agreement.
    North Korea continues to build missiles of increasing range, 
lethality, and accuracy, bolstering its current stockpile of 800 
missiles for its defense and external sales. With its test of an 
intercontinental ballistic missile that can possibly reach the western 
United States, conducted in July 2006, and preparations underway to 
field a new intermediate range missile capable of striking Okinawa, 
Guam and Alaska, North Korea's missile development program presents a 
threat which cannot be ignored.
    Question. What is your assessment of North Korea's conventional 
capabilities and readiness?
    Answer. Despite economic hardship, North Korea retains the fourth 
largest armed Force in the world with 1.2 million active duty and 5 
million Reserves, devoting up to one third of its available resources 
to sustain its conventional and asymmetric military capabilities. 
Though aging and unsophisticated by U.S. and ROK standards, its 
military arsenal, which includes 1,700 aircraft, 800 naval vessels, and 
over 13,000 artillery systems, still constitutes a substantial threat. 
Seventy percent of North Korea's ground forces are located within 90 
miles of the Demilitarized Zone, with up to 250 long range artillery 
systems capable of striking the Greater Seoul Metropolitan Area, a 
thriving urban area of over 20 million inhabitants. North Korea still 
has the capacity to inflict major destruction and significant military 
and civilian casualties in South Korea, with little to no warning.
    Question. What, if anything, should be done to strengthen 
deterrence on the Korean peninsula?
    Answer. If confirmed, I would encourage both the U.S. and ROK to 
sustain the ongoing transformation initiatives and capabilities 
enhancement programs. This includes implementation of the Strategic 
Transition Plan, signed by General Bell and the ROK CJCS in June 2007, 
which establishes a roadmap to achieve OPCON transition in 2012, while 
maintaining an effective deterrent and warfighting capability. Our 
transformation and realignment initiatives ongoing throughout the 
Pacific, enhance deterrence on the peninsula, in the region, and align 
us more effectively globally--we must continue these efforts.

                  BALLISTIC MISSILE DEFENSE PRIORITIES

    Question. The current Commander, U.S. Forces Korea, recently 
testified that there is a current need for additional PAC-3 missile 
defense systems to counter North Korea's missile inventory.
    What is your assessment of the missile defense priorities of U.S. 
Forces Korea and Combined Forces Command?
    Answer. PAC-3 Patriot Missile System upgrades and improved 
munitions have significantly enhanced our ability to protect critical 
United States facilities in the Republic of Korea. However, there is a 
significant shortage of PAC-3 missiles currently available on the 
peninsula to counter the North Korean missile threat.
    The Republic of Korea does not currently possess a Ballistic 
Missile Defense (BMD) capability that can fully integrate with U.S. BMD 
systems. The ROK recently announced plans to purchase eight 
Configuration-2 Patriot firing units. When fielded, these firing units 
will possess a localized theater ballistic missile defensive capability 
for key sites.
    In the near term, the Republic of Korea must develop a systematic 
missile defense solution to protect its critical civilian and military 
command capabilities, critical infrastructure and population centers. 
South Korean military and civilian facilities are currently highly 
vulnerable to North Korean missile attacks.
    Question. What missile defense systems and capabilities do you 
believe are needed in the near term to meet the operational needs of 
these commands?
    Answer. Continued production of PAC-3 missiles and development of 
the Theater High Altitude Air Defense (THAAD), Airborne Laser, and 
AEGIS Ballistic Missile Defense are needed to provide the layered, 
systematic missile defense capability to required protect critical 
United States facilities in the Republic of Korea. The ROK has 
announced plans to purchase much needed Configuration-2 Patriot firing 
units and will begin the process of integration with U.S. BMD systems.

                  NORTH KOREA-POW-MIA RECOVERY EFFORTS

    Question. From 1996-2005, the United States worked with the North 
Korean military to recover and repatriate the remains of American 
servicemembers who perished on the Korean peninsula. However, in the 
spring of 2005, the United States unilaterally halted the program.
    In your opinion, should the United States work with North Korea to 
repatriate the remains of American servicemembers found in North Korea? 
If so, when, or under what conditions, should the United States resume 
such cooperation?
    Answer. The Defense Prisoner of War/Missing Personnel Office (DPMO) 
has responsibility for strategy and policy regarding the recovery of 
Korean War remains and provides DOD oversight over the entire personnel 
accounting process. The United Nations Command (UNC) assists DPMO and 
the USPACOM Joint POW/MIA Accounting Command (JPAC) in arranging 
operational and logistics support to remains recovery operations in 
North Korea. Also, the UNC conducts repatriation ceremonies after 
remains are transferred to UNC control at the joint security area at 
the end of each operation.
    Once national policymakers determine that conditions permit 
reengagement with North Korea, DPMO will lead the U.S. negotiating 
team. If U.S. and North Korean representatives can reach a mutually 
agreeable arrangement that provides the necessary process and 
procedures to conduct operations, it would seem possible to resume this 
humanitarian effort. The arrangement must address the safety and 
security of U.S. personnel executing remains recovery in North Korea. 
When U.S. commanders are satisfied that an acceptable level of risk to 
U.S. personnel exists, remains recovery operations can resume in North 
Korea.
    Question. If confirmed, what, if anything, would you do to restart 
cooperation with North Korea on the POW-MIA remains recovery program?
    Answer. National policymakers will decide when to restart remains 
recovery operations in North Korea. This is a bilateral U.S.-North 
Korea policy issue. However, when the decision is made, the United 
Nations Command will continue to play a key role in supporting remains 
recovery operations in North Korea.

                     MILITARY-TO-MILITARY RELATIONS

    Question. In your view, what is the value of military-to-military 
relations, in general?
    Answer. Military-to-military relations are an essential part of 
establishing and maintaining overall relationships with our partners. 
They help to develop mutual respect and facilitate security cooperation 
amongst partner nations to better meet challenges that impact our 
common national interests and values. Additionally, often from our 
military relationships emerge stronger socio-political and economic 
ones--as recently symbolized by our U.S.-ROK Free Trade Agreement, 
signed on June 30, 2007.
    Military-to-military relationships with countries that present 
significant security and stability challenges, as in the case of North 
Korea, are mandatory and critical to crisis management and tension 
reduction.
    Question. What is your assessment of the current climate in 
military-to-military professional relationships and interoperability at 
all levels between U.S. and ROK forces?
    Answer. The current military relationship is one of mutual respect 
and trust, bolstered by the very professional nature of both of our 
militaries. ROK officers regularly attend our professional development 
schools and U.S. officers do the same in ROK schools. U.S. doctrine not 
only forms the basis of our combined defense system, epitomized by the 
Combined Forces Command, but it is also the basis for much of the ROK's 
military doctrine. Our doctrine also allows us to operate effectively 
with partners through independent parallel command structures, as we 
will achieve with the Republic of Korea in 2012, and in multinational 
command structures as what currently exists under United Nations 
Command or in places like Iraq and Afghanistan. In large part, this is 
of great credit to the professionalism, training, expertise, and 
experience of the ROK military. ROK and U.S. forces have exercised and 
operated together for over 50 years, providing a foundation of shared 
experience that solidifies a professional bond that only continues to 
grow and will flourish under any command relationship. This has been 
proven time and again in our relationship on the peninsula, and in our 
relationship with the ROK military as strategic partners in Iraq and 
Afghanistan.
    Operationally, while interoperability between U.S. and ROK forces 
has improved, there are issues that must be resolved. For instance, 
advanced U.S. warfighting capability has resulted in greater employment 
of precision-guided munitions. The ROK military needs to invest to 
balance its ability to put airborne weapons on target to provide more 
effective use of these assets. Many similar interoperability issues 
have been identified and the ROK military endeavors to resolve these 
matters. If confirmed, I will assess interoperability further and seek 
to reduce, if not eliminate, any interoperability shortfalls.
    Question. What would be the value, in your opinion, of military-to-
military relations with North Korea?
    Answer. The United States and North Korea currently maintain 
limited relations through representatives of the United Nations Command 
side of the Military Armistice Commission (UNCMAC) and the (north) 
Korean People's Army at Panmunjom. This channel gives the U.S., through 
the U.N. Command, an opportunity to discuss any issue of relevance, but 
is limited by North Korea's intransigence toward meetings on 
substantive issues. These relations are vital to maintaining the 1953 
Armistice Agreement. Issues of an administrative and operational nature 
must be worked out through the United Nations Command Military 
Armistice Commission at Panmunjom. This is a consistent and proven 
channel with which the two countries can and do maintain military 
communications.
    Question. If confirmed, what, if any, action would you take to 
increase the quality and quantity of military contacts between the 
United States and North Korea?
    Answer. The starting point for improvement in U.S. and North Korean 
mil-to-mil contacts is North Korea's return to active participation in 
Military Armistice Commission (MAC) General Officer Talks, as called 
for by the 1953 Armistice Agreement. In 1991 North Korea unilaterally 
stopped participating in these talks. General Officer Talks between the 
UNCMAC, which includes a U.S. General Officer, and the Korean People's 
Army at Panmunjom can provide an opportunity and appropriate level for 
discussing matters of mutual military concern.

                 REPUBLIC OF KOREA (ROK)--U.S. ALLIANCE

    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia Pacific region. This 
relationship has gone through periods of inevitable change.
    What is your understanding of the current U.S. security 
relationship with the ROK?
    Answer. The current U.S. security relationship with the ROK is 
governed by the Mutual Defense Treaty as entered into force from 
November 1954. In particular, the treaty's requirement that both the 
U.S. and ROK maintain and develop appropriate means to deter and, if 
deterrence should fail, defeat an armed external attack continues to 
serve as the cornerstone of the relationship. Both the U.S. and the ROK 
remain fully committed to the treaty's provisions and the mutual 
defense of both nations. We are also an alliance that is currently 
evolving into a broader strategic partnership based on common interests 
in the peninsula, region, and world.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. If confirmed, I will ensure that I maintain the strong 
U.S.-ROK security relationship that has preserved stability, promoted 
democracy, and deterred external aggression for the past 55 years. I 
will also continue to help develop our alliance into a broader 
strategic partnership that is reflective of our two nations' common 
interests and concerns in the region and globally.
    Question. What is your assessment of ROK warfighting capability 
trends with regard to the modernization and capability improvements in 
ROK equipment and training of their personnel?
    Answer. Answer is combined with the response to the question below.
    Question. What is your assessment of ROK current and projected 
military capabilities and the ability of ROK forces to assume a greater 
role in the defense of their homeland including responsibility for 
commanding and controlling the warfighting, readiness, and operations 
of their own forces in wartime (``OPCON Transfer'')?
    Answer. The ROK military is fully capable, highly professional and 
competent. The ROK currently exercises daily command and control of all 
of its 677,000-man armed forces, and is working to assume primary 
responsibility for the lead role in its defense in 2012.
    ROK Defense Reform 2020 plan will create a more modern and agile 
fighting force. The ROK military modernization goal is to develop a 
self-reliant, technology-oriented, qualitative defense force. As a 
result of its emphasis on technology under this plan, the ROK plans to 
reduce its total (Active and Reserve) Army ground forces by 
approximately 45 percent over the next 12 years leading up to its 
target date of 2020. The overall Active and Reserve Forces will be 
reduced from about 3.7 million to about 2 million.
    In September 2006, the Presidents of the United States and the 
Republic of Korea agreed that South Korea should assume the lead for 
its own defense. In early 2007, the U.S. Secretary of Defense and ROK 
Minister of National Defense determined that South Korea will assume 
wartime operational control of its forces on April 17, 2012. The ROK 
military will assume responsibility/or commanding and controlling the 
warfighting readiness and operations of their own forces in wartime/or 
the first time since the end of the Korean War. The ROK will form a 
national warfighting headquarters provisionally described as the ROK 
Joint Forces Command (JFC). U.S. Forces Korea will transform into a new 
joint warfighting command provisionally described as Korea Command 
(KORCOM). KORCOM will be a fully capable and resourced complementary 
U.S. joint warfighting command in a doctrinally supporting role to the 
ROK JFC. The current U.S.-led combined warfighting command, Combined 
Forces Command, will be disestablished. If confirmed, I will ensure 
that U.S. and ROK combined capabilities continue to maintain a strong 
and credible deterrent, and remain highly capable, should deterrence 
fail, of defeating a North Korean attack quickly and decisively during 
the transition period.

            DOMESTIC POLITICS IN THE REPUBLIC OF KOREA (ROK)

    Question. In the last decade, domestic opinion in the ROK with 
regard to the American presence and relations with the North Korea has 
increasingly split along generational lines, with younger Koreans being 
more skeptical of relations with the United States while the older 
generation is much more content with the status quo.
    If confirmed, how would you see your role and responsibility in the 
light of these changes in the ROK body politic?
    Answer. If confirmed, my role and duties as Commander, United 
Nations Command/Combined Forces Command/United States Forces Korea will 
remain as described by appropriate governing U.S., ROK-U.S., and U.N. 
documents. My requirement to maintain the Armistice; deter or, should 
deterrence fail, defeat external aggression; and discharge all title 10 
and Unified Command Plan duties and responsibilities will remain the 
same throughout my tenure, despite any changes to the ROK body politic. 
I would also add that an enduring, but transformed U.S. presence in and 
alliance with South Korea is recognized by both nations as essential to 
our common interests--the transformation of our alliance keeps it a 
relevant and valuable enabler, not obstacle, to maintaining peace and 
stability on the peninsula and in the region. President Lee in recent 
speeches supports enduring U.S. presence on the peninsula, and has 
stated a desire to expand our relationship into a broader alliance 
reflective of our common interests on the peninsula, in the region, and 
globally.

                            REGIONAL POSTURE

    Question. In your opinion, how should the U.S. employ its forces in 
Korea to provide for regional presence and engagement, and to best 
respond to military threats, provide support for out-of-area 
contingencies, and maintain readiness?
    Answer. Transformation and realignment of forces in Korea is not 
something that has occurred outside of DOD transformation and global 
defense posture initiatives, but a highly successful example of our 
strategy. Our ongoing bilateral transformation and realignment efforts 
in Korea and Japan--and the rest of the Pacific, ensure we maintain the 
right balance and integration of command and control, and capabilities 
in the region to meet bilateral defense obligations, enhance regional 
security cooperation, and better meet global challenges. U.S. Forces in 
Korea should possess the capability to meet our mutual defense treaty 
commitments to the Republic of Korea, while maintaining sufficient 
flexibility to deploy forces to meet regional and global contingency 
requirements. The Commander, U.S. Forces Korea (COMUSKOREA) continually 
assesses force requirements on the Korean peninsula through CDRUSPACOM 
to the Secretary of Defense. If confirmed, I will ensure that I gain a 
full understanding of the security environment on the peninsula so that 
I can provide my assessment and recommendations to continue proper 
shaping of our ongoing transformation and realignment efforts.

                      CONSOLIDATION OF U.S. FORCES

    Question. The Land Partnership Plan (LPP) is consolidating the 
combat brigade and supporting elements of the 2nd Infantry Division in 
and around Camp Humphrey, South of Seoul. New construction of 
facilities and infrastructure required to support the consolidation is 
being carried out using funds from both the Host Nation and United 
States military construction accounts. The Yongsan Relocation Plan 
proposes to move most of the U.S. forces currently stationed at Yongsan 
compound in Seoul to Camp Humphrey, Korea, as well. This relocation is 
to be largely funded by the Korean Government.
    What is your assessment of the current status of the two 
consolidation plans and the timeline for completion?
    Answer. Both the LPP and YRP are being executed simultaneously and 
are proceeding ahead. To consolidate 2nd Infantry Division, the U.S. 
goal is to close a total of 63 facilities and areas, comprising two 
thirds of all land granted under the SOFA, and totaling more than 
38,000 acres. To date, the U.S. has closed 37 installations 
encompassing over 17,208 acres with a tax assessed value of over $500 
million and returned 35 installations to the Republic of Korea. Both 
sides are working together to develop the land and construct the 
facilities under our internationally agreed plans to relocate U.S. 
forces in support of both U.S. and ROK national objectives.
    Question. What do you anticipate to be the total costs to be 
incurred by the U.S. Government to carry out the two consolidations'?
    Answer. As part of the YRP signed by the U.S. and the ROK in 2004, 
the Republic of Korea agreed to provide at their expense the majority 
of the required buildings and infrastructure at a cost of billions of 
dollars. The ROK is aggressively pursuing their agreed to requirements, 
already spending nearly $2 billion in pursuit of project goals. For our 
part, the United States agreed to provide the majority of required 
family housing and unaccompanied senior leader quarters for our force, 
at a cost we estimate to be between $1 and $2 billion. Regarding the 
relocation of the 2ID under the LPP, the United States intends to fund 
the requirements using both appropriated funds and host nation provided 
burden sharing funds. The U.S. share of the total cost to carry out the 
two consolidations will be approximately $2.4 billion.

                  HOST NATION BURDEN-SHARING PROGRAMS

    Question. Two programs supported by the Republic of Korea, the 
Combined Defense Improvement Program and the Korea Host Nation Funded 
Construction Program, provide cash and in-kind projects to satisfy U.S. 
military facility and infrastructure requirements.
    What is your assessment of the current level and quality of the 
burden-sharing arrangement?
    Answer. In principle, both the U.S. and the Republic of Korea agree 
to the goal of reaching an equitable level of commitment to allied 
burden sharing. The U.S. Department of Defense position is that to 
achieve equitability, South Korea should share approximately 50 percent 
of U.S. costs of stationing forces on the peninsula excluding military 
pay. This year the ROK provided the United States with $787 million in 
burden sharing funds, which is expected to offset approximately 43 
percent of U.S. non-personnel stationing costs. While this year's 
contribution did not meet DOD's goal, the ROK and the U.S. continue to 
negotiate toward a more equitable level of burden sharing.
    Question. What priorities would you establish for U.S. forces in 
Korea to make the best use of these programs?
    Answer. The next allied burden sharing agreement must be negotiated 
for a longer term than the 2-year agreements of the recent past to 
provide stability and predictability for both sides. In that agreement, 
it is vital to the Alliance to achieve an equitable level of cost 
sharing as well as the ability for the command to apportion host nation 
funds into the agreed categories to meet command priorities. Over the 
next several years, as U.S. forces in Korea transform and consolidate 
south of Seoul, if confirmed, I will have to balance my construction 
priorities with labor and logistics requirements. Our highest priority 
will be to apply burden sharing funds against the requirement to move 
2ID south of Seoul under the Land Partnership Plan.

            TRAINING OF U.S. FORCES IN THE REPUBLIC OF KOREA

    Question. In the past few years as U.S. forces in Korea have drawn 
down and consolidated, home station training of both U.S. Army and Air 
Force units based on the peninsula has emerged as a significant 
concern.
    Do you believe there is sufficient availability and access to 
training ranges for large ground unit maneuver and fires, and for close 
air support missions and other Air Force operations?
    Answer. The ground training requirements for U.S. forces in Korea 
are currently being met. Current access to air-to-ground training 
ranges in the Republic of Korea has improved significantly in the past 
2 years. Additional arrangements must still be made with the South 
Korean Government to further improve access; however, I understand USFK 
is pleased with the progress being made. If confirmed, I will continue 
to work closely with our ROK ally to facilitate access that provides 
the training opportunities necessary to maintain the combat readiness 
of our entire force.
    Question. In your view, are the ranges in Korea adequate to meet 
the training requirements of U.S. forces?
    Answer. The current inventory and facility replacement plan for 
ground maneuver training ranges is sufficient to meet U.S. ground 
forces training requirements. We are working closely with the Republic 
of Korea to improve the quality and availability of training ranges for 
our air component. If confirmed, I will continue to work with our ally 
to improve and modernize all available training facilities to ensure 
force readiness requirements are met.

                        FAMILY HOUSING IN KOREA

    Question. The Commander of United States Forces in Korea has 
proposed to increase the number of U.S. military personnel in Korea on 
accompanied tours, thereby increasing the number of families in Korea. 
This would require the construction of additional housing and community 
support facilities at U.S. installations in Korea.
    To what extent, if any, do you believe the percentage of personnel 
sent to Korea on accompanied tours should be increased?
    Answer. In 55 years, the Republic of Korea has transformed from a 
war ravaged country to one of the most modern, progressive, and 
democratic countries in the world. Unfortunately. the U.S. still 
rotates servicemembers on 1 year unaccompanied assignments as though 
South Korea remains an active combat zone. While supporting other long-
term contingency operations, the U.S. needlessly contributes to family 
separations with the current 1 year unaccompanied rotation policy in 
Korea. Additionally, the ROK-U.S. Alliance is emerging into a broader 
strategic partnership and it is in our mutual interests to maintain 
enduring, but transformed presence on the peninsula--more reflective of 
that partnership. Normalized tours offer many benefits and contribute 
greatly to enhancing our broad strategic alliance with Korea. We should 
maximize the number of accompanied tours and normalize U.S. 
servicemember tour lengths in Korea to 3-year family accompanied tours 
and 2-year unaccompanied tours for our married and single 
servicemembers, similar to our policies in Japan and Europe. This new 
policy can be implemented with an infrastructure expansion plan over 10 
to 15 years, with costs being supported by burden sharing contributions 
from the Republic of Korea.
    The benefits of normalizing tours are many and include improved 
continuity, stability, readiness and retention of regional, 
institutional, and cultural knowledge. The end-state will result in 
reduced entitlement costs and an overall savings as we decrease the 
number of servicemember moves and lower the need for entitlements 
resulting from family separations.

                            QUALITY OF LIFE

    Question. Through recent investment in quality of life amenities, 
to include housing, health care and recreation, the Department has 
worked to achieve the goal of making Korea an ``assignment of choice'' 
for U.S. Forces.
    What do you consider to be the most essential quality of life 
programs for soldiers and their families stationed in Korea and, if 
confirmed, what would be your goals in this regard'?
    Answer. I believe the three most essential elements supporting 
military life in any assignment are quality living and working 
conditions and facilities, quality health care, and quality educational 
opportunities for dependent family members. General Bell made 
tremendous efforts to make improvements in these areas for our 
servicemembers. If confirmed, I will continue to advocate, as my 
predecessors have, for the best possible conditions for all three so 
that our men and women have the quality of life that they deserve while 
serving so far from home.

                     KOREA ASSIGNMENT INCENTIVE PAY

    Question. Assignment incentive pay was approved in 2003 for 
soldiers who agreed to extend their tours of duty in Korea. Since that 
time, payment of an overseas cost-of-living allowance was also 
approved.
    In your opinion, is eligibility for assignment incentive pay for 
duty in Korea still necessary and cost-effective?
    Answer. With the authorization of a cost-of-living allowance (COLA) 
and Assignment Incentive Pay (AIP) in Korea, pay disparity for our 
servicemembers in the ROK has been greatly improved. By extending tours 
through AIP, we improve readiness and increase stability. From a fiscal 
standpoint, the incentive pay a servicemember receives for extending 
his or her tour is less than the costs borne by the government to move 
two servicemembers (one to Korea, one from Korea). The combined effect 
of reduced PCS costs, increased readiness and greater stability in 
Korea is a win/win situation. AIP has been a huge success with over 
19,000 soldiers and airmen signing up for incentive pay with an 
estimated net savings of $112 million in reduced PCS costs. However, 
while AIP has been a major success from a fiscal perspective, for our 
unaccompanied servicemembers--over 80 percent of our authorized force 
in Korea-accepting AIP means longer separations from family back in the 
States. Rather than providing incentives to unaccompanied personnel to 
stay longer in Korea, we should focus on enabling servicemembers to 
bring their families to Korea and establish a more family oriented 
environment. With tour length normalization in Korea, in accordance 
with DOD overseas basing policies such as those in Europe and Japan, we 
could end the Assignment Incentive Pay program.

                 MEDICAL CARE FOR U.S. FORCES IN KOREA

    Question. One of the most important quality of life issues in Korea 
is ensuring access to high quality medical care for servicemembers of 
all military branches and their families. Separate medical chains of 
command responsible for providing health care, and the presence of non-
command-sponsored family members who need health services, among other 
factors, have presented challenges. Reforms proposed have included: (1) 
establishment of a joint military medical command for Korea to 
streamline command and control of health care delivery for all 
personnel, (2) development of a managed care support contract for 
Korea, and (3) offering a TRICARE-like benefit to all family members 
and DOD employees, regardless of command sponsorship.
    If confirmed, how would you assess the need for improvement in the 
management and delivery of health care services in Korea?
    Answer. Quality health care is essential for all servicemembers, 
regardless of where they serve. However, this is even more important 
for our servicemembers who serve in Korea--thousands of miles from 
home. If confirmed, I will conduct a careful and thorough review of the 
availability of quality health care for our servicemembers and their 
families.
    Question. What is your view on whether or not the policy regarding 
support to non-command sponsored family members should be reconsidered 
and revised by the Department of Defense?
    Answer. General Bell has made extraordinary strides for non-command 
sponsored family members by ensuring access and availability of the 
full range of services, entitlements and privileges for all dependent 
family members who reside with their military, DOD civilian employee, 
or invited contractor sponsor in Korea. If confirmed, I will continue 
General Bell's efforts by placing special emphasis on critical areas of 
support for servicemember families such as TRICARE medical and dental 
programs as well as tuition assistance for dependent children. This may 
require addressing current DOD policies on non-command sponsored 
dependents.

                             SEXUAL ASSAULT

    Question. What is your assessment of the progress that the Army has 
made in the last 2 years in the promulgation of policy on sexual 
assault, and what do you think will be your biggest challenge in 
achieving the changes in programs, training and implementation if 
confirmed as Commander of the U.S. Forces in Korea?
    Answer. I believe that the Army has made great strides in ensuring 
the promulgation of its policy on sexual assault. General Bell has made 
preventing sexual assault a priority, as well as his policy which is to 
eliminate any occurrence of this crime within United States Forces 
Korea. If confirmed I will maintain General Bell's command focus upon 
awareness and prevention of sexual assault.

                    PREVENTION OF HUMAN TRAFFICKING

    Question. Following media reports connecting prostitution and human 
trafficking in Korea to U.S. military forces, Commander, U.S. Forces 
Korea, in 2004 instituted a zero tolerance policy regarding the illegal 
activities of prostitution and human trafficking. Under this policy, 
all USFK personnel, military and civilian, as well as contractors and 
their employees, are expected to comply with prohibitions, including 
observance of curfews and laws regarding off-limits areas and 
establishments, aimed at curtailing these practices.
    What effects on the incidence of prostitution and human trafficking 
have changes in U.S. policy, as well as new criminal laws implemented 
by the ROK, had on the incidence of prostitution and human trafficking 
in Korea?
    Answer. Changes in U.S. policy have decreased the incidents of 
prostitution and human trafficking in Korea. General Bell has 
instituted a zero tolerance policy regarding prostitution and human 
trafficking within United States Forces Korea. The current USFK 
strategy of awareness, identification, reduction, and enforcement has 
been a success, and, if confirmed, I will continue this approach.
    Question. What further changes, if any, to the Uniform Code of 
Military Justice and military regulations are needed in your judgment 
to ensure maximum effectiveness of the zero tolerance policy?
    Answer. I believe that the Uniform Code of Military Justice and 
extant military regulations are sufficient to ensure the efficacy of 
the zero tolerance policy. I would be willing to offer any 
recommendations to this committee should I see the need to do so in the 
future.
    Question. If confirmed, what steps would you take to further 
enhance the effectiveness of the zero tolerance policy?
    Answer. If confirmed, I will continue General Bell's zero tolerance 
policy and strategy of awareness, identification, reduction and 
enforcement. I will maintain command focus to further enhance the 
policy's effectiveness.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, United Nations 
Command/Combined Forces Command/United States Forces Korea?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of LTG Walter L. Sharp, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 14, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General

    LTG Walter L. Sharp, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Walter L. Sharp, USA, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

            Biographical Sketch of LTG Walter L. Sharp, USA
Source of commissioned service: USMA.

Military schools attended:
    Armor Officer Basic Course
    Field Artillery Officer Advanced Course
    United States Army Command and General Staff College
    United States Army War College

Educational degrees:
    United States Military Academy - BS - No Major
    Rensselaer Polytechnic Institute - MS - Operations Analysis/
Engineering

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of Appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Jan 85
LTC.......................................  1 Apr 90
COL.......................................  1 Sep 93
BG........................................  1 Oct 97
MG........................................  1 Jan 01
LTG.......................................  10 Mar 03
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To               Assigment
------------------------------------------------------------------------
Apr 75..........................  May 77............  Platoon Leader, A
                                                       Company, later
                                                       Executive
                                                       Officer, B
                                                       Company, 1st
                                                       Battalion, 67th
                                                       Armor, 2d Armored
                                                       Division, Fort
                                                       Hood, TX
May 77..........................  Jul 77............  S-3 (Air), 1st
                                                       Battalion, 67th
                                                       Armor, 2d Armored
                                                       Division, Fort
                                                       Hood, TX
Jul 77..........................  Aug 78............  Assistant G-3
                                                       (Operations), 2d
                                                       .Armored
                                                       Division, Fort
                                                       Hood, TX
Aug 78..........................  Apr 80............  Commander, A
                                                       Company, 1st
                                                       Battalion, 67th
                                                       Armor, 2d Armored
                                                       Division, Fort
                                                       Hood, TX
Apr 80..........................  Aug 81............  Student,
                                                       Rensselaer
                                                       Polytechnic
                                                       Institute, New
                                                       York
Aug 81..........................  Jun 84............  Combat Development
                                                       Analysis Officer,
                                                       Office of the
                                                       Director for
                                                       Combat
                                                       Developments,
                                                       United States
                                                       Army Armor
                                                       School, Fort
                                                       Knox, KY
Jun 84..........................  May 85............  Combat Development
                                                       Analysis Officer,
                                                       Deep Attack
                                                       Programs Office.
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Operations and
                                                       Plans,
                                                       Washington, DC
May 85..........................  Jun 86............  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jul 86..........................  Jun 88............  Executive Officer,
                                                       2d Squadron, 11th
                                                       Armored Cavalry
                                                       Regiment, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jun 88..........................  Jun 89............  Combat Development
                                                       Analysis Officer,
                                                       A3 Task Force,
                                                       Office of the
                                                       Chief of Staff,
                                                       Army, Washington,
                                                       DC
Jun 89..........................  Jul 90............  Director of
                                                       Analysis, Force
                                                       Developments
                                                       Division, Office
                                                       of the Deputy
                                                       Chief of Staff
                                                       for Operations
                                                       and Plans,
                                                       Washington, DC
Jul 90..........................  Jul 93............  Commander, 7th
                                                       Cavalry Squadron,
                                                       1st Cavalry
                                                       Division, Fort
                                                       Hood, TX and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jul 93..........................  Jul 94............  Director, Models
                                                       and Simulations
                                                       Directorate,
                                                       United States
                                                       Army Combined
                                                       Arms Command,
                                                       National
                                                       Simulations
                                                       Center, Fort
                                                       Leavenworth, KS
Jul 94..........................  Jun 96............  Commander, 2d
                                                       Armored Cavalry
                                                       Zone V, United
                                                       Nations Mission
                                                       in Haiti,
                                                       Operation Uphold
                                                       Democracy, Haiti
Jun 96..........................  Mar 97............  Executive Officer
                                                       to the Commander
                                                       in Chief, United
                                                       Nations Command/
                                                       Combined Forces
                                                       Command/United
                                                       States Forces
                                                       Korea, Korea
Mar 97..........................  Oct 98............  Assistant Division
                                                       Commander
                                                       (Maneuver), 2d
                                                       Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea
Oct 98..........................  Nov 99............  Deputy Director
                                                       for Global/
                                                       Multilateral
                                                       Washington, DC
Dec 99..........................  Nov 01............  Commanding
                                                       General, 3d
                                                       Infantry Division
                                                       (Mechanized) and
                                                       Fort Stewart, GA,
                                                       to include duty
                                                       as Commander,
                                                       Multinational
                                                       Division (North),
                                                       Operation Joint
                                                       Forge, Bosnia-
                                                       Herzegovina
Nov 01..........................  Mar 03............  Vice Director for
                                                       Force Structure,
                                                       Resources and
                                                       Assessment, J-8,
                                                       The Joint Staff,
                                                       Washington, DC
Mar 03..........................  Aug 05............  Director for
                                                       Strategic Plans
                                                       and Policy, J-5.
                                                       The Joint Staff,
                                                       Washington, DC
Aug 05..........................  Present...........  Director, The
                                                       Joint Staff,
                                                       Washington, DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
           Assignments                   Dates               Rank
------------------------------------------------------------------------
Executive Officer to the          Jun 96-Mar 97.....  Colonel
 Commander in Chief, United
 Nations Command/Combined Forces
 Command/United States Forces
 Korea, Korea.
Deputy Director for Global/       Oct 98-Nov 99.....  Brigadier General
 Multilateral Issues/
 International-American Affairs,
 J-5, The Joint Staff,
 Washington, DC.
Vice Director for Force           Nov 01-Mar 03.....  Major General
 Structure, Resources and
 Assessment, J-8, The Joint
 Staff, Washington, DC.
Director for Strategic Plans and  Mar 03-Aug 05.....  Lieutenant General
 Policy, J-5, The Joint
 Staff,Washington, DC.
Director, The Joint Staff,        Aug 05-Present....  Lieutenant General
 Washington, DC.
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with Oak Leaf Cluster)
    Bronze Star Medal
    Meritorious Service Medal (with five Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal
    Parachutist Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Walter L. 
Sharp, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Walter L. Sharp.

    2. Position to which nominated:
    Commander, United Nations Command/Combined Forces Command/United 
States Forces Korea.

    3. Date of nomination:
    February 14, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    27/09/52, Morgantown, WV.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Joanne Sharp (Caporaso).

    7. Names and ages of children:
    Elizabeth Weyrach, 32; Steven Sharp, 26; Kevin Sharp, 23.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    2nd Armored Cavalry Association, Member.
    1st Cavalry Division Association, Member.
    Association of the United States Army, Member.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Walter L. Sharp.
    This 19th day of February, 2008.

    [The nomination of LTG Walter L. Sharp, USA, was reported 
to the Senate by Chairman Levin on April 24, 2008, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 29, 2008.]


  NOMINATIONS OF GEN DAVID H. PETRAEUS, USA, FOR REAPPOINTMENT TO THE 
 GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES CENTRAL COMMAND; 
   AND LTG RAYMOND T. ODIERNO, USA, FOR APPOINTMENT TO THE GRADE OF 
         GENERAL AND TO BE COMMANDER, MULTI-NATIONAL FORCE-IRAQ

                              ----------                              


                         THURSDAY, MAY 22, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Clinton, Pryor, Webb, 
Warner, Inhofe, Sessions, Collins, Graham, Dole, Cornyn, Thune, 
Martinez, and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Breon N. Wells, receptionist.
    Majority staff members present: Jonathan D. Clark, counsel; 
Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
counsel; Michael J. Noblet, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Gregory T. 
Kiley, professional staff member; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; Lynn F. 
Rusten, professional staff member; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Ali Z. Pasha.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; Bonni Berge, assistant to Senator Akaka; 
Christopher Caple and Caroline Tess, assistants to Senator Bill 
Nelson; Andrew R. Vanlandingham, assistant to Senator Ben 
Nelson; Andrew Shapiro, assistant to Senator Clinton; M. 
Bradford Foley, assistant to Senator Pryor; Gordon I. Peterson, 
assistant to Senator Webb; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum and Todd Stiefler, assistants 
to Senator Sessions; Mark J. Winter, assistant to Senator 
Collins; Kevin Bishop and Andrew King, assistants to Senator 
Graham; Lindsey Neas, assistant to Senator Dole; David Hanke, 
assistant to Senator Cornyn; Andi Fouberg, assistant to Senator 
Thune; David Brown and Brian W. Walsh, assistants to Senator 
Martinez; and Erskine W. Wells III, assistant to Senator 
Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nomination of General David 
Petraeus for reappointment to the grade of general and to be 
Commander, United States Central Command (CENTCOM); and the 
nomination of Lieutenant General Raymond Odierno for 
appointment to the grade of general and to be Commander, Multi-
National Force-Iraq (MNF-I).
    If confirmed, these two officers will continue to lead our 
military operations in Iraq, where we have 160,000 American 
troops deployed in the middle of a protracted and bloody 
sectarian battle.
    As CENTCOM Commander, General Petraeus will also assume 
responsibility for operations in Afghanistan, where an 
increasing level of violence poses new hazards to the Afghan 
Government and the American troops who help support it.
    Every member of this committee recognizes that the long 
hours and hard work put in by our senior military officials at 
the Department of Defense (DOD) require commitment and 
sacrifice, not only from our nominees, but also from their 
family members. The sacrifice is particularly striking in the 
case of General Petraeus and General Odierno. Not only has each 
of these officers served more than 30 years in the military, 
each has already served multiple tours of duty in Iraq, and is 
volunteering to return.
    Over the last 5 years, General Petraeus has served three 
tours of duty in Iraq, spending almost 4 years there, first as 
Commander of the 101st Airborne Division, then as Commander of 
the Multi-National Security Transition Command-Iraq, and most 
recently as Commander of the MNF-I.
    Similarly, General Odierno has served two tours of duty and 
more than 2 years in Iraq, first as Commanding General of the 
4th Infantry Division, and more recently as Commander, Multi-
National Corps-Iraq.
    Over the last year and a half, General Petraeus has been 
the leading architect of a new tactical approach in Iraq which 
has brought about some stability in a situation that, a year 
ago, was far more violent and unstable. General Odierno has 
been his able partner in executing that new approach. If 
confirmed, these two officers will bring in an unprecedented 
continuity of senior military leadership to a military 
operation, providing unparalleled knowledge of the situation on 
the ground and fully utilizing the working relationships that 
they've developed with Iraqi political and military leaders 
over the years.
    Regardless of one's view of the wisdom of the policy that 
took us to Iraq in the first place and has kept us there over 5 
years, we owe General Petraeus and General Odierno a debt of 
gratitude for the commitment, determination, and strength that 
they've brought to their areas of responsibility (AORs). 
Regardless how long the administration may choose to remain 
engaged in the strife in that country, our troops are better 
off for the leadership that these two distinguished soldiers 
provide.
    We appreciate the sacrifices that you and your families 
have already made in the service of our Nation. We thank you in 
advance for your willingness to bear the burden of continued 
service.
    The committee has a long tradition of recognizing the 
families of our nominees. I know that General Petraeus's family 
was unable to make it here today. General Odierno does have a 
number of family members present.
    General Odierno, we'd very much like for you to introduce 
your family to the committee.
    General Odierno. Thank you, Mr. Chairman, for the 
opportunity to do that.
    First, as are many soldiers, airmen, sailors, and marines, 
we're indebted to our families and all that they've sacrificed, 
as you've mentioned. First, I'd like to introduce my wife, 
Linda, we've known each other since high school, went through 4 
years of West Point, 32 years in the military, where she has 
volunteered for countless hours for our soldiers and families, 
and led family readiness groups at the company, battalion, 
brigade, division, and the corps level. I am indebted to her 
for not only taking care of our family, but taking care of our 
soldiers and their families, as well.
    I'd also like to introduce my son, Anthony, and his fiance, 
Daniella. Tony's a 2001 graduate of West Point, served in Iraq. 
He's an Airborne Ranger infantryman who earned the Combat 
Infantry Badge, the Purple Heart, and the Bronze Star Medal for 
Valor for his service in Iraq. He currently is attending New 
York University to get his MBA.
    I'd also like to introduce my daughter, Katie, and her 
husband, Nick. Katie lives in Baltimore. She's an interior 
architect. Nick is a construction engineer, and they're, just, 
great young people.
    I'm very proud of all of them. Thank you, sir.
    My son, Michael, who's not here today, attends Texas Tech 
University, and I also appreciate all his support.
    Thank you, sir.
    Senator Lieberman. Mr. Chairman?
    Chairman Levin. Senator Lieberman.
    Senator Lieberman. Mr. Chairman, I wonder if I could ask 
General Odierno where his son's fiance lives. [Laughter.]
    General Odierno. She is from Greenwich, CT.
    Senator Lieberman. Thank you. [Laughter.]
    Chairman Levin. I had a hunch we knew the answer to that 
one. [Laughter.]
    We thank you and your families, both, whether they are here 
in person--we're grateful to them--or whether they're not able 
to be here in person--we're very grateful, and we hope you'll 
extend, General Petraeus, our gratitude to your family.
    General Petraeus. Thank you.
    Chairman Levin. Now, Senator Warner, I know, is stuck in 
traffic. Senator Inhofe, would you like to make an opening 
statement?
    Senator Inhofe. Mr. Chairman, I do not have an opening 
statement. I would only say that we've been real pleased, 
recently, to even get from some of the generally unfriendly 
press the successes that are going on. I think the two of you 
have a lot to do with that. We are very proud of you.
    I don't have a formal statement, sir. I would submit the 
opening statement of my colleague, Senator Warner.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Senator Levin.
    I join you in welcoming General Petraeus and General Odierno and 
congratulating them on their nominations. I thank each of them for 
their service and their commitment to continue serving in these key 
positions.
    General Petraeus, I recall well your nomination hearing on January 
23, 2007, for your current assignment, and the stark situation that 
you, General Odierno, the Multi-National Corps Commander, and, of 
course, the men and women of your magnificent force, confronted at that 
time. You returned to testify about conditions in Iraq on September 11, 
2007, and again on April 8, 2008.
    No military officer understands the challenges we face in Iraq 
better than you, and no officer has a better foundation to take on the 
complex responsibilities you will have as Commander, United States 
Central Command (CENTCOM).
    In your responses to the committee's advance questions, you 
acknowledge the many challenges that you will face throughout the 
CENTCOM AOR if you are confirmed, but I believe that despite the 
problems in Iraq, Afghanistan, and in Pakistan, Lebanon, Somalia, Iran, 
and elsewhere--there are opportunities for us to engage and make this a 
better, more secure region.
    In his testimony to this committee on March 4, 2008, Admiral Fallon 
testified positively about the security situation in Iraq noting it was 
on an ``upward vector.'' Similarly, with respect to Afghanistan, the 
Admiral praised the Afghan Security Forces' leadership, determination, 
and willingness to go out and engage, and cited the broad support that 
the Government of Afghanistan enjoys.
    If confirmed, this will be your fourth assignment in Southwest Asia 
since March 2003. You led the 101st Airborne Division with great 
distinction in northern Iraq in 2003, and you were later recognized for 
making significant improvements from June 2004 through September 2005 
in the training of the Iraqi security forces as Commander, Multi-
National Security Transition Command-Iraq.
    After commanding the Army's Combined Arms Center at Fort 
Leavenworth, where you led the development of the Army's doctrine for 
military operations in a counterinsurgency environment, you returned to 
Iraq to Command the Multi-National Force, and you achieved levels of 
stability that while fragile, are nonetheless real.
    I believe you are the best qualified officer in the Armed Forces 
for this critically important position, and I thank you and your family 
for the sacrifices they and you have made during your outstanding 
service.
    General Odierno, just last month you came before this committee in 
connection with your nomination to be the Vice Chief of Staff of the 
Army. I noted then that your career of service has won the hearts and 
minds of the soldiers and families that you have associated with over 
these many years. You testified on April 3 that when you found yourself 
becoming discouraged, the first thing you would do is go visit soldiers 
or marines and that would build you back up because of their dedication 
and loyalty. Well, I believe this probably works equally well on the 
morale of those whom you come in contact with, and I know it will 
continue.
    Army leaders have come before us and testified about a 
``resilient'' Army, but one that is stressed to the maximum and lacking 
shock absorbency and the capability to respond to emergent crises or 
additional demands. I urge you to keep these considerations in mind as 
you fulfill your new responsibilities.
    General Odierno, in the foreword to the new field manual on 
counterinsurgency, General Petraeus wrote that ``conducting a 
successful counterinsurgency campaign requires a flexible, adaptive 
force led by agile, well-informed, culturally astute leaders.'' As 
Commander, Multi-National Corps-Iraq from May 2006 through February 
2008, you proved that you possess these qualities and that you will 
continue to build upon your success in putting al Qaeda forces on the 
defensive, providing protection to the civilian population, engaging 
the Sunni population in Anbar province, and significantly lowering the 
rates of violence. You formed a remarkable working relationship over 
the last 2 years. I'm sure that it will continue.
    I thank you and your families again for the sacrifices you have 
made. I look forward to your testimony today.
    Senator Levin.

    Chairman Levin. Thank you, Senator Inhofe.
    Now we have standard questions that we ask of our nominees, 
and you can answer together:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest? [Both witnesses answered in 
the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process? [Both witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings? [Both witnesses answered in the 
affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests? [Both witnesses answered in 
the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings? [Both witnesses answered in the 
affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee? [Both witnesses answered in the 
affirmative.]
    Do you agree to give your personal views, when asked before 
this committee to do so, even if those views differ from the 
administration in power? [Both witnesses answered in the 
affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents? [Both witnesses answered in 
the affirmative.]
    Thank you.
    General Petraeus?

 STATEMENT OF GEN DAVID H. PETRAEUS, USA, FOR REAPPOINTMENT TO 
THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES CENTRAL 
                            COMMAND

    General Petraeus. Thank you, Mr. Chairman, Senator Inhofe, 
members of the committee. Thank you for your swift scheduling 
of this hearing.
    I'm honored to have been nominated to command CENTCOM and 
to have an opportunity, if confirmed, to continue to serve our 
Nation in a critical region.
    Beyond that, I'm delighted that Lieutenant General Ray 
Odierno has been nominated to command the MNF-I, and I'm 
grateful to him for his willingness to take on this position, 
and to his family for their sacrifice, as well.
    As has been noted already in recent days, one of this 
committee's senior members has just had a big rock added to his 
rucksack, and I want to take this opportunity to applaud 
Senator Kennedy's inspirational spirit as he embarks on a 
course of treatment that we all hope will lead to a quick 
return to full duty.
    As the members of this committee know, CENTCOM is in its 
7th consecutive year of combat operations, and the CENTCOM AOR 
contains numerous challenges. The AOR includes 27 states and 
some 650 million people from at least 18 major ethnic groups. 
Stability in the region is threatened by a variety of 
religious, ethnic, and tribal tensions, not to mention 
transnational terrorist organizations, insurgent elements, 
piracy, and inadequate economic development. The region is rich 
in oil reserves, but poor in fresh water. Economic conditions 
vary enormously, with annual per-capital incomes ranging from a 
low of $200 to a high of over $70,000. In 22 of 27 states in 
the AOR, young people aged 15 to 29 constitute over 40 percent 
of the population, and economic opportunities are often 
insufficient to meet their expectations.
    Although the region is diverse, several transnational 
concerns affect many of its states, and I'd like to quickly 
review these, and then discuss specific challenges and 
opportunities within the subregions, concluding by outlining 
concepts I'll use, if confirmed, to guide the refinement of 
CENTCOM's regional security strategy.
    A survey of the CENTCOM AOR reveals four primary 
transnational concerns. The first is violent extremism. Al 
Qaeda is, of course, the highest-priority terrorist threat to 
many states in the region, as well as to the United States and 
many of our allies around the world. However, other extremist 
groups also threaten security in the CENTCOM region. In 
addition, Tehran and Damascus support militant groups and 
proxies that challenge the stability and sovereignty of several 
states in the AOR.
    The second transnational concern is the proliferation of 
weapons of mass destruction (WMD) and of WMD-related components 
and technical expertise. The lack of transparency and efforts 
by countries such as Iran and Syria to develop their nuclear 
programs is a major concern to states in the region, and could 
spark a destabilizing regional arms race. Nuclear proliferation 
also, of course, creates fears about the acquisition of nuclear 
devices by transnational terrorist groups.
    A third concern is the lack of sustainable economic 
development in a number of the region's countries. This is not 
just a domestic social or humanitarian issue, it is a serious 
security concern, as well; for, without economic opportunity, 
poor and disenfranchised communities can serve as hotbeds for 
the spread of violent extremism. We have seen this in a number 
of areas in the region in recent years.
    A fourth transnational concern encompasses narcotics and 
arms trafficking, piracy, and smuggling. These damage 
societies, threaten legitimate commerce and the flow of 
strategic resources, and often benefit terrorist networks. 
These activities must be addressed if international efforts to 
combat terrorist financing are to succeed.
    These transnational concerns are interrelated and have 
different manifestations across the subregions of the CENTCOM 
AOR. While they constitute far from an exhaustive list of the 
challenges in the AOR, they do provide perspective as we turn 
to the subregions and their challenges.
    The CENTCOM region can, in fact, be described as a region 
of regions, consisting of the Arabian Peninsula and Gulf 
states, Central and South Asia, the Levant, and the Horn of 
Africa.
    The Arabian Peninsula and the Gulf states comprise a region 
of vast complexity and strategic importance. In Iraq, Iraqi and 
coalition forces continue to build on the security gains of the 
past 15 months, as we also continue to reduce U.S. forces and 
transition responsibility to Iraqi security forces (ISF), 
strive to maintain the conditions necessary for political 
progress, help build governmental capacity, and seek to foster 
economic development.
    I should note here that the number of security incidents in 
Iraq last week was the lowest in over 4 years, and it appears 
that the week that ends tomorrow will see an even lower number 
of incidents. This has been achieved despite having now 
withdrawn three of the five brigade combat teams (BCTs) 
scheduled to redeploy without replacement by the end of the 
July, and also with the reduction of the two marine battalions 
and marine expeditionary unit.
    Recent operations in Basrah, Mosul, and now Sadr City, have 
contributed significantly to the reduction in violence, and 
Prime Minister Maliki, his government, the ISFs, and the Iraqi 
people, in addition to our troopers, deserve considerable 
credit for the positive developments since Ambassador Ryan 
Crocker and I testified, a month and a half ago.
    In the months ahead, coalition forces will continue to work 
closely with the ISFs in pursuing al Qaeda-Iraq and their 
extremist partners and the militia elements that threaten 
security in Iraq. As always, tough fights and hard work lie 
ahead. Nonetheless, I believe that the path we are on will best 
help achieve the objective of an Iraq that is at peace with 
itself and its neighbors, that is an ally in the war on terror, 
that has a government that serves all Iraqis and that is an 
increasingly prosperous and important member of the global 
economy and community of nations.
    Iran continues to be a destabilizing influence in the 
region. It persists in its nontransparent pursuit of nuclear 
technology, and continues to fund, train, and arm dangerous 
militia organizations. Iran's activities have been particularly 
harmful in Iraq, Lebanon, the Palestinian Territories, and 
Afghanistan. In each location, Tehran has, to varying degrees, 
fueled proxy wars in an effort to increase its influence and 
pursue its regional ambitions. [Audience interruption.]
    Chairman Levin. Excuse me. Excuse me, ma'am. We're going to 
have to ask you to--we're going to have to ask you to--we're 
going to have to ask you to take your seat. Please take your 
seat. We're going to--I'm sorry that we're going to have to ask 
that you leave the room now. Please leave the room. Thank you. 
Please--please--we're going to have to ask you to now please--
the room. Please. Thank you. Please leave the room. We're going 
to have--you'll have to be removed if you demonstrate that way 
we've just heard. [Momentary pause while Capitol Police removed 
protester.]
    General, please continue
    General Petraeus. Even as we work with leaders in the 
region to help protect our partners from Iranian intimidation 
or coercion, however, we must also explore policies that, over 
the long term, offer the possibility of more constructive 
relations, if that is possible. Together with regional and 
global partners, we need to seek ways to encourage Iran to 
respect the integrity of other states, to embrace 
nonproliferation of nuclear weapons, and to contribute to 
regional stability rather than regional instability.
    Saudi Arabia, Qatar, Bahrain, Kuwait, Oman, Yemen, and the 
United Arab Emirates are important partners in efforts to 
promote regional stability and improve regional economic and 
military cooperation. Our relationships with these states 
present many opportunities for advancing common economic and 
security interests, such as engagement via the Gulf security 
dialogue. We need to continue our strong, productive 
relationships with each of them as we strive to deal with the 
challenges that confront them and the Gulf region.
    The countries of Central and South Asia face a variety of 
economic and security challenges, but they, too, offer abundant 
engagement and partnership opportunities. In Afghanistan, our 
focus is on helping the elected government expand governance, 
security, and economic opportunity, while defeating insurgent 
and terrorist threats.
    In assessing the situation in Afghanistan, it is important 
to recognize that we and our coalition partners are helping 
that country build, not merely rebuild, for, even before its 30 
years of war, Afghanistan was one of the poorest countries in 
the world. Exploiting the security provided by the North 
Atlantic Treaty Organization (NATO)-led International Security 
Assistance Force, many coalition countries are striving to help 
Afghanistan achieve sustainable economic development in 
assisting with the provision of basic services, the development 
of infrastructure, and the creation of legitimate alternatives 
to poppy farming. Due to the scale of the challenges involved, 
and the difficulties in the security arena in particular, we 
should expect Afghanistan to require substantial international 
commitment and support for many years to come.
    Afghanistan's neighbor, Pakistan, has been an important 
partner in efforts to combat terrorism. However, the newly-
elected government faces serious economic difficulties and 
energy shortages, and it is still solidifying its coalition and 
coming to grips with how to respond to internal threats that 
have global implications.
    We have seen, for example, growth in Taliban and al Qaeda 
capability and control in the Federally Administered Tribal 
Areas (FATA) in the Northwest Frontier Province. Foreign 
fighters continue to flow from Pakistan into Afghanistan, where 
they're a violent and destabilizing influence. One of our 
challenges will be to increase the capability of Pakistani 
security forces, which are not adequately trained or equipped, 
to secure their border or to deal with the growth of terrorist 
elements and the insurgency in the FATA. It is clear that we 
and other countries supporting Pakistan should support 
Islamabad as Pakistani leaders develop a comprehensive approach 
to countering extremist and insurgent activity.
    In Turkmenistan, Tajikistan, Uzbekistan, Kyrgyzstan, and 
Kazakhstan, abundant opportunities exist for building security, 
political, and economic partnerships, and for pursuing common 
interests. To varying degrees, we have, in fact, partnered in 
security efforts in encountering terrorism with these countries 
in the past, and we will have similar opportunities in the 
future.
    U.S. partnerships can also help these countries' efforts to 
build governmental capacity and continue economic growth, while 
also reducing the prospects that extremism will gain influence 
and be exported.
    In the Levant, we see continuing challenges of instability 
and terrorist activity and facilitation in Lebanon and Syria, 
even as we enjoy robust security partnerships with Jordan and 
Egypt.
    In Lebanon, the government is grappling with the political 
and militia activities of Lebanese Hezbollah. Recently, 
Hezbollah attempted to break the political deadlock through 
violent action, forcing Sunni Arabs from some neighborhoods in 
Beirut, and intimidating the government and Lebanese armed 
forces. Yesterday's agreement between the Lebanese government 
and the Hezbollah-led opposition needs to be seen in that 
context, as it highlights the need to support regional efforts 
to help Lebanon as it seeks to deal with destabilizing Syrian 
and Iranian influences.
    Syria presents another set of challenges. Of particular 
concern to Iraq, the Syrian government has taken inadequate 
measures to stem the flow of foreign fighters through Syria to 
join al Qaeda elements in northern Iraq. Damascus also 
continues to undermine stability in Lebanon by encouraging and 
enabling violent opposition to the elected government. Finally, 
Syria's apparent effort to develop secret nuclear facilities is 
also very troubling. The region obviously would be more secure 
were Syria to realize that neither harboring terrorist 
facilitators nor sparking a regional arms race is in Syria's 
best interest.
    As with Iran, the challenge with Syria will be to find 
approaches that can convince Syrian leaders that they should be 
part of the solution in the region rather than a continuing 
part of the problem. Hopefully, yesterday's announcement of 
renewed peace talks between Syria and Israel marks a first step 
toward that end.
    Jordan and Egypt are important partners in U.S. 
counterterrorist efforts, and they help to promote regional 
stability by encouraging neighboring states to participate 
constructively in the Middle East peace process. In addition, 
Jordan plays an influential role in helping inform attitudes in 
the Arab world on the situation in Iraq. Maintaining our robust 
partnerships with these countries can enable us to sustain 
mutually beneficial security and economic ties.
    As it currently stands, the Horn of Africa is another 
subregion in the CENTCOM AOR. With responsibility for this 
region which includes Somalia, Kenya, Djibouti, Eritrea, 
Ethiopia, Sudan, and the Seychelles scheduled for transfer to 
the U.S. Africa Command (AFRICOM) this fall, CENTCOM's 
challenge will be to provide a seamless transition of 
responsibilities, and to establish effective coordination and 
liaison with AFRICOM to ensure unity of effort in the conduct 
of various counterterrorist and counterpiracy missions.
    Having quickly addressed transnational challenges and the 
challenges in the regions of the AOR, I'd like to briefly 
discuss some broad principles that will guide our efforts if 
I'm confirmed. These approaches are consistent with those 
pursued by CENTCOM under the leadership of Admiral William 
``Fox'' Fallon and now General Martin Dempsey.
    First, we'll seek to strengthen international partnerships. 
We will continue to pursue strong bilateral and multilateral 
partnerships and to identify, further develop, and pursue 
mutual interests. Regional partnerships and consensus can 
create leverage and deter destabilizing actors. Of course, the 
pursuit of common interests requires robust, two-way 
engagement, understanding, and accommodating the concerns of 
others even as we understandably seek to pursue our own. 
Engagement will be a central aspect of my responsibilities as 
the CENTCOM Commander, if confirmed.
    Second, in most, if not all, of our activities, we will 
partner with other departments and agencies within the U.S. 
Government, taking a whole-of-government approach to the 
challenges and opportunities of the CENTCOM AOR. In most of the 
issues we'll address, a purely military approach is unlikely to 
succeed, and our strategy must recognize that. Indeed, many of 
you will recall that the campaign plan in Iraq is a joint U.S. 
Embassy-Iraq and MNF-I product, not merely a military one. A 
combined approach should also be a central feature of our 
efforts in the CENTCOM AOR.
    Third, and related to that, if I'm confirmed we will pursue 
comprehensive efforts and solutions in the region. Attempting 
to address, with our partners, not just the symptoms of current 
conflicts, but also their underlying causes.
    Last month in my testimony, I explained the strategy we 
have adopted in pursuing al Qaeda-Iraq, acting along multiple 
lines of operation and employing a variety of kinetic and 
nonkinetic approaches. We'll seek to apply a similar strategy, 
writ large, in the CENTCOM AOR, recognizing that enduring 
security and stability require comprehensive economic, 
political, social, and diplomatic efforts, as well as military 
means.
    Finally, we should both support the ongoing operations in 
Iraq and Afghanistan and ensure readiness for possible 
contingency operations in order to be prepared to assist in the 
event of natural disasters, to ensure sufficient deterrence of 
actions that might threaten regional partners, and, if 
necessary, to be ready to defeat aggressors that threaten our 
vital interests in the region.
    If I'm confirmed, these concepts will guide our approach at 
CENTCOM and inform the refinement of the strategy employed to 
address the challenges and opportunities in the CENTCOM region.
    In closing, I want to thank each of you, once again, for 
the tremendous support you continue to provide to our men and 
women in uniform and to their families. Nothing means more to 
the wonderful Americans serving in harm's way or waiting for a 
loved one at home than knowing that their service and 
sacrifices are appreciated by their fellow citizens.
    I also want to assure you that, if confirmed, I will work 
tirelessly to meet my responsibilities as a combatant commander 
to partner with you, the Service chiefs and secretaries, the 
Chairman and the Secretary, to help ensure that those serving 
our Nation in uniform have the best equipment available, the 
best care possible for those wounded or injured, and the best 
preparation for the challenging tasks we ask our soldiers, 
sailors, airmen, marines, and coastguardsmen to perform in 
combat. This is a sacred obligation that I take very seriously.
    This committee knows well the extraordinary performance of 
our troopers downrange. Their selfless commitment to duty has, 
in fact, been foremost in my mind as I have considered the 
responsibilities of the CENTCOM Commander. Command of CENTCOM 
would likely mean carrying the heaviest rucksack I've ever 
shouldered; but, given our servicemembers' repeated willingness 
to shoulder their own heavy rucksacks in the toughest, most 
complex situations imaginable, there can be no alternative but 
to soldier on with them, drawing strength from them, striving 
to give energy to them, and pressing on together with them to 
accomplish our assigned missions. If confirmed, it will be an 
honor to do that with them.
    Thank you very much.
    Chairman Levin. Thank you, General Petraeus.
    General Odierno?

 STATEMENT OF LTG RAYMOND T. ODIERNO, USA, FOR APPOINTMENT TO 
THE GRADE OF GENERAL AND TO BE COMMANDER, MULTI-NATIONAL FORCE-
                              IRAQ

    General Odierno. Mr. Chairman, thank you very much.
    I want to, first, personally pass along my best wishes to 
Senator Kennedy and his family. We're all rooting and praying 
for him, his quick return back here to the Senate.
    Chairman Levin. Let me interrupt you for just a moment.
    Thank you and General Petraeus for your reference to 
Senator Kennedy. This is a Senate family, which is a very 
strong, cohesive family, and he is a very important part of 
that cohesion. We're never a tighter family than when something 
like this happens to somebody that has such huge respect as 
Senator Kennedy. That's true on both sides of the aisle. We 
very much appreciate your reference to him. As we note the seat 
next to us, which is empty, we are all praying and hoping and 
believing that that seat will be occupied by Senator Kennedy in 
the near future.
    Senator Warner. Mr. Chairman, could I associate myself with 
those remarks and thank the generals. I've had the wonderful 
opportunity to know Senator Kennedy for over 40 years. His 
older brother, Bobby Kennedy, and I were in law school 
together, back in the late 1940s, and I got to know him at that 
time, and we've been close working partners and good friends 
ever since. We thank you for that acknowledgment.
    Chairman Levin. Thank you so much.
    General Odierno?
    General Odierno. Chairman Levin, Senator Warner, 
distinguished members of the Armed Services Committee, I 
appreciate the opportunity to be here this morning.
    Most recently, as the Commander of Multi-National Corps-
Iraq, I had the honor of speaking with many of you during a 
number of congressional visits to the Iraqi theater of 
operations. I want to thank you for your dedicated support to 
our forces serving there, your faith in their outstanding 
abilities, and your understanding of the many sacrifices they 
and their families endure for the sake of country, comrades, 
and their loved ones. For all of this, I thank the members of 
the committee.
    As I reflect on my nomination to be appointed the next MNF-
I Commander, I'm both humbled and honored. I understand the 
great cost that our Nation has endured in Iraq. I also 
understand the importance of our mission there and the 
responsibility that comes with this position. I am inspired, 
and I feel a tremendous sense of awe for the soldiers, sailors, 
airmen, and marines and their families for their demonstrated 
resilience and accomplishments and commitment to the tasks at 
hand. I consider myself blessed that I've had a chance to 
continue to serve in their ranks. If confirmed, I will do so 
with integrity, commitment, and drive that such a special 
position of trust and responsibility demands.
    With that, I'd look forward to answering your questions. 
Thank you, Chairman.
    Chairman Levin. Excuse this slight delay here. We're trying 
to schedule a vote of the committee on nominations. If we can 
get a quorum, we will interrupt our questions in order to act 
on those nominations this morning.
    We're going to have to limit our question period to a 6-
minute round, because I understand we have up to four votes, 
starting at 11:30. Whether we can function through that or not, 
we will have to determine as we proceed, but, at least, we're 
going to try to get one round each before that time. So, we're 
going to, in order to do that, have to have a 6-minute round.
    Senator Warner. Mr. Chairman, if I could just say, we've 
discussed--those are the nominations of General McChrystal and 
Admiral McRaven to----
    Chairman Levin. There's a number of other nominations. 
They're included with that list.
    Senator Warner. Right.
    Chairman Levin. General Petraeus, when you appeared before 
the committee, on April 8, you said that your recommendation at 
that time was that, after the drawdown of the five brigades of 
surge troops that would be finished in July, that you would 
first undertake a 45-day period of evaluation, and that would 
take us through August, and that then, following that, you 
would commence a process of assessment to examine the 
conditions on the ground and, over time, determine when you 
could make recommendations for further reductions. In response 
to my questions at the time, you said that you could not say 
how long that period of assessment would take, whether it would 
be 1 month, 2 months, 3 months, or more. Is it now your 
intention to make a recommendation, relative to further troop 
reductions, before you change command, presumably in September?
    General Petraeus. It is, Mr. Chairman.
    Chairman Levin. Can you tell us what has caused that 
change?
    General Petraeus. Mr. Chairman, what I was trying to 
explain, last month, was that the period of consolidation and 
evaluation would include assessments, and that, at the end of 
that time, if conditions allowed, that there would be 
recommendations at that time. My sense is that I will be able 
to make a recommendation at that time for some further 
reductions. I don't want to imply that that means a BCT or 
major combat formation, although it could. But, I do believe 
that there will be certain assets that, as we are already 
looking at the picture right now, we'll be able to recommend, 
can be either redeployed or not deployed to the theater in the 
fall.
    Chairman Levin. All right. That, I think, is good news to 
most of us.
    What role are U.S. forces playing in the operations in Sadr 
City?
    General Petraeus. We are providing a variety of enabler 
support for the operations. Now we're really talking about that 
portion of Sadr City in which we do not have forces right now. 
We have, as you may know, Mr. Chairman, up to a certain line in 
Sadr City, about one-fifth of the way from the southwest toward 
the northeast, forces together with Iraqi elements. In the 
remaining portion of Sadr City, which the Iraqi forces just 
entered a couple of days ago, we do not have forces on the 
ground, although we do provide a variety of enablers, in terms 
of intelligence, surveillance, reconnaissance assets, attack 
helicopter teams, and, again, other assets. Although those have 
not been required to be actively engaged in that other part of 
Sadr City.
    Chairman Levin. General Petraeus, at the present time, only 
9 of 18 provinces have been turned over to Iraqi control. It's 
been 157 days since the last province, Basrah, was turned over 
to Iraqi control, and 157 days is the longest stretch between 
the turnover of a province to Iraqi control since the first 
province was turned over in July 2006. The December 2007 DOD 
report, titled ``Measuring Stability and Security in Iraq,'' 
stated that, ``The current projection is that all provinces 
could transition to provincial Iraqi control as early as July 
2008.'' Three months later, the December 2007 Defense 
Department report stated that, ``All remaining provinces are 
expected to transition in 2008.'' Is that still the 
Department's expectation, that all provinces now are expected 
to transition in this year, of 2008?
    General Petraeus. It is not, Mr. Chairman. There are 
several additional provinces already scheduled for transition 
in the next few months. Interestingly, Anbar Province, once the 
most violent province in Iraq, and now one of the most peaceful 
provinces, will be transitioning, mostly likely, in June. The 
final approval has not yet been given by the Ministerial 
Committee on National Security, but I believe that that will be 
dealt with, perhaps later this week or next week.
    I expect Qadisiyah Province, which has Diwaniyah as its 
capital, to go through a similar process later this summer, and 
then there are others racked up behind it for which we have 
projections, and we reassess those projections about every 
month. Frankly, the developments of the last month and a half 
are causing us to look, perhaps, for earlier transition, in 
some cases, with some provinces, while still others will be, 
undoubtedly, in the 2009 timeframe.
    Chairman Levin. What happened since December 2007, when the 
Department said that all remaining provinces are expected to 
transition in 2008, and now, when apparently a number of 
provinces will not be transitioned? What has changed? There 
seems to be greater stability on the ground and progress on the 
ground.
    General Petraeus. There is now, Mr. Chairman, but, again, 
you have to go back to that timeframe. We were still, in some 
cases, extending the benefits of the security progress that 
resulted from the additional coalition and Iraqi forces, still 
trying to determine how that was going to go, and, in some 
cases, grappling with some tough issues. Ninawa Province, for 
example, the only province actually of the 18 in Iraq that did 
not see violence go down, had to be slid further to the right 
in that regard. Now all of a sudden there is a major operation 
there in Mosul and in western Ninawa Province, that appears to 
be improving the security there substantially. We'll be doing 
assessments during the course of this year, but I don't think 
that all of them will be done, by any means, by the end of the 
year.
    Chairman Levin. Just a brief final question. Is it your 
expectation that the October 1, 2008, date for holding 
provincial elections will be met?
    General Petraeus. I do not believe that they will be in 
October, sir, based on the very latest. However, the provincial 
elections law has had its second reading, which is the step 
just before the conduct of a vote in the Council of 
Representatives. That could take place as early as this next 
week. If all of that goes--they've transferred the money to the 
higher electoral committee, they're doing the security 
assessments, and a variety of other actions to prepare for the 
voter registration and then the conduct of the elections--
Ambassador Crocker's assessment most recently is that probably 
November is a more accurate prediction. But, again, there's 
every intention to have elections in the fall, and that is our 
expectation, still.
    Chairman Levin. Yes. That delay is not good news, 
obviously, to us, or most of us, I think, but thank you for 
your answer.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I welcome both of you and thank you and your families for 
your service to the country.
    Both of you represent not only two of the citizens of this 
country, but you represent our military, two career patterns 
which, I think, incentivize the generations behind you to stay 
and try and achieve some of the successes that each of you have 
had. That's important at this time.
    On the question of Iraq, this morning's paper carried a 
very interesting article on operations in Sadr City, and it 
indicated that, where operations are being conducted now, 
there's very few, if any, U.S. forces; and that's, in a way, 
helping the Iraqi forces to perform their mission, because 
there's less retaliation from the insurgents over there. Can 
you comment on that? Is that a new development? It looks like a 
very encouraging one.
    General Petraeus. Senator, it is an encouraging one, but it 
is one that has been brought about by, very much, joint action 
by coalition, as well as ISFs. It was that joint action, and 
also, frankly, political dialogue, discussion, negotiation, 
deals, and compromises, that led to the point where the major 
``special group'' leaders, these elements that are funded, 
trained, equipped, and supported by the Iranian Quds Force, 
largely left Sadr City. Some of them were killed, by the way. A 
number of the major other militia leaders also departed, and 
there was an order for the militia essentially to stand down. 
That is an important development. The fact that it is Iraqi 
forces that then can patrol the streets of Sadr City--and they 
have found some significant weapons caches already, including a 
very large one in a hospital, I might add, in Sadr City--again, 
this is encouraging.
    It is not a model for everywhere. In Basrah, for example, 
we have no ground combat elements with the forces there. We do 
have transition teams, and we do, again, provide enablers. In 
Mosul, we're very much partnered with them, but they outnumber 
us greatly.
    Senator Warner. General Odierno, do you have a comment on 
that? Because it seems to me that's one of the most encouraging 
signs that I've seen, that the Iraqis are able to handle these 
operations, and has left combat as a consequence of the absence 
of what they view us, as occupiers.
    General Odierno. I think, obviously, Senator, that each 
place of Iraq has different solutions. In Sadr City and in 
Basrah, I would argue, it's important for the Iraqis to lead in 
those areas, and take on the majority of the responsibility. In 
my mind, it is very important that that's occurring. But the 
other thing is, we help them significantly, behind the scenes, 
continue to plan. I see that as a model for the future on how 
we want to do things. What we want to do is provide them----
    Senator Warner. I hope you could encourage it in every way 
possible, because the goal is to have the Iraqi forces take 
over the responsibility of this sovereign nation, such that we 
can return home.
    The Strategic Framework Agreement and the other Status of 
Forces Agreement, are you being consulted on that, General 
Petraeus?
    General Petraeus. I am, Senator. We provided input to that. 
The lead for that is the Department of State, and, in fact, 
Ambassador Crocker, with a good deal of support from State. 
But, I have been consulted. We did provide input.
    Senator Warner. General Odierno, will you, likewise, be 
consulted, or are you getting up to speed on those two 
agreements now? Because we don't want to see them put in place 
as an impediment for the U.S. military from carrying out what 
it believes is the best operational situation to get ourselves 
out of there.
    General Odierno. Senator, obviously it's very important to 
us. We will continue to provide input. We will watch it very 
closely to make sure that it's crafted in such a way which 
allows us to continue to meet the goals of our mission.
    Senator Warner. Right now you're being consulted, and, once 
you take command, I would hope that you would be further 
consulted, to the extent that those agreements have not been 
concluded. There's some optimism they could be concluded before 
you move on up to CENTCOM. Is that right?
    General Petraeus. I think that is certainly possible, 
Senator. Again, I'm always cautious about events in Iraq.
    Senator Warner. All right. Back to Afghanistan, one of the 
major concerns that I've had is this drug trade. The dollars 
flowing from that drug trade, which, incidentally, I think they 
are now the largest provider, worldwide, of these types of 
drugs--the dollars that are coming from that are being used to 
purchase weapons, and those weapons are being used against our 
forces and other partners in the NATO Alliance. What do you 
hope to do to try and end that, General?
    General Petraeus. Senator, a country's economy can't be 
built on illegal activity, obviously.
    Senator Warner. But, in this country it's over half of 
their economy.
    General Petraeus. No question about it. There is clear 
recognition of it. Obviously, over time there has to be an 
alternative provided to those who are currently farming the 
poppy, and it's as simple as that. But, it is also, as you very 
well know, extraordinarily difficult and complex to make that 
transition.
    Senator Warner. I realize that, but it seems to me you can 
have a very strong voice--I think Admiral Fallon did his best, 
but we cannot just leave this to the Afghan Government and turn 
our backs on it, because our people are on the other end of 
those weapons systems.
    General Petraeus. I agree.
    Senator Warner. On the question of NATO--while that 
operation in Afghanistan is largely under the command of NATO--
we, of course, have a U.S. commander there--NATO survivability 
depends on a measure of success in that country. What can you 
do to further facilitate NATO's ability to carry out that 
success and to deal with these really difficult situations, 
where some of the countries in those forces will not allow 
their forces, their troops on the ground, to participate in 
combat?
    General Petraeus. Senator, first of all, of course, what we 
are doing already, and likely will do a bit more of, which is 
our contribution of forces to that mission--you rightly point 
out that the Commander of the International Security Assistance 
Force is American, but he is a NATO commander.
    Senator Warner. That's correct.
    General Petraeus. He is not a commander in that billet. 
Knowing General David McKiernan very well, though, obviously 
I'll partner with him as closely as possible, and with NATO's 
Supreme Allied Commander, and also knowing many of the 
coalition-country leaders, who also contribute troops in Iraq, 
to work with them to do what has been done, and that recently 
resulted in the pledges of some increases of forces. 
Additionally, we can help with the lessons that we have learned 
and, I think, have institutionalized effectively in our 
military services in the United States, in terms of the 
doctrine, the education of our leaders, the training and 
preparation of our forces, and even the equipping of them. We 
can help with that, as well.
    Senator Warner. But, the national caveats of some of those 
countries to prohibit their forces from engaging in risk-taking 
operations that ours and others are performing, to me, is a 
dichotomy that you just can't tolerate.
    Thank you. My time is up.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Good morning, and thank you, General Odierno and General 
Petraeus, for your service. Thanks for agreeing to take on 
these additional assignments, which are not the easiest for 
you, personally, or for your families. We thank them, as well.
    I appreciate that you responded that your future daughter-
in-law is from Greenwich, CT, because it shows that your son 
has her good judgment. I would also say that he carries on a 
family tradition of heroic service to our country and is 
characteristic of the tens of thousands of Americans who have 
served under your command. Both of you have acknowledged that.
    I think the two of you and those who have served in Iraq 
wearing the uniform of our country have really represented the 
best of our country, and really, if we look at the record here, 
ought to give the whole country tremendous pride, no matter 
what one thought about the original reasons we went into Iraq. 
You have been a force that has been principled, understanding 
America's values, you've been personally strong, you've been 
resilient, in the sense that when something wasn't working, in 
characteristic American fashion you figured out a way to make 
it work. I personally believe that, in doing so, you have 
greatly brightened the future for the Iraqi people, increased 
the prospects of stability in the Middle East, and protected 
the security and values of the American people. I can't thank 
you enough for that.
    The military historians and analysts Fred and Kim Kagan 
recently wrote, ``Great commanders often come in pairs: 
Eisenhower and Patton, Grant and Sherman. Generals David 
Petraeus and Raymond Odierno can now be added to that list.'' 
That's heavy stuff, but it happens to be true, in my opinion. I 
think the two of you have now earned your place into the ranks 
of the most impressive military commanders in American history, 
and I thank you for it.
    General Petraeus, I continue to be very angry about the 
role that Iran is playing in training and equipping Shiite 
extremists who are coming into Iraq and are responsible for the 
murder of hundreds of American soldiers and thousands of Iraqi 
soldiers and citizens. I wanted to ask you--and I know you 
share that view, of course--I wanted to ask you what the 
current state, to the best of your knowledge, is, of Iranian 
support of these special groups and others in Iraq.
    General Petraeus. Senator, first of all, we know that 
support has continued well after Iran's most senior leaders 
made promises to Iraq's most senior leaders that they would 
stop the training, funding, arming, and directing of the so-
called ``special group'' leaders and elements, and also support 
for the militia. We know that, because we have detained 
individuals who were recipients of that training, funding, and 
arming. They have explained, in great detail, the process for 
that. We had previously captured the deputy commander of 
Lebanese Hezbollah Department 2800, which was created to 
support this effort and to use the lessons that they had 
learned with Lebanese Hezbollah in southern Lebanon.
    We know, from having captured, and from Iraqi troops having 
captured, massive weapons caches in Basrah, some of which bear 
markings that denote that they were made in January or February 
of 2008, some which contain fuses made only in Iran, others 
which followed a chain to get to Iran and then into the hands 
of other special groups from Syria through Lebanese Hezbollah, 
in the case of RPG-29s. This is all very clear. It's evidence; 
it's not supposition.
    We have laid this out for Iraqi leaders in the past. We're 
going to do it with an update again with their intelligence 
agencies, as well. Their leaders have laid it out for the 
public in Iraq. Frankly, it has galvanized a degree of 
opposition, resentment, and so forth, by a government that 
views that it's a sovereign government of a sovereign country 
that is being interfered with by its neighbor to the east, a 
neighbor that should, by rights, want to see it succeed, to see 
a Shiite-led government in Iraq succeed, given that Iran is 
also Shiite, given the common interests they have, the 
commercial interests, economic interests, religious tourism, 
with Najaf and Karbala being in Iraq, and so forth.
    Delegations have recently gone to Iran and shared the 
concerns of the Iraqi Government. It is our hope that this will 
lead to some change in the activities, that there will be a 
recognition that this has been very destabilizing, that it has 
challenged, again, a sovereign nation and the government of 
Prime Minister Maliki. We are looking for signs of that, 
frankly. We know, though, that a number of the ``special 
group'' leaders have gone back to Iran. That's where they are 
seeking refuge as they have been put under pressure in, first, 
Basrah, then other areas in southern provinces, and now in Sadr 
City. Over time, again, it is our hope that those two 
countries, which will always be neighbors of each other can 
reach an understanding that the kind of lethal activities that 
have been undertaken in recent years are not in the interest of 
either country.
    Senator Lieberman. I appreciate your answer. I think the 
most significant part of it--I mean, the most disappointing 
part, of course, is the Iranians are still doing what they've 
been doing, resulting in deaths of Americans in Iraq, but the 
most significant part is that Prime Minister Maliki is now, 
from what you've said, recognizing that this is not only an 
attack on us, it's an attack on the sovereignty of Iraq and is 
asserting that with the Iranians, and we can only hope that it 
draws a response.
    In the time I have left, I want to ask you something else 
about Prime Minister Maliki. When you were here before the 
committee 6 weeks ago, the offensive the Prime Minister 
initiated and ordered in Basrah had just begun, and there was a 
sense then, widely shared here in Congress and in the public, 
that the offensive had failed, that it was further proof of the 
inadequacy of ISFs, that Sadr was the winner, that Maliki was 
the loser. Obviously it looks a lot different, 6 weeks later. 
Give us your own sense of what the status on the ground is in 
Basrah now and what it says about the ISF, Maliki, and the 
extremists in the south of Iraq.
    General Petraeus. Senator, you are correct that the 
operation in Basrah did have a shaky start. But, it has since 
seen enormous progress that has produced very positive tactical 
and strategic results. The tactical results are the return of 
control to legitimate security forces in Basrah, something for 
which the Basrawis, the people of that city and province, are 
quite grateful and they're pleased about.
    The ISFs, again, after that shaky start, very much 
stiffened. They were reinforced by two additional brigades 
brought down from Anbar Province. By the way, our support here 
has been nothing more than transition teams, the so-called 
advisor teams, with their conventional and Special Operations 
Forces and the provision of enablers, intelligence, 
surveillance, and reconnaissance, attack helicopter teams on 
occasion, and so forth. They have continued to expand their 
areas of control. They conducted operations this past week, 
some 50 or 60 kilometers north of Basrah City, in Al Kerna--
where the two rivers come together--and the parent site of the 
Garden of Eden, according to some historians--and then even 
turned left and have now gone 20 or so kilometers in another 
direction. This is moving up towards Maysan Province in the 
marshes and in the city of Amarah, where there have also been 
some operations by Iraqi forces after quite a long absence 
there, as well.
    On the strategic side, this has all been important, because 
there has been a degree of support for Prime Minister Maliki in 
this subsequent period that is unparalleled during the time 
that Ambassador Crocker and I have been in Iraq. It appears 
that the Sunni coalition will return to government. Touch wood 
on that, but that does look likely. The level of Kurdish 
support from the two senior Kurdish leaders is much solidified. 
Prime Minister Maliki then demonstrated that he's willing to go 
after al Qaeda, as well, with Iraqi forces, in a very 
substantial offensive launched in Mosul, which is one that took 
place after about 3 months of very careful condition-setting, 
of the establishment of the infrastructure--combat outposts, 
joint security stations, the intelligence baseline, and all the 
rest of that logistical stockpiling. That operation is also off 
to a good start, tactically. We'll have to see, over time, 
because al Qaeda will try to come back and try to regenerate. 
But, they have also launched operations on the so-called ``rat 
lines'' along which foreign fighters enter Iraq from Syria, and 
that's a very important development, as well.
    The result is, as I mentioned in my opening statement, that 
last week's level of incidence was the lowest in over 4 years, 
and this week's is even significantly lower, and it's a result 
of these different operations, plus now Sadr City.
    Meanwhile, in the Council of Representatives, the focus on 
the provincial elections law has been good, and, as I 
mentioned, we hope to see a vote on that in the next week or 
so, it having had its second reading. Then they can start to 
focus, we believe, on the hydrocarbon law package on which 
there has been much greater coordination between the different 
factions, as well, already; and there are new prospects for 
progress there that were not at all seen prior to the operation 
in Basrah. So, it's had a political impact that is very 
significant, in addition to the tactical military progress that 
has been made there.
    Senator Lieberman. Thank you for that very encouraging 
report, which I find nothing short of thrilling.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    In my brief opening comment, I made reference to an 
article, ``Success in Iraq: A Media Blackout,'' 2 days ago in 
the New York Post, and I'd like to ask that this be entered 
into the record at this point.
    Chairman Levin. It will become part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. In there they talk about how the Iraq and 
the coalition forces are piling up one success after another, 
the media is not giving you a fair shake on this, which is 
something not too surprising. But, we're now seeing the lowest 
violence indicators since April 2004, and the Iraqi Government 
is asserting more control.
    I was honored to be right outside of Basrah when that took 
place, and, in fact, I talked to you at that time, and there is 
kind of a mixed feeling as to how the performance was of the 
ISFs. It was interesting that our forces that I talked to 
personally were very complimentary--we've talked about how they 
are now expanding into areas, and we're real pleased with that. 
That's more of a functional thing.
    I'd like to ask each one of you how you're seeing, since 
you've been there a long time, the progress in the training, in 
the performance of the Iraqis as soldiers.
    General Petraeus. There has been a significant increase in 
the capacity, as well as the capability, of the Iraqi forces. 
Even though, for example, the operation in Basrah got off to a 
shaky start, what preceded it was unprecedented, and that is 
the deployment, really throughout that week, of over a 
division's worth of Iraqi forces. That's a very substantial 
movement, and something that would have been thought impossible 
a year ago.
    Senator Inhofe. Which they really did on their own, too.
    General Petraeus. They did do it on their own, and they 
then had their C-130s turning several times a day (each of the 
two of their three) typically, that were operating on a given 
day. Again, not all smooth, not all the way we might do it, but 
it all got done, and the result, over time, after the initial, 
again, slow start, was that the units performed quite well.
    Indeed, some of the units that did not do well--among them 
were a brigade that had just literally come out of the unit set 
fielding, the whole process of basic training and so forth; 
that unit has actually been provided additional replacements, 
it has gone through a retraining process, and its elements are 
starting to reenter the operations in Basrah, and, so far, have 
done well.
    Again, there's been considerable progress in this regard, 
and you see it also in a variety of the other southern 
provinces, in Mosul now, in Diyala Province, Anbar, and also, 
of course, in Baghdad.
    Senator Inhofe. Good.
    General Odierno?
    General Odierno. Senator, if I could just----
    Chairman Levin. Excuse me for interrupting you, General. We 
have a quorum here, and we have to take advantage of it, as I 
indicated. [Recessed.]
    General Odierno, you were about to say something. Thank you 
for your patience.
    Senator Warner. May I say thank you, though, Mr. Chairman, 
for that expedited process.
    Chairman Levin. Thank you.
    Senator Inhofe. General?
    General Odierno. Sir, I would just add, to what General 
Petraeus said, what we've seen consistently over the last 12 to 
14 months is an improvement in the command and control, the 
ability of the Iraqi forces--the learning. They're starting to 
understand the command-and-control at brigade, battalion, 
company level. We've seen significant improvements in that, in 
their ability to do some planning.
    Of course, the issue always becomes capacity, and we still 
have to work on their full capacity to do this across the 
entire force. But, we are seeing consistent improvement in 
these areas, and that's where we have to continue--why it's so 
important for us to continue to have transition teams, continue 
to be partnered with them, continue to liaise with them, and 
we'll continue to see this improvement.
    Senator Inhofe. Yes. That's why I wanted to mention it. 
Quite frankly, I've been over there quite a few times, and what 
I always try to do is get the reports of our troops that are 
over there participating and training and working with these 
guys. It's been favorable. They're a different standard from 
us, but dramatic improvements are taking place.
    I've long supported the idea of the independent AFRICOM, 
and I've had a lot of conversations with General William Ward 
and his predecessor. I really think it's going to come along 
fine. I am concerned, however, because, when you think about 
right now AFRICOM is parts of Pacific Command, European 
Command, CENTCOM, but the most aggressive part comes out of 
CENTCOM. Now, you have that whole corner up there. You have 
Somalia, you have Ethiopia, which has been very good in 
supporting our efforts in Somalia; then you have Eritrea, just 
right down there on the water, and the Sudan. That's where, 
really, things are very active, and a smooth transition is 
going to be necessary.
    I recognize that they're talking about standing that up on 
October 1st, but I also realize, or suspect, and would like to 
have your comments, that there's going to be a transitional 
period. If it's going to be seamless, it's going to take quite 
a bit of effort beyond the October 1st date. What do you think?
    General Petraeus. Senator, I agree. There is a conference 
ongoing right now--in fact, in Tampa--between the CENTCOM and 
AFRICOM staff, to work out--there are a host of different tasks 
and functions, dozens and dozens of these identified, that will 
be transitioned, and they are working out that process of 
transition in ensuring that AFRICOM will have, for example, the 
command-and-control operational center capabilities, and those 
types of capabilities to take over the missions that CENTCOM is 
performing in the Horn of Africa, in particular.
    Senator Inhofe. Well, and we'd like to have----
    General Petraeus. They----
    Senator Inhofe. Please go ahead.
    General Petraeus. They may make a recommendation on how to 
phase that over time as this process continues.
    Senator Inhofe. Yes. I would hope, also, we look at the 
resources that they have, and that they need, that General Ward 
will have to have, particularly if he stays up in Frankfurt and 
tries to run the thing from there.
    Finally, I always bring up, the Commanders' Emergency 
Response Program (CERP), it's been working real well, although 
every time I get used to one thing, they change the name, so 
now it's CCIF--I guess, Combatant Commander Initiative Fund. 
But, as far as in the areas of Iraq and Afghanistan, it's my 
understanding that the Iraqi Government recently allocated $300 
million for that program, and I'd like to get a response from 
both of you as to how well that program's going and your 
feelings about the future of the CERP.
    General Petraeus. Sir, the CERP is of enormous importance 
to our commanders and troopers on the ground in Iraq. It's 
hugely important that it continue. It saves lives. It enables 
commanders--when you reach that point where money becomes the 
most important ammunition because of security progress, it 
enables them to achieve small, but quick and important, wins on 
the ground in small reconstruction projects where we have 
enormous capacity. In fact, it was in recognition of that 
capacity that the Iraqi Government did provide that to us, 
although they're also doing that with their own ministries, 
provinces, and elements, as well.
    Senator Inhofe. Good. Good.
    Chairman Levin. Thank you, Senator.
    General Odierno. Senator, I would just add that it gives us 
flexibility, leverage, and influence at the lowest levels, at 
the company, battalion, and brigade level. It's an extremely 
important program, and that needs to continue. We publish a 
manual that says, ``Money is a weapon that we give to all of 
our young leaders.'' It has significant impacts, and I hope 
that we'll be able to continue that in the future.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe. [Recess for 
brief continuation of the business meeting.]
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    General Petraeus, let me add my welcome to you to the 
panel.
    General Petraeus. Thank you, Senator.
    Senator Akaka. General Odierno, welcome, to you and your 
lovely family here.
    General Odierno, I've always thought of culture as 
important to people. Cultural awareness of our soldiers has 
become a strategic center of gravity in the Iraq conflict. The 
daily interaction of American service men and women with both 
their Iraqi counterparts and civilian population has really 
expanded the skills required of our military personnel far 
beyond which existed just a few years ago.
    Given the importance of these skills, what cultural or 
language training do units arriving in theater undergo that 
helps them to conduct these nontraditional aspects of the 
operations? Do you believe this training is adequate?
    General Odierno. It's a very important part, sir, of all 
the training that we conduct today, and it's done at the 
individual level, it's done at the collective level. We do it 
at all our schools now. It's been incorporated into all of our 
warrior leader courses, our basic noncommissioned-officer 
courses. It is incorporated in our unit training at home 
station. We've incorporated a large portion of this at our 
National Training Centers, Joint Readiness Training Centers. It 
is critical to continue to do this as we move forward. But, we 
have to continue to adjust, because we continue to learn more, 
we continue to understand it better, and we have to continue to 
change and continue to expand this program. It is one that is 
extremely important, it's one that we have to continue, it's 
one that we must continue to learn from, adjust, so we can 
continue to give our soldiers the best tools possible to be 
successful.
    Senator Akaka. General Odierno, your position with respect 
to Iraq's neighbors is that they are an important element of 
achieving ultimate stability on the ground. I agree that the 
ability to get other nations in the region to actively support 
political compromise, reconciliation, and stability in Iraq, 
will be even more important for the coalition effort in the 
months to come. General, what are the best approaches to use in 
achieving cooperation with Iraq's neighboring countries? Should 
these approaches be any different when dealing with Iran?
    General Odierno. I would just say, sir, that, of course, we 
want to continue to have dialogue with many of the countries. 
General Petraeus, I think, could tell you that we have tried to 
have dialogue with the Ambassador in Iraq three different 
times, with Iran, reaching out to them at that level. So far, 
it, unfortunately, has not yielded the results we want. 
However, I would suggest that as we move forward, if we believe 
it could yield results, we'd like to, at the ambassador level, 
continue to have those discussions, if we think it'll be 
fruitful.
    We also should obviously reach out to many of the other 
countries--Saudi Arabia, Jordan, Egypt--and I'll work with 
General Petraeus on that, if confirmed, to make sure we work 
together with those countries, to make sure they are helping us 
to solve the problems, and to help us with reconciliation, 
which, in my mind, is an extremely important piece as we 
continue to move forward, is getting many of these elements to 
reconcile. We've seen a good beginning in that, Senator, and we 
want to continue that.
    Senator Akaka. General Odierno, you have identified the 
communal struggle for powers as the number-one threat to Iraq, 
and asserted that sectarian conflicts fueled from both within 
and outside Iraq's borders poses the greatest challenge to 
lasting security. The membership of the Sons of Iraq, which has 
been a significant part of recent security gains on the ground, 
stems from local militia groups, many of whom were former 
insurgents and are now being integrated into the ISFs. Given 
the tentative nature of the alliance between these groups and 
coalition forces, is there a plan to continue transitioning the 
Sons of Iraq into government-controlled units so that they 
don't serve as a base for future sectarian conflict?
    General Odierno. Thank you, Senator. That's a very 
important question as we move forward. Obviously, we are going 
to try to integrate them as much as possible. What we've found 
is, we believe somewhere between 25 and 30 percent are capable 
and want to be integrated sometime into the ISFs, are either 
physically/mentally capable, or will have the desire to do 
that. With the other portion, we have to develop other programs 
to ensure that they can be employed. We are working with the 
Iraqis to do that. We were doing that several months ago. That 
policy has continued, where we're trying to develop work 
programs, we're trying to have public works units that help, 
not only to then employ them, but to continue to rebuild the 
infrastructure, as well as deliver basic services. We think 
this is a key, as we move forward, and we must continue to work 
with the Government of Iraq to fund this program, as well as 
helping us to get that instituted. We will work that extremely 
hard, sir.
    Senator Akaka. Do you feel this is an essential element of 
long-term stability that would help legitimize the Iraqi 
national government?
    General Odierno. I do. Many of these individuals, as we've 
talked with them and dealt with them, what they're really 
looking for is legitimacy, and they want to be part of the 
government--future of Iraq. So, this is their way of reaching 
out, volunteering to first provide security in these areas, and 
then become a permanent part of the government and part of the 
Nation as it moves forward.
    Senator Akaka. Thank you very much. My time is expired, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I'd like to associate myself with a statement you made 
earlier, at least in part--I thought it was a very eloquent 
statement that these two gentlemen represent continuity at a 
time when America needs it the most.
    Chairman Levin. Thank you.
    Senator Graham. To both of you, I just can't tell you how 
proud we are of the job that you and those under your command 
have done. It was a enormous challenge that you both took on. A 
year and a half ago, this thing looked very bleak. Your 
personal dedication, and those under your command, I think will 
go down in history, quite frankly, as one of the most 
successful counterinsurgency operations ever.
    But, we're not here to talk about just the good news, we're 
here to talk about where we go. I want to congratulate the 
President for nominating you both, and, to Senator Levin, for 
holding these hearings as quickly as possible.
    General Petraeus, as you go into your new job, it seems to 
me that one of the biggest problems we face in Afghanistan is, 
we have many forces over there from different areas of the 
world, NATO has assumed this fight; to me, this is a test of 
NATO. Are you concerned about the rules of engagement that some 
countries have imposed on NATO forces? What do you intend to do 
about that, if it is a concern?
    General Petraeus. First of all, Senator, this is, indeed, a 
test of NATO, and the caveats that are put on the uses of 
various national forces are a challenge for the NATO commander 
there. I think General Dan McNeill, the current commander about 
to hand off to General David McKiernan, has been very clear 
about that. It's not unprecedented. I was the Assistant Chief 
of Staff for Operations for the Stabilization Force mission in 
Bosnia, and had a matrix on my desk of which forces were 
allowed to do which nonstandard tasks, if you will, or 
different tasks, and that was challenging. It is the same 
situation in Afghanistan, except more difficult, because, of 
course, they're in tough combat operations, not just 
peacekeeping or peace enforcement.
    I think that continued dialogue with NATO authorities, with 
the Supreme NATO Commander, General John Craddock, and the 
other authorities with the coalition countries, many of whom 
also contribute forces to Iraq and, therefore, have been able 
to get to know them and so forth, is going to be part of the 
answer. I think, also, some additional provision of U.S. 
forces, and of those forces from those NATO countries that are 
willing and capable of conducting counterinsurgency operations 
in the way that is required, will also be important in the 
months and years ahead.
    Senator Graham. As you hand off command here, in a few 
short months, in Iraq, is it fair to say, from the America 
public's point of view, that we can expect, in the future, the 
Iraqis to fight more and to pay more for the cost of 
operations?
    General Petraeus. It is, Senator.
    Senator Graham. What would you attribute to the turnaround? 
I think all of us have met Prime Minister Maliki and some of 
the key players over in Iraq and have come away a bit 
frustrated at times. Last year, I think I visited with him in 
July--I had very little hope that anything was going to happen 
over there in a positive way. I'm quite astonished at the 
amount of reconciliation that's happened in the last 90 to 100 
days in the operations in Basrah and Sadr City. If you could 
give us some insight, what happened? What changed?
    General Petraeus. Senator, first of all, very significant, 
of course, was the decision that he made to take on the militia 
in Basrah. This is a Shiite-led government taking on a Shiite 
militia. It made an enormous statement about his willingness to 
serve all Iraqis. The result was increased support from those 
who had criticized him for a long time for turning a blind eye 
to the militia or not taking action against them in the way 
that he did in Basrah. He's followed that up, of course, 
courageously, inside Baghdad itself. Then also, to show all 
he's willing to go after all parties that are threatening the 
security and stability of Iraq, he has, of course, launched the 
operation in Mosul and Ninawa Province to go after al Qaeda and 
its Sunni extremist partners. There has been success in a 
number of these different areas. It's not solidified yet. As 
always, Ambassador Crocker and I are cautious in our 
assessments. But, there is significant progress, and, at the 
end of the day, nothing succeeds like a little bit of 
significant progress.
    Senator Graham. Conversely, how is Sadr's standing among 
the Iraqi people?
    General Petraeus. Senator, Muqtada al Sadr is still 
certainly seen as the embodiment of a very important movement 
in that country. The Sadr movement, which was founded on the 
martyr Sadr, his father, is a very important political element 
in Iraqi society. It is one that was founded on serving those 
most disadvantaged in the society. It stayed in Iraq during the 
Saddam era. It suffered enormously under it. So, it still has 
enormous influence. However, Sadr himself has recognized--in 
fact, by issuing the cease-fire order last fall in the wake of 
the violence precipitated by the militia in the holy city of 
Karbala, and after the militia elements and ``special group'' 
elements were linked to the assassination of two southern 
governors and police chiefs--that the armed elements associated 
with the movement were creating problems. In fact, it is that 
kind of assessment, we believe, that has prompted, over time, 
this directive to cease fire, to take a knee and so forth, 
because the people in Basrah were rejoicing at being freed from 
the grip of the militia. In fact, a man in Basrah told me that 
now he'd been liberated twice in recent years; once by the 
coalition forces, from Saddam; and now by the ISFs, from the 
militia.
    Senator Graham. My time is expired. One very brief 
question. General Odierno, thank you for what you've done and 
what you're about to do. The force structure that we have in 
place and the drawdowns that we're planning to implement over 
the summer, are you comfortable with what we're about to do and 
how we're going to do it?
    General Odierno. I am, Senator. I provided recommendations 
to General Petraeus as the Multi-National Corps-Iraq Commander. 
I stand behind those recommendations, which is what is going on 
right now. So, I feel extremely comfortable with what I 
continue to see as the progress we're making over there, that 
we'll be able to continue with those reductions, as planned, 
through the summer.
    Senator Graham. Thank you both, and your families.
    Chairman Levin. Thank you, Senator Graham.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, General Odierno and General Petraeus and your 
families, for your continued willingness to serve and the 
excellence of your service in the past. We've come to expect 
that from you, but I want you to know we don't take it for 
granted, and we truly appreciate that. I know the American 
people do, as well.
    In terms of finding options, General Petraeus--I can talk 
in football analogies, because Nebraska football may be on its 
way back--you remind me of an options quarterback who has to 
figure out all the options that are available and adjust to 
conditions on the ground before you make a determination.
    Senator Collins and I have been pushing, for some time, the 
idea, which seems to have gained favor, to transition the 
mission for the combat troops, the coalition combat troops, but 
particularly the U.S. forces, in Iraq--in Baghdad to fighting 
counterterrorism activities, which I think is what they've been 
doing, so that the Iraqi forces could take more responsibility 
for their own security. Apparently, that's part of what the 
plan is right now. Is it because we've come to understand that 
that's necessary, and/or is it because Prime Minister al Maliki 
seems poised and prepared to do that now?
    General Petraeus. Senator, again, to continue the analogy, 
you have to make the read at the line when you have the ball in 
each particular play, in each particular case, in each 
particular area. As you recall, when I last testified before 
the committee, I laid out the so-called Anaconda approach or 
strategy that we have employed to focus on al Qaeda-Iraq, and 
it employs much, much more than just what we have traditionally 
known as counterterrorist forces, our special mission units, 
the high-end Special Operations Forces. Critical to it has been 
conventional forces that have cleared and then been able to 
help hold cities like Baqubah, large neighborhoods in Baghdad, 
Ramadi, and so forth, and are now, in fact, doing the same to 
lesser degrees, slightly different approach--in Mosul.
    That has enabled us, if you will, when the level of 
violence is reduced, to have ISFs shoulder more of the burden, 
and allowed us to focus a bit more discretely on some of the, 
again, al Qaeda or Sunni extremist elements that try to come 
back into those areas and try to re-establish roots in them, 
while Iraqi soldiers and police can handle some of the more 
day-to-day activity in those areas. That's really what is going 
on, that this transition, if you will, has been the product of 
some tremendously tough, hard work and fighting by coalition 
and Iraqi forces, much of it, I might add, during the time that 
Lieutenant General Odierno was the operational architect of the 
so-called ``surge'' of coalition and Iraqi forces.
    Senator Ben Nelson. If Senator Graham's right, that the 
goal is to get Iraq to pay more and to fight more, we may be 
succeeding in that. Of course, Senator Bayh, Senator Collins, 
and I have worked to get Iraq in a position to pay more of the 
costs for the costs of the war; many of them being our costs, 
which we have been underwriting for these several years--do you 
believe that that will put them more in charge, not only of 
their own destiny, but feel more committed to their destiny, 
not only in charge, but stronger commitment?
    General Petraeus. Again, Senator, I think that transition--
some of that is very much well underway. You'll recall 
Ambassador Crocker, here, saying the days of the big 
reconstruction effort are over.
    Senator Ben Nelson. Yes.
    General Petraeus. We're still finishing them and all the 
rest of that, but that is largely over.
    Senator Ben Nelson. I knew that was his position, but we--
--
    General Petraeus. In fact, this past week alone, Prime 
Minister Maliki announced a $5-billion reconstruction effort, 
and also they are working on a supplemental that will provide 
additional funds to all of their provinces, ministries, and 
other activities. They have long since reached the point where 
they are paying a good bit more for their Iraqi forces 
development than we are, and that will just continue. Our line 
goes down, and theirs goes up very dramatically.
    When it comes to them fighting, their casualties continue 
to be well over, right now, three times our losses, and that 
does not include the Sons of Iraq, who are really a different 
category, who are also targeted continually by, in particular, 
Sunni extremists, because they represent the communities 
turning against these extremists. That's a very difficult 
situation for those extremists.
    Senator Ben Nelson. The query I would leave you with, in 
terms of Iraq and its future, is the question of, what if 
Muqtada al Sadr ends up with the majority in the next 
elections? But, we don't need to go into that; that's purely 
speculative. We certainly hope that that's not the case.
    I'd like to turn to Afghanistan for just a moment. I'm 
leading a congressional delegation there next week, as we spoke 
the other day. Given the challenges that there are in 
Afghanistan today, do we have any idea, or any vision, of what 
victory in Afghanistan will consist of? I'm not talking about 
when, but can we describe what would be victory in Afghanistan?
    General Petraeus. Certainly it would be a situation where 
security is much improved, it does not have these pockets in 
which reconstruction is challenged, and, of course, where the 
economy is gradually starting to get to a self-sustaining 
stage. The differences between Iraq and Afghanistan could not 
be starker. You have one country which has what now may be the 
largest oil reserves in the world--it certainly is number two 
or number three--and pumping oil at substantial rates, and 
another country that generates, I believe it's about $700 
million in a year toward its own budget. So, Afghanistan 
clearly is going to require very substantial assistance from 
the international community for a number of years, and very 
important that we continue it, remembering what it was that 
took place on that soil and the reason that we went there.
    Senator Ben Nelson. Sort of reminds us of a war on poverty, 
but it's a war getting over poverty, to be able to sustain 
their own government and their own future. That's not going to 
be very easy to solve simply with guns or butter.
    General Petraeus. Absolutely, Senator, that's, again, why I 
went to some length--and I appreciate your allowing me to 
provide an opening statement of that length--but to describe 
the comprehensive approach that's needed, the whole-of-
government effort, and the effort of very much partnering with 
all like-minded countries around the world, because that's what 
it's going to take.
    Senator Ben Nelson. Thank you both, and good luck to both 
of you.
    Thank you very much.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Nelson.
    I just would quickly note that, while we welcome the $5-
billion announcement, by the Iraqi Government, of 
reconstruction funds, they've announced before reconstruction 
funding, they've budgeted reconstruction funding, but, when it 
comes to spending it, their budgeted amount, it's been very 
slow. So we assume you'll keep on top of that.
    General Petraeus. Absolutely. It has improved, Senator, 
from year to year, but there's no question but that it has to 
improve a great deal more.
    Chairman Levin. Thank you.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    General Petraeus and General Odierno, I want to just 
underscore what Senator Graham had to say about both of you, 
and to express my heartfelt thanks for your service to our 
country. It's really impossible to adequately express how much 
we appreciate the service that both of you are giving.
    General Petraeus, you've probably learned as much or more 
about the need for improving interagency cooperation over the 
past 16 months as anyone, and I hope, if confirmed, that you 
will speak on the need for improving interagency cooperation, 
and to stress the consequences if we fail to heed the lessons 
learned from our efforts in both Iraq and Afghanistan. This is 
a topic that we simply cannot just pass along to the next 
administration.
    With those thoughts in mind, would you share with us some 
examples of where improvements must be made and what, in your 
professional opinion, are the potential consequences of merely 
maintaining the status quo?
    General Petraeus. Senator, I think you know that a number 
of us in uniform and Secretary Gates are among the biggest 
champions for providing additional resources for the State 
Department, for U.S. Agency for International Development, and 
for some of our other interagency partners, so that they can, 
in fact, do just what you were talking about. We have learned 
an enormous amount about this over time, and the increase in 
the Provincial Reconstruction Teams (PRTs) and the embedded 
PRTs has been a hugely important development, and a very 
significant part of the progress that has been made, not just 
in the security front, but, again, then, in the establishment 
of local governments, revival of local economies and markets, 
and reconstruction efforts, again, that were possible because 
of the improved security situation.
    I mentioned, during my opening statement, that the campaign 
plan that we are executing in Iraq is not just a military 
campaign plan, it is the joint product of the U.S. Mission-
Iraq, the Embassy, and the MNF-I, and it is signed by both the 
Ambassador and myself. By the way, the main effort--and you 
always identify a main effort in any such campaign plan--is 
actually the political line of operation, not the security 
line. While the security line is a crucial enabler to it, the 
ultimate solution, as we all recognize, has to come in the 
political arena.
    Now, recognizing that is of enormous significance, and I 
think it's very important. In the answers to the advance policy 
questions, I discussed a bit about steps that are being taken, 
and further steps should be taken, to improve, in terms of 
developing doctrine--just as we have in the military--to 
develop doctrine for kind of interagency cooperation and 
efforts that are required in the endeavors such as those in 
Iraq and Afghanistan and elsewhere in the theater, that there 
then has to be an education process for those; you actually 
have to practice it, try it somewhere. Ideally, we would 
welcome interagency partners joining us, for example, as our 
BCTs, division, and corps headquarters undergo the mission 
rehearsal exercises that we conduct for several weeks for each 
of these deploying units. Those are great opportunities, in 
fact, to get ready to perform the missions that are performed, 
again, in places like Iraq and Afghanistan. Then you need a 
feedback mechanism, a lessons-learned center.
    A fair amount of this is actually now being done. It's led 
by the State Department. It is at the Foreign Service 
Institute. That's the right place for it. I think that 
developments in that area will be very important in helping the 
interagency do better what it is we have learned they must do 
to enable military forces to be successful in these very 
complex contingency operations.
    Senator Dole. Thank you.
    General Odierno, earlier this year General Petraeus 
answered questions concerning a reassessment phase following 
the drawdown in U.S. forces to the pre-surge end strength in 
July. That assessment will, I presume, now become your 
responsibility. How long do you anticipate that security 
assessment will take to complete before you decide if you 
should hold at the pre-surge level or, at some point, resume 
redeployment?
    General Odierno. Thank you, Senator.
    General Petraeus and I have talked about this. If I'm 
confirmed for the position, I think General Petraeus will make 
an assessment prior to his leaving, and we will have some 
discussion about that as he does it. We'll confer about that. 
We'll agree to that, that he will make some sort of an 
assessment as he leaves, and I will then execute that 
assessment, and then continue to assess and identify and make 
further decisions.
    Senator Dole. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Dole.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your service to the Nation and to 
the Army, your extraordinary service, and thank you for your 
families' support.
    I want to particularly recognize Captain Odierno, because 
his service is emblematic of the service of so many young 
Americans whose courage, many times, compensates for some lack 
of wisdom. Thank you for your service.
    General Petraeus, you now have responsibility for a whole 
theater of operations. It's interesting, the last Director of 
National Intelligence Annual Threat Assessment suggested that 
al Qaeda has reconstituted itself in the FATA, in Pakistan. In 
fact, Admiral Mullen has stated, ``If we were going to pick the 
next attack to the United States, it would come out of the 
FATA.'' Do you agree with these intelligence assessments?
    General Petraeus. I do, Senator. Clearly, al Qaeda senior 
leadership has been strengthened in the FATA, even though their 
main effort still is assessed to be in Iraq, by them, as well 
as by us. But, the organization of an attack, if you will, 
would likely come from the FATA.
    Senator Reed. What does that say about our strategy? We 
have focused extraordinary resources in Iraq, and, in the 
intervening years since we began our operations there, al 
Qaeda, by our own intelligence estimates, have re-established 
themselves, strengthened themselves, they have higher 
operational capacity today. We have under-resourced 
Afghanistan, which is the closest theater of our operations to 
Pakistan. We've been failing to engage the Pakistan military in 
effective counterinsurgency operations. Recently, the 
Government of Pakistan has entered into another stand-down 
agreement with the tribal leaders there. It seems to me that if 
that's the existential threat, we haven't made it the main 
effort in our campaign plan for your theater of operations. 
What's your thought?
    General Petraeus. As I mentioned in my opening statement, 
Senator, clearly we have to provide additional assistance to 
the new Pakistani Government, which, as you mentioned, is still 
solidifying its coalition, is developing essentially, a 
counterinsurgency strategy, what approach it is going to take 
for dealing with the FATA, a significant problem that they have 
inherited and that was causing extraordinary violence in their 
country before they were elected. We have very substantial 
programs in that area. I had a very long conversation with 
Ambassador Anne Patterson, with the station chief, with others, 
who are working that issue, about 2 weeks ago in Qatar. There 
are very substantial programs, but I think that the key need is 
to assess whether the overall concept that is guiding those--on 
the Pakistani side, in particular, of course--is adequate or 
not.
    One of the first trips that I would make, if confirmed as 
the CENTCOM Commander, would be to Pakistan to sit down with a 
fellow U.S. Army Command and General Staff College graduate, 
General Ashfag Parvez Kayani, to talk, at some length, about 
that, and obviously to do the same with the leaders of the 
Pakistani Government. That is a problem that has to be 
addressed. As I mentioned, it is a problem that has global 
implications, not just local extremist implications for 
Pakistan.
    Senator Reed. If your conclusion is, you need further 
resources in Afghanistan and further resources in support of 
the Pakistani forces within their own country, where are you 
going to get them, except from further reductions in Iraq?
    General Petraeus. Again, that would be, if confirmed, 
something I would have to discuss with the Chairman of the 
Joint Chiefs, with the Service Chiefs, and so forth, and 
perhaps with the current MNF-I Commander.
    Senator Reed. I appreciate what you're going to bring to 
this task, which is incredible skill and insight as to what's 
going on in the AOR, but I think it's a serious, serious 
comment, if our own intelligence agencies are suggesting that, 
in the intervening several years of our great effort in Iraq, 
our existential enemies have become stronger and perhaps even 
more capable.
    Let me switch gears briefly to an issue within Iraq, for 
both you and General Odierno. The status of the Sunni Concerned 
Local Citizen group, the Sons of Iraq--I know you responded to 
Senator Akaka that approximately 25 to 30 percent will be 
integrated. My guess is that the easy part of the integration 
has already taken place.
    I mean, I was out in Anbar with the Iraqi Highway Patrol, 
which probably, a year ago, were Iraqi insurgents. The harder 
part is the remaining 70-plus percent. It doesn't seem that the 
administration of Maliki has come to grips with this issue. Is 
that a fair assessment? We're still paying them, they haven't 
paid them. I know the response is, ``we have to get them all to 
employment,'' but they're still on our payroll.
    General Petraeus. Senator, actually there has been a 
transition of, again, well over 20,000 to a variety of 
different ISFs or other governmental employment, and that has 
been supported by Prime Minister Maliki.
    There will be additional ones that do get integrated. But, 
as General Odierno pointed out, one challenge is that not by 
any means do all of them want to go into the security forces; 
many of them want to have jobs in their own communities; they 
just want to help with security until that's possible. Then, 
substantial numbers do not qualify, because they don't meet the 
literacy or physical requirements. That's why we've generally 
said between 20 and 30 percent might ultimately end up in some 
form of ISFs.
    There are numerous other efforts that are now being, in 
some cases, piloted, in other cases starting to really gain 
traction, in terms of job programs for them, funded by, in some 
cases dual by the U.S. and the Iraqi Government, and in some 
cases by the Ministry of Labor and Social Affairs of the Iraqi 
Government solely. These are starting to take off. They're 
something that we have to push very aggressively, so that there 
are opportunities provided for these individuals who have stood 
up and helped to protect their communities when they were 
really needed.
    Senator Reed. My time is expired, but if I could make a 
comment and then, perhaps in subsequent discussions informally, 
you might respond. But, my impression--in brief encounter with 
the Prime Minister--is that he viewed these Sunni Armed Forces 
as just as much a threat as the Shiite armed militias, and he 
may very well choose to deal with them, as he's dealt in the 
last few weeks with the Shiite, which is a military response 
which prompts some type of political reaction. That could be a 
serious challenge, General Odierno, to your tenure and your 
stability.
    I don't want to monopolize the time, but I will look 
forward to discussing this issue in detail with both of you.
    Again, thank you for your extraordinary service.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would like to join with my colleagues in expressing my 
appreciation for your magnificent service.
    Captain Odierno, thank you, and for so many of your 
brothers and sisters in arms who have served our country under 
difficult circumstances. But, you two generals represent the 
leadership that has proven itself under most difficult 
circumstances, have helped position us in a way that I think, 
today, we can believe, with confidence, that we have a 
realistic opportunity to establish a very decent good 
government in Iraq, which will be so important for our 
strategic interests and the people of Iraq. I can't tell you 
how appreciative we are and how much admiration we have for 
both of you.
    General Odierno, you were there at the critical point of 
developing this new surge strategy. General Petraeus, your 
leadership and planning were just superb.
    General Odierno, I asked General Petraeus, when he took 
command in Iraq, before he left, did he believe our forces 
could be successful in that country and achieve our essential 
national goals. He said that he did, he wouldn't have taken the 
job if he did not. How do you feel? Just tell the American 
people honestly how you feel about our opportunity for a 
successful result.
    General Odierno. First, as General Petraeus, sir, I would 
not take this job if I didn't think that we could be 
successful. Senator, I believe that we have made significant 
progress, specifically over the last 18 months or so, and I do 
believe that we are headed in the right direction.
    I will not say that we are out of the woods yet, but I 
would say that we are clearly headed in the right direction. I 
believe a self-reliant Government of Iraq that is stable, one 
that is committed to governance and protecting its own people 
and serving all its people, a place that's denied as a safe 
haven for terrorists and extremists, and one that is integrated 
into the international community and a partner on the war on 
terror, is absolutely possible in Iraq. I think it's closer 
today than it has been.
    Senator Sessions. Maybe you would tell those who don't know 
your involvement in our effort there, and how long you've been 
there--why don't you give just a brief summary of what you've 
seen and how you've come to reach that conclusion.
    General Odierno. I would just say--having been there two 
separate tours and then several times in between, asked to 
conduct assessments both as an advisor to the Secretary of 
State, but also as Assistant to the Chairman of the Joint 
Chiefs of Staff, I've spent close to 31 months in Iraq. What's 
been encouraging is, we understand the dynamics better than we 
did, we understand the environment, but the progression of the 
Iraqis is really now starting to show. It started by, first, 
enabling them, by providing additional security in some key 
areas, and then allowing the fact that they've decided to 
reject al Qaeda initially, starting in Anbar, where they 
understood that they did not want to live under the control of 
al Qaeda, and that they chose to work with the coalition and 
the Iraqi Government to expel al Qaeda and defeat al Qaeda. I 
think that was significant.
    As other Iraqis saw what happened in Anbar, they realized 
that the bright future for them is to reject these extremist 
groups, and that they did not want to be controlled by 
militias. I think we're starting to see that play out now with 
operations in Basrah and Sadr City.
    The most important thing to me over the last few months has 
been the evenhandedness of going after all of the enemies of 
Iraq, those militias, as well as al Qaeda. But, again, I would 
say we still have quite a bit of work to do, and they will do 
everything they can to try to re-establish their influence 
inside of Iraq, and it's important for us that we're able to 
build up the ISFs and the governmental capacity so that they 
can, themselves, not allow them to rebuild any influence at all 
inside of Iraq.
    Senator Sessions. Thank you very much.
    General Petraeus, you made brief reference to the fact that 
we've now seen, this past week, the lowest incidence of 
violence in Iraq in 4 years, and that maybe this week would be 
even lower. I know you don't want to be overconfident, but tell 
us what that means to you and what's been happening there.
    General Petraeus. Senator, what it means, of course, is 
that other activities can proceed. The whole idea has been to 
achieve a security environment in which individuals can go 
about their daily lives with much less fear than they had 
previously. This is not to say there are not still violent 
activities taking place in Iraq, there aren't still people 
trying to blow up other Iraqis, and so forth. But, it does say 
that again, the incidence of violence is significantly reduced, 
and to a level, again, that has not been seen in over 4 years, 
back to 23 April 2004.
    When you think about where we were, again, in November, 
December, January, February, and well into, really, the spring 
and early summer of 2007--2006 into 2007--that is a very 
significant development.
    Senator Sessions. It went from almost 1,600 incidents, a 
little over a year ago, to under 400, so that's a 75-percent 
reduction, really, a transformative event, I think. We are 
proud of that.
    General Petraeus, my time is about up, but I know that the 
Senate Armed Services Committee reported out our full 
authorization bill. It contains language that would ensure 
private security contractors are not authorized to perform 
inherently government functions in a combat area. It's my 
understanding that departments rely on these contractors for 
many things. Can you tell us what kind of impact this might 
have and if we should reconsider that language?
    General Petraeus. It would have a very significant impact, 
Senator, because these private security contractors--do perform 
very important missions. They are securing a variety of 
different activities in Iraq, and those are so important that 
we would likely have to use U.S. or other forces to secure 
them.
    The reason we have them there is that we don't have the 
forces to perform some of those missions, and so, this would be 
a significant drain on our combat power if it were carried out.
    If I could add that, in the wake of the incident last year, 
there has been significant progress also in the coordination 
and cooperation between private security contractors and those 
forces that--if you will, own the terrain--are responsible for 
the areas. There are much closer efforts between the 
contractual units and our forces; and, in fact, a lot of this 
was on General Odierno's watch, and the incidence of escalation 
of force from private security contractors has been reduced 
very dramatically.
    There are also new authorities that you provided to DOD, 
which were subsequently delegated to me, where I have Uniform 
Code of Military Justice authority over those DOD private 
security contractors, and there are other provisions for those 
who are under contract for the Department of State. So, I think 
that the unfortunate incident last year has actually led to a 
very considerable and good focus in this area that has helped 
enormously to improve the way these missions are conducted.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    First of all, if I may add my personal thanks to Captain 
Odierno for your service, and tell you how much I personally 
value it. You're getting a lot of comments today, but you're 
here symbolically on behalf of a lot of people, I think, and I 
have very strong feelings about people like yourself, like my 
son, like Senator McCain's son, who stepped forward, moved into 
harm's way at a time when the country needed you, and I think 
we're going to be wanting to benefit from the counsel and the 
experiences of people like you in the long future. I just 
wanted to personally add my own thanks.
    I would also like to expand a little bit on something that 
Senator Warner said earlier when he was asking you two 
gentlemen about this Strategic Framework Agreement that is 
being negotiated. It's a very important agreement, and he had 
asked if you were being consulted. I would like to emphasize 
again for the record, I'd like to see the Senate consulted on 
this matter. We had meetings, at a staff level, on the Senate 
Foreign Relations Committee yesterday, and our staff did not 
receive any of the specific information in this agreement. I 
think that it's an agreement that's going to have a potentially 
long-term impact, presently constructed as an executive 
agreement. I'm going to be among those who are going to be 
attempting to insist that we have the right kind of 
participation in accordance with the Constitution on that.
    General Odierno, if I may, my view, having spent a lot of 
time in my life thinking about military issues, strategic 
issues, and policy issues, is that one of the most essential 
components of laying down a strategy is the need to be able to 
articulate clearly what the endpoint of that strategy is. I 
believe that the failure of the administration to be able to do 
that, or to be required to do that, is one of the reasons we've 
had so much confusion and debate after the initial invasion. In 
that vein, I would like to hear from you as to, in military 
terms, what do you see as the endpoint in our strategic 
direction here with respect to our involvement in Iraq?
    General Odierno. Thank you, Senator.
    First, I believe one of the most important pieces is to be 
a self-reliant government that is stable, a government that 
will contribute inside of the regional context and the 
international context. Obviously that means we need a 
professionalized ISF, one that could handle those missions, 
which I think we're moving forward toward; obviously, we need a 
place where we do not allow safe haven for terrorists or 
extremists that can affect the security, not only of the 
region, but also of the United States; and then, obviously one 
that is integrated, politically and economically, and is an 
economic engine for continued improvement for its people. I 
think those are the things that I think we look forward to.
    From a military perspective, it's their ability to secure 
themselves, it's their ability to do it in such a way where 
their government is allowed to continue to grow. We will do 
that by providing less and less assistance to them.
    Senator Webb. If I may, General, because I have a very 
short period of time here, all that being said, and those 
political goals for the Iraqis, what does the United States 
military in Iraq look like when that happens?
    General Odierno. Over time, I think it'll adjust. We will 
have less and less responsibility for direct combat, more for 
assisting them in conducting their missions. Over time, that 
would change into an advisory mission, as we felt more and more 
comfortable with them being able to do that on their own.
    Senator Webb. How long do you think we should be there, if 
those conditions are met?
    General Odierno. It is unknown how long we would be there 
once all those conditions are met.
    Senator Webb. Right.
    General Odierno. I think that would be a policy decision on 
how long we would want to have some sort of contact with the 
Iraqi Government in the future, and so, I think we'd have to 
have some discussions on that.
    Senator Webb. What is the endpoint of the United States 
involvement in Iraq? Let's say that Iraq meets the conditions 
you just talked about. Should there be a United States military 
presence in Iraq?
    General Odierno. I think that's a discussion we would have 
along several levels, not only from the MNF-I, Commander of the 
CENTCOM level, and obviously our civilian leadership, to decide 
what their policy would be in the future towards Iraq.
    Senator Webb. Do you believe that, if those conditions are 
met, there would be a need for United States military in Iraq?
    General Odierno. I do not. I believe what we would want, 
though, is to maintain, obviously, military contacts, as we do 
with many countries around the world, over time.
    Senator Webb. Right. Thank you for that. That's a very 
important clarification.
    General Petraeus, there's some language in response to 
questions that were submitted to you for the record that go to 
Iran that I would like to get some clarification, or give you 
the opportunity to clarify. You used the word ``malign'' as an 
adjective. As someone who's written nine books, I'm trying to 
struggle with how this fits into what you're saying here.
    You say, ``We will continue to expose the extent of Iran's 
malign activities in Iraq,'' and then you say, on the next 
page, ``Our efforts in regard to Iran must involve generating 
international cooperation in building consensus to counter 
malign Iranian influence.'' You then speak about, ``There are 
consequences for its illegitimate influence in the region.'' 
Can you clarify for us how you're using those words?
    General Petraeus. I can, Senator. What I'm talking about 
there, I am characterizing that influence. It is malign, and it 
is lethal, and it is illegitimate. The arming, training, 
funding, and directing of militia extremists who have killed 
our soldiers, have killed Iraqi forces, and have killed Iraqi 
civilians----
    Senator Webb. I've heard all of that.
    General Petraeus. It is very malign, indeed. It's the same 
situation with what they're doing in----
    Senator Webb. In the interest of time, here, because you've 
given those answers, would you agree that, historically, one of 
the realities that we have to deal with is the notion that 
there will be some sort of Iranian influence in the region? I'm 
not talking about the specific military incidents, I'm talking 
about the reality of dealing with the region.
    General Petraeus. Senator, I'm not----
    Senator Webb. We cannot discount Iran.
    General Petraeus. I have always----
    Senator Webb. Would you agree with that?
    General Petraeus. I have always stated, in fact, that there 
will be Iranian influence, and that the hope is that that 
Iranian influence is constructive influence--commercial 
influence, economic influence, perhaps political influence, and 
cultural influence, religious, and so forth--but not this kind 
of contribution to lethal activities. That's exactly----
    Senator Webb. All right, there would be no disagreement 
from me on the last part of what you just said. The difficulty 
that a lot of people in this country, including myself, have is 
that we would hope that we would be able to see some creative 
leadership, in terms of how to bring a different set of 
diplomatic circumstances into play. Probably the best example 
of that, that I would just encourage you to consider while 
you're going through this, is the way that we were dealing with 
China in the early 1970s. China was a rogue nation with nukes, 
with an American war on its borders. We had no contact with 
this country for more than 20 years, after the communists took 
over in 1949. When we aggressively moved forward diplomacy with 
China, we took nothing off the table--and, by the way, the 
Chinese were directly involved in Vietnam at the time. They 
were providing military hardware, the same as you're talking 
about with Iran. They had military activities in Vietnam. We 
took nothing off the table. We didn't abandon any of our 
alliances. But, we, through diplomatic process, tried to reach 
something that also embraced the historic realities of that 
region.
    General Petraeus. Senator, I think, if you'll read my 
statement, that you will see that kind of spirit in it. If you 
want to use the international relations theorist concept that 
what you would want to do is to try, through every means 
possible, help Iran evolve from a revolutionary state--i.e., 
one that is not satisfied with the general status quo--to one 
that is more of a status quo regional power.
    In fact, as I have testified before this body before, 
Ambassador Crocker and I supported the conduct of the three 
rounds of negotiations that have taken place, the trilateral 
talks between Iraq, the United States, and Iran. Regrettably, 
it does not appear that there was progress as a result of 
those. That doesn't mean that you should necessarily stop them, 
but I certainly think that what Secretary Gates said the other 
day about determining how we can gather more leverage, again, 
more whatever kinds of support that we can, because right now, 
I think, as he said it, it's an open question as to whether, 
with the current circumstances, additional rounds of 
negotiations would be productive.
    Senator Webb. Thank you. My time is up, but I'm glad we 
were able to get that on the record. Thank you.
    General Petraeus. I am, too, Senator. Thank you.
    Chairman Levin. Thank you, Senator Webb.
    By the way, Senator Webb, Secretary Gates has committed to 
consult with us on those agreements that you talked about, and 
I just want to reinforce your point, Senator Warner's point, on 
that, that commitment is out there, it's public, and it's 
important.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you very much.
    Gentlemen, I want to extend my word of thanks to both of 
you for your service, and to make that extend to your families, 
as well. I also want to commend you both for the undeniable 
success that you have achieved militarily in Iraq, and the 
benefits that it has had to what we hope will be a more stable 
region, and certainly to make our country more secure.
    General Petraeus, when you were speaking, earlier, of the 
incidents, I wonder if you have the chart that shows--this 
chart, here.
    General Petraeus. I don't think we brought any of the big 
boards this time, Senator.
    Senator Martinez. Okay.
    I love your charts. But when you look at the pattern, it 
clearly shows a steep decline, which I would say corresponds to 
the new initiative and the offensive that we went on in 
February 2007. Would you agree that has had the kind of effect 
that we see now in the lessened violence?
    General Petraeus. It is certainly exactly what has 
happened. We had to have the surge of offensives to take away--
with our Iraqi partners--some of the sanctuaries and safe 
havens that al Qaeda and its Sunni extremist partners had, and, 
in some cases, also that militia extremists were employing. 
That has enabled, over time, the increase of control by 
legitimate security forces of areas that were at one time 
beyond their control, and has brought down the level of 
security incidents. It is a very significant reduction, as you 
note.
    Senator Martinez. First of all, as you undertake your new 
command, I want to welcome you to Florida, to MacDill, and to 
Tampa. We're awfully proud that you're going to be one of our 
residents, and we will welcome you there. It will be an honor 
to have you as a resident of Florida. But, in this broader 
responsibility, we know that there are problems in Lebanon and 
continue to see Syria's activities in the region, including 
their own very obvious, now, nuclear ambitions, which would be 
hugely destabilizing to the region.
    In the broader Middle Eastern situation, it does appear 
that the arm of Iran is ever-present in all of these 
situations, and I know you discuss our diplomatic initiatives 
who have really borne no fruit. How do you anticipate that we 
will deal with the continuing challenges that Iran poses to 
peace and security in the Middle Eastern region?
    General Petraeus. Senator, starting inside Iraq, we will 
certainly continue what we have done now, increasingly, in 
support of our Iraqi partners. As I mentioned, one of the 
results of the operation in Basrah is, they have seen these 
massive caches of weapons--for example, over 2,000 rounds of 
artillery and mortar rounds, hundreds and hundreds of rockets, 
thousands of pounds of explosives, rocket propelled grenades 
(RPGs), and all the rest--is to realize that their neighbor to 
the east has been undermining their security, and they have, 
indeed, generated enormous concerns as a result, sent their 
delegation, had other talks, and so forth.
    More broadly, we have to assist the government in Lebanon 
as it comes to grips with what to do with a similar militia 
issue there. We have just seen Lebanese Hezbollah, as I mention 
in my statement, carrying out a very intimidating activity in 
West Beirut and challenging, again, the sovereignty of that 
government.
    We need to do the same with respect to Syria, which 
partners with Iran in some of these activities. We believe, for 
example, that RPG-29s, that were originally sold to Syria back 
in 1999, eventually made their way to Lebanese Hezbollah, to 
Iran, and then into the hands of the Iranian-supported 
``special groups'' and were used in Iraq. Combating that 
trafficking is also very important.
    Ultimately, it will take unified action. Ideally, you would 
like to do it, as Senator Webb rightly is encouraging, with a 
variety of different engagements and so forth, if that is 
possible. As I said, I would agree, right now, with the 
Secretary of Defense, when he said that it's an open question 
as to the value of negotiations in the current circumstances. 
But, that's not to say that you can't try to change those 
current circumstances, try to develop some additional 
leverage--and it's about leverage--with the community of 
nations, many of whom share concerns about the issues of 
nuclear proliferation and the possibility of a regional arms 
race with respect to Iran, that, again, you can galvanize 
action that could encourage Iran, again, to be a more 
responsible partner of the Nations in the region and cease some 
of this activity that has been so damaging and destabilizing in 
various countries in the region.
    Senator Martinez. I believe you mentioned that you also had 
incredible finds of caches in the Sadr City area as the Iraqi 
forces, as well as ours, have moved through that area. Did I 
hear you say that earlier?
    General Petraeus. If I could clarify, Senator.
    Senator Martinez. Please.
    General Petraeus. There are significant finds. They are not 
yet of the scale of Basrah, but, of course, they've only been 
going at it for a couple of days. Now, there have also been 
significant caches in other areas in which militia elements 
were located, in and around Baghdad, and in other southern 
provinces, as well.
    Senator Martinez. Did I hear you mention, earlier, that one 
of these caches had been found in Sadr City in a hospital?
    General Petraeus. Yes, it was, Senator. That was used as a 
location where quite a substantial amount of weaponry, 
explosives, and other devices was stored by the militia.
    Senator Martinez. General Odierno, one last question. My 
time is about to expire. I know that General Petraeus testified 
before the committee in answer to one of my questions, he 
indicated that 107-millimeter rockets that the Sadrists and 
Shiites ``special groups'' were firing into the International 
Zone, and now I'm told that prior to this most recent cease-
fire, these have been as large, now, as 240 millimeters. I 
wonder what your plan, as you take over this command, is, in 
terms of protecting the border with Iran better, to enable the 
Iraqi forces, as well as ours, to impede the flow of weaponry 
from Iran directly?
    General Odierno. Senator, I would just say we've been 
working very diligently over the last several months to improve 
the ports of entry along the Iranian border by adding a 
significant amount of transition teams and our individuals to 
help train and provide oversight to the Iraqis.
    First what we want to do is close these ports of entry, 
make it very difficult for anybody to get through--illegal 
weapons and other things through these ports. We've done that 
by a series of other measures, collecting biometrics and other 
things on individuals who come through there. In addition, 
we'll work with the Iraqis in order, then, to also secure the 
areas in between these ports of entry, and assist them with 
intelligence capacity, and allow them, then, to help to shut 
down, hopefully, these networks that are longstanding networks, 
very complex, and very difficult. Many of these networks have 
been established for many years and have used to transit other 
goods besides weapons. So, it will take a lot of hard work for 
us to get inside of those. But, we are working with the Iraqis 
on that, and I believe that is one of our major tasks as we 
continue to move forward.
    General Petraeus mentioned earlier that there's been a 
significant amount of work done along the Syrian border here in 
the last month or so, going after the ``rat lines'' there, and 
we've learned some good lessons there that I think we'll be 
able to also utilize on the Iranian border, as well, sir.
    Chairman Levin. Thank you, Senator Martinez. I'm afraid 
we're going to have to end it there.
    Senator Martinez. Thank you.
    Chairman Levin. Thank you. This will give Senator Pryor a 
chance to have his turn, and then, Senator Pryor, would you 
recess us until my return?
    My return will be sometime between this vote and the second 
vote.
    Senator Pryor. I'll be glad to.
    Chairman Levin. Thank you.
    Senator Pryor [presiding]. Thank you.
    Thank you both for being here, and thank you for your 
service and all the things that you do. It's good to see both 
of you again.
    General Petraeus, let me start with you, if I may. I have 
some questions, not about Iraq, but about Afghanistan. Not to 
get into all the background and all the details, because we do 
have a vote, so I'll try to keep my questions short, but 
Admiral Fallon said that we have a need for 2,000 additional 
soldiers and marines to conduct training and security missions 
inside Afghanistan. I know that General James T. Conway has 
stated that he has enough to go in and clear, but not enough to 
hold certain areas in Afghanistan. My first question to you is, 
do you think we need 2,000 additional troops inside 
Afghanistan?
    General Petraeus. I do. I think that General McNeill may 
assess the requirement even larger. However, I would point out 
that, actually, there are over 2,000 additional forces that 
have been provided, I believe, since Admiral Fallon made that 
statement, and they're on the ground, the marines. In fact, the 
withdrawal of the Marine Expeditionary Unit from Iraq helped 
reduce some of the pressure and allowed that.
    Senator Pryor. Just to clarify that, I know that at one 
point there were 3,400 additional that were sent.
    General Petraeus. That's actually the number that's on the 
ground right now.
    Senator Pryor. Okay.
    General Petraeus. It's a good bit larger than just the 
2,000.
    Senator Pryor. Okay. Now, my understanding is, the request 
or the statements were in the context of 2,000 additional, on 
top of that 3,400. Do you know?
    General Petraeus. I do not know that for a fact. I would 
agree, however, that there is a requirement for additional 
forces, that NATO is providing some additional forces, and that 
we likely will have to come to grips if and when additional 
U.S. forces are provided, as well.
    Senator Pryor. Do we have those forces available today to 
do that?
    General Petraeus. It depends on the level of risk that we 
would assign. It would be an enormous challenge for our 
Services. They would have to come out of cycle, in most cases, 
because, as the Service Chiefs and Vice Chief of the Army have 
forthrightly reported, there is little strategic flexibility 
until this recocking process, if you will, following the 
drawdown of the surge, is complete.
    Senator Pryor. Right now, there are 3,500 marines that went 
in March into Afghanistan, and they're going to be there for 7 
months, if I'm not mistaken. You would know more about the 
details than I do. So, that would put them in until October 
2008. Do we have the forces to replace those 3,500 and then do 
the additional on top of that?
    General Petraeus. First of all, I have to get a good bit 
better into the details of those kinds of specific deployments, 
but, in general, the campaign season starts to end around that 
time. As the snow sets in, the tactical activity in the winter 
is dramatically reduced. I think that there would be a degree 
of comfort with not replacing them at that time, although there 
clearly would need to be a replacement when the springs comes, 
either by NATO or U.S. or a combination of both.
    Senator Pryor. You understand the concern, though, that if 
we don't have the adequate forces there--maybe, for example, we 
can go in and clear, but not hold----
    General Petraeus. Absolutely.
    Senator Pryor. Yes. That's a big concern that I know the 
Senate will have.
    General Petraeus. It's why they're trying to build the 
Afghan national security forces, as well.
    Senator Pryor. Right.
    Let me change gears here a little bit. The National Defense 
Authorization Act for Fiscal Year 2008 had a provision in 
there--we call it section 1206--that has to do with our ability 
to help foreign military forces conduct counterterrorism 
operations and support the growth of those capabilities for 
other militaries. However, there was a Government 
Accountability Office (GAO) report that said that DOD and the 
Multi-National Force in Iraq cannot fully account for the Iraqi 
forces' receipt of U.S.-funded equipment. Do you have any 
comments on that? Do you know anything about that?
    General Petraeus. We've had GAO, and we've also invited the 
DOD Inspector General in to look at the specific case of 
accountability of weapons, especially those that were issued to 
the forces during some pretty tough days in the 2004 and early 
2005 timeframe. Over time, actually, the Multi-National 
Security Transition Command-Iraq, which has worked hard over 
the past year to do this, has actually re-established 
accountability, if you will, for a substantial portion of the 
weapons that initially were reported as not being accounted 
for. They continue that effort.
    Beyond that, there have been substantial changes made over 
time, but really started in the spring of 2005, as we were able 
to build the logistics and property accountability teams that 
were needed in the Multi-National Security Transition Command-
Iraq, but not available early on, to enable the Iraqis to track 
their property, their most important property, in a manner that 
is closer to the way that we track ours. Now we actually even 
use biometrics with the issue of the M-16s and M-4 rifles that 
have been purchased--U.S. weapons that have been purchased for 
them--with their money, I might add, through Foreign Military 
Sales.
    Senator Pryor. I think what I'm hearing you say is, the 
accountability is very important, to make sure that we know 
where the weapons are going.
    General Petraeus. Absolutely, and also that there have been 
significant changes to improve the accountability process over 
time during our time in Iraq.
    Senator Pryor. Right.
    With that, I'm going to have to end my questioning because 
I need to get over for this vote. Again, I want to thank you, 
and I know that Senator Levin will be back here in just a few 
moments. Thank you for your service and all that you do and 
your testimony today.
    With that, what I'll do is, I'll recess this hearing, 
subject to the call of the chair, which I understand will be in 
just a few minutes.
    General Petraeus. Thank you, Senator.
    Senator Pryor. Thank you. [Recessed.]
    Chairman Levin [presiding]. The committee will come back to 
order.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I want to thank both General Petraeus and General Odierno 
for their service, which has now extended in Iraq over a number 
of years. When I was in Iraq in 2003, I was hosted by General 
Odierno, and here we are in 2008, talking about the way forward 
and trying to determine how best to resolve the difficulties we 
face. I congratulate both of you on the work that you've done 
and the incredible leadership you've provided.
    I want to turn, General Petraeus, to your broader AOR, 
should you be confirmed to head CENTCOM. I know that you've had 
some questions, during the course of the morning, about 
Afghanistan, but I want to just focus on that for a minute.
    I have been increasingly concerned that we have lost the 
initiative, both militarily and diplomatically. The recent 
announcement by the new Pakistani Government with respect to 
the agreement reached with the Taliban is concerning to me. 
Obviously, we have to have as much of a focus as we can bring 
to Afghanistan.
    I would ask you, General Petraeus, based on your assessment 
at this moment in time, do we have enough troops to achieve 
success, however ``success'' is defined, in Afghanistan?
    General Petraeus. Senator, I think that General McNeill has 
been on the record, and so has Admiral Fallon, about the 
requirement for additional forces in Afghanistan. Some have 
been provided by the United States, in the form of the marines 
that have gone on the ground. Then there are also pledges from 
NATO nations, as a result of the recent meetings, for some 
additional forces.
    I am not sure that will be all that is required, and one of 
the early efforts that I have to undertake will be, in fact, a 
trip to the Afghan-Pakistan region to spend some time on the 
ground. I've recently, actually, met with our U.S. commanders 
who are in Afghanistan, also the Ambassador and others. I think 
that, in the areas of the U.S. forces, that we generally have 
the initiative, but it's in some of the other areas, 
particularly in the southern part of the country, where, in 
fact, we may need to regain that initiative, and that may, 
indeed, take additional forces, and that's something that I 
have to look very hard at.
    Also, you alluded to Pakistan and the situation in the 
FATAs in the Northwestern Frontier Province. Clearly, concerns 
are there as well. That is, of course, where al Qaeda senior 
leadership is resident. Their ability and the ability of the 
Taliban to send fighters from those areas into Afghanistan is 
very destabilizing. Clearly there has to be a good deal of 
provision of assistance to the Pakistani Government by the 
United States and other coalition partners throughout the world 
to help this new government as it solidifies its coalition and 
comes to grips with how to deal with those problems in the FATA 
and in the Northwestern Frontier Province.
    Senator Clinton. I certainly urge a much greater amount of 
attention, because I agree with Central Intelligence Agency 
Director Michael V. Hayden that if the U.S. is going to suffer 
another attack on our own soil, it will most certainly 
originate from the Afghanistan-Pakistan border region. In your 
advance policy question responses, you talked about al Qaeda 
and associated groups being the greatest terrorist threats we 
face, and clearly that's not confined to Afghanistan or 
Pakistan, but also Yemen, the Horn of Africa, and other places 
that will now be in your AOR.
    If we accept that, which I do, that there is a greater 
threat coming from there than anywhere else, what are you going 
to do to help elevate the attention that is paid to that area? 
It has been the forgotten front lines in the war against 
terrorism, and we have allowed what was an initial success to, 
if not deteriorate, certainly stagnate, and I'm concerned that 
we need to engage the country again in this effort against al 
Qaeda. How large a priority do you believe tracking down Osama 
bin Laden should be?
    General Petraeus. It should be a very high priority. Having 
met with Director Hayden, actually, recently, about 2 weeks ago 
in Qatar, together with the U.S. Ambassadors to Pakistan and 
Afghanistan, the Joint Special Operations Command (JSOC) 
Commander, and the current CENTCOM Commander, Lieutenant 
General Marty Dempsey, it is very clear that there is a very 
considerable focus on that.
    Again, having said that, I think there clearly is more that 
can and should be done in helping the new government in 
Pakistan, because this is a Pakistani problem that has both 
repercussions and does create enormous violence inside 
Pakistan, but, as you point out, has global implications, as 
well.
    You mentioned the other areas in the region. I am actually 
fairly well acquainted, because of the location of Lieutenant 
General McChrystal in my current AOR of a number of the 
activities that are ongoing in these other areas that you 
mentioned, all of which are, indeed, concerning.
    I would also, though, point out that al Qaeda has been 
quite open about the fact that it sees its main effort to be in 
Iraq, and that, of course, it is appropriate, again, to do 
everything that we can there to pursue al Qaeda-Iraq. That is, 
in fact, what is ongoing. There has been substantial progress 
against al Qaeda in Iraq, and that is an effort that we also do 
want to continue very much, and, in fact, has benefited 
considerably from the recent offensive directed by Prime 
Minister Maliki in Mosul and in the greater province of Ninawa.
    Senator Clinton. I know that we may not agree about what 
the principal emphasis should be with respect to our efforts 
against al Qaeda, because certainly the ongoing threat to the 
United States on our soil emanates from outside of Iraq, in my 
opinion, and I think that we have to raise the visibility of 
our efforts with respect to al Qaeda's presence in Afghanistan 
and Pakistan, particularly along the border, its efforts to set 
up subsidiaries in Somalia, Yemen, and elsewhere, because, from 
the perspective of a Senator from New York now 6\1/2\ years 
after September 11, it is deeply troubling that we have not 
captured or killed or essentially decapitated the capacity of 
al Qaeda under the leadership it had in 2001, which is still 
the leadership it has today.
    I just wanted to ask one question, if I could, of General 
Odierno, because obviously the cycle of repeated and extended 
deployments are ones that we hear a lot about--the use of 
National Guard, and the Reserves. The last time I was there, 
with Senator Bayh, we saw a lot of people, who were born 
approximately the same time I was, who had been called back up 
in the Individual Ready Reserve pool. How many troops, General 
Odierno, do you plan to have in Iraq for the provincial 
elections in October? Will you request a temporary increase in 
troops?
    General Odierno. Senator, I will never say ``never,'' but 
my assessment now is, with the progress we're making, the 
progress we're seeing in the ISFs, and what I'm seeing as the 
security environment on the ground, currently, I do not believe 
we will need an increase. I think we'll be able to do it with 
the forces that are on the ground there now, or what we'll get 
to in July.
    Now, I feel fairly comfortable with that. Obviously, the 
environment and the enemy has a vote. But, currently, I believe 
we should not need an increase.
    Senator Clinton. Finally, General, if there were a decision 
by the President, in your professional estimation, how long 
would a responsible withdrawal from Iraq take?
    General Odierno. Senator, it's a very difficult question. 
The reason is because there's a number of assumptions and 
factors that I would have to understand first, based on how do 
we want to leave the environmental issues within Iraq, what 
would be the final end state, what is the affect on the ground, 
what is the security mission on the ground. I don't think I can 
give you an answer now, but I certainly, at the time, if asked, 
we would do--and we do planning--we do a significant amount of 
planning to make sure that an appropriate answer is given, and 
we would lay out a timeline in order to do that.
    Senator Clinton. Thank you, Mr. Chairman.
    Again, thank you to the witnesses and their families.
    Chairman Levin. Thank you, Senator Clinton.
    Let me thank our witnesses.
    Just one quick question of General Petraeus. You were asked 
about the security contractors. These are complicated 
provisions that are very carefully laid out, in terms of 
discretionary action that could affect the international 
relations of the United States. I'm wondering whether you've 
read all those particular provisions.
    General Petraeus. Sir, I have not. All I was responding to 
was the question, as I understood it here today.
    Chairman Levin. All right. Well, I'm wondering if you could 
take a look at them--it takes up 2 pages of our bill--and then 
give us your comment, for the record, because I think you would 
find these to be very carefully set forth. Would that be okay?
    General Petraeus. I'll do that, Senator.
    [The information referred to follows:]

    Statutory language that defines the functions of private security 
contractors (PSC) as inherently governmental and thus precludes using 
PSCs for security-related tasks would have a negative impact on our 
operations. The use of PSCs to perform perimeter security, convoy 
security, and personnel security is important to our mission 
accomplishment. If we were unable to use contractors for these tasks, 
we would be required to use U.S. military personnel. The primary 
missions of the U.S. military in Iraq are to help the Iraqi security 
forces (ISF) secure the population and develop the ISF to take on 
security missions for themselves. Diverting U.S. military forces from 
these primary missions would adversely affect our operations. Today in 
Iraq there are nearly 7,300 PSCs protecting individuals and property. 
The removal of these PSCs would initially require an equal number of 
U.S. military personnel (boots on the ground). Based on force 
deployment models, sustaining our force over time would increase this 
number by a factor of three. I assume the draft statutory guidance 
would also generate additional force requirements in Afghanistan. These 
numbers would grow further if U.S. military personnel were also 
required to replace the approximately 1,500 PSCs who provide security 
for State Department personnel in Iraq alone.
    As I noted in my recent confirmation hearing, there have been 
significant improvements in the operation of PSCs in Iraq over the past 
6-8 months. Strengthened oversight and increased authority provided to 
military commanders has enabled us to use PSCs to fulfill more 
effectively their security roles in a fully accountable manner that 
supports mission accomplishment. Last December, the Departments of 
Defense and State signed a Memorandum of Agreement (MOA) which 
standardized PSC operations in Iraq. Since implementing the MOA's 
provisions, we have observed a greater than 60 percent reduction in 
escalation of force incidents involving PSC contractors. This oversight 
is being further strengthened through the development of an umbrella 
regulation as required by the National Defense Authorization Act (NDAA) 
for Fiscal Year 2008. This regulation is in final coordination now, and 
will further codify and extend the oversight and management policies of 
the MOA to all U.S. Government PSCs operating in a designated area of 
combat operations. Moreover, since the publication of the Secretary of 
Defense's March 10, 2008, memorandum on Uniform Code of Military 
Justice (UCMJ) jurisdiction over Department of Defense (DOD) contractor 
personnel, commanders in Iraq have begun to use the authority provided 
by Congress in the NDAA for Fiscal Year 2007 to subject contractor 
personnel to the UCMJ.
    I understand that DOD is currently assessing the interpretation of 
relevant regulations and the proposed legislative language. I recommend 
that DOD be given the opportunity to make a recommendation based on 
their work. I believe it would be wise for there to be dialogue on the 
definition of what constitutes an ``inherently governmental'' function 
and on the impact of that definition on our operations and our force.

    Chairman Levin. Also, we have been in touch with you about 
the situation with the Christian communities in Iraq. We thank 
you for your awareness of that problem, their security issues, 
and we would ask you, particularly, I guess, General Odierno, 
to pick up that sensitivity and keep that concern very much in 
your mind.
    General Odierno. Yes, Senator, I understand.
    Chairman Levin. We thank you both. We hope that we'll bring 
your nominations to the floor as promptly as possible.
    We will now stand adjourned.
    [Whereupon, at 12:15 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN David H. Petraeus, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The integration of joint capabilities under the Goldwater-
Nichols Act has been a success. Our military forces are more 
interoperable today than they ever have been in our Nation's history. 
This achievement has been remarkable. The next step is to ensure the 
ability of military and civilian departments to work closely together. 
Some progress has been made in this regard. The State Department's 
Coordinator for Reconstruction and Stabilization, who has been given 
the lead by National Security Presidential Directive 44 (NSPD44), 
``Management of Interagency Efforts Concerning Reconstruction and 
Stabilization,'' has developed the Interagency Management System and a 
draft U.S. Government Planning Framework. These tools provide a viable 
process, within existing authorities, to enhance and align military and 
civilian engagement in reconstruction and stabilization scenarios. They 
have also designed and begun to stand up the Civilian Response Corps 
system to provide increased civilian expeditionary capacity to complex 
operations. This system holds impressive potential. DOD has developed a 
working plan to support the implementation of NSPD44. The U.S. will be 
well-served by having available the various tools to promote unity of 
effort across the U.S. Government.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. One of the most pressing needs is for the creation of 
interagency doctrine for the prosecution of counterinsurgency and 
stability operations. Counterinsurgency requires the commitment of both 
military and civilian agencies, and unity of effort is crucial to 
success. NSPD44 represents a good overall start, and new military 
doctrine helps as well. The State Department Bureau of Political-
Military Affairs has taken initial steps toward this end. In addition, 
the Consortium for Complex Operations has been stood up to serve as an 
intellectual clearinghouse for ideas and best practices on the many 
facets of irregular warfare. This appears to be a low-cost, high-payoff 
initiative.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes, although, as mentioned above, further development of 
interagency capacity and doctrine is required.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. Combatant commanders have increasingly focused on 
addressing the root causes of conflict in their regions in order to 
prevent the outbreak of violence and to mitigate the conditions that 
allow extremism to take hold. If confirmed, I anticipate maintaining 
this important focus. This focus requires investment in long-term 
economic and political development, makes whole-of-government 
approaches more important than ever, and requires even more 
coordination with civilian activities in combatant commands' AORs.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, Central Command 
(CENTCOM), to the following officials:
    The Secretary of Defense.
    Answer. Subject to direction from the President, the Commander, 
CENTCOM performs duties under the authority, direction, and control of 
the Secretary of Defense. In addition, the Commander, CENTCOM is 
responsible to the Secretary of Defense for the preparedness of the 
command to carry out its missions.
    Question. The Under Secretaries of Defense.
    Answer. Commander, CENTCOM coordinates and exchanges information 
with the Under Secretaries of Defense as needed to set and meet CENTCOM 
priorities and requirements for support.
    Question. The Assistant Secretaries of Defense.
    Answer. Commander, CENTCOM coordinates and exchanges information 
with the Assistant Secretaries of Defense as needed to set and meet 
CENTCOM priorities and requirements for support.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. Section 
163 of title 10, U.S.C., allows communication between the President or 
the Secretary of Defense and the combatant commanders to flow through 
the Chairman. As is custom and traditional practice, and as instructed 
by the Unified Command Plan, I would communicate with the Secretary 
through the Chairman of the Joint Chiefs of Staff.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. I would communicate and coordinate with the Vice Chairman 
of the Joint Chiefs of Staff as required and in the absence of the 
Chairman of the Joint Chiefs of Staff.
    Question. The Director of the Joint Staff.
    Answer. I would also communicate and coordinate with the Director 
as necessary and expect the Deputy Commander, CENTCOM or Chief of 
Staff, CENTCOM would communicate regularly with the Director of the 
Joint Staff.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are responsible 
for the administration and support of forces assigned to the combatant 
commands. Commander, CENTCOM coordinates closely with the Secretaries 
to ensure that requirements to organize, train, and equip forces for 
CENTCOM are met.
    Question. The Service Chiefs.
    Answer. Commander, CENTCOM communicates and exchanges information 
with the Service Chiefs to support their responsibility for organizing, 
training, and equipping forces. Successful execution of the CENTCOM 
mission responsibilities requires close coordination with the Service 
Chiefs. If confirmed, I intend to work closely with the Service Chiefs 
to understand the capabilities of their Services and to ensure 
effective employment of those capabilities in the execution of the 
CENTCOM mission.
    Question. The other combatant commanders.
    Answer. Commander, CENTCOM maintains close relationships with the 
other combatant commanders. These relationships are critical to the 
execution of our National Military Strategy, and are characterized by 
mutual support, frequent contact, and productive exchanges of 
information on key issues.
    Question. The U.S. Ambassador to Iraq.
    Answer. I would necessarily have a relationship with the U.S. 
Ambassador to Iraq, in close coordination with the commander, Multi-
National Force-Iraq (MNF-I), in order to ensure unity of effort between 
U.S. military and other U.S. Government activities in Iraq and in the 
CENTCOM region.
    Question. The U.S. Ambassador to Afghanistan.
    Answer. I would necessarily have a close working relationship with 
the U.S. Ambassador to Afghanistan, in close coordination with the U.S. 
commander there, in order to ensure unity of effort between U.S. 
military and other U.S. Government activities in Afghanistan and in the 
CENTCOM region.
    Question. Commander, Multi-National Force-Iraq.
    Answer. Commander, CENTCOM requires close cooperation with the 
Commander, MNF-I to support and resource the effort in Iraq to meet 
national policy goals. It is critical that the relationship between the 
Commander, CENTCOM and the Commander, MNF-I be close, candid, and 
productive to meet this end.
    Question. Commander, North Atlantic Treaty Organization (NATO) 
International Security Assistance Force, Afghanistan.
    Answer. Commander, CENTCOM requires close cooperation with 
Commander, NATO-ISAF to support and resource the effort to achieve the 
goals of the NATO mandate in Afghanistan. There is no formal command 
relationship (though there are such relationships with the Combined 
Security Transition Command-Afghanistan (CSTC-A) and the Commander, 
Joint Task Force (CJTF) in Afghanistan). However, robust communications 
and coordination are necessary to ensure the achievement of strategic 
goals.

                             QUALIFICATIONS

    Question. If confirmed, you will be entering this important 
position at a critical time for CENTCOM.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. First, I have extensive combat and command experience in 
the CENTCOM AOR. Having served in Iraq for over 3\1/2\ years (as a 
division commander, Multi-National Security Transition Command-Iraq 
(MNSTC-I)/NATO Training Mission-Iraq (NTM-I) commander, and, now, MNF-I 
commander), I have a good understanding of the country's culture, its 
leaders, and its challenges. My current position as MNF-I Commander, in 
particular, has provided me with extensive knowledge about our 
operations in Iraq, ideas on best-practices that would be useful 
elsewhere, and relationships with leaders throughout the Middle East 
and with leaders of Coalition countries. Though I have not served in 
Afghanistan, I did conduct a 5-day assessment there in September 2005 
at the request of the Secretary of Defense, and my experience with 
counterinsurgency and counterterrorism operations would, I hope, be 
useful in supporting General McKiernan and coalition forces operating 
there.
    Second, I have had a number of relatively high-level joint 
assignments, including serving as a TDY Special Assistant to CINCSOUTH, 
as Military Assistant to the SACEUR, as Operations Chief of the U.N. 
Force in Haiti, as Executive Assistant to the CJCS, as the temporary 
duty commander of Coalition Forces Land Component Command (CFLCC)-
Forward in Kuwait, as ACOS OPS of SFOR in Bosnia, as commander of 
MNSTC-I/NTM-I, and, now, as commander of MNF-I.
    Third, I believe I have an academic background that has 
intellectually prepared me for the challenges of high-level command and 
complex environments, as I have studied--as well as served in--major 
combat operations, counterinsurgency operations, peacekeeping 
operations, and peace enforcement operations. My doctoral dissertation 
at Princeton University was titled, ``The American Military and the 
Lessons of Vietnam.'' Most recently, while at Fort Leavenworth, I 
oversaw the development of the Army/Marine Corps manual on 
counterinsurgency and also changes to other Army doctrinal manuals, 
branch school curricula, leader development programs, combat training 
center rotations, the ``Road to Deployment'' concept, and other 
activities that support the preparation of our leaders and units for 
deployment to the CENTCOM AOR.
    Fourth, I have in the past year, as part of my MNF-I duties, met 
with leaders in Saudi Arabia, Kuwait, Jordan, Turkey, the UAE, Qatar, 
and Bahrain, as well as with many of the leaders of the countries 
contributing forces in Iraq, many of whom also contribute forces in 
Afghanistan and the Gulf.
    Finally, I believe that I have a solid understanding of the 
requirements of strategic-level leadership.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Commander, CENTCOM?
    Answer. Although there are numerous country-specific challenges in 
the region, a survey of the CENTCOM AOR as a whole reveals several 
transnational concerns that affect many or all of the region's 
countries. These concerns are interrelated and create significant 
challenges for regional stability and for U.S. interests in the region.
    First is the violent extremism that poses a significant threat 
throughout the region. Though al Qaeda is the highest visibility and 
priority terrorist organization, there are also many other extremist 
groups in the region.
    Another concern in the region is the proliferation of weapons of 
mass destruction, including related components and technical expertise. 
Iran's and Syria's nontransparent efforts to develop nuclear facilities 
could destabilize the region and spark a regional arms race. The need 
to secure existing nuclear material is a related and critical concern.
    A lack of economic development in many of the region's countries is 
another transnational concern. This is both a humanitarian issue and a 
security issue, as poverty and lack of opportunity are often enablers 
of successful terrorist recruiting.
    Another concern is the prevalence of piracy, narcotics trafficking, 
and arms smuggling in the CENTCOM AOR. In addition to being criminal 
and destructive activities, these practices threaten strategic 
resources and are often lucrative sources of funding for terrorists.
    Because of the region's importance to the global economy, another 
concern is the free flow of strategic resources and international 
commerce through the region.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. Although it is premature to have specific and comprehensive 
plans, there are several concepts that would guide my approach to the 
region's challenges, if I am confirmed.
    First, we would seek to build partnerships in the region, pursuing 
bilateral and multilateral cooperation in identifying and working 
toward mutual interests. This involves extensive engagement with 
leaders in the region, and I would see this as one of my primary 
responsibilities as CENTCOM commander.
    Second, we would aim for a whole-of-government approach in 
addressing the region's challenges. This approach recognizes that 
solutions for the region's challenges should be as multifaceted as the 
challenges themselves. Rather than engaging in purely military 
solutions, we would seek to leverage the insight and capabilities 
resident in the whole of government.
    Third, and related, we would pursue comprehensive approaches and 
solutions, addressing the roots of issues and not just their 
manifestations. This entails efforts varying from spurring economic 
development and educational opportunity to strengthening governments' 
abilities to combat terrorism and extremism.
    Fourth, we would posture our forces and maintain focus on readiness 
to conduct contingency operations, whether crisis response, deterrent 
action, or defeating aggressors.
    These concepts can be applied to each of the transnational threats 
listed in the answers to the previous question, and they are also 
important in addressing and preventing the spread of inter- and intra-
state conflicts in the CENTCOM AOR.
    Signaling U.S. resolve to address the region's challenges is one of 
the important roles of any combatant commander, and active pursuit of 
these concepts would also serve that purpose.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of Commander, CENTCOM? What management 
actions and timelines would you establish to address these problems?
    Answer. Having not yet performed those functions, I cannot say at 
this time what the most serious problems are. Until I have been 
confirmed and made an assessment, it would be premature to establish 
management actions or timelines.

                          READINESS OF FORCES

    Question. What is your assessment of the readiness of U.S. forces 
that have been deployed in support of Operation Iraqi Freedom?
    Answer. Units arrive in theater well prepared for the operations in 
Iraq. Indeed, I continue to believe that our current force is the best 
trained, best equipped force in America's history. Leaders at every 
level, many of whom are on their second or third combat deployments, 
are using their experience from previous deployments to prepare and 
train their units well, and U.S. forces in Iraq remain disciplined, 
spirited, and adaptable in the face of challenging, ever-changing 
battlefield conditions.
    Question. Have you observed any significant trends in apparent gaps 
with respect to personnel, equipment, or training readiness in units' 
upon arrival in theater?
    Answer. There are not currently any significant gaps in the 
readiness of units as they arrive in Iraq. The equipment and training 
they receive in preparation for deployment are excellent. As in all 
counterinsurgency operations, though, tactics--both those of the enemy 
and our own--constantly change, and the winning side is generally that 
which learns faster. We have strived to be a learning organization and 
have adapted well in the past; with Congress's support, for example, we 
have effectively employed increasing ISR capability and fielded MRAPs 
to protect our forces from increasingly lethal IEDs. We have also 
worked to push lessons learned back to units so they can integrate them 
into their training. As enemy tactics evolve and new equipment and 
training requirements arise, I would see it as my responsibility to 
address those needs, if I am confirmed.
    Question. What are your views on the growing debate over whether 
the Army is putting too much emphasis on preparing for 
counterinsurgency operations or too little emphasis on preparing for 
high intensity force-on-force conflict?
    Answer. Although I understand the concern, I believe that the 
distinction between the requirements of counterinsurgency and those of 
high intensity combat can be overstated. Indeed, Army doctrine explains 
that all operations (including counterinsurgency) are a mix of 
offensive, defensive, and stability and support operations. Forces in 
Iraq and Afghanistan have performed--and continue to perform--very well 
in intense combat, gaining new sophistication in the use of fires 
(increasingly precise) and air-weapons teams, the integration of 
counterfire radar and unmanned aerial vehicles, the teamwork between 
conventional and Special Operations Forces, the fusion of intelligence, 
and the command and control of complex operations. The past year, for 
example, included significant combat operations to clear Ramadi, 
Baqubah, various Baghdad neighborhoods, and now Mosul. Beyond that, 
leaders are explicitly trained and educated in our branch schools in 
how to think rather than what to think, and they are more adaptive as a 
result. The Army is now full of experienced leaders (as are all our 
Services), and it has shown that it is a learning organization, rapidly 
institutionalizing lessons learned. Finally, it has a more robustly 
equipped force, including vehicles that offer better protection, which 
would serve well in a variety of high intensity conflicts.

                                  IRAQ

    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer. I believe we are in a significantly better position in Iraq 
now than we were in late 2006 and early 2007. The security situation is 
much improved, with overall attacks, civilian deaths, and ethno-
sectarian violence all down substantially. The week ending 16 May 2008 
had the lowest level of security incidents since the week that ended 23 
April 2004. Having noted that, progress is uneven and difficult 
challenges remain, including Iran's malign involvement in Iraq and the 
fact that AQI and other Sunni extremists and illegal Shiite militias 
retain the ability in some areas to carry out lethal attacks and 
regenerate. Iraqi security forces continue to improve and are 
increasingly taking the lead. Nonetheless, the gains of the past 15 
months remain fragile, and much tough work remains on the security 
front.
    The Iraqi Government has begun to make progress on some very 
difficult issues and has passed some critical legislation. We have seen 
more unity across sectarian lines at the national level, and this 
presents opportunities for further political progress. Iraq's 
governmental capacity is still insufficient in many areas but is 
improving. Overall, Iraq is moving in the right direction and making 
progress. However, it will take continued U.S. involvement and 
commitment to ensure that the gains are not reversed.
    Question. From your perspective, what are the top lessons learned 
from our experience in Iraq?
    Answer. Recent experience in Iraq has shown us the value of 
pursuing a comprehensive approach in response to complex challenges and 
of focusing on key counterinsurgency concepts. In Iraq, we operate 
along multiple lines of operation. Our strategy recognizes that 
enduring security and stability rest on economic, political, social, 
and diplomatic, as well as military, efforts and thus require 
simultaneous pursuit of a variety of kinetic and non-kinetic 
operations. Our application of a joint USM-I/MNF-I campaign plan has 
required an immense amount of coordination among governmental 
departments and agencies and reinforced the lesson that the military 
cannot accomplish its mission on its own. As an example, we have begun 
to address the foreign fighter problem in Iraq through a series of 
video teleconferences in which more than 25 organizations from the 
interagency, Intelligence Community, and DOD participate; this forum 
has allowed key leaders across all agencies and departments to share 
current assessments and activities and to discuss future plans.
    Because of the lessons of Iraq and Afghanistan, we have already 
seen some progress in interagency cooperation. After September 11, 
every regional combatant commander stood up a new doctrinal Joint 
Interagency Coordination Group (JIACG) that was originally focused on 
counterterrorism operations. Over the past few years, these JIACGs have 
begun to evolve into interagency enablers for full-spectrum operations. 
Just this month, CENTCOM formally announced the evolution of its JIACG 
into an Interagency Task Force for Irregular Warfare to confront the 
complex challenges of its region. If I am confirmed, I would seek to 
build on these initiatives as CENTCOM commander.
    Question. What do you consider to be the most significant mistakes 
the U.S. has made to date in Iraq?
    Answer. First, there were a number of assumptions and assessments 
that did not bear out. Prominent among them was the assumption that 
Iraqis would remain in their barracks and ministry facilities and 
resume their functions as soon as interim governmental structures were 
in place; that obviously did not transpire. The assessment of the Iraqi 
infrastructure did not capture how fragile and abysmally maintained it 
was (a challenge compounded, of course, by looting). Additionally, 
although most Iraqis did, in fact, greet us as liberators (and that was 
true even in most Sunni Arab areas), there was an underestimation of 
the degree of resistance that would develop as a Shiite majority 
government began to emerge and the Sunni Arabs, especially the 
``Saddamists,'' realized that the days of their dominating Iraq were 
over. Sunni Arab resistance was also fueled by other actions noted 
below.
    A number of other situations did not develop as envisioned, 
including:

        - There was a feeling that elections would enhance the Iraqi 
        sense of nationalism. Instead, the elections hardened sectarian 
        positions, as Iraqis who did vote did so largely based on 
        ethnic and sectarian group identity; major sections of the 
        population boycotted the political process and thus have been 
        underrepresented ever since.
        - There was an underestimation over time of the security 
        challenges in Iraq, particularly in the wake of the 2006 
        bombing of the mosque in Samarra, coupled with an 
        overestimation of our ability to create new security 
        institutions, in the midst of an insurgency, following the 
        disbandment of the Iraqi security forces.
        - It repeatedly took us too much time to recognize changes in 
        the security environment and to react to them. What began as an 
        insurgency, gradually evolved into a conflict that included 
        insurgent attacks, terrorism, sectarian violence, and violent 
        crime. Our actions had to evolve in response to these changes, 
        and that was not always easy.

    A number of other mistakes were made during the course of Operation 
Iraqi Freedom, including:

        - The very slow execution of the reconciliation components of 
        de-Baathification by the Iraqi de-Baathification Committee left 
        tens of thousands of former Baath Party members (many of them 
        Sunni Arabs, but also some Shiite) feeling that they had no 
        future opportunities in, or reason to support, the new Iraq. To 
        be fair to the Coalition Provisional Authority, Ambassador 
        Bremer intended to execute reconciliation (or exceptions to the 
        de-Ba'athification order) and, for example, gave me permission 
        to do so on a trial basis in Ninewa Province; however, when we 
        submitted the results of the reconciliation commission 
        conducted for Mosul University and subsequent requests for 
        exception issued by Iraqi processes with judicial oversight, no 
        action was taken on them by the Iraqi de-Ba'athification 
        Committee in Baghdad. As realization set in among those 
        affected that there was to be no reconciliation, we could feel 
        support for the new Iraq ebbing in Sunni Arab majority areas.
        - Disbanding the Iraqi Army without simultaneously announcing a 
        stipend and pension program, a plan for Iraq's future security 
        forces, and ways to join those future forces left hundreds of 
        thousands of Iraqi men angry, feeling disrespected, and worried 
        about how they would feed their families. The stipend plan 
        eventually announced did help, but it did not cover senior 
        officers, who then remained influential critics of the new 
        Iraq. This action likely helped fuel the early growth of anti-
        coalition sentiment and of the insurgency.
        - We took too long to develop the concepts and structures 
        needed to build effective Iraqi security forces to assist in 
        providing security for the Iraqi people.
        - Misconduct at Abu Ghraib and in other less sensational, but 
        still damaging, cases inflamed the insurgency and damaged the 
        credibility of Coalition Forces in Iraq, in the region, and 
        around the world.
        - We had, for the first 15 months or more in Iraq, an 
        inadequate military headquarters structure. In hindsight, it is 
        clear that it took too long to transform V Corps Headquarters 
        into CJTF-7 Headquarters and that even after that 
        transformation the headquarters was not capable of looking both 
        up and down (e.g., performing both political-military and 
        strategic functions and also serving as the senior operational 
        headquarters for counterinsurgency and stability operations). 
        The result was the eventual creation of the MNF-I headquarters. 
        Moreover, it is clear that we should have built what eventually 
        became MNSTC-I headquarters and TF134 headquarters (which 
        oversees detainee/interrogation operations) and other 
        organizations (e.g., the Army Corps of Engineers, Gulf Region 
        Division Headquarters) much sooner.
        - Although it was not a problem in the 101st Airborne Division 
        AOR during my time as the 101st Cdr, it is clear that in 
        certain AORs there were more tasks than troops--especially in 
        Anbar Province during at least the first year of operations.
        - Finally, the effort in the wake of the al-Askariya Mosque 
        bombing in Samarra in February 2006, was unable to stem the 
        spiraling ethno-sectarian violence. Repeated operations in 
        Baghdad in the summer and fall of 2006, in particular, did not 
        prove durable due to a lack of sufficient Iraqi and coalition 
        forces for the hold phase of clear-hold-build operations.

    Question. Which of these do you believe are still having an impact?
    Answer. Although it is difficult after 5 years of developments in 
Iraq to attribute specific current challenges to particular past 
activities, it is likely that we are still feeling the effects of many 
of these activities. For instance, groups that chose not to participate 
in Iraq's 2005 elections are still underrepresented in government at 
the provincial and national levels. For this reason, free and fair 
provincial elections this year will be very important in pulling an 
increasing proportion of Iraqi society into the political process.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. As U.S. forces in theater draw down, our most important 
steps are those that protect the Iraqi people while continuing to build 
Iraqi capability and capacity. Even as we assist in providing security, 
we must also enable Iraqi security forces increasingly to assume the 
lead in securing their country. We must work to help the Iraqis expand 
their governmental capability and capacity. We must encourage and 
support political accommodation and reconciliation at both the local 
and national level. Finally, we must recognize that the challenges 
associated with internal and external stability and security in Iraq 
cannot be solved solely in Iraq. We must thus continue to engage with 
Iraq's neighbors and seek to get these neighbors to support political 
compromise and stability in Iraq.
    Question. How has the threat and conduct of intercommunal violence 
changed the fundamental nature of the conflict in Iraq?
    Answer. Since liberation in 2003, the conflict in Iraq has been a 
competition among ethnic and sectarian communities for power and 
resources. While the fundamental nature of this struggle has not 
changed, it has played out differently over time. Over the past year, 
we have seen a significant decrease in ethno-sectarian violence. 
However, as overall violence levels have decreased, continuing 
challenges in the area of intra-sectarian conflict have risen to the 
fore. Iraq continues to face a complex array of destabilizing forces, 
including terrorism and regional interference; however, as noted 
earlier, the level of security incidents in the past week was the 
lowest in over 4 years.
    Question. How would you recommend that military strategy adapt to 
this change in the nature of the conflict?
    Answer. I believe our strategy in Iraq is well-suited to address 
this conflict over power and resources. As commander of MNF-I, I 
participated in the development of the Joint Campaign Plan with the 
U.S. Ambassador in Baghdad. This plan lays out a comprehensive 
approach, along security, economic, diplomatic, and political lines of 
operation, to achieve the aim of an independent, stable, and secure 
Iraq. Although there is a long way to go, our strategy to address the 
conflict in Iraq is achieving progress.
    Question. What is the appropriate role of coalition forces in 
response to the threat and conduct of intercommunal violence among 
militant groups vying for control, particularly in southern Iraq?
    Answer. Coalition forces support the elected government and help 
that government enforce its monopoly on the legitimate use of force. 
Iraqi leaders have largely united around the aim of disarming all 
militias, and we seek to support them in that effort.
    Question. What role, if any, did you play in the development of the 
new Iraq strategy announced by the President in January 2007?
    Answer. The day after Secretary Gates took office, immediately 
before his first trip to Iraq, I met with him to discuss the situation 
in Iraq. We talked again subsequent to his trip. I also talked to the 
CJCS several times during that period, noting that an emphasis on 
population security, particularly in Baghdad, was necessary to help the 
Iraqis gain the time and space for the tough decisions they faced and 
also contributing my input on the general force levels likely to be 
required. As the strategy was refined, I talked on several occasions to 
LTG Ray Odierno to confirm that his troop-to-task analysis required the 
force levels called for by the new strategy; I relayed my support for 
those levels to the CJCS and the Secretary. I also supported the 
strategy's additional emphasis on the advisory effort and additional 
resources for the reconstruction effort (both in terms of funding and 
personnel for Provincial Reconstruction Teams and governmental ministry 
capacity development).
    Question. Do you believe that there is a purely military solution 
in Iraq, or must the solution be primarily a political one?
    Answer. There is no purely military or purely political solution in 
Iraq. All four lines of operation--security, economic, diplomatic, and 
political--are mutually reinforcing and thus must be pursued to achieve 
a long-term solution in Iraq. Though the pursuit of political 
reconciliation and good governance along the political line of 
operation is the main effort, success in this area depends on security 
conditions that enable and foster compromise. Enduring domestic 
political progress will also rest on supporting economic and diplomatic 
developments.
    Question. Do you believe that political compromise among Iraqi 
political leaders is a necessary condition for a political solution?
    Answer. Yes.
    Question. What do you believe will induce Iraqi political leaders 
to make the political compromises necessary for a political solution?
    Answer. Iraq leaders have put themselves under enormous personal 
pressure and are also under the collective pressure of various 
political elements in Iraq to create stability and long-term solutions 
for Iraq. Indeed, they have already worked together and compromised on 
a number of difficult issues in order to pass important pieces of 
legislation earlier this year. They recognize that in order to succeed 
in a political process, they will need to produce results, and 
producing results requires compromise. With regard to expectations 
about the pace of progress, it is important to recognize that Iraq's 
political leaders are still struggling with fundamental questions such 
as the degree of devolution to the provinces of various authorities and 
powers in Iraq. Iraq's political leaders have already begun to make 
progress in these areas, and they are continuing to move forward on 
issues such as the provincial elections scheduled for later this year.
    Question. What leverage does the U.S. have in this regard?
    Answer. Although U.S. forces and reconstruction funding are being 
reduced, the U.S. still has considerable leverage and influence in the 
form of U.S. forces, the large U.S. diplomatic presence, and the 
comprehensive effort to increase governmental capacity. Having said 
that, Iraq is a sovereign country and, understandably, its leaders seek 
to exercise that sovereignty--and we seek to encourage that. Beyond 
that, supporting political solutions in Iraq is not purely a matter of 
leverage and convincing Iraqi leaders of the importance of compromise. 
It is also a matter of helping Iraqi leaders to set conditions that 
enable progress. There again, our leverage lies in our robust 
engagement, working with the Government of Iraq, and helping its 
leaders to make and implement the hard decisions that are in the best 
interests of all the Iraqi people.
    Question. To your knowledge, aren't conditions on the ground in 
Iraq being continuously assessed?
    Answer. Yes.
    Question. If so, why is it necessary, in your view, to wait 45 days 
to assess the conditions on the ground and determine when to make 
recommendations?
    Answer. The withdrawal of over one-quarter of our combat power from 
Iraq will significantly reshape the battlefield. Our goal is to thin 
out our presence, not simply withdraw from areas, to ensure we help the 
ISF hold the security gains we have achieved together and set the 
conditions for additional progress. A period of 45 days will enable us 
to reposture our forces, if needed, evaluate the effect of required 
adjustments, and avoid premature judgments about the impact of these 
changes. After this period of consolidation and evaluation, we can then 
complete an informed assessment and make appropriate recommendations.
    Question. In your view, what conditions on the ground in Iraq would 
allow for a recommendation that further reductions be made in U.S. 
forces?
    Answer. There is no simple metric or equation that can be used to 
determine the appropriate pace of force reductions. A number of 
variables are examined as we conduct assessments. Reductions are not 
merely a question of battlefield geometry; they involve complex 
political and military calculus. We look primarily at security and 
local governance conditions--at the enemy situation and the capability 
of Iraqi security forces, at the capacity of local officials, and at a 
host of other factors. Though we have metrics to assist in assessing 
the situation in various locations, in many cases it is the commander 
on the ground who has the best feel for the situation; it is as much 
art as it is science.
    Question. In the fiscal year 2008 defense authorization and 
appropriation acts Congress prohibited the use of funds to seek 
permanent bases in Iraq or to control the oil resources of Iraq.
    Do you agree that it is not and should not be the policy of the 
United States to seek permanent basing of U.S. forces in Iraq or to 
exercise control over Iraq's oil resources?
    Answer. Yes.
    Question. If you agree, what are your views on the construction of 
any additional facilities inside Iraq for use by our military forces?
    Answer. As is currently the case in Iraq, construction efforts 
should be focused on supporting the counterinsurgency concept of living 
among the people rather than on the expansion of large operating bases. 
Toward this end, we continue to complete some Joint Security Station 
and Combat Outpost facilities that are necessary for current missions--
though the vast majority of these facilities have already been 
completed. Over time, a few headquarters may be shifted as well, and 
this may require a few facility changes. Much of our future effort 
will, however, be focused on reducing the size of our facilities. As we 
continue to withdraw forces, we will follow a ``shrink and share'' 
strategy that reduces base perimeters and maximizes opportunities to 
share bases with ISF and Government of Iraq users. Eventually, these 
facilities will either be transferred to the Government of Iraq or 
closed.
    Question. What are your views on the responsibility and ability of 
the Iraqi Government to assume greater responsibility for paying the 
costs of reconstruction and security activities throughout Iraq, 
including paying for all large-scale infrastructure projects; the costs 
of combined operations between Iraqi and MNF-I forces; the costs of 
training and equipping of the Iraqi security forces; and the costs 
associated with the Sons of Iraq?
    Answer. The Government of Iraq has an increasing responsibility and 
an increasing ability to fund reconstruction and security operations in 
Iraq, and it is making progress in picking up a greater share of the 
load. As Ambassador Crocker recently stated before Congress, ``The era 
of U.S.-funded major infrastructure projects is over.'' Instead, we are 
focusing our efforts on helping build Iraqi governmental capacity so 
that Iraqis can better leverage their own resources. For example, 
Iraq's 2008 budget contains $13 billion for reconstruction; beyond 
that, we anticipate Iraq will spend over $8 billion on security this 
year and $11 billion next year, and a supplemental Iraqi budget is in 
the works. An important limiting factor is Iraqi governmental capacity, 
but this is gradually improving as well, as evidenced by a solid 
increase in budget execution last year.
    Question. What are your views on the concept circulated over the 
last year that would make Operation Enduring Freedom in Afghanistan a 
Marine Corps mission and end the rotation of Marine units in support of 
Operation Iraqi Freedom?
    Answer. In my current position in Iraq, I have not been a part of 
the discussions surrounding this issue (other than those related to its 
impact in Iraq). If I am confirmed, it is an issue I will discuss with 
the Joint Chiefs of Staff and the commanders in Afghanistan.

                        CONFRONTING THE MILITIAS

    Question. Based on your knowledge, is the Iraqi Government taking 
the steps it must to confront and control the militias? What role would 
you expect to play on this issue, if confirmed?
    Answer. The Iraqi Government has taken some critical steps in 
recent months to confront criminal militias. Prime Minister Maliki made 
the decision in March to confront militia elements in Basra that were 
carrying out violent crimes and mafia-like activities. That operation 
is still ongoing, but Iraqi security forces have made impressive 
progress in improving security conditions in Basra's neighborhoods as 
well as in the strategic Port of Umm Qasr and in other areas in Basra 
Province.
    The government's success in Basra has also led to a greater degree 
of unity among Iraqi leaders regarding the issue of armed militias. 
Prime Minister Maliki has become vocal in his stance that the 
Government of Iraq must have a monopoly on the legitimate use of force 
(an issue on which a public statement of backing was issued by Grand 
Ayatollah Sistani), and the government and ISF have worked to enforce 
this point in Baghdad, particularly in Sadr City. In general, the 
government has been more willing to use its forces to confront militia 
elements, but it also realizes that the militia issue cannot be 
addressed with a purely military solution. In an effort to win popular 
support, Iraqi leaders have actively pursued humanitarian assistance 
efforts in areas affected by militia violence and have reached out to 
tribal and political leaders as well.
    There is obviously a long way to go in reducing militia violence, 
but there does seem to be positive momentum toward addressing these 
difficult issues and drawing dissident factions into the political 
process. If confirmed, I would continue to support the MNF-I 
Commander's efforts to partner with the Iraqi Government to combat 
these militias. In addition, I would seek to assist with regional 
engagement efforts to dissuade Iran and Syria from fostering violence 
and instability in Iraq and seek to encourage Iraq's Arab neighbors to 
play a more constructive role.
    Question. What has been the role of American troops with respect to 
operations in and around Sadr City and in Basra?
    Answer. U.S. support for the Sadr City and Basra operations has 
been generally in line with the support Coalition Forces regularly 
provide to Iraqi operations.
    In Basra, working in coordination with the U.K. contingent in 
Multi-National Division--Southeast, we continue to support Iraqi-led 
operations with planning, logistics, close air support, intelligence, 
and embedded transition teams. These efforts are typical of our role in 
provinces transitioned to Iraqi control, where Iraqi forces plan and 
execute operations and are supported by specific Coalition enablers.
    Because Baghdad is not yet transitioned to Provincial Iraqi 
Control, U.S. forces are playing a more robust role in planning and 
executing operations in the Baghdad Security Districts than they are in 
Basra. We are conducting extensive surveillance operations in Sadr City 
and partnering with Iraqi units on the ground. Using intelligence 
elements, ground forces, and air weapons teams, U.S. forces also 
conducted very targeted operations in response to attacks originating 
in Sadr City. As is typical in the ``partner'' phase of the lead-
partner-overwatch transition to ISF control, Coalition forces operate 
alongside and in coordination with Iraqi Army, special operations, and 
police units.
    Question. What is your assessment of the Iraqi Government and 
security forces' strategic and operational planning and preparation for 
the operation in Basra?
    Answer. Iraqi operations in Basra were launched more quickly than 
was originally planned and were hampered initially by incomplete 
planning and conditions-setting. As operations have continued, we have 
seen steady growth in ISF planning capability, and recent operations 
have been impressive.
    Once the hasty initial planning issues were resolved, Iraq security 
forces demonstrated impressive growth in operational capability, and it 
is notable that, on short notice, they were able to deploy over a 
division's worth of personnel and equipment to Basra from across the 
country and to quickly employ them upon arrival--a feat which certainly 
would not have been possible 1 year ago.
    Question. What is your assessment of Iraqi security forces' 
tactical performance during operations in Basra?
    Answer. As operations in Basra began, performance of the ISF was 
uneven, with some units performing quite well and others performing 
poorly. However, the Iraqi Government reacted aggressively to 
shortcomings identified in early operations and quickly removed 
underperforming leaders and troopers and flew in replacements. Many of 
the units--such as a brigade of the 14th Iraqi Army Division--that 
originally performed poorly have already been retrained and are back in 
the fight as operations in Basra continue, though progress with 
reconstituting police elements that performed inadequately has been 
slower.
    As I noted above, performance of the ISF has improved over the 
course of the ongoing operation in Basra. The ISF have, for several 
weeks now, been conducting orderly clear-hold-build operations 
incrementally through the city and outside the city with sound tactical 
planning and execution. They have, for example, captured weapons caches 
that total over 2800 mortar and artillery rounds, nearly 700 rockets, 
1,300 rocket propelled grenades, 21 surface-to-air missiles, and over 
500 mines, bombs, and improvised explosive devices.
    Question. In your view, did this operation accomplish the Iraqi 
Government's strategic and the Iraqi security forces' operational 
objectives?
    Answer. Operations in Basra City and Province are still ongoing; 
however, they do appear to have achieved the Iraqi Government's 
military objectives, strategically as well as operationally. The 
accomplishments to date have been impressive and have bolstered Prime 
Minister Maliki's standing with various political elements. The ISF 
have made significant progress in eliminating the militia's grip on 
Basra's neighborhoods, and they have cleared numerous huge caches 
throughout the city. The operation seems to be garnering support from 
Basrawi citizens and has already had positive effects on Iraqi 
political unity. Also, the ISF have successfully detained several 
militia leaders who returned to Basra after fleeing in the early days 
of the operation.

                       ACCOUNTING FOR ISF WEAPONS

    Question. A July 2007 Government Accountability Office (GAO) report 
found that the Multi-National Security Transition Command Iraq (MNSTC-
I) could not fully account for the receipt by the Iraqi security forces 
(ISF) of over 190,000 weapons provided by the United States. One of the 
report's findings is that the lapse in accounting for weapons provided 
by the United States to the ISF was due to the failure of MNSTC-I to 
maintain a central record of all equipment distributed from June 2004 
to December 2005, including during the period you commanded MNSTC-I.
    Have you reviewed the July 2007 GAO report on accounting for 
weapons provided by the United States to the ISF? If so, what is your 
assessment of the report's findings?
    Answer. Yes, I have reviewed the report. Taking into account the 
caveats listed in the GAO report (including the fact that the GAO 
review utilized an incomplete sample), I found the findings to be as 
accurate as they could have been. The security situation in Iraq in 
2004-2005 was very challenging, and the priority was to provide arms to 
ISF who were preparing to enter the fight. Indeed, Members of Congress, 
DOD, and the administration repeatedly emphasized the need to 
accelerate the arming and training of the ISF. On several occasions, we 
had to provide arms to the ISF in the middle of ongoing major combat 
operations (e.g., Fallujah, Najaf, and Mosul in the fall of 2004). Many 
of our challenges stemmed from an insufficient number of logistical 
personnel in the train and equip effort and in the newly formed Iraqi 
units, and also from the lack of a fully operational distribution 
networks and property accountability systems across Iraq. 
Accountability has since been achieved by MNSTC-I for a portion of the 
weapons assessed as unaccounted for in the GAO report, and the effort 
to achieve further accountability continues.
    Question. What has been done to address the accountability for 
weapons provided by the United States in the course of training and 
equipping the ISF? What additional steps, if any, are needed to improve 
accountability for these weapons?
    Answer. Accountability procedures have been significantly improved. 
We have worked to establish an unbroken chain of custody for the 
accountability and control of munitions under U.S. control from entry 
into Iraq to issuance to the ISF. We have increased the number of 
logistics and property accountability specialists in country (in MNSTC-
I, in particular) and increased security procedures throughout the 
chain of custody. We have also worked with the ISF to build their 
property accountability systems and structures. In July 2007, we 
partnered with the ISF to establish an M-16 Biometrics Program that 
links individual soldiers to the particular weapons they are issued. 
Prior to weapons issue, each soldier is required to provide biometric 
data in the form of a retinal scan, a voice scan, and fingerprints. In 
addition, soldiers' personnel and payroll data are verified before a 
weapon is issued. The final step in the process is to take a picture of 
each soldier holding his new weapon with the serial number visible. 
Similar biometric procedures have been implemented for Iraqi police 
badge and weapon issue, as well. The fidelity of data and level of 
detail captured in these accountability procedures are significant. 
Even as we continue these important initiatives, we must plan for 
future transitions by ensuring that the ISF can adequately provide 
security and accountability at key logistics hubs as they assume 
responsibility for these facilities.

                     SUSTAINMENT OF U.S. COMMITMENT

    Question. Based on your knowledge of the Army and its state of 
readiness, how long do you believe the Army can sustain U.S. troop 
levels in Iraq of approximately 140,000 troops at their current 
operational tempo?
    Answer. There is clearly a strain on the Active and Reserve 
components. Many soldiers have completed or are in the midst of second 
or third deployments. This is obviously difficult for them and their 
families. My own family is well acquainted with this challenge, as I 
have now been deployed for more than 4\1/2\ years since 2001. Reset of 
equipment also remains a challenge. Having said that, it is more 
appropriate for the Joint Staff and the Services to determine how long 
we can sustain given troop levels, though the Army Chief of Staff has 
said the Army can maintain a 15-Brigade Combat Team level in Iraq and 
Afghanistan--i.e., the post-surge level. As CENTCOM commander, it would 
be beyond my brief to determine the overall health of the Army and 
Marine Corps, though it would be something about which I would be very 
concerned and on which I would have dialogue with the Service Chiefs. 
These concerns are somewhat allayed by the ongoing effort to increase 
the end strength of the Army and Marine Corps and by the ongoing 
reduction of forces in Iraq. Clearly, the conflict in Iraq (and 
Afghanistan) has been hard on our ground forces, and I am grateful for 
Secretary Gates' efforts and Congress' support to ensure we have the 
forces we need for what are very frequently people-intensive 
operations.

                       COUNTERINSURGENCY DOCTRINE

    Question. According to Field Manual 3-24, the new counterinsurgency 
manual, ``20 [soldiers or police forces] per 1,000 residents is often 
considered the minimum troop density required for effective 
counterinsurgency operations.'' Baghdad alone, according to doctrine, 
requires a force of 120,000-130,000 personnel to meet the minimum 
requirement. However, the planned increase in U.S. and Iraqi forces for 
Baghdad only provided for about 80,000 security forces.
    Do you believe that 80,000 U.S. and Iraqi troops has been and 
remains sufficient and if so, why?
    Answer. First, the recommended force ratio is a ``rule of thumb'' 
distilled for simplicity's sake from numerous complex cases of 
counterinsurgency operations. These cases may differ significantly in 
terms of geography, urbanization, or enemy strength. As with many 
aspects of counterinsurgency, this is an art, not a science.
    Having said that, troop levels in Baghdad have been sufficient. 
Counterinsurgency doctrine clearly states that host nation police and 
army forces are a key part of the equation, as are special operating 
forces and other security elements. Added to those, the thousands of 
ministry security forces and similarly large numbers of civilian (often 
third party) contracted guard forces protecting key sites in Baghdad 
contribute to security in the capital city. In addition, nearly 30,000 
Sons of Iraq are currently contracted to help provide security in the 
Baghdad area. Taking into account these additional security forces in 
Baghdad, the force ratio is sufficient; significantly increased 
security in Baghdad over the last year bears out this analysis.
    Question. What is your understanding of the status and adequacy of 
the risk assessment and mitigation plan associated with this deviation 
from doctrine?
    Answer. Risk assessment and planning to mitigate risk occur on a 
continuous basis in Iraq. As operations in Iraq are considered and 
undertaken, commanders consider the risk to our own forces as well as 
Iraqi forces, as well as the risk of thinning our lines in areas that 
we currently hold.

                              AFGHANISTAN

    Question. What is your assessment of the security situation in 
Afghanistan and the nature, size, and scope of the anti-government 
insurgency?
    Answer. I have not had the opportunity to personally assess the 
security situation in Afghanistan since 2005. However, the Afghan 
Government and the Coalition clearly face a resilient enemy that seeks 
to force withdrawal of the international coalition, to overthrow the 
country's legitimate government, and to turn Afghanistan into a safe 
haven for terrorists once again.
    Question. The Chairman of the Joint Chiefs of Staff, Admiral 
Mullen, has repeatedly called our military operations in Afghanistan an 
``economy of force'' operation and said that there are requirements in 
Afghanistan that cannot be filled and likely won't be filled until 
conditions improve in Iraq.
    Do you agree with Admiral Mullen that requirements in Afghanistan 
are going unfilled?
    Answer. Yes.
    Question. Do you agree that these requirements are unlikely to be 
met until conditions improve in Iraq?
    Answer. There are several ways to meet the requirements in 
Afghanistan, including increasing NATO contributions and increasing the 
capability and capacity of the Afghan National Security Forces. But 
clearly a reduction of U.S. and coalition forces in Iraq will make 
available forces that could help meet the need in Afghanistan.
    Question. If confirmed as Commander, CENTCOM, how would you intend 
to balance the requirements of operations in Iraq and Afghanistan?
    Answer. In consultation with the Joint Chiefs and the Secretary of 
Defense, I would, if confirmed, work to ensure that CENTCOM's force 
posture remains consistent with national priorities, with force levels, 
and resources reflecting those priorities. It would be my 
responsibility to make clear the resources necessary to achieve the 
national policy goals and objectives; I would also intend to make clear 
how and to what extent shortfalls in resources produce risk to the 
force or mission objectives.
    Question. If additional troops and equipment are withdrawn from 
Iraq, do you believe that some of those resources should go to enhance 
military operations in Afghanistan?
    Answer. Yes; in fact, that has already been the case, with 
additional Marine forces being provided to Afghanistan some months 
after the Marine Expeditionary Unit was withdrawn from Iraq.
    Question. In your view, what additional military or other 
assistance is required to ensure the transition of Afghanistan to a 
stable, democratic, and economically viable nation?
    Answer. I would rely on the commanders on the ground in Afghanistan 
to determine their requirements; we would then analyze and determine 
how best to resource those requirements. Ultimately, resolution of 
Afghanistan's complex and diverse challenges will require more than 
just a military solution, though security activities provide an 
essential foundation for enduring economic and political solutions. 
Coalition forces in Afghanistan already work alongside civilians on 
issues such as counternarcotics, economic development, border 
enforcement, and training of the Afghan Police. More such whole-of-
government efforts are likely to be essential in the future.
    Question. What is your assessment of efforts to train and equip the 
Afghan National Army and the Afghan National Police? What changes, if 
any, would you recommend for this mission?
    Answer. I have not had the opportunity to assess our progress in 
training and equipping the Afghan National Security Forces since 2005. 
If confirmed, I will work with Major General Robert W. Cone and the 
Combined Security Transition Command-Afghanistan to evaluate our 
efforts in this critical area and to determine what changes to the 
mission, if any, are required.
    Question. What needs to be done to address concerns voiced by 
President Karzai and others regarding the number of civilian casualties 
in Afghanistan?
    Answer. The death of innocent civilians in wartime is a tragedy. 
The welfare of the civilian population is a critical concern, not only 
from a humanitarian perspective but also from a mission perspective. 
Indeed, counterinsurgency doctrine highlights the importance of 
protecting the population as part of the key effort to win over the 
people, convince them of the government's legitimacy, and provide for 
their welfare. Based on conversations with General McNeill, it is clear 
that Coalition forces in Afghanistan take this concern very seriously 
and employ all possible means to limit the effect of violence on the 
civilian population. Efforts to minimize civilian casualties clearly 
must continue to be given high priority in Afghanistan and our other 
operational areas.
    Question. Are there additional steps that need to be taken?
    Answer. I am not sufficiently familiar with the systems and 
procedures in place in Afghanistan to be able to recommend at this time 
specific steps to be taken. Our near-term responsibility includes 
protecting the civilian population from insurgents and terrorists and 
also limiting the adverse effects of our military operations on the 
civilian population. It is important to keep sight of the fact that 
minimizing civilian casualties can be a very difficult endeavor, as we 
face an enemy who deliberately places innocents in harm's way. But it 
is an endeavor we must emphasize.
    Question. Afghanistan is in CENTCOM's area of responsibility (AOR). 
U.S. European Command, however, oversees the NATO International 
Security Assistance Force (ISAF) in Afghanistan.
    In your view, does this ``seam'' present any problems for the 
coordination and effectiveness of the NATO ISAF and Operation Enduring 
Freedom missions in Afghanistan?
    Answer. All seams present challenges for commanders, and I am sure 
this seam presents coordination challenges in a variety of areas such 
as security operations, reconstruction, economic development, and 
counternarcotics efforts. If I am confirmed, one of my priorities would 
be to enhance coordination and cooperation between CENTCOM, EUCOM, and 
ISAF in order to ensure the greatest possible unity of effort on the 
ground in Afghanistan.

                     AL QAEDA AND ASSOCIATED GROUPS

    Question. Within the CENTCOM AOR, where do you consider the 
greatest terrorist threats from al Qaeda and associated groups to be 
located?
    Answer. The greatest threats from al Qaeda (AQ) in the CENTCOM AOR 
are in Iraq and the Federally Administered Tribal Areas (FATA) in 
Pakistan. The AQ threat in Iraq is important because Iraq is where AQ 
has chosen to achieve its fundamental objective of establishing an 
Islamic state in the heart of the Arab world. AQ in the FATA is a 
critical concern because AQ's senior leadership is located there, 
exerts malign influence against our operations in Afghanistan from 
there, and prepares for future global attacks from there. Another area 
of growing concern is the Levant, where AQ is attempting to increase 
its presence, particularly as Iraq and Saudi Arabia have proven 
increasingly inhospitable to AQ activities. There are additional such 
efforts in Yemen and the Horn of Africa.
    Question. Which of these threats do you believe constitute the 
highest priority for efforts to counter al Qaeda's influence and 
eliminate safe havens for al Qaeda and affiliated groups?
    Answer. Defeat of al Qaeda is a priority for the United States. 
Because AQ is a global, distributed terrorist network that is 
interlinked, we cannot attempt to address individual portions of the 
network and expect to have a major operational or strategic impact 
against it. This requires a comprehensive approach that is 
appropriately balanced and tailored to address specific threats. 
Clearly, however, the threats posed by the AQ leadership and elements 
in the FATA and by those in Iraq must rank at the top of the list.

                                PAKISTAN

    Question. What is your assessment of the current status of U.S.-
Pakistan military cooperation?
    Answer. My understanding is that military cooperation between the 
U.S. and Pakistan has been robust since September 11. This cooperation 
includes Foreign Military Sales, military-to-military assistance in 
training and advising, and border enforcement efforts. The new 
Pakistani Chief of Army Staff General Kayani (a U.S. Army CGSC 
graduate) has instituted several positive military reforms and sought 
constructive engagement with the U.S. military. These are all 
initiatives I would seek to support and further if I am confirmed.
    Question. Press reports indicate that incursions across the 
Afghanistan-Pakistan border have increased in recent weeks as the 
Government of Pakistan seeks to negotiate a peace agreement with 
militants in the border region.
    What is your assessment of the level of cooperation the United 
States has received from Pakistan in the war on terrorism?
    Answer. On the issue of terrorism, the U.S. and Pakistan have 
mutual concerns and goals. Recognizing the threat posed by terrorism, 
the Government of Pakistan strongly supported U.S. activities in the 
region following the attacks of September 11. Pakistan supported, and 
continues to support, our mission in Afghanistan by allowing the flow 
of logistical support through Pakistan into Afghanistan. The government 
has also in the past demonstrated a willingness to pursue wanted 
terrorists within its borders.
    Recent events in Pakistan seem to indicate a modification of the 
government's approach to combating terrorism. The newly elected 
government, seeking to address the ongoing problem of extremism and 
terrorism in its borderlands, recently negotiated with extremists in 
the FATA and subsequently began thinning out its forces in the region. 
This appears to be a change in methodology rather than in cooperation. 
The new Pakistani Government is trying to determine the best way to 
address the longstanding problem of control over its western areas and 
is trying to develop a political solution. While it is true that a 
purely military approach would likely not be successful, it is also 
unlikely that a purely political approach would have the desired 
effect--as demonstrated by what is generally assessed to be the failure 
of the negotiated `permanent peace' in Waziristan in 2006.
    Question. What more can be done to prevent cross border incursions 
by the Taliban and al Qaeda from Pakistan into Afghanistan?
    Answer. This is a complicated problem that likely requires a 
comprehensive solution. Aspects of that solution might include: 
strengthening the ANSF to assist Afghanistan in securing its borders; 
working with Pakistan to further increase coordination of border 
enforcement efforts; and strengthening the capacity of the Pakistani 
Army and the Frontier Corps--and willingness of the Pakistani 
Government--to control and disarm militants in the borderlands. Any 
long-term solution must also address the root causes of terrorism's 
growth in Pakistan and must include initiatives to increase economic 
and educational opportunity in the generally poor and isolated 
communities of the region.
    Question. In your view, should the Government of Pakistan be doing 
more to prevent these cross-border incursions?
    Answer. Certainly increased and more effective efforts by the 
Pakistani Government to control the border would be helpful to our 
interests and coalition activities in Afghanistan, and we are working 
with Islamabad to strengthen its capability to do so. The danger posed 
by extremists in the FATA, though, is not limited to the threat to our 
troops and interests in Afghanistan. FATA extremists also pose a 
serious threat to Pakistan itself. Beyond that, an even more serious 
and enduring problem is that AQ leadership will continue to use the 
safe haven provided by Pakistan's borderlands to plan and prepare 
global terrorist attacks. Our assistance to Pakistan's counterterrorism 
efforts must also address this important issue and, as mentioned above, 
be comprehensive.
    Question. What more can be done to eliminate safe havens for 
violent extremists in the FATAs and the North West Frontier Province?
    Answer. The U.S. Government needs to develop a comprehensive 
approach, in coordination with other countries, to support Government 
of Pakistan efforts to eliminate extremist sanctuaries in the FATA and 
Northwest Frontier Province. Based on our experiences in Iraq, it seems 
clear that resolution of the challenges emanating from these areas 
cannot be achieved by application of military force alone--though the 
security component is critical. Rather, resolution demands a strategy 
grounded in proven counterinsurgency practices that is adequately 
resourced, tailored to the Pakistani operating environment, and focused 
on producing an enduring political solution. At the end of the day, 
however, the challenges posed by the FATA can only be resolved by 
Pakistani initiatives, albeit with support from the U.S. and other 
partners.
    Question. What role do you believe U.S. forces should play?
    Answer. The role of U.S. military forces in the FATA will 
undoubtedly be a topic of discussion between the U.S. and Pakistan. 
Before speculating on what roles U.S. forces should play, I would want 
to discuss the situation with Pakistani and U.S. leaders. My 
understanding at this point is that Pakistani leaders understandably 
are reluctant to see non-Pakistani military elements employed in the 
FATA.
    Question. What is your assessment of the current situation with 
regard to Pakistani-Indian relations?
    Answer. Lingering tensions between Pakistan and India provide cause 
for concern. At various times since the establishment of Pakistan, open 
war, insurgency, and terrorism have marked their relations. The 
unresolved dispute over Kashmir, regional terrorism, the possibility of 
crisis escalation, and preparations by the armed forces on each side 
for major war have all fueled mistrust and suspicion. Naturally, the 
situation has often precluded Pakistani leaders from focusing more 
attention on the challenge in the FATA and the Northwest Frontier 
Province. Recently, however, we have seen some indications of improved 
political and economic relations between the two countries, as they 
have been cooperating on cross-border commerce and transportation, 
border control safeguards, and governmental procedures to ease cross-
border friction. In addition, shortages of a viable electrical energy 
supply in the region have led to several conferences and meetings among 
regional leaders to discuss solutions to a looming energy crisis.

                                  IRAN

    Question. What in your assessment are Iran's goals with respect to 
Iraq's stability and security?
    Answer. Based on Iranian interference in Iraq, it appears that Iran 
seeks a Shiite Iraqi Government that is not only friendly to Iran but 
is subject to the Iranian influence that derives not just from 
political, economic, and social ties, but also from the presence in 
Iraq of Iranian trained, funded, equipped, and directed militia forces. 
Iranian activities also seem aimed at producing just enough instability 
to keep the Government of Iraq weak. Ambassador Crocker has assessed 
that Iran has sought to ``Lebanonize'' Iraq, and there are many 
indicators that support that assessment.
    Question. What options are available to the United States and its 
allies for influencing Iran's activities towards Iraq?
    Answer. There are a number of diplomatic, economic, and military 
options available to the U.S. and its allies. On the diplomatic front, 
we will continue to expose the extent of Iran's malign activities in 
Iraq in order to build regional and international consensus against 
Iran's actions. We also seek to fully inform Iraqis of the nature and 
extent of the Iranian threat to Iraqi national interests, as official 
Iraqi condemnation of malign Iranian activities in Iraq sends a 
powerful signal to Tehran and encourages normal statecraft and 
relations between the two countries. In addition, we will continue to 
encourage a substantive show of support for Iraq by regional states, 
which would be an important counterbalance to Iranian influence in 
Iraq. This support could include further debt relief for Iraq and the 
reestablishment of normal diplomatic relations through an exchange of 
ambassadors with Baghdad. On the economic front, we could seek 
international support for sanctions, to include travel restrictions, 
against the Iranian regime for the malign activities of the Quds Force 
and Iranian intelligence services. On the military front, we will 
continue to target and expose Iranian malign actors and extremist 
surrogates operating in Iraq and taking actions--often lethal--against 
Iraqi and Coalition interests.
    Question. What in your view are Iran's goals in the region?
    Answer. Iran seeks to guarantee the survival of its regime and, it 
appears, to establish a degree of Iranian hegemony over the northern 
Gulf and also Iranian influence in various states in the region through 
the use of surrogate militias. The presence of U.S. and Coalition 
forces in the Gulf, Iraq, and Afghanistan provides a significant 
counter to Iranian aspirations. To pursue its strategic objectives, 
Iran is enhancing its ability to project its military power, primarily 
with ballistic missiles and naval power, with the goal of intimidating 
the Gulf states and deterring any potential attack on the Iranian 
regime. In addition to employment of such conventional means, Iran also 
appears to want to exert its influence throughout the broader region by 
pursuing a nuclear capability and by supporting terrorist proxies and 
surrogates in the Palestinian territories, southern Lebanon, Iraq, and 
western Afghanistan.
    Question. What options do you believe are available to the United 
States to counter Iran's growing influence in the region?
    Answer. Our efforts in regard to Iran must involve generating 
international cooperation and building regional consensus to counter 
malign Iranian influence and destabilizing activities, while also 
striving to promote more constructive engagement, if that is possible. 
We have strong alliances and partnerships in the Gulf and throughout 
the broader region upon which we can build a common cause that may help 
dissuade Iran from its subversive activities and encourage legitimate 
statecraft and economic interchange. At the same time, we should 
continue to work with the international community to demonstrate to 
Iran that there are consequences for its illegitimate influence in the 
region, especially for the destabilizing actions of the Quds Force and 
Iranian intelligence services.
    In addressing these issues, we should make every effort to engage 
by use of the whole of government, developing further leverage rather 
than simply targeting discrete threats. As noted earlier, one 
particular lever may be the ongoing international diplomatic and 
economic pressure on Iran to end its nuclear program; such pressure 
seems to be affecting the Iranian energy market and may convince Tehran 
to focus on longer-term, less malign interests. A destabilized Iraq, 
rampant terrorism in the region, and a nuclear armed Middle East are 
not in any nation's long-term interest, including Iran's. Along these 
lines, the international community can reach out to help moderate, 
pragmatic elements that might influence the internal Iranian debate 
over Iran's foreign policy and long-term security interests. At the 
same time, we should retain, as a last resort, the possibility of a 
range of military actions to counter Iran's activities. As Admiral 
Mullen has noted, our approach should consist of ``using all elements 
of national power, whether it's economic or financial, international, 
diplomatic, and not taking any military options off the table.''
    Question. Could a protracted deployment of U.S. troops in Iraq 
strengthen Iran's influence in the region?
    Answer. On the contrary, one impact of the U.S. effort in Iraq has 
been to bring into focus Iran's destabilizing regional impact. The 
presence of U.S. troops in Iraq and elsewhere in the region has the 
potential to counter malign Iranian influence against the Government of 
Iraq, build common cause in the region, and expose the extent of malign 
Iranian activities to the world.
    Question. Iran is clearly going to remain a significant factor in 
the CENTCOM AOR. One of the critical objectives for the U.S. in this 
region is to determine how to achieve a more manageable and stable 
situation with respect to Iran for the future.
    How do you believe we could best encourage or achieve a more 
manageable relationship with Iran in the future?
    Answer. The consensus-building, comprehensive approaches described 
above (two questions previous) are constructive ways to improve 
relations with Iran. Such approaches would seek to create leverage and 
make possible constructive engagement in the region.

                       FORMER SOVIET UNION STATES

    Question. Several former Soviet states have played roles in 
supporting the U.S. and coalition forces in the global war on 
terrorism.
    What is your assessment of current U.S. military relationships with 
these nations, including Uzbekistan, Tajikistan, and Kyrgyzstan?
    Answer. The military relationship with most of our Central Asian 
counterparts is good and improving. Soon after the September 11 
attacks, Uzbekistan offered basing access and overflight rights to the 
U.S. for operations in Afghanistan. While this particular access ended 
late in 2005 after the Andijon events, recently there have been modest 
signs of improvement in the relationship. Since the U.S. left Kharshi-
Khanabad Airbase in Uzbekistan, Manas Airbase in Kyrgyzstan has become 
more important as the remaining northern Central Asia base. The Kyrgyz 
have been willing to expand and solidify that relationship, and 
improvements to the infrastructure and capabilities of Manas Airbase 
continue. Kazakhstan has aggressively pursued strengthening of the 
bilateral relationship with the U.S., recently signing a 5-year plan of 
military cooperation with the U.S. Turkmenistan's new President 
Berdimukhammedov continues to allow U.S. humanitarian overflights and 
refueling operations. Recent gestures toward improving the 
international investment climate suggest positive development toward 
possible future bilateral military relationships with Turkmenistan. 
Tajikistan remains a solid partner, steadfast in its support for 
coalition operations and willing to expand the relationship.
    Question. What security challenges do you see in this portion of 
the CENTCOM AOR?
    Answer. Central Asian States share our concerns about religious 
extremism and consider it a threat to regional stability. We are 
working with partners in the region to improve the collective ability 
to interdict the movement of WMD, their delivery systems, and related 
materials, and also to exercise control of national borders to counter 
terrorism and illegal trafficking.
    The Central Asia region is relatively stable; however, potential 
migration of militants from Afghanistan and Pakistan presents a latent 
threat. Political and economic challenges in some areas provide a 
potential atmosphere for extremism exploitable by foreign and domestic 
extremist organizations. Also, the region has become a transit route 
for human and drug trafficking and is becoming vulnerable to the 
domestic consumption of narcotics. Contentious borders fuel tension 
between Uzbekistan and Tajikistan in the Fergana Valley. The Caspian 
Sea littoral dispute and resultant access to energy fields and 
fisheries remains unresolved. Finally, water management, which is 
linked to hydro-electric power, is an ongoing area of contention, as a 
diminishing Aral Sea, pollution, and irrigation programs threaten 
shared river resources.

                             IRAQI REFUGEES

    Question. The United Nations estimates that over two million Iraqis 
have been displaced; 1.8 million have fled to surrounding countries, 
while some 500,000 have vacated their homes for safer areas within 
Iraq.
    What is your assessment of the refugee problems in Iraq? Are more 
Iraqis returning home?
    Answer. Refugee and displacement issues remain a serious concern. 
There are, however, indicators that the situation has begun to improve. 
According to U.S. Agency for International Development reporting, the 
rate of displacement of Iraqi citizens has been slowing considerably 
for at least the last 4 months, and some Iraqis (in significant numbers 
in some areas) are returning to their homes. These returns are 
motivated by a variety of factors, including: improved security in 
places of origin, deteriorating conditions in places of displacement, 
increased restrictions in neighboring countries, and tribal 
reconciliation. It is encouraging that the Iraqi Government has begun 
to give more attention to the problem of Iraqi refugees through the 
drafting of a national policy on internally displaced persons (IDPs) 
and a Basic Law for the Ministry of Displacement and Migration.
    Question. What should be the role of the U.S. military in your 
view, with respect to those Iraqis who are returning to find their 
homes occupied by others?
    Answer. The U.S. military can assist with key leader engagement on 
this issue and help partner with Iraqis to assist in their development 
of the governmental capacity needed to handle refugee and IDP returns.
    Question. Beyond working to improve the security environment in 
Iraq, do you believe that the U.S. military should play a role in 
addressing this issue?
    Answer. While protecting the population and assisting Iraq security 
forces should be the military's primary roles, the military can also 
play a role in addressing other concerns associated with IDPs and 
refugee return. Key tasks the military can perform that may help to 
address this issue include coordinating or executing humanitarian 
assistance when asked to do so by the Iraqi Government (at local as 
well as national levels) and partnering with provincial reconstruction 
teams to monitor and track the status of displaced persons and related 
issues.
    Question. Recent months have seen an increase in kidnappings and 
murders of non-Muslim religious leaders.
    In your opinion, are non-Muslim religious minorities in Iraq at 
significant risk of being the victims of violence as a result of their 
religious status? Are there any of these groups that are particularly 
vulnerable?
    Answer. There are a number of ethno-sectarian fault lines 
throughout Iraq, including in Baghdad and some other areas of mixed 
population. In some of these areas, groups within the population may be 
local minorities. When tensions are high, these groups (Muslim or non-
Muslim) may be at greater risk. In addition, there are a number of 
smaller minority communities of Christians, Turkmen, Yezedis, etc., 
throughout Iraq that either are--or perceive themselves to be--in 
environments in which power and resources are controlled along 
sectarian lines and where their security is threatened. Attacks on a 
number of these communities bear out the threats. It is encouraging, 
however, that the government has devoted greater attention to security 
in such areas. For example, the murderer of the Chaldean Archbishop 
Rahho was detained by Iraqi and Coalition forces on 5 March and 
sentenced to death in an Iraqi trial on 18 May.
    Question. If so, what is the appropriate role for the U.S. military 
in addressing their vulnerability?
    Answer. MNF-I partners with Iraqi Government and security force 
officials, ensuring constant communication and close cooperation on 
security concerns. This same cooperative approach is important in 
dealing with all population security concerns.

                             HORN OF AFRICA

    Question. One of CENTCOM's significant subregions is the Horn of 
Africa. Until a new U.S. African Command is stood up later this year, 
CENTCOM will continue to be responsible for this region, which will 
likely experience continued instability and humanitarian crises as 
demonstrated by recent events in Somalia.
    What is the strategic importance of this region to the United 
States?
    Answer. U.S. interests in the Horn of Africa include: denying 
terrorists a sanctuary in which to train, plan, and prepare for 
attacks; maintaining unimpeded commerce and freedom of the seas as part 
of a viable global economy; and alleviating humanitarian crises and 
suffering.
    In addition to terrorist activity and simmering humanitarian crises 
in Somalia and Sudan, there are several challenges to our interests in 
the region. These include lack of economic development, poorly governed 
and ungoverned areas, ethnic tensions, and vulnerable strategic 
maritime choke points.
    Question. Over the last few weeks, the U.S. military has had a very 
public presence in Somalia.
    What is your assessment of the situation in Somalia?
    Answer. Somalia continues to be a weak and fragile state fraught 
with violence. Political and security conditions remain precarious as 
Islamic militants, clan militias, and al Qaeda-associated factions 
conduct insurgent activities against Transitional Federal Government 
(TFG) forces and the Ethiopian and African Union contingents supporting 
them. The TFG has made little headway in establishing effective 
ministries and, barring unforeseen circumstances, is unlikely to 
transition power to a permanent government in the near future. In 
addition, U.N.-led reconciliation talks are not expected to lower the 
level of violence in Somalia.
    Question. What is your understanding of the U.S. Government's 
policy for Somalia and how U.S. military action there supports that 
policy?
    Answer. Current U.S. policy is to support the internationally 
recognized Transitional Federal Government and its efforts to establish 
capable ministries and move toward democratic elections. Militarily, 
our strategy is to contain threats that may emanate from Somalia. As I 
understand the current national policy, Combined Joint Task Force-Horn 
of Africa engagement within Somalia is not permitted. Presumably, the 
U.S. retains the right to strike terrorists wherever they operate and 
deny them sanctuary.
    Question. In your view, where does a stable Somalia fall in our 
national security priorities and how does the limited availability of 
ground forces due to competing requirements affect our strategy?
    Answer. A stable Somalia would be in the interest of the U.S. and 
its regional allies. Our current strategy in the Horn of Africa is not 
limited by the availability of ground forces. We have adopted a low-
profile approach focused on working with partners in the region to 
build their capacity to deal with ungoverned spaces, even as we conduct 
precision operations against terrorist groups in the region.

                          U.S. AFRICA COMMAND

    Question. Over the last year or so, the U.S. Government has 
mobilized more of its resources to focus on the strategic importance of 
Africa. DOD has played an important role through two combatant 
commands--EUCOM via the Trans Sahara Counter Terrorism Program and 
CENTCOM via the creation of the Combined Joint Task Force-Horn of 
Africa.
    What impact will the transfer of responsibility for operations in 
the Horn of Africa have on the conduct of anti-terrorism and other 
operations in that region?
    Answer. It is my understanding that CENTCOM has been working 
closely with AFRICOM, as well as with the Joint Staff, to ensure that 
the transfer of responsibility for the Horn of Africa is as seamless as 
possible and causes minimal impact on operations.
    Question. If confirmed, what would you do to ensure a smooth 
transition and to manage the seams between CENTCOM and the new African 
Command?
    Answer. Extensive coordination for this transition is currently 
underway. Staffs are currently working several issues, including 
responsibility for maritime security off the coast of Africa, 
coordination for activities in Egypt and in Yemen, and provision of 
uninterrupted intelligence collection and command and control during 
the transition. AFRICOM and CENTCOM will continue to work together 
closely following official transfer. As AFRICOM builds capacity, 
CENTCOM and its components will continue to support AFRICOM and its 
requirements as necessary.

                                 SYRIA

    Question. In recent weeks, the United States and Israel have 
publicly disclosed information relating to the September 6, 2007, 
bombing in northern Syria, and asserted North Korean and Syrian 
cooperation on nuclear technology. Recent weeks have also seen 
reporting on ongoing negotiations between Israel and Syria on a peace 
agreement, similar to those Israel has signed with Egypt and Jordan.
    In your assessment, what should be our military posture vis-a-vis 
Syria?
    Answer. Our military posture should be an integrated part of a 
comprehensive strategy. If confirmed, I anticipate that we will conduct 
a strategy review at CENTCOM, and the posture of our forces will 
obviously be an important element of that review.
    Question. What is your assessment of the threat posed by Syria to 
U.S. national security interests in the Middle East?
    Answer. Syria has tended to take positive steps when it suits 
Syrian interests. Syrian activities have generally had a destabilizing 
effect on security in the region, particularly its continued hosting of 
groups committed to armed opposition to the legitimate governments of 
several of its neighbors. As the Syrian regime seeks to maintain its 
hold on power, it also aims to counter U.S. influence in Lebanon, limit 
U.S. support of Israel, and increase its influence in the region. 
Syria's damaging activities include the failure to adequately address 
foreign fighter flow through Syria into Iraq, the sponsorship of 
terrorist activities in Lebanon and Israel, and the potential pursuit 
of a clandestine nuclear program.
    Question. Are there actions the United States could take to 
encourage a Syrian-Israeli peace agreement? If so, what are they?
    Answer. The United States has taken recent steps to encourage a 
Syrian-Israeli peace agreement, including hosting the Annapolis 
Conference in late 2007. U.S. leaders have also made recent diplomatic 
visits to key Arab states to encourage forward movement in the peace 
process. Unfortunately, Syria's method has been to create leverage in 
pursuit of its aims by taking actions that destabilize some of its 
neighbors, including Lebanon and Iraq. Defeating the extremist groups 
that Syria supports would help create better conditions for the peace 
process to move forward, as would countering the Syrian regime's anti-
U.S. propaganda in the region.

                                 ISRAEL

    Question. While Israel is not part of the CENTCOM AOR, it does play 
an important role in the AOR.
    In your assessment, what are the most significant threats facing 
Israel in the Middle East?
    Answer. The most significant threats currently facing Israel are a 
combination of Iranian, Syrian, Lebanese Hezbollah, and Palestinian 
rejectionists and the proliferation of weapons, technology, and tactics 
among those elements. Over the past several years, military and 
political cooperation between Iran and Syria has strengthened. Iran, 
and to a lesser degree Syria, continue to provide increasingly 
sophisticated weaponry, equipment, and training to Lebanese Hezbollah, 
which has likely reconstituted and expanded its weapons stockpiles and 
capabilities since its summer 2006 conflict with Israel. Additionally, 
Iran provides training to Palestinian rejectionist groups such as Hamas 
and Palestinian Islamic Jihad (PIJ). Damascus continues to harbor the 
leadership of Hamas, PIJ, and other affiliated organizations.
    Question. The Iraq Study Group report suggested the most 
significant hurdle to broader peace in the Middle East was a final 
status agreement between the Israeli and Palestinian governments.
    Do you agree with this conclusion of the Iraq Study Group? If not, 
why not?
    Answer. A just and fair agreement that offers peace and security to 
the Palestinians and Israel would certainly aid the achievement of 
broader peace in the Middle East and negate the perception of inequity 
in the Arab world. However, the effort to secure broader peace in the 
region also must address the challenge of interstate conflicts and 
extremist movements that are not directly connected to the Israeli-
Palestinian conflict.

                                 EGYPT

    Question. Egypt has been criticized for its perceived failure to 
act along the Egypt-Gaza border to counter the smuggling threat posed 
by cross-border tunnels. Egypt has also played an important role, 
however, in ensuring peace on the southern border of Israel.
    What is your assessment of the role Egypt plays with respect to 
regional stability?
    Answer. Egypt is a key leader in regional stability. Their decision 
3 decades ago to break from the Arab bloc that opposed Israel's 
existence and sign a peace treaty was courageous but unpopular, and it 
cost them politically and financially for years. Despite being 
initially ostracized, Egypt stood firm on its peace agreement with 
Israel and continues to lead the way in seeking regional stability. 
Egypt is one of the major contributors of peacekeepers to the United 
Nations African Mission in Darfur and on numerous occasions has 
provided humanitarian and military assistance to neighboring countries 
during times of crisis. Egyptian leaders have been and continue to be 
key mediators between Hamas, the Palestinian Authority, and Israel, and 
they provide valuable leadership within the Arab League.
    Question. What is your assessment of the U.S.-Egyptian military 
relationship?
    Answer. The U.S.-Egyptian military relationship is very strong. 
Egyptian forces have long participated in regional combined military 
exercises, and Egypt is a coalition member of Operation Enduring 
Freedom (Afghanistan). Since July 2003, it has supplied a field 
hospital in Bagram, which has treated thousands of patients and 
provided training to dozens of Afghan doctors. They have also provided 
tons of humanitarian supplies, ammunition, and weapons to the Afghan 
National Army. Although Egypt does not directly participate in 
Operation Iraqi Freedom, it has supported U.S. operations by granting 
overflight rights and expediting Suez Canal transits. It has also 
provided training for Iraqi security personnel in Egypt. Additionally, 
Egypt receives Foreign Military Financing, totaling $1.3 billion 
annually; this military assistance has helped Egypt modernize its armed 
forces and strengthen regional security and stability.

                                LEBANON

    Question. The United States has played an active role vis-a-vis 
Lebanon over the last few years, particularly following the war between 
Israel and Hezbollah. More recently, a U.S. aircraft carrier was 
ordered to maintain a position off the coast of Lebanon.
    What are the U.S. national security interests in Lebanon?
    Answer. U.S. interests lie in a strong, sovereign, and democratic 
Lebanese Government that has a monopoly on the legitimate use of force 
inside Lebanon's borders. Such a government would increase stability 
along its borders and therefore improve regional stability. We also 
have an interest in supporting the Lebanese Government's efforts to 
reduce extremist activity, counter malign influence by external actors, 
and reduce the flow of foreign fighters in the region.
    Question. Given Lebanon's strategic geographic position in the 
Middle East, in your opinion, what is the appropriate role for CENTCOM 
in Lebanon?
    Answer. As with so many of the region's challenges, the situation 
in Lebanon is best approached comprehensively, through regional 
partnership and varied methods. Political and diplomatic methods are 
already being pursued at the U.S. national level to isolate Syria 
diplomatically and economically for its actions in Lebanon; Congress 
passed multiple laws toward this end, and national leaders continue to 
support U.N. Security Council Resolutions and other international 
efforts to influence Syria's actions. The U.S. has provided military 
training and assistance to the Lebanese Armed Forces (LAF) in an effort 
to bolster the government's ability to control violence inside its 
borders; the LAF is a potential unifying force in the country, given 
the broad support it enjoys from the population and its multi-ethnic, 
cross-sectional makeup. Though the relative inaction of the LAF during 
Lebanon's recent spike in violence raises concerns, these military 
assistance efforts will likely remain an important part of a 
comprehensive strategy. The struggle in Lebanon is essentially a 
competition for power and resources, and progress may lie in political 
incorporation of disenfranchised elements of the population. If 
confirmed, I would seek opportunities for CENTCOM to support all of 
these efforts.

                              SAUDI ARABIA

    Question. In your assessment what threat does a more regionally 
assertive Iran, including the possibility of a nuclear-armed Iran, pose 
to Saudi Arabia, and what do you believe to be Saudi Arabia's options 
should Iran gain a nuclear weapon?
    Answer. The interests of Saudi Arabia are certainly threatened by 
Iranian activities. There is a long history of animosity between these 
two states; since 1979, Iran has consistently attacked the legitimacy 
of the Saudi Government's custodianship of the Two Holy Mosques. 
Although the Kingdom maintains diplomatic relations with Iran, a 
variety of events and activities have convinced the Saudis to be wary 
of Iran's intentions, including: Iran's military expansion, its nuclear 
program, and its destabilizing activities throughout the region. Saudi 
Arabia has expressed an interest in acquiring a peaceful nuclear power 
program, and there is inevitably the possibility that Saudi Arabia, 
like other countries in the region, could reevaluate its non-nuclear 
weapons policy in response to Iran's efforts to acquire a nuclear 
capability.
    Question. What is your assessment of the U.S.-Saudi military-to-
military relationship? What are the pluses and minuses of this 
relationship?
    Answer. The U.S. enjoys a strong military-to-military relationship 
with Saudi Arabia. Cooperation has led to greater interoperability, and 
a training exchange program results in officers and senior NCOs who 
have been exposed to U.S. military values, are well trained, and are 
well-versed in the rule of law. The Kingdom gains increased internal 
and external security capability through U.S. training, equipment, and 
information sharing. Finally, U.S. industry and military departments 
benefit from a robust Foreign Military Sales Program. We understand 
that there are constraints on this relationship due to regional 
sensitivities, and we will continue to work through them.

                            ETHIOPIA/ERITREA

    Question. Eritrean President Isaias Afewerki recently forced the 
United Nations Mission to Ethiopia and Eritrea out of Eritrea by 
cutting off all supplies to the mission. In response to the departure 
of this mission, both Eritrea and Ethiopia have repositioned their 
respective militaries in a manner that would seem to indicate that 
these two countries may reengage one another in military conflict.
    In your assessment, what threat does a war between Eritrea and 
Ethiopia pose to the security of the broader Horn of Africa region?
    Answer. A war between Ethiopia and Eritrea would likely have a 
destabilizing effect in the region. If these two nations were to return 
to war, Ethiopia would divert leadership focus and key assets away from 
their forces in Somalia. This action could further undermine Somalia's 
Transitional Federal Government, which is heavily dependent upon 
Ethiopian military support. Ethiopia would also likely pull out of its 
pending commitment to provide peacekeeping troops to the Sudan AU/U.N. 
Mission in Darfur. Djibouti could also be affected by a return to 
hostilities in the form of refugees, mostly from Eritrea, who could 
present local security and humanitarian concerns.

                           MARITIME SECURITY

    Question. In the past 2 years, there have been a growing number of 
pirate attacks off the coast of Somalia--some ending in death and 
others ending in the payment of ransom. The shipping lanes off the 
coast of Somalia are some of the most economically and strategically 
important in the world.
    In your opinion, what is the most appropriate maritime strategy in 
this region of the world, given the threats of weapons trafficking, 
human trafficking, and piracy?
    Answer. Piracy off the coast of Africa is a critical issue in the 
region, in particular because extremist groups often directly 
participate in and financially benefit from these activities. As with 
most strategies for this region, the strategy to counter piracy must be 
comprehensive. This includes the legal efforts already underway to pass 
a U.N. Security Council Resolution to allow international vessels to 
counter pirates operating within Somalia's territorial waters and to 
adjust international maritime standards to prevent the registration of 
``phantom ships.'' This strategy may also include economic development 
assistance in nations like Somalia to reduce the draw of illegal 
activities. Of course, it involves military maritime cooperation with 
countries of the region.

                     IRAQI STATE-OWNED ENTERPRISES

    Question. What is your understanding and assessment of the status 
of DOD efforts to help restart Iraqi state-owned enterprises to 
increase employment in Iraq?
    Answer. Prior to 1991, Iraq was the most industrialized of the Arab 
States, with a significant base of industrial operations across a wide 
range of sectors and a highly skilled civilian workforce. From 1991-
2003, industry in Iraq was strictly focused on internal production to 
meet domestic demand as United Nations sanctions prevented export of 
goods or international economic engagement. Many of these factories 
shut down immediately after liberation. Coalition efforts to help Iraq 
revitalize its State-Owned Enterprises (SOEs) are led by the OSD Task 
Force to Improve Business and Stability Operations in Iraq (TF BSO). TF 
BSO has assisted Iraqi leaders in restoring operations and/or 
materially increasing production at 56 factories across Iraq. Funded 
projects, specifically targeted to restart or increase production, 
range from procurement of raw materials and spare parts to replacement 
of damaged or obsolete production equipment. Initiatives to revitalize 
SOEs have resulted in the re-employment of over 100,000 idled or 
underemployed workers.
    In coordination with Iraqi leaders, TF BSO continues its efforts to 
restart production at Iraqi factories, with specific focus on 
agriculture and food processing operations and factories in Southern 
Iraq that had been inaccessible prior to recent military operations. To 
ensure sustainable results, TF BSO is assisting with the application of 
standard business investment management practices to the process of 
allocating new funds to idled or low-production-rate factories. 
Coalition personnel also instruct factory managers in business plan 
preparation, marketing strategies, and capital investment plans.
    The Iraqi Government announced in January the first private 
investment awards to international consortiums--for three cement 
factories. Two of these deals, which average over $100 million each, 
were finalized in April, and another is still in negotiation. Under the 
private joint venture arrangement, investors will manage the facility 
and increase current production levels six-fold, thus creating 
employment for 5,000 Iraqi workers. These deals represent a modern, 
profitable business model for investors and for Iraq. In combination 
with other initiatives focused on private sector development, banking, 
budget execution, and facilitation of foreign direct investment, these 
are small but positive steps toward market economy development in Iraq.
    The jobs created by the revitalization of SOEs are an important 
support to Coalition and Iraqi efforts to reduce underemployment; this 
has a direct impact on security in that it decreases the pool of 
economically-driven potential recruits for insurgent and extremist 
elements in Iraq. Revitalization efforts are also an important first 
step toward future privatization of Iraqi industries.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006 memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. The standards outlined in Common Article 3 should be 
the standard for U.S. and Coalition forces to adhere to in regard to 
the handling of detainees at all levels. In fact, as commander of the 
101st Airborne Division, I directed that detainees would be handled in 
accordance with the Geneva Convention, as those were the standards our 
soldiers understood at the time. Since then, FM 2-22.3 has been 
published and we adhere to its standards.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes. I believe having one interrogation standard outlined 
in one document adds clarity. The FM clearly articulates what is and 
what is not authorized and effectively identifies methods to ensure 
accountability.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen or marines are 
treated, should they be captured in future conflicts?
    Answer. Yes.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes. We can conduct effective interrogation and detention 
in wartime in a counterinsurgency environment and comply with the 
requirements outlined in Common Article 3. In fact, in drafting the 
current Army/Marine counterinsurgency manual, we ensured human rights 
organizations participated in discussions and provided input on this 
issue.
    Question. If confirmed, how would you ensure that U.S. forces in 
the CENTCOM AOR comply with the standards in the Army Field Manual, the 
DOD Directive, and applicable requirements of U.S. and international 
law regarding detention and interrogation operations?
    Answer. If confirmed, I would place my personal and command 
emphasis on ensuring that forces in the CENTCOM AOR fully comply with 
the letter and spirit of these important standards.

                      IMPROVISED EXPLOSIVE DEVICES

    Question. Improvised Explosive Devices (IEDs) have proved to be an 
extremely deadly threat to U.S. troops in Iraq.
    In your assessment, what threat do IEDs pose to the broader CENTCOM 
AOR, and what is the most effective way to prevent the spread of these 
deadly devices?
    Answer. Over the past few years, we have witnessed the spread of 
IED technology throughout the CENTCOM AOR. Though not as prolific as in 
Iraq and Afghanistan, the IED has become the low cost, weapon of choice 
of militants and extremist groups in many countries. The most 
disturbing trend has been the material support and training in the 
employment of advanced IEDs, known as Explosively Formed Penetrators 
(EFPs), provided by Iran. We can expect militant groups to continue to 
use this technology to advance their goals and to intimidate government 
forces and local populaces.
    Countering this threat requires comprehensive action to defeat the 
networks that produce and employ IEDs, technology and training to 
detect and render IEDs ineffective, and advanced armor systems to 
protect our troops.

                        UNMANNED AERIAL VEHICLES

    Question. CENTCOM has articulated an increasing requirement for 
additional aircraft with imaging and signals intelligence capabilities. 
Although recently the Air Force has ``surged'' a large number of 
Predator unmanned aerial vehicles (UAVs) to CENTCOM, this surge and 
other activities will not close the gap between available and required 
resources. The main problem appears to be that there are bottlenecks in 
fielding more UAVs in the near future, coupled with a reluctance to 
seek alternative aircraft to the UAV programs-of-record.
    Do you believe that small manned aircraft acquired immediately from 
the commercial sector could provide a practical near-term solution to 
CENTCOM's intelligence platform shortage?
    Answer. Intelligence, surveillance, and reconnaissance (ISR) 
platforms are essential to our operations. Persistent surveillance is 
required to identify, track, target, and kill or capture insurgents and 
minimize civilian casualties.
    Small manned aircraft acquired from the commercial sector are, in 
fact, being employed to help fill the ISR platform shortage, and we 
will continue to take advantage of such options where they make sense. 
They are not, however, the complete answer to our ISR shortfalls. 
Comprehensive solutions are required, and these must take into account 
the platform's support infrastructure; sensor capabilities; 
communications bandwidth; and processing, exploitation, and 
dissemination architectures.
    Question. Are you satisfied that this potential solution has been 
adequately considered?
    Answer. On 18 April, Secretary Gates created an Operational ISR 
Task Force to tackle the challenge of delivering more ISR to the 
CENTCOM Theaters of Operations. Secretary Gates has been a staunch 
supporter of our ISR requirements, and I am pleased he has taken this 
step to help meet our ISR needs.

                     SPECIAL IMMIGRANT VISA PROGRAM

    Question. Section 1059 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2006 and section 1241 of the NDAA for Fiscal 
Year 2008 authorized a special immigrant visa program for Iraqi 
translators and interpreters. This program has enabled the Department 
to aid those Iraqis who have assisted the United States in Iraq.
    What is your view of the utility of this program?
    Answer. While there is a clear need for the Special Immigration 
Visa Program, we have encountered obstacles in utilizing the program. 
Our understanding is that the quota under Section 1059 of the National 
Defense Authorization Act (NDAA) is nearly filled for fiscal year 2008 
and USCIS has stopped scheduling Visa interviews. Furthermore, while 
Section 1241 of the NDAA for Fiscal Year 2008 broadened the scope to 
other Iraqis who are U.S. Government employees or contractors, there is 
not yet implementing guidance, and USCIS is not currently accepting 
applications. In order to overcome these challenges, we would benefit 
from Congress affirming the technical instructions agreed upon by the 
Department of State and Department of Homeland Security so that USCIS 
can begin accepting applications.
    Question. Is it beneficial for the military to have the ability to 
recommend certain Iraqis who have worked with us for special immigrant 
visas?
    Answer. Yes, our Iraqi interpreters provide valuable support to 
coalition operations on a daily basis and often at great risk to 
themselves and their families. Many interpreters have to relocate their 
families due to harassment, threats, and even the possibility of death 
at the hands of extremists because they provide help to the U.S. and 
our coalition partners. For those trusted interpreters who are 
eligible, the special immigrant visa is a useful tool to reward these 
courageous individuals who risk so much to assist Coalition efforts.

            REGIONAL BALLISTIC MISSILE THREATS AND RESPONSE

    Question. Iran has hundreds of short- and medium-range ballistic 
missiles today that are capable of reaching forward-deployed U.S. 
forces, allies, and other friendly nations in the CENTCOM AOR. Syria 
also has an inventory of ballistic missiles that pose a threat to the 
region. A joint capabilities mix study conducted by the Joint Staff for 
U.S. Strategic Command concluded that the U.S. military needs about 
twice the number of Standard Missile-3 (SM-3) and Terminal High 
Altitude Area Defense (THAAD) interceptors as are currently planned to 
provide even the minimum capability needed by our regional combatant 
commanders to defend against such existing threats.
    Do you agree with the conclusion of the joint capabilities mix 
study that we need to acquire more of these near-term systems to 
provide our regional combatant commanders with the capability to defend 
our forward-deployed forces and allies against existing missile 
threats?
    Answer. Yes. These systems are important to counter both the 
existing threat and that of 2015, upon which the joint capabilities mix 
study was based.
    Question. Do you agree there is a high priority need in CENTCOM for 
additional SM-3 and THAAD interceptors to defend against existing 
short- and medium-range missiles within the AOR?
    Answer. Yes. However, THAAD interceptors are not yet fielded, and 
SM-3-capable platforms (i.e., Aegis Ballistic Missile Defense ships) 
are limited by the number of available interceptors. Effectively 
defending our forward-deployed forces and allies against the existing 
missile threat in the CENTCOM AOR will also require a greater number of 
Patriot PAC3 interceptors, SM-2 BLK IVs, and SM-3s.

                             SEXUAL ASSAULT

    Question. If confirmed, you will be responsible for ensuring 
compliance with DOD policies on prevention of and response to sexual 
assaults against military personnel and civilians throughout the 
CENTCOM AOR.
    What lessons have Army leaders in Iraq learned regarding sexual 
assault prevention, response, and reporting protocols that can be 
applied across the entire CENTCOM?
    Answer. The prevention of sexual assault is a critical command 
issue. It is important to have a program that incorporates an awareness 
campaign that reaches every servicemember and that provides integrated 
response services, including medical care, counseling, victim advocacy, 
chaplain programs, law enforcement (investigation, detainment, etc.), 
legal measures (prosecution, legal assistance, and victim/witness 
liaison), reporting processes (assault reporting and data collection), 
and program assessment. It is widely recognized in today's Services 
that such a program must receive command emphasis to be effective, and 
I would continue to give it that emphasis if confirmed as the commander 
of CENTCOM.
    Question. What are the unique issues that you believe need to be 
addressed to ensure that prevention, reporting, medical treatment 
(including mental health care), and victim support are available for 
military personnel and civilians in the operational environments of 
Iraq and Afghanistan?
    Answer. Some of the most important challenges in Iraq and 
Afghanistan include combat stress, battlefield dispersion, and a mixed, 
joint service and civilian population. With regard to the last of these 
challenges, civilians constitute a considerable percentage of force on 
the ground in Iraq and Afghanistan and are critical contributors to 
mission success. The availability of response services for DOD civilian 
and contractor personnel should be similar to the services available to 
servicemembers. There are jurisdictional, legal, contractual, and 
resource challenges associated with extending program response 
provisions to DOD civilian or contractor personnel which should be 
addressed.
    With regard to sexual harassment and mental health, it is important 
to continually reinforce the responsibility of all individuals in the 
CENTCOM AOR to remain cognizant of the welfare of their fellow 
servicemembers and co-workers and to encourage those exhibiting signs 
of difficulty to receive help.
    Question. If confirmed, how would you assess the adequacy of such 
resources in the CENTCOM AOR?
    Answer. If I am confirmed, I would consult with commanders in the 
field, who are directly responsible for these programs and most 
familiar with their requirements. I would also welcome external and 
internal audits of our programs and resources. The Sexual Assault and 
Prevention Program is critical for the well-being of our troopers, and 
I would support it in every way possible.

                 DEPLOYED CIVILIANS IN THE CENTCOM AOR

    Question. The President has called on all agencies of the executive 
branch to encourage the assignment of highly qualified Federal civilian 
employees in support of CENTCOM operations.
    If confirmed, what would be your objectives for improving and 
sustaining the support of Federal civilians in the CENTCOM AOR?
    Answer. I am fully committed to the DOD policy for building 
increased civilian deployment capacity. Our civilian employees who 
deploy in support of missions in the CENTCOM AOR are capable and 
committed to supporting the Department's highest mission priorities. In 
Iraq, I have witnessed first-hand the capabilities and dedication our 
civilian employees bring to bear.
    We must take advantage of the synergistic effect that the wide 
range of skill sets and talents resident in our civilian force can 
achieve. If I am confirmed, we would continue to review our global 
force employment planning to expand those opportunities.
    We must execute the intent of Congress and the DOD in ensuring our 
civilian employees receive appropriate benefits and recognition when 
they volunteer to serve overseas and especially in war zones. We should 
also make every effort to assist civilian deployees in the same manner 
we do our deploying military personnel--from pre-deployment through 
deployment, as well as redeployment.
    As outlined in counterinsurgency doctrine and by the Office of the 
Secretary of Defense, unity of effort is essential to winning the wars 
in which our Nation is engaged--and fully utilizing and caring for 
deploying civilian employees within the CENTCOM AOR is absolutely 
essential.

                        MENTAL HEALTH IN THEATER

    Question. The Army's Mental Health Advisory Team (MHAT) has made 
five separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers deployed to Iraq. The most recent study, MHAT V, found that 
stress and mental health problems increased with each subsequent month 
of deployment, and that ``soldiers on their third or fourth deployment 
were at significantly higher risk'' for mental health problems. These 
types of reports lend support to the fact that increasing numbers of 
troops are returning from duty in Iraq with post-traumatic stress 
disorder, depression, and other mental health problems.
    What is your understanding of the key findings of this and previous 
MHAT assessments, actions taken by the Army to address key findings, 
and the effect of such actions?
    Answer. The MHAT process has provided an objective assessment on 
what is transpiring with servicemembers' psychological health and also 
valuable recommendations for future action on this issue. MHAT V 
produced 43 separate recommendations. Some, such as the recommendation 
to cross-train Army medics in behavioral health concepts, are already 
being implemented at the DA level; others, such as the recommendation 
to authorize assignment of a mental health professional to every Combat 
Aviation Brigade, are under review at the DA level. If I am confirmed, 
I would seek to implement recommendations which are independently 
actionable at the CENTCOM level and engage with the Services on those 
in their purview.
    Question. If confirmed, what measures would you support to ensure 
ongoing mental health assessments of all U.S. forces in Iraq?
    Answer. I would encourage and fully support future MHAT assessments 
if confirmed. This would include (but not be limited to) providing full 
access to information and staff input and feedback as appropriate.
    Question. Do you have any views on how to best address the mental 
health needs of our troops, in terms of both prevention and treatment?
    Answer. My views are shaped by the recommendations of mental health 
professionals and by tools such as MHAT assessments.
    Generally speaking, prevention begins with supporting 
servicemembers and their families before servicemembers deploy; this 
includes tough training at home station that builds camaraderie in 
units and gives troopers confidence that they can accomplish their 
tasks. Predictability of deployments and time at home in between 
deployments for troopers to `reset' with their families are also 
important.
    Many important preventive steps are already being taken in theater. 
Medics in theater are being trained on behavioral health topics so they 
can assist in identifying troopers who need help, and Suicide Risk 
Management Teams have been created to ensure troopers having 
difficulties get the help they need. Perhaps most critically, 
commanders are pushing the message that seeking help is a sign of 
strength, not weakness, and that it is essential to look out for battle 
buddies' mental health.
    Question. Do you believe that mental health support and resources 
in theater are adequate to handle the needs of our deployed 
servicemembers and at home for their families?
    Answer. If confirmed, I would conduct an assessment of mental 
health requirements and resources in theater. The extensive work 
completed by the MHAT will provide a good starting point for this 
assessment.
    Question. If confirmed, would you request additional behavioral 
health resources from the services, if needed, to meet the needs of 
current and future units deployed to Iraq and Afghanistan?
    Answer. If a specific need was validated, I would absolutely 
request additional support. Our troopers serve bravely and selflessly, 
and we owe it to them to understand their needs and then act with all 
due haste to provide for those needs.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, CENTCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                     INTERCOMMUNAL VIOLENCE IN IRAQ

    1. Senator Levin. General Petraeus, each of you have noted in 
different places and times that the conflict in Iraq has evolved and 
that, although there is still terrorism and insurgency, the current 
threat is the intercommunal fight over power. What do you mean by the 
communal fight over power?
    General Petraeus. I have long described the nature of the conflict 
in Iraq as a competition among ethnic and sectarian communities for 
power and resources. This has been the case since Iraq's liberation in 
2003 and remains the case today. Many groups in Iraq vie to determine 
who will have a voice in, and whose voice will most influence, the 
future of Iraq, and the competition is often heavily tied to concerns 
over economic opportunity.
    The competition between communities for resources and power is 
something that happens in every nation. In our Nation, this competition 
takes place in the political arena, in legal structures, via the media, 
and through democratic processes; the fault lines in the debate are 
often economic and ideological. In Iraq, the competition has taken 
place through violence and intimidation on the streets, and the fault 
lines have often been ethnic or sectarian. Iraq's competition used to 
be primarily inter-sectarian, with Shiite and Sunni elements vying with 
each other for power and economic opportunity; Al Qaeda in Iraq (AQI) 
violence sparked widespread sectarian violence throughout Iraq. As 
coalition and Iraqi forces stemmed the violence and increased security, 
the fault lines within Shiite and Sunni communities came to the fore; 
AQI turned its violence on its Sunni brethren, and Shiite militias--
particularly Jaysh al-Mahdi (JAM) and its splinter Special Groups 
(SG)--waged violence on the Shiite-led government in an effort to 
increase its power.
    One of the most important trends in Iraq has been the increasing 
rejection of violence by the Iraqi people--first with Sunnis refusing 
to accept the indiscriminate violence, oppressive practices, and 
extremist ideology of AQI and then with Shiite communities tiring of 
the mafia-like violence and activities of JAM/SG criminals. There is 
still an intercommunal struggle over power and resources, but Sunnis 
and Shiite alike are increasingly opting to make their voice heard 
through the political process rather than through violence.

    2. Senator Levin. General Petraeus, how has this changed the 
fundamental nature of the conflict in Iraq?
    General Petraeus. While the fundamental nature of this competition 
among ethnic and sectarian communities for power and resources has not 
changed, it has played out differently over time. Over the past year, 
we have seen a significant decrease in ethno-sectarian violence. 
However, as overall violence levels have decreased, continuing 
challenges in the area of intra-sectarian conflict have periodically 
surfaced. Iraq continues to face a complex array of destabilizing 
forces, including terrorism and regional interference; however, 
security incidents are now at the lowest level we have seen since March 
2004.

    3. Senator Levin. General Petraeus, what is the appropriate role of 
coalition forces in response to the threat and conduct of intercommunal 
violence among militant groups vying for control?
    General Petraeus. Coalition forces support the elected government 
and help that government enforce its monopoly on the legitimate use of 
force. Iraqi leaders have largely united around the aim of defeating 
extremists and disarming all militias, and we seek to support them in 
that effort.

                                PAKISTAN

    4. Senator Levin. General Petraeus, the newly-elected Pakistani 
Government has limited offensive military operations in the tribal 
areas, choosing instead to negotiate a peace agreement with the tribal 
leader accused by the Pakistani Government of being responsible for the 
assassination of Benazir Bhutto. It's been reported that the Pakistani 
Government is not seeking an end to cross-border attacks into 
Afghanistan as a condition of the accord. Officials report that cross-
border incursions increased in April as the peace agreement was being 
negotiated. Are you troubled at the prospect of a peace agreement that 
doesn't seek to stop cross-border attacks into Afghanistan?
    General Petraeus. Recent events in Pakistan seem to indicate a 
modification of the government's approach to combating terrorism. The 
newly-elected government, seeking to address the ongoing problem of 
extremism and terrorism in its borderlands, recently negotiated with 
tribal leaders in the Federally Administered Tribal Areas (FATA) and 
subsequently began thinning out its forces in the region. This appears 
to reflect an effort by the new Pakistani Government to determine the 
best way to address the longstanding problem of control over its 
western areas and shows that the government is trying to develop a 
political solution. While it is true that a purely military approach 
would likely not be successful, it is also unlikely that a purely 
political approach would have the desired effect--as demonstrated by 
what is generally assessed to be the failure of the negotiated 
``permanent peace'' in Waziristan in 2006--and thus we must closely 
monitor this situation as we work with the new Pakistani Government and 
seek ways to help it deal with the challenge of the FATA to it and to 
Afghanistan.
    The cross-border terrorism issue is complex and likely requires a 
comprehensive solution. We should continue working with Pakistan to 
further increase coordination of border enforcement efforts, and we 
should also seek to strengthen the capacity of the Pakistani Army and 
the Frontier Corps--and the willingness of the Pakistani Government--to 
control and disarm militants in the borderlands. Any long-term solution 
must also address the root causes of terrorism's growth in Pakistan and 
must include initiatives to increase economic and educational 
opportunity in the generally poor and isolated communities of the 
region.

    5. Senator Levin. General Petraeus, are we seeing a decrease in the 
level of cooperation the United States is receiving from the Government 
of Pakistan in the conflict with al Qaeda and other extremists?
    General Petraeus. The newly-elected Government in Pakistan seems to 
have modified its approach to combating terrorism in the Pakistani 
borderlands, as the government recently negotiated with tribal groups 
and began thinning out its forces in the FATA. The United States and 
Pakistan continue to have mutual concerns and goals where terrorism is 
concerned, and the change appears to be one of methodology rather than 
of a decrease in cooperation with the United States. Nevertheless, it 
is incumbent upon us as Pakistan's partners to help Islamabad adopt a 
realistic approach to terrorism, and one of my first trips, if 
confirmed, will be to Pakistan in order to assess the situation there 
and to talk to the Pakistani leaders and our personnel on the ground.
    At the same time, opportunities exist to deepen U.S.-Pakistani 
cooperation against al Qaeda and other extremists, such as through our 
efforts to build the capabilities of the Pakistani military and the 
Frontier Corps. These efforts, in concert with other programs to 
promote development in the frontier areas, can place further pressure 
on the al Qaeda network in Pakistan.

    6. Senator Levin. General Petraeus, what more can be done to 
eliminate these safe havens for violent extremists?
    General Petraeus. The problem of safe havens in the Pakistani 
borderlands is a complicated one that demands a comprehensive solution. 
The Government of Pakistan faces a difficult situation in which 
multiple actors in its borderlands benefit from illicit cross-border 
trade, while traditional tribal laws and customs in the border region 
foster a spirit of fierce independence and provide for a great deal of 
autonomy from the central government. As a result, the government is 
often seen more as outside force to be resisted than as a force to be 
embraced. In some areas, these same tribal laws and customs offer 
protection and respect to extremist elements.
    Given these circumstances, we should work with Pakistan to further 
increase coordination of border enforcement efforts, both internal to 
Pakistan and with the Afghan National Security Forces, while 
strengthening the capacity of the Pakistani Army and the Frontier 
Corps--and willingness of the Pakistani Government--to control and 
disarm militants in the borderlands.
    We should also help the Government of Pakistan address the root 
causes of terrorism in Pakistan, which include conditions of poverty, 
illiteracy, and alienation from the government. We should support 
Government of Pakistan initiatives to increase economic and educational 
opportunity in at-risk regions of the country, to include supporting 
the new FATA Development Plan and other initiatives aimed at education 
reform and rural development.
    Meanwhile, our own whole-of-government approach to assisting 
Pakistan should include the fostering of foreign direct investment, 
targeted economic aid, and debt forgiveness. We must recognize that a 
good lot of the heavy lifting for this problem lies in the economic and 
political spheres, and our efforts there need to move more rapidly.

    7. Senator Levin. General Petraeus, what role should U.S. military 
forces play with respect to the tribal areas?
    General Petraeus. The role of U.S. military forces in the FATA will 
undoubtedly be a topic of discussion between the United States and 
Pakistan. Before speculating on what roles U.S. forces should play, I 
would want to discuss the situation with Pakistani and U.S. leaders. My 
understanding at this point is that Pakistani leaders are 
understandably reluctant to see non-Pakistani military elements 
employed in the FATA.

                      PRIVATE SECURITY CONTRACTORS

    8. Senator Levin. General Petraeus, in response to a question from 
Senator Sessions, you expressed concern about section 841 of S. 3001, 
which addresses the performance of inherently governmental functions by 
private security contractors (PSCs) in Iraq and Afghanistan. The 
language of section 841 is modeled on paragraph E2.1.4.1.4 of 
Department of Defense (DOD) Instruction 1100.22, which defines certain 
functions to be performed in uncontrolled or unpredictable high threat 
areas outside the United States as inherently governmental and 
designated for military performance. You promised to review the 
provision and get back to us with your detailed views. I would 
appreciate your response to some specific questions. Do you support the 
standard in paragraph E2.1.4.1.4 of DOD Instruction 1100.22 for 
determining which functions to be performed in uncontrolled or 
unpredictable high threat areas outside the United States are 
inherently governmental and designated for military performance?
    General Petraeus. I will respond collectively to questions 8-12 
since they all relate to the same subject and the responses are clearly 
interrelated.
    I support the standards set forth in DOD Instruction 1100.22, 
including paragraph E2.1.4.1.4, and do not believe that this paragraph 
prohibits the use of private security contractors in high threat areas 
outside the United States. My reading of this DOD Instruction suggests 
that paragraph E2.1.4.1.4 should not be interpreted in isolation. The 
section's opening paragraph (E2.1.4.1) cites it only as an example, not 
as a statement of DOD policy prohibiting PSC operations in uncontrolled 
or unpredictable high threat areas. Immediately following paragraph 
E2.1.4.1.4, the next paragraph (E2.1.4.1.5) affirms that ``a defense 
contractor may be authorized to provide security services, provided its 
services do not involve substantial discretion,'' and defines the 
conditions under which contractors providing security services are not 
considered to be performing inherently governmental functions.\1\
---------------------------------------------------------------------------
    \1\ Multi-National Force-Iraq (MNF-I) complies with these standards 
identified in paragraph E2.1.4.1.5. The command has established strict, 
comprehensive rules on the conditions under which PSC operations can be 
conducted, obviously delimiting their mission to defensive operations. 
These and other rules are defined in the MNF-I Fragmentary Order 07-
428, ``Overarching Fragmentary Order (FRAGO) for Requirements, 
Procedures, Responsibilities for Control Coordination and Management 
and Oversight of Armed Contractors, DOD civilians, and PSCs.'' In 
addition, all DOD contract solicitations and contracts implemented in 
Iraq properly describe the environment in which contractors will be 
operating. The Joint Contracting Command-Iraq/Afghanistan ensures that 
both the description of environmental conditions and the requirement 
for compliance with FRAGO 07-428 are incorporated into all contracts 
being implemented in Iraq.
    In short, DOD PSCs in Iraq are not allowed to perform inherently 
governmental functions. All contract solicitations and awards are 
conducted under Defense Federal Acquisition Supplement (DFARS) rules. 
These DFARS rules prohibit DOD contractors from participating in 
offensive operations and from using the combat-oriented Rules of 
Engagement. Instead, the DFARS requires that contractors use the more 
restrictive defensive/self-protection oriented Rules on the Use of 
Force. I am advised that the Comptroller General noted in a decision in 
2006, that ``the Services sought under the solicitations appear to 
comport with the DOD policies and regulations that state that security 
contractors are not allowed to conduct direct combat activities or 
offensive operations.''
---------------------------------------------------------------------------
    I take seriously the responsibility for limiting PSC roles and 
missions to those permitted in the DFARS and DOD policies, including 
DOD Instruction 1100.22. PSCs are not permitted to operate in areas 
where active combat operations are contemplated or underway. Moreover, 
policies and procedures are in place to divert PSC movements away from 
areas in which combat operations may potentially be launched or in 
which a high risk exists of hostile action or an encounter with 
civilian activities that could represent a threat to a PSC movement or 
operation. Based upon the above, it is my view that paragraph 
E2.1.4.1.4 does not prohibit the use of private security contractors in 
uncontrolled or unpredictable high threat areas outside the United 
States provided that the requirements and conditions of paragraph 
E2.1.4.1.5 are implemented and the conduct of PSCs is subject to 
regular oversight by military commanders.
    You also asked about significant differences between the wording of 
Section 841 of the Senate Bill and paragraph E2.1.4.1.4. The most 
significant difference is the one I identified above--paragraph 
E2.1.4.1.4. is only an illustrative example of a potentially inherently 
governmental function, further clarified by the succeeding paragraph, 
which defines the conditions under which PSC operations would not be 
considered inherently governmental. Section 841 would create a new 
statutory standard, redefining the boundaries of permissible activity 
for PSC operations. Section 841 also changes the term of ``substantial 
discretion'' to ``immediate discretionary decisions,'' the significance 
of which is to eliminate all armed PSC operations almost anywhere, 
because the nature of defensive/self protection responses to emerging 
threats requires immediate discretionary decisions, even within a very 
constrained set of rules. Draft section 841, paragraph (b)(1)(A), also 
modifies the phrase from the DOD Instruction, ``could require deadly 
force that is more likely to be initiated by U.S. forces than occur in 
self defense,'' to ``could reasonably be expected to require deadly 
force that is more likely to be initiated by personnel performing such 
security operations than by others.'' This modification essentially 
expands the standard to include any use of force--even that which 
occurs in self-defense. In application, this modification would bar 
security contractors from any hostile area regardless of actual 
function.
    With regard to standards for other Federal agencies operating with 
PSCs in a contingency operation area, I believe the policies, 
standards, procedures, and oversight should be closely aligned, 
presenting a common perception among host country nationals of U.S. 
Government PSC operations. Having said that, there could be occasions 
in which other U.S. Government departments and agencies may need to 
operate under different policies on the use of PSCs. For example, 
various contractors, including nongovernmental organizations (NGOs), 
involved in reconstruction and development programs may feel strongly 
about the need not to be associated with PSC operations, particularly 
those provided by DOD contractors, and more specifically those provided 
by U.S. military forces. In such cases they may adopt more restrictive 
conditions for the deployment of civilian personnel or the movement of 
reconstruction materials and equipment than those currently implemented 
under DOD Instruction 1100.22.
    While I cannot speak to every scenario that may involve other 
Federal agencies, the Departments of Defense and Department of State 
signed a Memorandum of Agreement which improved interagency 
transparency and established common standards and procedures for 
security contractor performance in Iraq. As such, the functions of 
security contractors for those two agencies in Iraq are essentially 
identical. This effort has produced significant improvements in the 
management and oversight of PSC operations in Iraq. With the 
implementation of Section 862 of the 2008 National Defense 
Authorization Act, we will achieve even broader and more effective 
oversight of all U.S. Government PSCs.
    In responding to your question, I also need to provide you with an 
assessment of the impact of the proposed language of Section 841 on 
military operations in Iraq. My reading of the language of Section 841, 
confirmed by my Staff Judge Advocate, is that Section 841 would 
effectively forbid the use of U.S. Government armed private security 
contractors in Iraq, and presumably also in Afghanistan. Replacing DOD 
contractors with military personnel would significantly delay the 
drawdown of U.S. forces in Iraq, requiring approximately 7,300 
additional military personnel to be trained and deployed to Iraq, plus 
additional forces to provide the expanded logistical support required. 
These figures do not include the requirements for the dedication and 
training of additional military personnel to support rotational 
requirements, nor the addition of equipment and Mine Resistant Ambush 
Protected (MRAP) vehicles needed by our combat forces to replace 
armored tactical vehicles used by contractors. By adding significantly 
to the military forces required in Iraq, Section 841 could also delay 
the ability of the Army to reduce combat tours from 15 months to 12 
months. It would also require a special training and certification 
program to be developed and implemented, which would take up to a year 
to execute.
    For the reasons stated above, the requirements proposed under 
Section 841 of the Senate Bill would be counterproductive to the work 
we already have underway, and would be enormously disruptive to our 
efforts to achieve U.S. goals in Iraq.

    9. Senator Levin. General Petraeus, in your view, does paragraph 
E2.1.4.1.4 of DOD Instruction 1100.22 prohibit the use of private 
security contractors in uncontrolled or unpredictable high threat areas 
outside the United States?
    General Petraeus. See response to qfr #8.

    10. Senator Levin. General Petraeus, are you aware of any 
significant differences between section 841 of S. 3001 and paragraph 
E2.1.4.1.4 of DOD Instruction 1100.22? If so, what are the differences 
and why do you believe that they are significant?
    General Petraeus. See response to qfr #8.

    11. Senator Levin. General Petraeus, are you aware of any reason 
why private security contractors employed by Federal agencies other 
than DOD should operate under a standard different from that provided 
in paragraph E2.1.4.1.4 of DOD Instruction 1100.22?
    General Petraeus. See response to qfr #8.

    12. Senator Levin. General Petraeus, are there functions that are 
inappropriate for performance by DOD contractors in an uncontrolled or 
unpredictable high threat area outside the United States, but are 
appropriate for performance by contractors of other Federal agencies in 
the same area? If so, why?
    General Petraeus. See response to qfr #8.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                            CENTRAL COMMAND

    13. Senator Akaka. General Petraeus, you have highlighted the lack 
of economic development in the Central Command (CENTCOM) area of 
responsibility (AOR) as one of the biggest challenges facing the 
region's security and stability. You have, in my opinion, correctly 
identified the link between poverty and potential for violent 
activities--an area in which you are a recognized expert. If confirmed 
as commander, what ideas do you have for using CENTCOM's authority to 
facilitate a government-wide approach to stimulating economic 
development in the region?
    General Petraeus. There are a number of successful programs CENTCOM 
can use as models throughout its AOR to facilitate a government-wide 
approach to stimulating economic development. A good example is 
CENTCOM's support to the Provincial Reconstruction Teams (PRTs) that 
are playing a critical role in stimulating development, improving 
governance, and increasing government capacity at the local level in 
Iraq and Afghanistan. CENTCOM's role in supporting the PRTs has been to 
help provide security, to synchronize the efforts of PRTs and local 
U.S. military organizations, and to contribute skilled military 
personnel to fill PRT positions when necessary. It may be possible for 
the PRT model to be applied in other areas in the CENTCOM AOR that are 
in need of development assistance, based on local conditions.
    CENTCOM and its subordinate commands have also played a role in 
helping partner nations increase government capacity at the ministerial 
level. In both Iraq and Afghanistan, CENTCOM organizations have 
undertaken large-scale efforts to increase the capacity of the host 
nations' security ministries and to assist in security sector reform. 
These efforts can help stimulate economic development and improved 
governance by enabling host nations to establish secure environments in 
which government agencies, NGOs, and private businesses can more easily 
operate. CENTCOM organizations have also assisted in extensive efforts 
to build capacity in non-security ministries. Where desired by U.S. 
policymakers, CENTCOM and other governmental agencies could expand such 
capacity-building efforts elsewhere in the AOR to bolster security, 
economic, and good governance growth in the region.
    Finally, commanders throughout CENTCOM have learned over the past 
several years that money--along with economic development--is an 
essential weapon in counterinsurgency and counterterrorism campaigns. 
Our commanders in Iraq in particular have learned to very skillfully 
use such resources as Commander's Emergency Response Program (CERP) 
funds to address urgent economic and governance needs at the local 
level, thereby helping to alleviate some of the grievances and 
conditions of poverty that give rise to violence. We should consider 
applying the successful CERP model in other areas of the CENTCOM AOR 
when necessary.

    14. Senator Akaka. General Petraeus, the CENTCOM commander's 
responsibilities are necessarily broader and more strategic in nature 
than those required in your current position. One of the main 
challenges with respect to resource allocation in the AOR is the 
balance between Iraq and Afghanistan. This committee has heard from 
military and civilian leaders, as well as independent experts, who 
identify the United States and the North Atlantic Treaty Organization 
(NATO) efforts in Afghanistan as an under-resourced conflict. Given the 
importance of combating a resurgent al Qaeda and its leadership in the 
FATA of neighboring Pakistan, how do you plan to address these 
shortfalls should security conditions in Iraq warrant the maintaining 
of current troop levels for a longer period?
    General Petraeus. I would, if confirmed, work in consultation with 
the Joint Chiefs and the Secretary of Defense to ensure that CENTCOM's 
force posture remains consistent with national priorities. It would be 
my responsibility to make clear the resources necessary to achieve 
national policy goals and objectives in Iraq, Afghanistan, Pakistan, 
and elsewhere in the CENTCOM AOR. I would also intend to make clear how 
and to what extent shortfalls in resources produce risk to the force or 
mission objectives.
    I would also work with the Joint Chiefs and the Secretary of 
Defense to encourage that all feasible means of meeting the 
requirements in Afghanistan were pursued, including increasing NATO 
and, if needed, U.S. contributions and increasing the capability and 
capacity of the Afghan National Security Forces. Over the long term, 
the latter will be the most important means of fulfilling Afghanistan's 
security requirements.

    15. Senator Akaka. General Petraeus, you have advocated a ``whole 
of government'' approach for CENTCOM that would include effective and 
improved coordination between various civilian diplomatic and relief 
agencies with the military component of the U.S. presence. What role 
does CENTCOM need to take with regards to working with these civilian 
diplomatic and relief agencies, and what specifically would you do as 
its commander to actively promote these efforts?
    General Petraeus. CENTCOM and its subordinate commands already 
promote some important efforts to improve coordination among civilian 
diplomatic agencies, relief agencies, and the militant component of 
U.S. presence. Most notably in the CENTCOM AOR, numerous Joint 
Interagency Task Forces and PRTs have put the ``whole of government'' 
approach into practice in order to promote development in all areas--
political, social, and economic. In addition, CENTCOM headquarters has 
long employed a Joint Interagency Coordination Group with 
representatives from numerous agencies. If confirmed, I would seek to 
sustain, empower, and expand such efforts. If confirmed, I would also 
seek to further integrate CENTCOM's efforts with those of other 
government agencies by working closely with our ambassadors in the 
region who supervise U.S. activities in each country. I would also work 
closely with the State Department Bureau Chiefs and other corresponding 
government officials to ensure that our activities are coherent, 
integrated, and responsive to the changing needs of the AOR.

    16. Senator Akaka. General Petraeus, is improvement in coordination 
between these various agencies a pre-condition for achieving security 
in Iraq and elsewhere in the AOR?
    General Petraeus. Effective coordination among government agencies 
is an absolutely essential condition for achieving sustainable security 
in Iraq and in other areas in the CENTCOM AOR. I have mentioned before 
that the Goldwater-Nichols Act has succeeded in making our military 
forces more interoperable today than they ever have been, and this 
interoperability has been a critical element of our progress in 
establishing security. The next step, however, is to ensure the ability 
of military and civilian departments to work closely together. In Iraq, 
Ambassador Crocker and I have partnered closely to ensure unity of 
effort within the U.S. effort and, to the extent possible, with the 
efforts of our coalition partners, through the development of a Joint 
Campaign Plan and through regular joint assessments to evaluate our 
progress.
    The State Department's Coordinator for Reconstruction and 
Stabilization has been given the lead by National Security Presidential 
Directive 44 (NSPD44) in developing the Interagency Management System 
and a draft U.S. Government Planning Framework. These will provide a 
viable process and framework within which we can enhance and align 
military and civilian engagement in reconstruction and stabilization 
scenarios. The State Department has also begun to stand up the Civilian 
Response Corps system to provide increased civilian expeditionary 
capacity to complex operations.
    The United States will be well served by having available various 
tools like these to promote unity of effort across the U.S. Government, 
and by the development of interagency doctrine for the use of these 
tools in the conduct of counterinsurgency and stability operations. If 
confirmed, I will continue to stress the importance of such 
coordination to promote unity of effort in the application of our 
``whole of government'' approach to the security issues in the CENTCOM 
AOR.

    17. Senator Akaka. General Petraeus, you have made it clear that 
actively engaging with Iraq's neighbors is essential to achieving long-
term internal and external stability in the country. You and others 
have also mentioned Iran's malign influence in covertly supporting 
elements of the insurgency. As one of Iraq's influential neighbors, it 
would appear that diplomatic engagement with Iran is a precondition to 
any long-lasting security gains. However, Tehran's pursuit of nuclear 
technologies complicates the diplomatic equation. What recommendations 
would you make, if confirmed as commander of CENTCOM, concerning how 
the U.S. Government should navigate its dealings with Iran?
    General Petraeus. I embrace Secretary of Defense Gates' view that 
we should seek leverage in our relations with Iran in order to have a 
constructive basis for engagement. If confirmed, my recommendations 
would be built upon the idea that our efforts in regard to Iran must 
involve generating international cooperation and building regional 
consensus to counter malign Iranian influence and destabilizing 
activities, while also striving to promote more productive engagement, 
if that is possible. We have strong alliances and partnerships in the 
Gulf and throughout the broader region upon which we can build a common 
cause that may help dissuade Iran from its subversive activities and 
encourage legitimate statecraft and economic interchange. At the same 
time, we should continue to work with the international community to 
demonstrate to Iran that there are consequences for its illegitimate 
influence in the region, especially for the destabilizing actions of 
the Iranian Revolutionary Guard Corps-Quds Force and Iranian 
intelligence services.
    In addressing these issues, we should make every effort to engage 
by use of the ``whole of government,'' developing further leverage 
rather than simply targeting discrete threats. One particular lever may 
be the ongoing international diplomatic and economic pressure on Iran 
to end its nuclear program; such pressure seems to be affecting the 
Iranian energy market and may convince Tehran to focus on longer-term, 
less malign interests. A destabilized Iraq, rampant terrorism in the 
region, and a nuclear armed Middle East are not in any nation's long-
term interest, including Iran's. Along these lines, the international 
community can reach out to help moderate, pragmatic elements that might 
influence the internal Iranian debate over Iran's foreign policy and 
long-term security interests. As Admiral Mullen has noted, furthermore, 
our approach should consist of ``using all elements of national power, 
whether it's economic or financial, international, diplomatic, and not 
taking any military options off the table.'' We should retain, as a 
last resort, a range of military options to counter Iran's activities.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    18. Senator Pryor. General Petraeus, improvised explosive device 
casualties are on the rise in Afghanistan. As a result, units in 
support of Operation Enduring Freedom are receiving operation orders 
with a fragmentary order for mandated MRAP fielding. Our forces are 
therefore required to allocate appropriate combat power to employ these 
vehicles even though they cannot be used throughout the AOR because of 
their inability to maneuver or traverse incompatible and difficult 
terrain. How do you plan to employ this ``political'' mandate but still 
keep you soldiers safe?
    General Petraeus. The improved protection provided by MRAPs has 
saved lives in Iraq, and certainly has the potential to do so in many 
areas in Afghanistan. However, it is true that MRAPS cannot be used 
everywhere in Afghanistan because, despite road improvements and 
routine maintenance, certain areas remain inaccessible for some larger 
vehicles. In response to these conditions, the plan as I understand it 
is to replace approximately two-thirds of the Up-Armored HMMWVs with 
MRAPs, retaining the balance of Up-Armored HMMWVs to allow access to 
areas not reachable by MRAPs. I also understand that units deployed to 
Operation Enduring Freedom have recently requested additional MRAPs for 
the Afghanistan Theater of Operations. If confirmed as the Commander, 
CENTCOM, I would continue to consult closely with the Commander of the 
International Security Assistance Command-Afghanistan to assess 
requirements and resource the needs of units operating in support of 
Operation Enduring Freedom.

    19. Senator Pryor. General Petraeus, how many MRAPs are needed in 
the region?
    General Petraeus. I have not had the opportunity to conduct a 
detailed assessment of the need for MRAPs throughout the CENTCOM AOR. 
If confirmed, I would consult closely with the Commander, MNF-I and the 
Commander, International Security Force-Afghanistan to assess 
requirements and resource established needs.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                          IRAQ RECONSTRUCTION

    20. Senator Collins. General Petraeus, I am particularly interested 
in the Iraqis shouldering greater responsibility for the costs of the 
war, including paying, training, and equipping their own security 
forces, the salaries of the Sons of Iraq, and helping the United States 
pay for the costs of fuel used by U.S. troops operating in Iraq. Asking 
the Iraqis to take more responsibility for their own security and the 
rebuilding of their country will give them a sense of ownership and 
only makes sense given Iraq's growing budget surplus. Senators Nelson, 
Bayh, and I authored language that would: prohibit American tax dollars 
from being spent on major reconstruction projects in Iraq; direct the 
administration to ensure that the Iraqi Government pays the costs of 
the salaries, training, equipping of ISF, and for the salaries of the 
Sons of Iraq; and direct the administration to negotiate an agreement 
with the Iraqi Government for reimbursement of some of the costs of 
joint operations between U.S. and Iraqi troops. The Senate Armed 
Services Committee unanimously approved our proposal, which represents 
possibly the first significant bipartisan change in direction in Iraq. 
This language is also included in the Senate supplemental bill. In 
addition, I have met with the Iraqi Ambassador who stated the 
commitment of the Government of Iraq to take on more of these costs. In 
fact, Prime Minister Maliki recently stated in Brussels that Iraq is a 
rich country and is not asking for direct assistance to fund its 
reconstruction. What are your thoughts on this important topic?
    General Petraeus. The Government of Iraq has a responsibility and 
an increasing ability to fund reconstruction and security operations in 
Iraq, and it is making progress in picking up a greater share of this 
fiscal load. As Ambassador Crocker recently stated before Congress, 
``The era of U.S.-funded major infrastructure projects is over.'' As 
Iraq continues to spend more and the United States spends less, a 
period of transition is needed because Iraqi capacity is still limited. 
However, Iraqi capacity is gradually improving as well, as evidenced by 
a solid increase in budget execution last year. In the meantime, we are 
looking for additional ways to help Iraq to leverage our capacity to 
spend its own funds. A good example of this is the Iraqi Commander's 
Emergency Response Program, which we call ``I-CERP.'' The Iraqis have 
already allocated $300 million for this fund, of which $270 million has 
been deposited in an account on which coalition forces can draw. 
Coalition forces have already made substantial progress in using this 
money to deliver schools, health clinics, community centers, and other 
projects on behalf of the Iraqi Government to the Iraqi people.

    21. Senator Collins. General Petraeus, are you committed to 
shifting some of these costs to the Government of Iraq--costs that the 
Iraqis themselves say they would like to undertake?
    General Petraeus. Yes. Long-term sustainability of Iraqi security 
and economic development ultimately depends on the Iraqi Government's 
ability to provide, and we are committed to helping Iraqi leaders build 
the governmental capacity to do so. The Government of Iraq is already 
assuming more responsibility for reconstruction and security efforts. 
For example, Iraq's 2008 budget contains $13 billion for 
reconstruction, with an additional multi-billion dollar reconstruction 
spending package in the works. In terms of security spending, we 
anticipate Iraq will spend over $8 billion on security this year and 
$11 billion next year, and a 2008 supplemental of $4.3 billion for 
security spending has been proposed. As Iraqi spending on 
reconstruction and Iraqi security forces (ISFs) continues to increase, 
U.S. spending will continue to decrease. As an example, increased Iraqi 
spending on the ISFs has enabled us to decrease our budget request for 
the ISFs fund for fiscal year 2009 from $5.1 billion to $2.8 billion. 
This trend will continue over time, and it is one that I support.

                              AFGHANISTAN

    22. Senator Collins. General Petraeus, at a hearing before this 
committee on April 10, I asked Secretary of Defense Robert Gates about 
the situation in Afghanistan. During his opening statement that day, he 
stated that the United States cannot repeat the mistakes of the past 
from the Unites States policy regarding that country. That comment 
reminded me of a trip that I took to Afghanistan with some of my 
colleagues in 2003, including Senator Levin. When we met President 
Karzai at Bagram Air Base, he had a message for us, even back then. It 
was ``don't abandon us; don't make the same mistakes that were made 
decades ago.'' On subsequent visits to his country, President Karzai 
has repeated his plea. That is why I'm concerned about the reports from 
the Afghanistan Study Group and the Atlantic Council that warned, very 
bluntly, that we are under-resourcing Afghanistan, as well as NATO. The 
Atlantic Council's report goes so far as to say, ``Make no mistake. 
NATO is not winning in Afghanistan.'' I am very concerned about having 
to send more American troops; that it will make it impossible for us 
to, in the long-term, sustain the 12-month deployments that all of us 
are desperate to see us return to. Could you give me your best 
assessment of whether you expect other NATO countries to step up to the 
plate and provide the troops that are necessary?
    General Petraeus. As the Commander of MNF-I, I have not been in a 
position to assess the likelihood of NATO countries providing 
additional troops to support the NATO mission in Afghanistan. However, 
I am concerned about the existence of requirements in Afghanistan that 
have not been fully sourced. If confirmed as the Commander of CENTCOM, 
I would work in consultation with the Supreme Allied Commander, Europe, 
the Commander of the NATO International Security Assistance Force, the 
U.S. Joint Chiefs, and the U.S. Secretary of Defense to assess the 
force protection and mission risks produced by shortfalls in resources 
in Afghanistan, and to pursue ways of addressing those shortfalls. 
Generally speaking, it appears clear that the Afghanistan mission would 
benefit from greater contributions from participating nations, with 
fewer national caveats, as well as from continued-and expanded-efforts 
to build the strength and capabilities of the Afghan National Security 
Forces.

                             SOUTHWEST ASIA

    23. Senator Collins. General Petraeus, while a considerable amount 
of time has been spent discussing Iraq and the subject of troop levels, 
we may be missing the big picture. We can't lose sight of what we are 
ultimately trying to accomplish in Iraq and how our future force 
structure supports these goals. We need to focus the discussion on 
coming up with a constructive solution and way ahead. I believe that 
the entire region of southwest Asia is of vital strategic importance to 
the United States. Beyond the situation in Iraq, we have a resurgence 
of the Taliban in Afghanistan, a tenuous political situation at best in 
Pakistan, and Iranian nuclear ambitions. Can you tell us what you 
believe the United States' geopolitical strategic priorities in this 
region should be and why?
    General Petraeus. A survey of the CENTCOM AOR reveals a wide array 
of challenges. An important priority, as recently emphasized by the 
Secretary of Defense, must be to win the wars in which we are currently 
engaged. The United States must continue to focus on the ongoing 
conflicts in Afghanistan and Iraq to ensure U.S. national policy 
objectives are met. In addition to these conflicts, several 
transnational concerns affect many or all of the countries within the 
CENTCOM AOR. These concerns are interrelated and create significant 
challenges for regional stability and for U.S. policy and interests in 
the region. Our strategic priorities include five areas. Deterring 
state-based aggression. The destabilizing effects of the Iranian 
regime's attempts to increase its influence in the region, Syrian 
efforts to influence Lebanese politics, and Eritrean antagonism aimed 
toward Ethiopia are all significant concerns. Defeating violent 
extremist networks. Though al Qaeda is the highest visibility and 
priority terrorist organization, there are many other extremist groups 
throughout the region. They constitute threats to their home 
governments as well as to people across the globe. Countering the 
proliferation of weapons of mass destruction, including related 
components and technical expertise, in the region. Iran's and Syria's 
non-transparent efforts to develop nuclear facilities could destabilize 
the region and spark a regional arms race. The need to secure existing 
nuclear material is a related and critical concern. Promoting economic 
development in many of the region's countries. This is both a 
humanitarian issue and a security issue, as poverty and lack of 
opportunity are often enablers to successful terrorist recruiting. 
Countering transnational piracy and narcotics and arms smuggling. In 
addition to being criminal and destructive activities, these practices 
threaten strategic resources and are often lucrative sources of funding 
for terrorists.

    24. Senator Collins. General Petraeus, what is the best way to 
achieve these strategic priorities?
    General Petraeus. Although it is premature to have specific and 
comprehensive plans, there are several concepts that would guide my 
approach to the region's challenges, if I am confirmed. First, we would 
seek to build partnerships in the region, pursuing bilateral and 
multilateral cooperation in identifying and working together toward 
mutual interests. This involves extensive engagement with leaders in 
the region, and I would see this as one of my primary responsibilities 
as the CENTCOM commander. Second, we would aim for a whole-of-
government approach in addressing the region's challenges. This 
approach recognizes that solutions for the region's challenges should 
be as multifaceted as the challenges themselves. Rather than engaging 
in purely military solutions, we would seek to leverage the insight and 
capabilities resident in the whole of government. Third, we would 
pursue comprehensive approaches and solutions, addressing the roots of 
issues and not just their manifestations. This entails efforts varying 
from spurring economic development and educational opportunities to 
strengthening governments' ability to combat terrorism and extremism. 
Fourth, we would maintain focus on readiness to conduct contingency 
operations, whether crisis response, deterrent action, or defeating 
aggressors.

                         TROOPS LEVELS IN IRAQ

    25. Senator Collins. General Petraeus, I continue to be concerned 
about the negative effects of repeated and extended deployments to Iraq 
on our soldiers and marines. The surge in U.S. forces during the last 
year increased the Army's presence in Iraq to 20 Brigade Combat Teams 
(BCTs) instead of the pre-surge level of 15. The Chief of Staff of the 
Army, General George Casey, has said, ``Today's Army is out of balance. 
The current demand for our forces in Iraq and Afghanistan exceeds the 
sustainable supply and limits our ability to provide ready forces for 
other contingencies.'' When do you foresee the ISF will be ready to 
step up in significant numbers so that you will be able to reduce your 
force level requirements to fewer than 15 BCTs?
    General Petraeus. The ISF is already stepping up in significant 
numbers and enabling us to reduce our force level requirements. We have 
recently made significant security progress in Iraq, as the level of 
security incidents for the past month is the lowest it has been for 
more than 4 years. We have sustained our security gains even as three 
BCTs, a Marine Expeditionary Unit, and two Marine battalions have left 
without replacement. A fourth BCT has already given up its battle space 
and will withdraw this month, and the final surge brigade will leave by 
the end of July 2008. We have also reduced the detainee population in 
coalition facilities by over 3,500 detainees, and a continuing decline 
will allow me to recommend reductions in units programmed for the 
detainee mission. Our ability to achieve and sustain gains even as we 
have drawn down is in large part due to increasing capability in the 
ISFs, as well as the Iraqi Government's determination in meeting 
security challenges throughout Iraq.
    Over the last 18 months, the ISF have grown substantially in size 
and capability. In the last year alone, the Iraqi Ministries of Defense 
and Interior have generated 51 new combat battalions, an increase of 
over 30 percent. This intensive effort to increase ISF numbers involved 
recruiting, hiring, and training over 132,000 new police and soldiers. 
Over 540,000 personnel now serve in the ISF. The ISF will grow even 
further in the next year, providing for the eventual strength in 
numbers necessary to provide a security presence throughout Iraq.
    As important as the ISF's growth in size is its growth in 
capability. The number of combat battalions capable of taking the lead 
in operations, albeit with some coalition support, has grown to well 
over 100--a 15 percent increase since January 2007. Ongoing ISF 
operations in Basra, Mosul, Sadr City, Anbar, and Maysan have 
demonstrated increased planning capability, mobility, and tactical 
competence, as well as an ability to conduct simultaneous major 
operations throughout the country. The enablers that coalition forces 
provide are in line with expectations and generally involve 
capabilities that take more time to build (i.e. close air support 
capability). The performance of many units has been solid, and some 
formations and specialist organizations are proving to be extremely 
capable. Thanks to improved security and ISF capability, eight of 
sixteen Iraqi provinces are under Provincial Iraqi Control, with two 
more provinces due to transition by the end of June 2008.
    Growth in the size and capability of the ISF will be one of the 
major conditions that will allow us to continue to reduce coalition 
forces in Iraq while sustaining our security gains. My sense is that 
after a brief period of consolidation and evaluation this summer, 
conditions on the ground will be such that I will be able to make a 
recommendation for some further reductions. My recommendation may not 
be for a BCT or major combat formation, though it could. But I do 
believe that there will be assets that we will be able to recommend can 
be either redeployed or not deployed to the theater. Beyond the initial 
decision on post-surge force levels, we will continually assess 
security conditions in Iraq and seek to identify further possible force 
withdrawals.

                          REALIGNMENT IN IRAQ

    26. Senator Collins. General Petraeus, you testified in March that 
the security situation in Iraq has improved since the implementation of 
the surge and that there has been substantial progress in training and 
equipping the ISF. You also testified that the operation against Shiite 
militias in southern Iraq indicates the growing capability of the ISF. 
The report issued by the Independent Commission on the ISFs, chaired by 
retired Marine Corps General and former Commandant of the Marine Corps, 
James Jones, suggests that coalition forces could begin to be adjusted, 
realigned, and retasked as the ISF become increasingly capable. General 
Jones' report stated that U.S. forces could soon be retasked to better 
ensure territorial defense of the state by concentrating on the eastern 
and western borders and the active defense of critical infrastructures 
essential to Iraq. This is very similar in many ways to the transition 
of mission proposed by the Iraq Study Group, and also proposed in 
legislation by Senator Ben Nelson and myself. We have suggested that 
our troops transition their mission and focus on border security, 
counterterrorism operations, training and equipment of Iraqi troops, 
and protecting Americans and American infrastructure. Under what 
conditions should the U.S. military begin a realignment of the mission 
in Iraq?
    General Petraeus. As the Commander, MNF-I, or if confirmed, as the 
Commander, CENTCOM, my responsibility is to execute the policy that has 
been decided upon by my chain of command. The current strategic goal of 
the United States in Iraq remains a unified, democratic, and Federal 
Iraq that can govern, defend, and sustain itself, and is an ally in the 
war on terror. Achieving this goal requires a comprehensive 
counterinsurgency campaign, working along security, economic, 
diplomatic, and political lines of operation, to help the Iraqi 
Government secure its citizens, develop capacity, grow its economy, and 
strengthen its relations with other countries in the region. Border 
security, counterterrorism operations, training and equipping Iraqi 
troops, and protecting our troops and infrastructure are all important 
aspects of our counterinsurgency efforts, but limiting U.S. troops to 
these actions would not enable us to achieve the United States' 
strategic goal in Iraq.
    Accomplishing this goal remains a complex and difficult 
undertaking, but our view is that we are on the right path. Significant 
security progress has been made, as the level of security incidents 
across Iraq for the past month is the lowest it has been for more than 
4 years, and we continue to transition additional responsibilities to 
the Iraqi Government and ISFs. This transition is evident in the fact 
that we have sustained our security gains even as three BCTs, a Marine 
Expeditionary Unit, and two Marine battalions have left without 
replacement. A fourth BCT has already given up its battle space and 
will withdraw this month, and the final surge brigade will leave by the 
end of July 2008. We have also reduced the detainee population in 
coalition facilities by a net of 3,500 detainees and this reduction, as 
well as our continuing detainee releases, will allow me to recommend 
reductions in units programmed for the detainee mission. We continually 
assess the conditions on the ground, and after a period of 
consolidation and evaluation this summer, we will seek to identify 
further possible force withdrawals.
    It is possible that the U.S. strategy and policy for Iraq could 
change. If that were to happen, I would work with other U.S. Government 
agencies to develop the comprehensive plans, including risk management, 
required to implement that strategy.

               SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN

    27. Senator Collins. General Petraeus, the work of Special 
Inspector General for Iraq Reconstruction (SIGIR), Stuart Bowen, has 
revealed an extraordinary litany of contracting waste, fraud, and abuse 
coming out of that country. His 336 investigations related to Iraq 
contracting have resulted in 5 convictions; 14 indictments pending 
trial; 14 arrests; 52 debarments or suspensions; $17 million in court 
ordered fines, forfeitures, and restitutions; and nearly $58 million 
saved through audits. In addition, the SIGIR is currently conducting 
audits of companies such as Halliburton's former subsidiary, Kellogg 
Brown and Root. Last year's National Defense Authorization Act created 
a new position, the Inspector General for Afghanistan, called the 
SIGAR. If confirmed as Commander of CENTCOM, what support will you 
provide to the SIGAR to ensure that office can provide adequate 
oversight to prevent waste, fraud, and abuse in contracting practices 
in Afghanistan?
    General Petraeus. If confirmed as the Commander, CENTCOM, I would 
provide my full support to the efforts of the SIGAR. Today's military 
operations require significant financial and contractor support, and 
audit and oversight agencies serve a critical role in ensuring that 
taxpayer money is well spent. As the Commander of MNF-I, I have fully 
supported and encouraged special reviews as I rely on oversight and 
audit processes to provide me essential information on the health of 
the organization. During my tenure, MNF-I has welcomed the Special 
Inspector General for Iraq Reconstruction as well as personnel from the 
Government Accountability Office, the DOD Inspector General, the Army 
Audit Agency, and the Army Criminal Investigation Command. As the 
Commander of CENTCOM, I would continue to provide my full support for 
oversight and review processes.
                                 ______
                                 
    [The nomination reference of GEN David H. Petraeus, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2008.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN David H. Petraeus, 0000.
                                 ______
                                 
    [The biographical sketch of GEN David H. Petraeus, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Resume of Service Career of GEN David H. Petraeus, USA
Source of commissioned service: USMA.

Military schools attended:
    Infantry Officer Basic and Advanced Courses,
    Armor Officer Advanced Course,
    United States Army Command and General Staff College,
    Senior Service College Fellowship--Georgetown University.

Educational degrees:
    United States Military Academy--BS--No Major.
    Princeton University--MPA--International Relations.
    Princeton University--PHD--International Relations.

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Aug 85
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Jan 00
MG........................................  1 Jan 03
LTG.......................................  18 May 04
GEN.......................................  10 Feb 07
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
May 75..........................  Jan 79............  Platoon Leader, C
                                                       Company, later S-
                                                       4 (Logistics),
                                                       later S-1
                                                       (Personnel),
                                                       509th Airborne
                                                       Battalion Combat
                                                       Team, Vicenza,
                                                       Italy.
Jan 79..........................  Jul 79              Assistant S-3
                                                       (Operations), 2d
                                                       Brigade, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
Jul 79                            May 81............  Commander, A
                                                       Company, later S-
                                                       3 (Operations),
                                                       2d Battalion,
                                                       19th Infantry,
                                                       24th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
May 81..........................  May 82............  Aide-de-Camp to
                                                       the Division
                                                       Commander, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
May 82..........................  Jun 83............  Student, Command
                                                       and General Staff
                                                       Officer Course,
                                                       Fort Leavenworth,
                                                       KS.
Jun 83..........................  Jun 85............  Student, Princeton
                                                       University,
                                                       Princeton, NJ.
Jul 85                            Jun 87............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       Social Sciences,
                                                       United States
                                                       Military Academy,
                                                       West Point, NY.
Jun 87..........................  Jun 88............  Military Assistant
                                                       to the Supreme
                                                       Allied Commander
                                                       Europe, Supreme
                                                       Headquarters,
                                                       Allied Powers
                                                       Europe, Belgium.
Jun 88..........................  Aug 89............  S-3 (Operations),
                                                       2d Battalion,
                                                       30th Infantry,
                                                       later 1st
                                                       Brigade, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       United States
                                                       Army Europe,
                                                       Germany.
Aug 89..........................  Aug 91............  Aide/Assistant
                                                       Executive Officer
                                                       to the Chief of
                                                       Staff, United
                                                       States Army,
                                                       Washington, DC.
Aug 91..........................  Jul 93              Commander, 3d
                                                       Battalion, 187th
                                                       Infantry, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       KY.
Jul 93                            Jul 94              G-3 (Operations)/
                                                       Director of
                                                       Plans, Training,
                                                       and Mobilization,
                                                       101st Airborne
                                                       Division (Air
                                                       Assault), Fort
                                                       Campbell, KY.
Aug 94..........................  Jan 95............  Senior Service
                                                       College Fellow,
                                                       Georgetown
                                                       University,
                                                       Washington, DC.
Jan 95..........................  Jun 95............  Chief Operations
                                                       Officer, U.N.
                                                       Mission in Haiti,
                                                       Operation Uphold
                                                       Democracy, Haiti.
Jun 95..........................  Jun 97............  Commander, 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Jun 97..........................  Sep 97............  Executive
                                                       Assistant to the
                                                       Director of the
                                                       Joint Staff, The
                                                       Joint Staff,
                                                       Washington, DC.
Oct 97..........................  Aug 99............  Executive
                                                       Assistant to the
                                                       Chairman, Joint
                                                       Chiefs of Staff,
                                                       Office of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC.
Aug 99..........................  Jul 00              Assistant Division
                                                       Commander
                                                       (Operations), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, North
                                                       Carolina and
                                                       Commanding
                                                       General, Combined
                                                       Joint Task Force-
                                                       Kuwait, Operation
                                                       Desert Spring,
                                                       Kuwait.
Jul 00                            Aug 00............  Acting Commanding
                                                       General, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Aug 00..........................  Jun 01............  Chief of Staff,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC.
Jun 01..........................  Jun 02............  Assistant Chief of
                                                       Staff for
                                                       Operations, SFOR
                                                       and Deputy
                                                       Commander, United
                                                       States Joint
                                                       Interagency
                                                       Counterterrorism
                                                       Task Force,
                                                       Operation Joint
                                                       Forge, Sarajevo,
                                                       Bosnia-
                                                       Herzegovina.
Jul 02                            May 04............  Commanding
                                                       General, 101st
                                                       Airborne Division
                                                       (Air Assault) and
                                                       Fort Campbell,
                                                       Fort Campbell,
                                                       KY, and Operation
                                                       Iraqi Freedom,
                                                       Iraq.
May 04..........................  Sep 05............  Commander,
                                                       Multinational
                                                       Security
                                                       Transition
                                                       Command-Iraq/
                                                       Commander, NATO
                                                       Training Mission-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq.
Oct 05..........................  Feb 07............  Commanding
                                                       General, United
                                                       States Army
                                                       Combined Arms
                                                       Center and Fort
                                                       Leavenworth, Fort
                                                       Leavenworth, KS.
Feb 07..........................  Present...........  Commander, Multi-
                                                       National Force-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq.
------------------------------------------------------------------------

Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Military Assistant to the Supreme     Jun 87-Jun 88  Major
 Allied Commander Europe, Supreme
 Headquarters, Allied Powers
 Europe, Belgium (Cumulative
 Joint Credit).
Chief Operations Officer, U.N.        Jan 95-Jun 95  Lieutenant Colonel
 Mission in Haiti, Operation
 Uphold Democracy, Haiti (No
 Joint Credit).
Executive Assistant to the            Jun 97-Aug 99  Colonel
 Director, The Joint Staff, later
 Executive Assistant to the
 Chairman, Joint Chiefs of Staff,
 Washington, DC.
Commanding General, Combined          Aug 99-Sep 99  Colonel
 Joint Task Force-Kuwait,
 Operation Desert Spring, Kuwait
 (No Joint Credit).
Assistant Chief of Staff for          Jun 01-Jun 02  Brigadier General
 Operations, SFOR and Deputy
 Commander, United States Joint
 Interagency Counter-Terrorism
 Task Force, Operation Joint
 Forge, Sarajevo, Bosnia-
 Herzegovina (No joint credit).
Commander, Multinational Security     May 04-Sep 05  Lieutenant General
 Transition Command-Iraq/
 Commander, NATO Training Mission-
 Iraq, Operation Iraqi Freedom,
 Iraq.
Commander, Multinational Force-      Feb 07-Present  General
 Iraq, Operation Iraqi Freedom,
 Iraq.
------------------------------------------------------------------------

U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with three Oak Leaf Clusters)
    Bronze Star Medal with ``V'' Device
    Defense Meritorious Service Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with two Oak Leaf Clusters)
    Joint Service Achievement Medal
    Army Achievement Medal
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN David H. 
Petraeus, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David H. Petraeus.

    2. Position to which nominated:
    Commander, United States Central Command.

    3. Date of nomination:
    30 April 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    7 November 1952; Cornwall on Hudson, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Hollister Knowlton Petraeus.

    7. Names and ages of children:
    Anne, 25; Stephen, 21.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations.
    Association of the United States Army.
    Association of Graduates, United States Military Academy.
    82d Airborne Division Assosciation.
    101st Airborne Division Association.
    504th Parachute Infantry Regiment Association.
    Static Line Association.
    555th Parachute Infantry Regiment Association.
    187th Infantry Regiment Association.
    SHAPE Alumni Association.
    7th Armored Division Association.
    Princeton Alumni Association.
    United States Parachute Association.
    Command and General Staff Foundation.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 David H. Petraeus.

    [The nomination of GEN David H. Petraeus, USA, was reported 
to the Senate by Chairman Levin on June 26, 2008, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 10, 2008.]
                              ----------                              

    [Prepared questions submitted to LTG Raymond T. Odierno, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
    Please provide any updates or modifications to the answers to 
advance policy questions that you submitted in connection with your 
recent nomination to the position of Vice Chief of Staff of the Army 
that you believe to be necessary to ensure that your views are fully 
and accurately reflected.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, Multi-National Forces-Iraq (MNF-I)?
    Answer. The Commanding General of MNF-I commands forces within Iraq 
and is the senior military representative to the U.S. Chief of Mission. 
MNF-I is a Combined Joint Task Force under Operational Control (OPCON) 
to the Commander of U.S. Central Command (CENTCOM). MNF-I conducts 
operations in support of the Government of Iraq, U.S. Mission, and 
other international organizations. The CG exercises Tactical Control of 
non-U.S. coalition forces and OPCON of the Multi-National Corps-Iraq 
(MNC-I). MNF-I is a strategic level command.
    Question. What are the differences between the duties and functions 
of the Commander, MNF-I and the Commander, MNC-I?
    Answer. The Commanding General of MNC-I is the senior operational 
level commander in Iraq. He directly commands forces conducting 
operations to restore order and security in Iraq.
    The Commanding General of MNF-I has a wider responsibility. He is 
responsible for all strategic issues and the political-military 
interface, working with the U.S. Ambassador and Government of Iraq to 
integrate all aspects of the campaign to include security, governance, 
economic development, communication, and transition.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. During my nearly 32 years of commissioned service, I have 
served the Army and the Nation from the tactical through the strategic 
level. I have been assigned in tactical and operational units for 22 
years and have commanded soldiers from company to Corps level while 
participating in numerous training and operational deployments. I have 
served in a variety of command and staff positions to include joint and 
multinational staffs, where I gained experience in strategic and 
combined operations, including a tour as a Military Advisor for Arms 
Control in the Office of the Secretary of Defense, a tour of duty as 
the Director of Force Management in the Headquarters, Department of the 
Army. I also served as the Chief of Staff of V Corps during Bosnia 
operations and served as Deputy Commander Task Force Hawk in Albania 
during the Kosovo Conflict. I also commanded the 4th Infantry Division 
during Operation Iraqi Freedom I, then served as the Assistant to the 
Chairman of the Joint Chiefs of Staff which entailed being an advisor 
to the Secretary of State, and most recently as Commander of III Corps/
Multinational Corps Iraq for the last 24 months. My professional 
military education, deployment experience, and assignment history have 
provided me broad knowledge, experience, and insight into what is 
needed to command coalition forces in support of the strategic goals 
outlined by the U.S. Mission Iraq. In particular, my recent tours of 
duty in Iraq have provided me with unique insights into the complicated 
situation and requirements needed to be successful in our mission in 
Iraq.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commander, 
MNF-I?
    Answer. If confirmed for this position, I intend to:

        <bullet> Continually update my military and civilian chain of 
        command of our analysis and assessment
        <bullet> Stay connected with my subordinate commanders and 
        higher headquarters
        <bullet> Lead and challenge all of MNF-I to continue to learn, 
        change, and adjust to the environment, in order to attain our 
        end state as quickly as possible
        <bullet> Continually assess the progress of our campaign and 
        make adjustments when necessary to ensure success
        <bullet> Establish mechanisms to incorporate the lessons 
        learned over the last 5 years
        <bullet> Maintain focus on the warrior ethos--Always place the 
        mission first; never accept defeat; never quit; never leave a 
        fallen comrade
        <bullet> Demand high moral and ethical behavior by all U.S. 
        forces
        <bullet> Be aggressive--tackle challenges as they arise and 
        mitigate the risk involved

                                  IRAQ

    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer. I believe we are in a significantly better position to 
achieve success in Iraq than we were in late 2006 and early 2007. The 
security situation is improved, with overall attacks, civilian deaths, 
and ethno-sectarian violence all down. Progress remains uneven and 
difficult challenges remain, specifically the continued presence of 
militias and Iran's malign involvement in training, equipping, and 
funding these militias. Second, AQI maintains the capability to conduct 
high profile attacks in some areas, although their capability is 
diminished. They will continue to attempt to de-legitimize the 
Government of Iraq. Iraqi security forces continue to improve and are 
increasingly taking the lead. However, all of this progress is still 
fragile. To achieve long-term sustainable security tough work still 
remains. The gap between needs of the Iraqi people and the capacity of 
the government has been reduced, but is not yet self-sustainable by the 
Government of Iraq. The Iraqi Government has begun to make progress on 
some very difficult issues and has passed some critical legislation, 
but implementation of this legislation is what is needed. There appears 
to be better cooperation among many political parties which has 
provided some unified positions across sectarian lines. However, Iraq's 
governmental capacity is still insufficient in many areas. Overall, we 
are moving in the right direction and progressing toward a stable and 
representative state in Iraq. However, for it to be sustainable we must 
continue U.S. involvement across all US Governmental agencies and 
continue to pressure the Iraqi Leaders to move forward economically, 
politically, and diplomatically.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. As U.S. forces in theater drawdown, we must ensure that 
malign influences are unable to reestablish themselves through 
violence. ISF and Coalition forces must continue to protect the Iraqi 
people while continuing to build Iraqi capability and capacity. Even as 
we assist in providing security, we must enable Iraqi security forces 
to increasingly assume the lead in securing their country. They must 
expand their governmental capability and capacity. We must encourage 
and support political accommodation and reconciliation at both the 
local and national level. Finally, we must recognize that the 
challenges associated with internal and external stability and security 
in Iraq cannot be solved solely in Iraq. We must continue to engage 
with Iraq's neighbors and seek to get these neighbors to support 
political compromise and stability in Iraq.
    Question. In your view, what are the major challenges that will 
confront the next Commander, MNF-I?
    Answer. In my opinion, the number one threat to Iraq is the 
communal struggle for power. The struggle between Shia-Sunni, inter-
Shia, inter-Sunni, Kurds, (et al.) with malign outside influences 
(predominately Iran and to a less degree AQI) trying to effect the 
outcome. Iran, through the support of illegal militias, AQI and other 
Sunni extremists (particularly in Northern and Central Iraq), poses the 
greatest threat to a lasting security. We must enable Iraqi security 
forces to increasingly take the lead against these challenges without 
creating significant risks to short- and long-sustainable security.
    There continue to be major challenges in the economic, political, 
and diplomatic realms. Gains made in security will be easier to 
preserve in an environment in which people have ready access to 
essential services and opportunities for employment. In addition, local 
and national political reconciliation efforts must continue to move 
forward. The provincial elections slated to occur later this year and 
the national elections scheduled to take place in 2009 will be 
important milestones in this process. The Iraqi Government must not 
only be representative, but also must continue to grow in capability 
and capacity. Finally, the Iraqi people continue to face challenges 
from countries in the region, as Iran provides lethal assistance to 
surrogates in Iraq and as Syria continues to take inadequate measures 
to stem the flow of foreign fighters into Iraq through its territory. 
Iraq's Arab neighbors must do more to reach out and engage Iraq in a 
positive fashion through concrete steps including debt relief and the 
establishments of embassies in Baghdad. I would seek to partner with 
the Ambassador and fully support his efforts to address these 
diplomatic and political challenges.
    Question. If confirmed, what broad priorities would you establish 
and what actions would you initially take as Commander, MNF-I?
    Answer. The gap between the Iraqi individual needs and desires and 
the ability of the Government of Iraq to provide for those needs and 
desires still exists. The role of coalition forces is to support the 
Government of Iraq in building capacity to meet the basic needs of the 
Iraqi citizens. We will assist the Government of Iraq by working to 
make the communal struggle for power less violent, helping them to 
develop legitimate Iraqi institutions and mitigate the negative effects 
created by those trying to exploit the gap. MNF-I basic objectives will 
be:

        <bullet> Provide security for the local populace
        <bullet> ISF is professionalized and self-sustaining and is 
        able

                <bullet> to move towards police primacy
                <bullet> to protect its borders
                <bullet> to maintain security with less and less 
                reliance on coalition forces

        <bullet> Assist the Government of Iraq in providing a more 
        legitimate and capable central, provincial, and local 
        government that has:

                <bullet> Credible and effective control with provincial 
                and local civil institutions
                <bullet> is accountable to the people of Iraq
                <bullet> has established the rule of law
                <bullet> delivers adequate services
                <bullet> increases employment through economic 
                development

                            LESSONS LEARNED

    Question. How would you characterize the effectiveness of the 
military tactics employed by the division under your command in Tikrit 
in 2003? What were the results of those tactics and what lessons did 
you, the theater command, and the Army learn from that experience?
    Answer. As is the case now, all areas in Iraq in 2003 faced 
significantly different challenges. In 2003 and the beginning of 2004, 
the 4th ID area of operations was the heart of the Sunni-Triangle and 
the Baathist Regime itself. This area of operations was probably most 
affected by the overthrow of Saddam Hussein and potentially lost more 
than any other group in Iraq. They were the privileged--therefore, the 
regime change followed by the dissolution of the Iraqi Army, as well as 
the implementation of debathification measures by the interim Iraqi 
Government, put thousands upon thousands of military, education, 
medical and local government employees out of work. This created an 
extremely tense environment and a corresponding increase in reaction 
and violence to these decisions. In the fall of 2003 this was the most 
violent area within Iraq. From November to March of 2004, we were able 
to significantly reduce the level of violence through a combination of 
lethal and non-lethal means and re-establish stability throughout the 
region. During this time, the division captured nearly 20 of the top 55 
high value targets to include Saddam Hussein in December of 2003. 
Additionally, we established standing provincial governments in Salah-
ah-Din, At Tamim, and Diyala provinces and started several job programs 
as well as began numerous reconstruction efforts. In the beginning of 
2004 through our transition of authority on 15 March 2004, we reduced 
the level of violence in the region to its lowest levels that have yet 
to be re-achieved. However we learned many lessons. It took us much too 
long to recognize the true nature of the insurgency. We did not have 
the capacity or expertise to fully understand the underlying cultural 
or tribal underpinnings of the region. We were unable to establish 
longstanding relationships and trust with the local tribal and 
religious leaders. We underestimated the relevance of justice and honor 
to the Iraqis and the necessity of creating honorable work not just 
jobs. Lastly, reconciliation had not yet become a viable concept. It 
took us 4 more years to see this take hold.
    Question. What were the major lessons you learned from your more 
recent experience as Commander, MNC-I, that are most applicable to the 
duties you are about to assume?

        <bullet> Securing the population comes first
        <bullet> Understand the complexity of the conflict--``COIN-
        plus''
        <bullet> Fundamental concepts

                <bullet> Secure the people where they sleep
                <bullet> Give the people justice and honor
                <bullet> Make the people choose

        <bullet> Integrate civilian and military efforts to ``mass 
        effects''. It is the combination of interagency and combined 
        arms

                <bullet> Embedded PRTs with the BCTs better leverages 
                the appropriate expertise and allows for increase 
                integration and synchronization
                <bullet> Total integration SOF and conventional forces 
                across the battlespace
                <bullet> Improved significantly our overall intel 
                capacity and our ability to synchronize the ``INTs'' at 
                the lowest level--ISR integration is more critical than 
                ever

        <bullet> Knowing the threat isn't enough . . . understand the 
        environment holistically
        <bullet> ``Aggressive pursuit'' continues even after the threat 
        recedes

                <bullet> Pushing the ISF as they grow in capacity and 
                take on responsibility
                <bullet> Pushing governance and economic development as 
                security improves

        <bullet> Building ISF capacity--there is no substitute for 
        partnership
        <bullet> Empowering ground-owning commanders (decentralization 
        of efforts)
        <bullet> Importance of headquarters elements
        <bullet> Importance of enablers as force multipliers and ``risk 
        mitigators''
        <bullet> What leaders do makes a critical difference . . . 
        everyday, at every level
        <bullet> Be first with the truth
        <bullet> ``Supporting the troops'' involves funding OGAs--CERP 
        is not enough

    Question. What do you consider to be the most significant mistakes 
the U.S. has made to date in Iraq?
    Answer.

          1. Inadequate post-war planning to exploit the military 
        success of the initial invasion. We underestimated/
        misunderstood the environment.
          2. Disbanding of the Iraqi Army and further de-Baathification 
        efforts threw thousands upon thousands of Iraqis out of work.
          3. It took us too long to recognize the insurgency and all of 
        its underpinnings, which allowed extremist groups to establish 
        themselves and gain passive support of the population.
          4. We attempted to turn complete control over to the Iraqis 
        too early when they did not yet have the capacity to govern or 
        secure the population. This resulted in a significant increase 
        in ethno-sectarian violence on that was exploited by Sunni/Shia 
        extremist groups.

    Question. Which of these mistakes, if any, still impact U.S. 
operations?
    Answer. They all to some extent still effect our operations, but we 
have made adjustments at the strategic, operational, and tactical level 
which is the beginning to have an effect.
    Question. What corrective action, if any, will you take if 
confirmed?
    Answer. I will ensure that we are a learning organization that is 
able to adjust its operations in order to meet the Nation's stated 
objectives. We will push the Iraqis to assume more control across the 
security, diplomatic, and governance lines of operation to include the 
investment of their wealth into their own country. We will continue to 
assess and analyze the strategic and operational environment and make 
adjustments.
    Question. During your prior combat tours of duty in Iraq, were 
there any incidents of which you were aware within your command of 
alleged detainee abuse or abuse of civilians?
    If so, please explain the circumstances and describe the actions 
that you took in response to these incidents.
    Answer. Unfortunately, due to the nature of our operations, 
allegations of detainee or civilian abuse occur frequently against both 
coalition forces and Iraqi security forces (ISF). For alleged abuse by 
U.S. forces, I require that all allegations be reported through the 
chain of command to me. I also require that each allegation be 
thoroughly and impartially investigated, evidence gathered and 
evaluated. Each case of confirmed abuse is treated as misconduct under 
the Uniform Code of Military Justice, adverse administrative 
procedures, or both. Each case is handled on its own merits at the 
appropriate level after due process is afforded to any soldier accused 
of such conduct. Known victims of confirmed abuse are compensated as 
part of our counter-insurgency strategy and our moral obligation to do 
right by our host country's citizens. We take our lessons learned from 
such incidents and refine our tactics, techniques, and procedures, as 
well as retrain our soldiers in the importance of following the Law of 
Armed Conflict, respecting Iraqi civilians, and treating detainees 
humanely.
    For allegations of abuse by ISF, I require that reports be made by 
U.S. inspectors of Iraqi military, police, and detention facilities, as 
well as anyone in my command who has information of this type of 
alleged conduct. The reports are forwarded to the appropriate liaison 
authority who can engage the right Iraqi leaders in order for them to 
address the allegations of Iraqi-on-Iraqi abuse.

              ROLE IN DEVELOPMENT OF THE NEW IRAQ STRATEGY

    Question. What role, if any, did you play in the development of the 
new Iraq strategy announced by the President in January 2007?
    Answer. After my arrival in Iraq in December 2006 as the MNC-I 
Commander, General Casey challenged me to take a look at different ways 
to break the cycle of sectarian violence in Baghdad. As a result of the 
assessment, we confirmed that Baghdad was the most important piece of 
terrain and ethno-sectarian violence, fueled by extremist elements was 
the primary cause of the problem. We conducted crisis action planning 
and through our assessment and analysis determined that we must first 
and foremost protect the population first in Baghdad and then the other 
ten cities. We also determined that there was an opportunity in Anbar 
to exploit some initial success that was created by the reconciliation 
efforts with the tribes. We developed tactics, techniques, and 
procedures to push coalition and ISF forces out into the neighborhoods 
in small Joint Security Stations (JSS) and combat outpost (COP). In the 
past we would clear areas but would not be able to hold these areas. We 
knew we must secure the population; we must deny the enemy sanctuaries 
and eliminate the support zones in the so called Baghdad Belts. We then 
developed the operational plan and requested the surge forces. This 
plan was briefed to General Casey and the Secretary of Defense for 
approval, and later to General Petraeus upon his arrival.

                     U.S. FORCE REDUCTIONS IN IRAQ

    Question. The President has said that following the withdrawal of 
the last surge brigade combat team in July there will be a 45-day 
consolidation and evaluation period, after which an assessment of 
conditions on the ground would begin to determine when recommendations 
for further reductions in U.S. forces in Iraq could be made.
    To your knowledge, aren't conditions on the ground in Iraq being 
continuously assessed?
    Answer. Commanders at all levels continually assess, both formally 
and informally, conditions in Iraq.
    Question. If so, why is it necessary, in your view, to wait 45 days 
to assess the conditions on the ground and determine when to make 
recommendations?
    Answer. The recommendation to reduce our forces by five combat 
Brigades and two Marine Battalions, back down to pre-surge levels was 
made based on our best judgment and analysis of many factors.
    The environment in Iraq is complex and constantly changing across 
security, economic, and diplomatic lines. One of our key considerations 
is to ensure that we do not give back gains we have made. We learned 
the lesson the hard way in 2006. In order to make informed decisions it 
is important to understand the risk involved and how you can best 
mitigate this risk. This 45 day period following a 25 percent reduction 
in combat brigades allows us to adequately and more accurately evaluate 
the risk and ensure that tactical, operational, and strategic risk 
mitigation techniques are sufficient.
    Question. Do you believe that there is a purely military solution 
in Iraq, or must the solution be primarily a political one?
    Answer. There is no purely military or purely political solution in 
Iraq. All four lines of operation--security, economic, diplomatic, and 
political--are mutually reinforcing and thus must be an important part 
of any long-term solution in Iraq. While the political line of 
operation, the effort to create political accommodation and good 
governance, is the main effort, it cannot be pursued to the exclusion 
of reinforcing efforts. We have seen in the past year that Iraqi 
leaders are more likely to make the type of compromise seen in 
February's legislative package when they and their communities are 
feeling more secure rather than less.
    Question. Do you believe that compromise among Iraqi political 
leaders is a necessary condition for a political solution?
    Answer. Compromise among Iraqi Political leaders is a necessary 
condition for any successful solution in Iraq.
    Question. What do you believe will induce Iraqi political leaders 
to make the compromises necessary for a political solution?
    Answer. We must continue to apply the right amount of pressure in 
order to ensure constant and consistent progress. I also believe 
constant communications between leaders in MNF-I and the Embassy with 
all Iraqi political leaders is essential. Iraqi leaders are under 
enormous pressure from internal and external sources and they have 
begun to make some progress with legislation as well as other areas. 
However, the importance of implementation will be the underpinning of 
long-term sustainable success, and we must continue to coach, teach, 
mentor, and pressure the Iraqi leadership along the way.
    Question. What leverage does the U.S. have in this regard?
    Answer. We must throw all means available; push, pull and convince 
Iraqi leaders that political solutions must be found by helping them 
find those solutions, coaching them, and urging them throughout the 
process. We must sustain our robust engagement, working with the 
Government of Iraq to identify mutual interests amongst Iraqi leaders 
and convincing them to make the hard decisions that are in the best 
interests of security and stability in Iraq.
    Question. In your view, what conditions on the ground in Iraq would 
allow for a recommendation to make further reductions in U.S. forces?
    Answer. There is no simple metric or calculation that can give us a 
green or red light on further reductions. However, if confirmed as 
Commander of MNF-I, I will focus on a number of variables such as the 
level of security, level of threat, capacity of the ISF, capacity of 
the ministries, capacity of the provincial and local governments, 
economic development, and improvement of basic services. We will use a 
variety of objective and subjective systems. However, I will rely most 
heavily on my subordinate commanders' recommendations and my own 
independent judgment.

                         INTERCOMMUNAL CONFLICT

    Question. You have noted that the conflict in Iraq has evolved and 
that, although there is still terrorism and insurgency, the current 
threat is the intercommunal fight over power.
    How has this changed the fundamental nature of the conflict in 
Iraq?
    Answer. Since liberation in 2003, the conflict in Iraq has been a 
competition among ethnic and sectarian communities for power and 
resources. This has played out differently over time, with inter- and 
later intra-sectarian violence, and it is accompanied by a complex 
mixture of destabilizing forces such as terrorism, regional 
interference, and foreign-fueled proxy war. As Iraq progresses forward 
it will continue to be a complex problem set.
    Question. How would you recommend that military strategy adapt to 
this change in the nature of the conflict?
    Answer. I believe our strategy in Iraq is well-suited to address 
this conflict over power and resources. As commander of MNC-I, I had a 
hand in the development of the Joint Campaign Plan. It addresses not 
just the manifestation of this conflict (security) but its roots 
(economic, political) and a comprehensive approach to address it 
(security, economic, diplomatic, and political). The strategy also 
involves directly addressing sectarian division, engaging with 
dissonant factions and individuals to bring reconcilable enemies to the 
realization that the best means of change is the political process and 
not armed conflict. We have also worked to bring together rivaling 
religious and political leaders to work together for their communities. 
Our efforts have been reinforced by the general population's increasing 
rejection of violence and those who would cause it. Although there is a 
long way to go, our strategy to address the conflict in Iraq is helping 
to enable progress by the Iraqi Government.
    Question. What is the appropriate role of coalition forces in 
response to the threat and conduct of intercommunal violence among 
militant groups vying for control, particularly in southern Iraq?
    Answer. The role of coalition forces is to support the elected 
government and help that government enforce its monopoly on the 
legitimate use of arms. It is my sense that Iraqi leaders have largely 
begun to unite around the issue of disarming all militias, and we seek 
to support them in that effort.
    Question. Recent months have seen an increase in kidnappings and 
murders of non-Muslim religious leaders.
    In your opinion, are non-Muslim religious minorities in Iraq at 
greater risk?
    Answer. I believe the non-Muslim religious minorities are not at 
greater risk from the majority of Iraqis. However, there are extremist 
elements that target several groups to include non-Muslim religious 
minorities in order to maintain their own legitimacy.
    Question. Are there any groups that are particularly vulnerable?
    Answer. Recent events in Basra and Sadr City indicate that low 
level Iraqi Government officials and Iraqi security forces are at the 
greatest risk when traveling outside established safe zones.
    Question. If so, what is the appropriate role for the U.S. military 
in addressing their vulnerability?
    Answer. The U.S. must ensure that threat reporting and information 
is shared with Iraqi counterparts to ensure widest possible 
dissemination; this allows individuals (of all religions and sects) who 
are at risk to take property security measures.

                        CONFRONTING THE MILITIAS

    Question. Based on your knowledge, is the Iraqi Government taking 
the steps it must to confront and control the militias?
    Answer. The Iraqi Government has taken some critical steps in 
recent months toward confronting criminal militias. Prime Minister 
Maliki made the courageous decision in March to confront militia 
elements in Basra that were carrying out acts of intimidation and 
murder, threatening peace and the rule of law. Reports state that Prime 
Minister Maliki has become vocal in his stance that the Government of 
Iraq must have a monopoly on the legitimate use of arms, and the 
government and ISF are attempting to enforce this point in Baghdad, 
particularly Sadr City. It appears the government is more willing to 
use its forces to confront militia elements. This must be followed by 
diplomatic and humanitarian efforts. However, this is only the first 
step in reducing militia influence. It will take a concerted effort 
over time to have long-term success.
    Question. What role would you expect to play on this issue, if 
confirmed?
    Answer. I will continue to work with the Iraqi Government to assist 
them in confronting militias by using all the tools available to them 
(military, diplomatic, and humanitarian.) Coalition forces will 
continue to support and enable Iraqi forces in their kinetic and non-
kinetic operations against militias through partnership and the use of 
coalition advisors.
    Question. What has been the role of American troops with respect to 
recent operations in and around Sadr City and in Basra?
    Answer. It is my understanding that U.S. support for the Sadr City 
and Basra operations has been generally in line with the support 
coalition forces regularly provide to Iraqi operations.
    In Basra, working in coordination with the U.K. contingent in 
Multi-National Division--Southeast, the coalition has continued to 
support Iraqi-led operations with planning, some logistic enablers, 
close air support, and ISR. U.S. and U.K. Military Transition Teams 
embedded with Iraqi units on the ground play an integral role in these 
support efforts.
    It is my understanding that U.S. forces in Baghdad are playing a 
more robust role in planning and executing operations in the Baghdad 
Security Districts than in Basra. They are conducting extensive 
surveillance operations in Sadr City and partnering with Iraqi units on 
the ground, using ISR and Air Weapons Team assets to conduct targeted 
operations in response to attacks originating in Sadr City. As typical 
in the ``partner'' phase of the lead-partner-overwatch transition to 
ISF control, coalition forces operate alongside and in coordination 
with Iraqi Army, Special Operations, and Police units.

                  PERFORMANCE OF IRAQI SECURITY FORCES

    Question. As part of the new strategy in Iraq, the Iraqi Government 
agreed to send three additional Iraqi Army brigades to Baghdad.
    How many additional Iraqi Army brigades have been deployed and 
participated in operations in Baghdad since January 2007?
    Answer. In January 2007, the Government of Iraq committed to 
providing sufficient forces to conduct operations in support of the 
Baghdad Security Plan (Benchmark #9--Securing, Stabilizing, and 
Rebuilding Iraq). In February 2007, the Government of Iraq established 
an Iraqi Army (IA) battalion rotation plan in support of Fardh al 
Qanoon to provide three additional brigades (9 additional battalions) 
of combat power to Baghdad. On 1 December 2007, the 2nd and 3rd 
Brigades of the 11th IA Division completed force generation and assumed 
responsibility for battlespace within the Baghdad Province, allowing 
six of the rotational battalions to return home. The 4th Brigade of the 
11th Division is scheduled to complete the force generation process in 
November 2008, which will allow the 4th Brigade, 1st IA Division and 
its battalions to return home to Anbar Province. 4/11 IA will fulfill 
the requirement to have three additional IA brigades permanently 
stationed in Baghdad (in accordance with Benchmark #9). Over the past 
year and a half, there have been as many as six additional battalions--
above and beyond the requirement for three brigades--temporarily 
deployed to Baghdad in support of ongoing operations.
    Question. How many additional Iraqi Army brigades are there now?
    Answer. The 4th Brigade, 1st IA Division will remain deployed to 
Baghdad until completion of the force generation of 4th Brigade, 11th 
IA Division, thus fulfilling the requirements of the Baghdad Security 
Plan. Currently, there are six additional battalions deployed to 
Baghdad in support of ongoing operations in Sadr City.
    Question. How would you characterize the performance of Iraqi 
forces in the conduct of recent security operations in and around 
Baghdad?
    Answer. It is difficult for me to comment on recent security 
operations since I have not been in theater for about 90 days. But when 
I was there, we were seeing steady progress in planning and execution 
at battalion and brigade level by the ISF. Progress is still not 
uniform, and there are still some significant NCO and officer 
shortages, as well as some small pockets of sectarian behavior.
    Question. As U.S. surge forces are withdrawn, are Iraqi Army 
brigades assuming the areas and missions of these units?
    Answer. As local conditions vary, so does Iraqi force capability on 
the ground. In general, our intent is to thin out U.S. presence rather 
than withdraw it from a given area. In many cases, we are spreading out 
our presence as troops leave and continuing to partner with ISF. In 
other cases, ISF units on the ground--to include Iraqi Police, National 
Police, and Iraqi Army elements--are assuming a greater role. Several 
provinces are scheduled to transfer to Provincial Iraqi Control in the 
coming months. The specific arrangement varies not only province to 
province, but city to city and in some cases neighborhood to 
neighborhood.
    Question. If so, are gains in reduced violence and increased 
stability achieved by U.S. forces being effectively maintained in the 
areas for which Iraqi Army forces have assumed responsibility?
    Answer. It is imperative that we preserve hard won gains. We must 
take an approach that allows us to preserve these gains by ensuring 
that Iraqi forces are capable and supported so they not only take 
responsibility, but are successful. In general, our intent is to thin 
out U.S. presence over time rather than completely withdraw from a 
given area.
    Question. In March 2008, the Iraqi Army launched a major offensive 
aimed at forcing the Mahdi Army out of Basra.
    What is your assessment of the Iraqi Government and security 
forces' strategic and operational planning and preparation for the 
operation in Basra?
    Answer. It is very difficult to make an assessment from afar. From 
reporting, it appears Iraqi operations in Basra began much more quickly 
than originally planned and thus suffered initially from a lack of 
sufficient strategic and operational planning and conditions setting. 
But as operations have continued, with our coaching and assistance, 
Iraqi planning has seen growth in capability.
    What is encouraging is that Iraq Security Forces demonstrated they 
have the ability to deploy over a division's worth of personnel and 
equipment across the country and then employ them upon arrival--a feat 
which was not possible in 2006.
    Question. What is your assessment of Iraqi security forces' 
tactical performance during operations in Basra?
    Answer. I have not personally observed these operations and can not 
make an accurate assessment.
    Question. In your view, did this operation accomplish the Iraqi 
Government's strategic and the Iraqi security forces' operational 
objectives?
    Answer. Through reporting, it is my view that it is too early to 
talk about operational or strategic success. However, it appears the 
militia's grip on Basra's neighborhoods has been affected, and 
significant caches have been found throughout the city. The operation 
appears to be garnering support from citizens of Basra, but any 
conclusions at this time about the operation's overall tactical and 
strategic accomplishments would be premature.

                          COMMAND AND CONTROL

    Question. What is the command and control relationship between 
American and Iraqi forces in the new Baghdad security plan?
    Answer. Iraqi security forces in the Baghdad area receive all 
orders through national command channels, and U.S. forces operate under 
the command and control of Multi-National Corps Iraq. The relationship 
between these two chains of command is one of constant coordination and 
cooperation.
    Question. What concerns, if any, have you had about command and 
control relationships with Iraqi forces, and what have been the lessons 
learned in this regard over the last year of combined operations?
    Answer. The issue of command and control relationships is an 
important one, and the most critical imperative has been to ensure 
unity of effort. Over the past year, we have gained a great deal of 
experience as a result of our partnership between transition teams and 
Iraqi units and our close cooperation at the tactical level. The 
operations of the last year particularly have reaffirmed the value of 
our training and transition teams. These elements have been critical in 
providing coalition forces with situational awareness and in helping 
the coalition to support Iraqi operations with enablers such as 
logistics, intelligence, and close air support.

                       COUNTERINSURGENCY DOCTRINE

    Question. According to Field Manual 3-24, the new counterinsurgency 
manual, ``20 [soldiers or police forces] per 1,000 residents is often 
considered the minimum troop density required for effective 
counterinsurgency operations.'' Baghdad alone, according to doctrine, 
requires a force of 120,000-130,000 personnel to meet the minimum 
requirement. However, the planned increase in U.S. and Iraqi forces for 
Baghdad only provided for about 80,000 security forces.
    Do you believe that 80,000 U.S. and Iraqi troops has been and 
remains sufficient and if so, why?
    Answer. While every commander would like additional resources, the 
80,000 troops that were in or moved to Baghdad were sufficient given 
the political-military situation and phased conduct of operations. 
Counterinsurgency requires local security forces and not just soldiers. 
At the same time, the Baghdad police were expanded and now have an 
authorization of over 39,000. In addition, it is important to recognize 
the security contribution of 30,000 Sons of Iraq assisting U.S. forces 
in Baghdad alone. As the Baghdad security plan has progressed, these 
forces proved to be sufficient to allow gradual but steady progress in 
efforts to clear and hold Baghdad's neighborhoods. I would also add 
that the critical increase in the enablers such as ISR platforms, 
intelligence teams, and aviation, as well as many other enablers, has a 
significant impact.
    Question. What is your understanding of the status and adequacy of 
the risk assessment and mitigation plan associated with this deviation 
from doctrine?
    Answer. As the former commander of MNC-I, I can attest that risk 
assessment and planning to mitigate risk occur on a continuous process 
in Iraq. As operations in Iraq are considered and undertaken, 
commanders consider the risk to our own as well as Iraqi forces, as 
well as the risk of thinning our lines in areas which we currently 
hold. If confirmed, I would continue to ensure that risk assessment 
occurs on a continuous basis.

                       LENGTH OF IRAQI INSURGENCY

    Question. The Chief of Staff of the Army, General Casey, has said 
that 20th century counterinsurgency efforts typically lasted 9 years.
    How long do you believe the counterinsurgency campaign in Iraq 
could last? Do you have reason to believe that this campaign will be 
shorter than the typical effort cited by General Casey?
    Answer. I agree with General Casey that the counterinsurgency 
campaign in Iraq will continue for some time, but its duration will 
depend on a variety of factors about which it is very difficult to make 
judgments. While the support of the United States will be important for 
some time to come, ultimately the Government of Iraq must win this 
fight. Therefore, while the counterinsurgency campaign could last 9 
years, it is not necessarily the case that U.S. forces would be 
involved in substantial numbers for the duration of that period.

                     SUSTAINMENT OF U.S. COMMITMENT

    Question. Based on your knowledge of the Army and its state of 
readiness, how long do you believe the Army can sustain U.S. troop 
levels in Iraq of approximately 140,000 troops at their current 
operational tempo?
    Answer. Over the past few years, we have seen definitive 
indications that the force is strained. Stress on soldiers and units 
resulting from increased time deployed and decreased time at home are 
visible in several different areas including training, readiness, and 
recruitment. However, the Army has a plan that will, with congressional 
assistance, restore balance to our force. The Army has identified four 
imperatives that we must accomplish to place ourselves back into 
balance: sustain, prepare, reset, and transform.
    We have and will continue to make significant progress in these 
areas to bring the Army back into balance. We assess that we will 
continue to recruit and retain enough soldiers to meet our end strength 
requirements. The Army also has received authorization to accelerate 
our growth plan to 2011, which will assist in restoring balance to 
preserve our All-Volunteer Force, restoring the necessary strategic 
depth and capacity for the future while sustaining a provision of 
forces to combatant commanders at pre-surge levels.
    While the Army is continually working to reduce the deployment 
times of its soldiers, it is capable of meeting the current level of 
global commitments as long as they remain at or below pre-surge levels 
for the foreseeable future. In doing so, we will continue to deploy 
only the best led, manned, equipped, and trained soldiers into combat 
to meet the national strategy.

        STATE OF TRAINING AND EQUIPPING OF IRAQI SECURITY FORCES

    Question. What is your understanding of the state of training and 
equipping of Iraqi security forces?
    Answer. Over two-thirds of Iraqi Army units are leading security 
operations throughout Iraq, and over half of the police units of the 
Ministry of Interior are capable of planning and executing 
counterinsurgency operations. However, numerous challenges remain in 
logistics and other enablers. The single most important area that still 
needs improvement relates to shortages in the officer and 
noncommissioned officer corps.
    Question. What is your assessment of Iraqi security forces progress 
toward assumption of full responsibility for internal security?
    Answer. Iraqi security forces have made important progress, but are 
not yet ready to assume full responsibility throughout Iraq on their 
own. Over the past 16 months, an increasingly robust Iraqi-run training 
base enabled Iraqi security forces to grow by over 133,000 soldiers and 
police, and this still-expanding training base is expected to generate 
an additional 73,000 soldiers and police through the rest of 2008. 
Additionally, Iraq's security ministries are steadily improving their 
ability to execute their budgets. Despite these gains, however, recent 
operations have underscored the considerable work that remains to be 
done in the areas of expeditionary logistics, force enablers, staff 
development, and command and control.

                             BURDEN SHARING

    Question. What are your views on the responsibility and ability of 
the Iraqi Government to assume the cost of training, equipping, and 
operations for its security forces?
    Answer. The Government of Iraq has a responsibility, and also the 
increasing capability, to assume the training, equipping, and 
operations costs for the Iraqi security forces. In 2006 and 2007, 
Iraq's security ministries spent more on their forces than the United 
States provided through the Iraqi security forces fund. Iraq is 
expected to spend over $8 billion on security this year and $11 billion 
next year. The trend of Iraq spending more for its own defense and the 
United States paying less will continue over time. However, it is 
important that this occur in a somewhat gradual manner rather than all 
at once to avoid major disruptions and delays in the development of 
more capable Iraqi security forces.
    Question. What are your views on the responsibility and ability of 
the Iraqi Government to share the cost of combined operations with 
Multi-National Force-Iraq forces and stability programs throughout 
Iraq?
    Answer. The Government of Iraq is responsible for sharing the cost 
of security operations and stability programs throughout Iraq, and it 
is increasingly doing so. As an encouraging example, the Iraqi 
Government recently allocated $300 million for the coalition forces to 
manage as Commanders' Emergency Response Program funds. This initiative 
has enabled coalition forces to execute projects for the Iraqi people 
while the Iraqi Government continues to build its own capacity to do 
so.

                            PERMANENT BASING

    Question. In the National Defense Authorization and Appropriation 
Acts for Fiscal Year 2008, Congress prohibited the use of funds to seek 
permanent bases in Iraq or to control the oil resources of Iraq.
    Do you agree that it is not and should not be the policy of the 
United States to seek permanent basing of U.S. forces in Iraq or to 
exercise control over Iraq's oil resources?
    Answer. Yes.
    Question. Do you agree that it is important for the Government of 
Iraq to assume greater responsibility for paying the costs of 
reconstruction throughout Iraq, including paying for all large-scale 
infrastructure projects?
    Answer. Yes.

                            FORCE PROTECTION

    Question. The Baghdad security plan distributed American units with 
Iraqi units over approximately 30 mini-bases throughout Baghdad.
    What is the status of American forces' distribution to small local 
bases throughout Baghdad?
    Answer. Coalition forces have nearly completed the establishment of 
planned stations and outposts in Baghdad. 53 of 55 Joint Security 
Stations (JSS) and 22 Combat Outposts (COPs) are established.
    Question. If confirmed as Commander, Multi-National Force-Iraq, how 
would you ensure the protection of those forces and the forces which 
would have to resupply them on a daily basis?
    Answer. Force protection and sustainment of JSS and COPs is always 
a major concern. If confirmed, I will ensure constant assessments are 
made of our current force protection measures and constant adjustments 
are made to improve our operational, tactical, and technical measures 
of force protection; ensuring we do all possible for the protection of 
all U.S. and coalition forces.

                    AIRBORNE INTELLIGENCE COLLECTION

    Question. CENTCOM issued a Joint Urgent Operational Need Statement 
(JUONS) in December of 2006, for a large number of additional aircraft 
with imaging and signals intelligence capabilities. Since that JUONS 
was issued, even larger requirements for such intelligence platforms 
have been articulated by commanders in the theater. It appears that the 
Department of Defense (DOD) has been slow to respond to these 
requirements, although recently the Air Force has ``surged'' a large 
number of Predator unmanned aerial vehicles (UAVs) to CENTCOM. However, 
this surge and other activities will not close the gap between 
available and required resources. The main problem appears to be that 
there are bottlenecks in fielding more UAVs in the near future, coupled 
with a reluctance to seek alternative aircraft to the UAV programs-of-
record.
    Do you believe that small manned aircraft acquired from the 
commercial sector could provide a practical near-term solution to 
CENTCOM's intelligence platform shortage?
    Answer. As we develop our requirements we normally do not focus on 
specific platforms. We try to identify the operational and strategic 
needs and define shortfalls in capability and capacity. Then we seek 
needed capabilities and practical solutions rather than specific 
platforms and technologies.
    Question. Are you satisfied that this potential solution has been 
adequately considered?
    Answer. Yes. I believe that MNF-I and CENTCOM, in coordination with 
the DOD Task Force on ISR, are considering all possible solutions to 
ISR shortfalls.

                 INTELLIGENCE SUPPORT FOR GROUND FORCES

    Question. Since the attacks of September 11, 2001, Special 
Operations Command (SOCOM) and the national intelligence agencies have 
developed effective equipment, tactics, and intelligence dissemination 
practices to target al Qaeda personnel and personnel from other related 
terrorist networks. The effectiveness of these tools and their utility 
for regular ground forces in battling militias and IED networks are now 
more widely recognized. As a result, some of these tools and 
capabilities are migrating to Army and Marine Corps ground forces.
    Do you believe that regular Army and Marine Corps ground forces can 
replicate the capabilities developed by Special Forces?
    Answer. Special Operations Forces and conventional Army and Marine 
Corps units do have some overlapping capabilities. However, they also 
have unique characteristics based on their missions. For example, 
conventional forces are specifically designed to be able to hold 
terrain--a task for which Special Operations Forces are ill-suited. 
Conversely, Special Operations Forces are organized, trained, and 
equipped to conduct foreign internal defense, strategic reconnaissance, 
and specific counterterrorism missions typically beyond the 
capabilities of conventional units. Both conventional and Special 
Operations Forces are needed as part of the comprehensive approach 
necessary to defeat organizations such as the al Qaeda network. One of 
the positive developments we have seen in Iraq is an increasing 
sophistication in the ability of our conventional forces to work 
closely with Special Operations Forces to synchronize efforts and 
achieve a greater effect. Conventional and Special Operation Force 
capabilities continue to mature; which has created substantially more 
cooperation and synergy and improved capacity.
    Question. Are MNF-I commanders now attempting to accomplish this?
    Answer. During my time as MNC-I Commander, one of our greatest 
successes was the synchronization and interaction of conventional and 
Special Operations Forces. Conventional force commanders in Iraq 
continually adapted to accomplish their missions in diverse and complex 
local environments. Some of the tasks that they undertook, such as 
partnering with local Iraqi security forces, resembled missions 
historically associated with Special Forces. However, these efforts 
complement rather than duplicate the work done by Special Operations 
Forces. Similarly, Special Operations Force commanders recognize that 
their missions must complement the efforts of conventional force 
commanders who are responsible for maintaining security in the areas in 
which Special Operations Forces conduct missions. Our gains in 
effectiveness have come not from merging the two different types of 
units, but from increasing the coordination and synchronization of 
their efforts.
    Question. Has DOD provided the resources to acquire the equipment 
and intelligence dissemination support to enable Army and Marine Corps 
ground forces to adopt or adapt these tactics, techniques, and 
procedures?
    Answer. A critical enabler for the success of coalition operations 
in Iraq, particularly as we have drawn back down from surge force 
levels, has been a robust intelligence, reconnaissance, and 
surveillance (ISR) posture. ISR assets have increased operational 
effectiveness and improved force protection capabilities. Platforms 
such as the armed Predator have also enabled precision targeting, which 
allows the elimination of threats, such as an enemy indirect fire team, 
while avoiding civilian casualties and damage to property. But this 
must be a continuous and dynamic process. The enemy will adapt and we 
must continue to adapt.

                       MILITARY TRANSITION TEAMS

    Question. Do you believe that the size, structure, number, and 
operating procedures for U.S. Military and Police Transition Teams 
embedded with Iraqi security forces need to be changed in any way? If 
so, what would you recommend?
    Answer. The current military transition teams, composed of 10-15 
personnel, do not require any significant changes, as they have proven 
to be highly successful during major operations across the battlefield. 
A team's composition is the result of battlefield assessments, 
commander's recommendations, and feedback from teams themselves. 
Recently, the Iraq Assistance Group, in conjunction with the Multi-
National Division Commanders and division-level Transition Team chiefs, 
reviewed all transition team manning and requirements. This allowed 
Human Resources Command to modify the rank and specialty of selected 
positions within Transition Teams. This provided greater flexibility 
for the Army to assign team members who are qualified to coach, teach, 
and mentor Iraqi security forces.
    The Iraqi Army will continue to increase in size over the next year 
and a half; however, this does not generate a need to increase the 
number of external Transition Teams. As Coalition Forces move toward 
operational overwatch, fewer forces will be involved in direct 
conflict, allowing more focus on the training and preparation of Iraqi 
forces. Coalition Forces will gradually shift to operational overwatch 
as threat levels decrease, more ISF units achieve ORA level one status, 
and Iraq moves towards sustainable security.
    In the short-term, MNC-I remains focused on security and stability 
operations, using a combination of internal and external Transition 
Teams, in conjunction with aggressive coalition partnering, to maintain 
current gains and continue to build towards Iraqi security autonomy. 
MNF-I and MNC-I continue to assess the optimal size and role of 
transition teams and the adjustments required to the Coalition Brigade 
and Division force structure for the future. Teams will likely remain 
10-15 man elements. Coalition units will frequently augment teams based 
on operational need.
    The size, structure, and operating procedures of Police Transition 
Teams (PTTs) are sufficient. PTTs have a core element of 11-16 
individuals, though BCT commanders frequently augment the team based on 
their specific needs. The size of the PTTs allows partnering with 
Coalition units, which fosters continual improvement of the Iraqi 
Police Service.
    The total number of personnel serving on PTTs is not sufficient. 
Because of manning levels, coalition forces currently have 252 Police 
Transition Teams in the 9 Provinces that have not yet transferred to 
Provincial Iraqi Control. This is only 83 percent of the 305 total PTTs 
required to provide coverage to all Police districts and stations 
within those provinces.
    Question. What is your view of the potential transition of this 
mission to contractors?
    Answer. I support the DOD policy that prohibits contractors from 
serving in roles in which they are an integrated part of a combat force 
and from direct participation in offensive combat operations. In order 
to be effective in developing ISF capability, Transition Teams serve 
with Iraqi forces in day-to-day operations as advisors and trainers. 
This constant presence with ISF units provides a link to Coalition 
enablers and allows the ISF to learn by observing our fine officers and 
noncommissioned officers in action on the battlefield everyday. Some 
contracted personnel play a properly limited but valuable role in Iraq 
by serving as advisors to Transition Team leaders on issues such as 
military doctrine, tactics, techniques, and procedures.
    Question. What is your understanding of how the Army and Marine 
Corps are ensuring that U.S. troops are properly trained for this duty, 
to include dissemination of ``lessons learned'' to incoming teams?
    Answer. Prior to serving as advisors to Iraqi security forces, Army 
and Marine Corps teams undergo extensive training regarding cultural 
awareness, advisor skills, ground maneuver tactics, individual and crew 
served weapons, foreign weapons, fire support, logistics, intelligence, 
and communications. Externally sourced Army teams attend training at 
Fort Riley, KS and then Camp Beuhring, Kuwait, while Marine teams train 
at Twentynine Palms, CA. Internally sourced Army teams conduct training 
at home station with their Brigade Combat Team and participate in 
training exercises to include Combat Training Center rotations and 
Mission Readiness Exercises. All teams, regardless of sourcing, attend 
training at the Phoenix Academy in Taji, Iraq, before conducting a 10-
day transition with outgoing teams.
    The Iraq Assistance Group (IAG), a directorate of MNC-I, Fort 
Riley, and Twentynine Palms, conduct quarterly training conferences to 
review all training programs. Also, if major changes in enemy tactics, 
techniques, and procedures occur, that information is immediately 
transmitted to Fort Riley for input into training plans for deploying 
teams. Sixty days into their deployment, teams conduct an initial 
review that is designed to provide direct feedback on the training they 
received and allow immediate adjustments to training at Fort Riley. IAG 
compiles and posts on its website lessons learned and best practices 
from over 200 teams in the field to allow easy access. These lessons 
learned are discussed during quarterly conferences to ensure the data 
is incorporated into future training and is easily accessible for all 
teams.
    The mission to train Transition Teams (TTs) is currently supported 
by over 25 major external agencies, including the Center for Army 
Lessons Learned, the Defense Language Institute, and the Joint Center 
for International Security Force Assistance. Additionally, the IAG runs 
two very effective programs, the alumni program and the Pre-Deployment 
Site Survey (PDSS) program. The alumni program sends current TT members 
back to Fort Riley during their mid-tour leave to discuss lessons 
learned and link up with incoming team members. The PDSS program brings 
every team leader undergoing training at Ft. Riley to Iraq to colocate 
and operate with the team they will replace for a 7-10 day period. They 
gain valuable insight into their area of operations and bring lessons 
learned back to their team's training program at Fort Riley.
    Question. If confirmed, what would you recommend in this regard?
    Answer. I will support aggressive assessment and adjustment to 
Transition Team training and lessons learned proliferation. It is 
critical to continue to adjust and improve the critical component of 
our strategy.

                      DETAINEE TREATMENT STANDARDS

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. The standards outlined in Common Article 3 must be the 
standard for U.S. and Coalition Forces to adhere to in regards to the 
handling of detainees at all levels. How we treat detainees reflects 
upon us as a nation.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes. The FM clearly articulates what is and what is not 
authorized and effectively identifies methods to ensure accountability 
while at all times ensuring humane treatment. Having one interrogation 
standard outlined in one document adds clarity.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen, or marines are 
treated, should they be captured in future conflicts?
    Answer. Yes. I agree that the way we treat detainees may affect how 
our captured U.S. soldiers, sailors, airmen, and marines are treated. 
We adhere to Common Article 3 of the Geneva Conventions as a baseline 
for treatment, regardless of whether our enemies afford us that 
treatment.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes. FM 3-24, Counterinsurgency, mandates compliance with 
Common Article 3 of the Geneva Conventions. Treating detainees in 
compliance with the Geneva Conventions is an integral part of 
counterinsurgency operations.

                     IRAQI STATE-OWNED ENTERPRISES

    Question. What is your understanding and assessment of the status 
of DOD efforts to help restart Iraqi state-owned enterprises to 
increase employment in Iraq?
    Answer. Prior to 1991, Iraq was the most industrialized of the Arab 
States, with a significant base of industrial operations across a wide 
range of sectors and a highly skilled civilian workforce. From 1991-
2003, industry in Iraq was strictly focused on internal production to 
meet domestic demand as United Nations sanctions prevented export of 
goods or international economic engagement. Many of these factories 
shut down immediately after liberation. Coalition efforts to help Iraq 
revitalize its State-Owned Enterprises (SOEs) are led by the Task Force 
to Improve Business and Stability Operations in Iraq (TF BSO). TF BSO 
has assisted Iraqi leaders in restoring operations and/or materially 
increasing production at 56 factories across Iraq. Funded projects, 
which were specifically targeted to restart or increase production, 
range from procurement of raw materials and spare parts to replacement 
of damaged or obsolete production equipment. Initiatives to revitalize 
SOEs have directly resulted in the re-employment of over 100,000 idled 
or underemployed workers.
    In coordination with Iraqi leaders, TF BSO continues its efforts to 
restart production at Iraqi factories, with specific focus on 
agriculture and food processing operations and factories in Southern 
Iraq that had been inaccessible prior to recent military operations. To 
ensure sustainable results, TF BSO is assisting with the application of 
standard business investment management practices to the process of 
allocating new funds to idled or low-production-rate factories. 
Coalition personnel also instruct factory managers in business plan 
preparation, marketing strategies, and capital investment plans.
    The Iraqi Government announced in January the first private 
investment awards to international consortiums--for three cement 
factories. Two of these deals, which average over $100 million each, 
were finalized in April, and another is still in negotiation. Under the 
private joint venture arrangement, investors will manage the facility 
and increase current production levels six-fold, thus creating 
employment for 5,000 Iraqi workers. These deals represent a modern, 
profitable business model for investors and for Iraq. In combination 
with other initiatives focused on private sector development, banking, 
budget execution, and facilitation of foreign direct investment, these 
are small but positive steps toward market economy development in Iraq.
    The jobs created by the revitalization of SOEs are an important 
support to Coalition and Iraqi efforts to reduce underemployment; this 
has a direct impact on security in that it decreases the pool of 
economically-driven potential recruits for insurgent and extremist 
elements in Iraq. Revitalization efforts are also an important first 
step toward future privatization of Iraqi industries. I would seek to 
encourage further development of these initiatives if confirmed.

                             IRAQI REFUGEES

    Question. The United Nations estimates that over 2 million Iraqis 
have been displaced, of which 1.8 million have fled to surrounding 
countries while some 500,000 have left their homes to find safer areas 
within Iraq.
    What is your assessment of the refugee problem in Iraq? Are more 
Iraqis returning home?
    Answer. Although refugee and displacement issues remain a serious 
concern, there are indicators that the situation has begun to improve. 
According to U.S. Agency for International Development reporting, the 
rate of displacement of Iraqi citizens has been slowing for at least 
the last 4 months. In addition, some Iraqis (primarily those from 
ethnically and religiously homogenous areas) are returning to their 
homes. These returns are motivated by a variety of factors, including: 
deteriorating conditions in places of displacement, increased 
restrictions in neighboring countries, tribal reconciliation, and 
reports of improved security in places of origin. It is encouraging 
that the Iraqi Government has begun to take a more proactive approach 
to the problem of Iraqi refugees through the drafting of a national 
policy on internally displaced persons and a Basic Law for the Ministry 
of Displacement and Migration.
    Question. Beyond working to improve the security environment in 
Iraq, do you believe that the U.S. military should play a role in 
addressing this issue?
    Answer. While protecting the population and assisting Iraqi 
security forces should be the military's primary roles, the military 
can also play a limited role in addressing other concerns associated 
with internally displaced persons (IDPs) and refugee return.
What the Military Can Do
        - Execute humanitarian assistance when asked to do so by the 
        Iraqi Government.
        - Liaise with USAID for humanitarian assistance coordination.
        - Track IDPs in the AOR in so far as they affect security 
        operations.
        - Utilize PRTs/ePRTs as requested to identify and relay IDP-
        related issues.
What the Military Cannot Do
        - Assist IA and ISF with forcibly removing squatters and IDPs.
        - Provide security for IDP camps of movements of IDPs.
        - Move or clear IDPs from government or private property.

    Question. What should the role of the U.S. military be, in your 
view, with respect to those Iraqis who are returning to find their 
homes occupied by others?
    Answer. In addition to the capabilities and limitations discussed 
above, the U.S. military can continue to assist with key leader 
engagement on this issue and to help develop the governmental capacity 
that will be necessary to handle refugee and IDP returns.

                       SPECIAL INSPECTOR GENERAL

    Question. The Special Inspector General for Iraqi Reconstruction 
(SIGIR) conducts comprehensive audits, inspections, and investigations 
which are valuable to Congress.
    If confirmed, what steps, if any, would you take to support the 
audits, inspections, and investigations conducted by the SIGR?
    Answer. The reports of the SIGIR provide valuable insights to the 
Force Commander, the Ambassador, and officials in Washington. I 
supported the activities of the SIGIR as the MNC-I Commander and, if 
confirmed, I will support them as the commander of Multi-National 
Force-Iraq (MNF-I).

                  MENTAL HEALTH ASSESSMENTS IN THEATER

    Question. The Army's Mental Health Advisory Team (MHAT) has made 
five separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers deployed to Iraq. The most recent study, MHAT V, found that 
stress and mental health problems increased with each subsequent month 
of deployment, and that ``soldiers on their third or fourth deployment 
were at significantly higher risk'' for mental health problems. These 
types of reports lend support to the fact that increasing numbers of 
troops are returning from duty in Iraq with post traumatic stress 
disorder, depression, and other mental health problems.
    What is your understanding of the key findings of this and previous 
MHAT assessments, actions taken by the Army to address key findings, 
and the effect of such actions?
    Answer. The MHAT process has provided an objective assessment on 
what is transpiring with servicemembers' psychological health and 
valuable recommendations for future action on this issue. MHAT V 
produced 43 separate recommendations. Some, such as the recommendation 
to cross-train Army medics in behavioral health concepts, are already 
being implemented at the DA level; others, such as the recommendation 
to authorize assignment of a mental health professional to every Combat 
Aviation Brigade, are under review at the DA level. If I am confirmed, 
I would seek to implement recommendations which are independently 
actionable at the MNF-I level.
    Question. If confirmed, what measures would you support to ensure 
ongoing mental health assessments of U.S. forces in Iraq?
    Answer. I would strongly encourage and fully support future MHAT 
assessments if confirmed. This would include (but not be limited to) 
providing full access to information and staff input and feedback as 
appropriate.
    Question. Do you have any views on how to best address the mental 
health needs of our troops, in terms of both prevention and treatment?
    Answer. My views are shaped by the recommendations of mental health 
professionals and by tools such as MHAT assessments. We must continue 
to learn and study to ensure the welfare of our soldiers.
    Generally speaking, prevention begins with supporting 
servicemembers and their families before servicemembers deploy; this 
includes tough training at home station that builds camaraderie in 
units and gives soldiers the confidence that they can accomplish their 
tasks. Predictability of deployments and time at home in between 
deployments for troopers to `reset' with their families are also 
important.
    Many important preventive steps are already being taken in theater. 
Medics in theater are already being trained on behavioral health topics 
so they can assist in identifying soldiers who need help, and Suicide 
Risk Management Teams have been created to ensure servicemen and women 
having difficulties get the help they need. Perhaps most critically, 
commanders are pushing the message that seeking help is a sign of 
strength, not weakness, and that it is essential to look out for battle 
buddies' mental health.
    Question. Do you believe that mental health resources in theater 
are adequate to handle the needs of our deployed servicemembers?
    Answer. My understanding is that MNF-I is currently reassessing the 
adequacy of mental health resources in theater to ensure soldiers' 
needs are met. One possibility being considered is requesting 30 
additional behavioral health personnel in theater, including mental 
health professionals and behavioral health technicians.

                             SEXUAL ASSAULT

    Question. If confirmed as Commander, MNF-I, you will be responsible 
for ensuring compliance with DOD policies on prevention of and response 
to sexual assaults in the CENTCOM area of responsibility.
    What lessons did you learn while implementing sexual assault 
training, reporting protocols, and command awareness while serving as 
Commander, MNC-I that can help improve any of these policies or their 
implementation in theater?
    Answer. The prevention of sexual assault is a critical command 
issue. It is important to have a program that incorporates an awareness 
campaign that reaches every servicemember and that provides integrated 
response services, including medical care/counseling, victim advocacy, 
chaplain, law enforcement (investigation, detainment, etc.), legal 
(prosecution, legal assistance, and victim/witness liaison), reporting 
(assault reporting and data collection), and program assessment. I know 
that such a program must receive a commander's emphasis to be 
effective, and I would continue to seek to give it that emphasis if 
confirmed as the commander of MNF-I.
    Question. What are the unique issues that you believe need to be 
addressed to ensure that policies on prevention, reporting, medical 
treatment (including mental health care), and victim support are 
available in the operational environment of Iraq?
    Answer. Some of the most important challenges in Iraq include 
combat stress, battlefield dispersion, and a mixed, joint service and 
civilian population. With regard to the last of these challenges, 
civilians constitute approximately 50 percent of the force on the 
ground in Iraq and are critical contributors to mission success. The 
availability of response services for DOD civilian and contractor 
personnel should be similar to the services available to 
servicemembers. There are jurisdictional, legal, contractual, and 
resource challenges associated with extending program response 
provisions to DOD civilian or contractor personnel which should be 
addressed.
    With regard to sexual harassment and mental health, it is important 
to continually reinforce the responsibility of all individuals in 
theater to remain cognizant of the welfare of their fellow 
servicemembers and co-workers and to encourage those exhibiting signs 
of difficulty to receive help.
    Question. What is your assessment of the adequacy of sexual assault 
prevention and response resources currently available in the CENTCOM 
area of responsibility?
    Answer. Sexual assault is a serious crime that adversely impacts 
the physical and psychological readiness of our combat fighting force 
in Iraq. In my experience as the MNC-I Commander, I found the sexual 
assault and response program and resourcing to be robust. However, if 
confirmed as the MNF-I Commander, I would continue to assess our 
efforts in this area to ensure we continue meeting the needs of our 
deployed servicemembers and civilians. It is important for a commander 
to constantly monitor organizational climate and to foster the 
development of a culture that is intolerant of sexual assault.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, MNF-I?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                     INTERCOMMUNAL VIOLENCE IN IRAQ

    1. Senator Levin. Lieutenant General Odierno, each of you have 
noted in different places and times that the conflict in Iraq has 
evolved and that, although there is still terrorism and insurgency, the 
current threat is the intercommunal fight over power. What do you mean 
by the communal fight over power?
    General Odierno. In my opinion, the #1 threat to Iraq is the 
communal struggle for power. The struggle between Shia-Sunni, inter-
Shia, inter-Sunni, Kurds, (et al.) with malign outside influences 
(predominately Iran and to a less degree AQI) trying to effect the 
outcome. Iran, through the support of illegal militias, AQI and other 
Sunni extremists (particularly in Northern and Central Iraq), poses the 
greatest threat to a lasting security. We must enable Iraqi security 
forces (ISF) to increasingly take the lead against these challenges 
without creating significant risks to short and long-sustainable 
security.
    There continue to be major challenges in the economic, political, 
and diplomatic realms. Gains made in security will be easier to 
preserve in an environment in which people have ready access to 
essential services and opportunities for employment. In addition, local 
and national political reconciliation efforts must continue to move 
forward. The provincial elections slated to occur later this year and 
the national elections scheduled to take place in 2009 will be 
important milestones in this process. The Iraqi Government must not 
only be representative, but also must continue to grow in capability 
and capacity. Finally, the Iraqi people continue to face challenges 
from countries in the region, as Iran provides lethal assistance to 
surrogates in Iraq and as Syria continues to take inadequate measures 
to stem the flow of foreign fighters into Iraq through its territory. 
Iraq's Arab neighbors must do more to reach out and engage Iraq in a 
positive fashion through concrete steps including debt relief and the 
establishments of embassies in Baghdad. I would seek to partner with 
the Ambassador and fully support his efforts to address these 
diplomatic and political challenges.

    2. Senator Levin. Lieutenant General Odierno, how has this changed 
the fundamental nature of the conflict in Iraq?
    General Odierno. Since liberation in 2003, the conflict in Iraq has 
been a competition among ethnic and sectarian communities for power and 
resources. This has played out differently over time, with inter- and 
later intra-sectarian violence, and it is accompanied by a complex 
mixture of destabilizing forces such as terrorism, regional 
interference, and foreign-fueled proxy war. As Iraq progresses forward 
it will continue to be a complex problem set. In May 2008, however, 
security incidents are now at the lowest level we have seen since March 
2004.

    3. Senator Levin. Lieutenant General Odierno, what is the 
appropriate role of coalition forces in response to the threat and 
conduct of intercommunal violence among militant groups vying for 
control?
    General Odierno. The role of coalition forces is to support the 
elected government and help that government enforce its monopoly on the 
legitimate use of arms. It is my sense that Iraqi leaders have largely 
begun to unite around the issue of disarming all militias, which must 
include influence from external entities and we seek to support them in 
that effort.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka

                            CENTRAL COMMAND

    4. Senator Akaka. Lieutenant General Odierno, after frustrations 
experienced with a top-down strategy to reconciliation and security 
efforts, the policy shifted to more of a bottom-up approach, as 
evidenced by the success of the Sons of Iraq (SOI) in Anbar Province 
and elsewhere. Recently the Maliki Government has asserted its 
influence by lashing out against armed militia groups both in the south 
and around Baghdad, and it is the opinion of some that the ISF are 
steadily improving their capabilities. In your new position, would you 
be an advocate of shifting once again to a more top-down approach, 
rather than the current bottom-up approach to solving power struggle 
differences, and if so, when should such a shift take place?
    General Odierno. The current struggle in Iraq is complex, dynamic, 
and waged by ethno-sectarian groups, extremist elements, and criminal 
gangs from the local level to the national. Any strategy that the 
coalition would pursue in the context of this struggle must therefore 
include all elements of national power in order to be successful, with 
a particular emphasis applied to reconciliation and security efforts in 
support of political objectives. Key to future reconciliation and 
legitimacy of the government is the successful conduct of fair and 
transparent Provincial Election in late 2008. Military leaders at all 
levels will continue to coach, mentor, and dialogue with associated 
Iraqi counterparts in the ISFs and civilian sectors, in cooperation 
with civilian members of the interagency community. Civilian personnel, 
either working as member of Provincial Reconstruction Teams or as part 
of military organizations, are an integral part of this strategy. While 
greater progress has been realized at the local and provincial level, 
MNF-I and the American Embassy-Baghdad (AMEMB-Baghdad) have observed 
progress within ministerial agencies as well. For example, the Iraqi 
Council of Representatives passed key budget and provincial powers 
legislation in February 2008, and the Iraqi Government has pledged 
significant funding to advance reconstruction both nationwide, and to 
specifically target civil capacity for Basra, Sadr City, and Mosul. If 
confirmed, conditions on the ground after I assume my new position will 
dictate the most prudent approach; and this approach will be 
comprehensive in nature. It would be premature for me to advocate 
either a top down or bottom up approach uniformly throughout Iraq.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                         LENGTH OF COMBAT TOURS

    5. Senator Pryor. Lieutenant General Odierno, what is your opinion 
of legislation dictating the length of combat tours for the Army, Army 
Reserve, and National Guard to 365 days, and 210 days for the Marine 
Corps and Marine Reserve?
    General Odierno. I believe that tours longer than 365 days for the 
Army and 210 days for the Marine Corps are difficult for soldiers, 
marines, and their families. We should, whenever possible, ensure tour 
lengths are not longer. However, flexibility is important in order to 
address emergency situations, and react quickly to problems around the 
world, and I do not believe this should be legislated.

    6. Senator Pryor. Lieutenant General Odierno, what effect does this 
have on a commander's ability to employ combat power?
    General Odierno. Under emergency conditions this could prevent 
changes to strategy or employment of additional forces as conditions on 
the ground dictate. I do not believe it would be prudent to limit the 
flexibility to react to operational and strategic changes on the 
ground.

    7. Senator Pryor. Lieutenant General Odierno, can you give me an 
example of how such legislation could have an adverse effect on 
operations?
    General Odierno. Had legislation as stated in question 5 been in 
place in 2007 we would not have been able to sustain the surge in order 
to set conditions to curtail the sectarian violence in Iraq, thus 
allowing the Iraq Government and ISFs to grow in capacity and 
capability while protecting and securing the people of Iraq. Once the 
brigades of the surge were employed we had the flexibility to extend 
the tours to 15 months verse 12 months, which allowed us to establish 
the conditions on the ground to deliberately and successfully sustain 
progress and then draw back down to pre-surge levels.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                                TRAINING

    8. Senator Collins. Lieutenant General Odierno, recently I was at 
an event in Maine and afterwards a constituent came up to me and said 
that he was a former Marine Corps officer and that it took the Marine 
Corps only 10 weeks to transform him from a Bates College graduate to a 
2nd Lieutenant. He asked me why it is taking so long for the Iraqis to 
become trained. It has now been over 3 years since the United States 
began its full effort to train Iraqi citizens for service in their 
military and police force. Why is it taking so long to get the Iraqis 
trained to be an effective, cohesive force?
    General Odierno. The strategic transition from a coalition-led 
counterinsurgency to an Iraqi-led counterinsurgency requires ISFs 
capable of assuming greater responsibility from coalition forces. No 
nation or coalition of nations has ever attempted to rebuild the entire 
security apparatus of a sovereign country, on as large a scale, in a 
shorter time, and in more difficult security conditions. Nonetheless, 
to understand why it takes so long to get the Iraqis trained to be an 
effective, cohesive force, one needs perspective on the magnitude of 
the problem. In calendar year 2007, the United States Army grew by 
approximately 11,600 soldiers, or 2.3 percent. The Iraqi Army grew by 
over 60,600 soldiers, or 61 percent--while at war and while the 
government and other institutions that support it were still forming. 
By comparison, the Iraqi-equivalent growth percentage of 61 percent 
applied to the United States Army in 2007 would result in our Army 
growing by over 310,000 soldiers in 1 year.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Such growth would challenge the United States Army's mature 
institutional processes and force management systems in peacetime. The 
fact the Iraqis have rapidly grown their security forces while fighting 
a determined and ruthless enemy--and establishing nascent ministerial 
and institutional capacity to generate and replenish those forces--is 
even more remarkable. As evidenced in Basrah, Sadr City, and Mosul, the 
ISFs are making progress and demonstrating real capability. However, 
much work remains to be done, particularly in the area of providing the 
ISFs with key enabling capabilities such as aviation, intelligence, 
logistics, and command and control.

                         TROOPS LEVELS IN IRAQ

    9. Senator Collins. Lieutenant General Odierno, I continue to be 
concerned about the negative effects of repeated and extended 
deployments to Iraq on our soldiers and marines. The surge in U.S. 
forces during the last year increased the Army's presence in Iraq to 20 
Brigade Combat Teams (BCTs) instead of the pre-surge level of 15. The 
Chief of Staff of the Army, General George Casey, has said, ``Today's 
Army is out of balance. The current demand for our forces in Iraq and 
Afghanistan exceeds the sustainable supply and limits our ability to 
provide ready forces for other contingencies.'' When do you foresee the 
ISF will be ready to step up in significant numbers so that you will be 
able to reduce your force level requirements to fewer than 15 BCTs?
    General Odierno. The ISF is already stepping up in significant 
numbers and enabling us to reduce our force level requirements. We have 
recently made significant security progress in Iraq, as the level of 
security incidents for the past month is the lowest it has been for 
more than 4 years. We have sustained our security gains even as three 
BCTs, a Marine Expeditionary Unit, and two Marine battalions have left 
without replacement. A fourth BCT has already given up its battle space 
and will withdraw this month, and the final surge brigade will leave by 
the end of July 2008. We have also reduced the detainee population in 
coalition facilities by over 3,500 detainees, and a continuing decline 
will allow me to recommend reductions in units programmed for the 
detainee mission. Our ability to achieve and sustain gains even as we 
have drawn down is in large part due to increasing capability in the 
ISFs, as well as the Iraqi Government's determination in meeting 
security challenges throughout Iraq.
    Over the last 18 months, the ISF have grown substantially in size 
and capability. In the last year alone, the Iraqi Ministries of Defense 
and Interior have generated 51 new combat battalions, an increase of 
over 30 percent. This intensive effort to increase ISF numbers involved 
recruiting, hiring, and training over 132,000 new police and soldiers. 
Over 540,000 personnel now serve in the ISF. The ISF will grow even 
further in the next year, providing for the eventual strength in 
numbers necessary to provide a security presence throughout Iraq.
    As important as the ISF's growth in size is its growth in 
capability. The number of combat battalions capable of taking the lead 
in operations, albeit with some coalition support, has grown to well 
over 100--a 15-percent increase since January 2007. Ongoing ISF 
operations in Basra, Mosul, Sadr City, Anbar, and Maysan have 
demonstrated increased planning capability, mobility, and tactical 
competence, as well as an ability to conduct simultaneous major 
operations throughout the country. The enablers that coalition forces 
provide are in line with expectations and generally involve 
capabilities that take more time to build (i.e. close air support 
capability). The performance of many units has been solid, and some 
formations and specialist organizations are proving to be extremely 
capable.
    Growth in the size and capability of the ISF will be one of the 
major conditions that will allow us to continue to reduce coalition 
forces in Iraq while sustaining our security gains. If confirmed I will 
evaluate the consolidation this summer, to see if conditions on the 
ground will be such that I will be able to make a recommendation for 
some further reductions. Beyond the initial decision on post-surge 
force levels, we will continually assess security conditions in Iraq 
and seek to identify further possible force withdrawals.

                          IRAQ SECURITY FORCES

    10. Senator Collins. Lieutenant General Odierno, there are roughly 
90,000 mostly Sunni fighters that are now part of the so-called 
``awakening movements,'' or ``SOI,'' that are aligned with the United 
States and defending their home villages against both al Qaeda in Iraq 
and Shiite militias. This has been a very positive development in 
improving the security situation in Sunni parts of Iraq. The next step 
is to translate that success into true integration at the national 
level. According to the White House, the Government of Iraq and 
coalition forces have agreed that 20 to 30 percent of these forces will 
be incorporated into the ISF, and the rest will be found jobs in the 
public or private sector. Some reports, however, indicate the Maliki 
Government is resistant to further integration of these forces, fearing 
that because many are veterans of Saddam Hussein's army and Republican 
Guard, incorporating these fighters will result in a Sunni-led coup. Do 
you agree with this assessment?
    General Odierno. No, I think this is an inaccurate assessment. It 
is important that we work with the GOI to reduce illiteracy and develop 
job training programs to improve workers skills. Therefore we have 
increase vocational training targeted at the requirements for needed 
skills throughout Iraq. Many training programs do evolve into jobs for 
many of the students as some are immediately hired by contractors or 
public works projects that they trained on.
    Though the ``Awakening Movement'' did inspire the anti-al Qaeda 
movement, of which some elements have been formed into formal ``SOI'' 
programs, the two are not the same. It is an important distinction as 
we have the formal ``SOI'' who are working with the coalition forces 
and in full support of the Government of Iraq--some still on U.S. 
funded contracts and some either already transitioned to formal ISF 
jobs or some on their way to being formally integrated into the 
security apparatus. Then we have many other Sunni and Shia, as noted, 
who are not formally part of the ``SOI''--funded programs but still are 
aligned in support of the larger ``Awakening'' movements who support, 
in general, the Government of Iraq's interest in preventing foreign 
entities--via proxy groups--to engage in terrorism or other criminal 
actions inside of Iraq. This larger `anti foreign influence' movement--
which is the essence of the ``Awakening'' movement--has been emanating 
from all sects of Iraqi society. We're seeing both Sunni and, as of 
late, Shia elements express interest in joining forces with the 
Government of Iraq in some capacity to assist in taking control of the 
situation in Iraq's cities and provinces. So this new phase of the 
overall movement, which is cross-sectarian in composition, is now 
referred to in Iraq as ``Isnad''--or support--to denote the intention 
of the members of this movement to operate totally in support of the 
Government of Iraq to restore stability.
    Incorporating these ``SOI'' fighters into the ISFs will not lead to 
a Sunni-led coup.'' When we approved this program when I was the 
Commander of Multi-National Corps Iraq, there was a concern that some 
of these ``SOI,'' who had previously supported and/or participated in 
armed conflict against the then nascent Government of Iraq and 
coalition forces, might revert back to their prior insurgent identities 
and use their new-found influence with the Government of Iraq Security 
Forces to attempt some type of armed rebellion. This was a known and 
calculated risk taken by myself, General Petraeus and Ambassador 
Crocker when we first decided to pursue this endeavor. One of the key 
reasons we initially agreed to pursue the ``SOI'' was to fill a void as 
we eliminated former safe havens and sanctuaries. They assisted in 
forming neighborhood watch elements that would provide CF and ISF 
intelligence to help sustain our gains. We soon realized that many 
wanted to participate once again and be included in the future of Iraq. 
Some reasons for their state of exclusion were due to in part to 
sectarian bias and a certain level of corruption on the part of some 
Iraqi bureaucrats. Yet another reason for that was self-imposed on 
themselves by their voluntary boycott of the 2005 elections. Since 
then, the Sunni population writ large has come to see their decision to 
boycott the election--shaped largely by corrupt religious political 
parties and intimidation--was a mistake. The reconciliation process and 
the existence of the ``SOI'' program is an example of their change in 
mindset and they have continued to demonstrate their commitment to the 
Government of Iraq as an institution and to the rule of law. There is a 
highly scrutinized vetting process conducted by CF which includes the 
collection of biometrics and spans all ministries in the Government of 
Iraq before these ``SOI'' can be accepted into formal Iraqi Government 
positions. This vetting process was approved by Prime Minister Maliki's 
and one which has been described as slow, but prudent to ensure the 
integrity of the Iraqi Governmental services and of each member of the 
``SOI'' integrated into Government posts. Most recently, as you may 
know, an 11-member delegation of Iraqi tribal and governmental 
leaders--to include Sheikh Ahmad Albu Risha of the Anbar-based Sahawa 
al Iraq movement and political party--travelled to Washington recently 
on their second State Department-sponsored trip in 7 months. During 
their trip they held a number of meetings with senior U.S. officials to 
include audience with the President, the National Security Council, 
Senators and Congressmen. The delegation was comprised of both Sunni 
and Shia Iraqi leaders whom reaffirmed their support for improved Iraqi 
governance, rule of law, and a view toward creating an environment in 
Iraq focused on improved political participation. I believe these signs 
are encouraging; that the motives and intentions of the ``SOI'' and all 
those supporting these Sheikhs and Iraqi leaders who are leading the 
political outreach on behalf of their Iraqi constituencies will 
continue to pursue their political objectives via engagement with 
Government of Iraq leaders. With continued U.S. support both to the 
Government of Iraq, to the ``SOI'' program, and to the overall national 
reconciliation efforts which is ongoing, combined with the demonstrated 
goodwill on the part of the coalition, Government and Iraqi Awakening 
leaders, there is little evidence to suggest the movement--or those 
former disenfranchised elements of Iraqi society, will attempt to 
achieve its political objectives via the use of force.

    11. Senator Collins. Lieutenant General Odierno, what happens to 
those Sunni fighters who are not integrated into the ISF, but cannot 
find jobs?
    General Odierno. Only 25 percent of the SOI want to be integrated 
into the ISF. Approximately 50 percent of the SOI do not want to be 
integrated into the ISF and another 25 percent cannot be integrated 
into the ISF because they are physically or mentally unqualified. 
Therefore, MNC/F in conjunction with the GOI target the SOI who do not 
make it into the ISF for integration into capacity building programs 
that provide the transitioning either vocational training in a 
discipline/skill of their choice or apprentice style, on-the-job 
training in various disciplines and skills (mostly construction 
oriented) that meet needs/shortages of the local area with the goal 
being that once the programs are complete that the local area will 
absorb some or all of the newly skilled and transitioned SOI into 
employment.
                                 ______
                                 
    [The nomination reference of LTG Raymond T. Odierno, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General.

    LTG Raymond T. Odierno, USA.
                                 ______
                                 
    [The biographical sketch of LTG Raymond T. Odierno, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                 Resume of LTG Raymond T. Odierno, USA
Source of commissioned service: USMA.

Military schools attended:
    Field Artillery Officer Basic and Advanced Courses
    United States Naval Command and Staff College
    United States Army War College

Educational degrees:
    United States Military Academy - BS - No Major.
    North Carolina State University - MS - Engineering, Nuclear 
Effects.
    United States Naval War College - MA - National Security and 
Strategy.

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                           Dates of
                                                          appointment
------------------------------------------------------------------------
2LT.................................................           2 Jun 76
1LT.................................................           2 Jun 78
CPT.................................................           1 Aug 80
MAJ.................................................           1 Dec 86
LTC.................................................           1 Feb 92
COL.................................................           1 Sep 95
BG..................................................           1 Jul 99
MG..................................................           1 Nov 02
LTG.................................................           1 Jan 05
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Oct 76..........................  Jan 78............  Support Platoon
                                                       Leader, later
                                                       Firing Platoon
                                                       Leader, C
                                                       Battery, 1st
                                                       Battalion, 41st
                                                       Field Artillery,
                                                       56th Field
                                                       Artillery
                                                       Brigade, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jan 78..........................  Aug 78............  Survey Officer,
                                                       1st Battalion,
                                                       41st Field
                                                       Artillery, 56th
                                                       Field Artillery
                                                       Brigade, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug 78..........................  Oct 79............  Aide-de-Camp to
                                                       the Commanding
                                                       General, 56th
                                                       Field Artillery
                                                       Brigade, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Nov 79..........................  Jul 80............  Student, Field
                                                       Artillery
                                                       Advanced Course,
                                                       Fort Sill, OK
Aug 80..........................  Dec 80............  Liaison Officer,
                                                       1st Battalion,
                                                       73d Field
                                                       Artillery, XVIII
                                                       Airborne Corps,
                                                       Fort Bragg, NC
Dec 80..........................  Dec 82............  Commander, Service
                                                       Battery, later A
                                                       Battery, 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Dec 82..........................  May 83............  Assistant S-3
                                                       (Operations), 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Jun 83..........................  May 84............  S-3 (Operations),
                                                       3d Battalion, 8th
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Jun 84..........................  Aug 86............  Student, North
                                                       Carolina State
                                                       University,
                                                       Raleigh, NC
Sep 86..........................  Jun 89............  Nuclear Research
                                                       Officer, later
                                                       Chief,
                                                       Acquisition
                                                       Support Division,
                                                       Defense Nuclear
                                                       Agency,
                                                       Alexandria, VA,
                                                       later detailed as
                                                       Military Advisor
                                                       for Anns Control,
                                                       Office of the
                                                       Secretary of
                                                       Defense,
                                                       Washington, DC
Jun 89..........................  Jun 90............  Student, United
                                                       States Naval
                                                       Command and Staff
                                                       Course, Newport,
                                                       RI
Jul 90..........................  Dec 90............  Executive Officer,
                                                       2d Battalion, 3d
                                                       Field Artillery,
                                                       3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Dec 90..........................  Jun 91............  Executive Officer,
                                                       Division
                                                       Artillery, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jun 91..........................  May 92............  Executive Officer,
                                                       42d Field
                                                       Artillery
                                                       Brigade, V Corps,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jun 92..........................  Jun 94............  Commander, 2d
                                                       Battalion, 8th
                                                       Field Artillery,
                                                       7th Infantry
                                                       Division (Light),
                                                       Fort Ord, CA
                                                       (relocated to
                                                       Fort Lewis, WA)
Jun 94..........................  Jun 95............  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks, PA
Jun 95..........................  Jun 97............  Commander,
                                                       Division
                                                       Artillery, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX
Jun 97..........................  Aug 98............  Chief of Staff, V
                                                       Corps, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug 98..........................  Jul 99............  Assistant Division
                                                       Commander
                                                       (Support), 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany to
                                                       include duty as
                                                       Deputy Commanding
                                                       General for
                                                       Ground
                                                       Operations, Task
                                                       Force Hawk,
                                                       Operation Allied
                                                       Force, Albania
Jul 99..........................  Jul 01............  Director, Force
                                                       Management,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Operations and
                                                       Plans, United
                                                       States Army,
                                                       Washington, DC
Oct 01..........................  Aug 04............  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX and
                                                       Operation Iraqi
                                                       Freedom, Iraq
Aug 04..........................  Oct 04............  Special Assistant
                                                       to Vice Chief of
                                                       Staff, United
                                                       States Army,
                                                       Washington, DC
Oct 04..........................  May 06............  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff, Office of
                                                       the Joint Chiefs
                                                       of Staff,
                                                       Washington, DC
May 06..........................  Dec 06............  Commanding
                                                       General, III
                                                       Corps and Fort
                                                       Hood, Fort Hood,
                                                       TX
Dec 06..........................  Feb 08............  Commander, Multi-
                                                       National Corps-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq/Commanding
                                                       General, III
                                                       Corps
Feb 08..........................  Present...........  Commanding
                                                       General, III
                                                       Corps and Fort
                                                       Hood, Fort Hood,
                                                       TX
------------------------------------------------------------------------


Summary of joint assignments

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Nuclear Research Officer, later   Sep 86-Jun 89.....  Captain/Major
 Chief, Acquisition Support
 Division, Defense Nuclear
 Agency, Alexandria, VA, later
 detailed as Military Advisor
 for Arms Control, Office of the
 Secretary of Defense,
 Washington, DC.
Assistant to the Chairman of the  Oct 04-May 06.....  Lieutenant General
 Joint Chiefs of Staff, Office
 of the Joint Chiefs of Staff,
 Washington, DC.
Commander, Multi-National Corps-  Dec 06-Feb 08.....  Lieutenant General
 Iraq, Operation Iraqi Freedom,
 Iraq/Commanding General, III
 Corps.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with five Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Raymond T. 
Odierno, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Raymond T. Odierno.

    2. Position to which nominated:
    Commander, Multi-National Force-Iraq.

    3. Date of nomination:
    April 30, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    8 September 1954; Dover, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Marie Odierno (Maiden Name is Burkarth).

    7. Names and ages of children:
    Anthony, 29; Kathrin, 27; Michael, 21.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed int eh service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Legion (Member)
    Association of the United States Army (Member)
    4th Infantry Division Association (Member)
    8th Field Artillery Regimental Affiliation (Member)
    9th Infantry Regiment Association (Member)
    1st Cavalry Division Association (Member)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those lited on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes, I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes, I do.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Raymond T. Odierno.
    This 30th day of April, 2008.

    [The nomination of LTG Raymond T. Odierno, USA, was 
reported to the Senate by Chairman Levin on June 26, 2008, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 10, 2008.]


            TO CONSIDER CERTAIN PENDING MILITARY NOMINATIONS

                              ----------                              


                         THURSDAY, MAY 22, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Ben Nelson, Pryor, Webb, Warner, Inhofe, Sessions, Collins, 
Thune, Martinez, and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Breon N. Wells, receptionist.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Michael J. McCord, professional staff 
member; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Gregory T. 
Kiley, professional staff member; David M. Morriss, minority 
counsel; Lynn F. Rusten, professional staff member; Diana G. 
Tabler, professional staff member; Richard F. Walsh, minority 
counsel; and Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin and Ali Z. Pasha.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; Bonni Berge, assistant to Senator Akaka; 
Christopher Caple and Caroline Tess, assistants to Senator Bill 
Nelson; Andrew R. Vanlandingham, assistant to Senator Ben 
Nelson; Andrew Shapiro, assistant to Senator Clinton; M. 
Bradford Foley, assistant to Senator Pryor; Gordon I. Peterson, 
assistant to Senator Webb; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum and Todd Stiefler, assistants 
to Senator Sessions; Andrew King, assistant to Senator Graham; 
Lindsey Neas, assistant to Senator Dole; David Hanke, assistant 
to Senator Cornyn; Andi Fouberg, assistant to Senator Thune; 
Brian W. Walsh, assistant to Senator Martinez; and Erskine W. 
Wells III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Since a quorum is now present, I ask the 
committee to consider a list of 142 pending military 
nominations. All of these nominations have been before the 
committee the required length of time.
    Is there a motion to favorably report these nominations?
    Senator Warner. I so move.
    Chairman Levin. Is there a second?
    Senator Lieberman. Second.
    Chairman Levin. All in favor, say aye. [A chorus of ayes.]
    Opposed, nays. [No response.]
    The ayes have it. The motion carries.
    Thank you. [Pause.]
    Let me correct the record. I read 142 pending nominations. 
The correct number is 144 pending nominations, and if there's 
no objection, that will be the action of the committee. I think 
everybody who voted here before is still here.
    Senator Warner. Without objection.
    Chairman Levin. Without objection, we will correct the 
record in that way.
 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on May 22, 2008.
    1. RADM Harry B. Harris, Jr., USN to be Vice Admiral and Deputy 
Chief of Naval Operations for Communication Networks, N6, Office of the 
Chief of Naval Operations (Reference No. 1286).
    2. In the Navy Reserve there are three appointments to the grade of 
rear admiral (list begins with Julius S. Caesar) (Reference No. 1343).
    3. LTG Stanley A. McChrystal, USA, to be Lieutenant General and 
Director, Joint Staff (Reference No. 1352).
    4. RADM William H. McRaven, USN, to be Vice Admiral and Commander, 
Joint Special Operations Command/Commander, Joint Special Operations 
Command Forward, U.S. Special Operations Command (Reference No. 1354).
    5. RADM Michael C. Vitale, USN, to be Vice Admiral and Commander, 
Navy Installations Command (Reference No. 1355).
    6. RADM(lh) Raymond E. Berube, USN, to be Rear Admiral (Reference 
No. 1432).
    7. In the Navy, there are two appointments to the grade of Rear 
Admiral (list begins with Richard R. Jeffries) (Reference No. 1433).
    8. In the Air Force, there are five appointments to the grade of 
Colonel (list begins with Lonnie B. Barker) (Reference No. 1465).
    9. Col. Kimberly A. Siniscalchi, USAF, to be Major General 
(Reference No. 1485).
    10. In the Navy, there are two appointments to the grade of Rear 
Admiral (lower half) (list begins with David F. Baucom) (Reference No. 
1518).
    11. In the Navy, there are two appointments to the grade of Rear 
Admiral (lower half) (list begins with David C. Johnson) (Reference No. 
1519).
    12. In the Navy, there are two appointments to the grade of Rear 
Admiral (lower half) (list begins with Donald E. Gaddis) (Reference No. 
1520.)
    13. In the Navy, there are two appointments to the grade of Rear 
Admiral (lower half) (list begins with Michael H. Anderson) (Reference 
No. 1521).
    14. Capt. Norman R. Hayes, USN, to be Rear Admiral (lower half) 
(Reference No. 1522).
    15. Capt. William E. Leigher, USN, to be Rear Admiral (lower half) 
(Reference No. 1524).
    16. MG Mark D. Shackelford, USAF, to be Lieutenant General and 
Military Deputy, Office of the Assistant Secretary of the Air Force for 
Acquisition (Reference No. 1565).
    17. BG John F. Mulholland, Jr., USA, to be Lieutenant General and 
Commanding General, U.S. Army Special Operations Command (Reference No. 
1567).
    18. MG Philip M. Breedlove, USAF, to be Lieutenant General and 
Commander, Third Air Forces in Europe (Reference No. 1590).
    19. MG Charles E. Stenner, Jr., USAFR, to be Lieutenant General and 
Chief of Air Force Reserve (Reference No. 1600).
    20. RADM William E. Gortney, USN, to be Vice Admiral and Commander, 
U.S. Naval Forces, Central Command and Commander, Fifth Fleet 
(Reference No. 1601).
    21. VADM Melvin G. Williams, Jr., USN, to be Vice Admiral and 
Commander, Second Fleet (Reference No. 1602).
    22. In the Army, there is one appointment to the grade of Major 
(Cheryl Amyx) (Reference No. 1603).
    23. In the Army, there is one appointment to the grade of Major 
(Deborah K. Sirratt) (Reference No. 1604).
    24. In the Army, there are two appointments to the grade of Major 
(list begins with Mark A. Cannon) (Reference No. 1605).
    25. In the Army, there are two appointments to the grade of 
Lieutenant Colonel (list begins with Gene Kahn) (Reference No. 1606).
    26. In the Army, there are seven appointments to the grade of 
Lieutenant Colonel and below (list begins with Lozay Foots III) 
(Reference No. 1607).
    27. In the Army, there are five appointments to the grade of 
Lieutenant Colonel and below (list begins with Phillip J. Caravella) 
(Reference No. 1608).
    28. RADM David J. Dorsett, USN, to be Vice Admiral and Director of 
Naval Intelligence, N2, Office of the Chief of Naval Operations 
(Reference No. 1612).
    29. In the Navy, there are 21 appointments to the grade of 
Commander and below (list begins with Stanley A. Okoro) (Reference No. 
1613).
    30. In the Air Force Reserve, there are two appointments to the 
grade of Colonel (list begins with Eric L. Bloomfield) (Reference No. 
1615).
    31. In the Army Reserve, there is one appointment to the grade of 
Colonel (Jimmy D. Swanson) (Reference No. 1616).
    32. In the Army Reserve, there is one appointment to the grade of 
Colonel (Ronald J. Sheldon) (Reference No. 1617).
    33. In the Navy, there is one appointment to the grade of 
Lieutenant Commander (Robert S. McMaster) (Reference No. 1618).
    34. In the Navy, there is one appointment to the grade of 
Lieutenant Commander (Christopher S. Kaplafka) (Reference No. 1619).
    35. In the Army Reserve, there are 26 appointments to the grade of 
Major General and below (first name is Stephen E. Bogle) (Reference No. 
1639).
    36. LTG Peter W. Chiarelli, USA, to be General and Vice Chief of 
Staff, U.S. Army (Reference No. 1642).
    37. RADM(lh) Kevin M. McCoy, USN, to be Vice Admiral and Commander, 
Naval Sea Systems Command (Reference No. 1657).
    38. VADM William D. Crowder, USN, to be Vice Admiral and Deputy 
Chief of Naval Operations for Information, Plans, and Strategy, N3/N5, 
Office of the Chief of Naval Operations (Reference No. 1658).
    39. RADM Peter H. Daly, USN, to be Vice Admiral and Deputy 
Commander, U.S. Fleet Forces Command (Reference No. 1659).
    40. In the Army, there are 11 appointments to the grade of Major 
(list begins with Brian M. Boldt) (Reference No. 1663).
    41. In the Air Force, there are three appointments to the grade of 
Major (list begins with Mary J. Bernheim) (Reference No. 1670).
    42. In the Air Force, there are eight appointments to the grade of 
Colonel and below (list begins with James E. Ostrander) (Reference No. 
1671).
    43. In the Army, there is one appointment to the grade of Major 
(James K. McNeely) (Reference No. 1672).
    44. In the Navy, there is one appointment to the grade of 
Lieutenant Commander (David R. Eggleston) (Reference No. 1673).
    45. In the Navy, there are six appointments to the grade of Captain 
and below (list begins with Katherine A. Isgrig) (Reference No. 1674).
    46. In the Navy, there are six appointments to the grade of Captain 
and below (list begins with Robert D. Younger) (Reference No. 1675).
    Total: 144.

    [Whereupon, at 10:36 a.m., the committee adjourned.]


 NOMINATIONS OF HON. NELSON M. FORD TO BE UNDER SECRETARY OF THE ARMY; 
   JOSEPH A. BENKERT TO BE ASSISTANT SECRETARY OF DEFENSE FOR GLOBAL 
  SECURITY AFFAIRS; SEAN J. STACKLEY TO BE ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION; AND FREDERICK S. CELEC 
 TO BE ASSISTANT TO THE SECRETARY OF DEFENSE FOR NUCLEAR AND CHEMICAL 
                    AND BIOLOGICAL DEFENSE PROGRAMS

                              ----------                              


                        THURSDAY, JUNE 26, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Warner, Thune, 
and Martinez.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Peter K. Levine, general counsel; 
William G.P. Monahan, counsel; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Gregory T. Kiley, professional staff 
member; David M. Morriss, minority counsel; Lynn F. Rusten, 
professional staff member; Robert M. Soofer, professional staff 
member; Diana G. Tabler, professional staff member; and Richard 
F. Walsh, minority counsel.
    Staff assistants present: Ali Z. Pasha and Benjamin L. 
Rubin.
    Committee members' assistants present: Christopher Caple, 
assistant to Senator Bill Nelson; Jon Davey, assistant to 
Senator Bayh; M. Bradford Foley, assistant to Senator Pryor; 
Peg Gustafson, assistant to Senator McCaskill; Samuel Zega, 
assistant to Senator Warner; Mark J. Winter, assistant to 
Senator Collins; Jason Van Beek, assistant to Senator Thune; 
David Brown, John L. Goetchius, and Brian W. Walsh, assistants 
to Senator Martinez; and Erskine W. Wells III, assistant to 
Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, the committee considers the nominations of Nelson 
Ford to be Under Secretary of the Army, Joseph Benkert to be 
Assistant Secretary of Defense for Global Security Affairs, 
Fred Celec to be Assistant to the Secretary of Defense for 
Nuclear and Chemical and Biological Defense Programs, and Sean 
Stackley to be Assistant Secretary of the Navy for Research, 
Development, and Acquisition.
    We welcome our nominees and their families to today's 
hearing. We know the long hours that senior Department of 
Defense (DOD) officials put in every day. We appreciate the 
sacrifices that our nominees are willing to make to serve their 
country. We also know that they will not be alone in making 
those sacrifices. So, we thank in advance the family members of 
our nominees for the support and the assistance that all those 
family members will be needing to provide, and I know will be 
willingly providing.
    Each of our nominees will be called upon, if confirmed, to 
make important contributions to our national defense.
    If confirmed, Mr. Ford will take over as Under Secretary of 
the Army at a time when our soldiers and equipment are worn out 
and our Army families are stressed by extended and repeated 
deployments. The next Under Secretary has a critical role to 
play in restoring the readiness of the force and ensuring that 
our Army has the strategic depth needed to face the challenges 
of the decade ahead. In addition, section 904 of the National 
Defense Authorization Act for Fiscal Year 2008 gives the Under 
Secretary a new role as the Chief Management Officer of the 
Army. Now, what that means is that the next Under Secretary 
will also be expected to play a leading role in addressing 
longstanding deficiencies in the Army's business systems and 
management practices.
    If confirmed, Mr. Benkert will be the first person to serve 
in the new position of Assistant Secretary of Defense for 
Global Security Affairs. In that capacity, he will be 
responsible for coalition affairs, technology security policy, 
security cooperation, counternarcotics, counterproliferation, 
and countering global threats, detainee affairs, and prisoner 
of war/missing-in-action issues. Any one of those issues--
detainee affairs, for example--would appear to be a full-time 
job. Mr. Benkert is currently serving as Acting Assistant 
Secretary, and we look forward to his assessment of the 
responsibilities of the new position and how he intends to 
carry them out.
    The position to which Mr. Celec has been nominated, the 
Assistant to the Secretary of Defense for Nuclear and Chemical 
and Biological Defense Programs, has been vacant for 2 years. 
This longstanding vacancy was cited by General Larry Welch, in 
his report on Nuclear Weapons Security, as emblematic of the 
inattention of DOD to nuclear security and command-and-control. 
This neglect, as reported earlier this month by Admiral 
Kirkland Donald, has resulted in inattention to detail, lack of 
discipline, and a degradation of authority, technical 
competence, and standards of excellence in the handling of our 
nuclear weapons. We look forward to Mr. Celec's thoughts on how 
to address these problems, along with the other important 
issues in his portfolio, which will include chemical-weapons 
destruction and chemical and biological defense programs.
    Finally, Mr. Stackley, if confirmed, will take over as the 
senior acquisition executive with the Department of the Navy at 
a time when the major defense acquisition programs of the DOD 
are overrunning their budgets by an aggregate total of $295 
billion. Less than a year ago, the Government Accountability 
Office (GAO) reported that the Navy had experienced a 
cumulative cost growth of almost $5 billion on just 41 ships. 
According to the GAO, the Navy pushed programs forward, 
``without a stable design and without realistic cost estimates, 
resulting in higher costs, schedule delays, and quality 
programs.'' If anyone is prepared to answer these problems, it 
should be Mr. Stackley, who has served our committee as the 
principal Republican staffer responsible for overseeing Navy 
and Marine Corps programs for more than 2 years. The Senate 
Armed Services Committee has benefited tremendously from the 
knowledge and the experience that Mr. Stackley brings to bear 
on Navy and Marine Corps programs and on acquisition programs 
generally. Should he be confirmed, our loss will be the Navy's 
gain.
    These are extremely important positions. They merit the 
attention that we will be giving them today.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    I'll ask to place my statement in the record.
    You've covered, very accurately and carefully, the 
distinguished biological records of each of these nominees.
    I am so pleased to see that they're joined by a number of 
members of their family this morning. Even though they have 
served in DOD for some period of time, I have always thought 
that, at this hearing, I would tell the families that their 
respective spouses should be home by 8 o'clock, as every 
decision made in the Pentagon after 8 o'clock is usually 
changed the next day. Having spent many years in that building 
myself, I tell you, I look back on it as probably one of the 
most exciting and challenging chapters of my life.
    I thank you for the service to, not only the men and women 
in uniform, but directly and indirectly to their families. 
Today's military is very much of a family affair, and we should 
ever be mindful of their needs and their concerns, especially 
when their loved ones are sent on missions abroad.
    I will have to leave here shortly, which I rarely do, but, 
in this case, it's an important meeting for me. I join my 
colleague from Virginia, Senator Jim Webb, and we're discussing 
the new GI Bill, which, optimistically, will be passed by the 
United States Senate this afternoon and on its way with the 
House bill to the President for signature.
    I was--I say, with great sense of humility--the recipient 
of two GI Bills in my career, for different reasons, and 
wouldn't be sitting in this chair today had it not been for 
what our Nation did for me and millions of others as they came 
back from their period in uniform to regain a place in the 
civilian community and trying to acquire the education to do 
their jobs. You'll hopefully forgive me for that.
    But, I wish each of you well. Again, I look back on my 
period there as one of the most exciting in my life. I often 
tell the story--there was an old fellow there--this is 1969--
who wore a green eyeshade, and he actually came there with Jim 
Forrestal when he was in the comptroller's office. We all liked 
him. He used to wander around the hall and kibbitz with us 
about the ``good old days,'' as he said in those days. He said, 
``You know, you'd better always remember, you have a front row 
seat on the greatest and most important show on Earth.'' That, 
you have, because it is the men and women in uniform, and their 
families, that are the guardians of the freedoms we have today. 
I know each of you, in your respective responsibilities, will 
ensure that they can do that as best they can.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Senator Levin.
    I join you in welcoming our nominees and their families. I have 
been advised that all of them claim the Commonwealth of Virginia as 
their home State, and are looking to me to vouch for their 
qualifications. I am prepared to do that, Mr. Chairman.
    Each of these nominees has served, or is currently serving, with 
distinction in the Department of Defense (DOD). We are fortunate that 
they are willing to assume the duties of these vitally important 
positions at such a challenging time.
    Mr. Ford, you have worked your way up since 2002 from the position 
of Deputy Assistant Secretary for Health Budgets in the Office of the 
Secretary of Defense, to the Assistant Secretary of the Army for 
Financial Management and Comptroller in 2005, and, since December 2007, 
as Acting Under Secretary of the Army. Secretary Geren has given you 
his highest recommendation, which counts greatly in your favor.
    The Army's senior leaders have stated that the Army is stressed and 
out of balance, but not broken. I hope you will be able to provide us 
today with current information about how the Army is ensuring that its 
combat units are fully trained, manned, and ready for their missions, 
and that Army families are receiving the support they need and deserve.
    Mr. Celec, you are returning to the office you previously served in 
as the Deputy Assistant for Nuclear Matters from 1996 through 2003. 
With your experience there, and for 21 years before that in the Air 
Force, I anticipate you will be greatly relied on in the Department's 
further responses to the report of Admiral Donald and in working with 
Dr. Schlesinger's task force in identifying the Department's nuclear 
weapons policies and safeguards.
    Mr. Benkert and Mr. Stackley you have similar backgrounds--both 
distinguished graduates of the U.S. Naval Academy and both having many 
accomplishments as Navy career officers.
    Mr. Benkert, if you are confirmed, you will be the first Assistant 
Secretary of Defense for Global Security Affairs with a complex 
portfolio of responsibilities, including building international, 
interagency, and partner capabilities, overseeing DOD policies for 
coalition and multinational operations, counternarcotics and 
counterproliferation policies, and detainee affairs--among others. You 
have been working in this arena for several years, and you are clearly 
well qualified.
    We look forward to hearing your assessment of the challenges we 
face in this area and your views on what our strategy and policy toward 
them should be.
    Mr. Stackley, it is always a pleasure to see members of the 
committee's professional staff selected for nomination to positions of 
great responsibility in the Department. You joined the committee in 
2005 and, in the great tradition of this committee, have worked closely 
with Creighton Greene, Peter Levine, and other counterparts in a 
collegial and bipartisan way in order to ensure appropriate oversight, 
support, and when necessary, scrutiny of the Department's programs. I 
thank you and your family for the excellent service you have given us.

    Chairman Levin. Thank you, Senator Warner.
    Let me now ask the standard questions of each of our 
nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest? [All four witnesses answered 
in the affirmative.]
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process? [All four witnesses answered in the 
negative.]
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings? [All four 
witnesses answered in the affirmative.]
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests? [All four 
witnesses answered in the affirmative.]
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings? [All four witnesses 
answered in the affirmative.]
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee? [All four 
witnesses answered in the affirmative.]
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents? [All 
four witnesses answered in the affirmative.]
    Chairman Levin. We thank you.
    As I call upon each of you for your opening statement, we'd 
be delighted if you would introduce any members of your family 
that might be with you.
    Secretary Ford?

STATEMENT OF HON. NELSON M. FORD, TO BE UNDER SECRETARY OF THE 
                              ARMY

    Mr. Ford. Thank you. Mr. Chairman, Senator Warner, members 
of the committee, it is both an honor and a privilege to be 
here this morning as the President's nominee for the Under 
Secretary of the Army. I want to thank Secretary Gates and 
Secretary Geren for their confidence in me, and for the Army's 
staff in their help in preparing for this hearing.
    I'd like to introduce my wife, Cecilia, who's behind me. 
She has been my partner and my number-one supporter during our 
many years together. She recently retired after 35 years as a 
Federal attorney, mostly with the Department of Health and 
Human Services. Her service continues as a strong supporter of 
our two sons on Active Duty. Aidan, our oldest, is a doctor in 
the Air Force, and Alex, who will graduate next month from Army 
Special Forces training, spent a year in Afghanistan with the 
82nd Airborne. Their service is a great inspiration to me.
    I expect that my daughter, Mary, who is a senior at the 
University of Virginia and interested in medicine and public 
health, will follow them into public service, but I haven't had 
any luck, so far, convincing her to join the Navy. [Laughter.]
    The soldiers of our Army are a precious gift to the Nation. 
I am in awe of the soldiers' commitment and the sacrifice of 
Army families who demonstrate their resilience in communities 
across the Nation and around the world. It has been humbling to 
help lead such a tremendous organization over the past 3 years, 
and I look forward to continuing my contribution as the Under 
Secretary of the Army.
    In this era of persistent conflict, during the 6th year of 
deployments in Iraq and Afghanistan, the Army is stretching to 
meet our assigned tasks. We are balancing the requirements of 
today's deployments with needed investments in new capabilities 
to ensure our future security.
    Our soldiers and our Nation are counting on us to provide 
the direction and resources needed for the Army to succeed in 
its mission.
    Mr. Chairman, I am honored to be working on the challenges 
facing the Army today. If confirmed, I will work diligently to 
serve the Nation and the Army to the best of my ability.
    Finally, I would like to thank the committee for all it has 
done for the men and women, the soldiers and families of our 
Army. Your generous support and unwavering commitment to the 
Army's needs has been instrumental to our success. If 
confirmed, I look forward to working with you and your staff in 
the months ahead. I believe that partnership and collaboration 
will be crucial to keeping the Army strong.
    I am happy to take your questions.
    Chairman Levin. Thank you so much, Secretary Ford.
    Mr. Benkert?

 STATEMENT OF JOSEPH A. BENKERT, TO BE ASSISTANT SECRETARY OF 
              DEFENSE FOR GLOBAL SECURITY AFFAIRS

    Mr. Benkert. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Warner, members of the Senate Armed 
Services Committee, thank you for the opportunity to appear 
before you today for this confirmation hearing. It is a great 
privilege and an honor to appear before you as the President's 
nominee for the position of Assistant Secretary of Defense for 
Global Security Affairs and, Mr. Chairman, as you noted, the 
first nominee for Assistant Secretary of Defense for Global 
Security Affairs.
    I'd like to thank the President for nominating me for this 
position, and Secretary Gates for his confidence and support. 
I'd also like to thank the committee for what you've done, and 
continue to do, to support our Armed Forces, and, in 
particular, the men and women of our Armed Forces.
    Finally, I'd like to thank my family for their support as I 
pursue continued public service. With me this morning, seated 
behind me--are my wife, Gail--we've been married for 26 years 
through a career in the Navy, as well as public service 
following that--her mother, Jean Deveure, and my son, Stephen.
    If confirmed, I look forward to working closely with this 
committee, the United States Senate, and your colleagues in the 
House of Representatives, to advance the security of the United 
States.
    The issues within the purview of the Assistant Secretary of 
Defense for Global Security Affairs can only be addressed by 
working closely together with Congress. I hope, if confirmed, 
to be able to work constructively with the committee to meet 
the many challenges facing us.
    Thank you.
    Chairman Levin. Thank you, Mr. Benkert.
    Mr. Stackley?

STATEMENT OF SEAN J. STACKLEY, TO BE ASSISTANT SECRETARY OF THE 
        NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION

    Mr. Stackley. Chairman Levin, Senator Warner, members of 
the committee, thank you for your time and for the efforts of 
the committee in preparing this hearing today. I'm greatly 
honored that the President, the Secretary of Defense, and the 
Secretary of the Navy have put forth my nomination, providing 
this opportunity to appear before you today.
    I would like to take a moment to introduce my wife and 
three of my four children who are joining me here today. My 
wife, Terry, has been keeping me out of trouble for the past 28 
years. My oldest daughter, Erin, joins me--she currently works 
for Congressman ``Bob'' Goodlatte in the House of 
Representatives; my son, Scott, and daughter, Maura.
    It has been my utmost privilege to serve the Senate Armed 
Services Committee these past few years. During this time, I've 
had the opportunity to work with, and learn from, the 
distinguished members of the committee, as well as my 
dedicated, very professional staff colleagues. If confirmed, I 
look forward to working closely with this committee in helping 
to resolve the challenges before the acquisition community in 
the Department of the Navy.
    Before coming to the committee, I had the privilege of 
fulfilling a career in the Navy. When I consider the prospects 
of departing the committee to return to the Department, I'm 
equally humbled by, and focused on, this next opportunity to 
serve our sailors and marines, to provide them with the ships 
and aircraft, the systems and equipment that they require to 
train and deploy, to succeed in their missions, and to return 
home safely.
    If confirmed, I will work, with the best of my ability, to 
fulfill my duties and execute responsible leadership for 
research, development, and acquisition matters in the 
Department of the Navy.
    Again, I thank you for your time and look forward to 
answering your questions.
    Chairman Levin. Thank you very much.
    Mr. Celec?

    STATEMENT OF FREDERICK S. CELEC, TO BE ASSISTANT TO THE 
 SECRETARY OF DEFENSE FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL 
                        DEFENSE PROGRAMS

    Mr. Celec. Thank you, sir.
    Senator Levin, Senator Warner, and members of the 
committee, I am honored to be here today, and appreciate your 
personal time at this critical point in your legislative 
calendar. I also wish to thank the President for having 
sufficient faith in me to nominate me for this important 
position.
    I have a few remarks, but, before I make them, I'd like to 
introduce my family--my wife of 47 years, Irene, who's behind 
me here; my daughter, Christine Gold, and her husband, 
Jonathan; their children and two of my four grandchildren, Adam 
and Hannah; and my son, Ken.
    Senators, if I am confirmed, I am already aware of several 
critical issues that I will have to address, simply from 
following the national news. I'm sure there are others that I'm 
not aware of that need resolving.
    Perhaps the most urgent is restoring the culture for 
nuclear safety and security in the Air Force. That culture was 
very much a part of the Air Force I served in for 21 years, and 
I will work hard to ensure its restoration.
    Another is supporting the congressionally mandated 
commission on our strategic posture, with the expectation that 
they will make recommendations that will help obtain bipartisan 
support for the future of our nuclear enterprise.
    Yet another is ensuring, to the best of our ability, that 
we destroy our chemical munitions as rapidly as possible and 
attempt to meet the treaty-mandated 2012 date for completion.
    Finally, there are issues surrounding the way ahead for the 
entire nuclear enterprise as systems continue to age, and many 
are approaching their end of useful service life.
    If confirmed, I will work to get each of these issues on 
track toward resolution. But, I recognize that I will need the 
support and encouragement from both the administration and 
Congress in order to be successful. If confirmed, I expect to 
work closely with you and your staffs as we seek to resolve 
these difficult, but strategically important, issues of 
national security.
    This concludes my opening remarks. Thank you, sir. I will 
be happy to answer any questions.
    Chairman Levin. Thank you.
    Again, thanks to all of your family, whether they're here 
or whether they're unable to be here.
    Senator Warner. Mr. Chairman, could I put my questions into 
the record and, thus, let them reply to them that way?
    Again, forgive me. We're going to announce the GI Bill, 
which is going to help the very men and women, after they leave 
the service, that you're working with.
    Thank you very much.
    Chairman Levin. Thank you, Senator Warner. The questions 
will be asked, for the record, and our witnesses will be asked 
to promptly answer the questions of Senator Warner or other 
Senators who may not be here; some cases, those of us who are 
able to be here.
    Secretary Ford, let me start with you. The Army has three 
major modernization initiatives that are going to shape the 
force over the next several years, and perhaps over the next 
several generations. Those are growing the Army's end strength, 
restructuring units to the modular design, and transformation 
to the Future Combat System (FCS). All three have very 
expensive investment implications for the Army's current and 
future budget. However, it's uncertain that the Army will be 
able to afford all three modernization initiatives at the same 
time. Could you give us your thoughts on that, as to the 
affordability of these initiatives within the current and 
projected Army budgets?
    Mr. Ford. Thank you, Mr. Chairman.
    We believe that we do have enough financial wherewithal to 
complete all three initiatives. Of course, the FCS program will 
not reach its full acquisition until after the end of the 
upcoming budget cycle, and so, the out-year fiscal guidance for 
that system hasn't yet been given. But, over the next 6 years, 
out through fiscal year 2015, we think that we're able to 
afford all three programs, in balance, to keep the Army a 
balanced force, going forward. Our budget planning will reflect 
that when it's submitted to Congress.
    Chairman Levin. Now, ongoing operations supporting the 
global war on terror put a huge amount of wear and tear on Army 
equipment throughout the force. So, now there's going to be a 
real challenge to reset the force, not only as current 
operations continue, but for as many as 3 to 5 years after they 
conclude. Could you give us your view, Secretary Ford, as to 
whether the Army's current equipment reset program meets the 
requirements of the global war on terror as well as the 
requirements for changing to a modular force?
    Mr. Ford. The plans that we've had over the last several 
years to reset the Army have been largely based on supplemental 
funding, and it's been our position that we will require 
substantial supplemental funding, on the order of $15 to $17 
billion a year, for several years after the deployments 
diminish. Of course, we need that amount of money every year, 
with the deployments at the current rate, so it's about a $17-
billion-a-year investment that's required to sustain the wear 
and tear on the equipment, based on current deployment levels.
    We think that those are appropriate expenses to be included 
in the supplemental, and we look forward to working with 
Congress to help Congress understand why those are valuable and 
important expenses to be appropriated.
    Chairman Levin. Is it your understanding that our repair 
depots are operating at full capacity to meet rebuild-and-
repair requirements for the reset?
    Mr. Ford. Our depots are running at full capacity, but not 
at maximum capacity. If there was more money, we could run 
three shifts, or two long shifts each day, 6 days a week, with 
downtime on the weekends for equipment maintenance. But, they 
are running at very full capacity, and they are running 
commensurate with the amount of funds that we have available to 
support them. The labor hours are up almost 100 percent over 
the predeployment period.
    Chairman Levin. Would you give us, for the record, what 
maximum capacity could produce and what its cost would be?
    Mr. Ford. We can certainly do that, yes, sir.
    [The information referred to follows:]

    The Army's maintenance depots have surged to more than double their 
output since 2003 in support of Operation Iraqi Freedom (OIF)/Operation 
Enduring Freedom (OEF). They have done this by increasing their 
workforce (both contract and Federal employees), working multiple 
shifts and increased overtime, and becoming more efficient (through 
numerous efficiencies derived from Lean Six Sigma and other management 
initiatives). We can surge still further if Army requirements so 
dictate--around half of our fiscal year 2008 execution level of 27 
million direct labor hours, or a little over 40 million direct labor 
hours total--with our current physical infrastructure. To do so, we 
would require ample time to hire and train additional personnel (6 to 9 
months), and to obtain long lead repair parts to support increased 
production (up to 18 months for some systems such as the Bradley and M1 
Abrams).
    We currently have personnel plans and long lead items in the supply 
pipeline to continue production at planned levels through fiscal year 
2009. As OIF/OEF requirements change beyond fiscal year 2009, our 
personnel resourcing and long lead item planning will adjust 
accordingly. Because our depots are Army Working Capital Fund 
industrial organizations, they are self-sustaining through the rates 
they charge to customers. Thus, there is no ``cost'' to surge other 
than the additional cost of the funded reset programs themselves. The 
cost of additional funded reset programs would vary depending upon the 
systems being reset--for example, additional Bradley Fighting Vehicle 
Systems workload would cost much more than additional small arms 
workload.

    Chairman Levin. By the way, we'll have a 10-minute round 
here for the first round, if that's all right. Does that work 
for you, Senator Martinez?
    Secretary Ford, the Army's practice of using supplemental 
appropriations to fund parts of its annual modernization or 
routine maintenance costs obscures the real growth in the Army 
base budget. That's because of supplemental appropriations. We 
may, in fact, be losing sight of what a trained and ready Army 
will realistically cost on an annual basis after the operations 
in Iraq and Afghanistan draw down.
    Secretary Ford, give us your views on how supplemental 
appropriations have been used over the years, and its potential 
impact, if any, on our ability to estimate the annual baseline 
costs of a trained and ready Army.
    Mr. Ford. Senator Levin, we are very mindful of the effect 
of supplementals on the training and reset requirements in the 
Army, and we track very carefully what activities have been 
transferred from the base program to the supplemental. They're 
mostly in the areas of equipment reset and in training costs, 
where the training costs specific to the deployments that we're 
entering into have been transferred to the supplemental at the 
direction of the Department. But, we are monitoring that very 
carefully, and we understand that as the deployments draw down, 
we're going to have a challenge in transferring this activity 
back to the base. We are doing that planning now. We 
understand. We're building a base budget that's based on fiscal 
guidance at historic rates, not at substantially-greater-than-
historic rates, and we are paying very careful attention to 
that issue.
    Chairman Levin. Secretary Ford, if confirmed as Under 
Secretary, you'll also become the Chief Management Officer of 
the Army, with responsibility for improving the Army's outdated 
business systems and processes. One of the keys to successful 
business transformation is a sound business enterprise 
architecture and transition plan to guide investment decisions.
    Last month GAO reported that the Army has fully satisfied 
only 1 of 31 core elements of a sound business enterprise 
architecture. Moreover, the GAO reported that the Army has 
``experienced a 29-percent decrease in those core elements that 
it had partially satisfied a year ago.'' In other words, not 
only has the Army not made any discernible progress towards an 
enterprise architecture, it is actually going backward.
    What steps would you take to reverse this trend and ensure 
that the Army has a sound foundation for business 
transformation?
    Mr. Ford. Senator Levin, we've been working very 
diligently, since I joined the Department 3 years ago, on 
improving our business systems. We have three major efforts 
ongoing. We have the General Fund Accounting System, that's in 
development, that will give us a good realtime view of the 
financial transactions of the Department, not only the income 
statement, but the balance sheet. It's in test now, and it's 
scheduled to go to full, live operation in the next couple of 
years. We are using our logistics system, and we are marrying 
that with our financial system, so that we will be able to 
track both our equipment and its financial aspects at the same 
time. We are leading the Department's effort in implementing 
the Defense Integrated Military Human Resources System, which 
is the new payroll/personnel system for DOD, and we're doing a 
test of that late this year, with full implementation scheduled 
for next year.
    I've spent a significant part of my career working on 
information systems and information systems implementations. 
They are complicated, difficult to do, particularly in an 
enterprise the size of the Army, with $150 billion worth of 
base activity and a million people. But, we are working at it--
we work at it every day--with great seriousness of purpose.
    Chairman Levin. Would you agree that the Army business 
transformation has not been well served by the existing 
stovepipe organization and that the Department needs a single 
office responsible for managing the effort to reform business 
systems and processes?
    Mr. Ford. I would agree with that conclusion. Yes, sir.
    Chairman Levin. Thank you.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman. Good morning.
    Chairman Levin. Good morning.
    Senator Martinez. I wanted to begin by thanking all of you 
for your willingness to serve, and, again, to add my word of 
congratulations and thanks to your families, as well.
    I particularly wanted to single out Mr. Stackley, who I've 
had the privilege of working with in the Seapower Subcommittee. 
We are, again, very proud of your career as a naval officer, 
and, particularly, we appreciate your service to the United 
States Senate. As was mentioned earlier, the Navy's gain is 
certainly our loss, and we will miss you greatly, but we wish 
you the very best and are proud of what you have done and what 
you will continue to do.
    On that vein, I wanted to just follow through and ask Mr. 
Stackley a couple of questions along the lines of the things 
that we've been working on having to do with the Navy and our 
shared concern about low rates of production that have been 
experienced lately, and how that relates also to an industrial 
base that will suffer if we don't resolve these issues. I 
wonder if you might address that for us.
    Mr. Stackley. Thank you, Senator Martinez, and thank you 
for the kind words.
    Let me start in addressing that important question by going 
back to the Navy shipbuilding plan itself. If you look back, a 
couple of years ago, the Navy shipbuilding plan, in fact, was 
changing annually. So, each year, a new 30-year shipbuilding 
plan would emerge which would have a different forecast for the 
numbers and types of ships to support the Navy's requirements, 
as well as the industrial base.
    When Admiral Mullen took over as Chief of Naval Operations 
(CNO), he recognized that this churn in planning for 
shipbuilding was harming both the Navy's ability to meet its 
requirements, as well as the industrial base's ability to 
facilitize, to equip their workforce, to efficiently meet the 
Navy's requirements. Therefore, he chartered a group that took 
a look at the long-term requirements, and included in the plan 
the Navy's commitment to stabilize that plan.
    I think the committee is well aware of what's referred to 
as the 313-ship Navy. Incorporated in this plan is an attempt 
to, one, provide stability, and, two, to procure the ships at a 
rate that balances the Navy's requirements, the Navy's 
resources, and the industrial base's needs to be able to 
stabilize around that plan.
    It continues to be a challenge. The rates at which we've 
been procuring ships over the past 10 to 15 years has been 
about six, seven, eight per year. Taking a metric, where you 
take the number of ships per year that you procure, versus the 
number of shipyards that you have, it's been just about one 
ship per year per shipyard.
    The future plan looks at increasing that rate, to get up to 
a 313-ship Navy, as well as to improve upon the base for the 
shipyards. The challenge remains to accomplish that affordably 
within the resources that are available to the Navy.
    Senator Martinez. Do you think that we have a realistic 
plan that can get us to that 313-ship Navy? Do we have a 
realistic approach to getting that done?
    Mr. Stackley. Let me answer that question in terms of 
historical and then future projections.
    Historically, over the last 10 to 15 years, the Navy's 
investment in shipbuilding has averaged $10 to $12 billion per 
year. When you look out to the end of the Future Years Defense 
Plan (FYDP) and beyond, the investment that's required to meet 
the 313-ship plan is on the order of $18 to $20 billion per 
year. Right there, you have a 50-percent increase in the 
investment required to meet the plan.
    That challenge is significant, and that investment is going 
to be required at the same time that other bills are coming to 
the Department. Would I call it realistic? I think it requires 
significant effort, between now and the end of the FYDP, to 
retire the risk associated with both cost projections and the 
inherent challenges associated with ship construction.
    Senator Martinez. Finally, let me ask you, in the area of 
concerns that we share--the DDG-1000 and its future--what do we 
need to do to get that program back on track, as well as the 
Littoral Combat Ship (LCS) program?
    Mr. Stackley. Let me start with the DDG-1000. The DDG-1000 
program represents a significant investment in research and 
development in establishing requirements for the capability 
that the ship brings to the fleet. Up to this point in time, 
the Navy has done a credible job, a thorough job, of 
establishing the requirements, identifying the risks, and 
putting together a development plan to retire those risks 
through a series of engineering development models for the top-
10 technology risks for the program.
    The two lead ships--authorized and appropriated in the 2007 
budget--were awarded design and construction contracts earlier 
this year. By all measures, they are currently on track, at 
this very nascent stage of design and construction, there 
appears to be a robust plan in place to manage the risk, but 
the fact remains that the capabilities that are brought to that 
platform are, in fact, leading-edge, and the investment in 
those 10 engineering development models still has in front of 
it the integration of those technologies on the platform.
    I believe that, at this stage, proper planning has gone 
into the lead ships. We are at the front end of execution and 
need to maintain discipline in managing the risk to the 
program, discipline in managing design and requirements so we 
don't introduce disruption. We need to provide the oversight 
required, not just in the shipyard, but in the systems 
development arena, to ensure that the risk management plan 
holds true to its intentions.
    The LCS program is at a similar stage, but arrived here at 
a much different path. As opposed to the DDG-1000 program, 
which had a lengthy development period, the LCS program placed 
an emphasis on accelerating design and construction to deliver 
a capability that is needed in the fleet today. Risk was 
assumed in the design and construction phase. Risk was not 
retired through the development phase. As a result, you had a 
lot of parallel development/design/construction taking place; 
and, as soon as disruption was introduced into the program, 
through design change, snowballing effect took place and costs 
grew significantly.
    Today, the first two lead ships--one is getting ready for 
trials; the second ship, in the water, 6 to 9 months behind the 
first ship. At this stage, we have to push these ships to 
completion of their tests and trials. We have to clean up the 
design on those ships to enable a more orderly construction 
process for follow-on ships. There's much left to be learned on 
the programs. The third, fourth, and fifth ships have been 
solicited. Those bids are in the hands of the Navy. They're 
evaluating those proposals. There's an understanding of the 
cost cap that was introduced by Congress. I think, at this 
stage, we complete the evaluation of the proposals and complete 
the design, test, and trials for those ships. The CNO has been 
emphatic--the past three CNOs have been emphatic--that this is 
an important requirement. They are wrestling with the cost 
growth to ensure that we continue to meet the requirement. But, 
there's much information to be learned in completing these 
first ships before building the path for the follow-on ships.
    Senator Martinez. Thank you, sir.
    Mr. Benkert, I want to just ask you if you might have any 
comment on the proliferation issue as it relates to the 
announcement this morning on North Korea that the President 
made--obviously, the concern was their potential involvement in 
Syria and what was discovered there just a few weeks ago, and 
whether you feel that this announcement today is significant, 
in terms of ameliorating or decreasing the threat to the world, 
of proliferation from North Korea.
    Mr. Benkert. Thank you, Senator Martinez.
    I would just note, first of all, that our Department, and 
this job to which I've been nominated, in particular, have been 
very much in a mode, here, of supporting the lead, when it 
comes to North Korea, of the Secretary of State and Ambassador 
Christopher Hill. We are full participants in this process, 
and, in particular, in evaluating how one would go about 
verifying North Korean declarations. I think, as this process 
has continued, the prospect, obviously, is for a significant 
reduction in the proliferation threat as we go forward. But, 
again, within the scope of my competence here, I am in the 
business of helping to support this process as it moves forward 
and to help ensure that we can verify what is declared in the 
process.
    Senator Martinez. Thank you. My time's expired. Thank you 
all very much. I congratulate all of you on your future 
assignments, and look forward to working with you.
    Chairman Levin. Thank you, Senator Martinez.
    Secretary Ford, I'm concerned that the Army is still not 
investing enough in developing next-generation technologies to 
reduce the Army's fuel-related costs and logistics burdens. The 
Army is not moving aggressively, still, to develop and adopt 
advanced energy technologies and systems, including vehicles, 
that could increase performance, enhance military capabilities, 
and reduce costs to the taxpayer, and reduce the use of fossil 
fuel. If confirmed, what proposals would you make to put the 
Army on a more aggressive path in developing and adopting 
advanced energy technologies?
    Mr. Ford. Thank you, Senator Levin.
    Just this past week, Secretary Geren asked to have a 
meeting on this issue, and we addressed several ideas.
    First, the majority of our spending on fuel is for 
nontactical vehicles and for energy on our posts, camps, and 
stations. The first efforts, and the efforts where we think we 
can have some almost immediate impact, are moving to 
acquisition of hybrid vehicles for the nontactical vehicles on 
posts, camps, and stations, and looking for pilot ways to look 
at solar power, wind power, energy conservation in the 
buildings here in the United States.
    FCS is based on the theory that the common platform will be 
a hybrid vehicle, I believe, diesel/electric vehicle. So, we 
are investing in the technology for the tactical vehicles to 
reduce our fuel consumption.
    Our current tactical vehicles consume great amounts of 
fuel, and we understand that the logistic tail required to get 
that fuel to the tactical vehicles is a real problem. We are 
looking at it both in the tactical and nontactical areas.
    Chairman Levin. We have some laws on the books that require 
the military to look at alternative fuel systems for the 
nontactical vehicles. Instead of doing what we said that the 
Army and the other Services should do throughout the years, 
there usually is a waiver signed that is simply waiving it, 
because the comparable cost isn't there. Are you going to take 
a different kind of a view of the need to do this now?
    Mr. Ford. I'm not aware of any waivers that have been 
signed in the past. It wasn't under my purview, I don't 
believe. But, in the future, with gas at north of $4 a gallon, 
the economics of energy, particularly with regard to 
nontactical vehicles, has clearly changed, and we will look at 
that very carefully. But, our plan is to almost immediately 
take advantage of General Services Administration's offering of 
significant numbers of hybrid vehicles.
    Chairman Levin. I hope you would not just look at the 
current economies, but also the future. The problem is that 
when gas was cheap, they always said, ``Well, it doesn't pay.'' 
It would have paid. We could have kept gas cheap if we had 
taken the pressure off buying more and more oil. I understand 
what you're saying about the current cost of gas making it 
easier to justify economically, but I think we have to take a 
longer view. Even if a miracle happened and gas prices came 
down, the same truth would be there. We'll count on you to take 
a look at that.
    We also would invite you to come out and take a look at the 
ways in which the Army is working on dual-use technologies, 
including vehicle designs and batteries, but also how that can 
be increased, that dual-use approach. Would you be willing to 
come out and take a look at that?
    Mr. Ford. Very interested in doing that, sir.
    Chairman Levin. Thank you.
    Secretary Ford, in the aftermath of the problems with 
outpatient care in facilities at Walter Reed Army Medical 
Center, the Army established Warrior Transition Units (WTUs) to 
which all injured or ill soldiers were assigned. The exclusive 
mission of these units is to heal. While we certainly commend 
the Army for the work done thus far to help improve the quality 
of care and case management of these wounded warriors, high 
operational tempo and recent redeployments of large combat 
units have increased the size of many of these transition 
units, to the point where case manager staffing no longer meets 
the ratios of case managers to wounded warriors which were 
established by the Army. Additionally, we've heard that the 
Army expects that these WTUs will grow by as much as 900 
soldiers per month for the foreseeable future.
    The most alarming case that we've heard about is at Fort 
Hood, where the number of nurse case managers to soldiers is 
far beyond the Army's established ratio. Are you familiar with 
that situation at Fort Hood?
    Mr. Ford. I am.
    Chairman Levin. Can you tell us what is being done to help 
increase the number of case managers to support the wounded-
warrior population?
    Mr. Ford. At the beginning of this year, we expanded the 
definition of who would be included in WTUs. In January, we had 
a caseload of about 5,000; our current caseload is almost 
13,000. So, in a 6-month, almost 7-month period, it's more than 
doubled.
    We believe, at this point, that we have identified almost 
everybody that is going to be included in the WTUs. The key, at 
this point, is to make sure that we are providing the right 
services to each of those folks, as they are needed. Some of 
those folks have never deployed--actually, 40 percent have 
never deployed. Anyone who is in a medical limited-duty status 
has been, kind of, wrapped under the WTU label. What we need to 
do now is to figure out which of our soldiers need simply to be 
monitored, that they're making their medical appointments, and 
which need the serious physical rehabilitation, mental-health 
services required so that they can heal and either get back to 
their unit or move on with the rest of their lives.
    We are looking at this very carefully. The chief of staff 
intends to deliver new guidance, I think, in the next couple of 
days on this issue. Brigadier General Gary Cheek has just taken 
over as the head of the WTU. He's a very able leader and 
really, I think, has his hands around the administrative--or 
the management problems that currently have been created by 
this explosive growth.
    We don't think that there will be much more growth from 
current levels. So, really, at this point, it's about figuring 
out how to take care of the wounded warriors in the best 
possible way.
    Chairman Levin. It's your continuing goal, as I know it is 
ours, that all wounded and injured soldiers will be assigned to 
WTU?
    Mr. Ford. Oh, yes. They'll be assigned to WTUs.
    Chairman Levin. Congress authorized, last year at the 
request of the Department, an increase to the maximum monthly 
amount of hardship duty pay from $750 to $1,500. The Army's 
proposing to use this authority to institute an umbrella pay 
program, called Warrior Pay, that will reward servicemembers 
for lengthy or repeated deployments to certain high-risk areas. 
Will any servicemember, at the end of the day, receive, under 
your approach, less money under the Warrior Pay Program than 
they are now, under the various special and incentive pays?
    Mr. Ford. I am not familiar with the details of that 
program sufficiently so that I could assure you that there is 
no situation in which someone would get paid less. But, clearly 
the intention is that pay for warriors who are deployed in 
theater would be greater than it is today. That is our 
intention.
    Chairman Levin. Can you double check with people who are 
familiar with the details, so that you can give us the 
assurance that there won't be any reduction as a result of this 
new program?
    Mr. Ford. We'll be happy to look into it further.
    [The information referred to follows:]

    No soldier will receive less money under the Warrior Pay concept 
than they receive with special and incentive pays authorized today. The 
Army intends to continue paying soldiers the current incentives until 
Warrior Pay is implemented. No soldier will be adversely affected by 
the implementation of this new program. At this time, soldiers are not 
rewarded for frequent and lengthy tours in a fair and equitable manner. 
Some soldiers who are in units that have been involuntarily extended in 
theater by the Secretary of Defense are receiving $1,000 per month 
Assignment Incentive Pay for 1 to 3 months. Under the Warrior Pay 
concept, soldiers would be eligible for the pay once they have served 
greater than 365 days in a combat zone--or $2,400 in additional 
compensation for the second tour in a combat zone. The proposed pay 
structure would then increase the monthly amount paid for each 
additional 365 days deployed. We believe Warrior Pay will provide a 
more equitable and predictable system to compensate for deployments. 
All components would receive the same amount of pay for deploying.

    Chairman Levin. Thank you.
    Mr. Benkert, you made reference, now, to the announcement 
this morning about North Korea, and I have a number of 
questions on that, but I also want to just announce--staff can 
carry this back to the Senators--that we are going to be having 
a hearing on this announcement today. We'll have a hearing 
sometime in July, before this committee, going into the issues 
in detail. But, I just want to ask you a few questions this 
morning.
    Do you know what the plan is for the plutonium that has 
been produced in North Korea? What commitment has been made or 
insisted upon by us?
    Mr. Benkert. Mr. Chairman, I don't know.
    Chairman Levin. Okay.
    Mr. Celec, would you know, by any chance?
    Mr. Celec. No, sir, I do not.
    Chairman Levin. All right.
    Do you know what role, Mr. Benkert, the Defense 
Department's going to play in assisting the disablement and 
dismantlement of the nuclear program?
    Mr. Benkert. The role the Defense Department is going to 
play obviously is constrained, at this point, by the Glenn 
Amendment. The Department has been supportive of the lead that 
State Department has had. I think that the Department will be 
involved in the verification, and the Department will be 
involved, as is necessary, in other aspects. But, we have not 
been asked, at this point, to support the dismantlement.
    Chairman Levin. Do you know what information, if any, was 
provided by North Korea, relative to its alleged enriched 
uranium program?
    Mr. Benkert. Sir, I do not.
    Chairman Levin. All right.
    Mr. Celec, would you know?
    Mr. Celec. No, sir.
    Chairman Levin. Okay.
    Mr. Celec, just on this subject, let me move to you--do you 
have any understanding that's different from what we heard from 
Mr. Benkert about the actions that DOD may undertake to 
implement the disablement or the dismantlement of North Korean 
nuclear program?
    Mr. Celec. Historically, the Department has provided the 
logistics necessary to move things for the Department of Energy 
and the Department of State. I would assume that that's the 
role that they will continue to provide in this operation.
    Chairman Levin. The President said this morning, ``a moment 
of opportunity for North Korea. If North Korea continues to 
make the right choices, it can repair its relationship with the 
international community. If North Korea makes the wrong 
choices, the United States and our partners in the Six-Party 
Talks will respond accordingly. If they do not fully disclose 
and end their plutonium, their enrichment, and their 
proliferation efforts and activities, there will be further 
consequences.''
    Do you know what the President was referring to, Mr. 
Benkert?
    Mr. Benkert. Mr. Chairman, I don't know.
    Chairman Levin. Do you know, Mr. Celec?
    Mr. Celec. No, sir.
    Chairman Levin. Okay.
    Mr. Benkert, you stated, in your responses to the advance 
policy questions, that there's a need for better coordination 
between DOD's counternarcotics program and the security 
assistance program. One area where DOD will encounter, could 
encounter, a duplication of efforts is in the West Africa 
region, where the counternarcotics program has requested 
expanded authorities, and where DOD has utilized, extensively, 
it's section 1206 authorities.
    But, on the same issue of coordination, earlier this month 
I sent a letter to Secretary Gates regarding the $75 million in 
funding for the Pakistan Frontier Corps, requesting that it be 
made conditional on the inclusion in any peace deals that are 
struck between the Government of Pakistan and the tribal 
militants of a commitment to stop cross-border incursions into 
Afghanistan and a strong mechanism to enforce that commitment.
    It's my understanding that, in addition to that funding, 
DOD also planned to expend approximately $54 million in funding 
from the counternarcotics program in fiscal year 2008. In your 
view, what should be the status of that $54 million? Should 
that funding be conditioned--indeed, should the $75 million in 
funding that I previously referred to be conditioned--on a 
peace agreement between the Government of Pakistan and the 
tribal leaders, including a commitment to stop cross-border 
incursions with strong enforcement mechanisms?
    Mr. Benkert. Thank you, Mr. Chairman.
    First of all, I would just note that the $54 million that 
you had mentioned in counternarcotics funding was very closely 
coordinated with the plans for the $75 million so as to avoid 
duplication of effort and also to stay in the proper lanes.
    I would also note that one of the intents--among the intent 
of the counternarcotics program is to assist in creating border 
surveillance centers--initially on the Afghan side of the 
border, but potentially also on the Pakistan side, later on. In 
addition to our personnel, these border surveillance centers 
would be staffed with Afghan and Pakistan personnel, as well, 
precisely to assist in being able to monitor what may be going 
back and forth across the border.
    So, from that point of view, I do not think that it would 
be necessary--or wise--to make the funding contingent on some 
sort of an agreement with the Pakistanis, since, in part, the 
purpose of this funding is to assist in stopping the cross-
border operations.
    Chairman Levin. The problem is that there's some evidence 
that Pakistan doesn't care about those cross-border operations, 
and could easily be supporting militants crossing into 
Afghanistan between those posts that you talk about. Unless we 
have an understanding from the tribal leaders that they're 
going to put an end to this and that they're going to give us 
some metrics that we can measure putting that to an end, we 
would potentially be spending $75 million of taxpayer dollars 
to support a Pakistan Frontier Corps, which is the opposite 
goal that we have. That's the concern that I've raised with 
Secretary Gates. The mere presence of some posts along the 
border--I don't know how many you're talking about--doesn't 
solve the problem, unless there's an intent, on the Pakistan 
side, to put an end to the militants crossing the border into 
Afghanistan, where they're attacking our troops.
    Do you have any opinion, then, about the importance of 
getting the commitment of those tribal leaders? Our military 
people and our diplomats have said it's critically important 
that we get those commitments as part of any peace agreements. 
I'm just wondering what your view is on it.
    Mr. Benkert. Mr. Chairman, I think the concern that you 
have expressed is known, and there is an understanding of this 
concern. This issue--it's on the Secretary's agenda, as well as 
the Chairman's and the senior military leaders, including the 
Commander of International Security Assistance Force in 
Afghanistan. I think I would defer to them on the answer of 
whether some additional restrictions might be necessary based 
on their discussions with their Pakistani counterparts.
    Chairman Levin. All right. Since I've stated publicly that 
we sent this letter to Secretary Gates, I'll state publicly 
that we are anxiously awaiting a response to that letter.
    I understand that you, as Assistant Secretary for Global 
Secretary Affairs, would be overseeing the Office of Detainee 
Affairs. Is that correct?
    Mr. Benkert. Yes, sir.
    Chairman Levin. The office that formulates defense policies 
in support of strategic defense affairs objectives, including 
that office. I visited one of those detention operations at 
Camp Cropper, in Baghdad, when I was there in March. It was a 
very impressive operation, with standards which I consider to 
be really important standards, with a new reintegration effort 
being made for the detainees, with programs that included 
family visits, religious discussion, literacy, and vocational 
training. Are you familiar with that approach?
    Mr. Benkert. Yes, sir.
    Chairman Levin. Do you support it?
    Mr. Benkert. Very much so. I think one of the very positive 
developments in detention operations in Iraq over the past year 
or so, under the leadership of Major General Doug Stone, who 
was the commander of the Detainee Task Force, was a shift in 
focus from simply holding detainees off the battlefield, to a 
focus on what he called counterinsurgency within the wire, 
which is to ensure the fact that they had been put into a 
detainee facility did not make jihadis or insurgents out of 
individuals who were not radical to start with, and then to 
provide a way to reintegrate them into society when they left. 
I think the track record has been very good. The intent now, 
obviously, is to try to apply what we've learned in this 
process elsewhere, such as Afghanistan.
    Chairman Levin. Is it your intent that the lessons learned 
from these positive operations would be incorporated into DOD 
doctrine and procedures and training?
    Mr. Benkert. Absolutely. We need to capture these lessons 
learned.
    Chairman Levin. As a Nation, we have a long way to go to 
cleanse the stain of Abu Ghraib, and this is an important part 
of that shift of the perception of us in our dealing and 
handling of detainees.
    Al Qaeda has a safe haven in Pakistan. What can we do to 
try to eliminate that safe haven, more than what we're already 
doing?
    Mr. Benkert. Mr. Chairman, again, within the competence of 
the position to which I've been nominated, I would note that 
the Office of Global Security Affairs is in the position of 
looking at the tools that are available to carry out the intent 
that is determined by the Secretary and the military 
commanders. I think that, again, at the level that we support 
these operations, we are fortunate to have a set of tools 
available to us, that you have given us, that allow us to put 
together a package that addresses the issue of the safe haven.
    I would also note that there are issues here, in the world 
of counterterrorism, that I would not be able to talk about in 
this hearing, but I think the principle point is that we have 
the ability to put together the necessary set of support 
mechanisms that would assist the Pakistani military in dealing 
with this. We also have measures that are available to our 
forces, as well.
    Chairman Levin. Mr. Benkert, we face a huge number of 
global security challenges. In order to address many of them, 
we're going to need a sustained cooperation, internationally, 
and that includes cooperation with Russia; Iran just being one 
example, but one of the bigger ones. We have a number of 
successful areas of cooperation with Russia, but we also have 
some significant strains in the relationship. Can you give us 
your assessment as to the future of cooperation with Russia on 
a number of international security challenges? Can we improve 
that security cooperation with Russia?
    Mr. Benkert. Mr. Chairman, I think we can. I appreciate the 
fact that you've noted that we have examples of successful 
cooperative programs, as well as strains, in the relationship. 
I think it's unfortunate that attention is sometimes only paid 
to the strains. I think some of those are well known; for 
example, in the area of missile defense.
    Let me just note several areas where I think we have very 
productive relationships with Russia that continue and on which 
we want to expand.
    First, I think, the Cooperative Threat Reduction (CTR) 
Program, the Nunn-Lugar program, I think, is a real example of 
a program of solid cooperation with Russia that has continued 
over many years, despite whatever ups and downs in the overall 
relationship may take place. I think it's a very strong 
program. We continue to have very good working relationships 
with the Russian counterparts in this program.
    Second, there have been some joint initiatives that the 
U.S. and Russia have undertaken. I would note the Global 
Initiative to Combat Nuclear Terrorism, an initiative that 
Presidents Bush and Putin announced a couple of years ago, is a 
program under which any nation that ascribes to the principles 
of the Global Initiative can become a member, and we're now up 
over 70 members. In the space of the time that this program has 
existed, it has helped to generate a greater focus on combating 
nuclear terrorism and an opportunity for the U.S. and Russia to 
work together to promote best practices, exercises focused on 
dealing with this matter, and so forth, in the international 
community.
    I think that those opportunities have continued, despite 
the challenges in other aspects of the relationship.
    Chairman Levin. I want to go back to North Korea just for a 
moment, Mr. Benkert. In your written response to the advance 
policy questions, you made reference to a letter that I 
received from Secretary Gates, responding to my question as to 
when operations in North Korea would resume to recover the 
remains of unaccounted-for American servicemen. The letter that 
you referred to says that operations will resume at an 
``appropriate time.'' Is it not now appropriate, given this 
breakthrough that's been announced by the President today, to 
resume these operations and to press the North Koreans for us 
to be allowed to look for those remains?
    Mr. Benkert. Mr. Chairman, I think we have been--and I say 
``we,'' it's not just the Department, but in consultation with 
other agencies of the Government as well. We have been looking 
at the circumstances and the progress within the Six-Party 
Talks and the activities related to that; and, I think, now 
with this announcement we will go back and, again, in 
consultation with our partners in the interagency, look at the 
impact of this and when might be the appropriate time.
    Chairman Levin. There's a lot of interest in this, and I 
just hope that it won't just be inquiring ``When?'' but asking, 
``Hey, isn't it time now to get this high up on this agenda?''
    Mr. Benkert. Mr. Chairman, I think we are very attuned to 
the desires of the families for a full accounting of those who 
are missing in North Korea. We talk to the families--and I 
personally do, as well--and their representatives frequently. 
I'm very much aware of the desire and the need to get this 
process started again at an appropriate time.
    Chairman Levin. Mr. Stackley, we have a situation, which 
you're very personally familiar with, that the F/A-18 and the 
AV-8B aircraft are continuing to age. There could be, now, a 
shortfall of 125 strike fighter aircraft in the next decade, 
according to the Navy prediction, which would increase the 
concern about the schedule for the Joint Strike Fighter (JSF). 
In response to the pre-hearing questions, you indicated that 
one of the options available to the Navy would be ``extending 
procurement of the F/A-18 aircraft.'' Some have asserted that 
the JSF program is threatened by continuing procurement of 
legacy aircraft. I'm wondering if you can give us your view as 
to whether the continued procurement of those legacy aircraft 
to address near-term inventory shortfalls will threaten the JSF 
program.
    Mr. Stackley. Yes, sir.
    First, the timeframe in which we're discussing, the F/A-18 
procurement proceeds out through 2011--correction, aircraft 
delivers from the current multiyear procurement for the F/A-18 
goes out through 2011, and then there are an additional 3 
years, outside of the multiyear procurement, 2012 through 2014 
where the program winds down. That program, today, is in--call 
it ``hot production,'' stable, delivering at economic rates.
    JSF is at the other end of the spectrum, the front of the 
program. Initial Operational Capability (IOC) for Marine Corps 
is 2012; IOC for the Navy, 2015. There's this critical period 
between shutting down the F/A-18 production line and ramping up 
the JSF program.
    Between now and that point in time, we expect risk to be 
retired on the JSF program, we expect to have greater 
understanding, in terms of the service life extension program 
for the F/A-18 to determine exactly where we will be relative 
to the magnitude and the duration of shortfall for strike 
fighter aircraft.
    There is opportunity, if there is a need, to continue 
procurement of F/A-18s, and that decision will need to be made 
based on available resources and what we understand about the 
JSF program at that point in time.
    I would not try to indicate that F/A-18s would be procured 
instead of JSFs with those resources; but, rather, if we can't 
get to the procurement rate that's needed for JSF in that 
timeframe, then an option is to continue procurement of F/A-
18s.
    Chairman Levin. You don't have an opinion, at this time, 
given what we now know, as to whether that option should be 
exercised?
    Mr. Stackley. The Department is clearly committed to the 
JSF program. Again, the magnitude and duration of the shortfall 
will depend on what happens with the extension program, with 
the ability to ramp up JSF, and with--call it ``workaround 
plans'' for the fleet, to ensure they can meet the 
requirements. I think we have to march further down that path 
to understand if the problem will get worse or if it will stay 
stable at the current projections.
    Chairman Levin. You may have partly addressed this question 
before, Mr. Stackley, but let me put it slightly differently. 
When the LCS program was announced by the CNO, he indicated 
that we could afford $220 million per ship. Since that time, 
the Navy has requested, and Congress has approved, an increase 
in the cost cap up to $460 million per ship for the sea frame. 
What would you propose to do to get better cost estimates for 
complex construction and development programs, since that 
estimate for the sea frame turned out to be so wildly wrong?
    Mr. Stackley. Yes, sir.
    I understand that the basis of the estimate for LCS was 
centered on commercial design. In other words, the two 
shipbuilders in the program have comparable commercial ships 
that they used for their bids, and the Navy's cost estimates 
were linked to commercial experience. LCS is not a commercial 
ship. In going from--call it ``those commercial designs'' to 
the current warship design, significant change was introduced 
in what's referred to as ``naval vessel rules,'' as well as 
combatant features and requirements associated with reduced 
manning and other Navy requirements for survivability. There is 
significant deviation on the LCS program from whatever the 
basis of estimate was and the current platform.
    If you look at major defense programs, and you look at cost 
growth, in most cases cost growth will trace back to poor-
quality cost estimates. The Navy has a cost estimating group 
that is working on improving its cost-estimating, modeling 
techniques, et cetera. As well, DOD relies on the cost analysis 
improvement group to provide some outside independent cost 
estimating. I think we need to beef up these efforts. I think 
we need to take a harder look at the cost models that we're 
using. The complexity of Navy warships today far exceed what 
the earlier cost models used for determining cost estimates for 
Navy programs.
    Step 1, improve the cost modeling. Step 2, ensure that the 
correlation between the requirements and the estimates are 
tightly coupled. Step 3, ensure discipline in the process, so 
you don't see growth in requirements, growth in design, outside 
of the estimates that were provided for the program.
    Chairman Levin. Mr. Stackley, shortcomings in the 
acquisition workforce are faced by all of the military 
Services. Earlier this month the Navy announced the 
establishment of a new position of Principal Deputy Assistant 
Secretary for the Acquisition Workforce. That would be a deputy 
who would work for you, if you're confirmed. Do you agree that 
the Navy has significant shortcomings in its acquisition 
workforce? Do you support the establishment of that new 
position?
    Mr. Stackley. The answer is yes to both questions, Mr. 
Chairman. The acquisition workforce has seen steady reduction 
over the past 10 or 15 years, and I think it's inarguable that 
the pendulum has swung too far in that regard.
    In the discussion on cost estimates, I discussed 
discipline. An important part of discipline in the process is a 
qualified workforce. The appointment of the principal deputy 
that will have responsibilities for strengthening the 
acquisition workforce, I think, is a good, strong move. There 
has traditionally been a senior civilian in the Navy who has 
had ad hoc responsibilities in that regard. This goes beyond ad 
hoc; this assigns someone with principal responsibilities, and 
ensures that that individual has the credibility and the 
experience that's required to do the job.
    Chairman Levin. Thank you.
    Mr. Celec, one of the concerns that has arisen from the 
blue-ribbon report and the other reports coming from the B-52 
flight from Minot Air Force Base to Barksdale Air Force Base, 
as well as the more recent Donald report, is that the various 
security and operational inspections of nuclear forces do not 
find, and are not designed to fix, deficiencies. How are you 
going to work with the Services, the Nuclear Weapons Council, 
and the National Security Administration to improve the quality 
of these inspections if you are confirmed?
    Mr. Celec. Thank you, Sir.
    The problems in the Air Force, I think, are cultural in 
nature. They didn't develop overnight, and they obviously won't 
be cured overnight. It's going to require leadership attention, 
not only in the Air Force, but in the Office of the Secretary 
of Defense, where I hope to be. I know, for example, that the 
Air Force is currently reviewing its policies and procedures to 
ensure that they're current. The real question is, ``will the 
leadership insist that they be followed to the letter of the 
law,'' if you will. In the past, leadership focus has just been 
diverted elsewhere. They're involved in, obviously, fighting 
two wars right now. However, it's going to take the focus of 
the leadership of the Air Force and the Secretary of Defense--
and that's where I hope to participate--to oversee that they 
will make some tremendous strides over the next couple of 
months, but the question is, ``Will this be sustained?'' It's 
going to take oversight and leadership to sustain the return of 
the culture that we knew in the past.
    Chairman Levin. Thank you. Mr. Celec, you made reference, 
in your opening remarks, to the Chemical Weapons Convention, 
which requires us to destroy all the chemical weapons no later 
than April 2012. Now, DOD has not notified Congress that the 
United States will not be able to meet that extended treaty 
deadline. You've indicated that we have an obligation to take 
our treaty obligations seriously. We expect other nations to do 
that. If you're confirmed, will you make mighty efforts to 
ensure that the Department provides the adequate funding either 
to meet that deadline or, if that proves impossible, to come 
within as close a distance as possible to it?
    Mr. Celec. Absolutely. I think it's important that we meet 
our treaty obligations, to the best of our ability. I would 
work very hard to make sure we do.
    Chairman Levin. In 2003 and 2004, Mr. Celec, Congress 
debated, at length, whether to fund the Robust Nuclear Earth 
Penetrator (RNEP) and the development of small nuclear weapons, 
which were sometimes referred to as ``mini nukes.'' Before you 
retired from DOD, in August 2003, you were the Deputy for 
Nuclear Matters, reporting to the then-Assistant to the 
Secretary, the position for which you've now been nominated.
    The Department supported the development and the fielding 
of an RNEP capability, and, in your previous capacity at the 
Department, according to statements that you made at the time, 
you, too, supported the development of RNEP. Congress 
eventually declined to fund that program. Are you going to 
resume your advocacy of the RNEP program if you're confirmed?
    Mr. Celec. My personal view certainly has not changed. 
Whether or not that view is the administration's or the 
Secretary's prevailing view, I don't know, and I will find out 
once I get there.
    I do know that there are a number of underground structures 
that exist in the world today that we cannot attack with 
conventional weapons, even the weapons that we project out into 
the far future of their capabilities. I know that many of these 
underground structures have multiple entrances, and whether or 
not we know where all of the entrances are or not is a 
problematical question. I know that we could close the 
entrances that we know of conventionally, although they could 
be reopened within a matter of a few tens of hours.
    Finally, many of these underground structures are command-
and-control facilities. By closing the adits--or the 
entrances--to these things, the facility itself will continue 
to function. In that time, an awful lot of people could die.
    So, the Robust Nuclear Earth Penetrator gives the President 
an opportunity to end that issue right now, and I think he--my 
personal view, not necessarily supported by the Secretary--is 
that he ought to have that capability.
    Chairman Levin. In your written responses, Mr. Celec, you 
state that, ``There are serious issues with the Comprehensive 
Test Ban Treaty (CTBT) that need to be resolved.'' Could you 
give us just a couple of examples of those?
    Mr. Celec. I'll be glad to. First off, the treaty was 
signed some 15 years ago, and a lot has occurred in the world, 
particularly with the threat, and particularly in the nuclear 
arena; three nations have actually tested nuclear weapons that 
weren't nuclear powers when that treaty was signed--North 
Korea, Pakistan, and India. In addition, part of our 
verification system that we had intended to use in the CTBT was 
actually installed in the Threshold Test Ban Treaty (TTBT). 
Those stations have been dismantled; and so, our verification 
problems are going to increase. We can't change those 
verification technologies without going back and renegotiating, 
certainly, the TTBT.
    Perhaps the most critical issue that I have is the issue 
of, what is ``zero yield'' in the CTBT? The United States 
tabled the definition of ``zero yield'' during the negotiations 
in the treaty. The Russians said, ``Thank you very much. We 
understand your position.'' But, they didn't accept it, and it 
didn't enter into the treaty.
    There's only one treaty that actually defines ``yield,'' 
and that's the TTBT. In that treaty, it says ``yield'' is what 
comes out of the explosive cannister. The explosive cannister 
is a big container that you put the nuclear device in when you 
detonate it.
    Now, it is possible, with that language, if unchanged, that 
the Russians could put small, low-yield nuclear weapons into 
very large containers, detonate them, and still be in 
compliance with the CTBT. One further thing, the Russians have 
said that part of their weapons development program are these 
low-level tests. They've admitted that in public. I believe 
there's some serious concern, because of history--that is, the 
number of years since the treaty was negotiated, and some of 
the technologies--that need to be addressed when we go back. I 
think we need to go back and do it, because I think the treaty 
is the right thing to do, but we have to be careful.
    Chairman Levin. Let me ask you both, Mr. Celec and Mr. 
Benkert--each of you have a responsibility for the CTR program. 
Will each of you commit to work cooperatively on the CTR 
programs? Since you both have some responsibility there, do 
either of you have any thoughts about the need to work 
cooperatively? Any impediments to that?
    Mr. Benkert, why don't we start with you?
    Mr. Benkert. Thank you, Mr. Chairman.
    To the first part of your question, I will absolutely 
commit to working cooperatively on the CTR program. I think the 
cooperation goes in several dimensions. One is, I think we've 
had a very cooperative relationship with your staff and your 
colleagues on the House side as well as we've advanced this 
program, and we greatly appreciate that relationship and the 
developments--for example, the flexibility that you've provided 
us to move the program--to begin moving the program outside the 
former Soviet Union. So, I commit that we will continue that 
cooperative relationship.
    I think, as we move the program forward, I have discussed a 
bit, before the strong level of cooperation we have with the 
Russians in this program. I think we have cooperative 
relationships, as well with the other countries that are in the 
program. There are problems, but generally we work through 
them. Again, they help build very strong relationships at 
various levels with these countries.
    The issue we have is, over time, moving the program from 
one that is an assistance program in a lot of ways, to one that 
is more defined by partnership--both partnership with the 
Russians, partnership with other countries, and particularly 
partnerships outside the former Soviet Union. Over time, I 
think we want to move in that direction.
    I think the second thing that we are trying to do--and, 
again, in cooperation with your staff and the flexibility 
you've given us--is find ways to make the program more 
flexible, nimble, and responsive as we move outside the former 
Soviet Union, so that we are able to seize opportunities for 
cooperation and partnership, perhaps more rapidly than was the 
case in the way we developed the CTR program.
    Chairman Levin. Okay. Mr. Celec?
    Mr. Celec. I agree. I have a personal interest in that 
program, because when it was initiated as the Nunn-Lugar 
program, it was sent to the operations directorate of the 
Defense Nuclear Agency for execution. I was the Deputy Director 
for Operations at the time, and so, I helped see that program 
born, if you will, and I think it's been tremendously 
successful, and I will continue enthusiastically to support 
that program and to make sure that it continues to make the 
progress that it has. It has destroyed more missiles than the 
Strategic Air Command ever thought about doing.
    Chairman Levin. We welcome that enthusiasm. We wish you 
were a little bit less enthusiastic about RNEP. [Laughter.]
    You gave us your honest opinion, and that's what we ask 
for.
    We thank you all. We thank your families.
    If I can single out your grandchildren, Mr. Celec, since 
I'm a proud grandfather, you have two of them here. We have 
Adam and Hannah. I just want to let you kids know how important 
it is to a grandpa to have his grandkids standing behind him, 
and sitting behind him so patiently, and looking like you're 
following every single thing that you heard. It's amazing to me 
how beautifully you two did, there. I know it's important that 
your grandpa have you here. We thank you, particularly, and we 
thank all of the families.
    We stand adjourned.
    [Whereupon, at 11:06 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Nelson M. Ford by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience in the Department of Defense (DOD)?
    Answer. The Goldwater-Nichols Act has made a profound and positive 
change in the operation of DOD. While I believe that the framework 
established by Goldwater-Nichols has significantly improved 
interservice and joint relationships and clarified responsibilities, 
the Department, working with Congress, should continually assess the 
law in light of improving capabilities, evolving threats, and changing 
organizational dynamics.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation has served our Nation well for 
more than 2 decades. If confirmed, I would certainly work with Congress 
to determine whether the act should be revised to better address the 
requirements of combatant commanders and the needs and challenges 
confronting the military departments in today's security environment. 
It also may be appropriate to assess whether the law might be modified 
to allocate roles and responsibilities more effectively among the Joint 
Staff, the combatant commanders, the military departments, and the 
Office of the Secretary of Defense (OSD). One particular issue that 
merits review is accountability for the conduct of deployed forces.

                                 DUTIES

    Question. Section 3015 of title 10, U.S.C., states the Under 
Secretary of the Army shall perform such duties and exercise such 
powers as the Secretary of the Army may prescribe.
    Assuming you are confirmed, what duties and powers do you expect to 
be assigned?
    Answer. If confirmed, I will serve as the principal assistant and 
senior civilian advisor to the Secretary of the Army and will support 
him in his leadership of the Department as he fulfills the duties and 
responsibilities accorded him by law and regulation. I envision the 
Secretary will also assign to me specific duties and responsibilities 
that will support his efforts to ensure that the Department of the Army 
successfully accomplishes the many demanding and varied missions with 
which it has been entrusted. Further, pursuant to Section 904 of the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008, I 
expect that the Secretary of the Army will designate the Under 
Secretary as the Chief Management Officer of the Department with the 
primary management responsibility for business operations. I expect the 
Secretary to assign me such duties and responsibilities in my role as 
Chief Management Officer as are necessary to organize and administer 
the business operations of the Army effectively and efficiently, in 
accordance with the policies promulgated by the Secretary of Defense. 
If confirmed, I will carry out my duties to the best of my ability, 
with honor and integrity.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. For most of my career, I have served in a variety of senior 
management positions responsible for financial management, policy 
development, program evaluation and productivity. I am currently the 
Assistant Secretary of the Army for Financial Management and 
Comptroller (ASA(FM&C)), having been confirmed by the Senate in October 
2006 after serving for 2 years as the Principal Deputy to the 
ASA(FM&C). Previously, I served in DOD as the Deputy Assistant 
Secretary for Health Budgets and Financial Policy with responsibility 
for the financial management, policy development and program evaluation 
of the Defense Health Program. External to government service, I served 
as Chief Operating Officer for Georgetown University Medical Center and 
was a partner in Coopers & Lybrand. These experiences have afforded me 
the opportunity to understand how large organizations function, 
particularly within the parameters of plans, programs and budgets, to 
face and overcome challenges on a continuing basis. My work in 
financial management for the Army has afforded me the privilege of 
building strong, effective relationships with other senior leaders and 
staff within the Army, the other military departments, and DOD.
    My experience with the Defense Health Program is beneficial to the 
Army, particularly at this point in time when we are working with DOD 
and the Department of Veterans Affairs to provide quality, 
comprehensive care to Wounded Warriors and Warriors in Transition. In 
fact, most of my career has been in the health care field, which has 
given me a broad base of knowledge that benefits the Army in developing 
processes and policies to support a wide range of health care 
initiatives.
    Further, I am familiar with the fiduciary responsibilities of 
Federal officials, particularly those that are applicable to Army 
personnel, and feel confident that I can positively contribute toward 
establishing and maintaining management controls and high fiscal and 
ethical standards. Much of my experience has been in mission-driven 
organizations, both as a manager and board member, so I understand the 
challenges of matching large and complicated missions in resource 
constrained environments. My experience includes organizational service 
in times of both growth and cutbacks, both of which are relevant for 
today's Army. I feel I am very well prepared to continue leading from 
the strategic level and with the strategic capabilities the position of 
Under Secretary of the Army requires.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Under Secretary of 
the Army?
    Answer. I expect that there are. Although I am serving as Acting 
Under Secretary of the Army and look forward with confidence to 
performing the duties of the Under Secretary of the Army, any new 
position presents new challenges and opportunities for learning. Should 
the Senate confirm me, I intend to engage in an ongoing process of 
consultation with Army leaders, others in DOD, and Congress, to pursue 
opportunities for improvement. I have to say though, that my experience 
for the past 4 years in the Army has significantly strengthened my 
knowledge of the Army, its history, its culture, and its needs to 
continue to support the Nation in its assigned missions.

                             RELATIONSHIPS

    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of the Army.
    Answer. As head of the Department of the Army, Secretary Geren is 
responsible for, and has the authority to conduct, all affairs of the 
Department. If confirmed, my relationship with the Secretary of the 
Army will be close, direct, and supportive; my actions always will be 
subject to the Secretary's authority, direction, and control.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army performs his duties under 
the authority, direction, and control of the Secretary of the Army and 
is directly responsible to the Secretary. The Chief of Staff also 
performs the duties prescribed for him by law as a member of the Joint 
Chiefs of Staff. It is extremely important that all leaders of the 
Department of the Army, civilian and military, work closely together as 
one team as we face the many challenges confronting our institution. I 
anticipate that I will work closely and collaboratively with the Chief 
of Staff to supervise the implementation of the Secretary's decisions 
throughout the Department of the Army.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army set the Department's 
strategic direction by formulating and overseeing policies and programs 
within their functional areas of responsibility, consistent with law, 
regulation, and the objectives of the Secretary of the Army. If 
confirmed, I will establish and maintain a close, professional 
relationship with each of the Assistant Secretaries and seek to foster 
an environment of cooperative teamwork as we work together on the day-
to-day management and long range planning needs of the Army.
    Question. The General Counsel of the Army.
    Answer. The Army General Counsel is the chief legal officer of the 
Department of the Army and serves as counsel to the Secretary and other 
Secretariat officials. His duties include providing legal and policy 
advice to all members of the Army as well as determining the position 
of the Army on any legal question or procedure. If confirmed, I will 
establish and maintain a close and professional relationship with the 
General Counsel and will actively seek his guidance to ensure that Army 
policies and practices are in strict accord with the law and the 
highest principles of ethical conduct.
    Question. The Vice Chief of Staff of the Army.
    Answer. The Vice Chief of Staff has such authority and duties as 
the Chief of Staff, with the approval of the Secretary of the Army, may 
delegate to or prescribe for him. If confirmed, I will work with the 
Vice Chief of Staff to further the Secretary of the Army's policies and 
to advance the interests of the Army. I will establish and maintain a 
close and professional relationship with the Vice Chief of Staff and 
communicate directly and openly with him on matters involving the 
Department of the Army.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General of the Army is the legal adviser 
of the Chief of Staff of the Army, members of the Army Staff, and 
members of the Army generally. In coordination with the Army General 
Counsel, The Judge Advocate General serves as military legal adviser to 
the Secretary of the Army. The Judge Advocate General also directs the 
members of the Judge Advocate General's Corps in the performance of 
their duties and, by law, is primarily responsible for providing legal 
advice and services regarding the Uniform Code of Military Justice and 
the administration of military discipline. Therefore, I will establish 
and maintain a professional and inclusive relationship with The Judge 
Advocate General and always welcome his expression of independent views 
about any legal matter under consideration.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges that will 
face the next Under Secretary of the Army?
    Answer. As the Secretary of the Army and Army Chief of Staff have 
stated previously, the Army is out of balance due to current 
operational demands. Our increased operational tempo and multiple 
combat tours in Iraq and Afghanistan have placed a heavy burden on 
soldiers and their families. Part of regaining that balance is reducing 
the stress on the force caused by repeated, extended-duration 
deployments in support of Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF). Another crucial challenge is obtaining 
predictable and adequate funding. As the Army modernizes to meet the 
security challenges of the 21st century, while continuing the current 
operational pace as required by the combatant commanders, 
reestablishing our strategic depth will be a major effort requiring 
close collaboration with Congress.
    Answer. The Army is faced with many other challenges, including 
providing proper support to soldiers and families in time of war, 
enhancing readiness, providing quality housing, modernizing our Cold 
War-era equipment, and meeting recruiting and retention goals, just to 
name a few. The Army must transform its support infrastructure and 
integrate Base Realignment and Closure (BRAC) decisions. The Army must 
provide a quality of life commensurate with the quality of soldiers' 
service and provide high quality care for those who have become ill, 
injured, or wounded, particularly for those suffering from Post 
Traumatic Stress Disorder and Traumatic Brain Injuries. Finally, the 
Army must transform Army contracting, growing leaders, increasing 
personnel and providing appropriate training in this critically 
important area.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will provide my assistance to Secretary 
Geren and Chief of Staff Casey in pursuing several critical 
initiatives, including growing the Army and making necessary readiness 
improvements; building momentum and continuity of our modernization 
efforts; completing the transition of the Reserve component to an 
operational force; and adapting our institutional processes to support 
an expeditionary Army that is currently suffering from the cumulative 
effects of 5 years at war. The strength of the soldier is the Family, 
and in an All-Volunteer Force, we must remain committed to supporting 
our soldiers and their families through Installation and Soldier 
Readiness, and Soldier and Family Quality of Life. Of special interest 
to me will be leading the Secretary's effort to transform Army 
contracting, developing solutions to address the challenges facing the 
Department in this area.
    If confirmed, I will focus on programs and efforts to reduce the 
stress on the soldiers and their families. I will work closely with 
Congress to ensure these programs are defined to meet the objectives 
and requirements in support of our national defense. A major part of 
addressing these challenges will be to work collaboratively with 
members of this committee, the entire Congress, the President, and the 
Army leadership. I share Secretary Geren's commitment to maintain the 
Army as the dominant land force in the world, and with your help, I am 
confident we can succeed.

                           ARMY BUDGET SHARE

    Question. Last year's Army Posture Statement points out that the 
defense budget allocation by Service has changed little over time with 
the Air Force and Navy around 30 percent and the Army around 25 
percent. Moreover, since the Army is manpower intensive, and personnel 
costs eat up a large part of its budget, only 25 percent of the Army's 
budget goes toward research, development, and acquisition, as compared 
to 38 percent in the Navy and 43 percent in the Air Force. Further, the 
Army's overall share of DOD investment dollars is only 17 percent, as 
compared to 33 percent for the Navy and 35 percent for the Air Force. 
The result is that ``the Army has been unable to invest in the 
capabilities needed to sustain a rising operational tempo and to 
prepare for emerging threats.''
    What is your understanding of the effects of this funding 
discrepancy on the Army?
    Answer. Today's Army is out of balance. Our equipment, procured 
through Congress' vigorous support to the Army, has been used hard 
during this period of prolonged and persistent conflict. This means 
that we are using up equipment at a much faster rate than anticipated, 
requiring our Army to reset or recapitalize this equipment at an 
accelerated pace. This impacts ammunition stocks, maintenance depots, 
and manufacturing capacities, and is further complicated by America's 
shrinking industrial base. We must restore the necessary breadth and 
depth of Army capabilities to support and sustain essential capacity 
for the future demands on our Expeditionary Force.
    Question. What do you intend to do if confirmed as the Under 
Secretary to address this funding discrepancy?
    Answer. Foremost, it is imperative for us to receive supplemental 
funding in a timely manner to prosecute the global war on terror and 
provide our soldiers with the equipment needed to meet current 
operational demands. If confirmed, I will continue to try to match Army 
resources to strategic requirements as I did when serving as the 
ASA(FM&C). During the build of the fiscal year 2009 budget, we worked 
closely with OSD and the Office of Management and Budget to help them 
better understand the Army's challenges. Additionally, we are examining 
the relationship of activities funded in the base budget and 
supplemental. We have identified requirements currently funded through 
the supplemental that would be more appropriately resourced in the base 
budget. We are looking forward to working within the administration to 
ensure an understanding of what activities should migrate back from the 
supplemental to the base program. To ensure we are good stewards of the 
Nation's resources, I will continue to work closely with Congress and 
the administration to address the Army's current readiness issues that 
have resulted from previous funding shortfalls.
    Question. What is your understanding of what, if anything, the 
Secretary of the Army and the Secretary of Defense intend to do to 
address this discrepancy?
    Answer. While building the President's fiscal year 2009 budget, we 
explored the impact of budgetary shortfalls with OSD. I believe we 
effectively communicated and quantified the challenges the Army faces 
in preparing for current and future conflicts and other emerging 
requirements. The Secretary of Defense is working with the Army to meet 
readiness requirements and to ensure the Army has the resources 
necessary to support the National Military Strategy.

                         POSTURE FOR THE FUTURE

    Question. Do you believe that current Army initiatives such as Grow 
the Force, Modularity, and Transformation to the Future Combat Systems 
(FCSs) adequately posture the Army to meet the most likely threats of 
the next two or three decades?
    Answer. The Army's future threats are defined in the National 
Defense Strategy and the National Military Strategy. Grow the Force, 
Modularity, and Transformation to the FCSs will help posture the Army 
to meet those threats. As we cannot predict threats with any certainty, 
we must build readiness and strategic depth that can respond to a broad 
range of possible situations. Our goal must be to build an Army 
versatile and agile enough to be employed in the range of military 
operations, across the major operational environments, in support of 
our national security strategy. The Army initiatives are designed to 
give the Army maximum flexibility to respond to continual and 
asymmetrical threats over the next 30 years.
    Question. Do you believe that these initiatives are affordable 
within the projected Army budget?
    Answer. Yes, Grow the Force and Modularity are affordable within 
the projected Army budget. These requirements reflect what is needed to 
restore balance in the Army. Our budget requests reflect our 
comprehensive plan to restore balance and build the full spectrum 
capable Army we need in the 21st century. The acquisition program 
anticipated for FCSs extends well beyond current budget planning 
timeframes but resources roughly in the amounts described in the long-
range planning documents will be essential to modernizing Army 
equipment for future fights.
    Question. What other initiatives would you recommend the Army 
pursue in this regard if confirmed as Under Secretary of the Army?
    Answer. As mentioned above, Secretary Geren and Chief of Staff 
Casey are working to advance a list of initiatives that seek to provide 
better support to Army families. Of particular interest to me is our 
disability system, which having been built over generations, has become 
a bureaucratic maze and needlessly complex. It is a system that 
frustrates, and often stymies, the best intentions of dedicated public 
servants and compromises the Army Values we pledge to uphold. A soldier 
who fights battles abroad should not have to fight bureaucracy at home. 
I look forward to working with OSD and the Veteran's Administration to 
revamp this antiquated disability system.
    Question. The Government Accountability Office reported last year 
that the cost of the Army's largest acquisition program--the FCS--is 
expected to grow from the $160 billion estimated in 2006 to between 
$203 billion and $234 billion (an increase of as much as 45 percent). 
Earlier this month, Secretary Gates acknowledged the existence of a 
substantial gap in funding for the Army's Global Force Initiative and 
testified that ``it is hard to see'' how DOD can afford to complete the 
FCS.
    What steps, if any, do you believe the Army needs to take to 
control costs on the FCS and ensure that the system is affordable?
    Answer. The Army can afford FCS. The cost estimates referenced 
above are the total costs for FCS, operating costs and procurement, 
over its lifecycle, a 27-year period (2003-2030). FCS procurement costs 
are substantially less and, even during the peak procurement period, 
are projected to be less than a third of the Army's investment (RDA) 
account. As the investment account is about a quarter of the total 
budget, FCS procurement cost is unlikely to exceed 10 percent of the 
Army's budget in any year. The Army took steps in 2007 to adjust the 
scope of the program (from 18 systems to 14), and slowed the pace of 
procurement. This program adjustment was designed to reduce the costs 
of fielding FCS to a more manageable level. Finally, we believe that 
FCS brigades will have lower operating costs than the legacy brigades 
they replace and will be more effective when deployed, providing 
significantly more ``bang for the buck'' once the program is completed.

                            LESSONS LEARNED

    Question. What do you believe are the major lessons learned from 
OEF and OIF which you would seek to address if confirmed as Under 
Secretary of the Army?
    Answer. Lessons learned from OEF/OIF have caused the Army to adjust 
its training and equipment to fight an adaptable, determined enemy. On 
the homefront, the pace of operations has placed great stress on Army 
families and we have had to build programs to better support our 
families. We have also had to expand language skills and enhance 
cultural awareness to be successful in the operations and missions we 
are engaged in today and likely will be engaged in the future. The Army 
must continue to modernize and sustain its combat training centers, 
home station training, and institutional training. Detention operations 
have improved over the course of the conflict, but we must continue to 
look for ways to enhance our capabilities in this area.
    With growth in the Army's force structure and the challenges this 
places on training, the Army needs to continue to assess ways to train 
efficiently, using training resources from all Army Components, as 
appropriate. As the Army develops its operational rhythm, Army Force 
Generation (ARFORGEN) will continue to play a critical role in 
synchronizing cyclic training, while placing focus on theater-specific 
training requirements, such as training to defeat Improvised Explosive 
Devices (IEDs). Because of the large load that the Reserve component 
(Army National Guard and the U.S. Army Reserve) is pulling, the Army 
needs to assess continually its mobilization policies, balancing 
training requirements to meet the appropriate level of Reserve 
component operational readiness with domestic missions and 
requirements.
    Question. More specifically, what are the lessons learned 
concerning manning, training, and equipping the Army which you intend 
to address if confirmed?
    Answer. The Army needs to expand the force to its authorized levels 
as quickly as possible without compromising the quality of our 
recruits, and with the goal of reducing the length and frequency of 
deployments. The Army must build on its distance learning program to 
enable soldiers in the field to train individually on skills not 
otherwise available when deployed. Further, the Army must take 
appropriate measures to provide adequate Training Support Systems (TSS) 
at Army installations to support full spectrum training. Units must 
have greater capabilities at home stations to train across the full 
spectrum of conflict in a training environment replicating the 
Contemporary Operating Environment. One equipping lesson learned is 
that consistent, timely, and adequate funding is required to increase 
the equipment available for operations and training. We are taking 
steps to transition the Logistics Civil Augmentation Program contract 
from one to three contractors to increase capabilities and generate the 
competition necessary to reduce cost and improve service. We must find 
ways to respond immediately to the stress and demands placed on our 
military families. We need to work to be able to change quickly to 
succeed in this type of conflict, facing a nimble and adaptive enemy.
    Question. What are the Army's lessons learned from detainee abuse 
incidents at Guantanamo, in Iraq, and in Afghanistan?
    Answer. The primary lessons learned from the detainee abuse 
incidents are: first, we must clearly communicate through the 
establishment of standards, meaningful and realistic training, and 
constant vigilance, our commitment to ensuring that all soldiers live 
up to our values and the law of war, regardless of the circumstances; 
and second, we must act to ensure that any soldier who engages in 
detainee abuse is held accountable.
    As the executive agent for the administration of DOD detainee 
operations policy, the Army continues to gather detention operations 
lessons learned for incorporation into Army and joint policy and 
doctrine. Another major lesson learned has been that DOD needs more 
detention operations force structure, particularly in the Military 
Police and Military Intelligence specialties. We continue to work with 
OSD and the other Services to assess and refine force structure needed 
to support the combatant commanders' detention operations missions with 
success.
    Although our policies have always prohibited detainee abuse, Army 
detention operations policy and doctrine required revisions to reflect 
the current operational situation. Policy and doctrine across the full 
spectrum of detention operations has been revised and published. Some 
key revisions include the designation of a single commander for 
detention operations, clear delineation of roles and responsibilities 
for detainee care, custody, and interrogations, and finally, very 
specific guidance for identifying and reporting detainee abuse. New 
policy also mandates that our forces receive additional law of war and 
cultural awareness training. The Army has enhanced detention operations 
training for soldiers, units, and civilians, not only as an annual 
requirement, but also institutionally and during pre-deployment.

                    IRAQ AND AFGHANISTAN DEPLOYMENTS

    Question. Many soldiers are on their third and some their fourth 
major deployment to Iraq or Afghanistan. Last year, unit deployments 
were extended to 15 months and dwell time in some cases is less than 12 
months.
    What is your assessment of the impact of multiple deployments of 
troops to Afghanistan and Iraq having on retention, particularly among 
young enlisted and officer personnel after their initial obligated 
service has been completed?
    Answer. The pace of deployments to Afghanistan and Iraq has not had 
an adverse impact on retention to date. Fiscal year 2007 retention of 
officers was slightly better than the overall 10-year average. The 
recently instituted captains' retention program, which offers a number 
of incentives, to include attendance at graduate school or a retention 
bonus, has guaranteed retention of officers at historic rates through 
fiscal year 2010.
    The retention rates of initial term and mid-career soldiers in 
deploying units has remained between 120-140 percent since fiscal year 
2005. For example, nearly 600 troops reenlisted in Baghdad on 
Independence Day this past year. In addition, more than 100 Army 
Reserve soldiers gathered at the Al Faw palace at Camp Victory, Iraq, 
on January 18, 2008, to reenlist during a ceremony marking the 100th 
Anniversary of the Army Reserve. Recently deployed units and units 
currently deployed to Afghanistan and Iraq have reenlistment rates 
averaging 110-120 percent of their yearly goals. This is a significant 
indicator of the quality of leadership within our ranks, the fact that 
soldiers believe in what they are doing, and the fact that soldiers 
value the tradition of service to the Nation.
    Question. What are the indicators of stress on the force, and what 
do these indicators tell you about that level of stress currently? In 
addition to any other stress indicators that you address, please 
discuss suicide and divorce rates, drug and alcohol abuse, AWOLs, and 
rates of indiscipline.
    Answer. Our soldiers and families are strained and stretched, but 
they are also remarkably resilient. The Army monitors key indicators of 
individual behaviors and aggressively pursues policy or program changes 
to address negative trends.
    We see the following trends:

        <bullet> The suicide rates are trending upward. Applying a 
        multi-disciplinary approach, we are continuously reviewing and 
        adapting our awareness, intervention, and treatment resources 
        in support of soldiers and commanders.
        <bullet> Overall officer divorce rates are declining. Enlisted 
        divorce rates trended upward from fiscal years 2006 to 2007, 
        but remain below or equal to rates since 2004. Divorce rates 
        have increased among enlisted female soldiers, and deployed 
        soldiers divorce at a higher rate than those who have not 
        deployed. The Army offers a robust chaplain-sponsored ``Strong 
        Bonds'' training program to help soldiers and families build 
        and maintain stronger relationships.
        <bullet> Drug abuse rates overall show a slight increase, but 
        rates in deployed areas are declining. The Army has continued 
        its aggressive drug education, awareness, and testing programs.
        <bullet> Enrollments for alcohol abuse treatment are continuing 
        in an upward trend. The Army provides comprehensive education 
        packages directed at the reduction of alcohol abuse, to include 
        post deployment training. Alcohol abuse rates are monitored 
        continuously via the Army's Risk Reduction Program. We are also 
        developing and implementing preventative intervention programs 
        for soldiers at the first sign of trouble. ``Prevention of 
        Alcohol Abuse'' messages are incorporated in Army-wide 
        prevention of substance abuse campaigns like ``Warrior Pride.''
        <bullet> Rates for Absence Without Leave (AWOL) show an upward 
        trend. Rates are monitored closely and commanders adjudicate 
        each instance of AWOL based on the facts and circumstances of 
        the soldier's individual case.
        <bullet> In fiscal year 2007, the number of General and Special 
        Courts-Martial increased, but rates remain below the highest 
        post-fiscal year 2001 rates.
        <bullet> Substantiated rates of Spouse and Child Abuse have 
        declined steadily since fiscal year 2001. In addition to 
        programs like ``Strong Bonds,'' the Army continues to focus 
        resources on programs and services that support soldiers and 
        their families.
        <bullet> The overall health of the force reflects a resilient 
        Army, strained by persistent conflict, but still maintaining a 
        solid foundation.

    Question. For how long do you believe these levels of commitments 
can continue before there will be significant adverse consequences for 
the Army?
    Answer. The Army can sustain Iraq and Afghanistan deployments at 
the pre-surge levels as long as there is no additional growth in other 
global requirements. As demands reduce beyond the pre-surge levels, 
stress on the Army, our soldiers and our families will be reduced 
further, and we will be able to restore strategic depth and 
flexibility.
    Question. General Casey has stated that the Army is ``out of 
balance.'' What is your understanding of this statement and what do you 
think can or should be done to correct that imbalance?
    Answer. The Army's balance is the relationship between the demands 
placed on the Army and the ability to generate ready forces in a 
resource-limited environment, with an All-Volunteer Force. To meet 
current global demands, the Army has assumed risks in readiness and 
strategic flexibility that are not sustainable indefinitely. This 
imbalance stresses all of the Army--soldiers, families, and 
organizations--and impacts our ability to meet future challenges. 
Ultimately, current global operational demands in support of the global 
war on terrorism exceed the supply of forces that the Nation's 
strategic guidance requires. The Army is addressing the imbalance; but 
it will take both time and resources. The Army is moving closer to 
completing its capabilities transformation into a modular construct, 
while simultaneously growing additional end strength. These actions 
will increase the global force pool, enable sustainable periods of 
dwell for training, and reduce stress on the current operational force. 
As time between deployments (dwell) continues to increase, readiness 
will improve and the Army can move from primarily a counterinsurgency 
ready force to one ready for the full spectrum of military operations. 
Increased dwell will also reduce some of the stress on soldiers and 
families and safeguard the volunteer force. Any effort to restore 
balance, however, is dependent on full, timely, and predicable funding.

               SOLDIERS' POST-DEPLOYMENT HEALTH CONCERNS

    Question. The health-related problems experienced after Operations 
Desert Shield and Desert Storm led to the Department, at congressional 
direction, undertaking extensive efforts to establish a comprehensive 
health database on deployed forces based on pre- and post-deployment 
health surveys.
    If confirmed, what actions would you expect to take to ensure that 
the Army uses available data on the health of returning soldiers to 
ensure that appropriate treatment is available and that all signs of 
deployment-related illnesses or potential illnesses are identified?
    Answer. If confirmed, I will work to ensure that soldiers are 
referred to appropriate care when their survey responses indicate that 
additional evaluation and treatment are needed. This will require 
improving the process to track referrals and treatment plans.
    The addition of the Post Deployment Health Reassessment and the new 
annual Periodic Health Assessment provides us with the ability to 
monitor the ongoing health, readiness, and wellness of our soldiers 
after initial redeployment, redeployment, and long before they start 
preparing for their next deployment.
    The Army has recognized that building soldier and family resiliency 
is key to maintaining their health and welfare. We developed 
``Battlemind'' training products to increase this resiliency and have 
several different training programs available for pre, during, and 
post-deployment.
    Last summer the Army initiated a leader chain teaching program to 
educate all soldiers and leaders about post-traumatic stress and signs 
and symptoms of concussive brain injury. This was intended to help us 
all recognize symptoms and encourage seeking treatment for these 
conditions. We are now institutionalizing this training within our Army 
education and training system to share the information with our new 
soldiers and leaders and to continue to emphasize that these signs and 
symptoms are normal reactions to stressful situations and it is 
absolutely acceptable to seek assistance to cope with these issues.

               MENTAL HEALTH ASSESSMENT TEAM IV (MHAT IV)

    Question. The Army's mental health assessment studies in the Iraqi 
theater have been valuable in identifying the extent of mental health 
conditions and resource and training challenges being experienced in 
OIF.
    Based on the findings of MHAT IV that soldiers experience increased 
stress due to multiple and lengthened deployments, what actions would 
you take, if confirmed, to ensure that appropriate numbers of mental 
health resources are available to soldiers in theater, as well as upon 
their return?
    Answer. If confirmed, I fully support continuation of MHAT 
assessments in theater to ensure that the correct ratio and 
distribution of deployed behavioral health providers are maintained to 
meet the psychological needs of the deployed force. Last summer the 
Army Medical Command initiated action to hire 275 behavioral health 
providers to care for soldiers and families in the United States. To 
date, we have hired 147 providers who are already making a difference 
in our military communities. If confirmed, it is my plan to ensure the 
Army Medical Command has the resources and flexibility required to fill 
all of our behavioral health care requirements.
    Question. What do you think have been the most valuable findings of 
the Army's mental health assessment teams, and what are the lessons 
which can be applied to future deployments?
    Answer. MHAT findings have been used as the basis to reshape 
existing Combat and Operational Stress Control units to create more 
flexible and capable units. MHAT information has also been used to 
predict better the quantity of behavioral health assets required for 
current and future conflicts. Finally, MHAT information has been 
utilized to create a training program known as ``Battlemind,'' which 
changes the way the Army prepares soldiers, leaders, and families for 
high stress deployments.

              TRICARE FEE INCREASES FOR MILITARY RETIREES

    Question. In its fiscal year 2009 budget request, DOD assumed $1.2 
billion in cost savings based on implementing increases in TRICARE 
costs for certain beneficiaries, including higher enrollment fees for 
military retirees and their families.
    What is your understanding of the Department's proposals for 
changes in TRICARE fees for retired soldiers, and, if they are 
implemented, what do you see as the likely impact of these changes on 
the Department of the Army?
    Answer. The proposed plan would charge both higher enrollment fees 
and civilian visit copayments for TRICARE Prime and initiate enrollment 
fees and higher deductibles for TRICARE Standard ``working age'' 
retirees under 65 and their Families. For these beneficiaries, some 
cost increases would be based on a three-tiered system of annual 
military retired pay. Last, the proposed budget would raise copayments 
for all beneficiaries (except Active Duty) on prescriptions filled at 
retail pharmacies. While the budgetary impacts of these changes would 
be recognized in OSD accounts, reductions in expense for medical 
benefits for retirees would lessen pressure on the total defense budget 
and begin to address benefit inequities between military retirees and 
other Federal retirees.
    Question. What is your personal view of the justification for 
increases in TRICARE enrollment fees for retirees and are there 
alternatives to such increases you would recommend if confirmed?
    Answer. I support any reasonable strategy to protect the TRICARE 
program for our beneficiaries without jeopardizing Army readiness or 
modernization programs. Even with reasonable cost increases, TRICARE 
will continue to be among the most affordable and highest quality 
health plans in the country.

                          STOP LOSS AUTHORITY

    Question. How many soldiers do you expect the Army to retain under 
stop loss authority at the end of fiscal year 2008?
    Answer. The Army expects to have 8,046 Active component soldiers 
retained under Stop Loss authority serving in the Army at the end of 
fiscal year 2008. The Stop Loss forecast for the Reserve components for 
September 2008 is approximately 6,000.
    Question. What is the Army's plan for reducing stop loss as it 
increases its end strength through the out-years?
    Answer. DOD guidance directs the Services to discontinue Stop Loss 
policies as soon as operationally feasible. The plan to reduce, and 
eventually eliminate, Stop Loss will be based on a reduction in demand 
and a return to a cycle of ``1 year deployed with 2 years at home.'' 
The growth of Army end strength supports the growth of additional 
Brigade Combat Teams (BCTs), which supports a return to a cycle of ``1 
year deployed with 2 years at home.''

                  RESERVE DEPLOYMENT AND MOBILIZATION

    Question. In recent years, Reserve Force management policies and 
systems have been characterized as ``inefficient and rigid'' and 
readiness levels have been adversely affected by equipment stay-behind, 
cross-leveling, and reset policies.
    What are your views about the optimal role for the Reserve 
component forces in meeting combat missions?
    Answer. To respond to Joint Staff and combatant commanders' 
requests for forces and capabilities, the Army considers all three 
components (Active, Guard, and Reserve) in developing sourcing 
solutions. The Guard and Reserve have combat arms units (e.g., 
Infantry, Armor, Artillery, and Aviation) that are fully qualified and 
combat ready. They have demonstrated their abilities in a superb manner 
over the past few years. The same is true for Reserve Component Combat 
Support and Combat Service Support units. The Army will continue to 
select the best units, capable of meeting Joint Staff and combatant 
command requirements, with full confidence in each unit's ability to 
carry out its assigned mission.
    Question. What is your opinion about the sufficiency of current 
Reserve Force management policies?
    Answer. The Army has made considerable progress in ``total force'' 
management in the last few years. Our Army Force Generation (ARFORGEN) 
process will, as it matures, enable us to balance the demands of known 
operations across all three components (Active, Guard, and Reserve) and 
reduce the stress on the force. Our Secretary and our Chief of Staff 
continue the practice set by their predecessors of fully engaging 
Reserve component leaders and staffs in programming, equipping, and 
readiness decisions.
    Over the past few years, the Army has made considerable funding 
commitments to the Reserve components for re-set and re-equipping 
actions, and our Chief's initiatives and imperatives include the Total 
Army. Together, these efforts will set the stage for effectively 
transforming, manning, training, equipping, and sustaining America's 
Army, while fully meeting our commitments at home and overseas.
    Question. Do you support assigning any support missions exclusively 
to the Reserve?
    Answer. Both the Army Reserve and the Army National Guard are 
organized and arrayed to perform missions across the full spectrum of 
combat, combat support, and combat service support operations. In 
today's operational environment, it is prudent to assign missions and 
capabilities across all components of the Army. There are opportunities 
to balance our force to meet current contingencies and to prepare for 
future operations, and the Secretary and Chief of Staff are fully 
engaged in such an effort with the aim of arraying capabilities across 
the Army so that operational demands are fully met.

                 INDIVIDUAL READY RESERVE RECALL POLICY

    Question. A July 2006 report by the Center for Strategic and 
International Studies (CSIS) recommended that the Army revitalize its 
Individual Ready Reserve (IRR) program by culling existing IRR 
databases and ensuring that the Army has valid contact information on 
IRR members who may be recalled to serve.
    What has the Army done to clarify the mobilization policy that 
applies to both officer and enlisted members of the IRR?
    Answer. The Army has implemented plans to optimize the operational 
and strategic value of the IRR. This effort will improve individual 
deployment readiness levels and ensure timely availability. 
Additionally, we will maintain a reliable database of mobilization 
assets and promote a continuum of service by managing expectations 
throughout each soldier's career life-cycle.
    We are conducting annual muster events for IRR soldiers. Select 
Reserve soldiers attend Readiness and Personnel Accountability Musters 
at local Reserve centers to execute personnel updates and medical 
readiness evaluations and receive training briefings. Annual musters 
ensure that individual expectations are established and maintained. 
Soldiers are aware of their annual requirements and potential for 
mobilization. They are educated on how to build upon a military career 
while assigned to the IRR. In fiscal year 2007, more than 8,400 IRR 
soldiers were mustered, and over 720 IRR soldiers transferred to the 
Selected Reserves (SELRES). The current plan is to muster 10,000 IRR 
soldiers in fiscal year 2008 and to transfer roughly the same number 
IRR soldiers to the SELRES as in fiscal year 2007.
    Our intent is to educate and raise awareness at the time soldiers 
transition from active duty. Towards that end, soldiers are counseled 
and provided information regarding their assignment to the IRR, to 
include an IRR Orientation Handbook we have developed and implemented. 
We provide this handbook to newly assigned IRR soldiers to establish 
expectations and to provide key information regarding their assignment, 
annual requirements, promotions, and training opportunities, as well as 
information about continued service in the SELRES.
    Question. What has the Army done to update its IRR mobilization 
database?
    Answer. The U.S. Army Human Resources Command (HRC) has conducted a 
systematic screening of the IRR database to reconcile existing records 
(blank and erroneous data fields, obsolete military occupational 
skills, bad addresses); identify non-mobilization assets (soldiers 
passed over for promotion or with security violations, physical 
disqualifications, determined hardships, or adverse characterizations 
of service); and separate those soldiers who no longer have further 
potential for useful military Service if mobilized. These efforts have 
reduced the number of IRR soldiers by a third and provided the Army 
with a more reliable database. For example, incorrect IRR addresses 
were the single largest mobilization exclusion, but are now at a 10-
year low, with only about 9 percent of those ineligible for 
mobilization being excluded because of an incorrect address.
    A DOD policy established in July 2005 mandated the discharge of 
officers in the IRR who are beyond their Military Service Obligation 
(MSO), unless the officer specifically requests retention in the IRR. 
Officers who fulfilled their MSO and have not taken action to elect to 
remain in the IRR are transferred to the Standby Reserve and discharged 
within 2 years of transfer. To date, approximately 10,000 IRR Officers 
have been transferred to the Standby Reserve; 2,900 of these have been 
honorably discharged.
    HRC developed the Individual Warrior Virtual Screening Portal (IW-
VSP) for IRR soldiers to update their contact information and verify 
their readiness level without having to report to a physical location. 
HRC screens all information submitted through the website, reconciles 
discrepancies, and contacts soldiers that require additional 
assistance.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Total Force, and what is your opinion about the role the 
IRR should play in the future?
    Answer. The IRR is very important to our attempts to restore 
balance in the All-Volunteer Force. Retaining required skills and 
maintaining the population in the IRR is important to managing our 
operational and strategic capability. The Army recognizes the value of 
keeping trained and motivated members in the Service, and we continue 
to offer opportunities for continued service. The IRR will continue to 
play a vital role in the Army's mission in the future.

                           OFFICER SHORTAGES

    Question. After the Vietnam War there was a large reduction in 
force which some believed masked a voluntary departure of some of the 
best and brightest junior officers from Active Duty who, after serving 
in very responsible positions at a relatively young age in combat, had 
difficulty adjusting to a peacetime Army. The nature of the wars in 
Iraq and Afghanistan--small unit actions where junior leaders are not 
only military leaders, but also diplomats and city managers, and where 
they have even greater authority to act on their own initiatives--may 
produce similar behavior and consequent difficulty in retaining highly 
trained and experienced junior officers. A report issued by the 
Congressional Research Service (CRS) in July 2006 found that the Army 
projected an officer shortage of nearly 3,000 in fiscal year 2007, with 
the most acute shortfalls in the grades of captain and major with 11 to 
17 years of service. Unless corrective action is taken, CRS found that 
shortages will persist through 2013 unless accessions are increased and 
retention improves.
    What is your understanding of the reasons for the shortfall, and 
what steps is the Army taking to meet this mid-career officer 
shortfall?
    Answer. Our current officer shortages are not caused by increased 
attrition. Attrition rates are at or below the 10-year average rates. 
The officer shortfalls are due to the growth of officer requirements of 
9,000 officers by fiscal year 2012. Nearly 6,800 of these requirements 
are in the grades of captain and major. To address this shortfall, we 
have increased accessions and will produce nearly 5,000 additional 
officers by fiscal year 2009.
    The Army instituted a pre-commissioning retention incentives 
program that is projected to increase by nearly 30 percent our 
retention of high performing USMA and ROTC scholarship officers by 
offering them graduate school, branch choice, or assignment choice in 
exchange for additional Active-Duty service. The Army has sought 
officers aggressively from outside the active Army and has accessed 
nearly 1,500 officers from the inactive Reserve and from the other 
Services through the ``Blue to Green Program.''
    Question. If confirmed, what actions would you take to ensure 
adequate numbers of highly-qualified captains and majors are serving on 
Active Duty over the next 10 years?
    Answer. The Army has developed policies to retain our ``best and 
brightest,'' combat-experienced officers and noncommissioned officers. 
We must not allow the Army to drift into a post-conflict mindset. This 
will require refocusing the Army and a commitment to leveraging combat-
experienced soldiers in key and critical assignments, such as in the 
schools and battle labs of U.S. Army Training and Doctrine Command.

               MEDICAL PERSONNEL RECRUITING AND RETENTION

    Question. The Army is facing significant shortages in critically 
needed medical personnel in both Active and Reserve components. Medical 
support requirements caused by the stand-up of BCTs, potential growth 
of the Army, surge requirements in theater, and other factors may 
compound the already serious challenges faced in recruitment and 
retention of medical, dental, nurse and behavioral health personnel.
    Do you believe that a comprehensive review of the medical support 
requirements for the Army is necessary and should be accomplished this 
year?
    Answer. Yes, I believe it is important to review medical support 
requirements on a regular, recurring basis; the Army already reviews 
medical support requirements as a part of its ongoing internal 
processes. For example, in Total Army Analysis (TAA), the Army 
validated over 3,000 new military medical requirements for the 
operational force. In the Institutional Army TAA, the Army identified 
over 2,500 new military medical requirements and over 2,400 new 
civilian medical requirements for the institutional Army. There are 
other reviews looking at important specific issues like military to 
civilian conversion, behavioral health, and traumatic brain injury, to 
name just a few.
    Question. What policy and/or legislative initiatives do you think 
are necessary in order to ensure that the Army can continue to fulfill 
medical support requirements as its mission and end strength grow?
    Answer. Policy initiatives implementing the authorities provided by 
the NDAA for Fiscal Year 2008 are required in areas such as the 
authority to reduce mandatory service obligations from 8 to 2 years in 
critically short health specialties. Further, DOD is currently 
developing and evaluating legislative proposals relating to enhanced 
direct hire authorities for civilian medical personnel. Finally, 
section 721 of the NDAA, which effectively prohibits the conversion of 
military medical and dental positions to civilian positions, constrains 
the Department's ability to meet changing requirements with Army 
civilian employee and contractor employee medical professionals and 
impacts Army plans to reshape its medical workforce better to meet 
operational medical requirements and the needs of our beneficiaries. We 
understand that this concern is being addressed by a USD(P&R) 
legislative repeal proposal.

                         INTERSERVICE TRANSFERS

    Question. At the same time that the Army and Marine Corps are 
working harder than ever to achieve recruiting goals, the Navy and the 
Air Force are planning for significant reductions in military 
personnel. Section 327 of title 37, U.S.C., authorizes a $10,000 bonus 
for certain interservice transfers. Additional incentives may be 
necessary, however, to encourage ``blue to green'' transfers in order 
to retain sailors and airmen with valuable military training, skills, 
and experience.
    What is your assessment of the adequacy of existing incentives for 
interservice transfers?
    Answer. The existing incentive system is achieving good results. To 
date, the program has produced over 500 officer interservice transfers 
for the Army. These experienced professionals have been crucial to 
meeting our growing need for leaders, particularly in our combat units. 
It continues to be in our national defense interest to promote 
interservice transfers. The military departments must work together to 
make this program a success.
    Interservice transfer financial incentives alone may not be 
sufficient to make the program succeed. Service-specific force shaping 
tools may need to be redesigned to support the effort. The requirement 
for the Army to recoup from a candidate for interservice transfer any 
voluntary separation incentive the individual has received is a 
disincentive for an officer to transfer to the Army. The voluntary 
separation incentives, therefore, have had a negative impact on Army 
recruiting of officers from sister Services by creating a greater 
incentive to leave the Service than to transfer between Services. 
However, the Defense Finance and Accounting Service now follows a 
policy of not recouping separation pay until the officer concerned 
qualifies for retired pay. This mitigates somewhat the disincentive of 
forced recoupment. An officer who receives separation pay and then 
transfers to the Army will repay that separation pay at the end of his/
her active service via a monthly deduction from retired pay. Army G-1 
supports this DOD recoupment policy, and will actively recruit 
separating officers from our sister Services to offer them the 
opportunity to continue to serve their country.
    If confirmed, and subject to the direction of Secretary Geren, I 
will continue to work with Department leadership and Congress to 
identify and establish programs to attract quality personnel from the 
other Services.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department of the Army has implemented changes in 
policy and procedures aimed at preventing and responding appropriately 
to incidents of sexual assault.
    What is your view of the appropriate role for senior military and 
civilian leaders in the Secretariat and the Army staff in overseeing 
the effectiveness of implementation of new policies relating to sexual 
assault?
    Answer. The Secretary and the Chief have clearly stated that sexual 
assault is a crime that has no place in our ranks. The role of senior 
Army leadership is to ensure an organizational climate where such 
behavior is not tolerated, and where victims feel free to report 
incidents without fear of reprisal. The Secretariat and Army Staff 
oversee and implement the Army's Sexual Assault Prevention and Response 
Program, which is now more that 3 years old. The Secretary, in fact, 
has taken a personal interest in this issue and has directed the 
expansion and implementation of new strategies to increase emphasis on 
sexual assault prevention measures. If confirmed, I will assist him in 
this vitally important effort.
    As part of senior leader involvement, senior Army leaders review 
the Army Sexual Assault Report quarterly and submit statistical data to 
DOD on both a quarterly and an annual basis. Senior leaders also submit 
an annual Army report and program assessment to the Secretary of 
Defense in accordance with statutory requirements and DOD policy. 
Finally, Senior Army leaders require their Inspector Generals 
periodically to assess the program for compliance with statutory and 
regulatory requirements.

    MANAGEMENT AND DEVELOPMENT OF THE SENIOR EXECUTIVE SERVICE (SES)

    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. The Department of the Army has taken a very deliberate and 
direct approach to SES management. If confirmed, I intend to continue 
this initiative. The Army looks to its SES Corps as a replacement for 
military leaders in critically important areas, such as acquisition, 
financial management, science, engineering, and human resource 
management. As the Army has sent its flag officers into joint billets 
to support the war, it has replaced them with SES members. The Army is 
reallocating positions to ensure senior executives are aligned with 
evolving business strategy. My vision for the management and 
development of senior executives is a senior civilian workforce that 
possesses a broad background of experiences to prepare them to move 
between positions in order to meet the continually changing mission 
needs of the Army. I am committed to providing for the professional 
development and management of our civilian executives in ways 
consistent with what the Army has done for its General Officer Corps 
for many years. As the Army moves forward with its transformation, if 
confirmed, I will be committed to reinforcing and institutionalizing 
the value that each senior executive brings to the leadership team and 
to promoting and sustaining high morale and esprit de corps.
    Question. Over the last 10 years, the Army budget has almost 
doubled, but the number of senior executives in the Department of the 
Army has remained almost unchanged.
    Do you believe that the Army has the number of senior executives it 
needs, with the proper skills to manage the Department into the future?
    Answer. The Department of the Army projects a greater need for 
executive resource allocations in the near term. The need to convert 
General Officer billets to senior executive billets and the ever 
expanding mission of the Army has created a potential requirement for 
more senior executives. The Office of Personnel Management, in 
consultation with the Office of Management and Budget, controls the 
allocation of senior executive resources to all government agencies. 
Federal agencies can request additional senior executive allocations on 
a biennial or ad hoc basis, but there is no guarantee that such 
requests will be granted. This year, the Army was successful in 
obtaining additional executive resources for its most pressing 
requirements.
    The Department is currently undertaking a study of executive 
resource allocations in response to section 1102 of the NDAA for Fiscal 
Year 2007. Congress mandated that the Department develop a strategic 
plan for shaping and improving the senior management, functional, and 
technical workforce, including an assessment of whether current 
allocations and position types meet all DOD needs. An interim report 
was provided by the Department on July 13, 2007. An update is due in 
April 2008.
    The Deputy Secretary of Defense promulgated a new policy in October 
2007, identifying the new requirements for executives for the 21st 
century. These new policies will be the foundational doctrine to guide 
and conduct the baseline evaluation of executive resources. The Army 
supports the Department's concept to leverage better career civilian 
executive leadership capabilities. The Army recognized this critical 
need several years ago, and set out to create a deliberate executive 
management system that will develop, grow and sustain executives who 
are prepared for a broader range of leadership, particularly in the 
joint environment, and who are exerting influence and supporting the 
most substantive national security matters.

                        ARMY FAMILY ACTION PLAN

    Question. The Army Family Action Plan has been successful in 
identifying and promoting quality of life issues for Army families.
    What do you consider to be the most important family readiness 
issues in the Army, and, if confirmed, what role would you play to 
ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. The pace of operations has placed great stress on Army 
families. Secretary Geren and General Casey have responded to that 
challenge by making the commitments set forth in the Army Family 
Covenant, a promise to provide soldiers and families a quality of life 
commensurate with their voluntary service and daily sacrifices. The 
Army Family Covenant is focused on five areas: Family programs and 
services; health care; soldier and family housing; excellent schools, 
youth services and child care; and expanded employment and education 
opportunities for family members. I will also work to help further 
standardize the support being provided to soldiers and families and to 
obtain predictable funding to these important programs. One area of 
particular concern that has already been addressed is the fatigue and 
burnout of Family Readiness Group leaders and support staff as they 
support our Families in a time of persistent conflict. We are improving 
our ability to address soldier-family reintegration and reunion issues. 
The Family Readiness Support Assistant (FRSA) program supports Army 
spouses who volunteer as Family Readiness Group Leaders, Unit 
Commanders, and Rear Detachment Commanders. The FRSA helps mitigate 
volunteer stress and ensures an effective interface between families 
and support programs.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, extended deployment lengths, and the 
planned growth of the Army?
    Answer. The Installation Management Command works extensively with 
garrisons to develop individual plans to meet staffing, funding, and 
programming requirements. Our BRAC plans address the needs of families 
as their numbers change on our installations. Our global rebasing plans 
include maintaining support to our soldiers and families throughout the 
process. At the installations that are expected to grow, we have 
programmed new child development centers, youth centers, and fitness 
facilities. Likewise, we have plans to support our soldiers and 
families in isolated locations. If confirmed, I will closely monitor 
these efforts to ensure that our families' needs are met as the Army 
undergoes this dramatic era of growth, restationing, realignment, 
deployment.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment, and family 
readiness?
    Answer. The Army Integrated Family Support Network (AIFSN) will 
provide a comprehensive, multi-agency approach for community support 
and services to meet the needs of the Army's geographically dispersed 
population. This effort is crucial in supporting Army National Guard 
and Army Reserve families. The baseline services are: information, 
referral, and follow-up services; child care services; youth services; 
school transition services; employer support to the Guard and Reserve 
services; wounded warrior program services; survivor support services; 
transition assistance services; employment; home and family life 
management services; financial services; medical care services; and 
legal services. AIFSN provides additional manning for 249 Army National 
Guard Family Assistance Centers spread across the country. AIFSN will 
provide a network consisting of virtual programs, brick-and-mortar 
facilities, and access to public and private programs and services. 
AIFSN will ensure services and support are available throughout the 
full spectrum of the mobilization process. Additionally, the NDAA for 
Fiscal Year 2008 requires OSD to establish a reintegration program for 
the Army National Guard. This program, called the Yellow Ribbon 
Reintegration Program, is a key aspect of AIFSN and provides programs 
and services that specifically address the needs of our guardsmen and 
their families. If confirmed I will work to ensure that these programs 
are implemented fully and assessed properly to insure we attain 
expected outcomes.

                    MORALE, WELFARE, AND RECREATION

    Question. Morale, welfare, and recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active-Duty and Reserve personnel and retirees.
    What challenges do you foresee in sustaining Army MWR programs and, 
if confirmed, what improvements would you seek to achieve?
    Answer. Army MWR programs contribute immensely to the quality of 
life of our military families. Their continued vitality depends on 
consistent appropriated and non-appropriated funding to support all of 
our MWR activities. The Army increased funding for family and MWR 
programs by $739 million with supplemental funds in fiscal year 2008 
and is moving a significant amount of base funding to the care of 
soldiers and families. The Army's MWR funds are currently in sound 
financial condition. All MWR activities report a high degree of 
solvency through the use of best business practices and enterprise 
purchasing. This allows us to increase the value of our programs by 
eliminating inefficiencies, which would otherwise have to be passed on 
in the form of higher prices.
    The road ahead is challenging. The Army is fighting a war while 
transforming to a more consolidated, expeditionary, and joint force. 
However, the needs of individual servicemembers and their families must 
still be met, particularly as soldiers return from combat. We are 
developing programs like Adventure Quest, which allows a means of 
adjusting from the adrenalin rush prevalent in the combat environment 
and redirecting that energy into recreational pursuits. The Army will 
continue to explore the most effective means of supporting MWR programs 
to ensure we are meeting the needs of soldiers and families and 
contributing positively to recruiting, retention, and readiness. We 
will also use the efficiencies in our MWR business activities as the 
basis for investment capital development to fund an $85 million Capital 
Program annually for the next 10 years to build travel camps, bowling 
centers, water parks, youth centers, single soldier entertainment 
centers, and other facilities for our highly deserving soldiers and 
families. We will begin privatizing our lodging programs this summer by 
transferring our lodging facilities on 11 U.S. installations to a 
highly successful national hotel operating company, which will invest 
$450 million to upgrade and modernize these facilities. This will 
insure the quality of the lodging we provide our soldiers and families 
is equal to the quality available in the communities from which we 
recruit America's sons and daughters. We appreciate your support of 
these important programs, and will continue to consult with you as we 
implement these far-reaching and enduring changes.

                 RESERVE AND NATIONAL GUARD DEPLOYMENTS

    Question. Deployments completed since the attacks of September 11 
of the Army National Guard and Army Reserve for a time significantly 
depleted the number of soldiers available for involuntary mobilization 
under the Department's previous policy limiting involuntary recalls of 
Reserve personnel to 24 cumulative months. While this policy has 
changed, sensitivity about overuse of the Reserve component continues.
    How should the Army's Reserve component forces best be managed to 
provide essential support for operational deployments in Afghanistan 
and Iraq?
    Answer. The Army endeavors to respond to Joint Staff and combatant 
commanders' requests for forces and capabilities by considering all 
three components (Active, Guard, and Reserve) in our sourcing solution. 
The Guard and the Reserve have combat arms units (e.g., Infantry, 
Armor, Artillery, and Aviation) which are regarded as fully capable for 
combat service, and have demonstrated their abilities in a superb 
manner over the past few years. The same applies to the broad spectrum 
of Combat Support and Combat Service Support units and soldiers in our 
Reserve components. The Army will continue to select the best units 
capable of meeting Joint Staff and combatant command requirements, with 
full confidence in each unit's ability to carry out its assigned 
mission.
    Question. What is your understanding of the Army's plans to avoid 
excessive demands on personnel and units in low density, high demand 
specialties whose skills are found primarily in the Reserve, such as 
civil affairs, military policy, and logistics?
    Answer. The Army is meeting the demands of persistent conflict by 
taking initiatives in force structure growth and by rebalancing 
capabilities across all three components to minimize excessive demand 
on low density, high demand specialties. The Grow the Army Plan 
increases the Army end strength by 74,200, a growth of 65,000 in the 
Active component (AC), 8,2000 in the Army National Guard (ARNG), and 
1,000 in the United States Army Reserve. By the close of fiscal year 
2007, the Army had completed rebalance of 53,600 structure spaces and 
will rebalance an additional 88,700 spaces by fiscal year 2013, 
bringing the Army rebalance total to 142,300 spaces. The combination of 
growth and rebalance addresses persistent shortfall capabilities 
increasing logistics by 47,400; Civil Affairs, Psychological 
Operations, and Special Operations Forces by 12,700; Military Police by 
7,400, Military Intelligence by 4,500, and Engineers by 11,800. The 
combined impact of rebalance and growth will build strategic and 
operational depth across all three components to meet combatant 
commander requirements, mitigate high demand, low density persistent 
shortfalls, and enable strategy.

                        RECRUITING AND RETENTION

    Question. What is your assessment of the Army's ability to reach 
its recruiting goals by component in fiscal year 2008?
    Answer. I believe that the Army will reach its recruiting and 
accession goals for fiscal year 2008. Both the Active component and the 
National Guard are above their recruitment targets to date. The Army 
Reserve, although short of its year-to-date recruiting goal, has met 
its overall year-to-date accessions goal (which includes IRR to Troop 
Program Unit transfers and Active component to Reserve component 
missions). The current recruiting environment remains challenging. Not 
only are we competing with industry, but the qualified youth population 
of High School Diploma Graduates is dwindling. In addition, illegal 
drug use and poor physical fitness is on the rise, further limiting the 
qualified population. We continue to use the resources authorized and 
additional recruiters to assist in meeting our goal.
    Question. What is your assessment of the impact multiple 
deployments of troops to Afghanistan and Iraq is having on retention, 
particularly among young enlisted and officer personnel after their 
initial obligated service has been completed?
    Answer. The pace of deployments to Afghanistan and Iraq has not had 
an adverse impact on retention to date. As mentioned above, fiscal year 
2007 retention of officers was slightly better than the overall 10-year 
average.
    The retention rates of initial term and mid-career soldiers in 
deploying units has remained between 120-140 percent since fiscal year 
2005. Recently deployed units or units currently deployed to 
Afghanistan and Iraq have reenlistment rates at 110-120 percent of 
their yearly goals. This is a significant indicator of the quality of 
leadership within our ranks, the fact that soldiers believe in what 
they are doing, and the fact that soldiers value the tradition of 
service to the Nation.
          support for army families in the rebasing initiative
    Question. Plans for the relocation of numerous Army units under the 
Department's rebasing initiative will present significant challenges to 
the continental United States (CONUS) installations and their 
surrounding local communities in order to ensure adequate resources, 
including housing and schools, are made available.
    What is your understanding of the steps being taken by the Army to 
ensure the successful implementation of rebasing for both soldiers and 
receiving communities?
    Answer. The Army is partnering with local communities to deal with 
increased community needs, such as schools, housing, and community 
activities, associated with Army stationing and growth. Garrison 
commanders and staff regularly engage with community leaders and have 
school liaison officers who facilitate communication with local 
education agencies to help communities deal with stationing and growth. 
Although Impact Aid is a Department of Education responsibility, the 
Army provides quarterly updates to the Department of Education on 
projected school-age dependent growth.
    The Army will rely on local communities as its primary supplier of 
family housing and will privatize or build family housing at U.S. 
locations only where necessary. To support Army Growth, Congress 
approved $266 million in fiscal year 2008 for government equity 
contributions for additional housing at Forts Bliss, Bragg, Carson, and 
Lewis. Additionally, the Army is requesting $334 million in fiscal year 
2009 for government equity contributions for additional housing at 
Forts Bliss, Carson, and Stewart. We will program additional funds in 
fiscal year 2010 after updated Housing Market Analyses are completed at 
other gaining installations.
    Question. What actions will you take, if confirmed, to ensure that 
the challenges associated with rebasing are met?
    Answer. The Army has an aggressive, carefully synchronized 
stationing plan that links BRAC 2005, Global Defense Posture 
Realignment, Army Modular Force Transformation, and Grow the Force. The 
Army's BRAC plan supports these major stationing initiatives, while 
supporting ongoing missions and national security priorities, and is 
designed to meet the September 2011 statutory BRAC implementation 
deadline.
    The Consolidated Appropriations Act for Fiscal Year 2008 contained 
a significant decrease in BRAC funding, of which $560 million was 
reduced from the Army's BRAC budget. I cannot overstate the 
difficulties that cuts or delays in BRAC funding pose to the Army as we 
implement BRAC and restationing plans. If the $560 million decrement is 
not restored, the Army will find it very difficult to comply with all 
aspects of the BRAC Law.
    If confirmed, I will ensure Army stationing requirements are fully 
vetted and work with Congress to garner the resources to implement our 
BRAC and stationing requirements in a timely and efficient manner.

                      SUPPORT FOR WOUNDED SOLDIERS

    Question. Wounded soldiers from OEF and OIF deserve the highest 
priority from the Army for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty, if required, and continuing support beyond retirement 
or discharge.
    What is your assessment of the effectiveness of Army programs now 
in place to care for the wounded, including the Warrior Transition 
Brigade?
    Answer. The Army has made and continues to make significant 
improvements in the areas of infrastructure, leadership, and processes 
as part of our Army Medical Action Plan (AMAP). Over the past 12 
months, execution of the AMAP has seen the creation of 35 Warrior 
Transition Units (WTUs) at installations across the Army. These WTUs 
are staffed by more than 2,300 personnel who provide care and support 
to over 13,000 soldiers and their families. Although I believe these 
programs are a significant improvement over past practices, we need to 
continue tracking and monitoring the programs through a variety of 
internal and external feedback mechanisms. If confirmed, I will 
continue this transformational effort to care for and support our 
wounded, ill, and injured soldiers and their families.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from active service? How effective are 
those programs?
    Answer. The Army has a number of programs to assist wounded 
personnel who have separated from active service. In close coordination 
with the Department of Veterans Affairs, the Army has added 16 Veterans 
Affairs advisors at major medical treatment facilities to facilitate 
the process of applying for benefits and finalizing arrangements for 
follow-on care and services, all with the view to ensuring that 
everything is in place when soldiers transition to civilian status.
    The Army recently created the Wounded Warrior Education Initiative, 
which will allow participants to complete an advanced degree and then 
return to the Army to work in assignments in the Institutional Army 
where their education and personal experiences can be put to the best 
use. In addition, the Army is currently piloting the Warrior Transition 
Employment Reintegration and Training Program at Fort Bragg, NC. This 
program enables Wounded Warriors, working with the staff of the Soldier 
Family Assistance Centers--which support Warrior Transition Units and 
are operated by the Army Installation Management Command--to receive 
education and training in the development of a resume, networking, and 
job seeking skills. Through this program, Warriors in Transition are 
assisted by counselors from the Army Wounded Warrior Program, Veterans 
Affairs advisors, and the staff of the Army Career and Alumni Program 
to develop a winning approach to obtaining employment when they leave 
the Army.
    I also want to highlight the U.S. Army Wounded Warrior (AW2) 
Program, which assists and advocates for severely wounded, ill, or 
injured soldiers and their families throughout their lifetimes, 
wherever they are located. AW2 currently serves more than 2,300 
soldiers, 600 on Active Duty and 1,700 veterans. AW2 Program 
caseworkers work with soldiers and their families to address and 
mitigate proactively any issues they may encounter in their recovery. 
If confirmed, it will be my honor to do all I can to ensure that those 
who have given so much for their country know that the Army will always 
be there for them.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded soldiers, and to monitor their progress in returning to 
civilian life?
    Answer. I think we have some terrific programs in place to support 
our wounded, ill, and injured soldiers, including some recent pilot 
programs. If confirmed, I intend to monitor the success of these pilot 
programs to assess their potential for expansion. I would like to 
continue to partner with academic institutions, industry, and Congress 
to find innovative ways to return all of our warriors to productive 
civilian lives as proud veterans.
    Question. What is the Army's view of the Military Severely Injured 
Center?
    Answer. I support any program that helps our wounded warriors get 
back on the track to success. If confirmed, my efforts will focus on 
getting programs and services such as the Military Severely Injured 
Center and the AW2 Program fully integrated with each other so as to 
provide comprehensive, uniform support to all servicemembers. To this 
end, I would work to see that the recently approved Department of the 
Army Office of Warrior Care and Transition integrates all of our Army 
programs into a streamlined and effective approach to care for soldiers 
and their families.

                RELIABLE REPORTING OF HEALTH CARE COSTS

    Question. In June 2007, a congressionally-mandated Task Force on 
the Future of Military Health Care, which was formed to evaluate 
proposed increases in TRICARE fees, found that financial statement 
information for the medical departments of the Army, Air Force, and 
Navy are not auditable because of financial and information system 
problems, inadequate business processes, and internal controls. The 
same was true for DOD purchased health care, TRICARE operations, and 
the Uniformed Services University of the Health Sciences. Together 
these comprise two out of three stand-alone financial statements for 
the Department's nearly $40 billion a year defense health program.
    During your tenure as Deputy Assistant Secretary of Defense for 
Health Budgets and Programs, and also as Assistant Secretary of the 
Army for Financial Management, what problems did you identify in the 
financial management of military health care programs, and what actions 
did you initiate, both for the Department as a whole and within the 
United States Army, to establish more effective internal controls on 
health care costs?
    Answer. While serving as the Deputy Assistant Secretary for Health 
Budgets and Financial Policy, I implemented performance-based budgeting 
to tie resource requirements to health care production under a 
prospective payment system. This system helps align resources to 
outputs instead of basing resources on costs. It is still being used 
successfully by the Military Health System to align incentives and 
control costs. Questions regarding the auditability of the defense 
health program focus largely on legacy financial systems that are not 
Federal Financial Management Improvement Act compliant and do a poor 
job of tracking program assets and liabilities. The cost of health care 
for DOD beneficiaries is driven by the entitlement of our patients to 
extensive health care services. We worked with both the TRICARE 
contractors and the military departments to make sure that the amounts 
paid for those services were comparable to the prices paid by the 
Federal Government's largest health benefit program, Medicare.
    Question. If confirmed as Under Secretary of the Army, what 
additional steps would you take to ensure and accelerate the reliable 
reporting of health care costs?
    Answer. The primary responsibility of the Army in reporting health 
care costs is to make sure that the resources provided to the Army by 
the Defense Health Program (DHP) are managed according to the standards 
set by the DHP. While I believe that reporting to be both timely and 
accurate, any future improvements required would be the responsibility 
of the DHP.
    Question. In your view, is the administration justified in seeking 
additional fee increases for military retirees before it corrects 
problems in health care cost reporting?
    Answer. Yes. Although the DHP financial statements are not 
auditable, they do represent a reasonably accurate picture of the costs 
of the current benefit structure. I agree with the recommendations of 
the Task Force on the Future of Military Health Care that additional 
fee increases are appropriate.

           FULLY MANNING THE ARMY'S WARRIOR TRANSITION UNITS

    Question. Full resourcing of the Warrior Training Units (WTU) is 
critical to the successful recovery of injured and ill soldiers.
    What is your understanding of the current manpower requirement for 
the WTUs, and what portion of that requirement has been filled?
    Answer. The current manpower requirements are based on U.S. Army 
Tables of Distribution and Allowances (TDA) that were created for 35 
Warrior Transition Units. There are currently 2,434 positions 
authorized for the WTUs. There are 2,509 personnel on hand, for a total 
of 103 percent of positions filled. This fill rate includes borrowed 
military manpower.
    Question. Have reservists and National Guardsmen been mobilized to 
fill leadership positions?
    Answer. Yes, Army reservists and National Guardsmen have been 
mobilized to fill key leadership positions in the Warrior Transition 
Units (WTUs). A board was conducted to select Army reservist and 
National Guardsmen as WTU Battalion Commanders, Company Commanders, 
Command Sergeants Major and First Sergeants. All authorized U.S. Army 
Reserve and Army National Guard leadership positions are currently 
filled.
    Question. If confirmed, what level of priority would you accord the 
WTUs, and how would you monitor and resolve any problems in resourcing 
that occur?
    Answer. Priority of fill is based on the three priorities 
established in the Army Manning Guidance. The WTUs are a priority 1 
mission--the highest priority for fill. Other than providing units in 
response to Combatant Commanders' Requests For Forces, caring for our 
wounded, ill, and injured soldiers is our highest priority. Army 
leadership monitors WTU manning regularly. If confirmed I would resolve 
any problems in resourcing according to the established priorities of 
the Army.

              HEALTH CARE ACCESS FOR SOLDIERS IN THE WTUS

    Question. The Army has established special health care access 
standards for servicemembers assigned to the WTUs, which should reflect 
the high priority assigned to these soldiers.
    What is your understanding of the standards and how well they are 
being met at this time?
    Answer. The Army has established standards to ensure the WTU 
soldiers have expedited access to medical services. These standards 
assist in reducing the time our soldiers are in a transition status, 
and help facilitate a quick return to duty or separation to active 
citizenship. The enhanced standards apply to WTU soldiers receiving 
either primary or specialty care in our Military Treatment Facilities 
(MTFs). Over the past several months, the Army has hired new care 
providers and adjusted additional resources to meet these enhanced 
standards. We use an automated system to measure and track trends 
related to these unique access standards. The Army currently meets the 
new standards for approximately 80 percent of WTU appointments. This is 
below our objective of 90 percent. Additionally, the Army tracks access 
through a WTU satisfaction survey. This survey asks WTU soldiers 
several questions related to their ability to access both doctors and 
therapists. The most recent survey results indicate that approximately 
75 percent of WTU soldiers are satisfied with their ability to access 
medical care, a satisfaction level that is comparable to civilian 
benchmarks for access. A number of initiatives are ongoing to ensure 
processes and resources align to meet the access standards and improve 
patient satisfaction.
    Question. If confirmed, how would you monitor performance on all 
standards, including health care, staffing and facility standards, as 
well as timely medical and physical evaluation board processing for 
soldiers assigned to the Army's WTUs?
    Answer. Tracking performance is critical to managing, adjusting, 
and resourcing WTU operations. The Army is using Unit Status Reports 
and other measures to track short-, near-, and long-term objectives. 
These measures show specific details, to include day-to-day operations, 
but also provide aggregate trending information to ensure the 
organization is on the correct path to success. If confirmed, I would 
continue to use this dashboard approach to monitoring performance on 
all standards.

                  JOINT ACQUISITION PROGRAMS [ASA-ALT]

    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System and the Joint Strike Fighter?
    Answer. There are great efficiencies to be gained by joint programs 
as opposed to individual Service procurements. Joint programs have the 
advantages of economies of scale, reduction in Service spares 
inventories, and Service sharing of training costs. However, the 
critical start-point for a joint program is a ``joint'' requirement. 
Without a solid joint requirement, it is doubtful that a joint 
acquisition program will be cost effective.
    Question. Do you see utility in encouraging the Services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes, a joint development approach has utility in this area. 
Key national strategic guidance and well defined joint capability voids 
provide incentives for the Services to collaborate to define and 
produce weapon systems that best meet our national security needs. At 
the same time, it is very important for the Services to maintain 
separate resourcing and the ability to manage to Service priorities 
within a jointly-enabled construct without adversely constraining or 
increasing program costs.
    Question. If so, what enforcement mechanisms would you recommend to 
implement more joint program acquisition?
    Answer. DOD has an established process for the development and 
approval of joint capability documents. This process includes oversight 
at the Joint Service level through the Joint Requirements Oversight 
Council (JROC). As these capabilities are evaluated, a joint service 
designation is assigned. In response to these capabilities documents, 
DODI 5000.2 stipulates that joint service programs must be approved, 
and any changes therein must be approved, by the USD(AT&L). Further, as 
the Services and DOD prepare their budget submissions, resourcing 
decisions can be made by the Service or OSD. Lastly, with the creation 
of Capability Portfolio Managers (CPMs) at the OSD level, a CPM can 
recommend a host of possible decisions to the OSD leadership.

                  REQUIREMENTS AND PLANNING PROCESSES

    Question. As rising personnel and operations and maintenance costs 
consume an increasing portion of the Army's budget authority, and as 
competing demands for Federal dollars increase in the future years, it 
is possible that the Army will have to address the challenges of 
modernization and transformation with fewer and fewer resources.
    What changes would you recommend to the way the Army prioritizes 
resources to maintain the momentum of Army transformation while at the 
same time reducing future force protection shortfalls?
    Answer. Army personnel and operations and maintenance costs are 
accounting for a larger proportion of our base budget and will continue 
to do so in the foreseeable future. This growth naturally increases the 
tension between these costs and our investments, which we use to 
transform the Army. Since 2002, the strategic environment has changed 
dramatically, requiring our Nation's Army to reorganize, grow, 
restation, and transform while fighting the war on terrorism. These 
demands have caused the Army to become more dependent on supplementals. 
While increases in our base budget provide for growth of the Army, they 
have not kept pace with operational demands that the Army must respond 
to and request support for, largely through requests for supplemental 
appropriations.
    I believe the Army has, and will continue to implement, a sound 
resourcing scheme that produces a force that meets the needs of the 
Nation. However, without a reduction in expected missions or increased 
resources to match increased missions, the Army will eventually lose 
the ability to modernize and sustain current capabilities. We have 
experienced this situation in the past. During the 1990s, Army 
investment was reduced sharply, which created significant equipment 
shortages in our forces that we have been scrambling to correct with 
new procurement, just-in-time fieldings and retention of theater-
provided equipment. Another approach to sustaining transformation would 
be to concentrate our modernization efforts on a reduced force 
structure, but that would be inconsistent with current demand. Using 
the lessons from today's fight, we are transforming to a future force 
with even more robust protection capabilities. The Army is committed to 
providing the best protection to our soldiers today and in the future.

                     BASE CLOSURES AND REALIGNMENTS

    Question. The military Services are in the process of developing 
business plans for the implementation of the 2005 Defense BRAC 
decisions.
    What do you see as the responsibilities of the Department of the 
Army in implementing BRAC decisions?
    Answer. The Army is responsible for executing both the Army's BRAC 
recommendations and a portion of the joint cross Service group 
recommendations, as assigned by the Under Secretary of Defense 
(Acquisition, Technology, and Logistics). The Army has developed 
business plans and budget justification materials, and is executing the 
program in accordance with those plans and the BRAC appropriations.
    Question. What do you see as the priorities of the Department of 
the Army in implementing BRAC decisions?
    Answer. The Army's priority is to complete the construction 
projects required to enable unit and organizational moves from closing 
and realigning installations to meet the timeframe directed by the law. 
The bulk of construction funds ($13 billion) will be used in fiscal 
years 2008, 2009, and 2010. This is a carefully integrated plan. If the 
Army program is not fully funded in a timely manner each year, we will 
be significantly challenged to execute BRAC as intended.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active role in 
the reuse of property. In rare cases, the goals of the local community 
may not be compatible with proposals considered by DOD. For example, 
the recent closure of the Walter Reed Medical Center in Washington, DC, 
will present opportunities for both the local community and the Federal 
Government to re-use the land based on potentially competing plans.
    If confirmed, what goals and policies would you propose to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. If confirmed, and with the guidance of the Secretary, I 
will work closely with the Office of Economic Adjustment, Local 
Redevelopment Authorities, the Governors, and other appropriate State 
and Local officials to accelerate the property disposal process 
whenever possible. The Army has completed the Federal screening and has 
made the determination of surplus for all of the closure installations 
except for the Chemical Demilitarization facilities. The Local 
Redevelopment Authorities are submitting their redevelopment plans, and 
they will be integrated into the Army property disposal process.
    Question. What lessons did the Army learn during the BRAC process 
that you would recommend be included in future BRAC legislation?
    Answer. I believe the Army is generally satisfied with the current 
BRAC authorities, and, if confirmed, I look forward to working with 
Congress to execute BRAC 2005.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain in institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What challenges to transition do you see within the Army?
    Answer. The Army carefully coordinates between acquisition programs 
of record and the laboratories and Research, Development, and 
Engineering Centers (RDECs) which are developing and evaluating 
technology options for these programs. The Army's key advanced 
technology demonstration efforts are required to have a technology 
transition agreement with the receiving acquisition program. However, 
because of the demands of the ongoing global war on terror, the Army 
has not been able to fund some acquisition programs to receive the 
technology that has been matured.
    The Army also fields technologies rapidly through the Rapid 
Equipping Force and the Rapid Fielding Initiative. Technologies 
transitioned to the field via these programs typically have not been 
through a formal acquisition development, and the Army must deal with 
the challenges of ensuring that this equipment is safe, effective, and 
logistically supportable in the operational environment. Further, even 
for those technologies that have been effective in the theatres of 
operation, the Army has procedures to assess the military utility of 
those technologies for full spectrum Army-wide applications.
    Question. If confirmed, how would you ensure that technologies are 
rapidly transitioned from the laboratory into the hands of the 
warfighter?
    Answer. The Army laboratories and RDECs work closely with industry, 
academia, and the other Services and Defense Agencies to explore 
technology options for the soldier. As discussed above, the Army's key 
advanced technology demonstration efforts are required to have a 
technology transition agreement with the receiving acquisition program. 
These agreements document what products the Science and Technology 
(S&T) program will deliver, at what time, and with what level of 
performance and maturity, as well as the transition path forward for 
that technology. The Army will continue to focus on obtaining validated 
needs and continue to synchronize work between S&T and program 
evaluation offices and program managers.
    We must guard against pressures for technology solutions from the 
nontechnical community that reads the popular press and thinks that 
they are ``discovering'' technology opportunities. This may lead to 
unrealistic expectations about technology capabilities and the 
temptation to redirect disciplined technology development and 
technology maturity assessments towards work of less technical merit 
which is typically unable to withstand rigorous evaluation.
    Question. What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. The Army is rapidly fielding the best new equipment to the 
current force through several initiatives, including the Rapid 
Equipping Force and the Rapid Fielding Initiative. The Army's number 
one priority is force protection of our soldiers with individual 
weapons and protective equipment. I would plan to upgrade and modernize 
existing systems to ensure all soldiers have the equipment they need. I 
would incorporate new technologies derived from the Army S&T program, 
and from FCSs development. I would field the FCS BCTs. FCS is the core 
of the Army's modernization effort and will provide our soldiers an 
unparalleled understanding of their operational environment, increased 
precision and lethality, and enhanced survivability. My objective will 
be to have our soldiers equipped with world-class weapon systems and 
equipment, keeping the Army the most dominant land power in the world 
with full-spectrum capabilities.

  ARMY RESEARCH, DEVELOPMENT, AND ENGINEERING CENTERS AND LABORATORIES

    Question. Among the roles the Army's Research, Development, and 
Engineering Centers and Laboratories are supposed to play is the 
development of innovative systems and technologies supporting their 
transition to the warfighter, and supporting the Army in making 
technically sound acquisition decisions.
    Do you feel that the Army's Research, Development, and Engineering 
Centers and Laboratories are sufficiently resourced in funding, 
personnel, and equipment to perform these missions?
    Answer. Despite the demands of the ongoing global war on terrorism 
the Army has been able to maintain its S&T investment at over $1.7 
billion for each of the past three budget requests and has actually 
increased its proposed fiscal year 2009 S&T investment to $1.8 billion. 
We believe this level of investment is sufficient to support our S&T 
personnel, projects, and equipment consistent with our broad resource 
demands.
    Question. What in your view are the biggest deficiencies in the 
performance of the Army's Research, Development, and Engineering 
Centers and Laboratories?
    Answer. The biggest deficiency in the performance of the Army's 
Research, Development, and Engineering Centers and Laboratories is 
their inability to effectively modernize their laboratory 
infrastructure.
    Question. What do you plan to do to address those deficiencies?
    Answer. To the maximum extent possible, the Army's Research, 
Development, and Engineering Centers and Laboratories will utilize the 
flexibility provided in title 10, U.S.C., section 2805, to recapitalize 
critical mission infrastructure. We are also seeking to reauthorize the 
Laboratory Revitalization Demonstration Program and increase the 
associated minor construction limit to $2.5 million, with a $3 million 
limit for unspecified minor construction. The renewal will provide 
laboratory/center directors the ability to recapitalize critical 
mission infrastructure and reduce reliance on military construction to 
meet critical mission needs and corrects construction approval limits 
to account for major increases in the cost of laboratory construction 
over more common forms of construction.
    Question. Do you feel that the Army's Research, Development, and 
Engineering Centers and Laboratories have the appropriate personnel 
systems and authorities to support the recruiting and retaining of 
their highly-qualified technical workforce?
    Answer. Under congressionally authorized laboratory demonstration 
program authorities, the Army has the appropriate personnel systems and 
authorities to support the recruiting and retaining of their highly-
qualified technical workforce. The laboratories and centers have 
already taken significant advantage of the authorities provided by 
Congress for recruiting bonuses, laboratory pay banding, pay-for-
performance, incentive awards, and employee advanced education and 
development programs. Our vital laboratory infrastructure is 
fundamental to exploit the knowledge of our people and to attract and 
retain the most talented scientists and engineers to work for the Army.

                        CHIEF MANAGEMENT OFFICER

    Question. Section 904 of the NDAA for Fiscal Year 2008 provides for 
the Under Secretary of each military department to be designated as the 
Chief Management Officer of the department.
    What is your understanding of the authorities and responsibilities 
that you would assume, if confirmed, as Chief Management Officer of the 
Department of the Army?
    Answer. Section 904 of the NDAA for Fiscal Year 2008 designates the 
Deputy Secretary of Defense as the Chief Management Officer of DOD and 
designates the Service Under Secretaries as Chief Management Officers 
of the Military Departments. This designation makes sense, and if 
confirmed to this position, I will discharge my duties in providing 
oversight and leadership across the broad range of the Army's business 
functions.
    Question. What priorities would you establish in your capacity as 
Chief Management Officer, and what would you hope to accomplish in that 
position?
    Answer. Instituting a cost culture is essential to the success of 
the Army. Integrating cost as a variable in our decisionmaking process 
will help us ensure that scarce resources are used wisely and 
efficiently. Working with the Deputy Under Secretary of the Army, I 
would ensure effective execution of our enterprise architecture and 
modernization efforts across all business domains. I would ensure that 
progress is realized in implementing a comprehensive financial 
improvement and audit readiness plan to guide financial modernization 
activities.
    Question. If confirmed, would you expect to establish a strategic 
management plan for the Department of the Army?
    Answer. Yes, if confirmed, I would work with the Secretary to 
develop a strategic management plan for the Army that is consistent and 
aligns with the DOD management plan. The Army's enterprise architecture 
aligns with the Department's federated approach to business system 
modernization.
    Question. If so, what issues would you expect to address in that 
plan, and how would you go about addressing them?
    Answer. If confirmed, I would ensure that progress is realized on 
the Army's three key financial improvement activities. The first is to 
complete development and fielding of General Fund Enterprise Business 
System Increment 2. The second is to complete all testing, fielding, 
and organizational restructuring in support of the Defense Integrated 
Military Human Resource System. Our third key activity is to implement 
a pilot program supporting electronic payments for the Commander's 
Emergency Response Program in Iraq. I would work to ensure that 
progress is made in developing business system transition plans and 
that systems architecture aligns with the Department's Enterprise 
Transition Plan and Business Enterprise Architecture.

COMMISSION ON ARMY ACQUISITION AND PROGRAM MANAGEMENT IN EXPEDITIONARY 
                               OPERATIONS

    Question. The Commission on Army Acquisition and Program Management 
in Expeditionary Operations concluded that ``the Army sent a skeleton 
contracting force into theater without the tools or resources necessary 
to adequately support our warfighters.'' According to the Commission, 
``Contracting, from requirements definition to contract management, is 
not an Army Core Competence. The Army has excellent, dedicated people; 
but they are understaffed, overworked, under-trained, under-supported 
and, most important, under-valued.''
    Do you agree with the conclusions reached by the Commission?
    Answer. The Army greatly appreciates the work of the Commission and 
is in full agreement with the Commission's general recommendations for 
improvement. Indeed, many of the Commission's recommendations are 
consistent with the issues identified by the Army Contracting Study 
completed in 2005 and the Army Contracting Task Force, which was co-
chaired by Ms. Kathryn Condon and LTG Ross Thompson. To date, the Army 
has taken action on 21 of the 22 Gansler Commission recommendations 
specific to the Army. The Army is aggressively addressing the 
structural weaknesses and shortcomings identified to improve current 
and future expeditionary contracting activities. Our actions stretch 
across the Army and include an ongoing, comprehensive review of 
doctrine, organization, training, materiel, leader development, 
personnel, and facilities.
    Question. If confirmed, what role do you expect to play in 
addressing these concerns?
    Answer. Secretary of the Army Geren recently announced the Army 
Contracting Campaign Plan, which is a focused commitment to implement 
changes across the Army to ensure that our doctrine, manning, training, 
and support structure for contracting are comprehensive, consistent and 
fully implemented. Mr. Geren has directed me to implement specific 
recommendations of both the Gansler Commission and the Army Contracting 
Task Force as expeditiously as possible.
    Question. The Commission report states that ``The Army's difficulty 
in adjusting to the singular problems of Kuwait, Iraq, and Afghanistan 
is in large part due to the fact that there are no generals assigned to 
contracting responsibilities.'' The Commission recommends that Congress 
authorize ``a core set of 10 additional general officers for 
contracting positions''.
    Do you support the recommendation of the Commission?
    Answer. The Army plans to continue to grow additional military 
contracting structure in the Active Force and civilian contracting 
workforce in line with the Gansler Commission recommendations. To that 
end the Army has approved and is standing up a two-star level Army 
Contracting Command (ACC) under the AMC, including two subordinate 
commands; a one-star expeditionary contracting command; and a 
restructured one-star level installation contracting organization. The 
Army is seeking additional officer authorizations to provide the 
leadership for those new commands as well as provide career path 
progression to help retain and promote much needed uniformed 
leadership.
    Question. In your view, is legislation required to implement this 
recommendation, or can the Army assign new general officers to 
contracting functions without legislation?
    Answer. There is flexibility to assign general officers to 
contracting functions within the Army's current general officer 
allocations. The key question is, given the current optempo and the 
stress on Army leadership, both military and civilian, does the Army 
need more general officers to meet the leadership demands for the 
force? The Army is working closely with OSD to assess whether 
legislation to increase the number of general officers to lead DOD's 
future contracting workforce is the best way to meet the identified 
requirements in this area.
    Question. The Commission report states that ``The number and 
expertise of the military contracting professionals must be 
significantly increased'' to address the problems we have experienced 
in theater. The Commission recommends that the Army hire 2,000 new 
contracting personnel.
    Do you support the recommendation of the Commission?
    Answer. The acquisition workforce has declined significantly in the 
last decade while the number of dollars that we are executing in the 
Army has increased by more than 80 percent. The Army has never fought 
an extended conflict that required such reliance on contractor support. 
We are currently addressing the need to expand, train, structure, and 
empower our contracting personnel to support the full range of military 
operations.
    Question. What steps have you taken, if any, in your capacity as 
Acting Under Secretary to address this issue?
    Answer. Contingency contracting force structure increases were 
being incorporated in the Army's modular force design even prior to the 
establishment of the Army Contracting Task Force. While the Army did 
not have the force structure necessary to support expeditionary 
operations in Iraq and Afghanistan, we have now established a 
contingency contracting structure that consists of Contracting Support 
Brigades (commanded by a colonel), Contingency Contracting Battalions, 
and Contingency Contracting Teams. An increase of 295 contingency 
contracting officers to fill this new force structure has already been 
approved. A further growth of 167 military and 804 civilians in the 
institutional Army is still undergoing analysis.
    Question. What additional steps do you expect to take, if 
confirmed?
    Answer. As the point person for the Army Contracting Campaign plan, 
I plan to examine the entire contracting process in the Army, from 
requirements definition to the final receipt and payment for goods and 
services received. We will look at everything, from how we are 
identifying what we need to how we raise and train our young officers 
to become our future contracting experts. As best practices emerge from 
these efforts, they will be shared across the entire contracting 
workforce.
    Question. The Commission report states that most civilians working 
on contracting issues in Iraq were ``volunteers, often with inadequate 
or wrong skill sets for the job at hand, and often getting their 
required contracting experience on-the-job as part of their 
deployment.'' The Commission recommends that qualified civilians who 
agree to deploy be provided enhanced career and job incentives. These 
include the elimination of an existing pay cap, tax free status, and 
long-term medical care for injuries incurred in-theater.
    Do you support the recommendations of the Commission?
    Answer. The Army agrees with the Commission that civilians who 
agree to deploy deserve the benefits and professional opportunities 
commensurate with their skills, hardships, and contributions. We are 
working with OSD to examine the entitlements, compensation, and 
benefits currently afforded to deployed civilian employees. As we 
identify areas in need of improvement or enhancement, we will work with 
OSD and the administration to seek legislative changes.
    Question. What is your understanding of the steps that the Army has 
taken, or plans to take, to implement these recommendations?
    Answer. The Army has conducted a review of the pay and benefits 
that are afforded to deployed civilians. We have also partnered with a 
team led by OSD. Several legislative and regulatory reforms have been 
identified to improve the benefits for deployed civilians and we have 
initiated the staffing process in these areas.
    Question. The Commission report states that some DOD and Army 
policies actively discourage the deployment of civilians. For example, 
the report states that volunteers are required to be sent on `detail', 
so that the providing office has to pay salary and expenses of 
deploying civilians out of their existing budgets without any 
reimbursement or backfilling. As a result, the Commission reports, 
managers in the U.S. have actively discouraged civilians from 
volunteering.
    Do you agree with the Commission's findings on this issue?
    Answer. The Army does not have evidence suggesting that employees 
have been discouraged from deploying. In some instances, however, 
organizations have been required to continue paying salary and other 
expenses of deployed employees. With the current tight budget 
situation, commands are often unable to backfill a deployed civilian. 
We are working with OSD to clarify the policy in this area to reduce 
the organizational disruptions caused by deployment of civilian 
personnel.
    Question. What is your understanding of the steps that the Army has 
taken, or plans to take, to address this problem?
    Answer. The Deputy Under Secretary of Defense (Personnel and 
Readiness) issued a memo on February 12, 2008, with the subject 
``Building Increased Civilian Deployment Capacity.'' In the memo and 
attached policy guidance, Dr. Chu reiterated the need to support the 
deployment of DOD civilians for contingency contracting operations. The 
Department of the Army fully supports the requirement to deploy 
civilians and lift the burden from losing organizations, and will 
continue to review recommendations for resolving the issue.
    Question. The report states that Contracting Officer's 
Representatives (CORs) are an ``essential part of contract 
management'', because they are responsible for ensuring contract 
performance. According to the report, however, ``CORs are assigned as . 
. . an `extra duty,' requiring no experience. . . . The COR assignment 
is often used to send a young soldier to the other side of the base 
when a commander does not want to have to deal with the person. 
Additionally, little, if any training is provided. . . . Despite this, 
there are still too few CORs. Moreover, COR turnover is high, 
frequently leaving many gaps in contract coverage.''
    Do you agree with the Commission's assessment of the CORs assigned 
in Iraq and Afghanistan?
    Answer. A Contracting Officer Representative (COR) townhall meeting 
in Kuwait led by Army Constructive Training Federation leadership in 
October 2007 identified both individual COR training and execution 
shortcomings. CORs stated that they lacked the appropriate level of 
training and expertise to oversee complex theater contracts. While CORs 
are not contracting personnel, they are the ``eyes and ears'' of the 
contracting officer and the customer and must be viewed with the 
appropriate level of authority across the Army.
    Question. What is your understanding of the steps that the Army has 
taken, or plans to take, to address this problem?
    Answer. A standard, minimum training requirement has been 
established for Army CORs. They must complete the Defense Acquisition 
University online continuous learning module, ``COR with a Mission 
Focus,'' prior to appointment. As of November 1, 2007, over 4,500 Army 
personnel have completed this course.

                 MILITARY ROLE IN DOMESTIC EMERGENCIES

    Question. The shortfalls in the emergency response to Hurricane 
Katrina along the Gulf Coast have resulted in debate about the 
appropriate role of DOD and the Armed Forces in responding to domestic 
emergencies.
    In your view, should the Army have a more expansive role in 
responding to natural disasters?
    Answer. Our Nation has been at war for over 6 years. Our Army--
Active, Guard, and Reserve--has been a leader in this war and has been 
fully engaged in Iraq, Afghanistan, and defending the homeland. The 
Army has always supported requests for military assistance and will 
continue to do so. However, the ``role'' of the Army in domestic 
emergencies should continue to remain within prescribed law and in 
support of the Department of Homeland Security or other lead Federal 
agency.
    Question. In your view, what should the Army's role be in 
responding to domestic emergencies, including chemical, biological, or 
nuclear attacks?
    Answer. DOD and United States Northern Command have worked in 
concert with the Department of Homeland Security to plan and prepare 
for response to domestic emergencies. United States Army North is the 
dedicated Army Service Component Command to the United States Northern 
Command for Homeland Defense and Defense Support to Civil Authorities 
for the continental United States and Alaska.
    Northern Command is DOD's conduit to each Federal Emergency 
Management Agency Region for Defense Support to Civil Authorities. The 
Command collocates within the Federal Emergency Management Agency 
Headquarters and builds synergy and habitual relationships with Federal 
Emergency Management Agency staff, other Government Agencies, state 
emergency responders, state Adjutant Generals, and potential base 
support installations.
    When a domestic emergency, including chemical, biological, or 
nuclear attack, occurs, the affected Governor or Governors shall first 
employ their Air and/or Army National Guard with State authority, if 
required. Each State and Territory has its own Weapons of Mass 
Destruction Civil Support Team (for detection and identification). 
Moreover, 17 States have created federally funded National Guard 
Chemical, Biological, Nuclear and high yield Explosive Enhanced 
Response Force Packages (commonly known as CERFP) for search and 
rescue, decontamination, emergency medical care, and force protection. 
These force packages are designed to support all States within their 
FEMA region and also may deploy throughout the country.
    In an event of a catastrophic impact, the States will likely 
request Federal military assistance. The Army provides the majority of 
assets to Northern Command for the Chemical, Biological, Nuclear and 
high yield Explosive Consequence Management Response Force (commonly 
known as CCMRF). This force provides assessment teams and enhances the 
civil authority's ability to provide command and control, medical, 
logistics, extraction and decontamination, transportation, security, 
public affairs, and mortuary affairs.
    Question. What is your assessment of the Army National Guard's 
ability to meet its State contingency and homeland defense missions, 
given its operational commitments overseas and current equipment 
shortfalls?
    Answer. The Army National Guard continues to demonstrate its 
ability to respond to State contingency and homeland missions as well 
as to its operational commitments.
    The States use their Army National Guard assets cooperatively 
through participation in the Emergency Management Assistance Compact. 
The Emergency Management Assistance Compact is a congressionally 
ratified organization that provides form and structure to interstate 
mutual aid. Through the Compact, a disaster impacted state can request 
and receive assistance from other member states quickly and 
efficiently; the Compact resolves two key issues upfront: liability and 
reimbursement.
    Current Army planning, programming, and budgeting process has been 
effective in examining, assessing, prioritizing and allocating 
resources to the Total Army--the Active component and the Reserve 
components. The Army is currently executing and programming 
unprecedented resource levels to the Reserve components. The Director 
of the Army National Guard and the Chief of the National Guard Bureau 
are fully represented in Army planning and programming deliberations. 
Their respective staffs have been integrated directly into the HQDA 
staff so that we fully understand Reserve component requirements 
resulting in an improved total force.
    Since September 11, 2001, the Army has resourced over $49 billion 
in Army National Guard procurement (for fiscal years 2001-2013). 
Funding and equipment distributions are firewalled: promises made are 
promises kept. For fiscal years 2001-2007, the Army resourced $15.3 
billion in Army National Guard procurement. Over the next 24 months, 
the Army will distribute over 400,000 items of equipment to the Army 
National Guard, valued at $17.5 billion--36 percent of Total Army 
distributions. This includes 16,000 trucks, 31,000 radios, 74,000 night 
vision devices, and 86,000 weapons.
    Question. What is your view of the recommendation of the Commission 
on the National Guard and Reserves to provide Governors the authority 
to direct all military forces within their States when responding to 
domestic emergencies?
    Answer. States have effectively responded to numerous disasters and 
have done well. A catastrophic domestic emergency will likely be a 
multi-state event overwhelming the ability of the State or States to 
respond. In that situation, forces from outside the disaster area, not 
burdened by an immediate danger to themselves and their families, are 
the best assets to respond.
    While I understand the need to provide the Governors with access to 
military forces in response to domestic emergencies, I disagree with 
the means identified in the recommendation. A Governor's perspective is 
primarily his or her State. After use of local and State first 
responders, each Governor has Army and Air National Guard forces under 
state authority available to respond to State emergencies. Further, 
most of the States and territories participate in the Emergency 
Management Assistance Compact which enables them to provide additional 
support to each other.
    When the Governors request Federal assistance, DOD provides the 
military portion of that support to the designated lead Federal agency. 
In the event of multiple, near simultaneous terrorist attacks, the 
Federal Government must maintain the flexibility and agility to employ 
forces to manage and sustain an effective response force.

                       FORCE PROTECTION PROGRAMS

    Question. Over the past several years, the Army, with the 
assistance of Congress, has spent billions of dollars on force 
protection measures (e.g., Interceptor Body Armor, uparmored high 
mobility multipurpose vehicles, counter-IEDs measures) primarily using 
supplemental appropriations.
    If confirmed, how would you ensure that the Army continues to 
support and fund force protection programs, even in the absence of 
supplemental appropriations provisions?
    Answer. I appreciate the assistance of Congress in protecting our 
soldiers by supporting these critical Force Protection programs. I can 
assure you that equipment necessary to protect the lives of soldiers 
will always be a high priority for funding. The Army has become 
increasingly dependent upon supplemental funds to meet war-related 
requirements and many programs funded through supplemental 
appropriations--like force protection--have become enduring. As your 
question implies, we must continue critical enduring programs even if 
supplemental appropriations go away. Funding from supplemental 
appropriations for enduring programs must move to the base program. So 
in addition to ensuring that Force Protection programs receive a high 
priority for funding within the Army, I will also advocate strongly 
that the missions assigned to the Army are resourced commensurately.

                            EQUIPMENT RESET

    Question. The ongoing requirements of the global war on terror have 
significantly increased usage rates on the Services' equipment. As a 
result, we know there will be a requirement to ``reset'' the force not 
only as the current operations continue but for some time after they 
conclude as well. However, given the ongoing nature of both the war in 
Iraq, and the larger war on terror, we need to ensure that our force 
remains ready to respond to whatever contingencies are required.
    Do you think that the Army's equipment reset program meets the 
requirements of the global war on terror, as well as the requirements 
for changing to a modular force?
    Answer. The Army's reset program has been meeting the requirements 
for deployed forces by maintaining equipment readiness with rates at 
more than 90 percent for ground equipment and more than 75 percent for 
aviation equipment. The Army expects to have its BCTs fully equipped by 
2015 and its combat support and combat service support units by 2019 
provided it receives adequate funding.
    Question. In your view, what is the greatest source of risk in the 
Army reset program and, if confirmed, how would you eliminate or 
mitigate that risk?
    Answer. Timely and accurate funding is the greatest source of risk 
to the Army's reset program. Full funding received at the beginning of 
the fiscal year allows for the early purchase of long lead parts which 
reduce reset timelines, minimizes delays in replacing battle losses, 
and ensures the retention of the skilled labor force at the depots. To 
mitigate this risk, it is imperative for the Army to maintain constant 
and open communication with OSD, the Office of Management and Budget, 
and Congress, so that they clearly understand our requirements and the 
reasoning behind them.
    Question. If confirmed, how would you ensure that sufficient 
resources are programmed and requested to meet the Army's requirements 
to provide trained and ready forces across the spectrum of military 
operations?
    Answer. The development of the Army's reset requirements is driven 
by current wartime commitments: size of force structure; operational 
tempo; equipment stress; battle losses; lessons learned; and the need 
to reconstitute equipment readiness for the next contingency, which 
could be any mission along the spectrum of conflict from low intensity 
to full spectrum operations. Current operations have greatly increased 
the wear and tear on our equipment and the associated reset 
requirements are a cost of war and should be entirely funded by 
supplemental dollars.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. Depots are not operating at maximum capacity but are 
operating at a level that theater equipment retrograde and funding will 
support. In peacetime, our depots expend approximately 12 million 
direct labor hours annually. Depots are currently executing 27 million 
direct labor hours and have the capacity to expand up to 40 million. 
Each depot's production capacity is being optimized by equipment type 
and commodity. Our depots have enabled deployed forces to maintain 
equipment readiness for the last 5 years at 90 percent or better for 
ground equipment and 75 percent or better for aviation, and are 
repairing enough equipment to meet the requirements of the next 
deploying force. Should Army requirements change, depots could do more 
and increase their capacity with predictable funding, available spare 
parts, increased workforce, and more retrograded equipment.
    Question. What additional steps, if any, do you believe could be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. Timely and adequate funding is essential. It enables depots 
to procure long lead time parts, maintain a skilled workforce, replace 
and repair maintenance equipment, and set the conditions for resetting 
our redeploying forces. In addition, we are putting in place several 
logistics initiatives that will speed retrograde, improve asset 
visibility, reduce transportation time, and target certain equipment 
for direct return to depots. These initiatives are being tested in the 
Reset Pilot Program and are already beginning to show results. Depots 
are implementing Lean Six Sigma programs and are showing tremendous 
success in improving production rates and reducing turn around times.

                      ARMY PREPOSITIONED EQUIPMENT

    Question. The Army has long included as a critical element of its 
strategic readiness sufficient prepositioned equipment and stocks 
around the world and afloat to accelerate the deployment and employment 
of forces in response to crises. However, Army prepositioned stocks are 
nearly completely committed in support of operations in Iraq leaving 
the Army and the Nation little strategic flexibility or options.
    What changes to policies regarding use of prepositioned equipment 
stocks would you recommend if confirmed?
    Answer. No changes are recommended to the current policy for the 
use of Army Prepositioned Stocks (APS) at this time. The last 4 years 
demonstrated that the APS program was flexible, responsive, and 
critical to the Army's ability to deploy forces in support of combatant 
command requirements and to adapt to changing strategic requirements. 
The Army carefully monitors the use of APS assets and closely 
coordinates their use with the combatant commanders. Whenever use of 
APS equipment is required, the Army evaluates the strategic risk and 
implements mitigation factors. We must continue to replenish our APS 
stocks with ``modernized'' equipment that meets the needs of the 
modular force.
    Question. What is your understanding and assessment of the current 
plan for reconstituting Army prepositioned equipment to re-establish 
this strategic capability?
    Answer. APS capabilities will be reconstituted to provide the 
maximum level of strategic flexibility and operational agility. The 
Army has developed ``APS Strategy 2015'' which articulates the afloat 
and ashore equipment required to meet the future responsiveness needs 
of the combatant commanders. Reconstitution of APS is already underway 
and contingent on available resources and operational requirements, the 
Army has an executable timeline within which to reset its APS sets in 
accordance with ``APS Strategy 2015.''

                         EQUIPMENT AVAILABILITY

    Question. Do you believe that the Army has enough equipment to 
fully support the predeployment training and operations for the next 
rotation to OIF/OEF?
    Answer. The Army has enough equipment to ensure forces are 
adequately prepared for and can successfully conduct operations in OIF/
OEF. No soldier will go into combat without the proper training and 
equipment. There are, however, some equipment shortages in CONUS that 
require sharing equipment among pre-deployed units to ensure they are 
fully trained before deploying. Equipment sharing is generally managed 
at the brigade or division-level by transferring equipment among units 
to support specific training events. The Army works diligently to 
schedule forces for deployment as early as possible and to project the 
mission they must perform when deployed. As part of each 
synchronization cycle, a Department-level Force Validation Committee 
works to ensure that deploying forces are provided all the personnel 
and equipment required for their mission. Additionally, a Training 
Support and Resources Conference meets to ensure deploying forces have 
all the training support tools they need to train for their mission and 
are scheduled for a mission rehearsal exercise.
    Question. What do you see as the critical equipment shortfalls for 
training and operations?
    Answer. All soldiers receive the required training and equipment 
before going into combat. Active, Guard, and Reserve must be certified 
as ready before they are put in harms way. Achieving the necessary unit 
readiness involves consolidating training sets at our installations to 
compensate for equipment shortfalls among nondeployed units. The most 
common Active and Reserve component high-demand predeployment training 
equipment shortfalls occur with force protection-related equipment, 
where equipping solutions are developed to meet specific theater 
requirements. Most of the production of these items goes straight into 
theater to meet the force protection demand. These items include up 
armored light, medium, and heavy tactical trucks; special route 
clearance vehicles (to include the RG-31, Buffalo, Husky, and Cougar); 
and counter remote-controlled improvised explosive device warfare 
(CREW) devices. We retain a limited number of these systems for home 
station training and at our Combat Training Centers so soldiers will 
gain experience with these systems before they deploy. Additionally, a 
large number of our soldiers already have one or more rotations in Iraq 
and Afghanistan and have direct experience with these systems.
    Other items of equipment with limited availability for home station 
training include kits designed to increase the survivability of 
standard Army equipment, including the Bradley and Tank Urban 
Survivability Kits, and uparmored High Mobility Multipurpose Wheeled 
Vehicle (HMMWV) fragmentation kits. These kits are provided in theater. 
Finally, there are some additional training equipment gaps in specific 
areas which are driven by the Army's desire to get the most modern and 
capable systems immediately into the hands of our soldiers in combat 
operations. These items include the most recent version of the Army 
Battle Command System, the Command Post of the Future, some advanced 
intelligence 12 systems, and biometric systems. The Army is working to 
get appropriate levels of systems to support training the force into 
the training base and at unit home stations, as well as in our Combat 
Training Centers.
    Significant quantities of Army equipment remain in Iraq and 
Afghanistan to minimize the time lost, and the associated costs, in 
transporting equipment to and from these missions. The result is that 
units at home station have less than full sets of authorized equipment. 
Although rotating equipment between training units allows us to achieve 
the training requirements before deployment, these units are limited in 
their ability to support other contingencies around the world should 
the need arise.
    Question. What steps would you take, if confirmed, to address these 
shortfalls and ensure that units have what they need in time to train 
before deploying and as well as for operations in Iraq?
    Answer. The Army is prioritizing and tracking the use of inventory 
and procurement dollars to repair equipment used and damaged in the 
global war on terrorism, and to replace critical equipment destroyed in 
battle. The Army is also prioritizing and managing procurements and 
distributions to fill other critical shortages to ensure our forces are 
organized and equipped for required capabilities, with standard 
quantities and qualities of equipment across all components. While the 
use of training sets, theater provided equipment and cross-leveling of 
equipment to meet training and operational requirements are not the 
optimal solution, units have and will continue to meet all required 
training and readiness standards prior to commitment into combat.

               MINE-RESISTANT, AMBUSH-PROTECTED VEHICLES

    Question. In September 2007, the JROC capped Mine-Resistant, 
Ambush-Protected (MRAP) procurement at 15,374 vehicles with about 3,700 
going to the Marine Corps and approximately 10,000 to the Army. In 
November 2007, the marines decreased their requirement from 3,700 to 
approximately 2,300 vehicles--citing, in part, an improved security 
situation in Iraq and the MRAP's unsuitability in some off-road and 
urban situations. Reports suggest that the Army may follow suit and 
reduce its overall MRAP requirement.
    Are you aware of a revised Army requirement for MRAPs, and if the 
Army has decreased its requirement for MRAPs, is this the Army's final 
requirement or can we expect the requirement to change again?
    Answer. The new JROC approved interim requirement to support Army 
units is 12,000. In January 2007, the Army requirement, based on 
requests from U.S. Central Command commanders was identified to be 
17,770. To ensure this assessment met our emerging requirements, the 
Army worked closely with the Joint Staff and OSD to continuously 
reassess and raise the procurement quantity in a stairstep fashion to 
ensure a continuous and rapid flow of vehicles to theater while 
remaining good stewards of our Nation's resources. Recently, based on 
input from theater, the Army was able to reduce its estimate from 
17,770 down to a range of between 15,500 and 11,500, a reduction of 
nearly 2,000 to 5,000 vehicles. To ensure we do not overstate our 
requirement, we raised our interim requirement from 10,000 to almost 
12,000 and are actively working with OSD, the Joint Staff, and the 
Joint Program Office to place appropriate production orders that meet 
warfighters needs for protected mobility; preserve options for 
commanders in the field to make adjustments as force levels and 
situations change; and to manage fiscal resources appropriately.
    Do you see a role for MRAPs beyond the Iraq and Afghanistan 
conflicts?
    Answer. The MRAP has addressed the Army's most critical current 
battlefield deficiency (force protection of our forces against IEDs) 
with a capable, survivable and sustainable vehicle for the current 
Theater of Operation. However, with the exception of a limited number 
of vehicles going to Route Clearance and explosive ordnance disposal 
teams, it is premature to describe where MRAP may fit into tomorrow's 
force structure.
    Training and Doctrine Command is conducting a tactical wheeled 
vehicle analysis of mission, roles, profiles, threats, and capabilities 
of the various fleets. This analysis includes the MRAP, Joint Light 
Tactical Vehicle, and the HMMWV. The initial results will influence 
program objective memorandum decisions, the Force Mix Brief to 
Congress, and the Combat and Tactical Wheeled Vehicle Strategy due to 
the Deputy Secretary of Defense in July 2008. The Army's Tactical 
Wheeled Vehicle strategy is an ongoing effort to ensure our soldiers 
receive the best capabilities available in ground wheeled vehicles to 
meet current and emerging threats.

     SPECIAL UNITS FOR STABILIZATION AND TRAINING/ADVISORY MISSIONS

    Question. On October 10, 2007, the Secretary of Defense emphasized 
the role that ``unconventional warfare'' will play in the Army's future 
as well as the need to organize and prepare for training and advisory 
role. Some, both inside and outside of the Army, have suggested that 
special units or organizations should be established to address these 
mission areas, while others maintain that these missions are best 
handled by the Army's full-spectrum BCTs and their supporting forces.
    Do you believe that there is any merit in establishing special 
units--such as a Training and Advisory Corps?
    Answer. Future requirements to train and advise foreign security 
forces will be addressed with a combination of special operations 
forces, small scale specialized forces, embassy military groups, and 
Army full spectrum modular forces. Pre-conflict security cooperation 
activities will emphasize Special Operations Forces, small scale 
specialized forces, and small deployments of full spectrum modular 
forces working under U.S. embassy control, while post conflict efforts 
will rely heavily on full spectrum modular forces.
    A new small scale specialized force the Army is studying is the 
Theater Military Advisory and Assistance Group--Future, which would 
provide three 22-man security cooperation detachments working directly 
for the Combatant Command and conducting preconflict security 
cooperation training and advising. The Army is considering piloting the 
Theater Military and Advisory Group--Future in United States Army 
South.
    Army modular forces are ideally suited to train and advise. For all 
these forces, the key consideration is expertise in their core 
function. For example, U.S. Army infantry, medical, or engineer 
companies are experts at conducting their wartime function and can 
therefore train and advise foreign infantry, medical, or engineer 
companies. However, before Army forces conduct a training or advising 
mission, they must prepare for the unique aspects an advising mission 
entails. To that end the Army is creating an enduring advising 
institution. This institution will reside at Fort Polk and will have 
the capability to prepare individuals or units to serve as trainers and 
advisors.

                       SPECIAL OPERATIONS COMMAND

    Question. The Special Operations Command, pursuant to the 
Quadrennial Defense Review (QDR) guidelines, is currently expanding the 
size of its Army component. It is also working to raise the language 
proficiency of its Army special operators.
    If confirmed, will you support U.S. Army Special Operations 
Command's (USASOC) end strength growth?
    Answer. If confirmed, I will support USASOC's end strength growth. 
QDR 2006 directed that Special Forces battalions be increased by one-
third and that Civil Affairs and Psychological Operations be increased 
by 33 percent. The Army has already programmed and is executing these 
important decisions. By fiscal year 2013, the Army will have completed 
this growth. If confirmed, I will monitor this growth and ensure it 
meets operational requirements.
    Special Operations Forces are performing extremely demanding and 
specialized tasks in combating terrorism. This increase in end strength 
will mitigate the extremely high operational tempo now experienced by 
these specially selected and trained forces. Growth of Special 
Operations Forces is within programmed end strengh of 547,400 (Active), 
358,200 (National Guard), and 206,000 (Reserve). The growth in Special 
Operations Forces will greatly contribute to the Army's ability to 
confront irregular challenges and to conduct stability operations.
    Question. What steps do you believe the Army should take to ensure 
that proficiency pays for language create the appropriate incentives to 
Army special operators to learn, improve, and retain language skills?
    Answer. The Army supports the Defense Language Program goal to 
increase language capability across the force. The Army goal is to 
train our language cadre to the minimum level of 2 for language 
proficiency. Currently Active component and Reserve component soldiers 
may earn up to $400 per month per language depending on their level of 
proficiency, up to a maximum rate of $1,000 per month. Soldiers who are 
in language dependent military operation skills, such as special 
operators, are paid the highest rate for their primary language. This 
is true even for languages such as Spanish, which has been identified 
as ``dominant in the force'' and is not usually authorized for language 
pay for other Army soldiers. This will provide an added incentive to 
soldiers to maintain their proficiency.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, to the extent of my authority.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka


                       TRANSFORMING THE RESERVES

    1. Senator Akaka. Secretary Ford, one of the challenges you have 
highlighted for the Army is the transitioning of the Reserve component 
to an operational force rather than a Strategic Reserve. The Commission 
on the National Guard and Reserves reached the same conclusion in their 
last report before the Senate Armed Services Committee in February of 
this year. What elements of this report do you feel are the most 
important for Congress and the Department of Defense (DOD) to address 
immediately, and what obstacles do you foresee as being the most 
problematic in beginning the official transformation of our Reserve 
Forces?
    Mr. Ford. At this time, the Army, as well as the other Services and 
DOD stakeholders, are participating in a comprehensive review of 95 
recommendations in the Commission's final report, including a full 
evaluation, their relationship to other programs and initiatives, their 
cost (if approved), and how they will be funded (if approved).
    The Commission noted that, as the Nation uses its Reserve Forces 
for current operations to an unprecedented degree, there is ``no 
reasonable alternative to increased reliance on the Reserve component 
as an operational force for missions at home and abroad.''
    We fully concur. The Commission's recommendations validate numerous 
strategic initiatives that the Army has been pursuing for several 
years, to include transitioning the Army's Reserve component from 
Strategic Reserve to part of the sustainable operational force, 
committing units to providing military support to civil authorities and 
other domestic operations, and providing soldiers with service options 
under a continuum of service personnel management construct. The Army 
appreciates continued congressional and department support in these 
areas. However, the degree to which we transition the Army's Reserve 
components depends on a move towards institutionalizing budget policy 
and support for making the Reserve component part of the operational 
force.

                    AVIATION SURVEILLANCE BATTALION

    2. Senator Akaka. Secretary Ford, a recent article in the New York 
Times described the Army's new Aviation Surveillance Battalion in Iraq, 
named Task Force Odin. It was reported that the order to stand up this 
unit was in response to frustration with Army requests for both combat 
air power and surveillance assets while conducting ground operations in 
Iraq, and the unit has been successful enough that there is a plan to 
stand up a similar battalion in Afghanistan. It was further stated that 
this signals a clear shift for the Army away from joint operations, and 
toward more self-sufficient operations. To what extent do you agree 
with this statement?
    Mr. Ford. The New York Times opinions about assets and joint 
support to the Army do not reflect the policy or opinions of the United 
States Army. Task Force Odin supports battalion and brigade 
reconnaissance, surveillance, and target acquisition requirements and 
provides actionable intelligence directly to the warfighter. Experience 
with Task Force Odin shows having the sensor assets and the engagement 
assets under the same command provides a dynamic real time ability to 
persistently view and engage elusive insurgents. Similar 
reconnaissance, surveillance, and target acquisition requirements exist 
in Afghanistan and the Army plans to meet those needs.

    3. Senator Akaka. Secretary Ford, if confirmed, what steps will be 
taken by the Army to address conflicts in roles and missions between 
Army and Air Force assets conducting operations in both areas of 
responsibility?
    Mr. Ford. The Army and the Air Force will continue recently 
initiated efforts intended to enhance their joint warfighting 
capabilities. Several initiatives are underway including a series of 
warfighter talks convened by both the Chief of Staff of the Army and 
the Chief of Staff of the Air Force. These talks resumed in January 
2008 to synchronize Service concepts, roles and missions, and improve 
joint interoperability and interdependence. As a result of the most 
recent talks the Army-Air Force Board (AAFB) was formed to address 
bilateral issues of concern. The goal of the AAFB is to make 
recommendations to improve service integration, interdependence, and 
warfighting capabilities as they relate to the current conflict in Iraq 
and Afghanistan, as well as to future warfighting requirements. Issues 
currently being addressed include concepts, doctrine, joint 
capabilities, requirements, and programs and span a wide range of 
initiatives relative to current and future operations.
    In addition to the Warfighter Talks, the Services have established 
the Army-Air Force Integration Forum (AAFIF) to identify and recommend 
prioritized Doctrine, Organization, Training, Materiel, Leadership and 
Education, Personnel and Facilities solutions to enable complementary 
and seamless interoperability between the two Services. The AAFIF 
targets issues to be resolved at the Air Combat Command and Training 
and Doctrine Command level. The AAFIF provides recommended solutions to 
the AAFB and, thereby, to the respective Service Headquarters Staffs, 
for review and implementation.

                         FUTURE COMBAT SYSTEMS

    4. Senator Akaka. Secretary Ford, the Army's Future Combat Systems 
(FCS), like many other DOD programs, is expected to undergo as much as 
45 percent cost growth, as highlighted by last year's Government 
Accountability Office (GAO) report. You have indicated that this may be 
an overestimation, since the figures take into account operating costs 
over the service life of the system, and that the FCS Brigades will 
cost less to operate than older brigades they replace. What factors are 
you using to calculate lower operating costs, especially considering 
the degree of technical complexity of the elements of FCS once fielded 
when compared to older systems?
    Mr. Ford. There are three factors used in the Program Manager's 
(PM) current Operations and Support (O&S) cost estimate that drive the 
projection of lower operating cost. The first is the number of military 
personnel planned for a FCS Brigade Combat Team (FBCT) as compared to a 
current Heavy Brigade Combat Team (HBCT). The second is the anticipated 
reliability of the FBCT platforms and subsystems. The third is the 
planned lower training operational tempo that is due to an embedded 
training capability. It should be noted that these benefits are 
somewhat offset by the increased hardware costs of individual 
subsystems/platforms (as compared to currently fielded systems). These 
hardware costs reflect the higher degree of complexity alluded to in 
this question. As a final point, it is noted that the PM's estimate 
does not yet reflect the anticipated benefits of other planned FCS 
capabilities that are intended to reduce support costs. These include: 
the FCS support concept (i.e., performance based logistics, brigade 
centric support), logistic support software/network products (i.e., 
Platform Soldier--Mission Readiness System, Logistics Decision Support 
System), and the reduced brigade ``footprint'' (which likely has second 
order cost benefits). Once the cost benefits of these other planned 
capabilities are quantified, it is anticipated that the operating cost 
benefit of FCS will grow larger.

    5. Senator Akaka. Secretary Ford, how will the recent decision to 
shift the focus on fielding FCS program spinout technologies from HBCTs 
to Infantry BCTs impact cost projections both now and in the future?
    Mr. Ford. The Army is reviewing the Programmed Objective Memorandum 
and upcoming decisions to determine the proper spin out of FCS 
technologies to the current force. The fielding of FCS technologies to 
the current configurations of the Infantry BCTs in fiscal year 2011 
would be less expensive than the previously planned HBCTs.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                  READINESS OF THE ARMY NATIONAL GUARD

    6. Senator Bill Nelson. Secretary Ford, if confirmed, you will be 
principally responsible for oversight of the Army's comptroller and 
financial management. The equipment goal for the Florida National 
Guard, indeed all Guard units, is at least 75 percent. The Florida 
Guard is far from that goal. If confirmed, what would be your plan to 
reset the Army and provide for the equipment needs of the National 
Guard?
    Mr. Ford. The equipping goal for all Army units is 100 percent but 
few of our units, Active or Reserve component, meet that goal unless 
deployed. The Florida Army National Guard (and for all other units) is 
either assigned to the unit, being repaired or rest, or else not yet in 
the Army inventory. The Army ensures that deploying units are properly 
equipped and trained. We must also modernize, grow, and rebalance the 
force to meet current and anticipated missions. In light of these 
initiatives, and our overall equipping posture, we have had to accept 
lower equipping levels in nondeployed units. The Army fully recognizes 
the dual mission of the Army National Guard to perform Federal and 
State missions. To this end, the Department of the Army has ensured 
that the Army National Guard has sufficient equipment necessary to meet 
the demands of those missions.
    As an example, we have made special efforts to ensure hurricane 
prone States have the equipment that they need to be prepared for each 
hurricane season. No Governor or State Adjutant General has identified 
a capability gap that precludes them from being ready to respond to an 
emergency. If such a gap is identified, we would certainly respond 
appropriately. In the fiscal year 2010-2015 Program Objective 
Memorandum, we will field most of the equipping requirements in support 
of actions to equip units to modular designs, and to grow and rebalance 
the Army. In fact, through the end of 2009, we are fielding over 
400,000 pieces of equipment to the Army National Guard, valued at over 
$17.5 billion. This represents 36 percent of all Army equipment 
distributions.
    As for resetting the Army, we are committed to resetting soldiers 
and units into a deployment ready condition as quickly as practicable 
after they have redeployed. Congressional support for continued and 
timely reset funding requirements will go a long way toward ensuring 
our ability to do this. Rapid and effective reset efforts will provide 
more equipment, in better condition, to all Army units, including the 
units of the Army National Guard.

    7. Senator Bill Nelson. Secretary Ford, how does our presence in 
Iraq impede your ability to reset the force, equip the Guard, and 
provide for emergencies here at home?
    Mr. Ford. With the support of Congress, our presence in Iraq and 
Afghanistan has not significantly impaired our ability to reset 
equipment, equip the Guard, or provide for emergencies here at home. 
These requirements are considered, prioritized, and equipment is 
distributed to meet requirements of the National Military Strategy. 
Reset--a cost of war--has been adequately resourced over the last few 
years. Continued and timely support for the reset funding associated 
with returning equipment goes a long way toward ensuring our ability to 
accomplish this responsibility rapidly and effectively. Reset provides 
more equipment to all Army units, including the Army National Guard. 
Our equipment fill across the Active and Reserve component continues to 
improve. The Army has appropriate mitigation strategies in place to 
address critical equipment needs to respond to domestic emergencies 
like disaster relief.

    8. Senator Bill Nelson. Secretary Ford, if confirmed, what would be 
your role in planning for the Future Years Defense Plan funding request 
and how would that meet the goal of getting to at least 75 percent of 
its equipment requirements?
    Mr. Ford. The Future Years Defense Plan is the Department's, and 
thus the Army's, projection of resources required to provide trained 
and ready forces to the Nation--sustaining current capabilities while 
building our future force. My role in Army leadership is to ensure a 
balance in the program to meet current and future challenges. The Army 
National Guard is an essential part of the Army's warfighting mission 
and has a critically important title 32 mission. This is part of the 
balance consideration. The Army will only deploy forces if they have 
the equipment they need to accomplish their mission. This includes 
critical civil support equipment requirements. With your continued 
support the Army can meet its warfighting equipment requirements, and 
the goal of at least 75 percent of Army National Guard equipment 
requirements.

    9. Senator Bill Nelson. Secretary Ford, the Army insists that the 
Governor and local Mayors in the State of Florida sign covenants that 
support the Guard and their families by providing adequate facilities 
and services for Guard members while they're deployed. However, while 
Guard personnel are in training at locations throughout the Nation, the 
Army refuses to support these deploying members' efforts to return home 
and visit their family members before they depart to Iraq and 
Afghanistan. Oftentimes, there are training flying missions en route to 
Florida that are available to transport Guardsmen, but the Army refuses 
to let them go. If confirmed, would you support the Army's ability to 
allow these Guardsmen to travel on training flying missions on a space 
available basis?
    Mr. Ford. First Army is mobilizing, training, and deploying tens of 
thousands of Reserve component (RC) soldiers every year (88,357 in 
fiscal year 2008 mobilized Reserve component soldiers, 2,105 units) at 
9 Active Mobilization Training Centers (MTC) throughout the continental 
United States.

         In accordance with the First Army Standard Operating 
        Procedure, mobilized Reserve component forces are authorized 
        pass or block leave prior to deployment based on the number of 
        post-mobilization days at their MTCs.
         Units that train at an MTC for less than 90-days are 
        authorized up to a 4-day pass prior to deployment.
         Units that train for 90-days or more are authorized either a 
        4-day pass or 5- to 7-day block leave prior to deployment.
         Units that train over the Christmas holiday period are 
        authorized to take leave from December 23 to January 2.

    The Reserve component deployment expeditionary force commander 
determines the dates the unit will take some, all, or none of their 
authorized post-mobilization pass or leave. This decision is codified 
in a memorandum during the unit's joint assessment in-process review 
(minimum of 180 days from the unit's mobilization date) in order for 
First Army to finalize the unit's post-mobilization deployment training 
plan. In all cases, a unit's pass and block leave activities must 
conclude not later than 24-hours prior to the unit's ready-to-load date 
for personnel.
    First Army has no control over the means (space available travel, 
Air Guard training missions; commercial air, etc.) used by soldiers or 
units to execute their post-mobilization pass or block leave and, as 
Reserve component soldiers in this situation are in a title 10 (Active 
Army) status, the individual soldier is responsible for all travel 
costs incurred while on pass or leave.

                        MODELING AND SIMULATION

    10. Senator Bill Nelson. Secretary Ford, what are your views on the 
use of modeling and simulation technologies to reduce the costs of Army 
acquisition programs?
    Mr. Ford. The Army Modeling and Simulation (M&S) strategy was 
developed to address issues and complement published Army Strategic 
Planning Guidance (ASPG) 2006-2023. The ASPG states, ``as the Army's 
institutional strategy, (ASPG) represents the Army senior leadership's 
vision of how the Army will fulfill its mission to provide necessary 
forces and capabilities to the combatant commanders in support of the 
National Security and Defense Strategies. It also communicates the 
Army's priorities for employing available resources.'' As the Army 
executes the process of re-examining and challenging basic 
institutional assumptions, organizational structures, policies, and 
procedures to better serve the Nation, M&S will play an increasingly 
important role in decisionmaking processes, doctrine, and capabilities 
development in the emerging network-enabled environment. Both Army and 
Joint Capstone Concepts provide the strategic context that will drive 
future M&S efforts in development of both materiel and institutional 
capabilities required to realize full spectrum dominance. Expectation 
of an increasingly resource constrained future requires that the Army 
leverage M&S more than ever to minimize cost and do more with fewer 
resources to make informed, fact-based decisions and provide more 
relevant and ready forces and capabilities to the Army and Joint Team.

    11. Senator Bill Nelson. Secretary Ford, how will you work to 
promote the use of these types of technologies to reduce Army test, 
training, and acquisition costs?
    Mr. Ford. I will ensure that the different communities such as 
Advance Concepts and Requirements; Research, Development and 
Acquisition; and Training Exercises and Military Operations are working 
together and integrating their M&S efforts to reduce cost but increase 
capabilities to support our soldiers in the current fight and future. 
The Army has many examples where M&S is used to reduce Army test, 
training, and acquisition costs. The testing community uses M&S to 
validate testing procedures prior to a test. For example, the testing 
community will employ live, virtual, and constructive M&S to properly 
display the capabilities and test the FCSs. Today, Army installations, 
schools, and units use training aids, devices, simulators, simulations, 
and gaming technologies to train soldiers and units for Operation 
Enduring Freedom/Operation Iraqi Freedom deployments. These M&S tools 
reduce costs and enhance live training events. For the Army acquisition 
community, it is very important to integrate M&S technology into 
acquisition functions (requirements generation, design, development, 
test and evaluation, training, manufacturing, and fielding) and 
programs. The benefits reduce process time, required resources, and 
risks associated with acquisition functions, as well as increase 
quality and supportability of fielded systems.

                      UNIVERSITY RESEARCH CENTERS

    12. Senator Bill Nelson. Secretary Ford, the Army has established a 
number of university research centers to perform basic research in 
support of Army missions. These centers have some advantages, but they 
also limit the Army's ability to invest in innovative research in a 
broad range of university programs across the Nation. How will you work 
to balance the Army's basic research portfolio so that it is not overly 
focused on a few, select university research centers?
    Mr. Ford. The Army's current and future basic research portfolio 
will not be focused on a few select university research centers. In 
fiscal year 2008, approximately 15 percent of the Army's basic research 
portfolio is executed through university centers. In fiscal year 2009, 
the percentage of the portfolio executed at university centers is 
projected to drop to approximately 13.7 percent. The remainder of the 
Army's basic research portfolio is balanced across a broad range of 
capability areas important to the Army's mission and needs and is 
executed by more than 250 research and educational institutions across 
the Nation.
                                 ______
                                 

               Questions Submitted by Senator John Warner

                          WOUNDED WARRIOR CARE

    13. Senator Warner. Secretary Ford, the Army established Warrior 
Transition Units (WTUs) to improve the care, rehabilitation, and 
disability evaluation of wounded and injured soldiers. The increasing 
number of soldiers in this status has caused staffing shortfalls at 
some locations. What are the challenges facing the WTUs at this time?
    Mr. Ford. The rapid growth of soldiers in WTUs has made it 
difficult to maintain appropriate cadre-to-soldier ratios in our WTUs. 
This growth, a result of the expanded mission of the WTUs to cover more 
soldiers, has presented the Army with a variety of challenges. These 
include:

         managing the high tempo of deploying and redeploying units 
        and the consequent growth in wounded, ill, or injured soldiers;
         keeping pace with a growing requirement for nurse case 
        managers and mental health professionals, especially in 
        locations such as Fort Hood and Fort Drum;
         providing sufficient and appropriate facilities to house, 
        manage, and support the growing population of Warriors in 
        Transition (WTs).
         executing and sustaining efficient, fair and expeditious 
        processes such as Medical and Physical Evaluation Boards 
        (PEBs);
         developing and expanding capabilities to ensure soldiers and 
        families receive the support they require to either transition 
        back to duty or to prepare for productive civilian careers, to 
        include assisting in arranging for authorized medical care and 
        benefits through the Department of Veterans Affairs.

    14. Senator Warner. Secretary Ford, if confirmed, what actions 
would you undertake to ensure that apart from the war itself, care for 
soldiers and families remains the Army's highest priority?
    Mr. Ford. While Army leadership is pleased with how far we have 
come in a short time, we need to continue our efforts to provide world-
class care for our wounded, ill, and injured soldiers. To accomplish 
this, Secretary Geren and General Casey directed the following 
enhancements to our Warrior Transition program:

         a. To allow immediate care to our wounded and severely ill or 
        injured soldiers who require comprehensive care, senior 
        commanders will ensure that WTU cadre levels meet the 
        designated ratios for warrior care. To this end, senior 
        commanders have been directed to establish a triad of 
        leadership at installations with WTUs that includes the senior 
        commander and command sergeant major, along with the commanders 
        and senior noncommissioned officers of the installation's 
        military treatment facility and WTU. This triad is empowered 
        and directed to immediately fill all remaining WTU cadre 
        positions by transferring all necessary installation personnel 
        to ensure and maintain 100 percent staffing of WTUs at levels 
        that ensure comprehensive care and support for all WTs and 
        their families.
         b. Senior commanders are further directed to evaluate the 
        effectiveness of installation execution of the Physical 
        Disability Evaluation System and provide their findings in 
        writing to the Warrior Care and Transition Office no later than 
        August 29, 2008. From these reports an action plan will be 
        developed to streamline the disability process, establish 
        achievable timeline metrics for medical evaluation board and 
        PEB processing, and minimize the time required for PEB 
        disposition by aggressively processing orders.
         c. The Army leadership has empowered the triad of leadership 
        with more options in management of our wounded, ill, and 
        injured soldiers. This includes more flexible exit criteria and 
        careful use of medically nondeployable soldiers in appropriate 
        cadre positions. We will continue efforts to eliminate the 
        stigma attached to mental health conditions and will continue 
        to embrace innovations and best practices in the treatment of 
        post-traumatic stress disorder and traumatic brain injury.
                                 ______
                                 
    [The nomination reference of Hon. Nelson M. Ford follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 22, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Nelson M. Ford, of Virginia, to be Under Secretary of the Army, 
vice Preston M. Geren.
                                 ______
                                 
    [The biographical sketch of Hon. Nelson M. Ford, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Hon. Nelson M. Ford

    Nelson Ford currently serves as both the Acting Under Secretary of 
the Army and as the Assistant Secretary of the Army for Financial 
Management and Comptroller. His previous position was Principal Deputy 
Assistant Secretary of the Army for Financial Management and 
Comptroller. From 2002 through 2004, he was Deputy Assistant Secretary 
for Health Budgets & Financial Policy in the Department of Defense, 
where he was responsible for financial management, policy development, 
and program evaluation for the Defense Health Program. Prior to 
returning to Federal service, Mr. Ford held senior management positions 
in academic medicine, medical manufacturing, and health insurance. From 
1997 to 2000, he was President and CEO of Clinipad, a manufacturer of 
disposable medical products. During the 1990s, he was Chief Operating 
Officer of Georgetown University Medical Center, with responsibility 
for Georgetown Hospital and financial oversight of faculty practice 
plans, research activities and the medical and nursing schools. Earlier 
in his career, Mr. Ford was a partner with Coopers & Lybrand, providing 
strategic and financial consulting services to a wide range of health 
care clients. During the 1970s, he was the Executive Secretary of the 
Health Care Financing Administration and worked on health policy 
matters in the Office of Management and Budget. He has served on many 
not-for-profit boards and advisory committees. Mr. Ford holds a 
bachelor's degree in history from Duke University, a master's in 
education from the University of Delaware, and has completed additional 
professional training at the University of Pennsylvania. He lives in 
McLean, VA, with his wife Cecilia. They have three grown children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Nelson M. 
Ford in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Nelson McCain Ford.

    2. Position to which nominated:
    Under Secretary of the Army.

    3. Date of nomination:
    January 22, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 3, 1947; Wilmington, DE.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cecilia Sparks Ford (Maiden Name: Sparks).

    7. Names and ages of children:
    Aven Walker Ford, 29; Alexander Sparks Ford, 26; and Mary Bartlett 
Ford; 20.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Alexis I DuPont HS (9/1959-6/1965) HS Diploma, June 1965
    Duke University (9/1965-6/1969) B.A., June 1969
    University of Delaware (1/1971-6/1972) M.Ed, January 1973
    University of Pennsylvania (9/1975-6/1977) no degree

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Acting Under Secretary of the Army, 12/2007-present.
    Assistant Secretary of the Army (FM&C), Department of Army, 
Pentagon 10/2006-present
    Principal Deputy Assistant Secretary of the Army (FM&C), Department 
of the Army, Pentagon, 6/2005-10/2006.
    Director-Senior Products, Humana, Washington, DC, 9/2004-6/2005.
    Deputy Assistant Secretary of Defense-Health Affairs (HB&FP), Falls 
Church VA, 1/2002-9/2004.
    Executive Vice President-Finance and Strategy, GMI Networks Inc., 
Vienna VA, 9/2000-3/2001.
    President & CEO, Clinipad Corporation, Rocky Hill CT, 10/1997-3/
2000.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    President, American Society of Military Comptrollers.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Washington Golf and Country Club, member.
    George Washington University, Adjunct Associate Professor.
    American Society of Military Comptrollers, member.
    AcademyHealth, member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Republican Party, member.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Secretary of Defense Medal for Outstanding Civilian Service
    USOE Fellowship

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Article - ``Transforming Resource Management to Support an Army at 
War'' The Public Manager LMI Research Institute Winter 2007-2008, 
Volume 36, Number 4 (A slightly modified version of this article will 
appear in Resource Management)
    Article - ``Challenge and Change in Army Financial Management'' The 
AUSA 2007-2008 Green Book Association of the U.S. Army October 2007.
    Article - ``Army Resourcing: Recent Experiences and the Near-Term 
Future'' Resource Management U.S. Army Second Quarter 2007.
    I was listed as a co-author on two HEW publications on the cost of 
educating handicapped children in the early 1970s but do not remember 
their titles.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Nelson M. Ford.
    This 29th day of January, 2008.

    [The nomination of Hon. Nelson M. Ford was reported to the 
Senate by Chairman Levin on June 26, 2008, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2008.]
                              ----------                              

    [Prepared questions submitted to Joseph A. Benkert by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as: strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense (DOD).
    Do you agree with these goals?
    Answer. Yes, I agree with these goals.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. No, I do not see any need to modify the Goldwater-Nichols 
Act.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Global Security Affairs (ASD/
GSA)?
    Answer. The ASD/GSA is a new position, created to centralize DOD's 
policy apparatus for dealing with global threats and the tools we have 
to address those threats. In this capacity, the ASD/GSA is the 
principal advisor to the Under Secretary of Defense for Policy and the 
Secretary of Defense for development and execution of strategies, 
policies and procedures on the following matters: building partner 
nations' capacity to maintain security and stability; overseeing 
security cooperation and foreign military sales programs; countering 
transnational threats including narcotics and weapons of mass 
destruction (WMD) proliferation and related networks of contraband; 
security of U.S. technology; maintenance of coalitions in support of 
multinational operations; policies for humanitarian and disaster 
assistance; recovery of U.S. personnel and prisoners of war (POW)/
missing-in-action (MIA) issues; and detainee affairs.
    Question. Assuming you are confirmed, what duties and functions do 
you anticipate that Secretary Gates would prescribe for you?
    Answer. If confirmed, I anticipate that the Secretary would direct 
me to manage the Global Security Affairs (GSA) organization, including 
the day-to-day tasks associated with the duties noted in my response to 
the previous question. He would likely ask that I provide him and the 
Under Secretary for Policy with policy recommendations on issues within 
my area of responsibility, and that I monitor and provide policy advice 
on operations with these areas. I would also expect the Secretary to 
ask that I represent him and the Under Secretary for Policy in the 
interagency policy deliberations and international negotiations dealing 
with my assigned areas of responsibility
    Question. What impact has the reorganization of the Office of the 
Under Secretary of Defense for Policy had on the functions and duties 
of the ASD/GSA? What challenges has the reorganization created for 
carrying out those functions and duties, and if confirmed, what steps 
would you take to address those challenges?
    Answer. The reorganization of the Office of the Under Secretary of 
Defense for Policy created the office of the Assistant Secretary for 
Global Security Affairs. The functions of this new organization were 
performed previously by disparate elements of the Policy Organization. 
The purpose of creating ASD/GSA was to place under a central management 
structure the policy specialists who address many types of global 
threats--for example, counternarcotics, proliferation and detainees, 
and the policy tools to address those threats. These tools include the 
security assistance and building-partnership capacity programs 
implemented by the Defense Security Cooperation Agency, the personnel 
recovery and accountability activities of the Defense POW/MIA 
Organization, and the technology security activities of the Defense 
Technology Security Administration. This Defense Agency and two Defense 
Field Activities, respectively, were also realigned under the new ASD/
GSA as part of the reorganization.
    Centralization of DOD's policymakers who work on global issues has 
broken old stovepipes of information and permitted better 
synchronization of DOD policies and activities. For example, we are 
better able to coordinate building partnership activities with the work 
of counternarcotics and combating WMD programs by having all of these 
activities report to a single Assistant Secretary. The span of 
responsibilities for this new organization is admittedly broad. If 
confirmed, one step that I will take to mitigate this factor is to seek 
to ensure that all key leadership positions in the organization are 
filled.

                             RELATIONSHIPS

    Question. What do you see as the relationship between the ASD/GSA 
and each of the following?
    The Secretary of Defense
    The Deputy Secretary of Defense
    The Under Secretary of Defense for Intelligence
    The Under Secretary of Defense for Policy
    The Principal Deputy Under Secretary of Defense for Policy
    The Chairman of the Joint Chiefs of Staff
    The Secretaries of the Military Departments
    The Chiefs of Staff of the Services
    The Combatant Commanders
    The Assistant Secretary of Defense for International Security 
Affairs
    The Assistant Secretary of Defense for Asian and Pacific Security 
Affairs
    The Assistant Secretary of Defense for Special Operations/Low 
Intensity Conflict and Interdependent Capabilities
    The Assistant to the Secretary of Defense for Nuclear and Chemical 
and Biological Defense Programs
    Director, Defense Security Cooperation Agency
    Director, Defense Technology Security Administration
    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I will work closely with the Principal Deputy Under Secretary 
of Defense for Policy. I expect to develop and maintain close working 
relationships with the Under Secretaries and Assistant Secretaries 
across the Department, the General Counsel of DOD, the Secretaries of 
the Military Departments, the Chairman and Vice Chairman of the Joint 
Chiefs of Staff, and with combatant commanders. I would expect to 
maintain a close relationship on programs related to combating WMD with 
the Assistant to the Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs; the Director of the Defense Security 
Cooperation Agency; the Defense POW/MIA Office; and the Director of the 
Defense Technology Security Administration and with the Assistant 
Secretary for Global Security Affairs.
    The position requires close coordination with the other Assistant 
Secretaries of Defense within the Office of the Secretary of Defense 
(OSD) Policy, as appropriate. Examples of this coordination would 
include working with the Assistant Secretaries for International 
Security Affairs, Asian and Pacific Security Affairs, and Homeland 
Defense and Americas Security in their areas of responsibility to 
synchronize building partnership capacity activities and countering 
global threats; and working with the Assistant Secretary for Special 
Operations/Low Intensity Conflict and Interdependent Capabilities on 
combating WMD terrorism.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that I am qualified for this position, if 
confirmed, by virtue of leadership experience in a broad range of 
organizations responsible for national security policy, program 
formulation and implementation; and a broad base of substantive 
knowledge regarding U.S. national security priorities and issues.
    I have served as the Principal Deputy ASD/GSA since December 2006, 
when the organization was established. I managed the establishment of 
the organization and its day-to-day affairs, and in the absence of a 
duly appointed and confirmed Assistant Secretary, have performed many 
of the non-statutory duties of the Assistant Secretary. I believe that 
I am well versed in GSA's issues and in the requirements to lead the 
organization.
    Since 2003, I have served in the Department in several civilian 
leadership positions. I assisted in establishing the Coalition 
Provisional Authority's (CPA) Washington organization and served as its 
Deputy and Chief of Staff. Upon the CPA's dissolution, I led the 
standup of a follow-on organization to support the Department's role in 
Iraq reconstruction and stabilization programs and activities. Prior to 
my current position, I served as the acting Principal Deputy Assistant 
Secretary of Defense for International Security Affairs.
    In my current and previous positions, I have testified before 
Congress on issues under my responsibility, and have established 
effective working relationships with DOD and interagency counterparts.
    Prior to my civilian service, I was a career Navy officer with 
leadership experience in command at sea and in Washington. As a naval 
officer, I had over 3 years of experience in the OSD Policy 
organization as a senior military assistant and as the Director of 
European Policy. I also served earlier in my career as a legislative 
liaison officer for the Department of the Navy, which I believe has 
facilitated working with Congress since then.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the ASD/GSA?
    Answer. If confirmed, I expect to be confronted with at least four 
primary challenges during my tenure. First, the office of GSA needs to 
consolidate and institutionalize the ``toolkit'' of programmatic and 
related options available for advancing the Department's strategy of 
building partner capacity. Second, we will need continued focus on 
preventing the proliferation of WMD, and in particular the connections 
between the combating WMD and counterterrorism missions. Third, we need 
to continue to focus on transition paths for current detainee 
operations at Guantanamo Bay, in Iraq, and Afghanistan. Finally, I 
believe we can drive improvements in our understanding of how various 
networks of transnational threats might intersect or converge, and how 
to address these threats to U.S. national security.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will continue the work I have begun while 
Principal Deputy Assistant Secretary with respect to rationalizing 
processes for security cooperation development. Our system is currently 
not as flexible as it should be for post-September 11 challenges and we 
can use the GSA structure to improve. I also believe we need to 
continue to develop new processes to ensure better integration within 
DOD of the combating WMD and counterterrorism missions. With respect to 
the challenge of ``networked threats,'' we are truly in a learning 
mode. We have been working with various policy and intelligence 
elements of the Department to help define this new mission space, and 
GSA will host a conference along with the National Counterproliferation 
Center and the Monterrey Institute this autumn to broaden participation 
in this effort.

                       BUILDING PARTNER CAPACITY

    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations. These include the global train and equip authority (``section 
1206'') and the security and stabilization assistance authority 
(``section 1207'').
    What are DOD's strategic objectives in building the capacities of 
partner nations?
    Answer. The Department's objectives for building partner capacity 
are tied to our broader regional and functional objectives for each of 
the regional and functional combatant commands as prescribed by the 
National Defense Strategy and the Guidance for Employment of the Force. 
Our intention is to build a network of like-minded, capable security 
partners who face mutual security threats and can operate alongside, or 
in lieu of, U.S. forces to combat these threats. Because U.S. forces 
and resources are finite, and given the nature of the threats we face, 
it is essential that we work to build partner capabilities to 
effectively counter evolving security threats.
    DOD guidance documents, strategies, and operational and contingency 
planning now reflect the reality that providing security must be a 
cooperative endeavor conducted by, through, and with our partners. As 
Secretary Gates made clear in testimony before the House Armed Services 
Committee, ``building partner capacity is a vital and enduring military 
requirement--irrespective of the capacity of other departments--and its 
authorities and funding mechanisms should reflect that reality. DOD 
would no more outsource this substantial and costly security 
requirement to a civilian agency than it would any other key military 
mission.''
    Question. What is your understanding of the purpose of the global 
train and equip authority, and what is your assessment of the 
implementation of the global train and equip program?
    Answer. I believe the global train and equip authority, commonly 
known as ``section 1206'' authority, is an important new tool for 
building partner-nation operational capacity. By law, the purpose of 
the global train and equip authority is two-fold. Any program conducted 
under this authority must build the capacity of partner nation security 
forces to either: (1) conduct counterterrorist operations, or (2) 
participate in or support military and stability operations where U.S. 
forces are a participant. For either purpose, DOD's focus is the same: 
build operational capacity that meets U.S.-identified partner 
capability gaps that, if filled, may reduce near-term stress on U.S. 
forces and the long-term risk of U.S. military intervention, as 
partners increasingly address threats within their borders and become 
security exporters.
    My assessment is that ``section 1206'' has a solid implementation 
track record. Although the program is only in its second full fiscal 
year of implementation, it is in many ways already a model of 
interagency cooperation. The program requires both State and DOD to 
formally approve each proposal, both in the field and in Washington, 
DC. The approach recognizes DOD's core military requirement for 
operational partners, while simultaneously recognizing the State 
Department's core competency in ensuring that all actions are in accord 
with U.S. foreign policy, international agreements, human rights 
vetting, and other legal requirements. There has been an enthusiastic 
response from embassies and combatant commands, culminating in program 
requests. I thank the committee for extending and expanding this 
authority in its draft National Defense Authorization Act for Fiscal 
Year 2009, and will work to ensure our processes and guidance fully 
reflect congressional intent.
    Question. What is the relationship of the global train and equip 
authority to other security assistance authorities, such as 
counternarcotics assistance and foreign military financing? What should 
be done to ensure that the global train and equip authority does not 
duplicate the efforts of these other assistance programs?
    Answer. The Global Train and Equip authority, as noted previously, 
fills two very specific requirements to build capacity to counter 
terrorism and instability. These purposes can complement other DOD and 
U.S. Government authorities, but also serve discrete needs apart from 
them.
    DOD counternarcotics authorities allow DOD to support U.S. 
Government efforts to counter the flow of narcotics globally. While 
some regions of the world--notably Latin America and southwest Asia--
face significant counternarcotics challenges, the threat of terrorism 
exists there as well, and terrorists seek to exploit many of the same 
gaps used by those who seek to smuggle drugs across our borders. 1206 
is deliberately designed to build capacity to meet such transnational 
threats early, before they metastasize into more significant problems.
    I strongly support congressional desire to keep these programs 
separate and distinct, using them only for their legislatively-directed 
purposes. The best way to ensure 1206 programs meet defined 
counterterrorism or stability operations needs is to tie them directly 
to objectives established in the Department's planning guidance. In my 
current capacity as Principal Deputy Assistant Secretary of Defense, I 
have tasked my staff to review 1206 and counternarcotics proposals 
together to identify potential overlap in individual programs, and to 
ensure 1206 guidance reflects that projects are only appropriate when 
the proposal's primary mission is counterterrorism or stability 
operations, not to backfill lower priority counternarcotics needs. 
Proposals are deconflicted by individual country teams, which must 
follow 1206 guidance that requires deconfliction with foreign military 
financing (FMF). Once submitted, this deconfliction is validated by 
Department of State.
    Question. What is your understanding of the purpose of the security 
and stabilization assistance authority (``Section 1207'')? What is your 
assessment of how this authority has been utilized?
    Answer. I believe that 1207 fills an urgent gap in the State 
Department's ability to provide stabilization and reconstruction 
assistance. Secretary Gates made clear in his testimony before the 
House Armed Services Committee the Department's view of the purpose of 
``Section 1207'' authority: bringing civilian resources to bear in 
complex security environments where their expertise is needed. In his 
words: ``A touchstone for the Defense Department is that 1207 should be 
for civilian support for the military--either by bringing civilians to 
serve with our military forces or in lieu of them.''
    In my view, the 1207 authority's utility has been growing. We have 
made progress in improving the coordination with the State Department 
and Congress, importing several 1206 implementation ``best practices'' 
that have proven themselves valuable. Program quality and execution 
have improved. Since its inception, improved DOD and State coordination 
has led to the identification of more programs that met the 
legislation's intent, and in fiscal year 2007, State and DOD ultimately 
approved programs totaling virtually all of the authority. It is likely 
that the full authority will again be used in fiscal year 2008.
    Question. What is the process by which DOD reviews requests from 
the Department of State for security and stabilization assistance 
funding?
    Answer. Section 1207 projects must originate in the field, and 
require formal concurrence from both the relevant Chief of Mission and 
Combatant Commander. Once finalized in the field, DOD, State, and U.S. 
Agency for International Development (USAID) review projects 
simultaneously.
    Question. Secretary Gates has called for an expansion of the 
Government's resources devoted to instruments of non-military ``soft 
power''--civilian expertise in reconstruction, development, and 
governance.
    If confirmed, what actions would you take to expand the 
Government's resources devoted to the ability of civilian departments 
and agencies to engage, assist, and communicate with partner nations?
    Answer. Advancing Secretary Gates' efforts to expand ``soft power'' 
tools is a key element of the ASD/GSA's mission. If confirmed, I would 
continue to advance this agenda, including:

          (1) Continued focus on the utilization of ``Section 1207'' 
        security and stabilization assistance authority;
          (2) Continued advocacy for increases to State and USAID's 
        topline, as well as support for State's Civilian Stabilization 
        Initiative;
          (3) Overseeing the implementation of the congressionally-
        mandated study of the National Security Interagency System, the 
        Interagency elements of the Congressionally-Mandated 
        Quadrennial Roles and Missions Review, and advising the 
        Secretary of Defense and Under Secretary of Defense for Policy 
        on additional interagency initiatives or requirements;
          (4) Seeking additional ways that DOD can effectively support 
        U.S. Government initiatives led by civilian agencies, including 
        counternarcotics, public diplomacy, security sector reform, 
        humanitarian assistance and disaster response; and
          I would add, however, that only Congress has the authority to 
        significantly expand the Government's resources devoted to 
        instruments of non-military ``soft power'' and civilian agency 
        capacity to engage, assist, and communicate with our partners. 
        If confirmed, I stand ready to work with you on legislative 
        initiatives to address this challenge.

    Question. In your view, what should be the role of DOD, vis-a-vis 
other civilian departments and agencies of the Government, in the 
exercise of instruments of soft power?
    Answer. As Secretary Gates said during his Landon Lecture at Kansas 
State University last November, ``if we are to meet the myriad 
challenges around the world in the coming decades, this country must 
strengthen other important elements of national power both 
institutionally and financially, and create the capability to integrate 
and apply all of the elements of national power to problems and 
challenges abroad.'' The threats we face today require that we 
strengthen our capacity to use ``soft'' power and to better integrate 
it with ``hard'' power.
    An essential element of DOD's role vis-a-vis other agencies in the 
exercise of the instruments of soft power is that the department remain 
supportive of those agencies with appropriate statutory authority and 
core competencies in foreign policy (State), development and 
humanitarian response (USAID). For example, we are working closely with 
State and other agencies to provide assistance as available and 
appropriate in support of the national security strategy. Such 
involvement may include providing logistical support and expertise to 
State/USAID leadership in response to a natural disaster or 
humanitarian crisis. We are working closely with State and other 
agencies to promote multiagency coordination and cooperation to develop 
more comprehensive approaches to problems before they become crises.
    Question. In your view, which department should have the lead in 
setting U.S. Government security assistance policy?
    Answer. The State Department has had and should retain the lead in 
setting U.S. Government security assistance policy. In developing 
processes for new tools like section 1206, and reforming processes for 
traditional tools like FMF, both Departments have taken additional 
steps to enhance collaboration and jointly formulate plans and 
programs, while fully respecting the State Department's primacy in 
security assistance.

                      GLOBAL AND EMERGING THREATS

    Question. The position of ASD/GSA includes responsibilities for 
formulating strategy and policy for countering global threats and 
emerging threats.
    What are the global and emerging threats that you believe pose the 
most significant challenge to our security, and what approach would you 
take, if confirmed, to address these threats?
    Answer. For the foreseeable future, I believe that our Nation will 
face an environment defined by a global struggle against a violent 
extremist ideology that seeks to overturn the international state 
system. Violent extremist movements such as al Qaeda and its associates 
reject the rules and structures of the international system. Their 
adherents reject state sovereignty, ignore borders, and attempt to deny 
self-determination and human dignity wherever they gain power. These 
extremists opportunistically exploit respect for these norms for their 
own purposes, hiding behind international norms and national laws when 
it suits them, and attempting to subvert them when it does not.
    Armed sub-national groups, including but not limited to violent 
extremists and international criminal networks frequently exploit local 
geographical, political, or social conditions to establish safe havens 
from which they can operate with impunity. Ungoverned, under-governed, 
misgoverned, and contested areas offer fertile ground for such groups 
to exploit the gaps in governance capacity of local regimes to 
undermine local stability and regional security. If left unchecked, 
such instability can spread and threaten the stability and legitimacy 
of key states.
    A particular concern in this environment is the potential for 
proliferation of WMD (chemical, biological, radiological, and nuclear). 
WMD in the possession of hostile states and terrorists represent one of 
the greatest security challenges facing the United States.
    Addressing the problem will require effective international 
partnerships and cooperation, and creative approaches to prevent 
proliferation and deny armed subnational groups the opportunity to gain 
footholds in ungoverned spaces.
    Question. How do you believe we can most effectively reduce or 
minimize proliferation of the technology for WMD and their means of 
delivery?
    Answer. To reduce or minimize proliferation of WMD and their means 
of delivery, overlapping multilateral and national tools are the most 
effective approach. This is not a threat that can be solved by any one 
country or process alone. The treaties on WMD (Nuclear Proliferation 
Treaty (NPT), Chemical Weapons Convention (CWC), Biological Weapons 
Convention (BWC)) provide the legal underpinnings of preventing the 
proliferation of WMD. In conjunction with this legal basis, the export 
control regimes (Nuclear Suppliers Group, Australia Group for Chemical 
Weapons and Biological Weapons technologies, and the Missile Technology 
Control Regime) provide a common basis for countries to work together. 
To stop WMD/missile-related shipments (whether to state actors or non-
state actors), over 90 countries are working together through the 
Proliferation Security Initiative to interdict such threatening 
movements of dual-use goods before they get to proliferators. The U.N. 
Security Council has addressed the problem through resolution 1540, 
which requires all countries to take steps against WMD/missile 
proliferation, to include export control laws in these areas. In 
addition, to specifically address the Iranian and North Korean threats, 
the U.N. Security Council has adopted resolutions 1718, 1737, 1747, and 
1803. To stop the financial aspects of WMD/missile proliferation, the 
President has implemented Executive Order 12938.
    Question. Improvised Explosive Devices (IEDs) have been described 
by Lieutenant General Metz, Director of the Joint IED Defeat 
Organization (JIEDDO), as a strategic weapon and one that we should 
expect to see in future wars. The United States has already seen IEDs 
proliferate from Iraq to Afghanistan, and there are reports about IEDs 
being used against Ethiopian forces in Somalia.
    What do you believe the Department should do to counter the spread 
of IED technology?
    Answer. The Department's JIEDDO continues to develop new, 
innovative ways to rapidly find, develop, and deliver emerging 
capabilities to counter IEDs and the transnational networks that 
facilitate the funding and building of IEDs. The Department is also 
focusing on operational initiatives that disrupt IED networks, 
including tracking financiers, trainers and the supporting 
infrastructure.
    I believe that limiting the availability of components, and 
effective policing action to find the terrorist cells before they act, 
are the most effective measures against Improvised Explosive Devices 
(IEDs). Limiting the availability of components, through export 
controls and other means, is however difficult. For example, terrorists 
can pick and choose from a large variety of fusing mechanisms, which 
can range from very simple such as a hand held switch or a pressure 
plate switch to more sophisticated methods such as cellular telephones 
or other commercially available communications devices.

                 COMBATANT COMMANDS AND THE INTERAGENCY

    Question. If confirmed, you will play an important role in 
developing interagency coordination with DOD. Two of the Department's 
geographic combatant commands--U.S. Africa Command and U.S. Southern 
Command--are in the process of developing and implementing an 
interagency model that incorporates into their respective command 
structures personnel from other agencies of government. Both commanders 
have touted this interagency approach as a model for the future.
    What is your opinion of these new interagency models for these two 
combatant commands?
    Answer. Both of these efforts are evolutionary in nature. We are 
working closely with the State Department to develop new structures in 
an attempt to deal with new threats and challenges. The goal is to 
promote interagency coordination in such a way that we can better 
prevent rather than simply react to problems before crises, and crises 
before they become catastrophes.
    Question. Do you believe the other agencies of government, 
particularly the U.S. Department of State and USAID, will be able to 
provide adequate support for these interagency commands?
    Answer. We continue to work with both State and USAID in meeting 
the evolving staffing requirements. The intent of this approach is to 
achieve a level of State and USAID participation so that the commands 
can better support State's lead in foreign policy and USAID's lead in 
development. The intended purpose is for improved interagency 
cooperation and coordination that remains supportive of the statutory 
lead roles as well as core competencies of both State and USAID.
 strategic framework agreement and status of forces agreement with iraq
    Question. What is the role of the ASD/GSA, if any, in the 
negotiations of a Strategic Framework Agreement and a status of forces 
agreement with Iraq?
    Answer. The Office of the Assistant Secretary for Global Security 
Affairs does not have a direct role in the negotiations of a Strategic 
Framework or the status of forces agreement with Iraq. We review and 
provide suggestions regarding specific aspects of the negotiations that 
relate to matters under the authority of the ASD/GSA.
    Question. What is your understanding of the basic authorities that 
the United States is seeking as part of these agreements, absent which 
we would not sign the agreements?
    Answer. GSA does not have a direct role in the negotiations; nor 
were we part of the interagency discussions developing U.S. negotiating 
strategies.

                        COALITION SUPPORT FUNDS

    Question. Since 2001, DOD has provided billions of dollars in 
Coalition Support Fund payments to reimburse key partner nations for 
support provided to U.S. military operations in Operation Enduring 
Freedom and Operation Iraqi Freedom.
    What is the role of the ASD/GSA, if any, in overseeing the use of 
Coalition Support Funds?
    Answer. The Office of the Under Secretary of Defense (Comptroller) 
and the applicable combatant commander have primary responsibility for 
administering Coalition Support Funds activities. The role of ASD/GSA 
is to assist in resolving issues when necessary.
    Question. What is your assessment of the process for reviewing 
claims presented for reimbursement of Coalition Support Funds? What 
steps, if any, would you recommend for improving this process?
    Answer. My assessment of the process for reviewing claims presented 
for reimbursement of Coalition Support Funds is that it appears to work 
reasonably well. I understand that timely submission of requests for 
reimbursement of Coalition Support Funds is a factor, but the 
responsibility of our coalition partners.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. Do you support accession by the United States to the 
United Nations Convention on the Law of the Sea?
    Answer. Yes, I support the United States' accession to the Law of 
the Sea Convention.
    Question. In your view, would ratification of this convention be in 
the national security interest of the United States?
    Answer. Joining the Convention will give the United States a seat 
at the table when rights vital to our national interests are debated 
and interpreted, and will serve the national security interests of the 
United States, including the maritime mobility of our Armed Forces 
worldwide. The navigation and overflight rights and high seas freedoms 
codified in the Convention are essential for the global mobility of our 
Armed Forces and the sustainment of our combat forces overseas. As the 
world's foremost maritime power, our security interests are 
intrinsically linked to freedom of navigation. America has more to gain 
from legal certainty and public order in the world's oceans than any 
other country. By joining the Convention, we provide the firmest 
possible legal foundation for the rights and freedoms needed to project 
power, reassure friends and deter adversaries, respond to crises, 
sustain combat forces in the field, and secure sea and air lines of 
communication that underpin international trade and our own economic 
prosperity.

                    UNITED NATIONS MISSION IN DARFUR

    Question. The United Nations Mission in Darfur (UNAMID) is 
suffering from a variety of equipment shortfalls, which have 
essentially made it impossible to deploy additional peacekeepers to 
this region. Some have argued that DOD, despite the demands in Iraq and 
Afghanistan, ought to provide the helicopters, trucks, and lift needed 
to make this mission a success.
    In your view, what is the appropriate role for DOD in supporting 
U.N. peacekeeping missions?
    Answer. The U.S. Government is the largest contributor of financial 
resources to U.N. peacekeeping missions in general and to Darfur in 
particular. DOD has over 30 U.S. military personnel assigned to 
multiple peacekeeping missions. In partnership with the State 
Department, DOD provides training, financial resources and, when 
required, lift to countries contributing troops in Darfur and other 
U.N. peacekeeping missions. In my view, current DOD involvement in 
supporting U.N. peacekeeping missions is consonant with U.S. interests 
in those missions.
    Question. Would you support DOD providing a greater level of 
support to U.N. peacekeeping missions and specifically to the mission 
in Darfur?
    Answer. DOD recently approved assignment of eight U.S. military 
personnel to serve in Darfur. The Department is in the process of 
adding DOD staff officers to the U.N. Assistance Mission to Iraq and to 
the mission in Chad and the Central African Republic. I would support a 
comprehensive review of U.S. military personnel deployed to U.N. 
peacekeeping missions to ensure appropriate distribution and 
representation.
    In partnership with the State Department and other U.S. Government 
agencies, DOD has been actively involved in efforts to identify 
countries with the capacity to fill critical UNAMID shortfalls such as 
helicopters and other enabling capabilities. We are making progress 
with particular countries such as Jordan, Bangladesh, Sri Lanka, and 
Ethiopia. We are currently researching the availability of financial 
resources to assist these and perhaps other countries in their efforts 
to meet U.N. specifications.
    Question. Would you support NATO providing a greater level of 
support to the U.N. mission in Darfur?
    Answer. Secretary Gates has made clear his position that 
Afghanistan must remain a top NATO priority. There have been 
substantial challenges meeting operational requirements in Afghanistan. 
I would not advocate any NATO involvement in Darfur that might 
jeopardize the Alliance's capacity to fully support operations in 
Afghanistan. Additionally, the U.N. mission in Darfur was conceived as 
an African Union--United Nations hybrid operation. The Government of 
Sudan (GoS) agreed to the presence of a U.N. mission on its soil with 
the understanding that it would consist primarily of African forces, 
and has consistently obstructed the involvement of non-African and 
particularly Western countries. I would support specific UNAMID 
contributions from NATO and Partnership for Peace countries that did 
not conflict with priorities in Afghanistan.

                  GLOBAL FORCE POSTURE AND MANAGEMENT

Relocation of Forces to Guam
    Question. What is your assessment of the implementation to date of 
the agreement between the United States and the Government of Japan to 
relocate a substantial portion of our Marine forces from Okinawa to 
Guam, and what is your assessment of the prospects for the ultimate 
success or failure of this effort? What do you see as the major 
obstacles to the full implementation of this agreement?
    Answer. The U.S. and the Government of Japan are committed to 
implementing the Realignment Roadmap for force posture changes in the 
Pacific as negotiated. The Roadmap addresses both the realignments from 
Okinawa to Guam and an interconnected set of realignments of U.S. 
forces within Japan.
    Both sides have done extensive planning for these relocations, 
including initiation of the required environmental impact analysis on 
Guam. DOD is working with our interagency colleagues on ways to improve 
Guam's capacity to absorb the volume of construction the program 
envisions. The Realignment Roadmap makes the Guam relocation contingent 
upon the Government of Japan successfully relocating Marine Corps Air 
Station Futenma within Okinawa prefecture to a new facility adjacent to 
Camp Schwab. To that end, the Government of Japan has initiated an 
environmental impact study for that.
    The Government of Japan is currently building its next budget 
(April 2009-March 2010), and we are in discussions with the Government 
of Japan regarding the Guam construction programs that budget would 
cover as part of Japan's $6.09 billion total commitment for the Guam 
relocation. Overall, both governments remain committed to this complex 
effort and the prospects for success remain good.
Headquarters for Africa Command
    Question. It appears that few nations in Africa are eager to see a 
permanent U.S. military presence on their soil. In the near term, the 
Department is establishing a headquarters for the Africa Command in 
Stuttgart, Germany.
    Do you believe an Africa Command is viable over the long run if we 
cannot reach an agreement with a host nation in Africa to establish a 
headquarters for that command on the African continent?
    Answer. Viability of the new command is not necessarily determined 
by location; there are examples of unified command headquarters located 
both within and outside of the regions for which they are responsible. 
At present DOD has opted to put aside the issue of a location for an 
on-continent HQ while it conducts an analysis of the logistical and 
personnel footprint required to support the new command.
Control of Special Operations Forces
    Question. There has been disagreement among senior military leaders 
in recent years about whether Special Operations Forces (SOFs) should 
be a globally managed force that is largely based in the United States 
under the control of the Special Operations Command, or whether some 
portion of these forces should be stationed in, and under the control 
of, regional combatant commands.
    What are your views on this matter? What do you believe maximizes 
our military capability and builds the best relationships with partner 
nations?
    Answer. Under DOD's Global Force Management (GFM) system, SOF are a 
globally managed force. Under this system, SOCOM manages the deployment 
of its forces around the world, regardless of their source location. 
SOF units with a particular regional focus are routinely deployed to 
operate with or train partner nation units in theater. Once in theater, 
they are employed under the command of the unified combatant commander 
in whose geographic area the activity or mission is to be conducted. 
This system gives DOD the strategic flexibility to use such units for 
other operational assignments outside of their primary area of 
responsibility--as is the case of the situation in Iraq today.
    The majority of SOF units are based in the U.S. SOF units stationed 
overseas are assigned to the Geographic Combatant Commanders, but are 
also globally available under the GFM system. This overall arrangement 
for managing SOF provides the Department with the ability to allocate 
capability against the full range of demands, and sustain the necessary 
partnerships to conduct special operations globally.
``Permanent'' Bases
    Question. In a written response to a question for the record in 
connection with your testimony before the Readiness and Management 
Support Subcommittee last year, you provided a definition of 
``permanent'' versus ``enduring'' bases.
    Would you agree that your response indicates the difference between 
the two is not a function of the length of time that United States 
forces maintain a presence at the installation in question, but rather 
depends on how robust that United States presence is, such as whether 
forces are permanently stationed or only assigned to that location on a 
rotational basis, or whether such tours are accompanied and the 
installation provides the family support facilities necessary to 
support accompanied tours?
    Answer. ``Enduring'' is a term often used to describe a location 
where the U.S. intends to develop and sustain a longstanding host-
nation relationship and from which DOD expects there to be long-term 
demand to support critical missions. ``Permanency'' is generally a 
function of the nature of the footprint at a location--e.g., we tend to 
describe as ``permanent'' those locations with permanently assigned 
forces, substantial infrastructure, and dependents and family support 
facilities. In that sense, ``permanent'' generally would mean a very 
robust presence. It is often the case that locations described as 
``permanent'' are also considered ``enduring'' in terms of host-nation 
relationship and mission needs.
    Question. Does DOD use the term ``permanent bases'' in its internal 
decisionmaking processes? If so, what meaning does that term have 
inside DOD?
    Answer. DOD uses a three-tiered lexicon for facility types: Main 
Operating Bases, Forward Operating Sites, and Cooperative Security 
Locations. How specific locations are designated using this lexicon is 
a function of the nature of the host-nation relationship, the 
activities and missions the location supports, and the physical 
footprint at a location.
Enduring Presence at Baumholder, Germany
    Question. The Department recently decided to maintain our base at 
Baumholder, Germany, as an ``enduring'' base in support of our global 
strategy and of U.S. Army forces in Europe.
    What units does the Department envision retaining at Baumholder, 
and how would the training areas at Baumholder be used by such forces 
or by other U.S. forces stationed in, or rotating through, Europe?
    Answer. Support units, or ``enablers'' (e.g., military police and 
sustainment units), will likely be the predominant force presence at 
Baumholder over the long-term. EUCOM and its Army component are 
finalizing plans that identify the types of units to be stationed there 
and the nature of training activities to be conducted.
    Question. In your opinion, is the change in the status of the 
Baumholder indicative of a larger reassessment of the ground force 
posture in Europe?
    Answer. No. Since 2004 when the initial footprint requirements for 
a military presence in Germany were identified, the Department has 
determined that it would not have enough basing capacity in Germany to 
meet its needs if Baumholder were closed. Estimates of future footprint 
capacity needs are based upon emerging force structure changes (based 
on the new modular Army brigades), the need for additional support 
units, and evolved infrastructure requirements tied to supporting these 
other changes.
    Question. Does this change signal a departure from the Integrated 
Global Posture and Basing Strategy announced by the President in August 
2004?
    Answer. No.
Change in Status of U.S. Forces in the Republic of Korea
    Question. The Commander, U.S. Forces, Korea, has advocated for the 
authorization to increase the number of, and length of accompanied 
tours for U.S. military personnel stationed in Korea in order to 
provide a more stable U.S. military presence on the peninsula.
    In your view, what are the costs and benefits to this request?
    Answer. As Secretary Gates stated recently, DOD is interested in 
pursing the approach of extended, accompanied tours in Korea. The 
benefits of normalizing tour, include improved continuity, stability, 
and readiness and retention of regional, institutional, and cultural 
knowledge; as well as reduced costs and an overall savings as the 
number of servicemember moves and lower the need for entitlements 
resulting from family separations. The military departments are 
conducting detailed assessments to determine the best way to implement 
this initiative over the course of the next 10 to 15 years.
    Question. In your opinion, would this increase require a 
renegotiation of the Status of Forces Agreement with the Republic of 
Korea?
    Answer. DOD must conduct further detailed assessments to determine 
the full implications of the initiative, to include any possible 
impacts on agreements provisions. However, the initiative to normalize 
tour lengths in Korea has the broad support of the Government of the 
Republic of Korea.

                       HOST NATION BURDENSHARING

    Question. How would you assess the current trends in burden-sharing 
arrangements and residual value recovery with nations currently hosting 
U.S. forces?
    Answer. Burden-sharing arrangements with host-nation partners 
should be assessed on a case-by-case basis. Key factors affecting these 
arrangements include the context of regional political-military and 
operational dynamics, the nature of the specific host-nation 
relationship, and related U.S. presence goals.
    Residual value recovery policy is managed by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics (AT&L).
    Question. Is the willingness of host nations to share in the costs 
of basing U.S. forces increasing or decreasing?
    Answer. As I indicated earlier, I am reluctant to generalize about 
host-nation cost-sharing for the U.S. presence globally. As the 
Department realigns its defense posture globally, it continues working 
with host-nation partners to develop suitable arrangements for 
supporting long-term U.S. presence goals. In many cases host-nation 
consultations and negotiations that determine cost-sharing arrangements 
are still ongoing.
    Question. If confirmed, what would you do to maintain a healthy 
burden-sharing and residual value recovery program?
    Answer. If confirmed, I would work to ensure the Department 
continues pursing global defense posture changes with our allies and 
partners that strengthen our access relationships and forward 
capabilities. In pursuit of these two aims, I would certainly work to 
make burden sharing an important element of our negotiations with 
potential host-nation partners.

                            COUNTERNARCOTICS

    Question. The DOD has been involved extensively in counternarcotics 
missions for many years, involving both Active and Reserve component 
forces.
    In your view, what is the appropriate role of DOD in interdicting 
illegal drugs bound for the United States, in reducing drug 
cultivation, and in reducing demand?
    Answer. The counternarcotics (CN) authorities and responsibilities 
assigned to the DOD by law provide useful and flexible ways to support 
the National Drug Control Strategy, as well as achieve national 
security goals around the world. DOD conducts CN activities in support 
to U.S. local, State, and Federal counternarcotics agencies, as well as 
foreign counternarcotics forces. In many cases, this support is carried 
out by DOD-sponsored Joint Task Forces and Joint Interagency Task 
Forces, several of which have increased their international liaison and 
operational coordination roles.
    Question. In recent years, the Department has shifted its focus 
from interdicting illegal drugs bound for the United States to 
interdicting illicit trafficking (including trafficking in drugs, 
weapons, people, and money) bound for the United States. What is your 
opinion of this expanded focus?
    Answer. As it has become increasingly apparent that the global 
illegal drug trade has connections to terrorism, financial crimes, 
corruption of governmental systems, weapons smuggling, human 
trafficking, major gang networks, insurgency and instability in many 
places worldwide. As a general premise, illicit trafficking, whatever 
the commodity, undermines partner nations' authority and government 
structures; and provides transnational criminal organizations and 
terrorists revenue to purchase weapons and plan operations that 
threaten U.S. security interests. By widening the Department's focus to 
trafficking networks--drugs, weapons, people or money--the Department 
provides critical support to undermine transnational networks that 
threaten the Nation.
    Question. In the legislative proposals the committee received from 
DOD for the upcoming fiscal year, the counternarcotics program 
requested a significant expansion in the number of countries eligible 
to receive support from the Department, including an expansion to West 
Africa.
    In your assessment, is the drug trafficking threat from Africa 
sufficient enough to justify a major expansion of the counternarcotics 
program into West Africa?
    Answer. Africa, especially West Africa, has seen a dramatic 
increase in drug smuggling and associated corruption and intimidation 
that turns weakly-governed areas into nearly ungoverned spaces. 
Currently, the threat of the expanding illicit drug trade threatens 
Africa's fragile future. Working with African nations to strengthen 
their domestic capabilities, while partnering with European allies, is 
one way to approach the dilemma. Additionally, profits realized by 
Colombian narcoterrorists in Africa, sustain continued assaults against 
the Government of Colombia and others in the Western Hemisphere.

      COUNTERNARCOTICS, COUNTER PROLIFERATION, AND GLOBAL THREATS

    Question. You have responsibility for counternarcotics, 
counterproliferation, and nonproliferation activities. A growing 
concern is the connection between narcotics trafficking and terrorists.
    What actions do you believe are appropriate to identify, track, and 
stop funding sources that could be used by terrorists to obtain nuclear 
or other WMD weapons or equipment?
    Answer. I agree that there is concern over the possible connection 
between narcotics trafficking and terrorists, and that undermining an 
adversary's ability to finance hostile activities against U.S. 
interests is a critical priority for the Department. The Department 
supports counterthreat finance interoperability with other government 
agencies to achieve national security objectives. If confirmed as ASD 
for GSA, I will be responsible for developing the Department's 
counterthreat finance policy guidance and developing counterthreat 
finance requirements. It is critical to develop and include integrated 
capabilities designed to exploit financial networks that support 
activities that are hostile towards U.S. interests. The Department will 
work in coordination with other U.S. Government agencies to counter 
adversaries' funding networks and undermine terrorists' ability to 
obtain nuclear or other WMD.

                 COUNTERDRUG/COUNTERTERRORISM MISSIONS

    Question. SOFs have been deeply involved in training forces in 
Colombia to conduct unified counterdrug-counterterrorism missions.
    In your view, what has been the success of training missions in 
Colombia?
    Answer. In my view DOD's training has been successful. The 
Colombian military and police forces are achieving battlefield 
superiority over illegal groups that traffic in drugs and have 
terrorized Colombia's people and threatened its sovereignty. SOF 
counternarcoterrorism training missions have been instrumental in 
helping the Colombian military and national police gain professional 
skills, improve combat techniques, and develop tactics and procedures. 
Equally important, SOF training has resulted in intangible results such 
as increased respect for human rights, an appreciation for civil-
military operations, and professionalization of the force.
    Question. Are these appropriate missions for SOFs?
    Answer. These missions are appropriate and beneficial for SOF. By 
undertaking these training missions, SOF increase their proficiency at 
working with foreign partners to conduct their core missions of 
Unconventional Warfare and Foreign Internal Defense.
    Question. What, if any, benefit do unified counterdrug-
counterterrorist training missions in Colombia and counterdrug-training 
missions worldwide provide to SOFs?
    Answer. These training missions provide a realistic scenario for 
SOF to hone their skills such as: teaching through interpreters; 
organizing, training, equipping, and leading an indigenous force; and 
operating in austere environments not easily replicated in training 
locations in the U.S.

                            DETAINEE AFFAIRS

    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, and in DOD Directive 2310.01E, the DOD Detainee Program?
    Answer. Yes.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen or marines are 
treated, should they be captured in future conflicts?
    Answer. Yes. Humane treatment is the bedrock principle of DOD 
policy, regulations, and detention operations. By treating all 
detainees humanely, we hope that our adversaries will reciprocate with 
our servicemembers. It should be noted however that al Qaeda and the 
Taliban are not bound by international regimes, and have demonstrated a 
profligate disregard for the law of armed conflict. Nonetheless, the 
Department remains steadfastly committed to its obligations under the 
law of armed conflict, and detains members of al Qaeda and the Taliban 
within its custody and control humanely and consistent with 
international standards of treatment.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. In the past year and a half, Task Force 134 in Iraq has 
made significant changes to the way in which detention operations are 
conducted in a counterinsurgency environment, including through the 
establishment of reintegration centers at theater internment 
facilities.
    What do you consider to be the main lessons learned from the 
changes to detention operations in Iraq over the past year and a half?
    Answer. In order to be successfully integrated into an effective 
counterinsurgency campaign, detention operations in Iraq have moved 
beyond simply detaining individuals that remain a security threat to 
coalition forces and Iraqi citizens. Besides removing insurgents from 
the battlefield, successful detention operations now focus on 
successfully reintegrating and rehabilitating detainees so that when 
they are released, they will not re-engage in hostilities.
    Task Force 134 has adopted a number of measures, called 
counterinsurgency inside the wire, which focus on these reintegration 
and rehabilitation efforts. These lessons learned have included more 
thorough screening of detainees so as to isolate the extremists 
elements from more moderate Iraqis, family involvement and visitations, 
and voluntary educational and vocational programs, including voluntary 
exposure to moderate Islamic teaching, so as to better equip detainees 
to find jobs upon release and help them resist extremist influences.
    Question. What should be done to incorporate those lessons learned 
into the DOD's doctrine, procedures and training for personnel involved 
in detention and interrogation operations?
    Answer. Each theater of operations will have some unique detention 
requirements, tailored to the nature and scope of operations. However 
the Department is applying lessons learned from detention-centered 
counterinsurgency efforts in Iraq and incorporating best practices in 
Afghanistan. For example, the Department is planning to implement 
voluntary educational and vocational training programs at Theater 
Internment Facilities in Afghanistan. The Department is also examining 
ways to incorporate some of these practices at Guantanamo, such as 
expanding family contact through telephone calls.
    Building on these successes will require a review of DOD's internal 
directives and policy guidance as it pertains to detention, and issuing 
or modifying new guidance as appropriate.

             DOD COOPERATIVE THREAT REDUCTION (CTR) PROGRAM

    Question. The CTR program has several key objectives including: (1) 
reducing strategic nuclear weapons; (2) improving the security and 
accounting of nuclear weapons and fissile material; (3) eliminating and 
preventing biological and chemical weapons and capabilities; and (4) 
encouraging military reductions and reforms to reduce proliferation 
threats.
    In your view, how has the CTR program benefitted U.S. national 
security?
    Answer. The Cooperative Threat Reduction (CTR) program has reduced 
the threat of WMD proliferation by securing possible sources of WMD, 
destroying or deactivating threat systems, and improving the capability 
to detect and interdict WMD or related materials in transit. CTR's 
``scorecard'' during the 16-year history of the program speaks for 
itself: 7,292 warheads deactivated with CTR support; 1,529 
Intercontinental Ballistic Missiles (ICBMs) and Submarine-Launched 
Ballistic Missiles (SLBMs) eliminated; 796 silos eliminated; 131 mobile 
ICBM launchers eliminated; 155 strategic bombers eliminated; 906 
nuclear Air-to-Surface missiles eliminated; 456 submarine launch tubes 
eliminated from 30 missile submarines which were eliminated by CTR. In 
addition, a fissile material storage facility was constructed in Russia 
which we believe is being loaded with plutonium derived from dismantled 
weapons; CTR has provided inventory control and physical security for 
Russian warhead storage sites. The forgoing comprises key elements of 
the ``scorecard,'' but do not include CTR's work in WMD border security 
and bio-security.
    Many of these activities were initially conducted during a period 
when cooperating governments were unable to provide adequate security 
for the weapons and related systems. Thus, the data reflects not merely 
specific weapons or delivery systems eliminated, but rather elimination 
of threats which in many cases were vulnerable to misappropriation.
    In addition to the ``scorecard'' data, CTR has also provided a 
vehicle for cooperation with governments with whom communication with 
the U.S. was sometimes tense in other venues. The value of maintaining 
areas of cooperation on difficult issues is difficult to measure but no 
less intrinsic. Moreover, CTR specifically and U.S. national security 
interests more broadly have benefited greatly from the willingness of 
its founders, Senators Nunn and Lugar, to continue being emissaries for 
WMD nonproliferation cooperation.
    Question. What is your view of the CTR program's chemical and 
biological weapons elimination efforts?
    Answer. CTR's chemical weapons elimination efforts marked a 
milestone in 2007, when Albania became the first State Party to the 
Chemical Weapons Convention to complete elimination of its declared 
chemical weapons stockpile. This effort was completed with CTR 
assistance. In 2008/2009, CTR's chemical weapons elimination efforts 
will mark another milestone with commissioning of the Chemical Weapons 
Destruction Facility at Shchuch'ye, in the Russian Federation. CTR is 
committed to successful completion of this project, which has had a 
very complex history. CTR will remain well-positioned to conduct 
chemical weapons elimination work, or related activities, over the long 
term due its ability to draw on expertise of the U.S. Army's Chemical 
Corps and Chemical Materials Agency.
    CTR's biological weapons elimination work is based currently on a 
flexible model which incorporates bio-security, dangerous pathogen 
surveillance, cooperative research, and disease reporting/information 
sharing. It is titled formally the ``Biological Threat Reduction 
Program (BTRP).'' BTRP can be adapted to meet the needs of new partner 
nations, or to limit the risk DOD chooses to take on. BTRP is the 
fastest growing area of the CTR program, reflecting the threat posed by 
weak bio-security worldwide.
    Question. Do you think the CTR program is well coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., the State Department and the Department of Energy?
    Answer. Yes. Examples of CTR's coordination can be found in the 
area of nuclear warhead security in Russia and the bio-security area. 
With respect to nuclear warhead security, CTR and a companion program 
at the Department of Energy have coordinated closely to accelerate U.S. 
efforts to complete work by the end of calendar 2008. That work is 
proceeding on schedule with robust communication between CTR and DoE to 
resolve problems or pursue opportunities. With respect to bio-security, 
CTR staff has participated fully in an interagency effort led by the 
Department of State to develop a global strategy for coordination of 
U.S. bio-security and related assistance.
    For fiscal year 2008, the Cooperative Threat Reduction program 
received additional funding and new authority to conduct threat 
reduction activities outside of the former Soviet Union.
    Question. What actions have you taken to implement this new 
authority?
    Answer. The Department appreciates the streamlining of CTR 
authorities, as well as the initial allocation of $10 million for 
fiscal year 2008 that was provided for activities outside states of the 
Former Soviet Union (FSU). During my April 12, 2008 testimony to the 
Subcommittee on Emerging Threats, I noted that the program was 
evaluating potential programs in several countries outside the FSU with 
the goal of developing in 2008 CTR activities with those countries that 
could begin in 2009. If confirmed, I would offer to brief the committee 
on the results of our evaluation and the way ahead.
    Expansion of CTR outside the FSU has received much focus, but I 
should also note that 2008 is a year of intense activity for CTR inside 
the FSU: the complex Chemical Weapons Destruction Facility and nuclear 
warhead security projects in Russia will conclude this year; 
nonproliferation activities in Kazakhstan are being accelerated; and 
entirely new bio-security engagement activities are beginning in 
Armenia and Turkmenistan.
    Question. Are there any impediments that you have encountered in 
implementing this new authority and if so what are those impediments 
and what is your plan for addressing any such impediments?
    Answer. New initiatives in a program like CTR are inherently labor 
intensive to develop. Therefore, a principal impediment has been 
prioritizing among CTR activities. We have added additional staff to 
help with this reprioritization. We also appreciate congressional 
support for streamlining CTR authorities which will help improve 
flexibility and efficiency in operation of the program.
    Question. In your view, what are the key opportunities and 
challenges over the next 5 years that the CTR Program should address?
    Answer. Among the specific opportunities or challenges that I see 
in the next 5 years for CTR are the following: (1) adapt CTR's 
nonproliferation policy goals and program business practices to be able 
to function effectively outside the Former Soviet Union; (2) add a more 
flexible, rapid mode of operations should circumstances warrant, but 
without overlapping with the State Department's Nonproliferation/
Disarmament Fund; (3) move CTR's relationship with the cooperating 
countries from an assistance-based model to one of partnership.
    More broadly, since its inception, CTR's priority has been to 
address WMD and related materials ``at there source.'' This is the most 
reliable means of dealing with the threat posed by WMD proliferation. 
In 2004, with the 2001 terrorist attacks in mind, CTR added the problem 
of WMD and related materials ``on the move'' as a goal to be addressed. 
For CTR, this has meant undertaking new activities in the area of WMD 
border security and expanding its bio-security work. CTR will always be 
ready to address WMD at the source. However, expanding the program's 
impact on nonproliferation priorities will demand continued creativity 
with the challenge of WMD ``on the move.''
    Question. Clearly the Russian economy has changed since the 
creation of the CTR programs, as has the nature of the U.S.-Russian 
relationship.
    In your view, how should these changes be reflected in future of 
U.S.-Russian programs under the CTR program?
    Answer. As I testified on April 2, 2008, I believe it is important 
to remember that CTR in Russia remains in the U.S. interest. However, 
CTR's role in Russia is changing as the Russian economy has improved 
and progress has been made on the initial programs of accounting for 
and securing the vast complex of Soviet-era WMD. CTR's role in Russia 
is declining today as Russia has new resources to fulfill its legal and 
other responsibilities. In 2008, more CTR funds will be obligated for 
activities outside Russia than inside Russia. This milestone begins a 
trend in CTR's program plan which will continue. Our goal is to fulfill 
promises and contracts that the CTR program has made in Russia, but 
also to shift our relationship to a different footing.
    The Global Initiative to Combat Nuclear Terrorism, which Russia co-
chairs, is an example of Russia bringing its own expertise to the 
worldwide fight against WMD. We could envision the relationships built 
through CTR being leveraged for cooperative Russian-U.S. efforts to 
combat WMD in other countries.
    Question. What is your view of the advantages of the recently 
signed U.S-Russia civil nuclear cooperation agreement from a 
nonproliferation perspective?
    Answer. In my view, the recently signed U.S.-Russia civil nuclear 
cooperation agreement may have a benefit in the nonproliferation area, 
in that it helps codify cooperation with agencies of the Russian 
Federation which also have responsibility for security of some nuclear 
materials. At a time when U.S.-Russian relations are complex, new 
venues for cooperation can be helpful in a mission as broad as 
nonproliferation.

                              ARMS CONTROL

    Question. Arms control has been a prominent feature in U.S. 
security policy in the past, but clearly the international security 
landscape has changed dramatically in the past decade.
    What is your view of the current arms control efforts and the 
proper role of arms control in U.S. national security strategy?
    Answer. Arms control remains an effective tool for combating the 
proliferation of WMD. The National Strategy to Combat WMD identifies 
nonproliferation and arms control as one of its three principle 
pillars, and as such, calls for the enhancement of arms control 
measures to impede proliferant states and terrorist networks. The 
National Strategy also calls for compliance with existing 
nonproliferation regimes, such as the Chemical Weapons Convention 
(CWC), the Biological Weapons Convention (BWC), and the Nuclear 
Nonproliferation Treaty (NPT). Agreements such as these not only call 
for the complete destruction of certain classes of WMD, but also 
possess the framework for addressing emerging threats.
    Question. What opportunities exist for advancing arms control with 
respect to nuclear, chemical, and biological weapons and their means of 
delivery?
    Answer. The U.S. is currently leading international efforts to 
agree to a Fissile Material Cut-off Treaty (FMCT) which would ban the 
production of highly-enriched uranium and plutonium for weapons 
purposes. If ratified by all countries, this treaty could be a major 
step forward in nonproliferation and arms control. DOD supports current 
negotiations at the Conference on Disarmament.
    In addition to negotiation of an FMCT, full implementation of the 
NPT, CWC, and BWC, along with efforts at universalization of these 
treaties, would contribute to security and stability. We are also 
working with the Department of State to conclude a follow-on to the 
Strategic Arms Reduction Treaty (START).

                             EXPORT CONTROL

    Question. Do you believe that a review is necessary of the 
implications for the U.S. satellite industry of retaining or removing 
satellites from munitions list for export purposes and the range of 
satellite and satellite components that are controlled under the 
International Traffic in Arms Regulations?
    Answer. The Department of State, which has the statutory authority 
for administering the International Traffic in Arms Regulation, 
including items on the U.S. Munitions List, would need to determine 
that such a review is necessary. If a review was initiated, DOD would 
assist in providing technical expertise and programmatic insight needed 
to determine whether the export controls protect U.S. national 
security.
    Question. If so, what questions should be addressed in such a 
review?
    Answer. The scope of any review would be determined in coordination 
with the Department of State.
    counterproliferation and proliferation security initiative (psi)
    Question. If confirmed, what would be your role, if any, in policy 
formulation and implementation of the PSI?
    Answer. I would be an active participant in the interagency policy 
formulation for PSI. In addition, I would provide guidance and 
oversight to the Deputy Assistant Secretary of Defense for 
Counterproliferation, Counternarcotics, and Global Threats, who leads 
U.S. Government efforts in PSI's Operational Experts Group. The PSI 
Operational Experts Group (OEG), a group of military, law enforcement, 
intelligence, legal, and diplomatic experts from 20 PSI participating 
states, meets regularly to develop operational concepts, organize the 
PSI exercise program, share information about national legal 
authorities, and pursue cooperation with key industry sectors. The OEG 
works on behalf of all PSI partners and strives to share its insights 
and experiences through bilateral and multilateral outreach efforts.
    Question. In your view, what are the benefits of the PSI?
    Answer. First, PSI channels international commitment to stopping 
WMD-related proliferation by focusing on interdiction as a key 
component of a global counterproliferation strategy.
    Second, PSI provides participating countries with opportunities to 
improve national capabilities and strengthen authorities to conduct 
interdictions. PSI partners have developed and sustained one of the 
only global, interagency, and multinational exercise programs, 
conducting over 30 operational air, maritime, and ground interdiction 
exercises involving over 70 nations.
    Third, PSI provides a basis for cooperation among partners on 
specific actions when the need arises. Interdictions are information-
driven and may involve one or several participating states, as 
geography and circumstances require. By working together, PSI partners 
combine their capabilities to deter and stop proliferation wherever and 
whenever it takes place.
    Question. Have the participants in the PSI actually interdicted a 
shipment of items associated with WMD that were being shipped 
illegally? If so, please provide examples of these actions including 
what nations participated and the legal authorities utilized to 
interdict the shipment and under which it was determined that the 
shipment was illegal.
    Answer. PSI partners define ``interdiction'' broadly, as any 
action, based on sufficient information and consistent with national 
authorities and international legal frameworks, that results in the 
denial, delay or disruption of a shipment of proliferation concern. 
Shipments of concern may be transported by air, sea, or land.
    The United States has worked successfully with multiple PSI 
partners in Europe, Asia, and the Middle East to prevent transfers of 
equipment and materials to WMD and missile programs in countries of 
proliferation concern. Details of specific successes are classified, 
and could be provided in a separate briefing.
    Question. How is funding to support PSI efforts, including 
exercises, determined and allocated and to what entities is such 
funding provided? What is the source of the funds and the amount 
utilized for PSI activities in fiscal year 2007 and planned for in 
fiscal years 2008 and 2009?
    Answer. PSI is not budgeted currently in a traditional, 
programmatic sense. The PSI was conceived as a flexible, adaptive 
initiative that leverages existing capabilities, activities, 
authorities and resources rather than creating new ones. For example, 
PSI-related interdiction scenarios are often injected into existing 
military exercises, as was the case with SOUTHCOM's Panamax 2007 
exercise. DOD's PSI activities are funded out of existing budgets, such 
as Operations and Maintenance when a U.S. vessel executes a ``hail-and-
query.'' As a result, we have not previously tracked PSI expenditures 
separately. However, in response to legislative requirements, GSA staff 
is preparing a more detailed analysis of PSI funding.
    In addition, beginning in 2007, the Department requested funding 
specifically for support to combatant commands for PSI-related 
activities. The 2008 request is $800,000.
    Question. Is funding or in-kind assistance provided to 
international partners? If so please provide a list of countries which 
have received assistance and the nature or amount of the assistance 
provided on an annual basis?
    Answer. The Department has not provided funding or in-kind support 
to international partners specifically for PSI. I understand that the 
Department of State has provided financial support to PSI partners 
under State authorities.

                           CLUSTER MUNITIONS

    Question. Last month more than 110 countries, including the United 
Kingdom--but not the United States--approved the text of an agreement 
banning the use, production, and sale of cluster munitions.
    What is your view of the treaty on cluster munitions?
    Answer. Cluster munitions are effective weapons, provide distinct 
advantages against a range of targets and can, against some targets, 
result in less collateral damage to civilians and civilian 
infrastructure than unitary weapons. The Oslo Convention's ban on 
cluster munitions, if we were to join it, would result in a capability 
gap for indirect fire of area targets that would require an increase in 
other resources and could put at risk our airmen and ground forces.
    The U.S. shares the concerns about unintended harm to civilians and 
civilian infrastructure caused by the use of cluster munitions. In 
July, at the next negotiation session of the Convention on Conventional 
Weapons (CCW), the United States will work to complete a new cluster 
munitions protocol. The CCW includes all of the major producers and 
users of cluster munitions, many of which will not sign the Oslo 
Convention; thus, an agreement in the CCW is likely to have a greater 
practical effect. We have called for completion of a new cluster 
munitions protocol by the end of 2008.
    Question. What impact do you believe U.S. opposition to the cluster 
munitions treaty will have on our relations with other nations who 
support the treaty and on future operations with coalition partners?
    Answer. The Oslo Convention contains specific provisions that would 
allow parties to the Convention to cooperate militarily and to operate 
with non parties such as the United States. Military cooperation and 
operations includes transit of and storage of cluster munitions on the 
territory of countries that accede to the Oslo Convention. Without a 
single, broad interpretation of these provisions, the U.S. ability to 
uphold treaty commitments and for countries to participate with us in 
international peacekeeping operations could be in jeopardy. We believe 
that all countries that accede to the Oslo Convention can agree on a 
single, broad interpretation which provides for needed 
interoperability.

              PRISONER OF WAR/MISSING-IN-ACTION PERSONNEL

    Question. Recovery of remains operations in North Korea are a 
humanitarian effort, and arguably should not be tied to the larger 
political and strategic issues surrounding North Korea. Since its 
inception in 1996 until its suspension in 2005, this program was seen 
by both parties as humanitarian in nature. The program is critically 
important to the families of these missing servicemembers.
    What is the status of resumption of recovery operations in North 
Korea?
    Answer. The Department temporarily suspended remains recovery 
operations in May 2005 due to concern for our personnel during a period 
of heightened tensions between the U.S. and North Korea; however, we 
are prepared to return once conditions are appropriate. The Department 
will ensure that before any personnel conduct future remains recovery 
operations in North Korea we have taken all possible precautions to 
ensure their safety. These precautions will include access to urgent 
medical care if required, and availability of adequate communications 
systems. Additionally, the Department will require North Korea to 
permit our teams access to key sites where suspected remains may be 
recovered.
    Question. Does the Department intend to wait until pending 
political and nuclear issues are resolved before approaching North 
Korea about the resumption of recovery operations?
    Answer. As the Secretary wrote in his 21 May 2008 letter to 
Chairman Levin, the Department shares the desires of families and 
veterans to resume remains recovery operations in North Korea, and we 
are prepared to do so at the appropriate time. Unfortunately, we cannot 
predict when conditions will be conducive to resuming discussion on 
this humanitarian program. We are monitoring the situation closely. As 
soon as we believe it is appropriate to reengage with North Korea on 
these recovery efforts, we will ensure that Congress is informed. The 
Six-Party Talks are currently at an especially sensitive point. Should 
we deploy U.S. personnel in re-stated recovery operations, their 
efforts could be put in jeopardy if the talks fail.
    The Under Secretary of Defense for Policy reported to Congress last 
year on the organization, management, and budgeting of the Joint POW/
MIA Accounting Command (JPAC). The report essentially supported the 
status quo.
    Question. What is your view of the organization, management, and 
budget structure of JPAC?
    Answer. I believe JPAC's current organization, management, and 
budget structure aligned under PACOM and funded by the Department of 
the Navy meets its current needs and requirements. The Defense Prisoner 
of War/Missing Personnel Office (DPMO) has formed a Senior Study Group 
comprised of principals within the POW/MIA personnel accounting 
community to study continually this and other issues within the 
personnel accounting community.
    Question. Is JPAC sufficiently funded to maximize progress in 
identifying the remains of missing servicemembers?
    Answer. JPAC is fully funded for its approved missions and its 
current operations tempo, which includes fielding 70 worldwide missions 
per year. Their biggest challenge has been insufficient workspace. The 
JPAC commander has taken action to increase work space, which will 
enhance their ability to establish identifications. The PACOM commander 
has ranked the JPAC MILCON in his top requirements; design begins in 
fiscal year 2009, and construction begins in fiscal year 2010. 
Additionally JPAC is working with the military and civilian human 
resource offices to increase their percentage of assigned personnel. 
These actions will allow the command to be more effective in 
accomplishing its mission.
    Although JPAC is sufficiently funded to maintain its current 
operations tempo, if JPAC is able to resume operations in North Korea, 
the organization will require additional funding. JPAC's latest 
estimate for fiscal year 2009 is that an additional $15.1 million would 
be required to resume operations. That estimate could change depending 
on market conditions when operations actually resume. We will keep the 
committee apprised of any changes in that assessment.
    Question. Has the Department considered moving JPAC and its 
forensic capabilities to the mainland United States? If so, what were 
the results of that consideration? What are the obstacles to such a 
move?
    Answer. The Department continues to look at a number of options to 
increase JPAC's forensic remains identification capacity, to include 
another laboratory on the mainland, still under the command of JPAC and 
focused only on identifying remains. This is only one option under 
consideration, however. Currently, the JPAC commander is evaluating 
ways to improve the recruitment and retention of anthropologists and 
archaeologists, to include increasing pay and incentives, but the 
organization is still collecting data on these matters, and will make 
recommendations after evaluating the data.
    A 2005 Government Accountability Office (GAO) study recommended 
that the Department undertake a formal needs assessment of the workload 
of the Defense POW/MIA Office to determine both what resources are 
needed and how they can best be allocated among the various mission 
areas.
    Question. Has the Department performed a formal needs assessment as 
recommended by the GAO? If not, why not, and if so, what were the 
results?
    Answer. In August 2007, OUSD Policy contracted with a private 
organization to analyze the current distribution of staff, identify 
areas for revised manpower distribution, and offer recommendations to 
improve the capacity of Defense Prisoner of War/Missing Personnel 
Office (DPMO) to meet mission objectives. The analysis included a 
review of, and recommendations for, the most effective use and 
distribution of civilian, military, and contract personnel.
    The organizational assessment, which also included a needs 
assessment, was completed on December 28, 2007. The assessment 
recommended increased staffing for the operational support and 
personnel recovery mission areas. DPMO documented the recommended 
staffing requirements in developing the Department's fiscal year 2010-
2015 program.
    Question. What is DOD doing to ensure sufficient outreach to family 
members to collect reference samples and that adequate resources are 
allocated to family reference sample collection? How will DOD ensure 
that it has collected as many family reference samples as possible?
    Answer. We have 67 percent of family reference samples from Vietnam 
War families. For the Korean War, we have samples for 61 percent of all 
losses, but we have employed a strategy that prioritizes collection on 
losses in certain key areas. As a result we have 90 percent of the 
reference samples for those lost in the principal areas where JPAC 
operated in North Korea and between 84-90 percent of samples in areas 
where North Korea unilaterally recovered and repatriated a large number 
of remains that we are still working to identify. For World War II, our 
approach is to collect family reference samples for specific aircraft 
crews or casualties in individual engagements where we have recovered 
remains, and there too our methods have proven successful.
    One of the major methods DPMO uses to solicit for reference samples 
is through our Family Update program. Annually, DPMO holds eight Family 
Update meetings in cities around the Nation. More than 40 percent of 
families at these meetings are first time attendees. DPMO will continue 
to explore creative ways to increase family reference donation.

                           HUMAN TRAFFICKING

    Question. Human trafficking is a significant global humanitarian 
problem. If confirmed, you would serve as the focal point for the 
Secretary of Defense's policies of interest within OSD.
    What do you believe to be the appropriate role for DOD in 
supporting U.S. Government policies to prevent human trafficking?
    Answer. Per DOD Instruction 2200.01, it is DOD policy to: oppose 
prostitution, forced labor, and any related activities that may 
contribute to the phenomenon of Trafficking in Persons (TIP) as 
inherently harmful and dehumanizing; deter activities of DOD 
servicemembers, civilian employees, indirect hires, contract personnel, 
and command-sponsored dependents that would facilitate or support TIP, 
domestically and overseas; educate all servicemembers and DOD civilians 
annually on the worldwide trafficking menace, national TIP policy, 
overseas theater TIP policy, and attendant personal responsibilities 
consistent with DOD core values and ethical standards; increase efforts 
by commanders and military police worldwide, within their authorities, 
to pursue indicators of TIP in commercial establishments patronized by 
DOD personnel, place offending establishments off-limits, and provide 
support to host-country authorities involved in the battle against TIP.
    The Under Secretary of Defense for Personnel and Readiness serves 
as the DOD Combating Trafficking in Persons (CTIP) Principal Staff 
Assistant to the Secretary and Deputy Secretary of Defense and develops 
overall policy and provides guidance for the DOD CTIP program. The 
Office of the ASD/GSA supports DOD efforts to combat TIP by 
representing the Department in the annual U.S. Government TIP sanction 
review process and working closely with the Office to Monitor and 
Combat TIP at the Department of State.

                                 PIRACY

    Question. Piracy is a major problem that affects U.S. interests. 
Some of the world's key shipping lanes and offshore oil operations, for 
instance, off the coast of Somalia, in the Gulf of Guinea, and in the 
Strait of Molacca have seen numerous incidents of piracy. The U.S. Navy 
and our allies in Europe have played an active role in protecting the 
shipping lanes off the coast of Somalia in recent years.
    What do you believe to be the appropriate role for DOD in 
preventing and responding to the growing problem of piracy?
    Answer. The President's Piracy policy of June, 2007, provides that 
``The United States strongly supports efforts to repress piracy and 
other criminal acts of violence against maritime navigation. The 
physical and economic security of the United States--a major global 
trading nation with interests across the maritime spectrum--relies 
heavily on the secure navigation of the world's oceans for unhindered 
legitimate commerce by its citizens and its partners. Piracy and other 
acts of violence against maritime navigation endanger sea lines of 
communication, interfere with freedom of navigation and the free flow 
of commerce, and undermine regional stability.''
    The policy calls for a multifaceted approach to piracy involving 
the missions and capabilities of various U.S. agencies, and the 
international community, in addition to DOD: ``Piracy repression should 
include diplomatic, military, intelligence, economic, law enforcement, 
and judicial actions. Effectively responding to piracy and criminal 
activity sends an important deterrent message and requires coordination 
by all departments and agencies of the U.S. Government in order to 
ensure that those responsible are brought to justice in a timely 
manner.'' As this policy recognizes, DOD plays an important, but not 
the sole role in preventing and responding to piracy through the 
combined operational capabilities of our forces, and our coalition 
allies.

                           GLOBAL FOOD CRISIS

    Question. One of your responsibilities will be to serve as the 
focal point for policies of interest relating to DOD's response to 
international health crises and humanitarian disasters. By all 
accounts, the world is in the midst of a decline in the availability of 
food and an increase in the price of food. Should this global food 
crisis continue, it is likely that DOD will be called upon to assist in 
a variety of places around the world.
    In your view, what is the appropriate role of DOD in providing 
relief to this crisis and other resource crises around the world?
    Answer. DOD has varied capabilities to assist in crises of 
different kinds, as was demonstrated during the December 2004 response 
to the tsunami in Asia. I would expect the Department to respond to any 
crisis in conjunction with other elements of the U.S. Government, but 
it is difficult to comment on an appropriate role for a hypothetical 
event that has not occurred.

                         HUMANITARIAN DISASTER

    Question. In international humanitarian crises where the United 
States provides relief, DOD is often called upon to play a major role.
    What do you see as the primary challenges for the Department in 
providing such relief, and what do you believe is the appropriate role 
for the Department in providing humanitarian relief?
    Answer. Again, I would expect the Department to respond to any 
crisis in conjunction with other elements of the U.S. Government, but 
it is difficult to comment on challenges for a hypothetical event that 
has not occurred.
    In general, DOD, through its combatant commands, participates in 
Foreign Disaster Relief efforts: (1) when directed by the President; 
(2) with the concurrence of the Secretary of State; and (3) in 
emergency situations in order to save lives. DOD plays a key role in 
disaster situations by offering unique assets for timely and effective 
response to foreign nations that request assistance. The Department 
also plays a key role in any overseas disaster relief effort when 
civilian authorities become overwhelmed as evident during the 
Indonesian Tsunami (2005), Pakistan Earthquake (2006), Hurricane Felix-
Nicaraguan relief efforts (2007), Cyclone Sidr in Bangladesh (2007), 
and Cyclone Nargis in Burma (2008).

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as ASD/GSA?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                        AFGHAN POLICE FORCE/ARMY

    1. Senator Bill Nelson. Mr. Benkert, given your responsibilities 
for capacity building among partners and allies, what is your role in 
overseeing training of the Afghan police force and the Afghan army?
    Mr. Benkert. The Office of the Assistant Secretary for Global 
Security Affairs (GSA) in general deals with broad policy for training 
and equipping partner nation forces, and with the authorities used for 
training and equipping this provides the framework through which 
assistance to specific nations is provided. With respect to 
Afghanistan, the Assistant Secretary of Defense for Asia-Pacific 
Security Affairs (APSA) provides policy oversight for training the 
Afghan National Army and the Afghan National Police (ANP). GSA is also 
responsible for policy oversight of the Department of Defense's (DOD) 
support to counternarcotics efforts worldwide and manages the 
counternarcotics Central Transfer Account. In this role, GSA provides 
policy oversight of the training, equipping, and infrastructure support 
for the Counternarcotics Police of Afghanistan, as well as overseeing 
the advanced interdiction training of the Afghan Border Police, working 
closely with APSA, Central Command, Drug Enforcement Agency, and the 
State Department. In addition, GSA helps to identify and recruit 
coalition partners to provide training and equipment to the Afghan 
Security Forces and provides oversight and policy guidance supporting 
the efforts of participating coalition partners. This activity is 
executed in close coordination with the Department of State and the 
Office of the Secretary of Defense regional offices.

    2. Senator Bill Nelson. Mr. Benkert, to your knowledge, what are 
the current capabilities of the Afghan police force and the Afghan 
army?
    Mr. Benkert. Primary policy oversight and guidance for DOD work 
with the Afghan National Security Forces (ANSF)--the Afghan Army and 
police--is developed by the Office of the Assistant Secretary of 
Defense for APSA.
    I understand that the capabilities of the Afghan National Army 
(ANA) have been improving and the ANA is currently seen as one of the 
most trusted and respected institutions in Afghanistan. There are 
currently 63,000 ANA, growing towards an end strength of 80,000. The 
ANA has become increasingly capable and has taken the lead in over 30 
major operations.
    The ANP is several years behind the ANA but is making progress. 
There are approximately 75,000 ANP and they are growing to their 
approved end strength of 82,000. The current focus in ANP development 
is on reforming and training the current force.
    Building the capabilities of the ANSF is one of the key priorities 
of the United States. The U.S. has spent over $10.1 billion in the last 
2 years towards these efforts. The desired end state is a professional, 
capable, respected and multi-ethnic ANSF with competent ministries and 
staffs and sustaining institutions capable of directing, planning, 
commanding, controlling, training and supporting the ANSF.
                                 ______
                                 

               Questions Submitted by Senator John Warner

                 COUNTERNARCOTICS POLICY IN AFGHANISTAN

    3. Senator Warner. Mr. Benkert, among the issues you would be 
responsible for, if you are confirmed, is that of DOD counterdrug 
policy in Afghanistan. It is critically important that we not permit 
the enemy in Afghanistan to fund hostile activities against our forces 
using drug money. So, I'd like to pose to you the same question I posed 
to Secretary Gates a few months ago: When it comes to taking 
responsibility for the counternarcotics mission in Afghanistan, where 
does the buck stop?
    Mr. Benkert. President Karzai has primary responsibility for 
Afghanistan's narcotics problem, with the support of the international 
community. The Afghan Compact, agreed at the February 2006 London 
Conference, passed the lead to the Government of Afghanistan in all 
areas of reform and development, with international commitment to 
support Afghanistan in these areas. As Secretary Gates testified, at 
the Bucharest North Atlantic Treaty Organization (NATO) Summit the 
heads of government were direct with President Karzai on the narcotics 
issue.

    4. Senator Warner. Mr. Benkert, who is responsible for this matter 
ultimately? Who in the U.S. Government is responsible? Who in the NATO/
International Security Assistance Force (ISAF) structure is 
responsible?
    Mr. Benkert. Ultimately, President Karzai and the Government of 
Afghanistan are responsible for the narcotics problem in Afghanistan. 
The Afghan Government must have the political will to counter the 
narcotics threat. The majority of the poppy cultivation in Afghanistan 
is taking place in the southern region of the country where the 
government's authority is weak and the insurgency is strong.
    Within the U.S. Government, the lead agency in dealing with the 
narcotics problem continues to be the Department of State. In August 
2007, all relevant agencies of the U.S. Government approved the U.S. 
Counternarcotics Strategy for Afghanistan, which sets forth roles and 
responsibilities. The Office of National Drug Control Policy, 
Departments of State, Justice, and Defense, along with the United 
States Agency for International Development and the Drug Enforcement 
Administration will continue to implement programs to build Afghan 
capacity to enable President Karzai to succeed against the narcotics 
problem, in support of the Counternarcotics Strategy.
    The ISAF is providing counternarcotics support within the limits of 
the NATO operations plan. The ISAF commander's military chain of 
command ultimately leads to the Supreme Allied Commander, Europe. ISAF 
has an important supportive role in the counternarcotics effort, given 
that the drug trade is a key destabilizer in Afghanistan, and that the 
narcotics trade helps fuel the insurgency.
                                 ______
                                 
    [The nomination reference of Joseph A. Benkert follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 25, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Joseph A. Benkert, of Virginia, to be an Assistant Secretary of 
Defense, vice Peter Cyril Wyche Flory, resigned.
                                 ______
                                 
    [The biographical sketch of Joseph A. Benkert, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch by Joseph A. Benkert

    Joe Benkert became the Principal Deputy Assistant Secretary of 
Defense for Global Security Affairs (GSA) in December 2006 upon the 
establishment of the Office of Assistant Secretary of Defense for GSA. 
Previously, he served as the Principal Deputy Assistant Secretary of 
Defense for International Security Policy, GSA's predecessor. The GSA 
office is responsible for defense-related issues and programs that 
concern building the capability of partners and allies; coalition 
affairs; technology security policy; security cooperation; 
counternarcotics, counterproliferation, and countering global threats; 
detainee affairs; and prisoner of war/missing-in-action issues.
    Mr. Benkert previously served as Deputy Director and Director of 
the Defense Reconstruction Support Office and its predecessor, the 
Defense Support Office-Iraq. Mr. Benkert was instrumental in 
establishing these offices to provide a single focus within the Office 
of the Secretary of Defense for coordination of the Defense 
Department's support to stabilization and reconstruction activities in 
Iraq and Afghanistan. Prior to this appointment, he was the Deputy and 
Chief of Operations for the Coalition Provisional Authority's 
Washington office. Before that, he was Chief of Staff for the Principal 
Deputy Under Secretary of Defense for Policy.
    Mr. Benkert was a career Navy officer with extensive experience 
both in command at sea and in national security policy formulation and 
implementation in Washington. He commanded two destroyer squadrons; a 
guided missile cruiser, U.S.S. Josephus Daniels; and a frigate, U.S.S. 
McCloy. He was the Executive Director of the Chief of Naval Operations 
Executive Panel, an advisory group for the Navy's senior uniformed 
leader; and served in the Office of the Under Secretary of Defense for 
Policy both as a senior military assistant and as the Director of 
European Policy.
    Mr. Benkert graduated with distinction from the United States Naval 
Academy and received the Master of Public Policy degree from the John 
F. Kennedy School of Government, Harvard University. He and his wife 
Gail have two children and reside in Arlington, VA.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Joseph A. 
Benkert in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph Albert Benkert.

    2. Position to which nominated:
    Assistant Secretary of Defense (Global Security Affairs).

    3. Date of nomination:
    February 25, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 17, 1951; Frankfort, KY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Gail (DeVeuve) Benkert.

    7. Names and ages of children:
    Suzanne Benkert, 23; Stephen Joseph Benkert, 21.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Franklin County High School, Frankfort KY, Diploma, June 1969.
    U.S. Naval Academy, Annapolis MD, Bachelor of Science, June 1973.
    John F. Kennedy School of Government, Harvard University, Cambridge 
MA, Master of Public Policy, June 1979.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary of Defense, Global Security 
Affairs. Office of the Secretary of Defense (OSD), Washington, DC. 
December 2006-Present.
    Acting Principal Deputy Assistant Secretary of Defense, 
International Security Policy. (SES) OSD, Washington, DC. June 2006-
December 2006.
    Deputy Director and Director, Defense Reconstruction Support 
Office/Defense Support Office-Iraq. (Limited-term SES) Department of 
Defense, Washington, DC. August 2004-May 2006.
    Deputy and Chief of Operations, Coalition Provisional Authority 
(CPA) Washington. (Temporary appointment) Department of Defense, 
Washington, DC. November 2003-July 2004.
    Chief of Staff/Special Assistant, Office of the Principal Deputy 
Under Secretary of Defense for Policy. (Temporary appointment) 
Washington, DC. May-October 2003.
    Executive Director, Chief of Naval Operations (CNO) Executive 
Panel. (Captain, USN) Office of the Chief of Naval Operations, 
Washington, DC. February 2001-April 2003.
    Director, European Policy, Office of the Under Secretary of Defense 
for Policy. (Captain, USN) OSD, Washington, DC. March 1999-February 
2001.
    Senior Military Assistant to the Principal Deputy Under Secretary 
of Defense for Policy. (Captain, USN) OSD, Washington, DC. August 1997-
March 1999.
    Commander, Destroyer Squadron 32 and Commander, Destroyer Squadron 
22. (Captain, USN) Norfolk, VA, and deployed operations. May 1996-July 
1997.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, St. Mary's Episcopal Church, Arlington. VA
    Member, U.S. Naval Academy Alumni Association
    Member, U.S. Naval Institute
    Member, Military Officers Association of America
    Member, Smithsonian Associates

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Military medals: Defense Superior Service Medal, Legion of Merit, 
Navy Meritorious Service Medal, Navy Commendation Medal, Coast Guard 
Commendation Medal, Navy Achievement Medal, unit and campaign awards.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    I authored one article for the U.S. Naval Institute Proceedings in 
1985.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No formal speeches.
    In my current position, I have made informal remarks to government 
audiences on several occasions on combating weapons of mass 
destruction. While serving with the Coalition Provisional Authority, I 
made informal remarks on several occasions at conferences on Iraq 
reconstruction.
    In my current and previous positions, I have testified before 
Senate and House committees on several occasions. Transcripts are 
available. These appearances include:

          Senate Committee on Armed Services, Subcommittee on Readiness 
        and Management Support, ``Use of Riot Control Agents,'' 
        September 2006
          Senate Committee on Armed Services, Subcommittee on Readiness 
        and Management Support, ``Overseas Basing Plans,'' April 2007
          Senate Committee on Armed Services, Subcommittee on Emerging 
        Threats and Capabilities, ``Cooperative Threat Reduction 
        Program,'' April 2007
          House Committee on Government Reform, Subcommittee on 
        National Security, Emerging Threats and International Security, 
        ``The Development Fund for Iraq,'' June 2005
          House Committee on Appropriations, Defense Subcommittee, 
        ``Guantanamo,'' May 2007

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    I agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Joseph A. Benkert.
    This 25th day of February, 2008.

    [The nomination of Joseph A. Benkert reported to the Senate 
by Chairman Levin on June 26, 2008, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on July 23, 2008.]
                              ----------                              

    [Prepared questions submitted to Sean J. Stackley by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience in the Department of Defense (DOD)? 
If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. I do not have recommended modifications to the Goldwater-
Nichols Act. Civilian and military roles defined by Goldwater-Nichols 
have been modified by Congress since first enactment of this 
cornerstone legislation commensurate as opportunities to improve the 
Department's effectiveness have become apparent. I consider it to be 
incumbent upon the Service Acquisition Executive to routinely review 
the need for changes to the act and, if confirmed, I would conduct such 
review and bring forward to the Department changes that merit 
consideration by Congress.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy for Research, Development, and 
Acquisition (ASN(RDA))?
    Answer. It is my understanding that, as currently designated by the 
Secretary of the Navy, the ASN(RDA) serves as the Service Acquisition 
Executive for the Department of the Navy with the authority, 
responsibility, and accountability for all acquisition functions and 
programs within the Department of the Navy. As such, the ASN(RDA) is 
responsible for managing the Department of the Navy's acquisition 
workforce management structure and processes consistent with governing 
statute, DOD policies, and Navy regulations; making recommendations 
regarding milestone decisions for Acquisition Category ID programs; and 
serving as the decision authority for Acquisition Category IC and II 
programs.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. A strong technical background and an extensive Navy career 
have provided me with the opportunity to serve in a series of 
assignments in ship operations, design and construction, maintenance, 
logistics, system integration, acquisition policy, and Major Program 
management. Specifically, operational experience gained while deployed 
in a Navy destroyer; and subsequent assignments as project naval 
architect for a first of class frigate, shipyard production manager for 
a first of class destroyer, and director for maintenance and 
modernization for Atlantic Fleet cruisers and destroyers provided 
invaluable experience in the operation, design, construction, and life 
cycle support of complex warships. Later assignments in the Aegis 
Shipbuilding Program Office and the Office of the ASN(RDA) provided in-
depth experience in procurement, financial management, policy 
formulation, and the business end of major defense programs. 
Subsequently, as the LPD 17 Program Manager, I had the opportunity to 
lead an organization of research centers, warfare centers, Systems 
Commands, industry, and the test and evaluation community while 
completing the Lead Ship's design, software development, weapon system 
integration, production, test, and delivery. More recently, in the 
performance of my duties on the staff of the Senate Armed Services 
Committee, I have gained critical insight to the role of Congress and 
the perspective of the committee while working closely with the Navy 
and Marine Corps on the full spectrum of acquisition matters that 
confront the ASN(RDA).
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASN(RDA)?
    Answer. I believe that I am technically and professionally prepared 
to perform the duties of the ASN(RDA). If confirmed, I expect to have a 
close working relationship with the Secretary of the Navy and the Under 
Secretary of Defense (Acquisition, Technology, and Logistics), and I 
expect to coordinate on acquisition matters with the Secretariat and 
the Chief of Naval Operations (CNO) organizations. Ultimately, 
performance of the duties of the ASN(RDA) is measured by the 
performance of the acquisition workforce. There are a number of 
actions, initiated by the Department and with the support of Congress, 
intended to strengthen this workforce and the processes governing the 
management of major procurements. I believe that one of my priorities, 
if confirmed, will be to further the implementation of these 
initiatives.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the Secretary of the Navy 
would prescribe for you?
    Answer. If confirmed, I expect the Secretary of Defense and the 
Secretary of the Navy to assign me duties and functions commensurate 
with the ASN(RDA) position, and any others they may deem appropriate.

                             RELATIONSHIPS

    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of the Navy/Under Secretary of the Navy.
    Answer. By current instruction, the Secretary of the Navy has 
designated the ASN(RDA) as the Department of the Navy Service 
Acquisition Executive with responsibility for establishing acquisition 
policy and procedures, and for managing research, development and 
acquisition within the Department of the Navy. If confirmed, I will 
report directly to the Secretary and Under Secretary of the Navy in the 
execution of the duties related to this function. Further, I will 
perform other duties as assigned by the Secretary.
    Question. The Chief of Naval Operations/Commandant of the Marine 
Corps.
    Answer. The CNO and Commandant of the Marine Corps are the 
principal advisors to the Secretary of the Navy in the allocation of 
resources to meet program requirements. If confirmed, I will work 
closely with the CNO and the Commandant in the planning and execution 
of acquisition programs to most effectively meet the warfighters' 
requirements with available resources.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I would represent the Department of the Navy 
to the Under Secretary of Defense on all matters relating to Navy 
acquisition policy and programs. In addition, as the Navy Acquisition 
Executive, I would provide recommendations on all Navy Acquisition 
Category ID programs to the Under Secretary of Defense.
    Question. The Assistant Secretaries of the Army and Air Force for 
Acquisition.
    Answer. If confirmed, I plan to establish close working 
relationships with my counterparts in the Army and the Air Force to 
ensure coordination on key acquisition issues.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, I expect to seek advice and counsel from the 
Navy's Chief Legal Officer on all relevant matters.
    Question. The Director for Defense Research and Engineering 
(DDR&E).
    Answer. If confirmed, I will work with DDR&E in the coordination of 
Research and Development (R&D) efforts by the Department of the Navy.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration (ASD(NII)).
    Answer. If confirmed, I will work with the ASD(NII) as necessary to 
ensure Navy/Marine Corps system design and development meet 
interoperability exchange, information assurance, and further network 
requirements established by the ASD(NII).
    Question. The Navy Chief Information Officer.
    Answer. The Department of the Navy (DON) Chief Information Officer 
(CIO) reports directly to the Secretary for all matters on Information 
Management (IM) and Information Technology (IT). If confirmed, I will 
work closely with the DON CIO on acquisition of IM/IT systems, and IM/
IT matters as they affect Navy acquisition.
    Question. The Director of Operational Test and Evaluation.
    Answer. If confirmed, I will work closely with the Director in the 
development, approval, and execution of Test and Evaluation Master 
Plans for Navy acquisition programs.
    Question. The Chief of Naval Research.
    Answer. By current instruction, the Chief of Naval Research reports 
to the ASN(RDA). If confirmed, I would oversee the Chief of Naval 
Research execution and management of the Department of the Navy RDT&E 
appropriation.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront, if confirmed as ASN(RDA)?
    Answer. If confirmed as the ASN(RDA), my overarching challenge will 
be to oversee and integrate the Department of the Navy's research, 
development and procurement functions within the available resources in 
order to provide the Nation's Navy and Marine Corps with unmatched 
capability for the performance of their full range of missions. I 
believe some of the more specific challenges I would confront include:

        <bullet> Meeting the urgent needs of the sailors and Marines in 
        prosecuting the global war on terrorism;
        <bullet> Ensuring the depth and breadth of skills and 
        experience in the Navy's acquisition workforce matches the 
        requirements for managing the Navy's acquisition programs;
        <bullet> Improving performance in controlling cost and 
        requirements in order to deliver programs within budget and 
        schedule;
        <bullet> Sustaining a robust science and technology program to 
        ensure our technological advantage over future threats;
        <bullet> Addressing industrial base challenges in an 
        environment of sustained low rate production.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I expect to draw on my previous experiences 
as well as the advice and counsel of the Navy's acquisition team, the 
CNO, and the Commandant in order to address these challenges. I intend 
to work closely with the Under Secretary of Defense (Acquisition, 
Technology, and Logistics), industry, and Congress to develop and 
execute plans and initiatives that will advance our efforts on these 
challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the ASN(RDA)?
    Answer. At this time, I am unaware of any serious problems in the 
performance of the functions of the ASN(RDA).
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will address problems as they arise, 
establishing a plan of action and timeline appropriate to the nature, 
priority, and urgency of each problem.

                               PRIORITIES

    Question. What broad priorities would you establish, if confirmed, 
in terms of issues which must be addressed by the ASN(RDA)?
    Answer. If confirmed, I will work within the framework of 
objectives established by the Secretary of the Navy for the Department. 
I believe some of the more specific priorities I would need to address 
include:

        <bullet> Meeting the urgent needs of the sailors and marines 
        prosecuting the global war on terrorism;
        <bullet> Developing, implementing, and executing acquisition 
        plans to affordably modernize and procure the ships, aircraft, 
        and related systems required to meet the demands of the 
        National Military Strategy;
        <bullet> Building and sustaining a highly capable acquisition 
        workforce to manage acquisition of Navy/Marine Corps programs.

                           ACQUISITION ISSUES

    Question. Major Defense Acquisition Programs (MDAPs) in the Navy 
and the other military Services continue to be subject to funding and 
requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes. Studies by the Department, by third parties, and by 
oversight organizations, such as the Government Accountability Office 
(GAO), have consistently identified instability in funding and 
requirements as one of the root causes for cost growth and schedule 
delay on major programs.
    Question. What steps, if any, do you believe the Navy should take 
to address funding and requirements instability?
    Answer. I believe that there is close coupling between the degree 
of stability in funding and requirements, the quality of cost estimates 
for major weapons systems, and the performance by the government and 
industry as they relate to program cost and schedule. As such, I 
believe that a first step in addressing funding and requirements 
instability is to ensure the reasonableness of the system requirements 
and to improve the quality of related cost and schedule estimates to 
ensure that decisionmakers are well informed of their full commitment 
of resources at the front end of major weapon systems programs. A 
commensurate step would include ensuring adherence to the Department's 
standards for achieving the appropriate level of technology readiness 
prior to proceeding to the next acquisition phase to minimize the 
degree of uncertainty that would surround the cost estimate at each 
program milestone. If the Department properly funds the program, it is 
then incumbent upon the acquisition team to exercise discipline in 
tracing system design and specifications to performance requirements, 
and to employ the appropriate acquisition strategy to deliver the 
capability within the resources allocated. Throughout this process, it 
is essential that the acquisition organization working closely with the 
resources and requirements organization adheres to Navy acquisition 
policy governing contract changes. If adequate resources are not 
programmed, I believe it is incumbent upon the Acquisition Executive to 
ensure the Department is fully aware of the effect of such funding 
instability on program execution, including cost impacts to other 
programs and impact to the industrial base. For mature programs that 
meet appropriate criteria, multiyear contracting has historically 
proven effective in maintaining funding and requirements stability.
    GAO has reported that the use of insufficiently mature technologies 
has resulted in significant cost and schedule growth in the MDAPs of 
the Navy and the other military departments. Section 2366a of title 10, 
U.S.C., requires the Milestone Decision Authority for an MDAP to 
certify that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    Question. Do you believe that the use of insufficiently mature 
technologies drives up program costs and leads to delays in the 
fielding of major weapon systems?
    Answer. Yes.
    Question. What steps will you take, if confirmed, to make sure that 
the Navy complies with the requirements of section 2366a?
    Answer. If confirmed, I will review Navy acquisition policy and 
practice to ensure compliance with the requirements of section 2366a, 
assess the implementation of this policy in the course of reviewing 
major programs, and ensure adherence through continued program review 
and oversight. Consistent with milestone decision authority designated 
for the ASN(RDA), I will ensure compliance with the section 2366a 
certification requirements prior to Milestone B approval and provide 
notification to the congressional defense committees. If it is 
necessary to proceed with Milestone B approval prior to completing the 
2366a requirements in order to meet national security objectives, I 
will submit in writing to the congressional defense committees a waiver 
to section 2366a requirements, my determination that the Department 
would be unable to meet critical national security objectives without 
the waiver, and the reasons for this determination.
    GAO has reported that the use of unrealistically optimistic cost 
and schedule estimates by the Navy and the other military departments 
is a major contributor to cost growth and program failure.
    Question. Do you believe that the use of unrealistically optimistic 
cost and schedule estimates leads to program disruptions that drive up 
program costs and delay the fielding of major weapon systems?
    Answer. Yes.
    Question. What steps do you believe the Navy should take to ensure 
that cost and schedule estimates are fair and independent, and provide 
a sound basis for Navy programs?
    Answer. I believe that the quality of cost and schedule estimates 
relies to a great extent on the cost models employed by the various 
estimating groups; access to data required to validate these models; 
the policies governing the treatment of risk, contract type, 
escalation, margin, and change management; and the estimating group's 
degree of independence, experience, and skill at managing these and 
other factors in the formulation of cost and schedule estimates. I 
believe that steps to ensure that cost and schedule estimates are fair 
and independent include ensuring that the cost estimating groups 
responsible for these efforts are adequately staffed with a workforce 
skilled and experienced for the task, that their accountability is 
distinct from the program office, and that the governing policies 
described above reflect the degree of risk that the Department is 
willing to include in budgeting for the program. In formulating 
estimates for major programs, it is prudent to seek multiple 
independent estimates, compare the estimates, understand the 
differences, and ensure that the risk highlighted by this approach is 
either included in the program budget or mitigated through the 
program's contract strategy and risk management plan.
    The Under Secretary of Defense for Acquisition, Technology and 
Logistics has issued a memorandum directing the military departments to 
institute new ``Configuration Steering Boards'' to review and approve 
new requirements that could add significantly to the costs of major 
systems.
    Do you support this requirement?
    Answer. Yes.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy complies with this new requirement?
    Answer. If confirmed, I will ensure that this requirement is 
addressed by appropriate instructions governing Navy acquisition policy 
and procedures. I will ensure that these instructions have been 
properly promulgated, review results of the Configuration Steering 
Boards, and ensure adherence to this requirement in the course of 
overseeing management of major programs.
    The Under Secretary of Defense for Acquisition, Technology and 
Logistics has also issued a memorandum directing that the largest DOD 
acquisition programs undergo competitive prototyping to ensure 
technological maturity, reduce technical risk, validate designs, cost 
estimates, evaluate manufacturing processes, and refine requirements.
    Question. Do you support this requirement?
    Answer. Yes. As noted, as major weapon systems trend towards 
increased complexity, competitive prototyping provides an effective 
means for controlling and reducing technical risk in major defense 
programs. Additionally, sustaining competition to later stages of 
development for these weapon systems should provide for increased 
innovation and affordability in meeting design requirements.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy complies with this new requirement?
    Answer. If confirmed, I will ensure that the requirement addressed 
in this USD(AT&L) memorandum is captured by ASN(RDA) instructions 
governing Navy acquisition policy and procedures, I will ensure that 
these instructions have been properly promulgated, and I will assess 
the implementation of the requirement in the course of conducting 
reviews of major programs.
    Numerous acquisition reviews over the last decade have identified 
shortcomings and gaps in the acquisition workforce of the DOD. Section 
852 of the National Defense Authorization Act for Fiscal Year 2008 
establishes an Acquisition Workforce Development Fund to provide the 
resources needed to begin rebuilding the Department's corps of 
acquisition professionals.
    Question. Do you believe that a properly sized workforce of 
appropriately trained acquisition professionals is essential if the 
Navy is going to get good value for the expenditure of public 
resources?
    Answer. Yes.
    Question. What steps do you expect to take, if confirmed, to ensure 
that the Navy makes appropriate use of the funds made available 
pursuant to section 852?
    Answer. As noted, the drawdown of the acquisition workforce has 
occurred over a protracted period. Similarly, a sustained campaign will 
be necessary in order to attract, train and retain the skilled 
professionals required by the Department to properly perform its 
mission, provide appropriate oversight of contractor performance, and 
provide the best value for the taxpayer's dollars. If confirmed, I will 
review current metrics and results of the Department's most recent 
billet review in order to assess existing gaps in critical skills for 
the acquisition workforce. I will review guidance promulgated by the 
Under Secretary of Defense (Acquisition, Technology, and Logistics) for 
the administration of the Fund, and consult with senior Navy civilian 
and military leadership to assess the implementation of this guidance 
and the current state of planning for use of these funds within the 
Department.
    Another concern raised about MDAPs is that a number of factors, 
including promotion and rotation policies are causing the military 
Services to retain program managers for too short a time.
    Question. Do you agree that shortened tours as program managers can 
lead to difficulties in Acquisition programs?
    Answer. Yes.
    Question. If you agree, what steps would you propose to take to 
provide for stability in program management?
    Answer. If confirmed, I would review current policy and practice 
for assigning program managers to major programs with senior Navy 
military and civilian leaders, including such considerations as career 
flow points, tenure agreements, and succession planning for program 
managers. To the extent that existing policy warrants improvement to 
support both the function of program management and the career of the 
program manager, I will work within the Department to make these 
changes; and otherwise I will work to ensure that the Department 
adheres to established policy.

                          CONTRACT MANAGEMENT

    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Navy should take to improve 
the staffing, training and management of its acquisition of services?
    Answer. I understand that the Department of the Navy has 
implemented a number of initiatives to improve the management of its 
acquisition of services and, if confirmed, I intend to review these 
initiatives. However, I believe that this issue must be addressed 
within the context and framework of previously noted concerns regarding 
the drawdown of the acquisition workforce.
    Question. Do you agree that the Navy should develop processes and 
systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. Yes.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. DOD is by far the 
largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Navy should take to ensure 
that its use of interagency contracts complies with applicable DOD 
requirements and is in the best interests of the Department?
    Answer. I understand that the Department of the Navy has 
promulgated procedures to ensure that the use of interagency contracts 
is in the best interests of the Department. If confirmed, I will work 
to ensure that the Department complies with these procedures and 
applicable DOD requirements.

                    MULTIYEAR PROCUREMENT CONTRACTS

    Question. Section 811 of the National Defense Authorization Act for 
Fiscal Year 2008 amended section 2306b of title 10, U.S.C., to ensure 
that DOD enters multiyear contracts only in cases where stable design 
and stable requirements reduce risk, and only in cases where 
substantial savings are expected. The revised provision requires that 
data be provided to Congress in a timely manner to enable the 
congressional defense committees to make informed decisions on such 
contracts.
    What types of programs do you believe are appropriate for the use 
of multiyear contracts?
    Answer. Multiyear contracts potentially provide substantial savings 
through improved production processes, optimized employment of 
workforce and facilities, and procurement of material at economic order 
quantities. I believe that programs that are characterized by stable 
requirements, mature design, and realistic cost estimates, and that are 
intended to be procured at an economic rate under a fixed price type 
contract should be considered for multiyear procurement.
    Question. If confirmed, will you ensure that the Navy and the 
Marine Corps fully comply with the requirements of section 2306b of 
title 10, U.S.C., as amended by section 811 of the National Defense 
Authorization Act for Fiscal Year 2008 (Public Law 110-181) with 
respect to programs that are forwarded for authorization under a 
multiyear procurement contract?
    Answer. Yes.
    Question. What is your understanding of the requirement that a 
multiyear contract result in ``substantial savings'' compared to the 
cost of carrying out a program through annual contracts?
    Answer. My understanding of the requirement that a multiyear 
contract result in ``substantial savings'' is, as defined by section 
2306b, that the use of a multiyear contract will result in savings that 
exceed 10 percent of the total costs of carrying out the program 
through annual contracts. Exception to this criterion would be 
considered if the Department presents an exceptionally strong case that 
the proposal meets the other requirements of section 2306b.
    Question. What is your understanding of the new requirements 
regarding the timing of any DOD request for legislative authorization 
of a multiyear procurement contract for a particular program?
    Answer. My understanding of the new requirements regarding the 
timing of any DOD request for authorization of a multiyear procurement 
contract is that the Secretary of Defense is to certify in writing by 
no later than March 1 of the year in which the Secretary requests the 
authority, that he has determined that each of the requirements of 
section 2306b(a) will be met by the multiyear procurement.

                         ACQUISITION MANAGEMENT

    Question. Section 908 of the National Defense Authorization Act for 
Fiscal Year 2008 (Public Law 110-181) requires that the service 
acquisition executive of each of the military departments shall have a 
3-star principal military deputy. The Senate report states that the 
purpose of this provision is to strengthen the performance of the 
service acquisition executive; improve the oversight provided military 
officers serving in acquisition commands; and strengthen the 
acquisition career field in the military The provision requires that 
each principal military deputy be appointed from among officers who 
have significant experience in the areas of acquisition and program 
management, including a requirement that a nominee for this position 
have at least 10 years of direct acquisition experience.
    If confirmed, will you ensure that officers assigned to the 
principal military deputy position meet the full qualifications of a 
critical acquisition position?
    Answer. If confirmed, I will ensure that officers assigned to the 
principal military deputy position are the best qualified for the 
position with regard to the requirements for this critical acquisition 
position.
    Question. What steps will you take, if confirmed, to improve 
accountability in acquisition management and will you hold those 
acquisition officers accountable for failing to follow acquisition laws 
and regulations?
    Answer. If confirmed, the steps I would consider for increasing 
accountability would include an assessment of qualifications required 
for critical acquisition billets, an assessment of succession planning 
to ensure qualified acquisition professionals are being developed for 
program management positions, and a review of policy and practice to 
ensure program managers are being expected to commit to tenure 
agreements that align to the program's needs for continuity and 
stability. I would review current practice regarding `turnover' 
letters, and consider the value of using these opportunities for the 
incoming program manager to identify the current status of the program 
and to identify the program objectives for his tenure. Further, I would 
work with the program managers to identify the tools, resources and 
support they require in order to successfully manage their programs and 
would consider it to be my responsibility to ensure that these needs 
are met. If an acquisition official were to violate law or regulations, 
I would thoroughly review the facts and findings and work with counsel 
to determine appropriate actions in holding the individual accountable.
    Question. What steps will you take, if confirmed, to improve 
oversight in the requirements determination, resource allocation or 
acquisition management processes?
    Answer. If confirmed, I will work to ensure that the CNO and the 
Commandant of the Marine Corps are well advised on cost, schedule and 
risk associated with developing and fielding new capabilities, and that 
related programs are properly funded through the Program, Planning, 
Budgeting and Execution system. I will review existing Navy acquisition 
policy and practice governing changes to system requirements to ensure 
appropriate discipline in the management of contract changes. I 
understand that the Secretary of the Navy has implemented a series of 
initiatives, primarily a Gate Review process, to improve oversight and 
coordination in requirements determination and resource allocation 
leading to acquisition of major programs. If confirmed, I will take the 
necessary steps to ensure the effectiveness of these processes.
    Question. What is your view of the appropriate use of fixed-price 
contracts in major defense acquisition programs? If confirmed, will you 
ensure that the Department of the Navy fully implements the 
requirements of section 818 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007?
    Answer. My view is that fixed-price contracts are appropriate for 
major defense acquisition programs when the system being procured can 
be described in sufficient detail to ensure complete understanding of 
the requirements and the inherent risks of performance by both the 
government and the contractor. If confirmed, I will review the current 
status of the Department of the Navy's implementation of the 
requirements of section 818 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 and, as necessary, take 
appropriate steps to fulfill the requirements.
    Question. GAO has reported that since the mid-1990s, the 
acquisition costs for major weapons programs has increased almost 120 
percent and that current programs are experiencing, on average, nearly 
a 2-year delay in delivering initial capabilities to the warfighter.
    What steps will you take, if confirmed, to reduce or eliminate cost 
overruns and delays for major weapon programs, such as what the 
department experienced in the Littoral Combat Ship and the 
Expeditionary Fighting Vehicle?
    Answer. Common causes for cost overruns and delays of major 
programs include invalid cost estimates, requirements instability, 
funding instability, excess technical risk, ineffective contract 
strategies, disruption caused by contract change, and inadequate 
government oversight. If confirmed, I will review related acquisition 
policy, processes, standards and practices to ensure their 
effectiveness at addressing these issues; I will review major programs 
to assess their risk for overrun or delay; and I will review the 
current health of the acquisition workforce, including the staffing of 
critical billets for the management of these major programs. To the 
extent that deficiencies, weaknesses, or opportunities for improvement 
are identified during these reviews, I'll work within the Department to 
identify and implement appropriate corrective action.
    Question. Recently GAO released a report entitled, ``Defense 
Contracting, Post-Government Employment of Former DOD Officials Needs 
Greater Transparency.'' GAO found that a large number of former DOD 
officials may have worked on defense contracts related to their former 
agencies, and some may have worked on the same contracts for which they 
had oversight responsibilities or decisionmaking authorities while at 
DOD.
    If confirmed, what steps would you take to ensure that acquisition 
officials in the Department of the Navy do not violate statutes and 
regulations regarding conflicts of interest and post-government 
employment?
    Answer. I am aware that the Department conducts training and 
counseling regarding post-government employment for acquisition 
officials. If confirmed, I would consult with the Office of General 
Counsel regarding the Department's further responsibilities for 
ensuring compliance by former DOD officials in post-government 
employment, and determine any necessary further steps.
    Question. The poor performance of many major defense acquisition 
programs has been attributed to the failure of the military departments 
to make tough decisions as to which programs should be pursued, and 
more importantly, not pursued, to ensure that requirements are 
reasonable achievable and programs are executable, and to hold senior 
officials accountable when responsibilities are not fulfilled.
    Would you agree that the existing acquisition culture in DOD leads 
the military Services, including the Department of the Navy, to over-
promise on capability and underestimate costs in order to buy new 
programs and capture funding?
    Answer. Yes. Basing program decisions on unrealistic cost and 
schedule estimates is routinely cited as a root cause for poor cost and 
schedule performance in the procurement of major defense programs.
    Question. If confirmed, what steps would you take to change that 
culture?
    Answer. If confirmed, I will review related acquisition policy, 
processes, standards, and practices to ensure their effectiveness at 
addressing these issues; I will review major programs to assess their 
risk for overrun or delay; and I will evaluate current tools and 
practices for ensuring the reasonableness of system requirements and 
place priority on ensuring the quality of related cost and schedule 
estimates. A commensurate step would include ensuring adherence to the 
Department's standards for achieving the level of technology 
appropriate to each major milestone. To the extent that deficiencies, 
weaknesses, or opportunities for improvement are identified during 
these reviews, I'll work within the Department to identify and 
implement appropriate corrective action. Further, I understand that the 
Secretary of the Navy has implemented a series of initiatives, 
primarily a Gate Review process, to improve oversight and coordination 
in requirements determination and resource allocation leading to 
acquisition of major programs. If confirmed, I will take the necessary 
steps to ensure the effectiveness of these processes.

                      NAVY SCIENCE AND TECHNOLOGY

    Question. What are the current major strengths and weaknesses of 
the Navy science and technology enterprise in supporting Navy and 
defense missions?
    Answer. The Navy science and technology enterprise has underpinned 
the technological superiority of the U.S. Navy. The extensive network 
of laboratories and institutions comprising this enterprise provide a 
broad base of expertise and world class facilities that succeed in 
bringing innovation and leading edge technologies to the design of 
today's U.S. Navy ships, aircraft and weapon systems.
    Question. What metrics would you use to judge the value of Navy 
science and technology investments and the level of resource investment 
in them?
    Answer. Metrics for judging the value of science and technology 
investments must be careful in defining `return on investment.' By its 
nature, the development of leading edge technologies requires a higher 
tolerance for risk and failure. However, there should be a measure of 
correlation between the future naval capabilities envisioned for `the 
Navy after next,' the projects comprising the science and technology 
portfolio, the dollars invested, and relative measures of risk, 
payback, priority, and potential value to the warfighter. If confirmed, 
I would consult with the Chief of Naval Research regarding the 
enterprise's current metrics to determine if further measures are 
warranted.
    Question. What methodology will you use to assess the 
appropriateness of the current balance between short- and long-term 
research to meet current and future Navy and Marine Corps needs?
    Answer. If confirmed, I will review the current and historical 
balance between short and long term Navy and Marine Corps research with 
the Chief of Naval Research and other key stakeholders in the science 
and technology enterprise in the context of near and long term 
requirements to determine whether the current balance and trends best 
support the warfighter.
    Question. What role do Navy science and technology investments play 
in reducing technical risk for major acquisition programs?
    Answer. Ultimately, these investments are fundamental to the 
acquisition team's ability to provide the advance technologies that are 
critical to sustaining naval superiority. Further, as weapon systems 
tend toward increasing complexity, it is increasingly important that 
major programs seek to retire technical risk by leveraging science and 
technology efforts in the early acquisition phases.
    Question. How should Navy science and technology investments be 
planned, programmed, and coordinated with respect to major acquisition 
efforts to help reduce risk and keep programs on budget and on 
schedule?
    Answer. A well-developed acquisition plan will include a technology 
roadmap that identifies the risk factors, key development efforts, 
technology readiness levels appropriate to each phase of acquisition, 
and estimated costs in order to support the program's budget and 
schedule. The program plan needs to establish well documented exit 
criteria at decision points to ensure risk is managed in each of these 
phases, and the management structure must bridge the science and 
technology, acquisition, and requirements organizations to manage 
progress and ensure close coordination throughout the process.

                NAVY LABORATORIES AND TECHNICAL CENTERS

    Question. In general, what are the greatest current strengths and 
weaknesses of the Navy's laboratories and technical centers?
    Answer. The technical expertise and facilities comprising the 
network of Navy laboratories and technical centers are a strategic, 
national asset. These centers have been at the core of every major 
innovation in naval systems and are well suited for the unique demands 
of naval operations. I believe that the challenges associated with 
sustaining these capabilities and expertise are inherently significant, 
made more so when confronting issues with resource constraints, 
competition from outside industry, and aging workforce issues.
    Question. How would you compare the quality of the Navy's labs and 
technical centers with respect to other defense laboratories and 
national laboratories?
    Answer. If confirmed, I would consult with the Chief of Naval 
Research to determine how the Navy laboratories and technical centers 
could benefit from benchmarking these other defense and national 
laboratories.
    Question. What initiatives would you consider to improve the 
ability of Navy laboratories and technical centers to support Navy and 
defense missions?
    Answer. If confirmed, I will review with the Chief of Naval 
Research and key stakeholders the current state of Navy laboratories 
and technical centers, as well as ongoing and planned initiatives prior 
to considering further initiatives.

                 NAVY TEST AND EVALUATION CAPABILITIES

    Question. What are the greatest strengths and weaknesses in the 
Navy's Test and Evaluation (T&E) to ensure adequate development and 
operational testing of systems?
    Answer. The Navy's T&E program has been extremely effective at 
ensuring major weapon systems are operationally effective and suitable 
when fielded. One of the more significant challenges to the T&E program 
is the completion of development of advanced threat-representative 
weapon targets for live-fire testing.
    Question. Do you feel that the Navy's test infrastructure, 
including facilities and personnel, are adequate to support current and 
future Navy needs?
    Answer. Yes. As noted, target development efforts remain a 
challenge, but I believe that the Navy has employed acceptable methods 
to continue testing while development proceeds.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain in institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What challenges to transition do you see within the Department of 
the Navy?
    Answer. There is a natural tension that exists between the desire 
to field the most advanced technologies available for the warfighter 
and the need to effectively manage risk to ensure that programs meet 
performance requirements within budget and schedule. The USD(AT&L) and 
the Navy have established policies for balancing these competing 
factors through such approaches as competitive prototyping, such 
policies as the establishment of configuration steering boards and 
establishment of technology readiness level criteria for milestone 
decisions, and such processes as Gate Reviews for major programs.
    Question. If confirmed, how would you ensure that technologies 
rapidly transition from the laboratory into the hands of the 
warfighter? What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. If confirmed, I will work within the framework described 
above for standard acquisition programs. Regarding rapid acquisition 
programs, or similar efforts to meet urgent needs of the warfighter, I 
will assess the effectiveness of current efforts with the program 
managers, systems commands, and warfare centers to determine what 
further support or guidance they need to improve on these transition 
efforts.

                          TECHNICAL WORKFORCE

    Question. What is your current assessment of the quality and 
sustainability of the DOD S&T workforce and the management of the 
Navy's laboratory and technical center infrastructure?
    Answer. I believe that DOD has historically been successful at 
attracting an extremely skilled science and technology workforce. 
However, the drawdown of the Department and acquisition workforce has 
impacted the Department's ability to sustain this depth and breadth of 
skills. This is compounded by increasing demand for these skills in 
private industry.
    Question. If confirmed, what plans would you pursue to ensure an 
adequate supply of Navy and Marine Corps experts in critical 
disciplines in the Department's R&D commands? What role will you in 
play in ensuring that the Navy laboratories and technical centers have 
the proper personnel tools necessary to recruit and retain a world 
class technical workforce?
    Answer. If confirmed, I will consult with the Chief of Naval 
Research and the leadership of the Navy warfare centers to gain a 
better assessment of the current state of critical skills in the 
Department's R&D commands and, in concert with review of the 
acquisition workforce, determine what further plans are appropriate to 
sustain these critical skills.

                  NAVY INFORMATION TECHNOLOGY PROGRAMS

    Question. What steps do you feel the Navy needs to take to ensure 
the success of the Next Generation Enterprise Networks (NGEN) program?
    Answer. I believe that the first and most important step is to 
ensure the Department has effectively determined a reasonable set of 
requirements for NGEN, and has balanced these requirements with the 
resources available for the program. The Department needs to identify 
the risks, obstacles, and costs it will incur when transitioning from 
Navy/Marine Corps Intranet (NMCI) to NGEN, and it will need to work 
closely with industry as it defines its requirements to ensure the 
solicitation process is fair and timely and that performance 
requirements are well understood.
    Question. How will you work to ensure a seamless transition between 
the NMCI and NGEN programs so that Navy missions are not adversely 
affected during the transition process?
    Answer. If confirmed, I will review the current strategy for 
transition between NMCI and NGEN and ensure appropriate priority is 
placed on a seamless transition, including contract schedules and 
incentives, phasing and communication of the rollout plan, and an 
accompanying risk mitigation plan.
    Question. How will you work to ensure that Navy IT investments, in 
both tactical and businesses systems, are coordinated and interoperable 
with joint efforts and Department-wide enterprise initiatives?
    Answer. The Department of the Navy and the Office of the Secretary 
of Defense have parallel organizations responsible for these concerns. 
If confirmed, I will work with these organizations to ensure that 
acquisition of these systems meet their requirements for 
interoperability.

     NATIONAL SHIPBUILDING RESEARCH PROGRAM--ADVANCED SHIPBUILDING 
                               ENTERPRISE

    Question. The Advanced Shipbuilding Enterprise of the National 
Shipbuilding Research Program (NSRP-ASE) is a collaborative effort 
between the Navy and shipbuilding industry to improve processes with 
the objective of reducing the costs to build ships. Modest funding from 
both partners is projected to more than pay for itself. With the 
current criticism of increasing costs for Navy ships, it does not seem 
prudent for the Navy to cease supporting this program, but funding for 
the program was not requested in the fiscal year 2009 budget request.
    If confirmed, what steps would you propose in working with the 
shipyards to reduce the costs of Navy shipbuilding?
    Answer. If confirmed, I will work to ensure shipbuilding 
requirements are well-defined, reasonable, and stable; that contracts 
are appropriately structured to incentivize cost performance; and that 
appropriate measures are in place to ensure discipline in managing 
contract changes. I will work within the Department to maintain stable 
funding for shipbuilding programs and look for opportunities to 
stabilize shipyard workload, including use of multiyear contracts when 
conditions are met for substantial savings. Beyond shipbuilder costs, I 
will work with Integrated Warfare Systems to improve understanding of 
the cost drivers in naval weapons systems development, integration and 
testing in order to identify opportunities to improve on costs in these 
areas. I will seek to leverage competition where possible, and employ 
fixed type contracts where appropriate.

                              SHIPBUILDING

    Question. The committee has repeatedly heard testimony from the 
Navy and industry leadership that stability in the shipbuilding program 
is essential if costs are to be controlled. Although there has been 
some progress on this front lately, the Navy has changed the 
acquisition profiles and strategies for shipbuilding programs numerous 
times in recent years.
    Do you agree that stability of acquisition profiles and strategies 
are essential to shipbuilding cost control?
    Answer. Yes
    Question. If confirmed, how would you attempt to ensure this 
stability?
    Answer. If confirmed, I will work to ensure that the shipbuilding 
program is built upon realistic cost estimates and reasonable, 
efficient procurement profiles; that platform requirements are well 
understood and the development of key technologies is on a path to 
support these requirements; that competition plans and contract types, 
terms, and conditions appropriately incentivize performance within 
budget; that appropriate policy is in place to ensure discipline in the 
management of contract changes; and that multiyear contracts are 
employed when conditions are met to achieve substantial savings. 
Further, I will advocate this stability throughout the Planning, 
Programming, Budget, and Execution process to ensure that the 
Department, in evaluating changes to the shipbuilding program, is well 
informed of related impacts to cost, schedules, and the industrial 
base.

                  ALTERNATIVE FUNDING FOR SHIPBUILDING

    Question. On numerous occasions, Navy leaders have testified that 
identifying an acceptable alternative to the full funding policy for 
shipbuilding is necessary to avoid increases in the Shipbuilding and 
Conversion, Navy account brought about by the purchase of large ships. 
Methods such as split funding and incremental funding have been used on 
certain ships. Another method that has been discussed is advance 
appropriations.
    In your opinion, what is the best way to fund Navy ships?
    Answer. I believe that the current full-funding policy for Navy 
ships, with noted exceptions for funding of large ships, has proven 
sufficiently effective in meeting Navy acquisition objectives.
    Question. If confirmed, what alternative methods, if any, for 
shipbuilding funding, that would still allow congressional oversight, 
would you recommend?
    Answer. I have no recommendations at this time for alternative 
funding methods for shipbuilding.
    Question. What is your view of the long-term impact of split 
funding or incremental funding on the availability of funds for Navy 
shipbuilding accounts?
    Answer. In my view, when properly planned, programmed and executed, 
I believe that incremental funding for high cost ships, such as 
aircraft carriers and large-deck amphibious ships, serves to improve 
stability in the shipbuilding account by reducing associated spikes to 
the shipbuilding budget.

                          LITTORAL COMBAT SHIP

    Question. The committee has great concerns about cost problems in 
the shipbuilding arena, most notably with the Littoral Combat Ship 
(LCS) program. Last year, the Navy canceled the contract for the second 
ship at both of the two LCS contractors.
    Changing requirements, poor cost estimates, inexperienced program 
managers, and poor supervision of the contractors' performance were 
among the causes of the overrun. For many years, numerous studies have 
recommended against changing requirements after signing a contract 
because that will inevitably lead to cost and schedule problems. The 
committee does not understand why the Department of the Navy has not 
taken this lesson to heart.
    What, in your opinion, are the reasons for poor cost and schedule 
performance of the LCS program?
    Answer. In my opinion, the Navy incurred significant cost and 
schedule risk in the LCS program by placing priority on accelerating 
the design and construction of the first of class LCSs, and by placing 
inadequate emphasis on cost realism and cost control in the award and 
execution of the design and construction contracts. As a result, 
immature cost estimates were locked into the budget before the Navy had 
developed the ship specifications, contracts were awarded before the 
contractors had incorporated newly developed Naval Vessel Rules into 
their respective designs, and program execution compromised on cost 
performance in the effort to meet the first ships' critical path 
schedules. These factors led to significant disruption at the front end 
of this new ship program, caused significant impact to production 
planning and construction of the first of class ships, and ultimately 
drove poor cost and schedule performance.
    Question. Are there other reasons for cost and schedule performance 
issues on Navy shipbuilding contracts?
    Answer. Cost and schedule performance issues on Navy shipbuilding 
contracts often refer to performance on first of class ships. Many, 
varied factors contribute to these issues, and while each lead ship 
confronts a unique set of issues, I believe common factors include:

        <bullet> Challenges associated with properly estimating cost 
        for completing design, development of related technologies, 
        software development, system integration, and construction of 
        complex first of class warships.
        <bullet> Technological challenges inherent to a first of class 
        ship generally result in employment of cost-plus contracts 
        which place cost risk on the government.
        <bullet> Competitively awarded first of class ships are very 
        aggressively priced.
        <bullet> The increasing complexity of Navy warships and the 
        limited ability to retire risk through prototyping results in 
        cost growth and schedule delay through ``discovery'' in the 
        course of completing lead ship design, first of class 
        production planning, development and integration of ship 
        systems, construction, and testing of the lead ship.
        <bullet> The long duration required to complete detail design, 
        construction, and test for a first of class ship--typically 5 
        to 7 years--inherently increases cost risk.
        <bullet> Government-responsible changes emerge through the 
        course of the lead ship as specification deficiencies are 
        identified and as new requirements are incorporated into the 
        design;
        <bullet> Low rate production for shipbuilding has resulted in 
        sub-optimal utilization of shipbuilding facilities, and changes 
        to the shipbuilding program cause significant impacts to 
        overhead costs.

    Question. If confirmed, what actions would you take to ensure that 
the Navy avoids making these same mistakes on current and future 
shipbuilding contracts?
    Answer. If confirmed, I will ensure policy and practice on 
shipbuilding contracts emphasize cost realism and cost control by way 
of program estimates, contract award criteria, and contract type, 
incentives, terms and conditions. I will review execution of current 
shipbuilding programs to ensure that program budgets support current 
estimates; that programs are executing effective risk management plans 
to retire technical risk and contain cost; and that contracts 
appropriately incentivize cost performance. I will review the 
acquisition organization to ensure that shipbuilding programs are 
properly staffed, and I will review acquisition policy to ensure 
implementation of USD(AT&L) policy regarding Configuration Steering 
Boards and related discipline in the management of contract changes.

                       TACTICAL AVIATION PROGRAMS

    Question. As Navy and the Marine Corps F/A-18 and Marine Corps AV-
8B aircraft continue to age, the Navy is now predicting that there may 
be a shortfall of 125 strike fighter aircraft in the next decade, which 
only increases the concern about the schedule for the Joint Strike 
Fighter (JSF).
    What are your views regarding the current risk to the JSF program 
schedule during its System Development and Demonstration (SDD) phase?
    Answer. The technical risks inherent to any new aviation program 
during its SDD phase are compounded on the JSF program by the 
complexity of the system and the multi-service/multi-nation 
requirements the JSF variants must meet. Appropriate to the investment 
in this capability, I believe the program has received the highest 
priority within DOD to ensure effective management of this risk and, if 
confirmed, I will review the program in detail to gain a current 
assessment by the Navy program office.
    Question. If there were to be new schedule difficulties with the 
JSF program, what course of action would you recommend to maintain 
sufficient strike assets within our Carrier Strike Groups?
    Answer. If there are new schedule difficulties with the JSF 
program, the alternatives for maintaining sufficient strike assets 
would potentially include continuing efforts to extend the service life 
for current strike/fighter aircraft, extending procurement of F/A-18 
aircraft, or otherwise evaluating operating cycles for inventory 
aircraft to determine potential interim measures to mitigate the 
shortfall to strike requirements. If confirmed, I would work with the 
CNO and Commandant of the Marine Corps and the Naval Air Systems 
Command to evaluate these and other potential alternatives and make 
recommendations based on the balance of requirements, risk, and 
resources.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Question. Secretary Gates has said ``There is no failsafe measure 
that can prevent all loss of life and limb on this or any other 
battlefield. That is the brutal reality of war. But vehicles like mine-
resistant ambush-protected, combined with the right tactics, 
techniques, and procedures, provide the best protection available 
against these attacks.''
    In your view, what steps must the Department take to stay ahead of 
the involving insurgent threat in Iraq and Afghanistan?
    Answer. In my view, the Department needs to ensure that it is 
responsive to Urgent Needs Statements and pro-active in translating 
threat assessments to requirements, and the acquisition organization 
needs to be innovative and in close coordination with the user in the 
development of technologies to defeat the threat--and equally 
innovative and agile in mobilizing the defense industrial base to 
produce these new capabilities to the rate needed to meet rapid 
fielding requirements.

      ARMY AND MARINE CORPS CAPABILITIES AND ACQUISITION PROGRAMS

    Question. Although the Army and Marine Corps have different 
missions and capabilities, their equipment, should have some degree of 
commonality. Throughout Operations Iraqi Freedom and Enduring Freedom, 
the Army and Marine Corps have worked together on acquiring equipment 
for Army and Marine Corps forces. However, for equipment such as 
helicopters and heavy wheeled vehicles, the Army and the Marine Corps 
have pursued divergent acquisition paths.
    What are your views regarding the joint development and acquisition 
of Army and Marine Corps equipment?
    Answer. In general, Joint development of equipment reduces 
acquisition costs and provides for significant benefits associated with 
commonality throughout the system's life cycle. To the extent that 
there is alignment between respective requirements, then Army and 
Marine Corps equipment should be jointly developed.
    Question. What role should the ASN(RDA) and the Secretary of the 
Navy play in synchronizing Army and Marine Corps requirements and 
synchronizing service programs?
    Answer. In my view, the Department of the Navy should evaluate 
opportunities to jointly develop new systems in conjunction with 
reviewing material solutions for warfighting requirements. I envision 
that the ASN(RDA) would coordinate with the Army Service Acquisition 
Executive to evaluate the technical suitability for joint development 
of a system to fulfill the Service requirements. For those programs 
designated for joint development, the program management, milestone 
decision authority, and roles of the respective Service Acquisition 
Executives should be outlined by memorandum of understanding.

                             JOINT PROGRAMS

    Question. In the last few years, the Navy and the Air Force have 
both withdrawn from joint weapons programs. The Air Force withdrew from 
the Joint Standoff Weapon system, and the Navy withdrew from the Joint 
Air-to-Surface Standoff Missile system.
    In your opinion, what are the key reasons that joint programs are 
initiated, but one or more of the partners withdraws?
    Answer. I cannot comment on the specific programs cited, but in my 
opinion the requirements, budgeting, and acquisition processes pose 
inherent challenges to the successful fielding of a new capability, and 
this is more true when adding the dimension of jointness.
    Question. If confirmed, how would you recommend changing the system 
so that the Navy and Marine Corps would participate in only those 
programs in which it would follow through?
    Answer. If confirmed, I will review current Department acquisition 
policy and practice regarding participation in joint programs and 
consult with key stakeholders in the requirements, budgeting, and 
acquisition processes to determine the history, lessons learned, and 
potential changes to policy that need to be implemented to improve 
results in joint programs.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASN(RDA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Question Submitted by Senator Daniel K. Akaka

                         TECHNOLOGY ACQUISITION

    1. Senator Akaka. Mr. Stackley, the newly directed Configuration 
Steering Boards (CSBs), along with competitive prototyping, are two of 
the ways in which the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (AT&L) hopes to achieve more realistic 
program cost estimates and ensure a more stable acquisition process. 
Requirement changes and immature technologies, however, still pose 
problems to these goals even once a program has made it past the 
prototyping stage. What steps would you take, if confirmed, to improve 
the processes the Navy uses both to minimize the use of immature 
technologies and help freeze program requirements?
    Mr. Stackley. The Department of the Navy (DON) has implemented a 
Gate Review process for major programs with the specific intent of 
ensuring that system requirements are well-defined, applied program 
technologies are mature, program costs are properly estimated, and 
contract type, terms, and conditions incentivize desired performance. 
Gate Reviews are conducted in conjunction with major milestones and key 
decision points throughout the life of major programs. The review 
process encompasses the CSBs in its scope, and includes participation 
by stakeholders in the requirements, budget, and acquisition 
organizations. In conjunction with my leadership role in the Gate 
Review process, I will work closely with the Chief of Naval Operations 
and Commandant of the Marine Corps to ensure operational requirements 
are defined, stable, and fully funded; and will be deliberate in 
meeting my responsibility for ensuring adherence to these requirements 
in the course of overseeing management of major programs.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                        MODELING AND SIMULATION

    2. Senator Bill Nelson. Mr. Stackley, the Navy and Marine Corps 
Modeling and Simulation (M&S) Offices serve as the single points of 
contact for M&S for the Navy and Marine Corps. There are two naval 
activities in Orlando, FL: (1) the Navy Air Warfare Center Training 
Systems Division; and (2) the Marine Corps Program Manager for Training 
Systems. There is a great hub of technology in Orlando that provides 
great synergies between Government, academic, and industry to develop 
cutting edge training systems using M&S technology. What aspects of the 
Navy and Marine Corps' efforts in research and development are 
currently utilizing Orlando's M&S expertise?
    Mr. Stackley. Orlando's M&S expertise are used in many aspects of 
the Navy and Marine Corps' research and development efforts. Both of 
these naval activities work in partnership with the other resources in 
Orlando to design, develop, and acquire training systems throughout the 
Navy and the Marine Corps. Both activities perform research and 
development to improve future simulation-based training systems.

    3. Senator Bill Nelson. Mr. Stackley, if confirmed, what are your 
plans to utilize the expertise that exists in Orlando's Technology 
Corridor to enhance the Navy's mission?
    Mr. Stackley. Team Orlando consists of the combined resources from 
all four Department of Defense (DOD) Services, academia, and industry. 
I plan on utilizing the naval activities to research, develop, and 
acquire training solutions for our naval forces in a joint environment. 
I will promote continued cooperation between these naval activities and 
the other Orlando resources to ensure that the desired synergies are 
realized to the fullest practical extent.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh

                           SUPPLY CHAIN RISK

    4. Senator Bayh. Mr. Stackley, what kind of strategies or 
approaches would you implement to reduce the supply chain related risk 
associated with the measured decline in the electronics industrial 
base?
    Mr. Stackley. Supply chain related risks are a significant issue 
and will continue to increase as our weapon systems incorporate more 
commercial off-the-shelf microelectronics and assemblies. To mitigate 
these risks, the DON has a robust Diminishing Manufacturing Sources and 
Material Shortages (DMSMS) policy that requires each program to 
forecast and plan preventive measures. I will promote the various 
organic and commercially available forecasting tools, and collection of 
metrics to support policy and budget decisions. To assess risk, the DON 
applies its Independent Logistics Assessment (ILA) process, which 
provides an independent assessment of supportability design and 
planning (such as supply chain, DMSMS, etc.) at key program milestones. 
The ILA is a critical input to ensuring supportability risk is 
understood and mitigated. I intend to continue leveraging these 
policies and processes in managing supply chain management risks.

    5. Senator Bayh. Mr. Stackley, do these strategies include methods 
to address related electronic technology issues, such as foreign 
dependency on electronic circuit boards, the move to prohibit lead in 
solder, as well as more recent Restriction of Hazardous Substances 
(RoHS) expansion efforts in the European Union?
    Mr. Stackley. The DON's approach to mitigating supply chain 
management risk addresses the prohibition of leaded solder and 
components, as governed by the European Union's RoHS legislation. While 
there are many efforts studying the impacts of RoHS legislation, the 
DOD has joined with industry to form the Executive Lead Free (ELF) 
Integrated Product Team (IPT). I have personnel on this IPT to 
determine the most viable solution in addressing RoHS issues. This IPT 
is comprised of management from the large DOD suppliers, as well as 
each of the Services and DOD agencies. The IPT has already developed a 
RoHS training course, which has been provided to Defense Acquisition 
University for implementation, as well as draft guidance/policy for 
USD(AT&L) approval. While RoHS may impact the reliability of our 
systems, there is currently a lack of adequate statistical data (e.g. 
fleet failure data resulting from lead free restrictions) to 
effectively assess the risks. I will support data gathering and 
analysis concerning these risks.
    While there is a potential for reliability impacts, RoHS also 
presents DMSMS-related issues as globally the electronics industry 
moves toward adopting EU restrictions. Currently, DOD's electronics 
requirements equate to approximately 1 percent of industry sales so it 
is critical that ASN RD&A work in concert with other DOD activities to 
ensure an adequate supplier base is maintained. Finally, industry is 
telling us that counterfeiting of electronics and electronic components 
is becoming an area of concern. The IPT is exploring the potential 
impact of this threat. Accordingly, I intend to continue to support the 
efforts of the joint DOD/Industry IPTs, such as the ELF IPT, to 
determine the best solution, and support those decisions.

    6. Senator Bayh. Mr. Stackley, would you take the lead with the 
Office of Secretary of Defense for AT&L and the other Service 
Acquisition Executives to make sure that DOD has a uniform policy to 
address these extremely high risk issues?
    Mr. Stackley. Yes. I have a voting member on the Office of the 
Secretary of Defense-chartered DMSMS and ELF IPTs and the goal of both 
IPTs is to standardize RoHS and DMSMS guidance and policy as applicable 
across DOD.

                             NUCLEAR POWER

    7. Senator Bayh. Mr. Stackley, as the Assistant Secretary of the 
Navy for Research, Development and Acquisition, will you support the 
development of the next class of cruisers, CG(X), with nuclear power?
    Mr. Stackley. The Navy's analysis of alternatives (AoA) for the 
Maritime Air and Missile Defense of Joint Forces capability, which 
includes an assessment of CG(X) alternatives, examines both fuel 
efficient conventional power plants and nuclear power alternatives. I 
will work closely with the Chief of Naval Operations to ensure that the 
decision as to whether or not nuclear power propulsion will be 
incorporated in future surface combatants is based on a thorough 
examination of both requirements and acquisition considerations as they 
pertain to `national interest', in compliance with statute.

    8. Senator Bayh. Mr. Stackley, do you believe nuclear power is the 
best way to accommodate the high energy demands of future weapon 
systems?
    Mr. Stackley. I believe it is critical that future ships be 
designed with the ability to accommodate higher electric energy demands 
associated with future weapon and sensor systems. The ability to 
accommodate these higher demands is a function of electrical generation 
capacity, which can be introduced into either nuclear or fossil fuel 
propulsion plant designs. The Navy's recent study on Alternative 
Propulsion Methods for Surface Combatants and Amphibious Warfare Ships 
concluded that ships with high demands for energy benefit from the 
operational advantages provided by nuclear propulsion. However, a 
design decision for a particular class should be based on a thorough 
examination of alternatives to satisfy specific mission requirements, 
in compliance with statute.

                             313-SHIP NAVY

    9. Senator Bayh. Mr. Stackley, should Congress be exploring 
different ways to budget funding for ship procurement to ensure the 
313-ship Navy is achievable in the near future?
    Mr. Stackley. The Navy's budget policy for ship procurement 
requires that ships be fully funded in the first year of procurement. 
In view of the long duration required for detail design and 
construction of complex warships (5 years on average), this policy has 
proven effective in ensuring that DOD and Congress understand and 
budget for the full ship construction costs at the front end of this 
procurement process.
    There are three notable exceptions to the full funding policy 
which, with the support of Congress, have proven to be extremely 
helpful to the Navy's ability to mitigate budget spikes and 
perturbations in the shipbuilding program. The Navy has utilized 
incremental funding to finance the significant costs related to 
construction of large, complex warships, such as nuclear aircraft 
carriers and large deck amphibious assault ships, across multiple 
years. The Navy has utilized advance procurement where it proves 
beneficial to the government as a tool to reduce the impact of long 
lead times for critical shipbuilder materials, or otherwise to provide 
stability for the industrial base. For those programs that are stable 
in design and requirements, and are to be procured at efficient rates 
over an extended period, the Navy has employed multiyear procurement 
contracts when substantial savings can be achieved.
    As the Navy Acquisition Executive, I will continue to work with the 
Department and with Congress to employ these funding mechanisms to 
improve the affordability of the 313 ship Navy. As well, I will 
consider alternative funding mechanisms, and those that offer 
significant benefit to the government will be brought forward to the 
Department for further consideration.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                      NAVY'S ACQUISITION WORKFORCE

    10. Senator Warner. Mr. Stackley, the Navy has been criticized for 
its management of acquisition and its ability to successfully manage 
shipbuilding and acquisition programs. What is your assessment of the 
Navy's acquisition workforce?
    Mr. Stackley. Along with a capable workforce, successful 
acquisition programs depend upon support from basic research, 
disciplined requirements, clear responsibilities, sufficient resources 
including financial reserves and incremental budgeting to milestones, 
accepting prudent risks, controlling cost and appropriate business and 
technical strategies.
    My assessment of the Navy's acquisition workforce is that the 
drawdown of the workforce has occurred over a protracted period without 
a corresponding reduction in acquisition workload. We must balance the 
workforce with the acquisition workload and attract, train and retain 
the skilled professionals required by the Department to properly 
perform its mission, provide appropriate oversight of contractor 
performance, and provide the best value for the taxpayer's dollars. The 
Department must also rebuild its in-house Systems Engineering 
capability. It is important that we have an organic ability to perform 
requisite engineering tradeoffs to ensure we are pursing the right 
balance of requirements and risks, before we request proposals for a 
ship or system.

    11. Senator Warner. Mr. Stackley, is sufficient emphasis being 
placed on developing the skills and experience needed to successfully 
manage shipbuilding programs?
    Mr. Stackley. As you are aware, the drawdown of the acquisition 
workforce has left the Department with a smaller aging workforce. In 
support of recent initiatives to reenergize this professional corps, 
the Secretary of the Navy has approved establishment of a senior 
executive position, Principal Civilian Deputy Assistant Secretary of 
the Navy (PCDASN), responsible to ASN(RDA) for professional development 
and community management of the Navy's acquisition workforce. The 
PCDASN is in the process of assessing the acquisition workforce billet 
structure, qualifications, and career paths to determine strengths and 
weaknesses of the acquisition workforce.
    This baseline assessment will provide important insight for the 
Department's strategy to implement the Acquisition Workforce 
Development Fund. The Fund provides a mechanism to reenergize the 
workforce and develop an effective transition strategy as those 
eligible for retirement choose to leave Federal service. Planned use of 
the Fund includes hiring of highly-qualified experts to serve as senior 
mentors as well as journeyman and interns to bring in new and fresh 
ideas; recruiting and retention incentives; and training and 
development.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss

                   NAVY/MARINE CORPS WEAPONS SYSTEMS

    12. Senator Chambliss. Mr. Stackley, I've appreciated your service 
on the Senate Armed Services Committee and we are going to miss you. I 
wanted to ask you about an issue that is not completely within your 
proposed portfolio but one that I know you will need to deal with, and 
that is the issue of how we plan for logistics and sustainment in the 
process of acquiring new weapons systems. Unfortunately, the Services 
have often approached acquisition and sustainment separately when they 
should be approached together. It is a fact that, for most weapons 
systems, the cost of sustaining them over the life of the system is 
larger than the cost of acquiring the system in the first place. I am 
concerned that, in some cases, the Services rely too much on 
maintenance and sustainment by the contractor who builds the system 
which in the end often costs more and is not in the best interests of 
the Government. Can you explain your vision of how this should work, 
how you will ensure that the Navy plans jointly for acquisition and 
sustainment of new weapons systems, and can I have your assurances 
that, if confirmed, you'll work to ensure that the Navy and Marine 
Corps look first to develop an organic, in-house capability for 
sustaining military weapons systems rather than relying on the private 
sector to provide this capability for the Government?
    Mr. Stackley. I will work to ensure that the DON requirements for 
new or upgraded weapon systems will emphasize design traits of being 
logistically sustainable to high and affordable degrees of fleet 
readiness. DON has begun treating maintenance and sustainment as 
critical performance design characteristics; and ones that are not 
secondary to, or separated from, the process of acquiring major defense 
systems. The DON has several tools, by which to ensure that this design 
priority is established and maintained throughout the Acquisition 
process. They include: 1) Two Pass/ Six Gate Reviews; 2) Independent 
Logistics Assessments (ILA); and 3) the Naval Logistics Integration 
(NLI) initiative.
    The DON recently implemented its Two Pass/Six Gate Review process 
in an effort to improve governance and insight into the development, 
establishment, and execution of acquisition programs. Ensuring 
alignment between Service-generated capability requirement and 
acquisition, as well as improving senior leadership decision-making 
through better understanding of risks and costs throughout the 
program's entire life cycle is central to this significant process 
reform. Additionally, the DON implemented a standardized ILA process in 
2004 in an effort to provide independent evaluation of a program's 
logistics supportability planning at key acquisition milestones (B, C, 
and FRP). Fundamental to this review is the assessment of risks 
associated with the chosen logistics strategy which would also include 
organic versus contractor support. Since its implementation, the ILA 
process has been instrumental in revealing opportunities to enhance 
supportability prior to system deployment. Finally, the DON is 
leveraging its NLI initiative to integrate processes, policy, doctrine, 
resources, information, technologies and people (organizational) 
construct in support of enhanced naval logistics capability both afloat 
and ashore.
    These three processes, along with adherence to 10 U.S.C. 2466(a) 
(i.e. the ``50/50 Rule''), will be tools I will leverage to ensure the 
Department applies the proper mix of organic and contractor support to 
achieve effective and affordable logistics support for our programs.
                                 ______
                                 
    [The nomination reference of Sean J. Stackley follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 1, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Sean Joseph Stackley, of Virginia, to be an Assistant Secretary of 
the Navy, vice Delores M. Etter, resigned.
                                 ______
                                 
    [The biographical sketch of Sean J. Stackley, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Sean J. Stackley

    Sean J. Stackley is a professional staff member on the Senate Armed 
Services Committee. He is responsible for overseeing Navy and Marine 
Corps programs, Strategic Lift, and related policy for the Seapower 
Subcommittee. As Republican staff lead for the subcommittee, he has 
drafted and coordinated the committee position on Department of the 
Navy and United States Transportation Command matters for the National 
Defense Authorization Act. Additionally, he supports the Emerging 
Threats and Capabilities Subcommittee and the Readiness and Management 
Support Subcommittee; advising on Navy and Marine Corps operations and 
maintenance, science and technology, and acquisition policy. Mr. 
Stackley joined the committee in December 2005.
    Mr. Stackley began his career as a Surface Warfare Officer in the 
United States Navy, serving in engineering and combat systems 
assignments onboard the destroyer, U.S.S. John Young (DD 973). Upon 
completing his warfare qualifications, he was designated as an 
engineering duty officer and served in a series of industry, fleet, 
program office, and headquarters assignments in ship design and 
construction, maintenance, logistics, system integration, and 
acquisition policy, leading to major program management.
    Prior to joining the committee, Mr. Stackley served as LPD 17 
Program Manager from 2001 to 2005, with responsibility for all aspects 
of procurement for this major ship program. His first duties in this 
position included restructuring the program in the wake of a Nunn-
McCurdy breach, settling a series of outstanding industry claims, and 
brokering a realignment of industry teaming agreements to provide a 
path forward for the program. Through the course of his tour, he led 
the completion of ship design, software development, weapon system 
integration, production, test, trials, and delivery of the lead ship; 
start of construction for four follow ships; and planning and 
programming for the remaining ships of the Class.
    Having served earlier in his career as Production Officer for the 
U.S.S. Arleigh Burke (DDG 51) and Project Naval Architect overseeing 
design standards for the Canadian Patrol Frigate, H.M.C.S. Halifax (FFH 
330), Mr. Stackley has the distinction of having performed a central 
role in the design, construction, test, and delivery of three first-of-
class warships.
    Mr. Stackley was commissioned and graduated with distinction from 
the U.S. Naval Academy in 1979, with a Bachelor of Science, Mechanical 
Engineering. He holds the degrees of Ocean Engineer and Master of 
Science, Mechanical Engineering from the Massachusetts Institute of 
Technology. Mr. Stackley earned certification as Professional Engineer, 
Commonwealth of Virginia, in 1994. His military awards include the 
Legion of Merit with Gold Star.
    Mr. Stackley is married to Teresa Mullin Stackley, and has four 
children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Sean J. 
Stackley in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Sean Gerard Joseph Stackley.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Research, Development, and 
Acquisition).

    3. Date of nomination:
    May 1, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 7, 1957; Baltimore, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Teresa Mullin Stackley.

    7. Names and ages of children:
    Erin Stackley, 24; Tess Stackley, 22; Scott Stackley, 19; Maura 
Stackley, 16.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1972-1975, Towson Senior High School.
    1975-1979, U.S. Naval Academy, Bachelor of Science, Mechanical 
Engineering, 1979.
    1983-1986, Massachusetts Institute of Technology, Master of 
Science, Mechanical Engineering, 1986, Ocean Engineer, 1986.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2005-2008, Professional Staff Member, U.S. Senate.
    1979-2005, Naval Officer.
    2001-2005, LPD-17 Program Manager, U.S. Navy.
    1998-2001, Chief of Staff, Deputy Assistant Secretary of the Navy 
(Ships).
    1995-1998, DDG-51 Production Officer, Aegis Shipbuilding Program.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board of Professional Engineers, Commonwealth of Virginia.
    American Society of Naval Engineers.
    Action in Community Through Service (ACTS).
    Naval Academy Alumni Association.
    Military Officers Association of America.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Military Awards: Legion of Merit (two awards).
    Meritorious Service Medal (two awards).
    Navy Commendation Medal.
    Navy Achievement Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Managing Defense Resources'', American Society of Military 
Comptrollers Journal, Fall 2007.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Sean J. Stackley.
    This 20th day of May, 2008.

    [The nomination of Sean J. Stackley was reported to the 
Senate by Chairman Levin on June 26, 2008, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2008.]
                              ----------                              

    [Prepared questions submitted to Frederick S. Celec by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the war fighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see a need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this point I do not. However, if confirmed I will remain 
sensitive to the goals that Goldwater-Nichols set forth to facilitate 
jointness in operations, command and control, and acquisition.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed I will work with the Secretary, the Chairman, 
and their staffs to periodically review the implementation policies to 
insure they remain current and are being implemented.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs?
    Answer. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs (ATSD(NCB)) has several key 
duties and functions. First and foremost is to insure that our nuclear 
stockpile remains safe, secure, and reliable. If confirmed, I will work 
with the Service chiefs and responsible commanders to ensure that the 
high standards of safety and security are maintained. I will work with 
the Administrator of National Nuclear Security Administration (NNSA) to 
insure that the stockpile remains reliable. The ATSD oversees Defense 
Threat Reduction Agency (DTRA) and the Chemical and Biological Defense 
Programs. In addition, the ATSD is responsible for the Chemical Weapons 
Demilitarization Program, serves as the Executive Director of the 
Nuclear Weapons Council and treaty management
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs?
    Answer. I am aware of several independent studies by organizations 
like the Defense Science Board that have made recommendations designed 
to enhance the ability of the ATSD to meet his responsibilities. If 
confirmed, I will review these recommendations, and working with the 
Secretary and the Nuclear Weapons Council, make the appropriate 
recommendations.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed I expect the Secretary to charge me with 
assisting the Air Force in returning the culture and attention to 
detail that was the hallmark of that service in maintaining nuclear 
weapons. In addition, he will expect the ATSD to oversee the CTR and 
Counterproliferation Programs, the Chemical Weapons Demilitarization 
Program, and the Chemical and Biological Defense Programs.

                             RELATIONSHIPS

    Question. If confirmed, how will you work with the following 
officials in carrying out your duties:
    The Secretary of Defense, The Deputy Secretary of Defense, The 
Under Secretaries of Defense.
    Answer. If confirmed, I expect to report to USD(AT&L), and through 
him and the Deputy Secretary, to the Secretary himself. On matters 
directly affecting my technical responsibilities (safety, security, 
reliability, etc.), I expect to have direct access to the Secretary if 
needed.
    I expect to work closely with USD(P) to insure our nuclear 
policies, both home and abroad, are understood and implemented. I 
expect to work closely with the USD(C) to insure nuclear weapons 
programs are adequately funded and with PA&E to insure that sufficient 
follow-on weapons are in the pipeline as current weapons systems 
approach end of life.
    Question. The Service Secretaries.
    Answer. If confirmed, I will work with the Service secretaries to 
insure that nuclear programs are provided sufficient priority to be 
funded at a level and in time to maintain safety, security, system 
reliability, and end of life issues.
    Question. The commanders of the combatant commands, particularly 
U.S. Strategic Command, U.S. Special Operations Command, and U.S. 
Northern Command.
    Answer. If confirmed, I expect to work closely with each combat 
commander with nuclear responsibilities to insure that he has the 
systems he needs in the numbers and with the capability he needs to 
execute his mission.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. If confirmed I would expect to insure that DTRA programs 
support ASD(HD) requirements.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (ASD(SOLIC)) and Independent Capabilities.
    Answer. The ASD(SOLIC) and the ATSD both have policy 
responsibilities for our Nations nuclear weapons. If confirmed, I will 
work closely with ASD(SOLIC) to insure our nuclear policies are 
consistent, understood by our forces and allies, and are being properly 
implemented.
    Question. The Director of the DTRA.
    Answer. If confirmed, I expect to have daily contact with the 
Director DTRA in assisting him in executing his responsibilities in 
Combat Support, CTR, counterproliferation, on-site inspection, research 
and development, USSTRATCOM Center for Combating (SCC) Weapons of Mass 
Destruction (WMD) and Chemical and Biological defense programs.
    Question. The Secretary of Energy.
    Answer. If confirmed, I would expect to work with the Secretary of 
Energy through the Administrator of NNSA.
    Question. The Administrator and Deputy Administrators of the NNSA.
    Answer. As partners in the nuclear weapons program, if confirmed, I 
would expect to work closely and personally with both the Administrator 
and Deputy Administrator to ensure that we have sufficient reliable, 
safe, and secure weapons to support our combat commanders, and that we 
have the capability to maintain them.
    Question. Officials in the Department of Homeland Security with 
responsibilities for nuclear, chemical, and biological homeland defense 
matters.
    Answer. DTRA and Homeland Security are partners in a number of 
areas such as nuclear detection, nuclear forensics, and 
counterproliferation. DTRA focuses on the DOD mission, which often 
means overseas, while the DHS focus is more on domestic issues. If 
confirmed, I will work with both organizations to insure their programs 
are not duplicated, but mutually supportive, and are funded and 
prioritized at the required level.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I spent 39 years in the Federal service, all in nuclear and 
chemical weapons. Twenty-one of those years were in the Air Force where 
I performed nuclear survivability tests on nuclear delivery systems to 
include underground nuclear testing. I spent several Air Force 
assignments developing the simulation tools needed to be able to check 
the survivability of those systems without nuclear tests. I developed 
nuclear weapons requirements and assigned specific weapons to specific 
targets. I had an assignment to the State Department where I worked 
both nuclear and Chemical Weapons issues, writing a paper (with others) 
widely distributed throughout the world by the State Department on 
Soviet Chemical Warfare in Afghanistan and Southeast Asia. I completed 
my Air Force career in OSD Policy working on NATO nuclear issues.
    I then joined the Defense Nuclear Agency (now renamed DTRA) where I 
became Deputy Director for Operations with oversight responsibilities 
for nuclear accident response, the CTR Program, and NATO nuclear 
weapons security. I then joined the ATSD office as the Deputy for 
Nuclear Matters. I completed my Federal Service as the ATSD Deputy for 
Chemical and Biological Defense Programs. I then joined The Institute 
for Defense Analysis as an Adjunct Research Associate working nuclear 
issues, where I remain today. Thus I have spent 44 years working 
nuclear and chemical weapons issues.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs?
    Answer. There are several. First, restoring the pride, interest, 
and attention to detail to maintaining Air Force nuclear weapons in a 
safe and secure manner. Second, supporting the congressionally-mandated 
Commission on our Strategic Posture and Secretary Gates Task Force on 
WMD in order to gain bipartisan support for the future of our nuclear 
stockpile in national security. Third, insuring the quick and safe 
demilitarization of our chemical weapons stockpile. Fourth, continuing 
and expanding the CTR program beyond the Former Soviet Union to help 
prevent proliferation. Fifth, strengthen the Nuclear Weapons Council.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. To meet the first challenge I intend to focus on meeting 
with the appropriate Air Force officials to review the actions they 
have taken to date, review the DTRA conducted inspection reports to 
insure the actions are effective and work with the Air Force wherever 
necessary to insure the proper focus on nuclear policies and procedures 
at every level in the command structure. For the second priority, I 
intend to meet regularly and frequently with members of the two 
commissions to insure that they are getting useful, timely, and 
accurate information. For the third priority, I intend to insure that 
the schedule, funding, and priority within the Department are all 
consistent and if changes or additions are necessary, to make the 
appropriate recommendation. For the fourth priority I intend to work 
with OSD Policy and DTRA to insure that appropriate objectives are 
defined for CTR support beyond the Former Soviet Union and that funding 
is available to support those objectives. For the fifth priority I will 
personally review and insure that information and presentations 
provided to the NWC are timely and sufficiently informative so as to 
warrant the members time.
    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense Programs?
    Answer. Gaining bipartisan support for the role of nuclear weapons 
in our National Security Strategy and then developing the institutional 
structure and obtaining the funding to support that role.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Particular attention to the findings of the Congressional 
Commission on the Strategic Posture of the United States will hopefully 
begin the process to resolve the issue. Their timelines are established 
by Congress.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs?
    Answer. First, restoring the pride, interest, and attention to 
detail to maintaining Air Force nuclear weapons in a safe and secure 
manner. Second, supporting the congressionally-mandated Commission on 
our Strategic Posture and Secretary Gates Task Force on WMD in order to 
gain bipartisan support for the future of our nuclear stockpile in 
national security. Third, insuring the quick and safe demilitarization 
of our chemical weapons stockpile. Fourth, continuing and expanding the 
CTR program beyond the Former Soviet Union to help prevent 
proliferation. Fifth, strengthen the Nuclear Weapons Council.

                            REPORTING CHAIN

    Question. Section 142 of title 10, U.S.C., requires that the 
Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs ``advise the Secretary of Defense on 
nuclear energy, nuclear weapons, and chemical and biological defense.'' 
The responsibilities for chemical and biological defense were added to 
the Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs in 1996. The position was originally 
created as the Assistant to the Secretary of Defense to ensure direct 
access to the Secretary of Defense in the event that any matter 
implicating the safety, security, or reliability of the nuclear weapons 
stockpile needed to be immediately provided to the Secretary.
    What is your understanding of to whom you would report, if 
confirmed, within the Department of Defense (DOD), and who would report 
to you?
    Answer. If confirmed, I expect to report to USD(AT&L), and through 
him and the Deputy Secretary, to the Secretary himself.
    Question. If confirmed, would you expect to have direct access to 
the Secretary of Defense for matters pertaining to the safety, 
security, and reliability of nuclear weapons?
    Answer. Yes.

                        NUCLEAR WEAPONS COUNCIL

    Question. Section 179 of title 10, U.S.C., designates the Assistant 
to the Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs as the Executive Director of the Nuclear Weapons 
Council. The chairman of the Nuclear Weapons Council is the Under 
Secretary of Defense for Acquisition, Technology, and Logistics.
    Would it be your expectation, if confirmed, to have direct 
responsibility, authority, direction, and control of all the assets, 
resources, and personnel needed to fulfill the responsibilities of 
Executive Director of the Nuclear Weapons Council?
    Answer. Yes.
    Question. If confirmed as Assistant to the Secretary of Defense for 
Nuclear and Chemical and Biological Defense Programs, how frequently 
would you expect the Nuclear Weapons Council to meet and, in your view, 
would that be sufficient to meet the obligations of the Council?
    Answer. I would expect to meet as necessary, and as Executive 
Secretary, it will be my responsibility to insure that the agenda, 
presentations, and issues for those meetings warrant the time that the 
members need to devote in order to attend.
    Question. If confirmed as Assistant to the Secretary of Defense for 
Nuclear and Chemical and Biological Defense Programs, how would you 
ensure that the Nuclear Weapons Council carries out its statutorily 
mandated duties?
    Answer. If confirmed, I intend to work personally with each of the 
members to insure that the NWC carries out its statutorily mandated 
duties.
    Question. Are there any changes that you would recommend to the 
membership, organization, or structure of the Nuclear Weapons Council?
    Answer. It would be premature to make any such recommendations.

    ORGANIZATIONAL STRUCTURE OF THE OFFICE OF THE ASSISTANT TO THE 
                               SECRETARY

    Question. What is your understanding of the organizational 
structure of the office of the Assistant to the Secretary of Defense 
for Nuclear and Chemical and Biological Defense Programs?
    Answer. My understanding is that there is a Principal Deputy who is 
also responsible for Nuclear, Chemical and Biological Treaty 
Management, a Nuclear Matters Deputy, a Chemical and Biological Defense 
Programs and Chem Demil Deputy, and the Director of DTRA, who reports 
to the ATSD. In addition, there are supporting staff to enable the 
functions of those deputies.
    Question. Do you believe this structure is adequate or would you 
make any changes if confirmed?
    Answer. At this time it would be premature to recommend any 
changes.
         nuclear weapons and the stockpile stewardship program
    Question. Do you believe that there are any technical reasons to 
resume nuclear weapons testing at the present time or at any 
foreseeable time in the future?
    Answer. No.
    Question. Do you believe that the Stockpile Stewardship Program is 
capable for the foreseeable future of supporting the nuclear weapons 
stockpile without nuclear weapons testing?
    Answer. Yes.
    Question. Do you support the Stockpile Stewardship Program?
    Answer. Yes.
    Question. What are your views on the current moratorium on nuclear 
weapons testing?
    Answer. I support the moratorium.
    Question. What are your views on the Comprehensive Test Ban Treaty 
(CTBT)?
    Answer. The CTBT can be an effective treaty to prevent 
proliferation. That said, there are serious issues with the treaty that 
need to be addressed and resolved.
    Question. In your view, are there any additional capabilities that 
the Stockpile Stewardship program should develop?
    Answer. The production complex is aging considerably and needs 
attention.
    Question. What are your views on the feasibility and certifiability 
(without nuclear testing) of the Reliable Replacement Warhead (RRW)?
    Answer. My understanding is that a cornerstone of the RRW program 
is that it be developed and certified without the need for testing.
    Question. If confirmed, how quickly and under what circumstances 
would you inform Congress in the event there is ever any problem with 
any nuclear warhead?
    Answer. As quickly as possible consistent with national security 
requirements.
    Question. If confirmed, what role, if any, do you anticipate you 
will plan in reviewing the size and makeup of the nuclear weapons 
stockpile?
    Answer. If confirmed, I would expect to be a major voice in 
recommending to the Secretary and the President the size and makeup of 
the nuclear weapons stockpile.

               SECURITY OF THE NUCLEAR WEAPONS STOCKPILE

    Question. If you are confirmed, what role would you have and do you 
believe the Nuclear Weapons Council should have in developing, 
implementing, and overseeing implementation of nuclear security orders 
and regulations?
    Answer. Both the ATSD and the NWC have responsibilities to insure 
that our nuclear weapons are secure. Monitoring security operations and 
implementation policies, reviewing inspection reports, and insuring 
sufficient funding for Service security programs are some of those 
responsibilities.
    Question. If confirmed what role would you play in nuclear security 
and nuclear operational inspections?
    Answer. If confirmed, I would expect to review all DTRA conducted 
inspections. I would expect the Service Secretary's to review Service 
conducted inspections and inform me of any issues that they find. 
Finally, I would expect the unit commanders to inform me personally, of 
the results of the Mighty Guardian Force on Force exercises.

 DEGRADATION IN NUCLEAR EXPERTISE, TECHNICAL RIGOR AND COMPLIANCE WITH 
                     REGULATIONS, RULES, AND ORDERS

    Question. Over the course of the last 12 months there have been a 
number of instances within DOD of inattention, sloppiness, and 
intentional disregard for nuclear rules, orders and regulations. The 
reviews that have been conducted as a result of these incidents have 
identified degradation in the attention to nuclear matters as one of 
the root causes of the many incidents.
    If confirmed, what role would you anticipate you would play and the 
Nuclear Weapons Council would play in restoring discipline and 
credibility in the nuclear enterprise within DOD and the military 
Services?
    Answer. Since the end of the Cold War the role of nuclear weapons 
in our National Security Strategy has not been clearly defined. Absent 
that clearly defined role, the Air Force in particular, allowed itself 
to lose focus on the policies, procedures, and attention to detail 
demanded of the stewards of nuclear weapons. Congress has recognized 
this problem and has established the Strategic Posture Commission and 
challenged it to define the role of nuclear weapons in our post Cold 
War National Security Strategy. The Commissions findings will hopefully 
lead to bipartisan support for the way ahead. If confirmed, I expect to 
support the Commission with regular briefings and meetings with the 
Commission and individual members to ensure that they have the most 
complete and credible information available to prepare their report.

              IMPLEMENTATION OF THE ADMIRAL DONALD REPORT

    Question. If confirmed, what role, if any, would you expect to play 
in implementing corrective actions recommended by Admiral Donald in his 
recently submitted report on the security of nuclear weapons in the Air 
Force?
    Answer. I have not seen the Admiral Donald Report, and it would not 
be appropriate to comment on it.

                          STRATEGIC COMMISSION

    Question. The Commission on the Strategic Posture of the United 
States was established in the National Defense Authorization Act for 
Fiscal Year 2008. If confirmed, would you fully cooperate with and 
support the work of the Commission in preparing its report?
    Answer. Yes.

                CHEMICAL AND BIOLOGICAL DEFENSE PROGRAM

    Question. Section 142 of title 10, U.S.C., states that the 
Assistant to the Secretary of Defense for Nuclear and Chemical and 
Biological Defense Programs shall advise the Secretary of Defense on 
chemical and biological defense, as well as on nuclear matters. Your 
background is primarily in nuclear technology and related issues.
    If confirmed, how would you plan to become familiar with the issues 
and technology associated with chemical and biological defense matters?
    Answer. While I have some familiarity with chemical and biological 
defense matters having served for a short period of time as the Deputy 
ATSD for Chemical and Biological Defense Programs, I will certainly 
become much more familiar with the current program through briefings 
from the Deputy ATSD, the Director of DTRA, the Director of the JPEO 
for Chemical Biological Defense, and actual visits to many of the 
program sites.

                  VACCINE DEVELOPMENT AND ACQUISITION

    Question. What role would you expect to play, if confirmed, in 
ensuring that vaccines needed to ensure medical treatment and 
protection of deployed U.S. servicemembers are developed and acquired?
    Answer. If confirmed I would expect to work closely with the ASD 
for Health Affairs to ensure medical treatment and protection of 
deployed U.S. servicemembers are developed and acquired.
    Question. What are the urgent vaccine needs for U.S. forces?
    Answer. My understanding is that the anthrax is the most urgent.

                CHEMICAL AND BIOLOGICAL DEFENSE MATTERS

    Question. If you are confirmed, what do you expect your roles and 
responsibilities would be with respect to chemical and biological 
defense matters?
    Answer. The ATSD is the principal staff advisor to the Secretary on 
Chemical and Biological Defense matters. The ATSD is responsible for 
oversight, coordination, and integration of the joint Chemical and 
Biological Defense Program. If confirmed, I would expect to work 
closely with the Services, JPEO, and DTRA to meet those 
responsibilities.
    Question. If confirmed, would you review the chemical and 
biological defense program and make any needed recommendations to 
Congress for improving the program?
    Answer. Yes.
    Question. What are your general priorities with respect to the 
Chemical and Biological Defense Program?
    Answer. The general priorities for the Chemical and Biological 
Defense Program are: contamination avoidance, protection, and 
restoration.

  INTERACTION WITH OTHER FEDERAL AGENCIES ON CHEMICAL AND BIOLOGICAL 
                                MATTERS

    Question. The Department of Homeland Security and the Department of 
Health and Human Services play important roles in planning and 
implementing U.S. policy and programs for protecting the United States 
against biological and chemical threats, including the development and 
stockpiling of vaccines and therapeutic products.
    If confirmed, how would you work with these agencies to ensure the 
effective coordination and collaboration of efforts to improve U.S. 
security against chemical and biological threats?
    Answer. If confirmed I would work with each of these agencies to 
ensure that programs are mutually supportive, avoid duplication, and 
share results.

                    CHEMICAL DEMILITARIZATION ISSUES

    Question. Since 2001, responsibility and oversight for the chemical 
demilitarization program within DOD have been under the Assistant to 
the Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs.
    If confirmed, would responsibility for and oversight of the 
chemical demilitarization program remain within your office?
    Answer. Yes.
    Question. The United States is a party to the Chemical Weapons 
Convention (CWC) and is obligated to destroy its chemical weapons 
stockpile by no later than the extended deadline of April 2012.
    Do you agree that the United States should take all necessary steps 
to meet its obligations under the CWC?
    Answer. Consistent with safety and security, yes.
    Question. If confirmed, what actions would you take to ensure 
adequate funding is requested to permit the most expeditious 
destruction of the U.S. chemical weapons stockpile, consistent with the 
legal requirement to protect public health, safety, and the 
environment?
    Answer. If confirmed I will review the current program to insure 
that priorities, funding, and operations are consistent within the 
program. If additional funding is needed, I will ensure that it is 
requested.
    Question. On April 10, 2006, Secretary of Defense Rumsfeld notified 
Congress that the United States would not meet the extended deadline 
under the CWC for destruction of the United States chemical weapons 
stockpile, but would ``continue working diligently to minimize the time 
to complete destruction without sacrificing safety and security,'' and 
would also ``continue requesting resources needed to complete 
destruction as close to April 2012 as practicable.''
    If confirmed, what actions would you take to ensure the full 
implementation of those commitments?
    Answer. If confirmed, I will review the program against those 
commitments and make any necessary changes or recommendations needed to 
ensure full implementation.
    Question. What is your understanding of the timeline for the 
destruction that the Department expects to meet under the current 
projections and the currently planned expenditures for this program?
    Answer. I am not familiar with the current details of the program 
in terms of schedule and funding, so it would not be appropriate for me 
to comment.

CONSEQUENCE MANAGEMENT OF CHEMICAL, BIOLOGICAL, RADIOLOGICAL, NUCLEAR, 
                   OR HIGH-YIELD EXPLOSIVE INCIDENTS

    Question. DOD has the mission of providing support to civil 
authorities for consequence management of domestic chemical, 
biological, radiological, nuclear, or high-yield explosive (CBRNE) 
incidents, if requested. Since 2002, the Assistant Secretary of Defense 
for Homeland Defense and the Commander of U.S. Northern Command have 
had responsibilities for planning and executing that mission.
    If confirmed, how would you expect to work with the Assistant 
Secretary of Defense for Homeland Defense and the Commander of U.S. 
Northern Command on issues related to the Department's capabilities to 
provide support to civil authorities for CBRNE consequence management, 
as well their homeland defense missions related to nuclear, chemical, 
or biological weapons or materials?
    Answer. DTRA has a number of programs designed to provide CBRNE 
responders world wide with equipment, training, command and control 
support, logistical planning, and technical support. If confirmed I 
will insure that the DTRA program is responsive to the needs of ASD 
(HD) and CONCOM.
    Question. The Department of Homeland Security is the lead Federal 
agency for planning, coordinating, and implementing consequence 
management of CBRNE incidents in the United States, in conjunction with 
the States and territories.
    If confirmed, what relationship would you expect to have with the 
Department of Homeland Security and its component entities?
    Answer. If confirmed I would expect to oversee the coordination of 
DTRA programs with DHS for planning, coordinating, and implementing 
consequence management of CBRNE incidents.
    Question. What do you believe is the appropriate role for DOD in 
providing support to civil authorities for CBRNE consequence 
management?
    Answer. A CBRNE event would constitute a national emergency. DOD's 
role should be to provide whatever support and assets that the 
President requested in order to save lives, minimize damage, and 
facilitate recovery.
    Question. What are your views on the adequacy of the numbers of 
WMD-civil support teams, and do you believe that the training and 
equipping of these teams is appropriate?
    Answer. I am not aware of the details, and so it would not be 
appropriate for me to comment.
      cooperative threat reduction programs (nunn-lugar programs)
    Question. Do you support the Cooperative Threat Reduction (CTR) 
programs?
    Answer. Yes.
    Question. If confirmed, would you support joint research programs 
between Russia and the United States in the areas of chemical or 
biological weapons defense?
    Answer. Yes.
    Question. What is your understanding as to your responsibilities 
with respect to the CTR programs?
    Answer. The ATSD has oversight responsibility for the 
implementation of the CTR program.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense Programs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner

                           THE DONALD REPORT

    1. Senator Warner. Mr. Celec, the Secretary of Defense cited 
leadership failures associated with the control of nuclear weapons and 
equipment as the proximate cause for his decision to request the 
resignations of the Secretary of the Air Force and the Air Force Chief 
of Staff. In your view, were these security lapses mainly a failure of 
leadership within the Air Force, or would you view complacency on 
nuclear matters within the senior Department of Defense (DOD) 
leadership as a contributing factor?
    Mr. Celec. While I have not seen the Donald Report, I am aware of 
its existence, and have seen other reports on the subject. The two 
issues you ask about are related. Clearly the leadership in the Air 
Force has focused on other issues since the end of the Cold War, 
including two current active wars and flying combat missions constantly 
for over the past 15 years. Like most organizations, if the boss 
doesn't pay attention, the troops quickly lose focus, and that appears 
to be what happened in the Air Force. It is going to require that the 
leadership in the Air Force, from the very top, down to the individual 
airman on the ramp or at the missile silo be continually reminded that 
our nuclear deterrent is the most important job they can do to maintain 
the security and freedom of the United States.
    For my part, if confirmed I hope to assist the Air Force in 
restoring that culture of perfection and importance, and in the process 
gather the support of the senior leadership in DOD to insure it 
continues long after we are all gone.

    2. Senator Warner. Mr. Celec, what role, if any, would you envision 
for the Assistant to the Secretary of Defense for Nuclear and Chemical 
and Biological Defense Programs (ATSD(NCB)) in ensuring the safety and 
reliability of our nuclear deterrent forces?
    Mr. Celec. Safety, reliability, and an equally important third 
factor, effectiveness are the key factors in maintaining our Nuclear 
Deterrent so that potential enemies respect and fear it, our Allies 
continue to rely on it, and the American people continue to support it. 
The primary responsibility of the ATSD(NCB) is to insure that our 
Deterrent remains safe, reliable, and effective, and if confirmed I 
will work closely and very personally with the Services, DOD, combatant 
commanders, National Nuclear Security Administration, and our Allies to 
ensure that the standards for these factors are maintained, and where 
possible, improved.
                                 ______
                                 
    [The nomination reference of Frederick S. Celec follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 10, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Frederick S. Celec, of Virginia, to be Assistant to the Secretary 
of Defense for Nuclear and Chemical and Biological Defense Programs, 
vice Dale Klein, resigned.
                                 ______
                                 
    [The biographical sketch of Frederick S. Celec, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Frederick S. Celec

    Upon joining the Institute for Defense Analysis (IDA) in 2003, Mr. 
Celec became part of the IDA staff working for the congressionally-
mandated Electromagnetic Pulse Commission. While at IDA he has worked 
on a variety of tasks including the U.S. capability to exercise treaty 
monitoring rights under the Threshold Test Ban Treaty, the Department 
of Defense's (DOD) Nuclear Weapons Physical Security Program to protect 
our Nations nuclear weapons, and development of an Interagency Program 
to secure radiological and nuclear materials of potential threat to the 
U.S. worldwide. In 2005 he became an adjunct member of the Assistant to 
the Secretary of Defense staff.
    Mr. Celec retired from government service in August 2003 as the 
Deputy Assistant to the Secretary of Defense for Nuclear and Chemical 
and Biological Defense Programs for Nuclear Matters with 18 years as a 
civil servant and 21 years in the Air Force. Upon retirement he joined 
IDA as a consultant.
    Mr. Celec originally joined the Office of the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs as the Deputy for Nuclear Matters in 1996 in the Pentagon. In 
this position he was responsible for overseeing all U.S. nuclear 
weapons and delivery programs. Among those were U.S. programs to 
recover lost or stolen nuclear weapons, improvised nuclear weapons, as 
well as security programs to prevent unauthorized use of U.S. nuclear 
weapons.
    From 1985 until his Pentagon assignment, Mr. Celec was part of the 
Defense Nuclear Agency (DNA) staff and worked security issues 
associated with the North Atlantic Treaty Organization (NATO) Senior 
Level Weapons Protection Group and the Air Force Weapon Storage 
Security System. He became Deputy Director for Operations at DNA in 
1987, and was responsible for stockpile management, CINC Nuclear 
Support, the Cooperative Threat Reduction Program, Verification 
Technology, Nuclear Weapon Accident Exercises, and the Department of 
Energy Science Based Stockpile Stewardship Program.
    Previously Mr. Celec spent 21 years in the Air Force where most of 
his assignments were associated with the nuclear weapons area. His last 
assignment before retiring from the Air Force was as a member of the 
policy staff in Office of the Secretary of Defense (OSD) working 
stockpile size in Europe, NATO High Level Group and Nuclear Planning 
Group issues.
    Prior to his OSD assignment he had assignments on the Air Staff in 
Studies and Analysis, where he worked strategic force structure issues 
and Single Integrated Operations Plan/weapon effectiveness. At the 
State Department, where he worked both nuclear and chemical issues, and 
was a principal author of the ``Yellow Rain'' chemical warfare report 
to Congress. At SHAPE, where he planned nuclear operations--including 
target identification, weaponeering, and deconflication of operational 
missions. He also wrote the annual Nuclear Weapons Requirements Study 
and the European Deployment Plan, which formed the basis for force 
structure, numbers and types of nuclear weapons needed in Europe during 
the Cold War: At Headquarters Air Force Systems Command, where he 
managed nuclear research programs throughout the Air Force Research and 
Development community, including the building of the Trestle Emp 
simulator. At the Defense Atomic Support Agency (later called DNA), he 
served as the U.S./U.K. liaison officer for the U.K. Polaris 
Improvement Program, and finally at the Air Force Weapons Laboratory, 
where he developed nuclear simulators--including underground nuclear 
tests to evaluate strategic systems. He has participated in almost two 
dozen underground nuclear tests.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Frederick S. 
Celec in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frederick (Fred) Stephen Celec.

    2. Position to which nominated:
    Assistant to the Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs.

    3. Date of nomination:
    June 10, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 8, 1941; Youngstown, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Irene Aurelia (Dagys) Celec.

    7. Names and ages of children:
    Christine Gold, 46; Kenneth Celec, 42.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Air Force Institute of Technology, 1968-1970, MS Nuclear 
Engineering.
    The Ohio State University, 1959-1964, BS Engineering Physics.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2003-Present, Adjunct Research Associate, Institute for Defense 
Analysis, 4850 Mark Center Drive, Alexandria, VA.
    1996-2003, Deputy Assistant to the Secretary of Defense for 
Nuclear, Chemical, and Biological Defense Programs for Nuclear Matters, 
Office of the Secretary of Defense, Pentagon, Washington, DC.
    1985-1996, Deputy Director for Operations, Defense Nuclear Agency, 
6801 Telegraph Road, Alexandria, VA.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1964-1985, Lt. Col., USAF (Ret.).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None, other than Institute for Defense Analysis.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Presidential Distinguished Executive, 1998.
    Medal for Distinguished Civilian Service, January 2001 and August 
2003.
    Secretary of Defense Meritorious Civilian Award, March 1997.
    Defense Superior Service Medal, July 1985.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Government Reports and technical reports while at Institute for 
Defense Anaylsis for the Federal Government.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Frederick S. Celec.
    This 13th day of June 2008.

    [The nomination of Frederick S. Celec was reported to the 
Senate by Chairman Levin on June 26, 2008, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2008.]
                                     



NOMINATIONS OF MICHAEL B. DONLEY TO BE SECRETARY OF THE AIR FORCE; GEN. 
NORTON A. SCHWARTZ, USAF, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND 
   TO BE CHIEF OF STAFF, UNITED STATES AIR FORCE; AND GEN. DUNCAN J. 
   McNABB, USAF, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE 
            COMMANDER, UNITED STATES TRANSPORTATION COMMAND

                              ----------                              


                         TUESDAY, JULY 22, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Akaka, Bill 
Nelson, E. Benjamin Nelson, Clinton, Pryor, McCaskill, Warner, 
Inhofe, Sessions, Chambliss, Graham, Dole, Thune, Martinez, and 
Wicker.
    Other Senators present: Senators Conrad and Stevens.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Creighton Greene, professional 
staff member; Michael J. Kuiken, professional staff member; 
Gerald J. Leeling, counsel; Peter K. Levine, general counsel; 
Michael J. McCord, professional staff member; William G.P. 
Monahan, counsel; and William K. Sutey, professional staff 
member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Gregory T. Kiley, professional staff 
member; Lucian L. Niemeyer, professional staff member; 
Christopher J. Paul, professional staff member; Diana G. 
Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Ali Z. Pasha and Breon N. Wells.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Bonni Berge, assistant to Senator 
Akaka; Christopher Caple, assistant to Senator Bill Nelson; 
Andrew R. Vanlandingham, assistant to Senator Ben Nelson; Jon 
Davey, assistant to Senator Bayh; Andrew Shapiro, assistant to 
Senator Clinton; M. Bradford Foley, assistant to Senator Pryor; 
Gordon Peterson, assistant to Senator Webb; Chani W. Wiggins, 
assistant to Senator McCaskill; Sandra Luff, assistant to 
Senator Warner; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Todd Stiefler, assistants to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Lindsey 
Neas, assistant to Senator Dole; Jason Van Beek, assistant to 
Senator Thune; Brian W. Walsh, assistant to Senator Martinez; 
and Erskine W. Wells III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. This morning the 
committee considers the nominations of Michael Donley to be 
Secretary of the Air Force, General Norton Schwartz to be Air 
Force Chief of Staff, and General Duncan McNabb to be 
Commander, United States Transportation Command (TRANSCOM).
    We welcome our nominees and their families to today's 
hearing. We know the long hours that senior Department of 
Defense (DOD) officials put in every day. We appreciate the 
sacrifices that our nominees are willing to make for our 
country. We also know that they're not going to be alone in 
making these sacrifices, so we thank in advance the family 
members of our nominees for the support and assistance that we 
know that they're going to need to provide to our nominees.
    Each of our nominees has a long career of public service. 
Mr. Donley has served in the Army, on the staff of the National 
Security Council, as an Assistant Secretary of the Air Force, 
and in the Office of the Secretary of Defense. He served for 4 
years on the staff of this committee from 1981 to 1984, and 
many of us and many of our staffs know him well and we hold him 
in high regard.
    General Schwartz has served in the Air Force for 35 years, 
most recently as Director of the Joint Staff and as Commander 
of the U.S. Transportation Command.
    General McNabb has served in the Air Force almost as long, 
most recently as Commander of the Air Mobility Command (AMC) 
and Vice Chief of Staff of the Air Force.
    If confirmed, Mr. Donley and General Schwartz will assume 
leadership positions in the Department of the Air Force at a 
very difficult time. Over the last year, the Air Force has been 
severely criticized for its handling of nuclear weapons 
security and command and control, which according to Admiral 
Kirkland H. Donald has been characterized by inattention to 
detail, lack of discipline, and a degradation of authority, 
technical competence, and standards of excellence.
    Reports on the mistaken movement of nuclear weapons from 
Minot Air Force Base to Barksdale Air Force Base confirmed that 
Air Force nuclear procedures reflected a ``breakdown in 
training, discipline, supervision, and leadership.'' The 
challenge facing the next Air Force Secretary and Chief of 
Staff will be to fix the underlying problems and not just to 
address the obvious symptoms.
    Also of great concern to the continuing problems in the Air 
Force is acquisition systems. Earlier this month the Government 
Accountability Office (GAO) found serious defects in the Air 
Force's evaluation of proposals for new tanker aircraft and the 
Secretary of Defense has been required to step in and take over 
the program for the second time in 4 years. In addition, the 
DOD's Inspector General has found disturbing evidence of 
favoritism and the award of a series of contracts to companies 
closely linked to high-ranking Air Force officials. We have 
asked the Inspector General to make recommendations as to 
accountability of those officials.
    A few months ago, GAO reported that unit costs on the Air 
Force's largest acquisition program, the Joint Strike Fighter 
(JSF), have grown by almost 40 percent, costing us an extra $36 
billion. This cost growth is symptomatic of problems in Air 
Force acquisition programs, which are all too frequently 
subject to overly optimistic cost estimates and overly 
ambitious performance expectations, resulting in programs that 
are technically challenged, behind schedule, and over budget.
    To address these problems, the Air Force leadership will 
have to live up to its commitments to establish reasonable 
requirements, ensure the use of mature technologies, and ensure 
the programs are adequately and accurately funded from the 
outset.
    The next Secretary and Chief of Staff will have their work 
cut out for them to address these problems and restore public 
confidence in the ability of the Air Force leadership to handle 
its critical national security and fiscal responsibilities.
    If confirmed, General McNabb will also face critical 
challenges in his new position. The strategic mobility of our 
Armed Forces enables us to project power anywhere around the 
globe. The U.S. TRANSCOM, which encompasses the Air Force's 
Mobility Command, the Navy's Military Sealift Command, and the 
Army's Military Surface Deployment and Distribution Command, is 
the linchpin of that strategic mobility.
    At a time when our forces remain engaged at high operating 
tempos around the globe, it is critical that we fully leverage 
the capabilities of these commands. These are all extremely 
important positions which merit the attention that we give them 
today.
    I will submit for the record a copy of statements of 
support for General Schwartz and General McNabb from our 
colleague from the House of Representatives, Representative 
Jerry Costello.
    [The prepared statements of Represenative Costello follow:]

        Prepared Statements by Representative Jerry F. Costello

    Thank you, Chairman Levin for holding this hearing. I am pleased to 
support the nomination of General Norton A. Schwartz, currently 
Commander of the U.S. Transportation Command (TRANSCOM) at Scott Air 
Force Base (AFB), IL, to Chief of Staff of the Air Force.
    I have known General Schwartz since he became Commander of U.S. 
TRANSCOM in 2005 and I am proud of the work TRANSCOM has done under his 
command. Early on, General Schwartz integrated himself in the 
community, attending many local events, and sought input from civic and 
business leaders. He has consistently worked with the local community 
to help shape the future of Scott AFB. As a result, he has made the 
base and our area stronger. General Schwartz has a record of listening 
to and working with all stakeholders, a quality that is extremely 
important for the Air Force Chief of Staff job.
    General Schwartz has had a distinguished career. In 1973, he 
graduated from the U.S. Air Force Academy. Since that time, he became a 
command pilot with more than 4,200 flying hours in a variety of 
aircraft. He participated as a crewmember in the 1975 airlift 
evacuation of Saigon, and in 1993 served as Chief of Staff of the Joint 
Special Operations Task Force for Northern Iraq in Operations Desert 
Shield and Desert Storm.
    General Schwartz is also an alumnus of the National War College, a 
member of the Council on Foreign Relations, and a 1994 Fellow of 
Massachusetts Institute of Technology's Seminar XXI. He has served as 
Commander of the Special Operations Command-Pacific, the Alaskan 
Command, Alaskan North American Aerospace Defense Command Region, and 
the 11th Air Force. Prior to coming to Scott AFB, General Schwartz, was 
Director of the Joint Staff here in Washington, DC.
    General Schwartz's awards are too numerous to mention all of them, 
but I will highlight a few. He has received the Defense Distinguished 
Service Medal with oak leaf cluster; the Defense Superior Service Medal 
with oak leaf cluster; the Legion of Merit with two oak leaf clusters; 
the Air Force Commendation Medal with oak leaf cluster, and the Army 
Commendation Medal.
    His impressive career shows General Schwartz is a man that rarely 
if ever takes time for himself. His motto at U.S. TRANSCOM is ``a 
promise made will be a promise kept'' which captures his remarkable 
commitment to excellence, service, and sacrifice, all the hallmarks of 
true leadership.
    In my view, General Schwartz possesses the necessary qualities to 
be an outstanding Chief of Staff of the Air Force. I strongly support 
his nomination and urge the Senate to do so as well.
                                 ______
                                 
    Thank you, Chairman Levin, for holding this hearing today. I am 
pleased to support the nomination of General Duncan J. McNabb, 
currently Vice Chief of Staff of the Air Force, to Commander of U.S. 
TRANSCOM.
    U.S. TRANSCOM is the single manager for global air, land, and sea 
transportation for the Department of Defense and I am proud to have 
U.S. TRANSCOM at Scott AFB, in my hometown, and the congressional 
district I am privileged to represent.
    General McNabb was formerly the Commander of Air Mobility Command 
(AMC) from 2005-2007. It was during this period that I worked closely 
with him on issues important to the local area and our Nation's 
defense. At AMC, General McNabb was responsible for global mobility, 
including air refueling, operational support airlift, and aeromedical 
evacuation and he did a superb job of leading 134,000 airmen in that 
mission.
    Prior to that assignment, he held numerous positions, including a 
variety of planning, programming, and logistical duties. To name just a 
few, he was commander of the 89th Operations Group at Andrews AFB, 
commander of the 62nd Airlift Wing which earned the Riverside Trophy as 
the 15th Air Force's outstanding wing, and commander of the Tanker 
Airlift Control Center at Scott AFB. He accomplished each of his 
missions with distinction.
    General McNabb graduated from the Air Force academy in 1974 and 
since then has served the Air Force and our country with pride. He has 
made a difference in the lives of millions of people worldwide through 
implementation of his policies and vision for the Air Force.
    General McNabb has had three prior tours at Scott AFB and during 
that time, he has gotten to know the local community and its business 
and civic leaders. Through that working relationship, we have all put 
forth a unified vision for the future of Scott AFB. The base would not 
be where it is today without this strong relationship and vision. I 
believe the characteristics of true leadership are desire, vision, 
creativity, expertise, and respect and General McNabb embodies all of 
these. Scott AFB and the Nation will benefit immensely from his service 
as Commander of TRANSCOM. I strongly support this nomination and urge 
you to do the same.

    Chairman Levin. Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming our distinguished presidential nominees this morning 
and our great friend and colleague Senator Stevens, who will 
soon participate in the introductions.
    I think we really should pause for a minute here this 
morning to reflect that the Nation, and most specifically the 
Department of the Air Force, lost some brave men here in that 
B-52 airplane loss. It's an old airplane. I checked it out 
yesterday. The oldest one is 59 years old, almost twice the age 
of the young men and those women who are flying those aircraft. 
So we must remember even in times in that particular theater, 
with no conflict in progress, these operational accidents 
always pose a great danger to the uniformed people, and our 
hearts go out to the families of these victims.
    I've had the privilege to have been associated with the 
Pentagon since 1969 and through the many years on this 
committee. The Department of the Air Force has recently 
undergone some of the most extraordinary chapters in the 
history of DOD in terms of its reorganization and the 
withdrawing of senior leadership at the decision of Secretary 
Robert Gates.
    I'd like to say a word about Secretary Gates. I've known 
him for a very long time. I think he's doing an absolutely 
extraordinary job as Secretary of Defense. This was not an easy 
decision. I can think of few parallels, very few parallels in 
the history of DOD since it was formed many years ago. But he 
made it and, presumably with the backing and support of the 
President, and in the place of those two individuals 
specifically he has selected you, Mr. Donley, to be the new 
Secretary and you, General Schwartz, to be the new Chief of 
Staff, the two key positions.
    Your charter quite clearly is to restore the Department of 
the Air Force to its rightful place as a coequal among the 
military branches of our United States. How proud we are of 
you, Mr. Donley. You're one of our own, as we might say, 
thoroughly trained by this committee at a time when the 
distinguished chairman and I were somewhat junior, but 
nevertheless you were a part of the great teams of John Stennis 
and Henry Jackson, and Barry Goldwater and John Tower, and many 
others, Sam Nunn and the like.
    You come with the experience that is needed to take this 
outfit by the bootstraps and bring it right back up just as 
fast as you can.
    Equally important, as the chairman touched upon, is the 
need to go forward with the modernization program, most 
specifically the tanker program, which would be in large part 
under your cognizance, General McNabb, if confirmed by the 
Senate. There again, it's an old aircraft. I suppose that fleet 
of aircraft is second in aging perhaps to the B-52s. Would that 
be about right, somewhere right along in there? We're asking an 
awful lot of those young aviators, night and day, any place in 
the world, roll them out, take them down that runway, and take 
them off, and hope and pray they come back with a good safe 
landing.
    I hope we can proceed with the resolution of the contract 
consistent with law and other applicable regulations and we can 
put that behind us.
    But I really believe that the Congress of the United States 
is going to give you the strongest of support. We recognize the 
situation the Department's in and consequently I think this 
committee is going to give strong support, Senator Stevens' 
committee will give strong support, and I hope the other body 
will do likewise, to help it, under your leadership, subject to 
confirmation, bring this Department back to its rightful place.
    Thank you very much.
    Chairman Levin. Thank you, Senator Warner.
    We're always delighted to have Senator Stevens with us. 
Again, we welcome you, our friend and colleague, to make an 
introduction here this morning. Senator Stevens, why don't you 
proceed and then we'll go in our regular order after that.

 STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM THE STATE OF 
                             ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman, members 
of the committee. I'm delighted to be here with my good friend 
General Norty Schwartz. Norty's been a friend for many years 
and I think Secretary Gates has made a great decision when he 
decided to recommend Norty to become the Chief of Staff of the 
Air Force.
    He and his wife Suzie, who is behind us here now, have been 
good friends with Catherine and me for several years. He was 
Commander of the 11th Air Force and North American Aerospace 
Defense Command (NORAD) at the Alaska Command, and we've worked 
with him to a great extent. He has, I think, a wonderful record 
in the Air Force. When he's confirmed, he'll be the first non-
fighter, non-bomber pilot to be the Chief of Staff of the Air 
Force. His principal service has been the Special Operations 
Command and the Air Mobility Command. He's a C-130 pilot and 
he's the right man to lead our Air Force at this time in terms 
of people in uniform.
    I do believe he has an uncanny ability to improve morale 
wherever he goes. He has earned the respect and admiration of 
his civilian and military counterparts wherever he's been. I 
have enjoyed his vast intellect and quiet, confident manner. 
Particularly when he was, on September 11, 2001, the leader of 
the Alaska Command and NORAD airspace. He's a graduate of the 
Air Force Academy and the National War College. His combat 
experience included being involved in the airlift evacuation of 
Saigon in 1975. He was Chief of Staff of the Joint Special 
Operations Task Force in Northern Iraq in Operation Desert 
Shield-Desert Storm. Since 2005 he's done an impressive job 
heading TRANSCOM as you mentioned, Mr. Chairman. He's focused 
on delivering resources to Iraq and Afghanistan, and he brought 
really a fresh look at the concepts of fulfilling that job.
    I think his experience has given us the skills and ideas 
necessary to face the challenges of the Air Force in the days 
ahead. I do urge the committee to confirm General Schwartz 
expeditiously. I think our Air Force very much needs the 
leadership now. There's been sort of a traumatic change of 
command and it's not going to be helped if there's a delay in 
confirming my good friend Norty Schwartz.
    I appreciate your giving me the time to be here and make 
comments upon his abilities and really urge you to act as 
quickly as possible. Thank you all very much.
    Chairman Levin. We thank you, Senator Stevens, very much 
for that introduction. It's an important statement. We know the 
schedule that you have to keep. So you of course are leaving 
us, as we understand.
    Now we'll ask the standard questions of our three nominees, 
and we would ask that you respond to these together. Have you 
adhered to applicable laws and regulations governing conflicts 
of interest?
    General Schwartz. Yes, sir.
    Mr. Donley. Yes, sir.
    General McNabb. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Schwartz. No, sir.
    General McNabb. No, sir.
    Mr. Donley. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General McNabb. Yes, sir.
    Mr. Donley. Yes, sir.
    General Schwartz. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Donley. Yes, sir.
    General Schwartz. Yes, sir.
    General McNabb. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General McNabb. Yes, sir.
    General Schwartz. Yes, sir.
    Mr. Donley. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear to 
testify upon request before this committee?
    General Schwartz. Yes, sir.
    Mr. Donley. Yes, sir.
    General McNabb. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Donley. Yes, sir.
    General Schwartz. Yes, sir.
    General McNabb. Yes, sir. [Pause.]
    Chairman Levin. This question is asked of our two uniformed 
officers. In order to exercise our legislative oversight, this 
is the traditional question we ask. The reason it was left out 
was because this is not generally asked of our civilian 
nominees, but it should be asked of our general officers here.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive 
testimony, briefings, and other communications of information. 
My question: Do you agree, if confirmed, to appear before this 
committee and other appropriate committees of Congress, and do 
you agree when asked to give your personal views, even if those 
views differ from the administration in power?
    General Schwartz. Yes, sir.
    General McNabb. Yes, sir.
    Mr. Donley. Yes, sir.
    Chairman Levin. Mr. Donley, let me call upon you first. We 
believe that each of you have some family members, and of 
course we would be delighted to have you introduce those 
members as you give us your opening statements. Mr. Donley?

STATEMENT OF MICHAEL B. DONLEY TO BE SECRETARY OF THE AIR FORCE

    Mr. Donley. Thank you, Mr. Chairman, members of the 
committee, and thank you for this opportunity to appear before 
you today. I want to first thank you for your reference to the 
importance of family. Without my wife Gail and the support of 
my three daughters over the last 30 years, this would have been 
an incredibly difficult journey. They have been supportive 
every step of the way and I want to thank them for being here 
today to be with me.
    Let me also express my thanks to Secretary Gates for his 
confidence and to the President for nominating me to lead 
America's Air Force. As a former staff member of this 
committee, it is truly an honor to be back testifying before 
you today. I have great respect for the indispensable role that 
Congress fulfils in shaping our Nation's defenses, as well as 
the vital support you provide to our men and women in uniform.
    I especially appreciate your steadfast support for the 
nearly 700,000 total force airmen, regular, Reserve, Guard, and 
civilians, who continue to distinguish themselves in joint 
operations around the world and in the global war on terror. 
Indeed, in the 15 years since I last served as Acting Secretary 
of the Air Force our Nation's airmen have been continuously 
deployed and in the joint fight. If confirmed, it will be an 
honor and a privilege to once again serve with these dedicated 
men and women.
    The circumstances that brought General Schwartz and me to 
this table are indeed difficult and unprecedented. I wish to 
acknowledge, as did Secretary Gates, that former Secretary Mike 
Wynne and General Buzz Moseley have given decades of faithful 
service to the Nation, and we are all grateful for that 
service. In particular, I want to thank them for their 
assistance in this recent transition.
    I also want to acknowledge the other Air Force nominees 
here today. Both General Schwartz and General McNabb bring the 
broad defense-wide perspectives that are so essential to joint 
operations and effective collaboration in DOD's headquarters. 
If confirmed I would consider it a privilege to work with them 
and especially with General Schwartz in leading the world's 
finest Air Force.
    Unusual circumstances place me in the position of Acting 
Secretary while I await your deliberations on this nomination. 
I appreciate your understanding as I step forward to address 
the urgent business confronting the Air Force. At the highest 
level, I believe the most urgent tasks for the new leadership 
are to steady this great institution, restore its inner 
confidence, and your confidence in the leadership team, and 
rebuild our external credibility.
    My immediate focus has been on the nuclear enterprise. On 
June 26 I directed the Air Force Vice Chief of Staff to 
establish a Nuclear Task Force to synchronize corrective 
actions underway across major commands and to unify these 
efforts at the strategic level. The task force is charged to 
deliver a comprehensive road map by the end of September, fully 
recommitting the Air Force to this critical national mission.
    The Secretary of Defense has also asked former Secretary 
Jim Schlesinger to provide recommendations in this area. I have 
met with Dr. Schlesinger and his panel and the Air Force 
schedule is structured so that we can incorporate their 
recommendations as we move forward.
    The KC-X tanker issue has also received my attention. I 
support Secretary Gates' decision to reopen the request for 
proposal and address the issues raised by GAO and move source 
selection authority to the Under Secretary of Defense, John 
Young. Secretary Young will have whatever support he needs from 
the Air Force to continue forward.
    The Air Force needs a new tanker. The joint warfighters 
need a new tanker. This is a critical capability that 
facilitates the projection of U.S. influence around the globe.
    At the same time, I have directed the Assistant Secretary 
of the Air Force for Acquisition to assess lessons learned from 
GAO's decisions on the KC-X and to ensure appropriate 
adjustments are made as the Air Force prepares for future 
program decisions and source selection. We need to strengthen 
confidence in the Air Force and DOD's capability to manage 
these large, complex competitions and successfully withstand 
contractor protests.
    In addition to these matters, I look forward to working 
with you and other Members of Congress in the weeks ahead to 
resolve outstanding issues in the authorization and 
appropriations processes.
    Mr. Chairman, over the past 4 weeks I have spoken with all 
of the Air Force's senior civilian and military leadership and 
conducted town hall meetings at four installations. Without 
exception, leadership and airmen at all levels are ready to put 
the difficulties of the past few months behind them, to learn 
the appropriate lessons from these experiences, and to move 
forward.
    The way ahead includes a recommitment to upholding the high 
standards of excellence that have always been the Air Force's 
hallmark, and for our core values of integrity first, service 
before self, and excellence in all we do, to underpin every 
action by every airman at all times.
    The men and women of the Air Force are volunteers all and 
there is no quicker recovery of our inner confidence and 
credibility than the power of tens of thousands of airmen 
recommitting to our own high standards. Our values and our high 
standards form the core of all Air Force actions. They serve us 
well in today's joint fight and I believe they point the way to 
a bright future.
    If confirmed, I commit to the men and women of the Air 
Force and to you all my energies in these efforts.
    Mr. Chairman, my door is always open and I thank you again 
for your continued support of the men and women of the United 
States Air Force. I look forward to your questions.
    Chairman Levin. Thank you so much, Mr. Donley.
    General Schwartz?

 STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, FOR REAPPOINTMENT 
TO THE GRADE OF GENERAL AND TO BE CHIEF OF STAFF, UNITED STATES 
                           AIR FORCE

    General Schwartz. Mr. Chairman, thank you. I'd like to 
introduce my wife of 27 years, Suzie. She's my best friend and 
there is absolutely no doubt that I would not be sitting here 
today were it not for her love and her support.
    Chairman Levin and distinguished members of the committee: 
It is an honor to be nominated by our Commander in Chief and 
recommended by Secretary Gates to be the Chief of Staff of the 
United States Air Force. Their expression of confidence is 
humbling. For more than 35 years, I have been fortunate to 
serve the United States of America in uniform. It represents an 
Air Force that serves as the cornerstone of the Nation's 
defense, capable of delivering combat power and support to the 
joint warfighter any time, any place.
    I fully understand and appreciate the enormous 
responsibility to lead and sustain those capabilities on behalf 
of the Air Force and the Nation. I will not lose sight of this 
responsibility.
    The circumstances that have placed Mr. Donley and me here 
today have been difficult and I truly believe that the Air 
Force is still fundamentally a healthy organization, comprised 
of dedicated professionals. Mr. Chairman, if I am confirmed I 
will personally champion the Active Duty, National Guard, 
Reserve, and civilians, and all who serve the Air Force in 
defense of our great Nation around the world. These men and 
women are a national asset and together we will recommit 
ourselves to our core values and uphold the highest standards 
of excellence that have made our Air Force the best in the 
world. Our Nation deserves nothing less.
    Furthermore, I will strive to improve and transform 
processes, organizations, and systems, and maintain the highest 
standards of performance to enhance the effectiveness and the 
efficiency of our service. We will be ready if called upon.
    We will, at the same time, be mindful of cost, be good 
stewards of our country's treasure, and be worthy of the 
Nation's trust and confidence. All that I do will be based on 
the absolute knowledge that protection of our Nation and 
support of our joint warfighters is our number one priority.
    If confirmed, sir, Suzie and I will serve with dedication, 
with optimism, with enthusiasm, and a profound sense of 
purpose. I am grateful to you, Mr. Chairman, and the committee 
for allowing me to appear before you today, and I look forward 
to your questions.
    Chairman Levin. Thank you, General.
    General McNabb?

    STATEMENT OF GEN. DUNCAN J. McNABB, USAF, NOMINATED FOR 
  REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, 
              UNITED STATES TRANSPORTATION COMMAND

    General McNabb. Chairman Levin, Senator Warner, 
distinguished members of the committee: Thank you. I am humbled 
and honored to be nominated by the President and recommended by 
the Secretary of Defense for the position of Commander of U.S. 
Transportation Command, to be considered by the Senate, and to 
be with you here today.
    Mr. Chairman, I'd like to take the opportunity to introduce 
my wife Linda and son Duncan. Linda is the love of my life and 
I would not be here today without the joy that she brings to me 
every day. For the last 29 years she has been an Air Force 
family patriot, just like so many wonderful loved ones across 
our country who allow our great soldiers, sailors, marines, 
Coast Guardsmen, and airmen to serve. My son Duncan is a 
tremendous young man who is working on the ground floor of the 
biodiesel industry. I very much appreciate you allowing them to 
be here today.
    From my earliest days flying C-141s in the Pacific to being 
the aide to the first Commander of TRANSCOM, to recently 
serving as General Schwartz's air component commander as the 
Commander of the AMC, I have been part of the great 
transportation enterprise. Sir, I believe our global mobility 
is one of our Nation's true crown jewels. It gives us the 
strategic ability to move. No other nation can match it, which 
gives us a true asymmetric advantage on the global stage, 
whether delivering our warfighters to the fight or our 
compassion to those in need.
    I know TRANSCOM's success depends on the strength of the 
total force and of our industry partners. Sir, if confirmed I 
will work to continue to strengthen and leverage these 
partnerships across the entire joint deployment and 
distribution enterprise.
    Chairman Levin, Senator Warner, distinguished members of 
the committee: I fully understand and appreciate the enormous 
responsibilities and trust that go with this command. If 
confirmed, I will never lose sight of these responsibilities 
and I will give you all I have to be worthy of that trust.
    We are a Nation at war and supporting our warfighters will 
be my number one priority. I'm grateful to you, sir, and the 
committee for having me here today and I look forward to 
answering your questions.
    Chairman Levin. Thank you very much, General.
    Let's try a 7-minute round for the first round. I believe 
we have a vote at 10:30.
    Senator Warner. 11 o'clock, I think.
    Chairman Levin. At 11 o'clock, that's right. The vote is at 
11 o'clock.
    Senator Warner. Mr. Chairman, could I ask an administrative 
question first? This committee under your leadership recently 
had a closed door hearing with Admiral Donald on the issues of 
the nuclear programs and the problems associated with the U.S. 
Department of the Air Force. Also, we now have former Secretary 
of Defense Schlesinger working on that problem. It would seem 
to me wise that the chairman consider a closed hearing and that 
our members know that that will be available if they desire to 
pursue that or other issues that could be in the form of 
classified information.
    What's the chair's disposition on that?
    Chairman Levin. I thought I would ask a few questions about 
that which could be answered in an unclassified setting, and 
then if any of us wish a classified continuation we would do 
that, of course we would consider that. Let's start with a few 
questions that I'm going to ask about those reports, see if 
they can answer them in a way which is satisfactory, and then 
of course if you or any other member of the committee wishes to 
proceed in classified we could do that. Would that be all 
right?
    Senator Warner. Yes.
    Chairman Levin. All right.
    On that subject, let me address to Secretary Donley and 
General Schwartz this question. The Air Force nuclear program 
has suffered from a lack of oversight and attention, leading to 
a general devaluing of the mission within the Service, 
according to several of the investigations and reports dealing 
with the Air Force. Whatever the political view one has as to 
the size of the stockpile or the appropriate role for nuclear 
deterrence, there can be no debate about the fact that nuclear 
weapons and all related components must be absolutely safe and 
secure.
    General Schwartz and Secretary Donley, have you had 
discussions with the authors of the various reports and 
investigations, including General Larry Welch and Admiral 
Donald, as to what they see as the key problems that need to be 
fixed? Secretary Donley, let me start with you.
    Mr. Donley. Yes, sir, I have. I've met both with General 
Welch and with Admiral Donald on their respective reports.
    Chairman Levin. All right. Have you, General Schwartz, met 
with them?
    General Schwartz. Mr. Chairman, I have not, pending 
confirmation.
    Chairman Levin. Have you read their reports?
    General Schwartz. I have read the portion of the Donald 
report which was made available to me, less chapter 7.
    Chairman Levin. Let me ask you first then, Secretary 
Donley. Do you agree with their conclusions?
    Mr. Donley. I do.
    Chairman Levin. General Schwartz, do you agree?
    General Schwartz. I certainly do, sir.
    Chairman Levin. Secretary Donley, in the few weeks you've 
had, what steps have you taken to fix the problems, if you can 
tell us in an unclassified setting?
    Mr. Donley. If I can summarize, Mr. Chairman. When I 
arrived I received several briefings on the current status of 
Air Force actions, ongoing actions to address both the Minot-
Barksdale incident and also the Taiwan nose cone issue. In 
being briefed on the status of those actions, it was apparent 
to me that the Air Force had been working on both of these for 
a number of months and had underway perhaps over 100 individual 
actions, first in response to the Minot-Barksdale incident, 
those were sort of underway, then in a serial fashion to 
address the Taiwan incident as the facts of that situation 
became known.
    What I felt was appropriate and necessary to take the next 
step for the Air Force was to pull together this information 
and all these activities and pull them up to the strategic 
level to begin to address the more systemic issues that were 
outlined in the Donald report. These individual incidents, as I 
think Admiral Donald alluded to, are evidence of some deeper 
systemic issues that need to be addressed by the Air Force.
    What I've asked from the Nuclear Task Force is that they 
prepare a strategic road map that will collate and synchronize 
all the individual activities underway, but pull them up to the 
strategic level so we can see all the training, all the 
procurement, all the personnel, all the leadership issues, all 
the doctrinal issues, all the sustainment issues that need to 
be addressed to ensure we are fully recommitted to our 
stewardship of the nuclear enterprise.
    There must be no question about the Air Force's support for 
this fundamental national mission.
    Chairman Levin. Secretary Donley, chapter 7 of the Donald 
report deals with accountability. Secretary Gates has charged 
the Air Force leadership with the responsibility for 
implementing that chapter within the Air Force. Can you tell us 
what the schedule is for review and action?
    Mr. Donley. I have set in motion a review of the 
accountability of officers associated with the Taiwan incident 
in particular, following the lead of the Donald report in these 
areas. I have asked for a report or advice in 30 days and 
expect to address appropriate action at that point.
    I would also add that there already had been disciplinary 
actions taken in both of these incidents. Some 17 officers or 
officials had been relieved of their duties, 11 had been 
reassigned, and 5 received Article 15s. So action had already 
been taken, but we are following----
    Chairman Levin. Below a certain level, is that correct?
    Mr. Donley. That's correct.
    Chairman Levin. But there's a review at all levels; is that 
correct?
    Mr. Donley. That's correct.
    Chairman Levin. General Schwartz, in response to the 
prehearing questions regarding the Air Force's aircraft 
inventory, you said that DOD's revised fiscal guidance for the 
Future Years Defense Program (FYDP) beginning in fiscal year 
2010 authorized an approximately $5 billion boost for our 
recapitalization efforts, and that will certainly help. You 
went on to say that ``The additional resources that we receive 
will be used in part to increase the F-35s annual production 
rate.''
    Now, is increasing the F-35 JSF production rate the best 
way for dealing with the potential Air Force fighter inventory 
shortfalls, or should we continue to buy F-22A aircraft to deal 
with inventory shortfalls?
    General Schwartz. Sir, it is the major strategy for 
addressing the inventory shortfalls as we go out toward 2025. 
That is, increasing the production rate from 48 per year to as 
high as 110 per year. That is the key strategy for achieving 
that outcome, sir.
    Chairman Levin. Is there any less-than-key strategy which 
you would recommend in addition?
    General Schwartz. Sir, it seems to me, first of all with 
regard to the F-22, that is an essential part of the force mix. 
As you're aware, there are many who think that the F-22 is only 
an air-to-air platform. In fact it has important capability for 
destruction of enemy air defenses in an era when surface-to-air 
missile threats are available from the commercial market and 
are increasingly lethal.
    So for the F-22 in particular, there are a number of 
studies, sir, that talk about inventories in the range of 180 
to 381. If confirmed, I will delve deeply into that analysis 
and the assumptions associated with that, and I will be happy 
and be able to come back to the committee with my best 
recommendation on the total procurement for F-22.
    Chairman Levin. Do you have any current position as to 
whether we should continue production of the F-22? Are you 
awaiting those----
    General Schwartz. Sir, the position of the Department----
    Chairman Levin. I mean your personal position.
    General Schwartz. Sir, my personal position is that I 
believe that 183 is not the ceiling on the low end, but that 
381 is too high on the high end. So yes, I think we should 
preserve production at least for the near term.
    Chairman Levin. My time is up.
    Senator Warner.
    Senator Warner. Secretary Donley, in recent years GAO 
protests by bidders have resulted in the reversal of a number 
of significant Air Force contract award decisions, including 
those of the KC tanker replacement, combat search and rescue 
helicopter replacement, and the C-130 avionics modernization 
program.
    In your remarks on July 9 at a DOD press briefing with 
Secretary Gates, you stated that: ``The underlying Air Force 
acquisition system is not somehow fatally flawed.'' Now, how do 
you square that conclusion with the facts?
    Mr. Donley. Senator, the KC-X announcement by GAO was made 
just a few days before I was appointed Acting Secretary. As I 
looked at the facts associated with that particular decision, I 
did not see mismanagement by the Air Force. I did not see 
misconduct or gross incompetence in the acquisition process.
    As GAO looked at the protests, they evaluated over 100 
items that were brought to them and were at issue in terms of 
how the Air Force conducted its business. The Air Force was 
sustained on the majority, the vast majority of those items.
    Senator Warner. You still stand by your statement, then, 
that you do not think there is any fatal flaws in the system?
    Mr. Donley. No, sir. I think the Air Force acquisition 
system is the DOD acquisition system, it is the Federal 
acquisition system that we all have lived with, with its many 
complexities, for over 50 years. Generally speaking, my 
experience in this area is that we do not throw the whole thing 
overboard and start over.
    Senator Warner. No one's suggesting that. But it's a fairly 
tight statement you made, that it's not fatally flawed, and I 
think on reflection you feel that there's some strong--maybe 
it's a question of semantics. But to me when you make a 
statement that it's not fatally flawed against a background of 
a lot of problems, I find a disconnect. Maybe we respectfully 
have differences of point. But I think you've assured the 
committee this morning it's high on your agenda to get things 
straightened out.
    Mr. Donley. It is, Senator. We do have lots of work to do 
and I have set that in motion with the acquisition community.
    Senator Warner. I mentioned that this committee had a 
briefing by Admiral Donald and I intend to go into that to some 
extent, Mr. Chairman. But I would first just ask you, General 
Schwartz. As I look through your very distinguished career and 
assignments, you never had any real command authority over 
those areas of the Department of the Air Force that have been 
brought to the attention in the Donald report. Would I be 
correct in that?
    General Schwartz. Senator Warner, in fact when I was the 
commander of the 36th Tactical Airlift Squadron at McCord Air 
Force Base in the State of Washington in the late 1980s, we 
were the only C-130 unit that had the primary nuclear airlift 
force mission, that is for transporting America's nuclear 
weapons and components. So I have had experience in terms of 
the rigor and the attention to detail required to transport 
nuclear weapons in that context.
    Senator Warner. I presume at that time you felt that there 
were adequate checks and balances in the system, and I believe 
that to be correct because I think most of the problems 
outlined in the Donald report were subsequent to that period. 
But subsequent to that assignment you had, you had no direct 
responsibility?
    General Schwartz. That is correct.
    Senator Warner. Therefore I just assume you were not aware 
of these problems, many of which are cultural, in that area.
    General McNabb, your career, pretty much I do not see any 
direct area of responsibility (AOR). Nevertheless, when you 
were Vice Chief--now, I have some familiarity with that 
position. It really is just as broad as the Chief's, and 
perhaps there are specific areas that the Chief and you work 
out together you'll handle. But you have the Air Force across 
the board, wouldn't that be correct?
    General McNabb. Yes, sir.
    Senator Warner. How do you feel about the Admiral Donald 
report with respect to the performance of your functions? Did 
you at any time encounter some of those problems, and if you 
did what did you do or not do to correct them as Vice Chief?
    General McNabb. Yes, sir. As the Vice Chief, I got to see 
specifically the blue ribbon panel recommendations following 
the General Welch review as well as the accident investigation 
board that General John D.W. Corley did following the Minot to 
Barksdale movement. The consolidation of those findings and the 
recommendations that came out of that, I got to see how our Air 
Force--they would come and brief me on what they recommended 
and what they were doing. I got to see the Air Force as they 
tried to get at this problem.
    I will say that since that time Secretary Donley as he came 
in, and after reading the Donald report, one of the things that 
there is no question is that, as we look deeper into these 
issues, there was in fact some cultural problems. There were 
some other problems, that every time you look in one place you 
would realize that from a cultural and oversight standpoint 
there were some very deep issues.
    The Air Force was trying to get at that and I would say 
that the part that Secretary Donley has done, has said, let's 
bring all of that together and let's make sure that we look at 
all parts of it, and that's that integrated road map that he is 
asking.
    Senator Warner. Quite frankly, we're trying to sit here and 
judge your qualifications to take on your next important 
command. But bearing on that is when you were Vice Chief these 
problems were out there, but you at this time represent to us 
that you were just not aware of them, they were not brought to 
your attention, and therefore you did not take any action 
remedial to correct them?
    General McNabb. Senator Warner, in fact what we did was we 
looked at the 128 findings and aggressively moved out on fixing 
those issues, I think that what we had to do is go in deeper. I 
think that was ongoing. I just think that it wasn't as quick as 
we needed to do it.
    Senator Warner. There's been a recent series of articles 
regarding these executive containers to be put into planes for 
various individuals to utilize or better utilize their 
abilities as they're in the air. I remember very well, Mr. 
Chairman, in our early days when we took congressional 
delegations we used the old Air Force tankers and there were no 
windows. Do you remember that? There was a little window in the 
back and that was about it.
    We did have plywood encasements that were put into the 
plane. I remember vividly sharing one with old Hal Heflin. 
Remember him? He was 6 foot 3 and slightly large around the 
girth, and he was a big man to share a little compartment with, 
but he was a wonderful man. We all loved him a great deal.
    Chairman Levin. A great man.
    Senator Warner. A great Senator.
    So I've had some familiarity with this issue. We also know 
only too well on this committee in the years that we've been on 
it--we had the very unfortunate history of the procurement of 
the commode situation, and then the hammer situation, whether 
it was a $400 or $500 hammer. I mean, these problems have been 
out there, regrettably, through the years.
    Along comes this one. You had some responsibility, as I 
understand from the record, with regard to that program. I'd 
like to give you the opportunity now to clarify what your 
understanding of your responsibility was and, to the extent 
that you, in exercising your official duties, took any 
corrective actions or in any way otherwise tried to avoid what 
is a very unfortunate story out here, which--these are the sort 
of stories that trouble the American public so greatly, when 
they give of their taxes to provide for the defense of this 
country.
    I can tell you from long years of experience, and all of us 
on this committee know, that when we go back home we're not 
asked the complicated questions that we're covering here this 
morning. They just shake their fist at us: You're responsible 
and you're on that Armed Services Committee; how could you have 
let this happen?
    This is your opportunity.
    General McNabb. Yes, thank you, Senator. One of our most 
important missions is the movement of our national leadership, 
both military and civilian. We take that very seriously. We 
have two ways of doing that. We have about 31 dedicated 
airplanes that we use to move our leadership around. Those are 
shared assets, so they're prioritized.
    The other way that we do it, depending on the threat that 
we face, is we may put them on combat airlift airplanes or 
tankers, as you mentioned, and we will take them in, again 
because of the nature of the threat, where we have to have a 
reduced signature or where the threat requires defensive 
systems or tactics, techniques, and procedures that our combat 
Air Force----
    Senator Warner. I don't question the advisability and the 
need for some sort of system. It's how this system was evolved 
and the trappings and so forth that were associated with it, 
which I think the public is just standing in awe of as to how 
this happened. To what extent were you personally responsible 
for those decisions, which now are under careful public 
scrutiny?
    General McNabb. Yes, sir. I was the AMC Commander. I had 
been the J-4 on the Joint Staff, and as the AMC Commander I 
said that, given September 11, given the tremendous additional 
need for our leadership to go to the theater and then come back 
out--what I ended up tasking was, let's come up with a 
prototype, a one to two-pallets, kind of much smaller capsule, 
that we could put on any of our airlift or tanker airplanes and 
therefore satisfy this requirement.
    The idea was that this module could be placed in theater as 
well, so that you could take advantage of any organic 
opportunities available as well.
    What we wanted to do is I asked them to make sure that it 
met the security, the communications, the work environment, and 
most importantly the safety, the Federal Aviation 
Administration standards that need to be met. Sir, I believe 
that we have done that. Obviously, I left the AMC Commander 
position about a year ago and I have not dealt with that since.
    Senator Warner. So in your capacity as Vice Chief you 
didn't look back on one of your responsibilities to see if it 
was moving along in a manner you felt was consistent with the 
best interests of the Department?
    General McNabb. Sir, as the Vice Chief I did not deal with 
this issue.
    Senator Warner. Thank you.
    Chairman Levin. Thank you very much, Senator Warner.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to the nominees who are here and 
also to your families that are here.
    I'd like to direct my first question to Mr. Donley and 
General Schwartz. Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) in Iraq and Afghanistan have developed 
into conflicts where the Army and the Marine Corps comprise the 
main effort. The Air Force has played more of a supporting 
role, yet critically needed, but a role in a very ground-
centric counterinsurgency effort over the past 5 years.
    My question is, do you believe that the Air Force should 
continue to build its capacity and capabilities in the 
counterinsurgency support mission, or do you believe that this 
kind of support-specific focus would adversely affect the 
preparation for the future of the Air Force?
    Mr. Donley?
    Mr. Donley. Senator, this is a very good question and it 
strikes to the heart of what the Air Force leadership is 
responsible for addressing, and that is the balance of 
capabilities across the many warfighting missions that we 
support.
    A couple of points of reference, if I might. The Air 
Force's contribution to OIF and OEF and the global war on 
terrorism is comprehensive. The Air Force is operating some 60-
plus satellites that are supporting the communications, the 
weather, the intelligence, surveillance, and reconnaissance 
(ISR) work. We're supporting the air bridge that General McNabb 
and General Schwartz are so familiar with, that links us so 
easily and so facilely from the continental United States 
(CONUS) and all the bases of the Army, Navy, Air Force, and 
Marine Corps here in the CONUS and North America, all the way 
across the world to that theater of operations. That is a huge 
mission that we do seamlessly with the other Services on a 
daily basis.
    The Air Force is committed to this in the intelligence 
area. We are flying unmanned aerial systems that 10 years ago 
were hardly even in the inventory. We are fully committed on 
the Special Operations side. So the Air Force is contributing 
to the global war on terror with these operations across a 
range of capabilities.
    In addition, we are also sending airmen, about 4,000 to 
6,000 at any given time, to assist with convoy duty and other 
ground operations to relieve pressure on the Army and the 
Marine Corps. So we are fully committed to this fight, and I 
believe Secretary Gates, and I believe most members of this 
committee who follow military operations recognize those 
contributions.
    That is our first priority right now as we build 
capability. We need to continue to make decisions about how we 
spread resources across these many mission areas that the joint 
warfighters need and balance the here and now with potential 
future threats. That is something that we have always done and 
we will continue to try to do to the best of our ability.
    Chairman Levin. Senator Akaka, forgive me for interrupting, 
but we have a quorum now present and that gives us an 
opportunity to consider a list of 1,981 pending military 
nominations. They've all been before the committee the required 
length of time. Is there a motion to favorably report these 
1,981 military nominations to the Senate?
    Senator Warner. So moved.
    Chairman Levin. Is there a second?
    Senator Ben Nelson. Second.
    Chairman Levin. All in favor say aye. [A chorus of ayes.]
    The motion carries.
    Now, a couple other items. One is the vote is now scheduled 
for 11:20 instead of 11:00.
    Second, I'm going to have to leave, so the following order 
would be followed: After Senator Akaka would be Senator Inhofe 
and then Senator Ben Nelson. Are you going to be here for a few 
minutes? Then Senator Warner can make any changes in that if 
necessary.
    Excuse the interruption, Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    General Schwartz, would you comment on that?
    General Schwartz. Senator Akaka, thank you for that 
question. Fundamentally, I do not believe it is an either-or 
condition; that the United States Air Force, like the other 
Services, needs to be a full spectrum capability. At the 
moment, as Secretary Donley suggested, our focus obviously is 
in Iraq and Afghanistan. We have provided the kinds of 
capabilities on which the ground forces that you addressed 
depend: lift, resupply, strike, ISR, even evacuation of the 
wounded. Those are important missions.
    We have people who are running detention facilities. There 
are members of Provincial Reconstruction Teams, and they are 
involved in transportation and ground convoys and so on.
    The bottom line, Senator, is that we as an Air Force can 
provide both the kind of concentrated effort required by the 
joint team in Central Command today and posture ourselves for 
future potential adversaries at the same time.
    Senator Akaka. General Schwartz, the number five priority 
on the Air Force's procurement list is the development of the 
so-called Next Generation Long-Range Strike Aircraft. According 
to the Air Force, the plan is to have a three-pronged approach 
in modernizing the Nation's bomber fleet: first, upgrade our 
aging B-52s and B-1s; second, field a new bomber by 2018 with 
existing technologies; and third, develop a bomber representing 
a quantum leap forward in capability by 2035.
    Ahead of this priority includes the new air refueling 
tanker, the new combat search and rescue helicopter, and F-35 
fighter bomber, and upgrades to space systems.
    My question to you, General, is what is the role of the 
2018 bomber or the second pronged approach? What is that 2018 
bomber supposed to fill, given that the kinds of missions it 
would carry out could also be fulfilled by the new F-35 fighter 
bomber scheduled to be fully operational in a few years prior 
to that time?
    General Schwartz. Senator, they perform similar missions, 
strike missions, but the question is how do you access the 
target set. In some cases that is possible from relatively 
close in. In other cases it's much more desirable to be able to 
reach out from a distance. The new bomber will enable us to 
maintain the capability to engage targets at a distance, and 
recognizing again the threat environment is likely to become 
more complex and more demanding and thus we'll need an airplane 
that's properly designed to perform in that environment.
    Senator Warner. Thank you, Senator, for your questions.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Schwartz, I think that was an excellent answer you 
gave and I think it points out the complexity of the various 
vehicles that we have.
    Senator Warner in his opening statement talked about the B-
52 situation, about the aging aircraft. I think we talk about 
it, we touch on it, and then nothing ever seems to happen. Yet 
we've flown some 96,000 sorties in the last year. Our equipment 
is old. We know what's happening in terms of the average age 
and the flight hours of fighter aircraft is 20 years and 5,400 
hours; bombers, 32 years, 11,000 hours.
    I've had numerous experiences over there. I look over and 
see my good friend Senator Martinez, who was with me when we 
had a little surface-to-air missile (SAM) problem coming out of 
Baghdad. This was one in an old beat-up C-130E model. Actually, 
the trip before we didn't lose one engine in an E model, we 
lost two engines in an E model. I keep telling them, work on 
some of these other guys, not on me. I want more and I want 
bigger ones and I want J models and H models.
    But nonetheless, this is the problem. We recalculated the 
problem that we had when Senator Martinez and a few others were 
taking off. It was about 7 minutes after takeoff. If we had 
been in even an H model, we would have been at an altitude 
where we would not have been vulnerable. I have to say, though, 
in that incident, with the flares and the responses, you would 
have been very proud, Senator Warner, of our pilots and the way 
they conducted themselves.
    But the bottom line is these are life-threatening things. 
There's something where someone could have been killed only 
because they're not performing as to the minimum expectations, 
at least of me and several others on this committee.
    We have these problems up there and we all seem to think, 
well, how do we get through the next 3 months? I'm thinking on 
down the road.
    What is your solution to what we're going to ultimately 
have to do to get rid of this aging aircraft problem that we 
have, General?
    General Schwartz. Sir, there is only one way that I am 
aware of to address this, and that is that you have to embark 
on a recapitalization profile that will reduce the average age 
of the fleet. As you suggested, the average age now is about 24 
years. In order to sustain that level, you have to have about 
160 aircraft a year in terms of procurement of the various 
kinds.
    To drive that average age down could require somewhere 
toward 200 aircraft a year. We're currently purchasing about 
110 or so. The way to address this is, number one, we have to, 
I think, identify what our priorities are. We have said that 
it's the tanker first that is the appropriate first priority. 
But I think we have to look across the fleet and dialogue with 
you, make sure that each of the members of the committee 
appreciates the risks and the opportunities, and then gain 
consensus on a program for recapitalizing that fleet.
    Senator Inhofe. I want to get to a couple of specific 
vehicles in a minute. But in the mean time, we saw this coming. 
At least I saw it coming. Many other members did. During the 
1990s when we had this euphoric attitude that the Cold War is 
over, we don't need a military any more, and during that time 
we actually for all practical purposes reduced our procurement, 
our modernization, our end strength, by about 40 percent.
    At the same time, the Chinese during that same period of 
time were increasing their procurement by 1,000 percent. I'd 
like to get out of the mentality of just taking care of what's 
bleeding today.
    What do you think, Mr. Donley, about the long-term future? 
What should we be doing now? Was Secretary Rumsfeld right in 
his first confirmation hearing when he said that we need to get 
back up to what we did during the 20th century, 5.7 percent of 
our gross domestic product, as opposed to down to 3 percent?
    Mr. Donley. There's no question, Senator, that the 
recapitalization challenge for all the military departments is 
one of the most critical issues that we face, because it is 
not, as you appreciate, it is not just in one aircraft series 
or in one mission area. It is across a full range of 
activities. It is in some cases in the tactical airlift fleet, 
it's in the search and rescue fleet, it's in the tanker fleet, 
it's in the bomber fleet. There are big numbers in the fighter 
fleet as well.
    So how to do this is going to be a neat trick. We need more 
resources to get it all done in the time that we would be most 
comfortable getting it done.
    Senator Inhofe. We need more resources.
    Mr. Donley. But I have been in this town for 30 years and 
we always live in a resource-constrained environment, where we 
have to make these tradeoffs. We are not always able to choose 
and implement the most effective acquisition profile for every 
program at the same time.
    Senator Inhofe. I'm sorry, my time is running out. I agree 
with what you're saying. I think that is a problem. But when 
you name all the missions and the vehicles to accommodate, to 
address these missions, we don't have any idea--in 1994 they 
testified that in 10 more years we wouldn't need ground troops. 
You're going to be relying on very smart generals, General 
McNabb and others, but you're going to be wrong in trying to 
anticipate what our needs are going to be.
    It would appear to me that the American people do expect 
our guys going out there, and gals, that they're going to have 
the best of equipment. I want to specifically talk about the F-
22. I think others are going to bring this up also. But when we 
had to ground some 600 of the F-15s after one broke up there--
now I guess they're going back up; maybe the F-15Es were never 
completely grounded--you start looking at the numbers. The F-
15s right now, 426; the E models, 224; the F-16s, 1,214.
    Now, if we were to cut this off with the F-22s right now 
that would be 183. I think you answered the question, General 
Schwartz, that's not adequate and maybe something more than 
that is. When you look at the sheer numbers and let me just ask 
you the question: Did all three of you agree with the statement 
that General John Jumper made back in 1998 when he said that we 
have to do something about our modernization program because 
the Su-27, Su-30 vehicles in Russia that they're cranking out 
are better in some ways than our best strike vehicles, which 
were the F-15 and F-16? Did anyone take issue with that? [No 
response.]
    Nonetheless, I guess what I'm saying is that we are going 
to end up with 183, as opposed to, just look at China alone. 
They have bought some 1,744 vehicles from, Su series vehicles, 
from China. Does this concern you folks, that we'd only have 
183 strike vehicles competitive with a potential adversary?
    Mr. Donley. Senator, we have to be attentive to numbers, 
but the United States, and particularly the Air Force, has 
relied on technologies and operational concepts that we have 
been able to meld into giving us increased capabilities, even 
though we have been shrinking the number of airframes over the 
years. We have a smaller Air Force than we had in the past and 
in most cases it's much more capable.
    But I share your concern to keep an eye on those potential 
threats that might develop around the world. Technology 
continues to move abroad both in Russia and in China in ways 
that we need to be attentive to.
    Senator Inhofe. Thank you very much. Let me just ask one 
more question. I agree with you, Mr. Donley, in terms of the F-
35 and the F-22; those are--they fall in the category that 
you're talking about. I'm just concerned that we stay ahead of 
the curve so that some other adversary--right now they're 
talking about a fifth generation Su series, I think it's the 
Su-35, and we don't want to wait until we find out we're in the 
same situation we were in 1998.
    One last question to General McNabb. On the Africa Command 
(AFRICOM), we have made, in our authorization bill, we have 
made requests, transportation requests, vehicles, assets. Are 
you supportive of and on line to try to direct these assets to 
the AFRICOM?
    General McNabb. Yes, sir, absolutely. General Ward actually 
came by and saw me early on. I know he talked to General 
Schwartz as well. But basically, as he outlines what he needs 
in AFRICOM, both from the standpoint of long-range airplanes 
that he can get his hands on, we talked about a C-37 and a C-
40, but also so that we would make sure that we give him the 
ability to get to the long-range lift, given the distances on 
that continent.
    Senator Inhofe. Thank you very much, Mr. Chairman.
    Senator Warner. Thank you, Senator. An important line of 
questions and I think the record should reflect that you've had 
a distinguished career as a civilian aviator. You understand 
airplanes. How many hours have you flown?
    Senator Inhofe. A little over 10,000.
    Senator Warner. That qualifies you, my good friend.
    Senator Nelson, you're up.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, not only for your willingness to take 
on new responsibilities, but for your previous service. We 
appreciate it so much, and that of your families, and of course 
all the men and women in uniform here and abroad.
    You take over the Air Force at a very critical point in 
time, not simply because of the manner of the change and the 
timing of the change, but also because it's an opportunity to 
take a look at transformation and transition for the Air Force. 
As you consider the questions of the type of airframes and 
aircraft and the numbers of aircraft, aren't there going to be 
questions about when was the decision made establishing the 
number of required aircraft? Is that current today? Are we 
faced with an Air Force that is based on fighting the last war, 
the perceived next war, as opposed to the most likely war 
involving cyber space, involving terrorism?
    Based on that, are you in a position to go back and 
evaluate all of those assumptions about the number of aircraft, 
the type of aircraft? Because that's going to be very helpful 
to us in deciding what we help fund for the present and the 
future. If we always do what we've always done, we'll end up 
right where we are today tomorrow, trying to replace aircraft 
without asking the question, do we need all those, do we need 
others, what do we need?
    Mr. Donley, could you respond first, and then of course 
General Schwartz?
    Mr. Donley. Senator, that's a very astute observation, I 
think, in the sense that the numbers that we look at now in 
terms of what's required going forward are built on study after 
study, which have attempted to assess what the new requirement 
is for a given airplane. As we get to critical decisions on F-
22, critical decisions on C-17 and other airframes which we 
have built out----
    Senator Ben Nelson. There certainly are some airframes that 
we know what the future is going to be required for lift and 
for transportation. We certainly know that. But when we get to 
some of the other aircraft, would that be the same?
    Mr. Donley. I would take slight issue, sir, in the sense 
that the requirements for these airframes continue to change. 
They continue to change in the operational environment, and 
they also change in our assumptions about what kind of threat 
we might need to face in the future. The assessments that are 
put together to evaluate individual airframes are often not as 
helpful as those assessments that look at airframes in 
combination.
    So the combination of the F-22 and the F-35 together are 
the right kinds of things to look at, I think. The combination 
of that combat air fleet with ISR assets in comparison. Those 
are the kind of good tradeoffs that help us find the right 
balance across different kinds of capabilities, whether it be 
attack aircraft, the ISR that goes with it and informs air to 
ground decisions, or even air to air engagement decisions.
    We're developing comprehensive capabilities, systems of 
systems, not just one airframe at a time.
    Senator Ben Nelson. I understand that and I'm not trying to 
talk the Air Force out of airplanes. I don't want you to have 
to change your name, among other things. But aren't there new 
emerging areas that are critically important, such as unmanned 
aerial vehicles?
    Mr. Donley. Absolutely, and this is----
    Senator Ben Nelson. Is that on an accelerated level or can 
you tell us something about that?
    Mr. Donley. It is. I believe--and I would stand corrected 
by my colleagues, but I believe half of the airframes requested 
by the Air Force in this year's budget are for unmanned aerial 
systems. That is a trend that as I understand it is probably 
going to continue. This has been one of the most thorough going 
and remarkable evolutions I think since I was Acting Secretary 
in 1993, the introduction of unmanned aerial systems and their 
use, not just in an ISR capacity, but also in an attack 
capacity, in a strike capacity.
    This is a new and growing area for DOD and the United 
States Air Force, and we are smack dab in the middle of that.
    We're also growing and getting more serious about the cyber 
threats to this country, which is clearly an area of concern. 
So the Air Force has been working on that. We need to 
recapitalize and add new capabilities in space. These are the 
new and growing areas which offer opportunities for 
transformation. They're based on sort of new demands coming 
from the warfighters based on our current experience and also 
what we forecast going forward as providing the best balance of 
capabilities across this attack, situational awareness spectrum 
of activity.
    Senator Ben Nelson. Has there been any change in 
assumptions as to the number of F-22s required in the last, 
let's say, the last 10 years? Or is it the same number?
    Mr. Donley. Sir, I would defer to my uniformed colleagues, 
but I believe there are at this point probably six or seven 
different studies on the table over the last roughly 10 years 
that have spoken to sort of what is the right number for the F-
22.
    Senator Ben Nelson. General Schwartz?
    General Schwartz. Sir, clearly I think it is important for 
any new leadership team in any discipline to come in and look 
at an organization and sort of revisit all the assumptions, the 
sort of business model, if you will, to assure that it's viable 
going forward. If confirmed, I commit to you and to the 
committee to revisiting those assumptions on all those things 
that drive requirements. It needs to be done. As I suggested, 
certainly in the F-22 area there are other studies that we need 
to nail down.
    But Senator, you're absolutely correct, and I think your 
notion of transformation and looking at new ways of doing 
things suggests that the old way of sort of packaging is not 
correct. I think the Secretary has it exactly right. There is 
trade space between strikers and ISR. There is trade space 
between air and surface lift. This is what we have to become 
more sophisticated at, and if confirmed you certainly will see 
me endeavoring to do that.
    Senator Ben Nelson. My time is up, and I hope that you'll 
take a look at what your predecessor said, General Schwartz, 
when I think he said that even with the budget that was 
submitted for authorization that it was $100 billion short that 
had to be made up over the next 5 years. I assume you'll have a 
sharp pencil to tell us how we're going to be able to do that 
as well.
    Senator Warner. Thank you very much, Senator.
    Senator Ben Nelson. Thank you.
    Senator Warner. Thank you, Senator, very much.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Donley, General Schwartz, General McNabb, thank 
you very much for your distinguished service to our country and 
to your families. Thank you all for your sacrifices that you 
make and for all that collectively you've accomplished for our 
country. You've all served with distinction and we appreciate 
very much your service.
    General Schwartz, I want to come back to some questions 
that Senator Akaka touched on regarding long-range strike and 
the bomber and ask you if you are committed to long-range 
strike and bomber roles in terms of the missions of the Air 
Force?
    General Schwartz. I am, sir, absolutely.
    Senator Thune. Are you committed to fielding a new bomber 
by 2018, which is right now what the----
    General Schwartz. That is the plan and if that is 
physically achievable we will do so.
    Senator Thune. Could you talk a little bit about the role 
that the current bombers have played in the conflicts in Iraq 
and Afghanistan?
    General Schwartz. Certainly, sir. As you're aware, we have 
operated with bombers in the theater since 2001, and in fact it 
was bombers that began the strike operations in Afghanistan in 
October of 2001 and in the days that followed. The bottom line 
is that these are very important platforms for reaching out, as 
I suggested earlier, to engage target sets. We have done that 
in Afghanistan repeatedly. We continue to have long duration, 
long dwell platforms above the battlefield in both Iraq and 
Afghanistan for on-call delivery of precision munitions in 
support of the joint team, and that certainly will continue. 
That has been extremely useful and I am certain that will 
continue, sir.
    Senator Thune. I assume that, because of that continued 
need for that sort of requirement, the next generation bomber 
obviously is going to have to step in and fill that role for 
the current generation?
    General Schwartz. That is certainly my view, Senator.
    Senator Thune. With regard to Air Force energy matters, 
just last week the Air Force asked to reprogram $72 million to 
buy more jet fuel due to increased costs that were not 
foreseen. Could you discuss the impact of higher fuel costs on 
the Air Force and your views on the Air Force's current 
synthetic fuels program?
    General Schwartz. Senator, I know there is much here that 
the members of the committee are concerned about for our Air 
Force. One of the areas, though, that I think represents the 
excellence and the genius of our people is the effort to find 
alternative ways to operate. Certainly in the area of fuel, 
this is the case.
    There is no question that the Air Force and air forces 
generally are the largest consumer of hydrocarbons in DOD. In 
our case, it's a difference in terms of $600 million or more 
associated with the change in the price of oil. So there are 
three components to it, sir. One is the basic operational 
approaches that we take. There are ways, just like driving our 
cars more slowly, there are ways to operate aircraft more 
efficiently and we have to do that in order to conserve 
resources.
    Second is to look at alternatives, such as Fischer-Tropsh 
and other ways to enable use of alternative fuels. As you are 
aware, we have the B-52, the C-17, and the B-1 have all been 
tested with blended alternative fuels successfully and the B-52 
has been certified to operate in that fashion.
    Finally, there is a longer term issue of platforms that are 
more fuel efficient than the current generation. This is 
something that we need to keep in our technology focus, which 
is thinking about ways that machines can do the job and be less 
hydrocarbon intensive.
    Senator Thune. I appreciate the answer to that, and I might 
ask maybe Secretary Donley to react to that as well. I want to 
follow up with a question regarding the Air Force's goal to 
have all aircraft certified on synthetic fuels by 2011 and to 
acquire 50 percent of its domestic aviation fuel requirement 
from a domestically sourced synthetic fuel blend by 2016, if 
that continues to be the goal. The Air Force being the biggest 
user of fuels in this country, if we are going to break this 
dependence on foreign sources of energy, it really starts I 
think with a lot of the procurement that we do for the 
Government. I'm just curious to know what your thoughts are 
with regard to that, at least what has been a stated goal of 
the Air Force.
    Mr. Donley. Senator, I'm currently reviewing the Air 
Force's energy policy. It's been on my desk for just a few days 
now. I am, like General Schwartz, impressed with the ingenuity 
and the scope of this effort after 3 or 4 years of work. It's 
gotten great attention in the Air Force and I do believe it is 
a success story.
    I think we ought to remain fully committed to getting all 
our air frames certified for blended synthetic fuels by 2011. I 
intend to follow through with that if confirmed.
    Looking ahead, one question I have going forward that I 
believe requires a little bit more discussion, collaboration 
with this and other committees of Congress, is figuring out how 
and where this change and reshaping of Air Force demand is 
going to be met, where is the supply going to come from for 
synthetic fuels in high volume, probably commercially 
connected, in ways that will drive down the cost, because as we 
approach this problem going forward synthetic and blended 
fuels, even at the higher costs per barrel that we're 
experiencing today, as I understand it will be higher yet per 
gallon for us to operate with these synthetic fuels. So we need 
a market-based solution across the Government and across the 
commercial aviation sector that will help drive that change and 
push down the cost.
    Senator Thune. My time has expired. Could you react 
quickly, though. One of the things that in the years since 
September 11 that we've really seen is the Guard and Reserve 
provide an incredibly important part of our national defense 
capability. Could you just discuss briefly your views on the 
Air Force's total force initiative?
    Mr. Donley. My colleagues I know are well versed in this as 
well, but I would just like to say that, as I come back to the 
Air Force after being gone for 15 years, this remains a real 
strength of the Air Force and the collaboration across the 
Active, Guard, and Reserve components in associating themselves 
with each other in progressively more collaborative and 
creative ways in bringing joint warfighting capability to the 
table in ways that we had never imagined before, and doing it 
in a fairly seamless way. I'm impressed with what I have seen 
thus far.
    General Schwartz. Senator, I certainly agree. The Air Force 
for 50 years has been using associations with the Guard and 
Reserve and maintaining the identical levels of readiness. I 
think that's exactly the way to go forward. We are capitalizing 
on the experience and the community association of the National 
Guard, for example, and bringing Active Duty personnel in an 
associate arrangement, so that we get the benefits of the 
National Guard experience and community setting as well as the 
productivity that comes with full-time Active Duty--important 
principle. Thank you, sir.
    Chairman Levin. Thank you, Senator Thune.
    General McNabb. If I could--I'm sorry, sir.
    Chairman Levin. No, that's all right, if you have a quick 
comment to add.
    General McNabb. Sir, I was going to add that I think the 
Air Force does total force better than anybody. I believe that 
we continue to look for innovative ways. Especially if I think 
about the TRANSCOM and AMC, obviously that's something that I 
would really push across the board. I think the total force is 
what gives us that great synergy to meet those needs at a 
reduced fraction of the cost of what it would do to have Active 
Duty do all of this. The sharing of airplanes in the associate 
relationship that General Schwartz mentioned is one of the best 
ways. As we bring new aircraft on, it is something that's 
worked for many years in the mobility world and now we're doing 
the same thing in the combat air forces and so forth. We think 
it's absolutely essential.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Bill Nelson.
    Senator Bill Nelson. Good morning, gentlemen.
    General Schwartz, the Washington Post is reporting that 
Russia has stated that they would consider basing their 
nuclear-capable bombers in Cuba if the U.S. installs a missile 
defense system in Eastern Europe. What would be your 
recommendation if that were to occur?
    General Schwartz. I certainly would offer my best military 
advice that we should engage the Russians not to pursue that 
approach, and if they did I think we should stand strong and 
indicate that is something that crosses a threshold, crosses a 
red line for the United States of America.
    Senator Bill Nelson. General Schwartz, in an 8-month period 
between March 2003 and October 2003 you testified to this 
committee over a number of times in closed classified sessions 
regarding issues that were happening in Iraq before the war 
started and all the way up to October after the war had 
started. Do you want to share with the committee, do you feel 
that you were adequately forthcoming with the committee during 
those classified sessions?
    General Schwartz. Senator Nelson, it is painful to know 
that one or more members of the committee feels that I didn't 
measure up with my testimony in 2003. I fully appreciate the 
necessity for committees of Congress to receive answers that 
are crisp, responsive, and that are serious answers to serious 
questions.
    At the time I attempted to do my best to be loyal to the 
needs of the committee and to my own reluctance to speculate on 
matters in which I did not have personal or professional 
experience. I am well aware, sir, of the gravity of the 
position for which I have been nominated and your need and the 
committee's need for crisp military advice and answers to your 
questions.
    Sir, I ask you to judge my performance since 2003. I have 
grown since that time and I ask you to accept my assurance 
that, if confirmed, I will provide answers and best military 
advice worthy of a Chief of Service.
    Senator Bill Nelson. Do you feel that you were not 
adequately forthcoming with this committee in that testimony 
over that 8-month period?
    General Schwartz. Senator Nelson, I did not answer your 
questions directly and by definition that is not sufficiently 
forthcoming.
    Senator Bill Nelson. By ``your questions,'' you're 
referring to several members of the committee's questions?
    General Schwartz. That is correct, sir.
    Senator Bill Nelson. Mr. Chairman, under your guidance we 
will pursue this in executive session. Do I still have some 
time remaining?
    Chairman Levin. I think you do. There has been a request 
for an executive session on a number of issues and so there 
will be an executive session following this.
    Senator Bill Nelson. Mr. Donley, you and I had visited when 
you were kind enough to come by about the deplorable situation 
in the housing for airmen at Patrick Air Force Base and other 
bases, basically where the Government has been fleeced, where 
the Government has given away 100 acres of oceanfront barrier 
island land worth $17 million, and now where the Government is 
about to give away its remaining interest in another 200 acres 
that was supposed to be housing for airmen and their families, 
560 some units, and the only thing that has been built is about 
160 units.
    Of course, I've raised a fuss about this. Since we spoke 
about this issue, why don't you reflect on what you think we 
can do to straighten it out.
    Mr. Donley. Senator, I have had one meeting with the 
environmental office, the Installations and Environment Office, 
to discuss this matter. We have not been able to resolve 
completely your concerns and I continue to work this issue, as 
I pledged to do.
    Senator Bill Nelson. What are the other options other than 
going through with this give-away that the Air Force has 
proposed and which we have as a part of our National Defense 
Authorization Bill, we have included a part in that there needs 
to be a cost-benefit analysis before the Air Force would move? 
What do you think are the other options that the Air Force 
could exercise?
    Mr. Donley. I'm trying to uncover what the options are. I'm 
also trying to uncover what the fact base is here, because I 
believe we may have a disconnect with your office on what the 
facts are. So I'm trying to get that straight.
    You have sent a letter on this subject and I've asked the 
staff to begin drafting an answer. I do not have all the 
answers I need to be responsive today, but will continue to 
work this issue.
    [The information referred to follows:]

    Senator Nelson, I share your concerns and thank you for your 
continued advocacy for our airmen and their families.
    As I understand it, 101 acres of property, was sold previously for 
$25 million by the Patrick Family Housing LLC to a third party 
developer to provide cash equity to assist in construction of the new 
housing units.
    With respect to the remaining acreage, the Air Force still retains 
all rights on the undeveloped portion of the 172 acre project site, and 
development is currently restricted solely to military family housing. 
The Air Force is currently conducting a cost-benefit analysis, in 
accordance with section 2805 of the Senate report to accompany the 
National Defense Authorization Act for Fiscal Year 2009, which requires 
that I submit this cost-benefit analysis before dissolving the Patrick 
Family Housing LLC. We are currently working to complete that cost 
benefit analysis and we will discuss the results with you and the 
committee before any final action is taken.
    I am currently reviewing possible courses of action and I have 
asked my staff to meet with you and your staff during the week of July 
28, 2008 to go over possible courses of action being considered. Like 
you, my goal remains to provide quality housing for airmen and their 
families at all of our military installations. Thank you again for you 
continued support of our Air Force.

    Senator Bill Nelson. I certainly strongly suggest that we 
come up with some answers that will fix the problem for Moody 
Air Force Base and Little Rock, but would also get more housing 
for the airmen at Patrick. Otherwise they're left holding the 
bag with 400 less units and a give-away of all of the remaining 
200 acres there on oceanfront barrier island, and no recovery 
of damages from the defaulting developer.
    I have been handed the card, Mr. Chairman, that my time is 
up. I will pursue this later.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Senator Warner mentioned the age of the B-52 aircraft. Of 
course, it's also a fact that the KC-135 is also an aging 
aircraft and needs to be replaced. I just want to comment 
briefly about the tanker rebid. Mr. Secretary, I understand and 
fully agree with your statement in your testimony about 
rebidding these eight items that need to be looked at. But I 
would also state that Congress should not intervene in the 
process of setting the requirements for the Air Force tanker 
program. We're not experts on the military requirements. There 
are professional military men and women who are and they know 
how best to satisfy those needs.
    I want to quote Under Secretary Young's recent comments 
before the House Armed Services Committee, where he said: 
``Grounded in the warfighter's requirements and the pursuit of 
best value for the taxpayer, the Defense Department is the only 
organization that can fairly and knowledgeably conduct this 
competition.''
    I want to associate myself with those remarks, to say that 
I hope that the process will move quickly. Of course, if the 
Northrop Grumman bid eventually succeeds I'll be delighted. I 
suspect that Senator Sessions will be delighted. But we want it 
called straight and called by the numbers, and we want the best 
aircraft for our troops, and we need to move forward quickly 
because it's an old aircraft.
    Having said that, I want to move to a matter in my own 
State of Mississippi. I have the honor of representing many 
military installations. But I want to call the attention of the 
committee and the witnesses to the 186th Air Refueling Wing of 
the Mississippi Air National Guard in Meridian, MS. The 186th's 
mission has included training, maintenance, and operation of 
the KC-135R.
    By way of background, Key Field, home of the 186th in 
Meridian, is literally the birthplace of air-to-air refueling. 
It is the site of Al and Fred Key's 27-day refueling flight in 
1935, which still stands as a record. I will say to the 
witnesses that I recall as an advanced Air Force Reserve 
Officer Training Corps cadet at the University of Mississippi 
having the opportunity to hear Al Key come and speak at our 
dining-in on the Ole Miss campus.
    Now, the problem is this. The 2005 Base Realignment and 
Closure (BRAC) decision removes the KC-135s from the 186th and 
from Meridian. We're slated to receive a warfighting 
headquarters in the near future and possibly a joint cargo 
aircraft mission. But I'm concerned about a potential gap of 3 
to 5 years that would exist between the tankers leaving 
Meridian and the arrival of a follow-on flying mission. This 
would be devastating to the facility and to the community of 
Meridian, and I don't think it would be in the national 
interest.
    I understand there are discussions concerning a bridge 
mission. I hope we can find an answer which will maintain the 
186th's high level of proficiency.
    Also in that regard, I would like to take this opportunity 
to invite all three of you to visit this impressive 
installation with me. It has a great history, as I've said. Its 
physical assets are impressive and are a tribute to the 
leadership over some 30 years of my late colleague, 
Representative and Chairman Sonny Montgomery.
    The 186th houses a plus-85,000 square foot maintenance 
hangar. I believe it to be the only double-bay hangar in the 
Air National Guard. It has ramp capacity to accommodate 18 KC-
135s. I think it's worth a visit, gentlemen. We could combine 
that with a facility that I know General McNabb is familiar 
with, the 172nd flying C-17s in Jackson, MS. So I hope each of 
you will work with my staff and with me in seeing if we can 
schedule a visit and a solution to this potentially devastating 
gap.
    Having said that, let me move on. Mr. Chairman, you can now 
begin my 7 minutes of questions.
    Chairman Levin. You're already at 8 minutes. [Laughter.]
    Senator Wicker. Then I've said my peace.
    Let me follow on with Senator Thune on the synthetic fuels, 
Mr. Secretary. By 2016, how much of a component of that is coal 
to liquid, and would you comment about your understanding so 
far of the cost effectiveness of that component of the new 
synthetic fuels?
    Mr. Donley. Senator, first of all, thank you for the 
invitation and the piece of history on the 135s and aerial 
refueling.
    Senator Wicker. It's a remarkable achievement for 1935.
    Mr. Donley. It sounds to be so.
    I'm not familiar with the liquid coal piece of the 
synthetic fuel options, I just have not gotten into that level 
of detail, but I'd be happy to do so.
    Senator Wicker. Okay. Are either one of you other witnesses 
able to comment on that?
    General Schwartz. Senator, likewise I do not have that 
readily available. I'd be happy to report that for the record.
    [The information referred to follows:]

    I have not had a chance yet to thoroughly review the Air Force 
Energy program, but I do support the ongoing initiative to certify all 
of the Air Force aircraft to operate on a 50/50 blend of Fischer-
Tropsch and JP8 fuel by 2011.
    As I understand it, there are many possible feed-stocks for the 
Fischer-Tropsch process. For the original tests on the B-52, the feed-
stock was natural gas, but I understand that many companies are 
currently considering or pursuing the use of coal as their feed-stock.
    With respect to cost, I understand that domestically produced 
Fischer-Tropsch fuels are currently more expensive than petroleum 
fuels. I would defer to the Department of Energy on projected costs for 
Fischer-Tropsch fuel in the future, but I understand that companies 
would need to pursue market-scale domestic production in order to make 
this fuel cost competitive.

    Senator Wicker. All right. Then I thank the chair for his 
indulgence.
    Chairman Levin. Thank you very much, Senator Wicker.
    Senator Pryor, you are next and I understand you, 
graciously as always, yielded a bit of your time to Senator 
Conrad. We welcome Senator Conrad, chairman of our Budget 
Committee.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM THE STATE OF 
                          NORTH DAKOTA

    Senator Conrad. Mr. Chairman and members of the committee: 
I just very briefly wanted to come by and put in a word for 
General McNabb. We have two very large Air Force bases in North 
Dakota at Grand Forks and Minot. General McNabb was head of AMC 
and in that role we had a relationship with him, and I just 
want to report how impressed our entire delegation was with 
General McNabb and how he conducted himself in that position.
    I also want to say that Secretary-designate Donley enjoys a 
very fine reputation, as does General Schwartz. I graduated 
from high school from American Air Force Base in Tripoli, 
Libya, Wheelus Air Force Base, North Africa. I've had a long 
association with the Air Force, and we are very lucky to have 
people of this quality and character who are willing to serve. 
I just wanted to have a chance to make that statement.
    I thank the chairman. I thank very much the members of the 
committee, and special thanks to Senator Pryor for his allowing 
me this time.
    Chairman Levin. We thank you very much for your comments, 
Senator Conrad.
    Senator Warner. I'd like to join the chairman in thanking 
you for coming up to speak. I judge that your father was then 
in the Air Force?
    Senator Conrad. Actually, I lived with a family. The family 
I lived with, the man was the vice president of Mobil Oil in 
Libya when that was the hot spot in the world, and I was 
allowed to, as were all American dependents at that time, 
allowed to go to the Air Force base high school.
    Senator Warner. That's very interesting. Thanks for joining 
us.
    Chairman Levin. Thank you so much.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Let me pick up, if I may, where Senator Nelson of Florida 
left off, and that is on the military housing on the bases. It 
was recently announced that the Air Force has reached an 
agreement in principle for the sale of a renegotiated housing 
privatization contract for Little Rock Air Force Base, for 
Moody, Hanscomb, and Patrick Air Force Bases. As this issue has 
progressed, I just want you to know I've spoken with Secretary 
Michael Wynne, met with Assistant Secretary William Anderson, 
sat down with bondholder representatives and the current 
project owners involved in this initiative, and I look forward 
to working with you on this. I know Senator Chambliss and I 
have been working on this for a long time, but we look forward 
to working with you to get this over the finish line, and I 
just stand ready to help in any way that I can.
    You don't have to comment on that, but it's something 
that's very important to the men and women in uniform on those 
bases that we get that right.
    Let me talk about something very briefly that the Senate 
Armed Services Committee heard on June 3 of this year, and that 
is relating to DOD acquisitions of major weapons systems. GAO 
reported to us at that time that there's a current portfolio of 
95 major defense acquisition programs that has experienced a 
cost growth of $295 billion. That's 95 programs that are $295 
billion over budget. Many of these are overdue as well in terms 
of they're behind schedule.
    I would like to hear your thoughts on what you can do to 
try to fix this acquisition problem where we see these cost 
overruns and where timetables seem to chronically slip. I will 
note that of the 95 programs, not all of them are in the Air 
Force. Those are systemwide. I know only a portion are Air 
Force. But I would like to hear from you what you can do to try 
to rein in the spending and get us back on track.
    Mr. Donley. Certainly, Senator, I would bring no silver 
bullets to this longstanding issue. I have some experience in 
this area. To me, the core of the issues is back to basics: 
making sure that we understand and can justify the requirements 
that we are setting for these systems; that we are proceeding 
with technologies that are mature and well understood; that we 
are using reliable cost estimates that reflect the true scope 
of costs as best as we can understand them; that we have the 
acquisition work force in place that is bringing the 
experience, properly trained in the right areas, to not only 
prepare but evaluate proposals, and to push these programs 
along, keep them on schedule.
    So it's basics. I think it's basic blocking and tackling. I 
think the Department's record is when those things occur we get 
capability, we're more likely to get capability on cost and on 
schedule.
    General Schwartz. Senator, there are some good examples of 
that occurring. The Joint Direct Attack Munition is a case in 
point. The Global Positioning System 3 is a case in point. It 
is back to basics. I would only add to what the Secretary said 
that I also believe there is some merit perhaps in assuring 
that there is sufficient uniform representation in the 
acquisition process as well, and that is something that, if 
confirmed, he and I certainly will work together.
    Senator Pryor. I'm glad to hear you say that, General 
Schwartz, because that's one thing I picked up on, is that 
apparently in some branches of the Service they're having 
trouble recruiting and retaining the right mix of people there 
because of the way the overall system works. So I would love 
for you to spend some time and maybe address that if it makes 
sense inside the Air Force.
    We really have to get control of spending. Again, it's not 
just the Air Force. It's the other branches of Service as well.
    Let me change gears if I can and ask about close air 
support in Afghanistan. I guess this might be for you, General 
Schwartz. Do you believe we have adequate close air support 
assets in Afghanistan to complete the mission we have there?
    General Schwartz. Sir, I believe we have adequate close air 
support in theater. By the way, this is not just Air Force 
assets. This is the joint team, naval aviation, and so on. It's 
not just fighter aircraft. As we spoke earlier, it also 
includes the bomber platforms that support the mission.
    Importantly, there's a ground component to this. These are 
the folks that guide the weapons onto targets, and they're an 
unsung part of our Air Force.
    So in short, Senator, I believe we have the resources that 
are required at this time, and if more are requested more will 
be provided.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Pryor.
    This is the current schedule, after consulting with Senator 
Warner. First of all, we're going to try to work right through 
the vote, see if we can do that so Senators who haven't had a 
chance to ask questions can hopefully arrange it so they can 
ask questions, vote, or go vote and come back and ask 
questions.
    Second, if we can finish this open session by noon; if we 
do, we'll go directly into executive session and hope to finish 
by 12:45 or so. If we don't finish by noon, we'll begin our 
executive session immediately after the caucuses, and we'll do 
that at 2:15. Or if we begin the executive session before 
caucus, but can't complete it, then we would come back and 
complete the executive session after the caucuses.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I appreciate 
your leadership in moving us through these issues.
    Certainly the Air Force is facing many challenges. I think 
we've had some difficult times in recent months. I know each 
one of you are going to be faced with some difficult choices. 
So we would expect that within the constraints of budgeting you 
give us the kind of priorities that are critical for the Air 
Force, and we'll do our best in Congress to fund that, what you 
need, in the right way. There's just not an unlimited source of 
money, as you well know.
    I would also note that Secretary Gates has proven to be an 
exceptionally fine leader. I believe he has unusual support 
throughout Congress on both sides of the aisle. We've had some 
criticism in the past that when errors have occurred higher 
level people have not been held to account, and Secretary Gates 
has made some decisions that I'm sure people could disagree 
with. But he made some decisions and as a result you're here 
today.
    I guess I would say to my colleagues that I do believe that 
the decisive action that Secretary Gates has undertaken puts us 
in a position of fulfilling our responsibilities decisively, 
which means we need to finish these hearings and get you people 
into place. I just don't think it's good in these months, with 
the war going on and all the challenges the Air Force faces, 
that we go weeks and weeks without getting you fine nominees 
into place. We'll examine any questions and Chairman Levin will 
ensure that occurs, and then if you meet the standards I think 
you should be confirmed, and I hope that we will confirm you.
    General Schwartz, you have mentioned, I believe, the tanker 
being the number one priority for the Air Force. We're already 
maybe 5 or 6 years behind schedule. Do you believe it's 
important that competition go forward promptly and not be 
unnecessarily delayed?
    General Schwartz. Absolutely, Senator. Few disagree with 
the essentiality of the modernization program and it is my view 
that we have to keep the timeliness of this foremost in our 
minds as we go forward.
    Senator Sessions. Secretary Donley, do you share that view?
    Mr. Donley. I do, sir.
    Senator Sessions. Congress mandated this be bid by statute 
after the Air Force had quite a difficult time and the top 
civilian procurement officer actually later went to jail. But 
we wanted a competition. We asked for a competition. I'll just 
ask you plainly: If you have a competition, should not the best 
aircraft be the one selected, General Schwartz and Secretary 
Donley?
    General Schwartz. Absolutely, sir.
    Mr. Donley. Yes, sir, we want the best tanker for the 
warfighter and the best value for the taxpayer.
    Senator Sessions. I think that's what we told you to do and 
that's what we'll have to expect. I hope and trust that you 
will make that on a meritorious basis and not any pressure or 
anything else that would come up, although in truth this 
decision now will be above the Air Force's level. It will be at 
the Secretary of Defense level, is that right, Mr. Donley?
    Mr. Donley. You're correct, Senator.
    Senator Sessions. But I guess your information, technical 
information, will be shared with the Defense Department?
    Mr. Donley. Yes. Secretary Young will have all the support 
he needs and wants from the Air Force in the course of his 
work.
    Senator Sessions. With regard to the fuel question, I was 
very proud of the Air Force. They had taken steps to utilize 
synthetic fuels from energy sources, particularly coal, and 
seemed to be on track to utilizing a substantial portion of jet 
fuel from synthetic fuels, proving that it works already in 
most aircraft. I think you've already tested and proven that.
    I guess my concern is that Congress intervened, has it not, 
and that language was slipped in the energy bill that barred 
the Air Force from long-term contracts, which is the kind of 
long-term contract that would be necessary for this fuel to be 
manufactured at a commercially feasible rate. I was told by the 
Air Force procurement officer that they expected the costs to 
come in below the current world price of jet fuel.
    Would either one of you comment on that first? Are you now 
being stopped in that program essentially by being denied the 
right to a long-term contract, and do you expect the price to 
be competitive?
    Mr. Donley. Senator, I need to take that for the record. 
I'm not familiar with the provision that you have cited that 
may be out there.
    [The information referred to follows:]

    Currently, Department of Defense (DOD) contracting authority is 
limited to 5 years for the procurement of fuel, with options for up to 
an additional 5 years, not to exceed 10 years in total.
    I am told that industry has indicated that DOD long-term contract 
authority with a 10-20 year range could reduce uncertainty for initial 
entrants to the synthetic fuels production market by mitigating risks 
associated with return on capital.
    With respect to new language regarding fuel procurement. Section 
526 of the 2007 Energy Independence and Security Act restricts the 
Federal Government from purchasing commercial quantities of alternative 
and synthetic fuels that have greenhouse gas emissions that are greater 
than currently available fuels, on a lifecycle basis. This does not 
affect the Air Force aircraft synthetic fuel-blend certification 
program, as section 526 exempts research/test quantities of fuel from 
application of the statute. I understand, however, that DOD is 
concerned that this statute may be overly restrictive, particularly 
with respect to purchasing fuel overseas for deployed forces and from 
the perspective of quantifying/certifying a fuel's lifecycle greenhouse 
emissions.
    With respect to cost, I understand that domestically produced 
Fischer-Tropsch fuels are currently more expensive than petroleum 
fuels. I would defer to the Department of Energy on projected costs for 
Fischer-Tropsch fuel in the future, but I understand that companies 
would need to pursue market-scale domestic production in order to make 
this fuel cost competitive.

    Senator Sessions. I just feel like it's another example of 
denying ourselves domestic energy, putting us on the world 
stage of having to buy from the world market at high prices, 
which may continue to go up, who knows. I really think the Air 
Force deserves a lot of credit for being innovative and 
creative in looking to do that.
    General Schwartz, you have previously noted that you hope 
that this tanker aircraft would be the kind of aircraft that 
would be a game-changer and that you believe its capabilities 
with regard to personnel, transport, and cargo are important 
factors in that evaluation; is that correct?
    General Schwartz. Sir, its primary mission will be air 
refueling, but we can no longer afford to have platforms that 
are sort of single mission, point mission focused. So the 
versatility of being able to carry passengers and cargo is also 
important.
    Senator Sessions. In fact, the fuel is in the wings, with 
the main cargo compartment available for cargo and personnel in 
these aircraft; is that generally correct?
    General Schwartz. That's generally correct, sir.
    Senator Sessions. Mr. Secretary, with regard to the Air 
Force Air War College, I'm extremely impressed with that 
institution and believe that for the Air Force to meet its 
future, which is uncertain, it requires constant study and 
evaluation. I guess I would agree. How do you see the role of 
the Air War College at Maxwell in Montgomery, AL, in the future 
of helping to establish the kind of doctrine and to identify 
the capabilities we need for the future?
    Mr. Donley. Senator, Air University is a great asset to the 
Air Force and it provides not only the good training to 
officers as they're coming up through the ranks, but it also 
provides a research arm for us to address future innovative 
ways of doing business, new mission areas, in a research 
environment. I view it as a great resource for Air Force 
leadership, as well as a teaching institution.
    Senator Sessions. I agree.
    Mr. Chairman, my time is up.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Clinton, would you when you're completed, if 
there's nobody back, recess us until somebody is back, because 
there is a vote on.
    Senator Clinton. Yes, Mr. Chairman.
    Chairman Levin. There's only 6 or 7 minutes left.
    Senator Clinton. Would you mind telling them I'm on my way 
as soon as I finish my questions?
    Chairman Levin. I will do that.
    Senator Clinton. I appreciate that.
    Thank you, gentlemen. I'm looking forward to your 
leadership. I think that in fact the Air Force and the country 
are looking forward to your leadership.
    I'd like to take just a minute to run through quickly the 
New York installations. The Niagara Falls Air Reserve Station, 
home to the Reserve 914th Airlift Wing and the Air National 
Guard 107th Aerial Refueling, survived the last base closing 
round, but a recommendation was made to convert the 107th to an 
airlift wing that would be associated with the Reserve wing at 
the base. Thus far, four C-130s have been identified for the 
107th, but I'm eager to work with you to identify additional 
aircraft for the 107th or additional ways to keep the 107th 
viable going into the future.
    Second, Hancock Field Air National Guard Base in Syracuse 
is transitioning from the 174th Airlift Wing to a Predator 
mission. Again, I'm eager to work to ensure that the transition 
is smooth and that the base does not experience any gaps in 
service during the transition.
    Stratton Air National Guard Base in Schenectady is home to 
the 109th Airlift Wing, which has the Polar Ski Bird mission. I 
think these pilots do remarkable work on their skis on the ice 
and the snow, and I think there are additional capabilities for 
search and rescue that should be explored.
    The Stewart Air National Guard Base in Newburgh is home to 
the 105th Airlift Wing, which currently has aging C-5As. Now, 
Stewart itself is a modern, well-equipped installation, and 
again I'd like to work with you to make sure that the mission 
assigned to Stewart can be performed to the highest level of 
capacity.
    Dublinski Air National Guard Base in Westhampton, Long 
Island, is home to the 106th Rescue Wing. We successfully 
obtained funding for the first phase of a new pararescue 
training facility in last year's military construction 
appropriations bill. We're in the process of obtaining the 
second phase. But this is so critical along the east coast, not 
only for search and rescue at sea, but also for homeland 
security and weather incidents in terms of providing that 
capacity.
    Now, we also are home to the Air Force Research Laboratory 
in Rome, NY, and the Northeast Air Defense Sector Air National 
Guard unit, also in Rome. The work that is being done at the 
lab in Rome is absolutely amazing in respect to the cyber 
security and support of our men and women in uniform, and I 
look forward to working to develop a very close relationship 
between the research lab and the newly created Cyber Command.
    I would invite each of you to visit with me New York's Air 
Force installations as your schedule permits and to make sure 
that we meet these tremendous opportunities and resolve any of 
the challenges that we face.
    Second, when the Air Force announced its tanker refueling 
contract award to Airbus A-330 last February, I was struck when 
the spokesperson indicated that the Air Force could not and did 
not take into consideration the impact of the award on the U.S. 
industrial base. Yet title 10 of the U.S. Code requires the 
Secretary of Defense to do just that for ``each major defense 
acquisition program.''
    If you look at title 10, which is in our laws for a 
purpose, I have to ask you to please respond both now and 
perhaps in writing how you will comply with title 10 in regards 
to the tanker refueling contract process that the Secretary has 
put into motion. Could I start with you, Mr. Donley?
    Mr. Donley. Thank you, Senator. I appreciate your listing 
the Guard installations in New York. I've had a conversation 
with the Director of the Air Guard, who's briefed me on the Air 
Force's overall plans in response to BRAC to pursue total force 
initiatives and associate units in some of these cases. So 
while I'm not familiar with all the details, I have gotten a 
first cut at that, and in fact I have been invited to Niagara 
already.
    Senator Clinton. Good.
    Mr. Donley. So thank you for that.
    With respect to KC-X, I would defer to the acquisition 
experts on the issues of foreign content. But I would just note 
as a general observation that we live in a global economy, in 
which most of these national companies that we regard as U.S. 
companies have international connections. So attempting to go 
with U.S. sources only in particular situations where it seems 
to advantage one company over another is really sort of a 
temporary perspective on I think where all of these companies 
are headed. Aerospace is an international business.
    Senator Clinton. Mr. Donley, it won't surprise you to hear 
that I disagree. But more important than my disagreement are 
the very specific requirements within title 10, subtitle A, 
part 4, chapter 144, section 2440, which reads: ``The Secretary 
of Defense shall prescribe regulations requiring consideration 
of the national technology and industrial base in the 
development and implementation of acquisition plans for each 
major defense acquisition program.''
    So I would appreciate receiving in writing from each of you 
the specific answer to my question in relation to title 10. I'm 
very well aware that we live in an international economy, but 
I'm also extremely conscious of the impact of decisions made by 
our Government with taxpayer dollars that undermine our 
competitiveness for the long run and eliminate jobs and thereby 
undermine technical skill acquisition in a way that I think 
will come back to haunt us. This is something that I take very 
seriously.
    In addition, I will submit some other questions for the 
record.
    [The information referred to follows:]

    Mr. Donley. Senator Clinton, if confirmed, I can assure you that 
the Air Force will make every effort to comply with all statutes, 
regulations, and policy guidance for every acquisition program. With 
regard to your specific question concerning consideration of the 
industrial base in the KC-X contract process, I defer to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, as 
Secretary Gates has appointed him to serve as the Source Selection 
Authority for the KC-X, and he will be conducting the remaining 
competition activity.
    General Schwartz. I echo Secretary Donley's comments. On behalf of 
the Secretary, I will ensure that our KC-X acquisition team complies 
with this, and all other, title 10 requirements as we move ahead with 
the KC-X acquisition effort. It's my understanding that under the 
relevant Department of Defense regulations, the Under Secretary of 
Defense for Acquisition, Technology and Logistics is the person charged 
with ensuring compliance with Sec. 2440 and determining whether the KC-
X program has properly considered national industrial base capabilities 
in the acquisition planning process. We will work with the Under 
Secretary's office to ensure this takes place as the KC-X acquisition 
effort unfolds.
    General McNabb. Senator Clinton, regarding your concerns for the 
industrial base in the KC-X contract process, I respectfully defer to 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics. Secretary Gates has appointed him to serve as the Source 
Selection Authority for the KC-X, and he will be conducting the 
remaining competition activity.

    Senator Clinton. I ask that we now stand in recess until 
someone else returns to continue the questioning, and I thank 
each of you for your willingness to serve. [Recess.]
    Senator Warner [presiding]. We'll continue our questions 
here. Chairman Levin is anxious to have us work right through 
the vote, and I believe he announced the fact that we're going 
to have the executive session. Senator Levin and I have 
discussed it. We're going to try and hold an executive session 
following this open session, and that way hopefully wrap up 
this hearing today. But I'll leave to the chairman the 
specifics on that.
    General Schwartz--staff will advise me if a member comes 
and I will stop--one of the most difficult aspects of military 
life is the permanent change of stations, and TRANSCOM is in 
charge of contracting with movers who pack and deliver 
household goods. We're here talking about weapons systems and 
so forth, but we have to focus on family issues. I think you've 
had a well-deserved contribution to making this happen when you 
were TRANSCOM Commander. You devoted a great deal of your 
personal time and energy to ensuring that promises for improved 
moves made by the predecessors in TRANSCOM and the ``Family 
First'' program were delivered. In doing so, you kept the 
promise you made when you were confirmed, and we're grateful 
for the progress you led in that regard.
    Now, General McNabb is subject to confirmation as the 
future commander. Will you devote similar emphasis on the 
quality of life in the moving?
    So first a comment from General Schwartz, to be followed by 
General McNabb's observations.
    General Schwartz. Senator Warner, you are absolutely 
correct that one of those activities that happens in any 
military family every so often is relocating. Ways that we can 
make that relocation less stressful, less costly to our 
personnel, and to raise the level of performance of those who 
provide this service to DOD is an obligation. With the Senate's 
and the House's assistance, we found a way to go about doing 
that, and we'll be rolling it out this fall, something I think 
we can be proud of.
    Senator Warner. Briefly, General McNabb?
    General McNabb. Senator Warner, absolutely, sir. It's one 
of those real plusses as I watched General Schwartz and 
TRANSCOM do this, really take it on with the Family First, full 
replacement value, those kinds of initiatives. There's no 
question that we recruit the individual, but we retain the 
family, and this is very important to all of our DOD families 
to make sure that they can continue to serve.
    Senator Warner. Momentarily I'll recognize Senator 
Chambliss, but I want to say that I will provide for the record 
a series of questions to follow up on this issue of the 
executive package. There was the famous compartment to 
transport senior officers and civilians. We need to have that 
record tightened up and have clarity of some of the issues, 
because they're important issues, and we're going to do it by 
way of putting in questions for the record for you to respond.
    Senator Chambliss.
    Senator Chambliss. Gentlemen, first of all, to each of you, 
thank you for your service. Secretary Donley, the first time 
you and I had an opportunity to meet was when you came by my 
office, but obviously, General Schwartz, General McNabb, I've 
known both of you for many years and I appreciate the service 
of each and every one of you.
    Secretary Donley, we've had some questions asked to General 
Schwartz about the F-22, but I want to see where you are on 
this issue. Have you had a chance to look and see with respect 
to the number of tactical aircraft that we have, where the F-22 
comes down, and formulate an opinion as to what you think with 
respect to the total number that we ought to have in inventory?
    Mr. Donley. Sir, I have not had an opportunity to formulate 
a particular number. I am aware that this is an active issue 
and I do support Secretary Gates' decision to kick this over, 
essentially, to the new administration for their consideration 
as well.
    In the mean time, I'm focused on the potential need to 
provide bridge funding between the 2009 and the 2010 years that 
are at play here, that will look to providing some bridge 
capability for suppliers to leave this option open. In general, 
if we delay a decision on the future of the F-22 too far into 
next year or even late next year and we have not provided for 
this bridge funding, it'll be sort of almost a cold start for 
many of the sub-tier suppliers, and that would be a more 
expensive option for restarting the line if somebody wanted to 
do that.
    I'm focused for the next few months on getting the bridge 
funding in place.
    Senator Chambliss. I appreciate your comment relative to 
the potential increase in cost that might occur if we don't 
have this bridge funding and, frankly, if it doesn't get spent. 
I look back on some testimony by General Donald Hoffman before 
Senator Lieberman's Airland Subcommittee on April 9 of this 
year. At the conclusion of that hearing Senator Lieberman said 
to General Hoffman: ``So what you're saying is that there is 
time and money to be saved by doing the advanced procurement in 
November of this year''--which is the bridge funding you're 
talking about --``and that's your understanding of Secretary 
Gates' position about giving the next administration an option, 
basically meaning that they can stop the process if they 
choose.''
    General Hoffman said: ``Yes, sir. Depending on what the 
next administration would form as a team to build and get that 
decision through Congress as well.''
    So my question to both you and General Schwartz is: Do you 
agree with the concept that if we don't have this bridge 
funding and if we don't spend the money--and it's about $550 
million that will have to go to the subcontractors out there--
that will immediately increase the cost per copy of the F-22 
and will in effect mean that we're operating with a cold line 
versus an operating line if we don't spend that money during 
this period of time going into the next administration?
    Mr. Donley. Yes.
    General Schwartz. Yes, sir.
    Senator Chambliss. I don't want to get into much detail 
relative to the issue at Patrick, at Little Rock, and at Moody 
Air Force Base, except, Secretary Donley, to say that this has 
been a very difficult process. It's obviously been a very 
sensitive process. In my case at Moody, for example, we're 
going to have a significant increase in men and women coming to 
Moody beginning next year. The housing, the privatization 
housing initiative, was supposed to have a certain number of 
houses available for those men and women coming. Now that's not 
going to be available. There's no way under the best scenario 
it can be.
    I think that the way that the issue has been handled by the 
Air Force was very poor initially. I think some very bad 
decisions were made by the Air Force. But to the credit of the 
Air Force, since this issue has been elevated to the top level 
I think the issue has been addressed very appropriately. I 
think there has been an agreement reached that what's in the 
best interests of all the men and women that wear the uniform 
of the United States Air Force ought to be taken into account 
and housing provided, better housing across the board at all 
four of these installations that are in question.
    I applaud the Air Force for moving, for entering into an 
agreement that we hope will be completed by September of this 
year. You're going to have this on your plate initially and we 
may have some disagreement within this committee from a 
parochial standpoint, but I think that the sales agreement that 
is proposed is fair and reasonable across the Air Force and 
will work.
    General Schwartz, let me just get into a little bit with 
you an issue which you and I have talked about in my office, 
because I don't want there to be any misunderstanding or 
anything left on the table, either from your perspective or our 
perspective. It regards some conversations that you as the J-2 
had back in the 2003-2004 timeframe relative to certain 
ammunition sites that were located in Iraq and action taken by 
you relative to the securing of those sites.
    First of all, as the J-2 what was your responsibility with 
respect to activities going on inside of Iraq during that 
timeframe of 2003-2004?
    General Schwartz. Senator, I actually was serving as the J-
3 at the time.
    Senator Chambliss. I'm sorry. J-3.
    General Schwartz. Yes, sir. But I had no operational 
responsibility inside Iraq at that time. As the J-3, I acted on 
behalf of the Chairman, who was General Dick Myers at the time, 
and worked in my channel with the J-3 at Central Command and 
the counterpart at the time at the Combined Joint Task Force 7. 
But I had no directive authority, if you will, for activity 
that occurred on the ground in Iraq.
    Senator Chambliss. You became aware of the ammunition sites 
that were unsecured in Iraq during the course of that period of 
time, early 2003, I believe; is that a fair statement?
    General Schwartz. It was post-major combat operations, so 
it was in the summer of 2003 onward.
    Senator Chambliss. The issue was obviously very sensitive. 
It was discussed within this committee both in classified 
settings as well as otherwise with you and with other members 
of the Joint Chiefs of Staff. What action did you take to 
ensure that the information relative to the fact that there 
were a number of sites that were unsecured were in fact going 
to be secured so that there could not be pilferage of the 
ammunition sites and the consequences of that being insurgents 
would have the munitions with which to make improvised 
explosive devices, which in fact they did?
    General Schwartz. Senator, we received information from a 
Member of the House of Representatives on the existence of 
caches that had pilferable munitions. We devoted analytical 
resources to that information to try to confirm the locations 
and what have you, and in fact much of that information did 
prove valid.
    I provided that information to my counterparts at Central 
Command and Combined Joint Task Force 7 and expressed our view 
that those sites which were pilferable, in other words small 
arms and such, that were more easily carted away, rather than 
other locations that had larger weapons that were more 
difficult to move, should be addressed first.
    We passed that information. We passed the intelligence work 
that we had done and certainly encouraged the commanders that 
had tactical control of the battle space to accord that, those 
locations, appropriate priority for what, how, and how much to 
protect.
    Senator Chambliss. Did you follow up to see that the 
information that you passed on to Central Command was in fact 
acted upon?
    General Schwartz. Sir, I confirmed that the information was 
received and understood and that the commander was aware and 
again had made a judgment based on the resources at his 
disposal what he was going to do.
    Senator Chambliss. As the J-3, did you have any chain of 
command control over any officers on the ground in Iraq during 
that period of time?
    General Schwartz. No, sir, I did not, Senator.
    Senator Chambliss. Mr. Chairman, I think the remainder of 
my questions will be for executive session.
    Chairman Levin [presiding]. Thank you. There will be 
questions asked for the record, additional public session 
questions. Senator Warner has an additional question or two. 
We're going to I think be able to conclude in the next 5 
minutes. We do have another Senator on her way, which means we 
may not be able to get to executive session. Let me withhold 
that comment about executive session and see if Senator 
McCaskill is able to get here.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, this 
is a subject that the two of us have worked on for many years. 
In fiscal year 2001--I think I was the chairman; we've gone 
back and forth--we put into law a framework that established 
goals that within 10 years one-third of the U.S. military 
operational deep strike aircraft would be unmanned. I'm sure 
that each of you are familiar with that. I look back on that 
with a sense of pride at what the committee did at that point 
in time, because it really energized a lot of the systems that 
are being utilized today in both Iraq and Afghanistan, the 
unmanned surveillance vehicles and the like.
    I'd like to have your comment, Mr. Secretary. Do you 
support that goal that Congress established and will you take 
affirmative actions to implement your Department to achieve 
them? This is a subject I think Secretary Gates--again I 
commend him for specifically expressing his concerns about the 
Department of the Air Force and their emphasis on the unmanned 
vehicle program.
    First you, Mr. Secretary. Then we'll have General Schwartz.
    Mr. Donley. Thank you, Senator. This is a very important 
issue and I think a very laudable goal that the committee has 
laid out in front of the Department. I have not had a chance to 
look specifically at where we stand in terms of meeting the 
specific numerical goal established by the committee. But I can 
tell you that the Department is pushing in this direction and I 
think you have seen that in the last couple of years with the 
growth in the requests for unmanned aerial systems in the Air 
Force budget. I believe this year it's 50 percent of the air 
frames that have been requested are for unmanned systems, and I 
think you will see that trend generally continuing.
    Exactly where we are on the road to meeting the committee's 
goal, I'm sorry I can't say right now. But this is an important 
development for DOD, not just the Air Force, but for the joint 
warfighters, in both the air-to-ground attack modes and also in 
the ISR modes. Those areas are working very closely together. 
The joint warfighters have been signaling demand and the 
military departments have been responding with more supply.
    Senator Warner. Thank you.
    General Schwartz?
    General Schwartz. Sir, it is clear that that's the path we 
are on, and in fact we have migrated from the Predator now to 
the Reaper, a more capable, multi-mission platform for either 
the strike or the surveillance mission. In fact, the first 
Reaper mission was executed yesterday in the Central Command 
AOR, and that clearly will continue.
    [The information referred to follows:]

    ``In fact, the first Reaper mission was excuted yesterday in 
Central Command area of responsibility, and that clearly will 
continue.''
    While that statement is correct, it would be more factually 
accurate to say the Reaper mission was executed in Iraq. I wanted to 
clarify that point for the record.

    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. On the unmanned aerial vehicle (UAV) 
question, are there adequate UAVs in both Iraq and Afghanistan 
to meet the requirements in each country, do you know, 
Secretary Donley?
    Mr. Donley. Sir, I would defer to my military colleagues on 
the specific requirements. I will say my understanding is the 
requirements have been increasing because as the capability 
gets there the commanders ask for more. We've been working hard 
with the Office of the Secretary of Defense to put together an 
ISR task force, challenging the Air Force and the other 
military departments to deliver more capability more quickly to 
the theater.
    Chairman Levin. General?
    General Schwartz. Mr. Chairman, we currently have 26 orbits 
of unmanned capability in theater, growing to 31 by the end of 
this year. The truth of the matter is that there is more demand 
than we are able to provide supply. But my sense is, based on 
what I know, we're acting aggressively in that regard, and if 
confirmed I will continue to do so.
    Chairman Levin. We need you both to look to make sure that 
we are going 24-7 on this production of these capabilities. 
They're absolutely essential and we're still short. Senator 
Warner's leadership back in the early 1990s should have led to 
a much greater capability by this time. But without that 
leadership, we wouldn't even be as advanced as where we are. 
That was an important initiative of his and this committee's, 
and it is something that we're proud of because there was a lot 
of foresight involved in it. But again, we're going to keep the 
pressure on you folks to come across with the capability that 
we need to meet the requirements.
    Senator McCaskill is now here and I've already announced 
that we would go into executive session if we could get there 
by noon. We obviously won't be there by noon now and I'm 
wondering whether Senator McCaskill--will you be using your 
full 7 minutes, so I can make a judgment?
    Senator McCaskill. I probably can do it in less than 7 
minutes.
    Chairman Levin. All right. I don't think there are any 
additional questions. Do either of you have additional 
questions?
    Senator Warner. We'll submit them for the record, Mr. 
Chairman.
    Chairman Levin. All right. The record will be kept open for 
questions. When Senator McCaskill finishes we will go to 
executive session, even though it'll be about 12:15. Would all 
the staff notify members who want to participate? We'll try to 
finish that in a half an hour. If we can't do it, we'll have to 
continue after the caucuses.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman. I appreciate 
the committee showing the courtesy of allowing me to run over 
here as quickly as possible.
    I do not want to let this hearing conclude without sounding 
a note of contract accountability and contract overruns. As you 
are very aware, General Schwartz and Mr. Donley, your 
predecessors, there were some significant questions about a 
contract that was let for the public relations contract for the 
Thunderbirds.
    General McNabb, for you, I was embarrassed about changing 
the color of the leather in the comfort pods. Blue leather 
doesn't show less dirt than brown leather. I'm a mom; brown 
leather is your best friend. I would like to start with you 
speaking to a culture that would take funds from the global war 
on terror and think it was appropriate to spend money changing 
the color of the leather on the comfort pods for the highest 
levels of the Air Force from brown to blue.
    General McNabb. Senator, I am not aware of that decision to 
change brown to blue, other than what I've read in the Post. 
The part that I would say is that the whole idea of the comfort 
pod was to save money versus dedicated airplanes. It was 
directly to try to get to something that we could put on our 
900 sorties a day that we have in airlift airplanes and be able 
to take advantage of that, to include in the theater, but also 
to the theater, for our senior leaders. It's military and 
civilians, it's all Services.
    As the discussion has gone through and we've developed the 
prototype, there have been decisions made. I left Scott last 
August and so I would just say that as this prototype has 
developed there have been additional decisions that have been 
made.
    Senator McCaskill. This decision was made while you were 
there. This was a decision that was while you were there. This 
wasn't as if we're picking it ahead of time. They'd already 
been done in brown and someone decided it was appropriate to 
rip off the brown leather and go to the expense of changing it 
to blue.
    This is just one little thing, but it speaks to a culture, 
and that's what strikes fear in my governmental accountability 
heart, that there was a culture that said: Rip off the brown 
leather, take off the brown seat belts; there's not a pocket in 
the side for our reading material. We would spend money on that 
kind of item. That's what I'm trying to get to.
    Maybe, General Schwartz and Mr. Donley, you can speak to 
this and to that culture. That is offensive to the American 
taxpayer. It seems capricious. It seems arbitrary. It seems 
like folks up there have lost touch with the fact that this 
isn't monopoly money. I know it's a little bit of money 
compared to a tanker. It's a little bit of money compared to 
the budget. But it is in fact a culture that shows that there 
is not the level of accountability that I think the American 
taxpayer and our men and women in uniform deserve.
    General Schwartz, Mr. Donley?
    General Schwartz. A strong ethical culture in the United 
States Air Force is a personal priority, ma'am. If confirmed I 
will deal decisively with identified deviations, ethical 
lapses, if you will, while strengthening education and training 
related to ethical conduct. If confirmed, ma'am, I will make it 
clear to all commanders, senior noncommissioned officers, and 
civilians that they have an obligation to live an ethical 
lifestyle each and every day in our Air Force.
    Mr. Donley. Senator, I am firmly of the belief that 
accountability at all levels is essential for the daily 
operation of the Air Force in all the missions that we do. So 
none of this makes sense to me as a taxpayer. I will say that, 
to just echo General McNabb's point and to elaborate just 
briefly on the cost effectiveness of this approach overall, the 
Air Force does operate a fleet of 30 aircraft to support the 
executive operations of this government 24-7--the President and 
the Vice President, the members of the Cabinet, the DOD 
leadership, and Members of Congress. This is a mission that we 
have, that we will continue to perform.
    These pallets are a very cost effective way of going about 
that mission for a fleet that is tightly controlled and in high 
demand.
    But this color issue, none of this makes sense to me.
    Senator McCaskill. Right. I have no problem with the 
pallets if it's going to make it more cost effective and I'm 
assuming there was a cost-benefit analysis that was done that 
bore that out. I certainly get it that you guys have to fly 
around all the muckety-mucks, including us, and that's 
understandable.
    But I will tell you, if there's anybody that's going to 
complain about the color of the leather on the seat and if 
we're going to change and spend taxpayer money to change the 
color of the seat, they don't deserve to be in that airplane.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    What we'll do now is we're going to adjourn and we will go 
to executive session, go to our regular committee room, Russell 
222, and take 5 minutes to do it. So we'll start right at 20 
minutes after 12:00.
    We thank you, we thank your families, and we will stand 
adjourned.
    [Whereupon, at 12:14 p.m., the committee adjourned.]

    [Prepared questions submitted to Michael B. Donley by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I strongly supported these reforms from my early days on 
the Senate Armed Services Committee staff through my service at the 
National Security Council where I fought for their enactment in what 
eventually became the Goldwater-Nichols Act. If confirmed, I will be 
mindful of the need to periodically review organizational and 
management frameworks to ensure their continued validity and 
consistency with the provisions of Goldwater-Nichols. I will work 
closely with the Secretary of Defense and Congress to continually 
review Goldwater-Nichols and implement any changes that may be needed.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I have no suggested modifications at this time.
    Question. Do you believe that the role of the service chiefs under 
the Goldwater-Nichols legislation is appropriate and the policies and 
processes in existence allow that role to be fulfilled?
    Answer. I do believe that the roles of the service chiefs under 
Goldwater-Nichols are appropriate and the policies and processes in 
existence allow that role to be fulfilled.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. I do not see a need to modify the roles of the service 
chiefs under Goldwater-Nichols, particularly as that regards the 
resource allocation process.

                             RELATIONSHIPS

    Question. Section 8013 of title 10, U.S.C., discusses the 
responsibilities and authority of the Secretary of the Air Force. Other 
sections of law and traditional practice, also establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Secretary of the Air Force to 
the following officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all matters 
within the Department of Defense (DOD). The Secretary of the Air Force 
is subject to the authority, direction and control of the Secretary of 
Defense. If confirmed I look forward to working closely with the 
Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense assists the Secretary of 
Defense in carrying out his duties and responsibilities and performs 
those duties assigned by the Secretary of Defense or by law. If 
confirmed, I will work closely with the Deputy Secretary of Defense on 
all matters.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD, AT&L) is DOD's most senior acquisition official. If 
confirmed, I look forward to working with this official on all matters 
related to acquisition, technology and logistics programs impacting the 
Department of the Air Force.
    Question. Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force is subject to the 
authority, direction, and control of the Secretary of the Air Force, 
presides over the Air Staff, and is a principal advisor to the 
Secretary. In addition, as a member of the Joint Chiefs of Staff he is 
a military adviser to the President, the National Security Council, and 
the Secretary of Defense. There is no more important relationship 
within the Air Force than that between the Secretary and the Chief of 
Staff. If confirmed, I would foster a close working relationship with 
the Chief of Staff to ensure that policies and resources are 
appropriate to meet the needs of the Air Force and respect his 
additional responsibilities as a member of the Joint Chiefs of Staff.
    Question. The Under Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force is authorized, subject 
to the Secretary of the Air Force's direction and control, to act for 
and with the authority of the Secretary of the Air Force on all matters 
for which the Secretary is responsible; that is to conduct the affairs 
of the Department of the Air Force. In addition, the Under Secretary of 
the Air Force has duties and responsibilities, when delegated by the 
Secretary of the Air Force, as the DOD Executive Agent for Space.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Staff of the Air Force on all joint 
matters affecting the Air Force.
    Question. The Combatant Commanders.
    Answer. I will work with the Chief of Staff to ensure that the Air 
Force is properly organized, trained, and equipped to provide the 
capabilities the combatant commanders need to execute their missions. 
This goal can be achieved through forthright dialogue which I will 
encourage.
    Question. The Assistant Secretary of the Air Force for Acquisition.
    Answer. The Assistant Secretary of the Air Force for Acquisition 
acts as the Senior Acquisition Executive for the Air Force. If 
confirmed, I will work closely with the Assistant Secretary on 
acquisition matters. I will also ensure that military views are well 
represented in the Air Force acquisition process and that the Chief of 
Staff is fully informed on acquisition matters.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel is the chief legal officer and chief 
ethics official of the Department of the Air Force and serves as the 
senior legal advisor to Air Force leaders. She is responsible, on 
behalf of the Secretary of the Air Force, for the effective and 
efficient provision of legal services in the Air Force. If confirmed, I 
would look forward to developing a good working relationship with the 
General Counsel.
    Question. The Judge Advocate General of the Air Force
    Answer. The Judge Advocate General (TJAG), per 10 U.S.C. Sec. 8037, 
is the legal advisor of the Secretary of the Air Force and of all 
officers and agencies of the Department of the Air Force. He is also 
responsible for directing judge advocates in the performance of their 
duties. If confirmed I will endeavor to maintain the close working 
relationship the Secretary of the Air Force has historically enjoyed 
with TJAG.
    Question. The Superintendent of the U.S. Air Force Academy.
    Answer. The United States Air Force Academy is an invaluable 
institution that continues to attract the brightest young women and men 
from across the United States. The Academy functions as a separate 
Field Operating Agency reporting through the Chief of Staff to the 
Secretary of the Air Force. If confirmed, I will work closely with the 
Superintendent to address issues faced by the Academy and to promote 
the Academy's sustained commitment to excellence and fulfillment of its 
mission to train and educate future Air Force leaders.
    Question. The Director of the National Reconnaissance Office (NRO).
    Answer. Under current organizational relationships, the Under 
Secretary of the Air Force is no longer dual-hatted as the Director, 
NRO. However, a strong collaborative relationship between the Air Force 
and the NRO remains essential to facilitate continuing Air Force 
technical and personnel support for the NRO's mission. If confirmed, I 
will work to foster a close working relationship with the Director, 
NRO.
    Question. The Director of National Intelligence.
    Answer. It is also vital that a strong collaborative working 
relationship exist between the Air Force and the Director of National 
Intelligence. If confirmed, I will work with the Director of National 
Intelligence to foster that relationship, particularly in coordination 
of national security space matters.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Secretary of the Air Force?
    Answer. Pursuant to 10 U.S.C. section 8013 and subject to the 
authority, direction and control of the Secretary of Defense, the 
Secretary of the Air Force is responsible for and has the authority 
necessary to conduct all affairs of the Department of the Air Force. 
These functions include organizing, supplying, equipping, training, 
maintaining, and administering the Air Force. The Secretary of the Air 
Force is also performing the duties of the DOD Executive Agent for 
Space in the absence of an Under Secretary to whom these duties had 
previously been delegated.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed as the Secretary of the Air Force, I would 
expect the Secretary of Defense to assign me duties consistent with the 
responsibilities outlined above.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Secretary of the Air 
Force?
    Answer. Title 10 provides for two staffs in the same headquarters, 
a predominantly military Air Staff and a predominantly civilian 
Secretariat. My intention is that these two staffs will function 
effectively together as a single headquarters team supporting the needs 
of both the Chief of Staff and the Secretary, while protecting the 
Chief of Staff's independent advisory role as a member of the Joint 
Chiefs of Staff. I will foster close working relationships between the 
civilian and military staffs and work with them on matters within their 
areas of responsibility in order to more effectively lead and manage 
the Department of the Air Force.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. If confirmed, I will bring 30 years of experience in the 
national security community. I have served on the professional staff of 
this committee, on the staff of the National Security Council, and held 
various leadership positions within DOD and the defense industry. Most 
recently, I served as Director of Administration and Management in the 
Office of the Secretary of Defense with broad responsibilities in the 
Pentagon and the National Capital Region. In 1993, I served as Acting 
Secretary of the Air Force for 7 months, after serving 4 years as the 
Assistant Secretary of the Air Force (Financial Management and 
Comptroller).

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Secretary of the Air Force?
    Answer. The joint nomination of both a new Secretary and new Chief 
of Staff under the current circumstances is unprecedented. The 
immediate challenges are to restore confidence in the Air Force among 
those to whom we are responsible, build personal and institutional 
relationships with Congress and the national security community, and 
undertake actions to address the issues--such as re-establishing focus 
on the nuclear enterprise--that brought us to this point.
    Other key challenges include: Maintaining focus on support to 
current operations while also planning to meet potential future 
threats; maintaining aging fleets of aircraft while conducting 
recapitalization; migrating supplemental funding to the Air Force's 
base budget; rising operational costs, especially in personnel support, 
medical care, and fuel; meeting new mission requirements in 
intelligence, surveillance and reconnaissance, space, and cyber 
domains; and preparing for transition to a new administration.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Working with the Chief of Staff and the Air Force 
leadership team, and OSD and the Joint Staff, I plan to address these 
issues within DOD's existing planning, programming, and budgeting 
cycles.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Secretary of the Air Force?
    Answer. The immediate challenge is to build trust and confidence in 
the Air Force leadership team.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. I am a strong believer in the Air Force core values of 
Integrity First, Service Before Self, and Excellence in All We Do. If 
confirmed, I will work with the Air Force leadership team to define 
specific plans to meet these challenges that build on these core values 
and enable the Air Force to support joint, interagency, and coalition 
operations when and where needed.

                               PRIORITIES

    Question. If confirmed, what broad priorities will you establish?
    Answer. As Acting Secretary since June 21, following Admiral 
Donald's report to the Secretary of Defense, I have directed 
preparation of a strategic roadmap within 90 days for rebuilding the 
Air Force nuclear enterprise and also set in motion a review of related 
accountability matters. In addition, I have directed a review of 
acquisition lessons learned from the GAO's sustainment of Boeing's 
protest on the KC-X program.
    Going forward, my broad priorities will be consistent with those 
set by the Secretary of Defense for DOD as a whole--Prevail in Global 
War on Terror; Strengthen Joint Warfighting Capabilities; Focus on 
People; and Transform Enterprise Management.

                            READINESS LEVELS

    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. I have not yet had time to make a fully informed assessment 
of current readiness.
    Question. What do you view as the major readiness challenges that 
will have to be addressed by the Air Force over the next 5 years, and, 
if confirmed, how will you approach these issues?
    Answer. My initial impression is that we have a high operational 
tempo (OPTEMPO), aging aircraft, personnel shortages, and several 
stressed career fields. I plan to review these matters during ongoing 
Air Force and DOD discussions on the fiscal year 2010 program and 
budget.

                   PERSONNEL AND HEALTH BENEFIT COSTS

    Question. The cost of the Defense Health Program, like the cost of 
medical care nation-wide, is escalating rapidly. Similarly, the cost of 
personnel as a key component of the Services' budgets has risen 
significantly in recent years.
    If confirmed, how would you approach the issue of rising health 
care and personnel costs?
    Answer. One of our top priorities is to take care of our airmen and 
their families. As a retention force, quality of health care is of 
critical concern to our airmen and any degradation of benefits or 
service risks hurting our recruiting and retention.
    If confirmed, I will continue efforts from the past 10 years to 
streamline our organic medical infrastructure and take advantage of 
advancements in the field of medicine. I also understand that the Air 
Force is continuing to work with DOD and the other military services to 
streamline medical infrastructure; leveraging civilian trauma centers 
and other Service/Veterans Administration medical facilities to reduce 
the number of facilities/personnel required to reduce costs. We will 
continue to optimize the use of our assets and those of our partners to 
ensure the greatest return on our investments.
    With regard to personnel costs, increasing pay and benefits, along 
with other efforts to recruit and retain our high quality airmen, have 
resulted in increasing personnel costs. I believe that these benefits 
are appropriate, particularly in light of our high OPTEMPO. If 
confirmed I would expect to continue to budget for all authorized 
personnel pay and health care benefits in our President's budget 
submission. If necessary, these nondiscretionary accounts will be paid 
first before deciding on programmatic funding levels.

                       SUPPORT FOR WOUNDED AIRMEN

    Question. Wounded airmen from Operations Enduring Freedom and Iraqi 
Freedom deserve the highest priority from the Air Force for support 
services, healing and recuperation, rehabilitation, evaluation for 
return to duty, successful transition from Active Duty if required, and 
continuing support beyond retirement or discharge.
    What policies and practices does the Air Force have in place to 
deal with severely wounded and injured airmen?
    Answer. The Air Force runs two main programs that work together for 
our wounded airmen and their families: the Survivor Assistance Program 
and the Wounded Warrior Program. The Survivor Assistance Program tracks 
the wounded Airman from the time of injury and arranges for a sister 
unit to assign a Family Liaison Officer (FLO) at each en-route stop and 
treatment location. The FLO serves as the personal representative of 
the member's commander, a bond between the Air Force and the family 
members, and a link to the array of Air Force assistance and support 
services. FLOs play an important role in taking care of the needs of 
the wounded airman: keeping their families informed, arranging to 
reunite family members with the wounded at the earliest opportunity, 
and providing whatever assistance the wounded or families need for 
lodging, transportation, or administrative chores.
    Our first priority is to retain those seriously wounded airmen who 
want to remain a part of the Active-Duty Force. We may do this by 
offering a limited duty assignment to the airman, or through retraining 
opportunities into a career field for which the airman is otherwise 
qualified. Our combat wounded airmen have a wealth of experience to 
offer and I strongly support the retention of these heroes in our Air 
Force.
    Wounded airmen may elect to accept a medical retirement, or due to 
the severity of their injuries, may not be able to remain on Active 
Duty. In these cases, our Wounded Warrior program will step in to offer 
a host of services, including employment assistance, financial 
counseling, and to serve as an advocate with numerous Federal, State, 
and private organizations. We owe our airmen who have made tremendous 
sacrifices for our country every ounce of support we can provide to 
ensure they have an opportunity to lead a fulfilling life despite their 
severe injuries.
    Question. How does the Air Force provide follow-on assistance to 
wounded personnel who have separated from active service? How effective 
are those programs?
    Answer. The Air Force Wounded Warrior program provides follow-up 
for a minimum of 5 years to those airmen who have separated as a result 
of their wounds. This support includes regular contact with the wounded 
member, a variety of services including resume writing, job placement 
assistance, serving as a liaison with the Veterans Administration, and 
a host of other services based on the needs of the airman and family. 
The personalized service provided seems very effective, and if 
confirmed, I will keep my fingers on the pulse of the program by giving 
it a fresh look on a regular basis and personally visiting Air Force 
Wounded Warriors.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Air Force's support for 
wounded personnel, and to support their progress in returning to duty 
or to civilian life?
    Answer. The joint DOD-DVA Senior Oversight Committee (SOC) has laid 
the groundwork for added improvements to the wounded warrior program 
for all of the Services. If confirmed, I'd like to see these 
improvements implemented expeditiously and plan for the Air Force to be 
both a leader and a partner with our sister Services in making this 
happen. Support of the families of our wounded is a fundamental 
responsibility where we as a country cannot fail. For example, families 
who provide nonmedical attendant care for a loved one, in many cases, 
do so at the expense of their job and that lost income is crucial to 
the financial well-being of the family. This is the type of situation 
where we must do better and is one of the many areas being addressed by 
the SOC. If confirmed, I will look forward to working with our sister 
Services to continue improving programs and policies that serve our 
wounded airmen and their families.

            SURGE CAPABILITY FOR BEHAVIORAL HEALTH SERVICES

    Question. The Army Mental Health Advisory Team's reports, which 
look at the mental well-being and morale of Army soldiers deployed in 
Iraq and Afghanistan each year, have stated that soldiers on their 
third or fourth deployments were at high risk for mental health 
problems. In addition, reports have stated that deployment length was 
related to higher rates of mental health problems. In light of the fact 
that many Army units have endured multiple deployments, it is 
anticipated that there will be a sharp increase in the need for 
behavioral health services to help returning servicemembers and their 
families cope with reintegration into a non-combat environment.
    If confirmed, will you assess the sufficiency of Air Force 
behavioral health assets to support the Army on a temporary basis 
during these surge periods when Army combat teams return from their 
deployments and provide such support to the extent that Air Force 
assets are sufficient to do so?
    Answer. If confirmed, I would want the Air Force to extend our 
support of the Army by assessing the mental health needs of deployed 
and returning personnel and assist in determining how best to utilize 
all available resources to support those needs, to the maximum extent 
that our assets would allow. Roughly 40 percent of deployed Air Force 
mental health personnel currently support joint missions.

                    POST-DEPLOYMENT HEALTH CONCERNS

    Question. The health-related problems experienced after Operations 
Desert Shield and Desert Storm led to the Department, at congressional 
direction, undertaking extensive efforts to establish a comprehensive 
health database on deployed forces based on pre- and post-deployment 
health surveys.
    If confirmed, what actions would you expect to take to ensure that 
the Air Force uses available data on the health of returning airmen to 
ensure that appropriate treatment is available and that all signs of 
deployment-related illnesses or potential illnesses (including post-
traumatic stress disorder and traumatic brain injury) are identified 
and documented in health records?
    Answer. The health and well-being of our airmen are the cornerstone 
of our mission readiness. We aggressively assess, track and manage 
physical and mental readiness upon accession; during yearly health 
assessments; prior to deployments; immediately following deployments; 
and again 90-180 days post-deployment. Each assessment provides an 
opportunity for airmen to discuss any and all health concerns with 
their healthcare provider. Traumatic brain injury, post-traumatic 
stress disorder and other combat related health concerns are assessed 
during these health assessments. If confirmed, I would expect to 
continue these practices.

                      MEDICAL PERSONNEL SHORTAGES

    Question. The military medical and dental corps of all three 
Services are facing unprecedented challenges in the recruitment and 
retention of medical and dental personnel needed to support DOD's 
medical mission.
    What steps would you take, if confirmed, to address recruitment and 
retention challenges in the Air Force Medical Services including the 
Air Force Reserve?
    Answer. In response to the challenging recruiting and retention 
environment for health professionals, the AF stood up the Recruiting 
and Retention Investment Strategy Council (RRISC). The RRISC is 
chartered to review, integrate and approve policies and strategies that 
drive recruiting and retention programs and funding requirements and to 
approve the prioritization of programming inputs to the AF Corporate 
Structure for those programs. The initial focus has been on critically 
manned health professionals, specifically defining the optimal 
investment strategy for the Dental Corps and select AFSCs of the 
Medical Corps. If confirmed, I would expect to continue this approach 
and to seek others that will assist in recruiting and retention of 
medical professionals.
    Question. Are you confident that the Department has sufficient 
tools to achieve goals for recruitment and retention of highly-skilled 
health care personnel? If not, what additional tools should be 
considered?
    Answer. I do not have a fully formed opinion on this question, but 
will consider those tools best suited to this challenge, such as 
accessions bonuses for fully qualified healthcare providers and an 
increase in medical and dental scholarships.

                           BATTLEFIELD AIRMEN

    Question. Operations in Iraq have required Air Force personnel to 
provide direct support to ground forces, including participation in 
convoy duty. The training provided to deployed airmen who may be 
required to defend a convoy and installations against insurgents must 
be sufficient to prepare them for combat.
    What nontraditional roles and missions can the Air Force assume to 
assist the ground forces?
    Answer. Currently 93 percent of airmen who perform in-lieu-of (ILO) 
duties do so within their core-competency in 34 distinct skill sets. 
These include civil affairs, public affairs/legal/chaplain, Intel/
counter-intel, medical, communications, logistics, civil engineers, and 
security forces. Some airmen (7 percent of ILO) form Ad Hoc teams and 
provide individual skills that no Service is organized, trained, or 
equipped to perform. By continually assessing and modifying ILO 
training to meet the ever-changing threat, we ensure airmen have the 
most current skill sets necessary to perform their assigned mission. If 
confirmed, I will expect the Air Force to aggressively assess ways that 
we can can continue to support the ground forces.
    Question. What training is being provided to airmen who are 
assigned to, or who volunteer to perform, convoy duty, or other duties 
requiring proficiency in small arms or crew served weapons?
    Answer. Airmen that perform convoy duty attend Basic Combat Convoy 
Course (BC3) training at Camp Bullis, TX. Other ILO airmen attend 
training at various Army Power Projection Platforms tailored to their 
specific mission. Additionally, Second Air Force established a Training 
and Equipment Review Board (TERB) to monitor and modify training to 
meet the gaining commander's needs and ensure ILO airmen can operate 
and survive in their deployed environment.
    Question. What is your assessment of the sufficiency of the 
training currently being given to Aerospace Expeditionary Force airmen 
deploying to Iraq and Afghanistan?
    Answer. I have not yet had the opportunity to address this issue 
but, if confirmed, would expect to do so in advance of AEF rotations 
scheduled for later this year.

                         AIR FORCE END STRENGTH

    Question. The Secretary of Defense recently announced he would halt 
the reduction in Air Force Active-Duty end strength, and keep the 
Active Air Force at 330,000. For fiscal year 2008, Congress authorized 
an Active-Duty Air Force end strength of 329,563 and for fiscal year 
2009, the Department requested, and budgeted for, an Active-Duty end 
strength of 316,600.
    How does the Air Force plan to fund the extra end strength?
    Answer. In the near-term, the Air Force is halting the previously 
planned drawdown. By stopping the drawdown in fiscal year 2008, force 
shaping initiatives, such as Voluntary Separation Pay, will not be 
needed in fiscal year 2009 as originally budgeted. The Air Force will 
apply those funds to cover costs associated with fiscal year 2009 
manpower increases. The long-term manpower increases supporting 
ongoing, new and emerging missions are being addressed in the fiscal 
year 2010 Program Objective Memorandum (POM).
    Question. Does the Air Force plan to formally request Congress to 
authorize an Active-Duty Air Force end strength of 330,000 for fiscal 
year 2009, or does it plan to rely on its authority to suspend end 
strength limitations in time of war or national emergency?
    Answer. I understand the Air Force included in its fiscal year 2009 
Unfunded Priority List to Congress a request for funding end strength 
at 330,000 in fiscal year 2009. If funded, then the Air Force expects 
to receive authorization. If not funded, then the Air Force will 
consider exercising its authority to suspend end strength limitations 
in time of war.
    Question. Does the Air Force plan to identify and formally request 
reprogramming authority to pay for the end strength of 330,000?
    Answer. The Air Force is committed to resource the manpower within 
fiscal year 2009 funding. While a reprogramming cannot be ruled out 
completely, right now we do not believe it will be necessary.
    Question. Are there any increases to the Air Force Reserve or Air 
Guard planned in addition to the increases in the Active component?
    Answer. Yes, there is a commensurate increase to Air Force Reserve 
end-strength planned. Both Reserve and Regular staffs are working to 
ensure we are adding back the correct mix of part-time and full-time 
reservists.
    There are currently no plans to increase Air National Guard (ANG) 
end strength. As part of their planned reductions under Program Budget 
Decision (PBD) 720, the ANG elected to accept budget offsets versus 
manpower reductions. While this offered a temporary solution to funding 
their portion of PBD 720, the budgetary offsets will have direct impact 
to their overall declining readiness. We intend to seek solutions 
through either reimbursement or through the use of associate constructs 
to maximize the capability of all components.
    Question. Your predecessor said earlier this year that the 
reductions in end strength, even to 316,600, were not enough to allow 
the Air Force to realize its recapitalization goals.
    How does keeping Air Force Active end strength at 330,000 impact 
recapitalization?
    Answer. The Air Force initiated a manpower drawdown from 360,000 to 
316,000 in an effort to free up funding to self finance the 
recapitalization effort.
    Looking at ongoing missions and the expected growth in new mission 
areas, the Air Force realized it needed to stop the drawdown at 
330,000.
    The drawdown halt will keep us at 330,000, but the content of 
people/skill sets within the 330,000 will need to be shaped in order to 
meet evolving mission requirements. We are looking to utilize Defense 
Department's revised fiscal guidance for the FYDP beginning in fiscal 
year 2010, to help sustain 330,000 and minimize the impact on our 
recapitalization efforts.

           TRANSFORMATION OF THE NATIONAL GUARD AND RESERVES

    Question. Legislative proposals introduced in 2008, and 
recommendations by the Commission on the National Guard and Reserves 
submitted on March 1, 2007, and January 31, 2008, are currently under 
consideration.
    How do you assess the proposed changes in the roles and mission of 
the National Guard and the National Guard Bureau?
    Answer. I supported the broad intent of this legislation to better 
connect the National Guard Bureau with DOD and joint leadership, while 
maintaining necessary connectivity with the Army and Air Force.
    Question. Do you think the Air Force processes for planning, 
programming, and budgeting sufficiently address the requirements of the 
National Guard? What is the appropriate role for the Chief of the 
National Guard Bureau in this regard?
    Answer. Yes. The Director of the Air National Guard has been, and 
will remain, a valued, active participant in Air Force Planning, 
Programming, Budgeting, and Execution (PPBE) processes. The Air 
National Guard is a full participant in the Total Force approach to our 
missions, and its requirements accommodate our planning, programming 
and budgeting.
    The Chief National Guard Bureau participates in Joint Staff 
capability-based planning and assessments, the Joint Capabilities 
Integration and Development System and DOD PPBE process deliberations 
and actions pertaining to National Guard capabilities, including but 
not limited to homeland defense and defense support of civil 
authorities.
    Question. If confirmed, how would you ensure that the resourcing 
needs of the Air National Guard and Air Force Reserve are fully 
considered and resourced through the Air Force Budget?
    Answer. If confirmed, I will ensure that the Chief of the Air Force 
Reserve and the Director of the Air National Guard maintain their 
highly influential roles within the corporate structure of the Air 
Force, and that the Chief, National Guard Bureau remains well-connected 
to Air Force resourcing decisions. Air Force Reserve and Air National 
Guard advisors are fully integrated throughout the entire structure of 
the Air Force and actively participate in resourcing discussions. I 
would expect this to continue.
    Question. What is your view of the appropriate role of the National 
Guard Bureau in relation to the military departments and the Joint 
Chiefs of Staff?
    Answer. If confirmed as the Secretary of the Air Force, I will look 
forward to working with the Chief, National Guard Bureau, in executing 
the new National Guard Bureau Charter. The Air Force will maintain 
connectivity to joint matters involving the National Guard Bureau 
through established Joint Staff processes.

                  RESERVE DEPLOYMENT AND MOBILIZATION

    Question. In recent years, Reserve Force management policies and 
systems have been characterized as ``inefficient and rigid'' and 
insufficiently integrated with Active-Duty units and personnel, and 
readiness levels have been adversely affected by equipment stay-behind, 
cross-leveling, and reset policies.
    What are your views on the optimal role for the Air Force Reserve 
and Air Guard in meeting combat missions?
    Answer. I believe the Air Force is the model for melding Guard, 
Reserve, and civilians with its Active-Duty elements through a Total 
Force philosophy in essentially all Air Force mission areas. To meet 
the needs of the Nation, we continue to develop concepts, force 
management policies and practices, capitalizing on legal authorities to 
access sufficient Air Reserve component forces. The Air Force 
seamlessly provides the joint warfighter right, ready, and trained 
Active, Reserve, or Guard Forces today, with little to no additional 
training required to support this Nation in times of war or national 
emergency and at such other times as national security requires. The 
Air Force is actively updating our Air Expeditionary total force 
generation construct in line with the Secretary of Defense's current 
force utilization policies.
    Question. What is your opinion about the sufficiency of current 
Reserve Force management policies?
    Answer. I have not yet had the opportunity to form an opinion on 
this matter.
    Question. Do you support assigning any support missions exclusively 
to the Reserves?
    Answer. In general, I do not support assigning support missions 
exclusively to the Reserve Forces. We need to retain flexibility to 
provide the right mix of Active, Guard, and Reserve Forces, at the 
right time, to meet the wide ranging, and changing needs of the 
combatant commanders. The few Air Force missions that currently are 
solely Reserve missions, such as WC-130 weather mission at Keesler AFB 
(the ``Hurricane Hunters'') and the Modular Airborne Fire Fighting 
System C-130s, have a very small footprint and are not required all the 
time, which has made them excellent missions for the Air Force Reserve.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department of the Air Force has implemented changes 
in policy and procedures aimed at preventing and responding 
appropriately to incidents of sexual assault.
    What is your view of the responsibility of senior military and 
civilian leaders in the Secretariat and the Air Force staff in 
overseeing the implementation of policies relating to sexual assault?
    Answer. Senior Air Force leaders, including the Chief and me, form 
the leadership team that must set the tone for the rest of the 
institution: sexual assault is criminal behavior that cannot and will 
not be tolerated. I am aware of commander focused programs in place to 
address prevention/education efforts, a robust victim response program 
(Sexual Assault Response Coordinators (SARCs) and victim advocates). 
There is a strong emphasis on accountability at all levels.
    Responsibility lies with me and all of our senior leaders to ensure 
that we have sound policies and that they are resourced and implemented 
effectively. If confirmed, I will continue to work with Congress and 
the Office of the Under Secretary of Defense for Personnel and 
Readiness to ensure that we monitor implementation and respond 
effectively.

                             FAMILY SUPPORT

    Question. In your view, does the Air Force have adequate programs 
in place to ensure support for Active and Reserve component families, 
particularly those who live great distances from military 
installations?
    Answer. The Air Force has world-class programs, but I understand 
resources continue to be a challenge. For example, we have expanded our 
efforts to provide child care options close to home for dispersed 
members located far from military installations: people like Air Guard, 
Air Reserve, recruiters, Reserve Officer Training Corps instructors, 
Military Entrance Processing Station personnel, and others on 
independent duty assignments.
    Question. If confirmed, what additional steps would you take to 
enhance family support to airmen?
    Answer. Family support and child care are important components of 
quality of life. They are top priorities for our airman and their 
families, and ultimately support personnel retention and a motivated, 
experienced workforce. If confirmed, I would continue to support these 
programs, particularly those which support the total force and families 
of deployed personnel.

                    MORALE, WELFARE, AND RECREATION

    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active-Duty and Reserve personnel and retirees.
    What challenges do you foresee in sustaining Air Force MWR programs 
and, if confirmed, what improvements would you seek to achieve?
    Answer. I understand that competing requirements to modernize our 
weapon systems have forced commanders at all levels to make some hard 
decisions on funding for MWR and other Quality of Life programs, with 
cutbacks in fitness, food service, child care, libraries, and other 
areas. However, I have not had the opportunity to review this issue. If 
confirmed, I will revisit the status of these programs to ensure we 
strike the right balance in resource allocation between support for 
equipment and support to people.

                   GENERAL OFFICER MANAGEMENT ISSUES

    Question. Incidents of misconduct or substandard performance and 
findings of inspectors general and other command-directed 
investigations are documented in various ways in each of the Services. 
Procedures for including and forwarding adverse and alleged adverse 
information in connection with the promotion selection process are set 
forth in title 10, U.S.C. and in DOD Instruction 1320.4.
    How is the Air Force ensuring compliance with requirements of law 
and regulation regarding the review of adverse information?
    Answer. The Air Force is required by law and DOD policy to present 
all adverse information of a credible nature to general officer 
promotion and Federal recognition boards. Upon receipt of the names of 
officers meeting a general officer promotion or Federal recognition 
board, SAF/IG initiates a review of Air Force, DOD, and other 
Government investigative files for potential adverse information. If 
substantiated adverse information is uncovered that does not already 
exist in the officer's selection record, a summary of the adverse 
information, plus any written comments from the officer, are placed in 
a senior officer unfavorable information file and attached to the 
officer's selection record. If the officer is selected for promotion or 
Federal recognition, this file stays with the officer's nomination 
package through its coordination with the Office of the Secretary of 
Defense, the White House, and the Senate. If unfavorable information is 
discovered about an officer after selection for promotion or Federal 
recognition, that information will be presented to a promotion review 
board. The promotion review board will consider the adverse information 
and make a recommendation to the Secretary of the Air Force whether to 
continue to support the officer for appointment to the next higher 
grade. If the Secretary continues to support the officer, the 
information will be added to the nomination package.
    Question. What standards and procedures are in place in the Air 
Force to ensure that allegations of adverse information relating to a 
nominee for promotion are brought to the attention of the Department 
and the Committee in a timely manner?
    Answer. The Air Force has rigid procedures in place to ensure any 
adverse or potential adverse information is presented with the 
nomination packages. Prior to the promotion selection board the Air 
Force conducts an initial screening for adverse information as outlined 
in the response to the question immediately above. The Air Force 
performs additional such checks following the selection board, and 
every 60 days throughout the nomination process.
    For 1- and 2-stars, if there is substantiated adverse information, 
the selection board will review the information as part of the process 
and that information will be included in the nomination package. If 
allegations or adverse information arise after the board is complete 
the Air Force typically will separate the individual's name from the 
list until the investigation is complete and if necessary, until 
command action is complete, and then convene a promotion review board 
to determine if the individual should continue to be a nominee for 
promotion to the next higher grade. The Air Force always includes 
substantiated adverse information with its nomination packages through 
OSD to the Senate.
    For 3- and 4-star nominations, substantiated adverse information is 
included in the nomination packages and the Air Force performs adverse 
information checks every 60 days throughout the nomination process from 
OSD to the Senate.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Air 
Force's senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. The Air Force has implemented a corporate approach to 
overall management of the senior executive corps, which facilitates 
recruitment, development, compensation, and succession planning for 
about 280 senior civilian leaders. I subscribe to this approach.
    Senior leaders are matched to developmental opportunities based on 
gaps in training related to their current responsibilities or their 
ability to meet future corporate requirements identified in succession 
plans. The methodology focuses limited resources on those individuals 
who demonstrate potential to assume higher levels of responsibility.
    Question. Do you believe that the Air Force has the number of 
senior executives it needs, with the proper skills to manage the 
Department in the future?
    Answer. While I believe our current executive workforce is highly 
competent and effective, today's emerging missions may drive the need 
for additional executive resources.
    The Air Force has several emerging missions requiring previously 
unforeseen civilian leadership assignments across numerous functional 
areas. Additional SES allocations will be necessary to provide support 
to the combatant commands and Joint Staff or to back-fill positions 
previously filled by general officers when the uniformed officer is 
needed in a uniquely military assignment.
    Over the last 3 fiscal years, the Air Force has requested 
significantly higher numbers of additional allocations, while also 
ensuring that existing allocations were consistently filled.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. What are your views on the strengths and weaknesses of 
the implementation of the National Security Personnel System (NSPS) 
within the Department thus far?
    Answer. I understand that the Air Force has successfully completed 
implementation of NSPS for nearly all eligible, no bargaining unit, 
title 5 employees (approximately 39,000 employees or 32 percent of 
total Air Force civilian workforce). By law, the Air Force Research 
Laboratory cannot convert to NSPS before October 1, 2011. Title 5 
employees of the Air National Guard are planned to convert with the 
rest of the National Guard. We will not convert bargaining unit General 
Schedule (GS) employees until DOD gives us the green-light. The Air 
Force's network of NSPS champions at major command and base levels, 
robust training program for employees and supervisors, and practice 
conversions, have ensured a smooth transition.
    From my recent experience outside the Air Force, the strengths of 
NSPS are in its pay for performance features and the increased 
communication between managers and employees. Weaknesses relate mostly 
to the extra efforts required to learn a new personnel system, 
including introduction of new electronic tools and implementation of a 
new annual cycle.
    Question. What do you believe will be the benefits of NSPS when 
implemented, and what steps would you take, if confirmed, to ensure 
both a smooth transition and effective employee support?
    Answer. The key benefit of NSPS is increased communication between 
employees and their supervisors on goals, objectives, and expectations. 
If confirmed, I will continue to emphasize the importance of 
communication, accountability, and the link between performance and pay 
and mission accomplishment.

              SENIOR MILITARY AND CIVILIAN ACCOUNTABILITY

    Question. While representative of a small number of individuals, 
revelations of abuses of rank and authority by senior military and 
civilian leaders and failures to perform to accepted standards are 
frequently reported. Victims of such abuses often report that they felt 
that no one would pay attention to or believe their complaints. 
Accusations of unduly lenient treatment of senior officers and senior 
officials against whom accusations have been substantiated are also 
frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. Accountability is an essential element of a well-
disciplined force. Leadership requires accountability and our senior 
leaders must be ready and willing to accept responsibility for things 
that happen on their watches. An organization that fails to hold its 
senior leaders accountable for failures to perform to accepted 
standards or for misusing their authority sends the wrong message to 
our Air Force personnel and to the public. It is important that all Air 
Force personnel feel comfortable in exercising their obligation to 
bring issues forward--this is a basic element of an ethical culture.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Air Force are held accountable for their actions 
and performance?
    Answer. If confirmed as the Secretary of the Air Force, I will take 
all appropriate steps to ensure timely accountability of individuals at 
all levels within the Air Force for their actions and their 
performance, including senior leaders as warranted. I will make the 
fullest use of the various tools available to me both to ascertain the 
facts and to deal effectively with problems that are identified. All 
accountability actions will be executed in strict adherence to fairness 
and due process as provided by law and regulation.

                           ACQUISITION ISSUES

    Question. Major defense acquisition programs (MDAPs) in the Air 
Force and the other military Services continue to be subject to funding 
and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes. Funding instability can drive up costs but cost growth 
is also a consequence of changing requirements, relying on immature 
technologies when committing to new programs or underestimating the 
amount of systems engineering work that will be required (the 
integration/test/trouble-shoot/fix/retest loop). The Department has 
learned how important it is to carefully vet weapon system requirements 
and eliminate ``requirements creep'' to minimize cost growth.
    Question. What steps, if any, do you believe the Air Force should 
take to address funding and requirements instability?
    Answer. I believe that programs perform better both for cost and 
schedule when programmatic risk is reduced through overarching systems 
engineering, the use of mature technologies proven in a realistic 
operational environment, and programs are funded to high-confidence 
cost estimates. It is also critical to establish and hold constant the 
performance requirements once they are validated and approved. I 
understand the Air Force has also implemented senior level 
configuration steering boards, as directed by USD(AT&L), to balance 
emerging requirements with funding during program execution.
    Question. The Government Accountability Office has reported that 
the use of insufficiently mature technologies has resulted in 
significant cost and schedule growth in the MDAPs of the Air Force and 
the other military departments. Section 2366a of title 10, U.S.C., 
requires the Milestone Decision Authority for an MDAP to certify that 
critical technologies have reached an appropriate level of maturity 
before Milestone B approval.
    Do you believe that the use of insufficiently mature technologies 
drives up program costs and leads to delays in the fielding of major 
weapon systems?
    Answer. Yes, working to mature technology at the same time it is 
being integrated with other technologies in a development effort is a 
significant contributor to increased program cost and schedule delays.
    Question. What steps will you take, if confirmed, to make sure that 
the Air Force complies with the requirements of section 2366a?
    Answer. If confirmed, I will ensure that all Air Force MDAPs for 
which I am the Milestone Decision Authority are in compliance with the 
law before giving Milestone B approval. For those MDAP programs where I 
am not the Milestone Decision Authority, I will ensure they are in 
compliance with the law before they go forward to their Milestone 
Decision Authority for a Milestone B approval. I will also ensure the 
Air Force has incorporated this requirement into our acquisition 
policy.
    Question. The Government Accountability Office has reported that 
the use of unrealistically optimistic cost and schedule estimates by 
the Air Force and the other military departments is a major contributor 
to cost growth and program failure.
    Do you believe that the use of unrealistically optimistic cost and 
schedule estimates leads to program disruptions that drive up program 
costs and delay the fielding of major weapon systems?
    Answer. Yes, using unrealistically optimistic cost and schedule 
estimates can lead to cost, schedule and performance baselines that are 
unexecutable and potentially lead to Nunn-McCurdy breaches.
    Question. What steps do you believe the Air Force should take to 
ensure that cost and schedule estimates are fair and independent and 
provide a sound basis for Air Force programs?
    Answer. The Air Force has taken several steps to ensure better cost 
and schedule estimates, from higher confidence levels for cost 
estimates to in-depth Air Force Review Boards to review program 
schedules and acquisition strategies. If I am confirmed, we will 
continue to review these processes and make adjustments to ensure sound 
estimates and to fund programs at the appropriate confidence level.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics has issued a memorandum directing the 
military departments to institute new ``Configuration Steering Boards'' 
to review and approve new requirements that could add significantly to 
the costs of major systems.
    Do you support this requirement?
    Answer. Yes, I support this requirement.
    Question. What steps will you take, if confirmed, to ensure that 
the Air Force complies with this new requirement?
    Answer. The Air Force has already instituted Configuration Steering 
Boards in compliance with the policy and, if confirmed, I will ensure 
that these boards continue so that all programs are reviewed on a 
regular basis.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics has also issued a memorandum directing that 
the largest DOD acquisition programs undergo competitive prototyping to 
ensure technological maturity, reduce technical risk, validate designs, 
cost estimates, evaluate manufacturing processes, and refine 
requirements.
    Do you support this requirement?
    Answer. USD(AT&L) has implemented a competitive prototyping 
philosophy which I support for all appropriate acquisitions; but in 
some instances, such as large, complex satellite acquisitions, the cost 
to carry two vendors may be prohibitive. While we cannot typically 
afford to prototype a complete space system with all competitors, we do 
prove the critical technologies in their relevant performance 
environment before we enter full scale development.
    Question. What steps will you take, if confirmed, to ensure that 
the Air Force complies with this new requirement?
    Answer. The level of prototyping varies with each program. For 
commercially derived items, the basic article is already in use and the 
prototyping should focus on the risk areas associated with military 
adaptation. For new development items, risk areas should certainly be 
prototyped, but the entire system may have to be prototyped before 
selecting the winning vendor. If confirmed, I will work with OSD 
through the Assistant Secretary of the Air Force (Acquisition) to 
clearly set prototyping guidance as we tailor acquisition strategies 
for each program.
    Question. Numerous acquisition reviews over the last decade have 
identified shortcomings and gaps in the acquisition workforce of DOD. 
Section 852 of the National Defense Authorization Act for Fiscal Year 
2008 establishes an Acquisition Workforce Development Fund to provide 
the resources needed to begin rebuilding the Department's corps of 
acquisition professionals.
    Do you believe that a properly-sized workforce of appropriately 
trained acquisition professionals is essential if the Air Force is 
going to get good value for the expenditure of public resources?
    Answer. Yes, it is absolutely essential that we have a properly 
sized and trained acquisition work force. If confirmed, I will expect 
the Department to use this recent legislation to enhance our ability to 
attract, recruit, develop, and retain qualified personnel.
    Question. What steps do you expect to take, if confirmed, to ensure 
that the Air Force makes appropriate use of the funds made available 
pursuant to section 852?
    Answer. I understand the Air Force is working closely with USD 
(AT&L) on numerous initiatives enabled by Section 852, ``Defense 
Acquisition Workforce Development Fund,'' which provides funding for 
recruiting, training, and retention. I also understand there is pending 
legislation in both Senate and House authorization bills to provide 
expedited hiring authority for the Defense Acquisition Workforce, which 
would improve our ability to hire and retain the right people.
    Question. Five years ago, Air Force leadership failed to follow 
acquisition statutes and regulations and ensure good stewardship of 
taxpayer funds in the proposed tanker lease. Last month, the DOD 
Inspector General released a report indicating that senior Air Force 
leaders had improperly influenced the award of a contract to a company 
managed by individuals with close personal ties to the Air Force 
leadership. Last week, the Government Accountability Office recommended 
that a new contract to replace the Air Force's tanker fleet be set 
aside because of serious errors in the evaluation process.
    Do you believe that there are serious problems in the Air Force 
acquisition system?
    Answer. The three examples provided each involve different 
circumstances. In the first two cases where criminal or improper 
behavior--or even the appearance of such behavior, was involved the 
individuals have been sanctioned and held accountable. We need to 
constantly reiterate the importance of adherence to the core values of 
the Air Force and individual accountability. This applies not only to 
the acquisition process but to all other areas of Air Force operations.
    In its recent decision on KC-X, the GAO validated the Air Force's 
decisions in roughly 100 areas but, importantly, found problems in 8 
areas that caused them to sustain Boeing's protest. While I do not 
believe the Air Force acquisition is fatally flawed, GAO's findings are 
troubling. They indicate the need for changes that will ensure we are 
better prepared in the future to more fully document the details of 
source selections such that Air Force decisions will successfully 
withstand protests and thereby restore confidence in the acquisition 
process.
    Question. What steps do you believe the Air Force should take to 
address such problems and restore the confidence of Congress and the 
public in Air Force acquisition?
    Answer. I have directed the Assistant Secretary of the Air Force 
(Acquisition) to identify the lessons learned from the recent GAO 
decision on KC-X, and previous decisions in which protests were 
sustained, and outline a near-term plan for improvement that will 
strengthen the major program and source selection decisions pending for 
later this year. I also plan two 90-day reviews of the Air Force 
acquisition process, one internal and one external, to recommend 
opportunities for longer-term improvement.

                          CONTRACT MANAGEMENT

    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Air Force should take to 
improve the staffing, training, and management of its acquisition of 
services?
    Answer. I understand the Air Force has established a credentialing 
system for individuals who award and manage services contracts so that 
their authority to manage larger programs is based on their track 
record of success with smaller programs. In addition, the Air Force is 
working with the Defense Acquisition University (DAU) to enhance 
training courses and opportunities for nontraditional acquisition 
parties often involved in the acquisition of services.
    Question. Do you agree that the Air Force should develop processes 
and systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. The Air Force currently uses the Federal Procurement Data 
System-Next Generation (FPDS-NG) to pull data for spending analysis. I 
am advised that, while not perfect, we can get sufficient insight into 
our spending rates to do some strategic decision making and that the 
Air Force is improving its abilities to do so.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. DOD is by far the 
largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Air Force should take to 
ensure that its use of interagency contracts complies with applicable 
DOD requirements and is in the best interests of the Department?
    Question. In August 2007, the Principal Deputy Assistant Secretary 
of the Air Force (Financial Management) and the Assistant Secretary of 
the Air Force (Acquisition) issued a guide titled ``Air Force Purchases 
Using Military Interdepartmental Purchase Requests (MIPRs).'' The guide 
applies to all purchases to non-DOD agencies using interagency 
contracts and agreements. I am advised that this guide implements DOD 
policies directed in response to audit findings and is closely aligned 
with the Office of Federal Procurement Policy guide on interagency 
acquisitions published in June 2008.

                   AIR FORCE ACQUISITION SYSTEM FLAWS

    Question. Over the last 4 years, GAO protests have resulted in the 
reversal of a number of significant Air Force contract award decisions, 
including award decisions on the KC-X tanker replacement contract; the 
Combat Search and Rescue Helicopter Replacement Program (CSAR-X) 
contract; the C-130 Avionics Modernization Program (AMP) contract; the 
Small-Diameter Bomb contract; the Thunderbird video contract; and a 
contract for F-15 training simulators.
    In your remarks at the July 9, 2008, DOD press briefing with 
Secretaries Gates and Young on the Department's path forward on the KC-
X contract you concluded ``that the underlying Air Force acquisition 
system is not somehow fatally flawed.''
    Do you believe that there are significant problems in the Air Force 
acquisition system today?
    Answer. In its recent decision on KC-X, the GAO validated the Air 
Force's decisions in roughly 100 areas but, importantly, found problems 
in eight areas that caused them to sustain Boeing's protest. While I do 
not believe the Air Force acquisition is fatally flawed, GAO's findings 
are troubling. They indicate the need for changes that will ensure we 
are better prepared in the future to more fully document the details of 
source selections such that Air Force decisions will successfully 
withstand protests and thereby restore confidence in the acquisition 
process.
    Question. If so, what are those problems and how would you propose 
to address them?
    Answer. I have directed the Assistant Secretary of the Air Force 
(Acquisition) to identify the lessons learned from the recent GAO 
decision on KC-X, and previous decisions in which protests were 
sustained, and outline a near-term plan for improvement that will 
strengthen the major program and source selection decisions pending for 
later this year. I also plan two 90-day reviews of the Air Force 
acquisition process, one internal and one external, to recommend 
opportunities for longer-term improvement.
    Question. If not, why do you believe that the Air Force has been 
the subject of so many adverse bid protest decisions?
    Answer. Although I believe that the Air Force acquisition system is 
not fatally flawed, I agree there are opportunities for improvement. 
Major weapon systems contracts require complex, in-depth evaluations 
across many functional areas. The Air Force is continuing to examine 
processes and factors to ensure fair evaluations of these highly 
complex proposals that protect the interests of both the warfighter and 
the taxpayer. Because of the consolidation of the defense industrial 
base, especially in the aerospace sector, major contracts can be make-
or-break events for the remaining companies, which I believe is a 
factor in explaining an increase in the number of protests.

                     ACTIONS OF AIR FORCE OFFICIALS

    Question. Over the last several years, senior Air Force officials 
are alleged to have advocated the funding of a number of programs that 
were not included in the President's budget and for which there was no 
currently validated joint requirement. These programs include the 
procurement of additional C-17s, the continuation of the C-130J multi-
year contract, and the multiyear procurement of additional F-22 
aircraft . Senior Air Force officials are also alleged to have 
advocated a legislative proposal that would overturn a decision of the 
base realignment and closure commission relative to Joint Basing.
    What is your view of the propriety of efforts by senior Air Force 
officials to advocate the funding of programs that are not included in 
the President's budget and for which there is no currently validated 
joint requirement?
    Answer. There are established processes for informing Congress of 
the Air Force's funding needs and priorities. I believe it is 
inappropriate for Air Force officials to step outside of those 
procedures to advocate for funding of items that are not included in 
the President's budget and especially in cases where there is no 
validated joint requirement.
    Question. If confirmed, what steps, if any, would you take to curb 
such efforts?
    Answer. As Acting Secretary I have made my views on this subject 
known to the staff and have had private conversations with individuals 
where necessary. If confirmed as Secretary of the Air Force, I intend 
to use established procedures for advocating program funding and 
priorities. In addition, I will reinforce with Air Force Legislative 
Liaison and Appropriations Liaison personnel those procedures for 
responding to congressional requests for information, and providing 
professional military advice, in a manner consistent with DOD decisions 
reflected in the President's budget.

                           DEFENSE BUDGETING

    Question. On January 27, 2008, the Washington Post reported on 
internal Air Force briefing slides which included statements that: 
``the Air Force is targeting the other Services;'' the ``Budget 
Battle'' is a ``Zero Sum Gain'' and a ``Non-Permissive Environment;'' 
and ``some Services are going to win and some are going to lose.''
    What is your view of these briefing slides and the views that they 
appear to be intended to communicate?
    Answer. Competition for resources is as old as Washington itself. 
While I am not familiar with the details of these slides or the context 
in which they were presented, they seem a bit `over the top' and not 
helpful.

       PILOT PROGRAM ON COMMERICAL FEE-FOR-SERVICE AIR REFUELING

    Question. Section 1081 of the National Defense Authorization Act 
for Fiscal Year 2008 requires the Air Force to establish a pilot 
program to assess the feasibility and advisability of using commercial 
fee-for-service air refueling tankers for Air Force operations.
    What is the status of implementation of the pilot program, and, if 
confirmed, what steps would you take to ensure that the program meets 
the elements set forth in section 1081?
    Answer. I understand that there was no fiscal year 2008 
appropriation to accompany the National Defense Authorization Act for 
Fiscal Year 2008 direction, so the Air Force is working on 
reprogramming funds for the program in fiscal year 2008-2009. The Air 
Force has already released a Request for Information and had dialogue 
with industry for concept refinement. A Request for Proposal is planned 
to be released in first quarter of fiscal year 2009, after which the 
Air Force anticipates receiving proposals from interested/qualified 
offerors. The program requires industry commitment and investment to 
develop and certify a commercial boom-equipped aircraft. The Air Force 
must determine the feasibility of executing a program based on industry 
responses. If executed, we anticipate industry will require 18-24 
months to accomplish boom design, modification, and integration. A 
minimum of an additional 6 months will be required for boom system 
operation, aircrew certification, and receiver qualification. Once 
complete, we can conduct the pilot program in fiscal year 2012-2016.
    If confirmed, I will monitor progress on this plan to ensure we 
meet the pilot program objective.

                             TRANSFORMATION

    Question. If confirmed as the Secretary of the Air Force, you would 
play an important role in the ongoing process of transforming the Air 
Force to meet new and emerging threats.
    If confirmed, what would your goals be for Air Force 
transformation?
    Answer. While I have begun to assess major Air Force challenges and 
priorities, I have not yet had the opportunity to assess past progress 
on, or future goals for, Air Force transformation.
    Question. In your opinion, does the Air Force POM have adequate 
resources identified to implement your transformation goals?
    Answer. N/A.

                         UNMANNED AIR VEHICLES

    Question. In the Floyd D. Spence National Defense Authorization Act 
for Fiscal Year 2001, Congress set a goal that within 10 years, one-
third of U.S. military operational deep strike aircraft would be 
unmanned.
    Do you support the 10-year goal established by Congress?
    Answer. The rapid increase in research, development, and fielding 
of Unmanned Aerial Systems (UAS) in multiple roles is without question 
among the most dramatic changes since I last served with the Air Force 
in 1993. Though I am not yet clear on where the Air Force currently 
stands in relation to the stated congressional goal, the application of 
UASs in support of the global war on terror and other current missions 
has clearly been a success; and continuing the development and fielding 
of unmanned aerial systems is a trend I fully support.
    Question. Do you believe the current level of investment in the 
various Unmanned Aerial Vehicle programs is sufficient to the program 
objectives and schedules of these programs and to comply with the 10-
year goal?
    I am advised that the 10-year goal set in 2001 is not yet 
achievable. However, the current POM is aggressively pursuing UASs in 
greater numbers than any previous POM submission with vehicles having 
greater capabilities in range, altitude and payload than their 
predecessors.
    Thanks to Congress' supplemental funding, nearly 30 percent of our 
strike capable platforms procured during fiscal year 2008 were UASs, 
including MQ-1s and MQ-9s. The fiscal year 2009 President's budget 
procurement reflects that over 50 percent of the strike capable 
platforms requested were UASs. We anticipate the same percentage of 
manned versus unmanned procurement in fiscal year 2010 for strike 
capable platforms.
    Question. If not, what recommendations would you make to comply 
with the statute?
    Answer. I have not yet had time to review the status of currently 
planned investments in relation to the statutory goal.

                              JOINT BASING

    Question. The 2005 Base Realignment and Closure Commission 
directed, at the request of DOD, the establishment of 12 joint bases. 
Nine of these recommendations involve the Air Force.
    Does the Air Force support or oppose this joint basing effort?
    Answer. The Air Force fully supports joint basing and is committed 
to making it a success.
    Question. Does the Air Force support joint basing in cases where 
the Air Force will not be the lead Service for the joint base?
    Answer. Yes. To accomplish this, we advocated for and in 
conjunction with the other Services and OSD, established installation 
support common output level standards. Our airmen, soldiers, sailors, 
marines, DOD civilians, and their families will benefit from efficient, 
consistent installation support services. Such standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of installation support services they deserve.
    If I am confirmed, we will work with the Office of the Secretary of 
Defense and our sister Services to ensure all Joint Basing initiatives 
contribute to DOD's ability to perform its mission.
    Question. What concerns, if any, does the Air Force have about 
establishing joint bases?
    Answer. The Air Force remains committed to ensuring that all bases, 
joint or otherwise, maintain their capability to perform their missions 
and provide the highest standards for all warfighters and their 
families. We want joint bases to be so efficient and effective that an 
assignment to a joint base would be a highlight for every 
servicemember.
    Question. What effort is the Air Force making inside DOD, at both 
the senior and working group levels, to find solutions for these 
concerns?
    Answer. The Air Force has a long and successful history of working 
toward common goals in a joint environment--joint basing will be no 
different. To guarantee success, each joint base should be required to 
provide a suitable setting to all of its assigned personnel, their 
families, and other customers within the local communities our bases 
support. To accomplish this, we have successfully advocated for the 
establishment of 265 common joint base quality of life standards that 
are the ``highest standards'' for all Services.
    Question. In your opinion, can the joint basing decision be carried 
out in a manner that will result in significant cost savings and will 
not adversely impact the Air Force?
    Answer. I believe joint basing will likely result in greater 
efficiencies in installation management and can be carried out in a 
manner that will not adversely impact the Air Force.

                 ENCROACHMENT ON MILITARY INSTALLATIONS

    Question. Various Air Force Bases (AFBs) have encroachment issues, 
some of which are significant. These include population growth near 
military installations, environmental constraints on military training 
ranges, airspace restrictions to accommodate civilian airlines, and 
conflicts with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Air Force?
    Answer. I have not yet had the opportunity to address this issue, 
but recognize that encroachment can be a critical matter for the safety 
and effectiveness of flight operations, and that it also impacts 
community relations.
    Question. If confirmed, what policies or steps would you take to 
curtail the various encroachment issues?
    If confirmed, what role do you expect to play in addressing these 
challenges?
    Answer. If confirmed, I will support the policy initiative already 
underway to institutionalize operational sustainability across the Air 
Force. This naturally involves focused implementation and follow-up to 
adapt the initial policy and guidance to changing regional 
circumstances and new challenges.

             ENERGY CONSERVATION AND USE OF ALTERNATE FUELS

    Question. In the past year, the Department of the Air Force has 
assumed a leadership role within the Federal Government for the 
advocacy, research, and testing of alternate fuels for use in military 
aircraft. In addition, the Air Force has encouraged proposals for the 
use of Federal property to construct refineries and power plants to 
include nuclear power.
    In your view, which energy alternatives offer the greatest 
potential for benefit to Air Force programs and operations?
    Answer. I am still reviewing the Air Force energy program. In 
general, I support the program's three-part strategy of reducing energy 
demand and consumption, increasing supplies from alternative sources, 
and shaping the Air Force culture to increase energy awareness in all 
we do. I also support the focused effort to certify Air Force aircraft 
on a synthetic aviation fuel blend by 2011.
    Do you support the goals adopted by the Air Force related to the 
increased use of alternate fuels?
    Answer. I have not yet had an opportunity to assess the specific 
goals outlined in the Air Force energy program.
    Question. In your opinion, what constraints does the Air Force face 
in carrying out initiatives to reduce reliance on fossil fuels?
    Answer. My initial assessment is that it would be difficult for the 
Air Force alone to economically convert to a synthetic fuel blend for 
aircraft without broader market forces for commercial aviation fuel in 
place to make this viable. In addition, the potential hosting of 
nuclear power sites on Air Force installations has broad policy 
implications extending well beyond the immediate responsibilities of 
the Air Force. In my opinion, moving beyond the level of technical and 
economic feasibility studies in both of these areas will require more 
comprehensive consultation and coordination within DOD, across the 
executive branch, and with Congress and industry.

                        INVESTMENT IN FACILITIES

    Question. Air Force leaders have stated in testimony, ``MILCON is 
an essential enabler of Air Force missions; however, due to fiscal 
constraints, we must reduce funding and accept greater risk in 
facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment.''
    In your opinion, at what point is the reduction of funding for 
facilities and infrastructure too much of a risk for the Air Force?
    Answer. I understand that the Air Force has managed or mitigated 
risk by balancing limited resources among Facility Sustainment, 
Restoration and Modernization, and MILCON accounts. Taking manageable 
risk in infrastructure seems prudent given the Air Force's previous 
investment in infrastructure combined with its current investment in 
maintaining our facilities by increasing Facility Sustainment to 90 
percent of the DOD requirements and increasing restoration and 
modernization (R&M) by $160 million compared to fiscal year 2008. While 
these actions help to manage risk in the short run, higher levels of 
investment will likely be required to support new missions and 
capabilities as they enter the total force.
    Question. If confirmed, would you support goals established by DOD 
for certain levels of funding dedicated to the recapitalization and 
sustainment of facilities?
    Answer. Yes. The Air Force supports the existing DOD goal for 
Facility Sustainment by funding our program to at least 90 percent of 
the modeled requirement. If I am confirmed, I will support Facility 
Recapitalization efforts because installations provide a critical 
capability to the Air Force--we fight from our bases, they are our 
Installation Weapon Systems.
    Question. What is your position on the use of public-private 
ventures to address critical deficiencies in family housing and utility 
infrastructure?
    Answer. Congress provided the Services public-private venture 
authorities designed to attract private sector financing, expertise and 
innovation to improve the quality of life for our airmen and their 
families; enable our utility infrastructure to meet current standards; 
and improve mission capability by leveraging existing real estate 
assets faster and more efficiently than traditional Military 
Construction and Operations and Maintenance (O&M) processes would 
allow. Consistent with the conditions outlined by Congress, I would 
continue to take advantage of these powerful authorities because they 
enable us to obtain private capital to leverage government dollars, 
making efficient use of limited resources to build, renovate and 
operate our military housing and infrastructure.

                           LONG-RANGE BOMBERS

    Question. The B-1s, B-2s, and B-52s will begin to be retired in the 
2030 timeframe.
    When do you believe that the United States needs to develop a new 
manned bomber?
    Answer. The current bomber fleet (B-1, B-2, and B-52) is already 
being modernized through various sustainment, electronic warfare, and 
communications initiatives in order to close emerging capability gaps 
and remain relevant through 2030.
    Current air-launched weapons also face similar performance issues 
and the Air Force is committed to increasing the lethality of its Long 
Range Strike force through advanced weapons. While I understand the Air 
Force does not have a formal position on future status for the current 
inventory, it is developing a new generation of scalable weapons with 
improved accuracy, standoff, penetration, and stealth. Available in the 
near to mid-term, these weapons would help to mitigate the risks now 
evolving.
    Based on the current projections, a Next Generation Bomber would 
achieve initial operational capability in 2018. This date is directed 
by the 2006 QDR based on the realization that the current bomber fleet 
has projected capability gaps in the anti-access environment for the 
2015-2020 timeframe.
    Question. At a recent hearing before the Senate Armed Services 
Committee Under Secretary of Defense for Acquisition, Technology and 
Logistics indicated that the next generation long range bomber is 
already over budget and behind schedule.
    Do you agree with this statement?
    Answer. I have not yet had the opportunity to review this program 
in detail.

            NATIONAL RECONNAISSANCE OFFICE AND THE AIR FORCE

    Question. The responsibilities of the Director of the National 
Reconnaissance Office (NRO) were once included in the responsibilities 
of the Under Secretary of the Air Force. Dual-hatting the Under 
Secretary ensured that there was close cooperation between the NRO and 
the Air Force.
    What steps would you take, if confirmed, to ensure that DOD space 
programs and NRO programs are managed in a coordinated fashion?
    Answer. I understand that in June 2006, the Chief of Staff of the 
Air Force and the Director of the NRO implemented a Statement of Intent 
documenting the specific responsibilities and actions the Air Force and 
NRO will take to ensure our historical relationship remains strong, 
while continuing to effectively achieve mission success and meet user 
needs.
    If confirmed, I will work with the Director of the NRO to ensure we 
coordinate efforts in areas of joint interest, such as development and 
acquisition, space command, control and operations, space launch, 
defensive space operations, and professional development of our 
personnel.

                     OPERATIONALLY RESPONSIVE SPACE

    Question. The Operationally Responsive Space (ORS) Office stood up 
just about a year ago. One of the primary goals of the office is to 
provide military commanders with an ability to utilize small satellites 
to rapidly augment or reconstitute capabilities for such things as 
communications and surveillance.
    If confirmed, would you support ORS?
    Answer. Yes, ORS was established to develop concepts for surge, 
augmentation, and reconstitution. It is a vital element of our space 
protection strategy in the contested space environment and I understand 
is strongly supported by the commander of the United States Strategic 
Command.
    Question. Do you believe there are other opportunities for ORS 
including support to research and development?
    Answer. It is my understanding that ORS is already providing the 
launches for Tactical Satellites (TacSats) being developed by the 
scientific and technology (S&T) community. ORS is also leveraging past 
research and development investments, as well as advancing specific 
technologies to support the development of enabling technologies for 
responsive satellite building, launch, on-orbit operations, and direct 
links to the warfighter. These activities will ultimately mature ORS 
into a national strategic capability able to rapidly develop and deploy 
smaller, single-purpose, shorter-lived platforms tailored to a specific 
warfighter need or to augment or reconstitute our core space 
capabilities.

                           SPACE ACQUISITION

    Question. Virtually all current space acquisition programs are 
suffering from cost overruns and schedule slips.
    If confirmed, how would you propose to ensure that the space 
acquisition process is successfully revamped to deliver future systems 
within promised costs and schedules?
    Answer. Ensuring future space systems are delivered within promised 
cost and schedule requires an intense focus on affordable and 
executable acquisition strategies, realistic cost estimates, stable 
requirements and funding, and sound systems engineering practices. 
Implementing policies which ensure continuity of program leadership, 
coupled with thorough upfront program planning, should create a balance 
between cost, schedule and performance that can be sustained throughout 
a program's life cycle.
    Question. Milestone decision authority for space programs currently 
resides with the Under Secretary of Defense for Acquisition, 
Technology, and Logistics. If confirmed will you seek to return this 
authority to the Air Force or are you comfortable with this authority 
residing with the Under Secretary?
    Answer. I believe the Air Force should be taking steps internally 
to raise confidence in its ability to manage space programs and carry 
out its responsibilities as DOD Executive Agent for Space such that 
Milestone Decision Authority for space Major Defense Acquisition 
Programs would be returned to the Air Force at the earliest 
opportunity.

                       EXECUTIVE AGENT FOR SPACE

    Question. The Secretary of the Air Force has previously been 
designated as the DOD Executive Agent for Space.
    If confirmed will you retain this designation?
    Answer. If confirmed, I intend to exercise all responsibilities and 
authorities assigned to this office, including those associated with 
the DOD Executive Agent for Space consistent with DOD Directive 5101.2. 
This includes planning, programming, and acquisition of space systems 
within DOD in concert with the heads of DOD components, and the USD 
(Acquisition, Technology, and Logistics), USD (Policy), and USD 
(Intelligence).

                    AIR FORCE SCIENCE AND TECHNOLOGY

    Question. What metrics will you use to assess the effectiveness of 
the Air Force S&T programs?
    Answer. One of the best metrics to assess S&T effectiveness is to 
measure technology transition into developmental programs and, 
ultimately, into operational use. There is solid evidence that past 
investments in S&T have resulted in a significant number of 
technologies being incorporated into fielded systems, thereby, securing 
the Air Force's position as the premier air force in the world. To 
maintain this legacy of success into the future will depend on ensuring 
programs are in place to transition mature laboratory technologies into 
developing and fielded systems.
    Question. What metrics will you use to assess the effectiveness of 
the Air Force's basic research programs?
    Answer. The very nature of basic research makes it difficult to 
determine effective measures of merit. However, indicators such as the 
number of referred journal publications, certificates of research 
merit, and other awards and publications can provide a general sense of 
how well the basic research program is laying the foundation for future 
military capabilities.
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Air Force 
needs?
    Answer. I have not yet had time to review details of the R&D 
program.
    Question. What metrics will you use to assess the adequacy of 
investment levels in Air Force S&T programs?
    Answer. The Air Force uses a number of different inputs to 
determine the adequacy of the total S&T investment beginning with 
overall national strategy followed by Guidance for the Development of 
the Force, the Air Force Strategic Plan, Advanced Air Force Planning 
Guidance, and guidance from the Air Force S&T Executive. This entire 
determination process revolves around identifying capability gaps to 
determine what breakthrough technologies might be required in the 
future.
    Question. What role do investments in S&T play in reducing costs 
and technical risk of acquisition programs?
    Answer. The S&T Program is a key element in making demonstrated 
mature technologies available for transition into development programs. 
The manufacturing technology program is also a key to reducing costs 
and risks to acquisition programs. The S&T Program provides a strong 
foundation for reducing technical risk and costs.

                          TEST AND EVALUATION

    Question. What are your views on the effectiveness of the Air 
Force's test and evaluation (T&E) activities?
    Answer. It is my understanding that Air Force T&E activities are 
sufficient to support testing requirements and that the T&E budget has 
been certified as adequate each year by OSD's Test Resource Management 
Center.
    Question. What are the major weaknesses and deficiencies with the 
Air Force T&E enterprise in meeting current and emerging Air Force 
testing requirements?
    Answer. The development of weapon systems with increased technical 
complexity and capabilities is challenging Air Force T&E organizations 
to be technically innovative and resourceful. I understand that the T&E 
budget has been certified as adequate each year by OSD's Test Resource 
Management Center.
    Question. The Air Force has recently contemplated a number of steps 
to reorganize both development and operational test activities. Some of 
these proposals included significant government and contractor 
workforce reductions and potential closures of test assets.
    If confirmed, what actions would you take to ensure that any 
reorganizations or closure of test assets or reductions in test 
workforce result in actual cost reductions and do not entail undue risk 
to Air Force or other DOD current or future acquisition programs?
    Answer. If confirmed, I would expect the Air Force T&E community, 
like other functional areas, to continually pursue efficiencies that 
add value to acquisition and promote needed test capabilities. Any 
proposals for significant reorganizations or realignments would require 
thorough analysis and consultation with stakeholders and Congress.
    Question. I have recently reviewed a report prepared in response to 
congressional guidance, assessing the potential realignment of 
functions between Edwards AFB and Eglin AFB. The report discusses the 
benefits of having test capabilities at both locations and concludes 
that previously planned realignments would not result in significant 
savings or benefits and therefore should not go forward.
    What is your view of the role of the Director of Operational Test 
and Evaluation and the Director of the Test Resource Management Center 
in ensuring that such reductions do not undermine the ability of the 
Air Force to carry out needed test programs?
    Answer. The Director of Operational Test and Evaluation and the 
Director of the Test Resource Management Center are responsible to 
ensure our Nation's T&E infrastructure, processes, and workforce are 
adequate, responsive, and available to support the development of the 
technologically advanced weapon systems that our warfighters need.
    Question. The Air Force has some unique requirements with regard to 
prompt global reach and affordable, responsive space lift missions.
    In your view, are changes in current test range structure, 
operations, and mission assurance parameters required to accommodate 
Air Force experimentation and small launch needs?
    Answer. I have not yet had time to review this area.

                    AIR FORCE RESEARCH LABORATORIES

    Question. What are the major challenges facing the Air Force 
Research Laboratory (AFRL)?
    Answer. I recognize the value of Air Force labs and the technical 
expertise of that workforce as critical resources for the Air Force. 
However, I have not yet had time to review the current status of AFRL.
    Question. How do you plan to address these challenges?
    Answer. N/A.
    Question. Are you supportive of efforts of the AFRL to expand and 
enhance their unique laboratory personnel demonstration program to 
ensure that they can attract and retain the finest technical workforce?
    Answer. I recognize and support the need to attract and retain the 
finest technical workforce, but have not had time to review this area.

        AIRBORNE INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Question. The airborne intelligence, surveillance, and 
reconnaissance (ISR) assets developed and operated by the Air Force 
form an indispensable part of the Nation's overall intelligence 
architecture. These assets are often referred to as high demand, low 
density systems because of the extensive number of requirements and 
high OPTEMPO on their systems and crews.
    In your view, does the Air Force have sufficient airborne ISR 
assets to meet current and projected requirements?
    Answer. The Air Force is striving to meet current ISR demand by 
rapidly increasing actual numbers of ISR platforms, integrating 
nontraditional ISR means, and establishing mechanisms to improve 
analysis, processing, targeting, and systems to expand ISR 
dissemination. For example, I understand the Air Force is currently 
increasing combat air patrols (CAPs) of our unmanned airborne systems 
(UAS). Our JROC-approved UAS requirement is 21 CAPs, and we are already 
flying 26 today to meet the additional needs of the combatant 
commanders. We are also working to increase the number of CAPs to 31 by 
December 2008. Continued production will increase the density of these 
assets but demand will continue to be high. We will find ways to 
satisfy this demand both in capability terms and, importantly, execute 
the function in a manner that meets supported commander expectations.
    Question. What changes would you recommend, if confirmed, to 
current plans for the development and acquisition of airborne ISR 
platforms? Will these changes remove ISR platforms from the ``high 
demand, low density'' category?
    Answer. I have no changes to recommend at this time. My initial 
impressions are that more widespread arming of UAVs recently considered 
as ISR platforms, along with the availability of sensors and targeting 
pods on new fighter/attack aircraft, are two trends further blurring 
functional lines between intelligence and operations. Both of these 
trends are positive and present opportunities; and as they are fully 
integrated, should increase operational capability and flexibility for 
the warfighter. At the same time, these trends will force questions 
about how air vehicles should be classified and where they should be 
assigned.
    Question. If confirmed, will you review the necessity for requiring 
rated pilots for the operation of ISR assets?
    Answer. Yes.

                             AFRICA COMMAND

    Question. In the committee-passed version of the National Defense 
Authorization Act for Fiscal Year 2009, the committee expressed concern 
that the Commander of U.S. Africa Command (AFRICOM) lacks the necessary 
air support to execute effectively his mission in a continent comprised 
of 53 countries, spanning a geographic area larger than the United 
States, China, and Western Europe combined. The Commander of AFRICOM 
recently indicated before the Air Force Defense Strategy Seminar this 
shortage of aircraft remains.
    If confirmed, what would you do to support AFRICOM, given the 
demand on existing assets within other geographic combatant command 
AORs?
    Answer. My understanding is General Ward is satisfied with our 
proposed Air Force component support, but has expressed concern over 
airlift requirements for his command.
    For component support, we are establishing and assigning a Numbered 
Air Force--17th Air Force--consisting of a two-star general, his staff, 
and a tailored air and space operations center to provide command and 
control capabilities. We are committed to declaring initial operational 
capability this fall.
    The near-term plan for airlift support to AFRICOM is not yet 
certain. In the absence of validated requirements, the Air Force 
submitted a $30 million O&M request in fiscal year 2009. I understand 
there is a $20 million mark against that request and this will likely 
be a conference issue. If the request is not fully funded by Congress, 
there will be some risk associated with the shortfall. General Ward is 
in a better position to describe the risk.
    Our long-term plan for airlift is becoming clearer. TRANSCOM 
recently completed an airlift analysis for AFRICOM and recommended 2 
key actions. First, TRANSCOM recommended we acquire or assign a C-37 
and a C-40 to AFRICOM. Second, they recommended we allocate O&M funds 
for common user airlift requirements. I understand the Air Force plans 
to support those recommendations in its POM 10 submission and the 
Forces For Unified Commands Memorandum.

                            NUCLEAR MATTERS

    Question. Over the course of the last year substantial systemic 
problems have surfaced with the ability of the Air Force to manage all 
aspects of the nuclear weapons programs. These problems have generated 
several reports highlighting very serious shortfalls and setting forth 
over 100 recommendations to address the problems.
    If confirmed, what would you do to identify the various problems 
and restore credibility to the ability of the Air Force to manage 
nuclear weapons and systems?
    Answer. I believe most of the problems concerning the Air Force's 
stewardship of its nuclear enterprise have been identified and 
documented in both external and internal reports over the past few 
years. As outlined below, restoring Air Force credibility in our 
stewardship of the nuclear mission has been a high priority since my 
first day as Acting Secretary. I have reviewed the situation with four 
major command (MAJCOM) commanders who have nuclear-related missions, 
visited four bases, and spoken to airmen regarding the need to recommit 
ourselves to high standards of excellence. In our approach to the 
nuclear mission, we should not be `managing risk', but eliminating 
risk.
    Question. If confirmed, what would you do to review all of the 
recommendations that have been made by the various review teams to put 
these recommendations in place and then ensure that these 
recommendations do, in fact, fix and resolve the many problems?
    Answer. Upon arrival as Acting Secretary, I set in motion a Nuclear 
Task Force to coordinate and synchronize the corrective actions 
underway across various MAJCOMs and prepare a strategic roadmap for 
improvement that fully recommits the Air Force to this critical 
mission. This roadmap will be comprehensive, covering all dimensions of 
doctrine, organization, training, materiel, leadership, personnel, 
facilities, and inspection regimes. The roadmap will be prepared in 
coordination with other DOD components, including STRATCOM, and the 
Department of Energy; and will incorporate appropriate recommendations 
from the panel established under former Secretary of Defense James 
Schlesinger. I expect to see a final version of this roadmap by the end 
of September.
    Question. Do you disagree with any of the recommendations, and if 
so, which ones and why?
    Answer. While I am not personally tracking every recommendation 
from all the relevant reports, the Nuclear Task Force support staff is 
performing this function and MAJCOM commanders are leading 
implementation plans within their respective commands.
    I understand that one of the recommendations from the Air Combat 
Command Commander Directed Investigation was not implemented because it 
would have been in violation of current DOD security requirements and 
may have resulted in increased vulnerability to our nuclear security 
response posture.
    I am advised that all other recommendations have either been 
implemented or are in the works at this time. The Air Force has much 
more work that needs to be done.
    Question. If confirmed, what specific actions will you take to 
assess, sustain, and improve the professional development and 
experience base of Air Force personnel supporting nuclear systems and 
operations?
    Answer. I expect to receive recommendations in this area from the 
Nuclear Task Force that will be included in our roadmap for the nuclear 
enterprise.
    Question. What specific resources do you believe are most urgently 
needed to restore the Air Force's stewardship of its nuclear mission?
    Answer. We are currently evaluating the established unfunded 
requirements as well as the resourcing requirements resulting from the 
findings and recommendations of the Donald Report and the internal Air 
Force Inventory and Assessment Report. This work is in progress.
    Meeting funding requirements, however, is just one aspect of 
rebuilding the Air Force nuclear enterprise. Daily mission success in 
this most vital mission area demands unwavering focus that results in 
rigid adherence to standards. Ensuring our great airmen have resources, 
policies, procedures, engaged leadership and strict accountability at 
all levels will restore credibility and confidence in Air Force 
stewardship of its nuclear mission. We are actively working all of 
these related areas to ensure success.

                           NUCLEAR TASK FORCE

    Question. In a memorandum you sent as Acting Secretary on June 26, 
2008, to the Air Force Chief of Staff and all major commands, you 
discussed rebuilding of the Air Force Nuclear Enterprise. You directed 
the establishment of a Nuclear Task Force to perform key functions 
including an organizational review to assess and recommend options for 
alternative assignments of responsibility and/or command arrangements. 
You have required the Task Force to submit a draft roadmap, including 
recommendations for organizational adjustments, in 60 days.
    What are your expectations of the effect this Task Force will have 
on the Air Force's nuclear-related policies and procedures, logistics, 
sustainment, organization, and personnel force shaping?
    Answer. The task force is a means to integrate related ongoing 
efforts and ensure we have a comprehensive way ahead to rebuild the Air 
Force Nuclear Enterprise. This will necessarily include nuclear-related 
policies and procedures, logistics, sustainment, organization, and 
personnel force shaping.
    Question. When do you intend to provide this committee with the 
results of this review?
    Answer. I will provide the defense committees with the results upon 
completion of this activity, which I expect to be early this fall.

                       AIR FORCE REORGANIZATIONS

    Question. In recent years the Air Force has reorganized to create 
warfighting headquarters and to place maintenance squadrons under air 
combat wings. Both initiatives have been criticized as creating 
unnecessary bureaucracy and attempting to create more general officer 
or command billets than is necessary.
    What is the status of the implementation of these initiatives?
    Answer. I have not yet had the opportunity to review the status of 
the warfighting headquarters implementation, which I understand is well 
underway.
    Likewise, I have not had the opportunity to review the Global Wing 
maintenance initiative. Because this initiative was scheduled to be 
implemented beginning 1 July, as the recently arrived Acting Secretary, 
I put this initiative on hold for further review by the incoming 
leadership team.
    Question. What is your personal view of the merits and 
justification for these organizational changes?
    Answer. N/A.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic communications, in a timely manner when requested by a duly 
constituted committee, or to consult with the committee regarding the 
basis for any good faith delay or denial in providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                      STRATEGIC POSTURE COMMISSION

    1. Senator Levin. Mr. Donley, Congress established the Commission 
on the Strategic Posture of the United States in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2008. The Commission is 
chaired by former Secretary of Defense William Perry and is tasked to 
make recommendations on the future strategic posture of the United 
States including the nuclear posture. Will you cooperate fully with the 
Commission and the various working groups established by the 
Commission?
    Mr. Donley. Yes.

                         AIR FORCE END STRENGTH

    2. Senator Levin. Mr. Donley, the Air Force previously announced 
that it was not going to reduce end strength to the previously planned 
level of 316,000; rather it was going to maintain an end strength of 
330,000. We understand that the Air Force plans to use available funds 
in fiscal year 2009 to support this level of end strength even though 
the funds for this level were not requested in the fiscal year 2009 
budget request. What is the plan to identify the source of the funds to 
sustain the 330,000 end strength in fiscal year 2009?
    Mr. Donley. The Air Force is committed to fund the 330,000 end 
strength requirement within existing fiscal year 2009 funding. This 
funding will almost exclusively come from two sources. First, by 
stopping the drawdown in fiscal year 2008, the fiscal year 2009 funding 
that was originally programmed for force shaping initiatives, such as 
Voluntary Separation Pay will be freed up. Second, end strength at the 
beginning of fiscal year 2009 will be lower than originally planned, 
which will free up additional funding.

    3. Senator Levin. Mr. Donley, this 330,000 end strength level is 
also not sustained in the out year budget request. In your answers to 
the advance policy questions, however, you indicate that this out year 
funding shortfall will be fixed in the fiscal year 2010 budget request. 
How do you intend to fix this problem and where will the additional 
funds come from?
    Mr. Donley. The Air Force intends to address this issue within the 
context of the fiscal year 2010 Program Review deliberations with the 
Office of the Secretary of Defense (OSD). At present, the Air Force has 
established an OSD/Air Force End Strength Issue Team to formally 
address any funding shortfall concerns.

    4. Senator Levin. Mr. Donley, will this be an increase to the 
previously planned Air Force top line or will reductions be made to 
procurement or other investment accounts?
    Mr. Donley. We will work with OSD to find the appropriate resources 
to fund our 330,000 end strength requirement. Until this review is 
complete. we will not know if the funding will be from additional top 
line or from realigning funds within the current Air Force top line.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

         PATRICK AIR FORCE BASE MILITARY HOUSING PRIVATIZATION

    5. Senator Bill Nelson. Mr. Donley, the Air Force can repair the 
housing privatization projects at Moody, Little Rock, and Hanscom Air 
Force Bases (AFBs) (the ``American Eagle projects'') without 
sacrificing the Air Force's property rights to 200 acres of Government 
land, foregoing legal rights to recover damages, or giving away rights 
to 389 houses that were never built by defaulting developer American 
Eagle (a partnership between The Shaw Group and Carabetta Management). 
Unfortunately, the current Air Force plan to repair the American Eagle 
projects will result in a windfall for American Eagle, which has 
already received and sold 100 acres of Government-owned, barrier island 
property, valued by the Air Force at $26 million. On April 30, 2008, 
the Senate Armed Services Committee voted 22-0 to require the Air Force 
to conduct a cost-benefit analysis before executing this plan. As 
clarified by the committee, the evaluation should include an analysis 
of all options available to the Air Force to repair all American Eagle 
projects, including Patrick AFB. If confirmed, what steps will you take 
to review the housing privatization projects at these four bases before 
executing the current Air Force plan?
    Mr. Donley. I share your concerns and thank you for your continued 
advocacy for our airmen and their families.
    As I understand it, 101 acres of property was sold previously for 
$25 million by the Patrick Family Housing LLC to a third party 
developer, with a substantial portion of the proceeds of that sale 
coming into the housing privatization deal as the Air Force's cash 
equity contribution to build houses at Patrick AFB.
    With respect to the remaining acreage, the Air Force still retains 
all rights on the undeveloped portion of the 172 acre project site, and 
development is currently restricted solely to military family housing. 
The Air Force is currently conducting a cost-benefit analysis, in 
accordance with Section 2805 of Senate bill S. 3001 (National Defense 
Authorization Act for Fiscal Year 2009), which requires the Secretary 
of the Air Force to submit this cost-benefit analysis before dissolving 
the Patrick Family Housing LLC. We are currently working to complete 
that cost benefit analysis and we will discuss the results with you and 
the committee before any final action is taken.
    I am currently reviewing possible courses of action and I have 
asked my staff to meet with you and your staff during the week of July 
28, 2008, to go over possible courses of action being considered. Like 
you, my goal remains to provide quality housing for airmen and their 
families at all of our military installations. Thank you again for you 
continued support of our Air Force.

    6. Senator Bill Nelson. Mr. Donley, if confirmed, will you execute 
any plan involving Patrick AFB before the completion of all Federal 
investigations into housing privatization at Patrick AFB?
    Mr. Donley. As part of any sale transaction, the Air Force will 
provide a Release to the project owners that specifically excludes 
environmental, suspension and debarment. and any criminal matters from 
the release. If the sale occurs before any Federal investigation is 
completed, the exemptions in the release protect the interests of the 
Government.

    7. Senator Bill Nelson. Mr. Donley, if confirmed, will you execute 
any plan to transfer the American Eagle project at Patrick AFB to 
another developer before all Federal investigations involving the 
project have concluded, with findings presented to Congress?
    Mr. Donley. As part of any sale transaction, the Air Force will 
provide a release to the project owners that specifically excludes 
environmental, suspension and debarment, and any criminal matters from 
the release. If the sale occurs before any Federal investigation is 
completed, the exemptions in the release protect the interests of the 
Government.

    8. Senator Bill Nelson. Mr. Donley, aside from its current plan, 
has the Air Force explored other options to repair the American Eagle 
projects? Please describe all such options and explain why they were 
rejected.
    Mr. Donley. As I understand it, the Air Force has worked closely 
with the project owners and bondholders on the proposed sale of all 
four projects together, but also looked at other options including 
other groupings of the projects, such as: (1) three bases without the 
Moody project; (2) Air Force termination of the lease and use 
agreement; (3) allowing the bondholders to foreclose on the projects; 
and (4) the Project Owners declaring bankruptcy.
    The other groupings considered for the sale all included Patrick 
AFB because of the value of the project, but were rejected because they 
did not address the problems at Moody AFB. The other options were 
rejected because of the uncertain timelines from potential litigation, 
the failure to address payment of liens and claims at each of the four 
projects, and the fact that the Air Force would be required to take 
over the operations and maintenance and development responsibility for 
the projects.
    In no case does the Air Force intend to give up its current legal 
or contractual rights absent favorable consideration. The Air Force's 
goal remains providing quality housing for the airmen and their 
families.

                             CYBER COMMAND

    9. Senator Bill Nelson. Mr. Donley, a major initiative of the Air 
Force is the creation of a Cyber Command, whose purpose as defined by 
the Joint Chiefs of Staff is the ``use of electronics and the 
electromagnetic spectrum to store, modify, and exchange data via 
networked systems and associated physical infrastructures.'' If 
confirmed, will you continue to support the creation of this command 
according to the current timeline including stand up date of October 1, 
2008?
    Mr. Donley. I do not yet have a fully formed opinion on this 
question, but it is an area that I will focus on in the near future. I 
do agree that this is an increasingly important domain, and that Air 
Force efforts in this area need to be coordinated, not only within the 
Air Force, but with similar DOD and Service initiatives.

                                 SPACE

    10. Senator Bill Nelson. Mr. Donley, the previous Secretary of the 
Air Force had responsibility to be the Defense Department Executive 
Agent for Space. If confirmed, will you also be charged with this 
responsibility and what do you see as your highest priorities in that 
role?
    Mr. Donley. If confirmed, I intend to exercise all responsibilities 
and authorities assigned to this office, including those associated 
with the Department of Defense (DOD) Executive Agent for Space, 
consistent with DOD Directive 5101.2. This includes evaluating and 
advising OSD on the planning, programming, and acquisition of space 
systems within DOD, in concert with the Heads of DOD Components, and 
the Under Secretary of Defense (USD) (Acquisition, Technology, and 
Logistics), USD (Policy), and USD (Intelligence). I have not yet had 
time, however, to develop a prioritized list in this area.

    11. Senator Bill Nelson. Mr. Donley, as Executive Agent, what role 
would you have in reviewing space programs of the Missile Defense 
Agency?
    Mr. Donley. The Missile Defense Agency is not subject to oversight 
by the Executive Agent for Space. However, if confirmed. I would 
continue to work to foster the strong collaborative relationship that 
has been developed with the Missile Defense Agency, to include 
participating in the Missile Defense Executive Board.

    12. Senator Bill Nelson. Mr. Donley, space acquisition programs are 
behind schedule, over budget, and often plagued with technical 
problems. What is your assessment of the root causes of these problems 
and what will you continue or change to improve the acquisition process 
if confirmed?
    Mr. Donley. It appears that many of our legacy space acquisition 
programs suffered from overly optimistic cost estimates, development 
based on immature technologies, and a shortfall in overarching systems 
engineering. I believe that programs perform better both for cost and 
schedule when programmatic risk is reduced through overarching systems 
engineering, the use of mature technologies proven in a realistic 
operational environment, and programs are funded to high-confidence 
cost estimates. It is also critical to establish and hold constant the 
performance requirements once they are validated and approved. I 
understand the Air Force has also implemented senior level 
configuration steering boards, as directed by USD (Acquisition, 
Technology, and Logistics (AT&L)), to balance emerging requirements 
with funding during program execution, and has implemented a ``Back to 
Basics'' approach for space acquisition that stresses the factors 
above.

    13. Senator Bill Nelson. Mr. Donley, many of the space programs 
that the Air Force funds and operates are used to support a wide 
variety of military and other users. As a result, there is periodically 
a concern that the Air Force may underfund these programs to ensure 
that Air Force funding goes to more Air Force-focused programs. If 
confirmed, will you take steps to ensure that Air Force meets its broad 
commitments?
    Mr. Donley. I am mindful of the vast reliance on space capabilities 
for which the Air Force maintains stewardship. If confirmed, I will 
work to ensure that the Air Force meets its broad commitments, in air, 
space, and cyberspace, in the most effective way possible within the 
funding available.

    14. Senator Bill Nelson. Mr. Donley, what is your reaction to a 
recent proposal to create a space directorate that reports directly to 
the Secretary of Defense and the Director of National Intelligence?
    Mr. Donley. I do not yet have a fully formed opinion on this 
proposal, but I do believe that space related efforts across DOD must 
be synchronized with those of the DNI. If confirmed, in my role as the 
DOD Executive Agent for space, I would work to continue to foster a 
strong, collaborative relationship between the DOD agencies and 
components, USD(P), USD(AT&L), USD(I), as well as the DNI on national 
security space matters.

                    ALTERNATIVE ENERGY TECHNOLOGIES

    15. Senator Bill Nelson. Mr. Donley, in the Air Force posture 
statement in March 2008, your predecessor said that the Air Force was 
committed to reducing its consumption of fossil fuels. One of the goals 
was to have all aircraft certified to use synthetic fuels by 2011. 
Another was to have the Air Force to continue to lead the U.S. 
Government in green power for base operations. What plans, if any, 
would you put in place to have the Air Force develop and procure 
alternative energy technologies and alternative fuels to reduce energy 
costs? For example, what plans does the Air Force have now and what 
would you do to accelerate the use of alternate energy support vehicles 
(hybrids, etc.) on AFBs in order to reduce costs?
    Mr. Donley. I am still reviewing the Air Force energy program. In 
general, I support the program's three-part strategy of reducing energy 
demand and consumption, increasing supplies from alternative sources, 
and shaping the Air Force culture to increase energy awareness in all 
we do. I also support the focused effort to certify Air Force aircraft 
on a 50/50 blend of Fischer-Tropsch and JP-8 fuel by 2011, and to 
reduce the consumption of fossil fuels.
    I support the innovative efforts such as current Air Force 
initiative to convert 30 percent of its light duty vehicles to low-
speed vehicles by 2012, with the goal to convert the entire fleet by 
2015, as well as the efforts to increase the procurement of renewable 
energy--such as the Photovoltaic Solar Array at Nellis AFB and the 
Waste-to-Energy project at Eielson AFB--as well as the pursuit of 
advanced engine technology to develop more efficient jet engines.

                        MISSILE INDUSTRIAL BASE

    16. Senator Bill Nelson. Mr. Donley, in fiscal year 2009, for the 
first time the United States will no longer have intercontinental 
ballistic missiles in production, or active plans for a future 
replacement. Have you thought about any plans to sustain this 
industrial base to ensure the U.S. could meet any future production 
capability for a land-based strategic deterrent?
    Mr. Donley. The U.S. Intercontinental Ballistic Missile (ICBM) 
production concluded with Peacekeeper in the early 1990s. Since that 
time, the ICBM industrial base has supported various modernization 
efforts for the deployed ICBM fleet. By exercising unique strategic 
missile skills, the current ICBM Demonstration/Validation program is 
one of the several avenues which will help bridge the gap between the 
completion of the ICBM Modernization programs and the beginning of a 
follow-on ICBM or Minuteman III life extension program.
    The Air Force is also currently working, in response to Senate 
Report 110-155, to provide a ``Report on ICBM Industrial Base 
Capabilities to Maintain, Modernize, and Sustain Minuteman III through 
2030 and Provide a Replacement Land-Based Strategic Deterrent System 
After 2030,'' which will address these issues in greater detail. This 
report is due to Congress in August 2008.

                            SPACE PROTECTION

    17. Senator Bill Nelson. Mr. Donley, protecting our space assets is 
an important mission of the Air Force as well as the National 
Reconnaissance Office (NRO). To that end Congress has required a joint 
space protection be developed. The Air Force and the NRO have recently 
established a joint protection program. Will you ensure that this 
program is adequately funded including the highest priority of ensuring 
that the United States has adequate space situational awareness (SSA)?
    Mr. Donley. Given our national dependence on our space systems, 
Space Protection and SSA continue to be of great concern to the Air 
Force. The joint AFSPC/NRO Space Protection Program was established to 
preserve national security space effects through an integrated strategy 
to articulate vulnerabilities, assess threat impacts, identify options 
and recommend solutions leading to comprehensive space protection 
capabilities. Once determined, these solutions will then be implemented 
to provide the most cost effective capability for protecting the space 
environment.
    As I understand it, AFPSC conducted a Best Value Architecture Study 
for SSA to determine where the near/far-term investments in SSA should 
occur. Based on these results, they determined that first we have to do 
a better job in exploiting the data we already have. This means in the 
near-term fusing the data to obtain more precise and accurate 
information we can use efficiently. Second, they determined we need to 
increase our sustainment efforts to support the infrastructure and 
systems keeping those sources of data online. Finally, we need to look 
at developing better/more sensors to improve our capabilities in the 
far-term.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                           AIR NATIONAL GUARD

    18. Senator Clinton. Mr. Donley, the Air Force is now developing 
the Program Objective Memorandum (POM) for fiscal year 2010. With the 
new guidance from the Secretary of Defense to protect end strength as 
well as re-examine the proposed modernization accounts to meet the 
needs of the Total Force, what are your plans to ensure in the POM the 
adequate capitalization of the Air National Guard from its equipment, 
personnel, and sustainment perspectives?
    Mr. Donley. The Air Force's budget submission included a detailed 
review of all applicable guidance, and is the result of a careful 
review of Total Force modernization, personnel, and sustainment. The 
Air Force remains committed to Total Force Integration and in the 2010 
POM will expand on the progress we have made to integrate the Air 
National Guard and Air Force Reserve Forces into the Total Force in all 
areas including equipment, personnel, and sustainment.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    19. Senator Clinton. Mr. Donley, Secretary Gates has stressed the 
importance of the Air Force providing a more robust Intelligence, 
Surveillance, and Reconnaissance (ISR) to the warfighter. How will you 
enable the Air Force to meet the Secretary's objectives, and within 
what timeframe will you be able to do so?
    Mr. Donley. The Air Force has been responsive to the war in Iraq 
and Afghanistan by innovating means to rapidly put ISR data directly 
into the hands of our joint and combined force at all levels. For 
example, the Air Force fielded 4,000 remotely operated video enhanced 
receivers that allow ground forces to directly receive unmanned 
aircraft system (UAS) pictures; accelerated MQ-1 Predator operations 
well beyond the DOD-directed program of record; and introduced the MQ-9 
Reaper into combat a year ahead of schedule. We continue to field more 
UAS capability at maximum capacity with near-term focus, and we're 
proud of the dedicated airmen around the globe who are making this 
happen.
    The original Predator UAS requirement was 21 CAPs by 2010, but the 
Air Force is currently flying 26 CAPs today, and planning to further 
increase Predator CAPs to 31 by December 2008. The Air Force is pushing 
ISR capability into the field as soon as it is becomes available. We 
have issued a request for proposal (RFP) for new UASs, and we are 
shifting our UAS procurement from the older MQ-1 to the more capable 
MQ-9. When equipped with the new wide area airborne surveillance pod, 
our MQ-9 UASs will be able to provide 30 to 60 times more capability 
than a single MQ-1 Predator.
    In addition, the Air Force has pushed legacy ISR ``workhorses''--
the U-2s, RC-135s, and Joint Surveillance and Target Attack Radar 
System (JSTARS)--to the maximum tempo possible to get as much 
collection capability to the fight as possible. We are also embedding 
ISR liaison teams at division and brigade combat team levels to tailor 
ISR capabilities for the specific tactical fights of these units. 
Further, we are also capitalizing on important technical advances in 
our ISR analysis enterprise, to turn data into actionable intelligence. 
These advances-coupled with upgrades to our Distributed Common Ground 
System (DCGS--our primary imagery analysis capability) and increased 
efficiency through reachback to continental United States resources--
ensure that joint warfighters get the maximum ISR support possible.
    Finally, the Air Force is working as part of the Secretary of 
Defense's ISR Task Force to push even more ISR capability to the fight 
in the near term, through both additional buys of equipment (such as 
RC-12 aircraft tailored to the irregular warfare fight) and creative 
concepts that will add value in the near term. The Air Force and our 
airmen are committed to winning the current fight, and our ISR posture 
reflects that commitment.

                               C-5 FLEET

    20. Senator Clinton. Mr. Donley, the recently signed Iraq 
Supplemental Appropriations bill included 15 additional C-17s for the 
Air Force to meet its strategic airlift requirements. The Air Force has 
continued to state its need to balance the cost of sustaining the C-5 
fleet with ensuring modern strategic air lifters are available to meet 
global needs. Please articulate what the Air Force sees as the need for 
additional C-17s, as well as the relationship of that need with the C-5 
fleet.
    Mr. Donley. Our first priority is always to provide the best 
overall airlift capability to the joint warfighter. There are two 
issues with respect to the proper balance between the C-5s and C-17s 
that comprise our strategic airlift fleet. The first is the total 
number of tails. The current requirement of 299 tails was set by the 
2007 NDAA, and this requirement as outlined in the fiscal year 2009 
program of record for strategic airlift is 190 C-17s, 52 C-5Ms, and 59 
C-5As.
    The second issue is the minimum number of million ton miles per day 
(MTM/D) available in our total fleet. During Nunn-McCurdy 
certification, the Joint Requirements Oversight Council validated a 
requirement for 33.95 MTM/D of organic strategic airlift (C-5s and C-
17s). A fleet of 190 C-17s and 111 C-5s does not meet the 33.95 MTM/D 
goal. The addition of 15 C-17s in the Global War on Terrorism 
Supplemental bill allows the Air Force to meet the 33.95 MTM/D 
requirement. A fleet of 205 C-17s and 111 C-5s meets both these 
requirements and is aligned with objectives sought by the U.S. 
Transportation Command Commander and cited in the USD(AT&L) Nunn-
McCurdy Acquisition Decision Memorandum.
    The Air Force continues to review options for the modernization and 
retirement of portions of the C-5A fleet. The C-17 has proven itself to 
be a highly reliable and versatile strategic airlift platform that will 
serve the Nation well across the full range of military operations. We 
will continue to analyze the overall requirement and make sure we 
maintain the proper balance in our fleet. The ongoing Mobility 
Capabilities Requirements Study 2016, with informal results available 
in the spring of 2009, is the next big force design milestone.
                                 ______
                                 
               Questions Submitted by Senator John McCain

       PILOT PROGRAM ON COMMERCIAL FEE-FOR-SERVICE AIR REFUELING

    21. Senator McCain. Mr. Donley, in your advance policy question 
responses you state, ``The Air Force must determine the feasibility of 
executing a program based on industry responses. If executed, we 
anticipate industry will require 18-24 months to accomplish boom 
design, modification, and integration. A minimum of an additional 6 
months will be required for boom system operation, aircrew 
certification, and receiver qualification. Once complete, we can 
conduct the pilot program in fiscal year 2012-2016. If confirmed, I 
will monitor progress on this plan to ensure we meet the pilot program 
objective.'' Understanding the final fee-for-service air refueling RFP 
is planned for the first quarter fiscal year 2009, please provide the 
committee with the anticipated date for the draft RFP. In addition, 
please provide the anticipated pilot program contract award date.
    Mr. Donley. The planned date for the draft RFP will be 45 days 
prior to final RFP release and is anticipated no later than 15 Nov 08. 
The planned contract award date, pending successful completion of 
competitive source selection, is anticipated no later than 12 months 
after receipt of proposals or approximately second quarter fiscal year 
2010. This will begin the industry funded boom integration and 
certification effort, which is required prior to start of the 5-year 
evaluation period.

    22. Senator McCain. Mr. Donley, given the success of the U.S. Navy 
commercial fee-for-service aerial refueling program since 2001, the 
committee does not foresee any impediments to the feasibility of 
executing a commercial fee-for-service Air Force pilot program to 
demonstrate and validate Air Force air refueling in the mission areas 
identified in the NDAA for Fiscal Year 2008, pending industry ability 
to provide boom capable aircraft. Please confirm to the committee that 
the Air Force fee-for-service RFP will specifically demonstrate ``a 
pilot program on commercial fee-for-service air refueling support for 
the Air Force'' as required in section 1081 of the NDAA for Fiscal Year 
2008, and will not require passenger and cargo capability.
    Mr. Donley. The Air Force intends to execute the pilot program as 
directed in section 1081 of the NDAA for Fiscal Year 2008. I have not 
yet had time to review the actual implementation plan, but I understand 
that section 1081 requires that all tanker mission areas be evaluated 
and specifically lists Aeromedical Evacuation as a mission area to 
include in the pilot program evaluation. I also understand that 
industry will likely find it more difficult to field boom technology on 
derivative aircraft, as compared with the current probe and drogue 
configuration used for the U.S. Navy commercial fee-for-service aerial 
refueling program, but I will look into this program in the near 
future.

    AIR FORCE LOBBYING ON BASE REALIGNMENT AND CLOSURE JOINT BASING 
                                DECISION

    23. Senator McCain. Mr. Donley, in recent months, this committee 
has expressed concerns about a legislative provision inserted in the 
recent enacted 2008 Emergency Supplemental Appropriations Act that 
would undermine the Secretary of Defense's authority to carry out a 
2005 base realignment and closure (BRAC) decision related to the 
establishment of 12 joint bases. In a May 28, 2008, letter responding 
to my concerns about lobbying efforts by senior Air Force leaders 
related to this provision, Deputy Defense Secretary Gordon England 
stated, ``The Secretary of the Air Force has been asked to conduct an 
internal investigation of this matter and to recommend appropriate 
actions.'' Are you aware of this internal investigation?
    Mr. Donley. I am aware of this issue and will provide a response to 
the committee shortly, as committed to in Secretary England's May 28, 
2008 memo.

    24. Senator McCain. Mr. Donley, what is the status of this 
investigation?
    Mr. Donley. I am aware of this issue and will provide a response to 
the committee shortly, as committed to in Secretary England's May 28, 
2008 memo.

    25. Senator McCain. Mr. Donley, if not yet completed, when will the 
investigation be completed?
    Mr. Donley. I am aware of this issue and will provide a response to 
the committee shortly, as committed to in Secretary England's May 28, 
2008 memo.

    26. Senator McCain. Mr. Donley, when the investigation is complete, 
will you promptly provide to this committee the findings and who is 
accountable for the lobbying efforts within the Air Force to undermine 
this BRAC joint basing recommendation?
    Mr. Donley. I am aware of this issue and will provide a response to 
the committee shortly, as committed to in Secretary England's May 28, 
2008 memo.

                              JOINT BASING

    27. Senator McCain. Mr. Donley, as one of the prime sponsors of the 
BRAC process, I am very concerned about the negative precedent 
established by a legislative provision to allow a Service Secretary to 
interfere with the implementation of a BRAC recommendation. I noticed 
from your answers to the advance policy questions that you did not 
specifically reply whether, in your view, the joint basing BRAC 
decision will result in significant cost savings. This is important 
because current law, absent any future actions by Congress, requires 
you to certify this fact to Congress before the Secretary of Defense 
can carry out the BRAC decision. In your opinion, will the BRAC 
decision that directs the establishment of 12 joint bases result 
specifically in significant cost savings?
    Mr. Donley. I believe joint basing will likely result in greater 
efficiencies in installation management and can be carried out in a 
manner that will not adversely impact the Air Force. I have not yet 
seen DOD's specific cost analyses associated with the Joint Basing 
initiatives, but it is my experience that similar initiatives in the 
past have provided savings over time.

    28. Senator McCain. Mr. Donley, in your opinion, will the 
establishment of joint bases not negatively impact the morale of 
members of the Air Force?
    Mr. Donley. The Air Force remains committed to ensuring that all 
bases, joint or otherwise, maintain their capability to perform their 
missions and provide the highest standards for all warfighters and 
their families. We want joint bases to be so efficient and effective 
that an assignment to a joint base would be a highlight for every 
servicemember.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

           JOINT SURVEILLANCE AND TARGET ATTACK RADAR SYSTEM

    29. Senator Chambliss. Mr. Donley, Congress appropriated $16 
million in the Fiscal Year 2008 Defense Appropriations Act (H.R. 3222) 
to demonstrate the Senior Year Electro-optical Reconnaissance System 
(SYERS) electro-optical sensor on the E-8 JSTARS in support of the 
requirement for a combat identification capability on JSTARS, to reduce 
the sensor-to-shooter timeline. I understand the Air Force has issued 
an urgent operational need for a stand-alone combat identification 
capability on E-8C JSTARS. In light of the Secretary of Defense's call 
for more intelligence, reconnaissance, and surveillance capabilities to 
support the warfighter, what are the Air Force's plans for 
expeditiously executing this demonstration program so that the E-8C 
JSTARS platform can more effectively and efficiently prosecute targets 
of interest in the war in Iraq and Afghanistan?
    Mr. Donley. The JSTARS program office has researched how the $16.0 
million SYERS congressional add could best be utilized. The program 
office concluded the most reasonable approach is to conduct a 
feasibility study to determine how to install and employ SYERS on 
JSTARS without hindering other systems and to accurately estimate the 
costs associated with the effort. The JSTARS program office awarded the 
contract on July 11, 2008, to initiate the feasibility study. The study 
is expected to take approximately 4 months.

    30. Senator Chambliss. Mr. Donley, the current TF-33-102C engines 
on the JSTARS do not satisfy desired safety margins or meet operational 
needs, and also limit JSTARS' operational parameters. I am pleased that 
the Air Force has contracted for the first two ship sets to re-engine 
the JSTARS aircraft. Re-engining the JSTARS fleet will increase mission 
efficiency as well as significantly reduce maintenance and fuel costs. 
Given the expected savings and increased capability that new engines 
will provide to this critical high demand asset, can you provide your 
assurance of the Air Force's commitment to fully re-engine the JSTARS 
fleet?
    Mr. Donley. The JSTARS program office awarded an Undefinitized 
Contract Action for the first two ship sets in May 2008, with 
deliveries scheduled for November-December 2010. The fiscal year 2009 
Presidents' budget funds retrofit of 10 aircraft out of 17. Funding for 
the remaining seven operational aircraft remains an Air Force Priority 
and is being considered in the fiscal year 2010 POM process within the 
DOD.
                                 ______
                                 
    Questions Submitted by Senator Max Baucus and Senator Jon Tester

                       UNIT/INVENTORY RETIREMENTS

    31. Senator Baucus and Senator Tester. Mr. Donley, the Air Force's 
General Counsel has determined that the Air Force may retire an 
aircraft squadron as soon as a BRAC direction to establish a squadron 
is achieved. Under the General Counsel's definition, the term 
``establish'' includes the assignment of personnel and construction of 
military construction (MILCON) necessary for the unit's operation. Do 
you believe it is an efficient use of taxpayer dollars to retire a 
squadron when the Air Force has spent scarce funds to assign personnel 
and conduct MILCON activities for that squadron?
    Mr. Donley. The situation you describe results from BRAC decisions 
that directed changes to the Air Force's force structure plan. Changing 
mission requirements and follow-on analyses have identified additional 
options to consolidate aircraft by type and location to maximize combat 
capability and achieve efficiencies in our operations. If confirmed, we 
will review those mission assignments directed by the 2005 BRAC 
legislation, and subsequent POM and budgetary decisions to assure we 
are making the very best use of taxpayer resources.

    32. Senator Baucus and Senator Tester. Mr. Donley, understanding 
the need for the Air Force to retain discretion to move or retire units 
as needed to organize, train and equip, do you believe that it is 
consistent with the spirit and intent of BRAC law to move or retire Air 
Force units within a year or 2 of their BRAC-required establishment?
    Mr. Donley. The Air Force is committed to complying with the BRAC 
law. I have not yet had time to review this area, but I will look into 
it in the near future to ensure that any potential adjustments due to 
evolving mission requirements or economic factors are thoroughly 
reviewed and discussed with Congress prior to taking action.

    33. Senator Baucus and Senator Tester. Mr. Donley, please describe 
your understanding of the Air Force's plans to reduce the F-15 aircraft 
inventory. What in your view is the strategic and operational risk 
associated with this reduction in the near- and mid-term as well as the 
potential impact on pilot readiness, especially in the Air National 
Guard. Is this risk acceptable? At what level is it unacceptable? A 
classified reply is acceptable for the questions relating to risk 
level.
    Mr. Donley. The Air Force's long-range plan is to ramp down the F-
15 force to 177 aircraft and base them with Total Force Integration 
(TFI) units. The impact to risk and readiness with respect to a 
reduction in force structure is being evaluated. However, based on 
proposed F-15 force structure and the TFI construct, preliminary 
analysis shows there will be no impact to pilot readiness and risks are 
acceptable.

    34. Senator Baucus and Senator Tester. Mr. Donley, if confirmed, 
will you rapidly re-examine all scenarios under consideration by the 
Air Force for inclusion in the fiscal year 2010 POM that proposes to 
move or retire aircraft and units that were established by the 2005 
law? Will you share with Congress your assessment, including analysis 
of costs or savings associated with these moves or retirements?
    Mr. Donley. If confirmed, we intend to perform a thorough review of 
the Air Force's fiscal year 2010 POM submission to ensure compliance 
with BRAC implementation. We will identify in our fiscal year 2010 
budget submission any BRAC implementation issues that may arise, and 
will discuss these issues with Congress as appropriate.
                                 ______
                                 
    [The nomination reference of Michael B. Donley follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 25, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael Bruce Donley, of Virginia, to be Secretary of the Air 
Force, vice Michael W. Wynne, resigned.
                                 ______
                                 
    [The biographical sketch of Michael B. Donley, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Michael B. Donley
    Michael B. Donley is the Acting Secretary of the Air Force, 
Washington, DC. He was designated by the President to perform the 
duties of this position, effective June 21, 2008. His formal nomination 
to be Secretary is pending in the U.S. Senate. He is responsible for 
the affairs of the Department of the Air Force, including the 
organizing, training, equipping, and providing for the welfare of its 
over 300,000 men and women on Active Duty, 180,000 members of the Air 
National Guard and the Air Force Reserve, 160,000 civilians, and their 
families. He also oversees the Air Force's annual budget of 
approximately $110 billion.
    Mr. Donley has 30 years of experience in the national security 
community, including service in the Senate, the White House, and the 
Pentagon.
    Prior to assuming his current position, Mr. Donley served as the 
Director of Administration and Management in the Office of the 
Secretary of Defense. He oversaw organizational and management planning 
for the Department of Defense (DOD) and all administration, facility, 
information technology, and security matters for the Pentagon.
    From 1996 to 2005, Mr. Donley was a Senior Vice President at Hicks 
and Associates, Inc., a subsidiary of Science Applications 
International Corporation, and a consultant to DOD and the State 
Department on national security matters.
    From 1993 to 1996, Mr. Donley was Senior Fellow at the Institute 
for Defense Analyses. During this period he was a Senior Consultant to 
the Commission on Roles and Missions of the Armed Forces and 
participated in two studies on the organization of the Joint Staff and 
the Office of the Chairman, Joint Chiefs of Staff.
    Prior to this position, he served as the Acting Secretary of the 
Air Force for 7 months, and from 1989 to 1993 he served as the 
Assistant Secretary of the Air Force (Financial Management and 
Comptroller).
    Mr. Donley supported two Presidents and five National Security 
Advisors during his service at the National Security Council (NSC) from 
1984 to 1989. As Deputy Executive Secretary he oversaw the White House 
Situation Room and chaired interagency committees on crisis management 
procedures and continuity of government. Earlier, as Director of 
Defense Programs, Mr. Donley was the NSC representative to the Defense 
Resources Board, and coordinated the President's quarterly meetings 
with the Joint Chiefs of Staff. He conceived and organized the 
President's Blue Ribbon Commission on Defense Management (the Packard 
Commission), coordinated White House policy on the Goldwater-Nichols 
DOD Reorganization Act of 1986, and wrote the National Security 
Strategy for President Reagan's second term.
    He was also a professional staff member on the Senate Armed 
Services Committee (1981-1984).
    Mr. Donley served in the United States Army from 1972 to 1975 with 
the XVIII Airborne Corps and 5th Special Forces Group (Airborne), 
attending the Army's Intelligence and Airborne Schools and the Defense 
Language Institute.
    Mr. Donley earned both Bachelor of Arts and Master of Arts degrees 
in international relations from the University of Southern California. 
He also attended the Senior Executives in National Security Program at 
Harvard University.
                                 ______
                                 
             Resume of Career Service of Michael B. Donley
Education:
    1972 U.S. Army Intelligence School, Fort Huachuca, AZ.
    1973 Defense Language Institute, Monterey, CA.
    1974 U.S. Army Airborne School, Fort Benning, GA.
    1977 Bachelor of Arts degree in international relations, University 
of Southern California, Los Angeles, CA.
    1978 Master of Arts degree in international relations, University 
of Southern California, Los Angeles, CA.
    1986 Senior Executives in National Security Program, JFK School of 
Government, Harvard University, Cambridge, MA.

Career chronology:
    1972-1975, U.S. Army, XVIII Airborne Corps and 5th Special Forces 
Group (Airborne), Fort Bragg, NC.
    1978-1979, Editor, National Security Record, Heritage Foundation, 
Washington DC.
    1979-1981, Legislative Assistant, U.S. Senate, Washington DC.
    1981-1984, Professional Staff Member, Senate Armed Services 
Committee, Washington DC.
    1984-1987, Director of Defense Programs, National Security Council, 
the White House, Washington DC.
    1987-1989, Deputy Executive Secretary, National Security Council, 
the White House, Washington DC.
    1989-1993, Assistant Secretary of the Air Force (Financial 
Management & Comptroller), Washington DC.
    1993, Acting Secretary of the Air Force, Pentagon, Washington DC.
    1993-1996, Senior Fellow at the Institute for Defense Analyses, 
Alexandria, VA.
    1996-2005, Senior Vice President at Hicks and Associates, Inc., a 
subsidiary of Science Applications International Corporation, McLean, 
VA.
    2005-2008, Director of Administration and Management, Office of the 
Secretary of Defense, Washington DC.
    2008-present, Acting Secretary of the Air Force, Pentagon, 
Washington DC.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael B. 
Donley in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Bruce Donley.

    2. Position to which nominated:
    Secretary of the Air Force.

    3. Date of nomination:
    June 25, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 4, 1952; Hamilton Air Force Base, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Gail Louise Ellestad Donley.

    7. Names and ages of children:
    Katherine Marie Donley, age 28.
    Cameron Rice Donley, age 26.
    Jacqueline Suzanne Donley, age 25.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Georgetown University--PhD Coursework--09/02-06/03
    University of Southern California--Master of Arts--06/77-06/78
    University of Southern California--Bachelor of Arts--09/75-06/77

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    05/05-Present, Director, Administration and Management, Office of 
the Secretary of Defense, Pentagon, Robert M. Gates.
    04/96-05/05, Senior Vice President, Hicks & Associates, Inc., SAIC, 
McLean, VA, Richard Mies.
    09/93-03/96, Senior Fellow, Institute for Defense Analyses, 
Alexandria, VA, Larry D. Welch.
    11/89-09/93, Assistant Secretary of the Air Force, Department of 
the Air Force, Pentagon, Donald B. Rice.
    01/88-11/89, Deputy Executive Secretary, National Security Council, 
White House, G. Phillip Hughes.
    06/84-01/88, Director, Defense Programs, National Security Council, 
White House, Robert Linhard.
    01/81-06/84, Professional Staff Member, Committee on Armed 
Services, U.S. Senate, Rhett B. Dawson.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1995--Senior Consultant, Commission on Roles and Missions of the 
Armed Forces.
    1996--Advisor, Secretary of Defense Task Force on Defense Reform.
    2003-2004--Special Advisor, Defense Reform Commission, Bosnia-
Herzegovina.
    2005--Co-Chair, Interagency Panel, Defense Science Board Summer 
Study on Transformation.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Elder, Westminster Presbyterian Church, Alexandria, VA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Air Force Decoration for Exceptional Civilian Service (1993)
    Army Commendation Medal (1975)
    National Defense Service Ribbon

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael B. Donley.
    This 26th day of June, 2008.

    [The nomination of Michael B. Donley was reported to the 
Senate by Chairman Levin on September 26, 2008, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 2, 2008.]
                              ----------                              

    [Prepared questions submitted to Gen. Norton A. Schwartz, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. In my prior assignments I have had ample opportunities to 
observe the implementation and impact of Goldwater-Nichols and the 
Special Operations reforms on all Services, including the Air Force. I 
completely agree with the goals of those defense reforms; they remain 
essential to the effective employment of our Nation's military forces. 
Most importantly, these reforms have yielded a demonstrated improvement 
in the joint warfighting capabilities of the United States Armed 
Forces. I have no specific modifications that I would recommend based 
on my prior assignments. However, if confirmed as the Chief of Staff, I 
will work closely with the Secretary of Defense, the Secretary of the 
Air Force, and other senior leaders of our Nation's military forces, as 
well as Congress, to continually review Goldwater-Nichols and implement 
any changes that may be needed.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. At this time I have no suggested modifications to the 
Goldwater-Nichols legislation. However, if confirmed, I look forward to 
the opportunities to further explore and assess Goldwater-Nichols from 
the vantage point of a Chief of Service.
    Question. Do you believe that the role of the service chiefs under 
the Goldwater-Nichols legislation is appropriate and the policies and 
processes in existence allow that role to be fulfilled?
    Answer. Over the two plus decades since the passage of Goldwater-
Nichols ``jointness'' has been institutionalized in the Armed Forces of 
the United States. Service chiefs have played a critical role in those 
efforts. Their roles and responsibilities are critical to further 
progress in integrating unified, interdependent action within the Armed 
Forces. Based upon my years of service, I believe that Goldwater-
Nichols appropriately establishes those roles and that policies and 
processes in existence allow the fulfillment of them. However, if 
confirmed, I look forward to the opportunities to further explore and 
assess Goldwater-Nichols from the vantage point of Chief of Service and 
would welcome the opportunity to share my thoughts and ideas with the 
committee as appropriate.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. At this time I have no suggested modifications to roles of 
the service chiefs in the resource allocation process. While there may 
be areas that could benefit from legislative or policy changes (funding 
for the Unified Commands, for example), I would like to reserve 
judgment until after I have further studied the resource allocation 
process, as it has been more than 10 years since I personally 
participated in those Air Force processes. If confirmed, I would 
welcome the opportunity to share my thoughts and ideas with the 
committee as appropriate.

                             RELATIONSHIPS

    Question. Section 8033 of title 10, U.S.C., discusses the 
responsibilities and authority of the Chief of Staff of the Air Force. 
Section 151 of title 10, U.S.C., discusses the composition and 
functions of the Joint Chiefs of Staff, including the authority of the 
Chief of Staff of the Air Force, as a member of the Joint Chiefs of 
Staff, to submit advice and opinions to the President, the National 
Security Council, or the Secretary of Defense. Other sections of law 
and traditional practice, also establish important relationships 
outside the chain of command. Please describe your understanding of the 
relationship of the Chief of Staff of the Air Force to the following 
officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense serves as the principal assistant 
to the President on all Department of Defense matters. Senior Air Force 
leadership operates subject to the authority, direction, and control of 
the Secretary of Defense. If confirmed as a Service Chief and member of 
the Joint Chiefs of Staff, I will work closely with the other members 
of the Joint Chiefs to provide the best possible military advice to the 
Secretary of Defense, particularly with regard to matters of air and 
space operations, policy, and strategy.
    Question. The Secretary of the Air Force.
    Answer. The Chief of Staff of the Air Force is directly responsible 
to the Secretary of the Air Force and performs duties subject to his 
authority, direction, and control. For the Secretary of the Air Force, 
the Chief of Staff is responsible for providing properly organized, 
trained, and equipped forces to support the combatant commanders in 
their mission accomplishment. The Chief of Staff oversees members and 
organizations across the Air Force advising the Secretary on plans and 
recommendations, and, acting as an agent of the Secretary, implements 
upon approval. If confirmed as the Chief of Staff of the Air Force, I 
will work very closely with the Secretary to ensure our ability to 
rapidly provide forces tailored to meet the needs and objectives of our 
combatant commanders.
    Question. The Under Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force is authorized, subject 
to the Secretary of the Air Force's direction and control, to act for 
and with the authority of the Secretary of the Air Force on all matters 
for which the Secretary is responsible; that is to conduct the affairs 
of the Department of the Air Force. In addition, the Under Secretary of 
the Air Force has duties and responsibilities as the Department of 
Defense Executive Agent for Space. If confirmed, I would foster a close 
working relationship with the individual serving as the Under Secretary 
when one is appointed.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work with and through 
the Chairman in formulating military advice as a member of the Joint 
Chiefs of Staff by advising him on Air Force capabilities and our 
preparations to support the combatant commanders in the conduct of 
military operations. I look forward to performing the duties assigned 
to the Chief of Staff by law to provide properly organized, trained, 
and equipped forces as needed by the combatant commanders and to 
providing military advice on matters within my expertise, as required.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory authorities and 
obligations of other members of the Joint Chiefs of Staff. When 
performing duties as the Acting Chairman, the Vice Chairman's 
relationship with the combatant commanders is exactly the same as that 
of the Chairman. If confirmed, I will assist the Vice Chairman to 
execute the duties prescribed by law or otherwise directed by Secretary 
of Defense or the Chairman of the Joint Chiefs of Staff.
    Question. The Chiefs of the other Services.
    Answer. A whole host of factors underscore the importance of close 
cooperation among the Services in order to ensure the preparation, 
equipping and availability of the military forces our Nation needs, 
perhaps more so now than at any other time. If confirmed, I will work 
closely with the Chiefs of the other Services to capitalize on our 
individual strengths, complement our capabilities and enhance mutually 
beneficial relationships as we carry out our responsibilities as 
members of the Joint Chiefs of Staff. I know each of them well. My goal 
will be to work with each of them to enhance joint interoperability and 
other joint warfighting capabilities in order to provide the force mix 
desired by the combatant commanders.
    Question. The Commander, U.S. Transportation Command.
    Answer. I am keenly aware of the importance of a strong close 
working relationship between the Transportation Command (TRANSCOM) and 
the Air Force, its primary source of airlift. The Air Force remains a 
key contributor to TRANSCOM's success in meeting national military 
requirements. If confirmed, I will work to further enhance the Air 
Force's support to the Commander of TRANSCOM.
    Question. The Commander, U.S. Strategic Command.
    Answer. A very close working relationship with the U.S. Strategic 
Command (STRATCOM) commander will be essential to identifying and 
implementing effective and enduring solutions to any issues that remain 
regarding the Air Force's role and ability to support our Nation's 
nuclear deterrent capabilities. If confirmed, I will ensure that the 
STRATCOM commander is constantly apprised on the readiness of Air Force 
air and space forces required to support STRATCOM's missions, and will 
strive, in particular, to collaborate on Service efforts to maintain 
the highest standards of performance in the nuclear and Intelligence, 
Surveillance, and Reconnaissance (ISR) mission areas.
    Question. The other combatant commanders.
    Answer. If confirmed as the Chief of Staff, I will work with the 
Secretary of the Air Force to ensure that the Air Force is properly 
organized, trained, and equipped to provide the capabilities the 
combatant commanders need to execute their missions. This goal can be 
achieved through forthright and direct dialogue with the combatant 
commanders which I will undertake.
    Question. The Assistant Secretary of the Air Force for Acquisition.
    Answer. The Assistant Secretary of the Air Force for Acquisition 
serves as the Air Force's Senior Acquisition Executive. If confirmed, I 
would work closely with the Secretary of the Air Force and Assistant 
Secretary on matters affecting the acquisition of the resources needed 
to train and equip of Air Force, and strive to ensure military 
expertise is readily available in accomplishing his or her 
responsibilities.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel is the chief legal officer and chief 
ethics official of the Department of the Air Force and serves as the 
senior legal advisor to Air Force leaders. She is responsible, on 
behalf of the Secretary of the Air Force, for the effective and 
efficient provision of legal services in the Air Force. If confirmed, I 
would look forward to developing an excellent working relationship with 
the General Counsel.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG), per 10 U.S.C. Sec. 8037, 
is the legal advisor of the Secretary of the Air Force and of all 
officers and agencies of the Department of the Air Force and I would 
use him as such. He is also responsible for directing judge advocates 
in the performance of their duties. If confirmed I will endeavor to 
maintain the close and important working relationship the Chief of 
Staff has historically enjoyed with the Judge Advocate General.
    Question. The Superintendent of the U.S. Air Force Academy.
    Answer. I have a strong affinity for the United States Air Force 
Academy. It remains a key source of and venue for the development of 
tomorrow's leaders of the Air Force. If confirmed, I will work closely 
with the Superintendent to address issues faced by the Academy and to 
promote the Academy's sustained commitment to excellence and 
fulfillment of its very important character building mission.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Chief of Staff of the Air Force?
    Answer. The Chief of Staff of the Air Force fulfills a number of 
duties and functions. As a member of the Joint Chiefs of Staff, he or 
she serves as a military advisor to the President, the National 
Security Council, and the Secretary of Defense. The Chief of Staff is 
also subject to the authority, direction and control of the Secretary 
of the Air Force, providing plans and recommendations to the Secretary, 
implementing policy, overseeing the Air Staff and other members and 
organizations of the Air Force. He is a principal advisor to the 
Secretary. Working for and through the Secretary of the Air Force, the 
Chief of Staff is responsible for providing properly organized, 
trained, and equipped forces to support the combatant commanders' 
accomplishment of their missions.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed as the Chief of Staff of the Air Force, I 
would expect the Secretary of the Air Force to assign me duties 
consistent with the responsibilities outlined above to ensure that the 
Air Force is appropriately organized, trained, and equipped to meet its 
institutional obligations and force provider responsibilities.
    Question. What changes, if any, would you recommend to section 8034 
of title 10, U.S.C., relating to the Air Staff and its composition and 
functions?
    Answer. Based on my military service and experience to date, I do 
not believe changes are necessary to section 8032 of title 10, U.S.C., 
which outlines the general duties of the Air Staff. It has, however, 
been 10 years since my last service on the Air Staff. I would, 
therefore, like to reserve judgment until I have observed Air Staff 
performance, if confirmed.
    Question. What do you believe are your qualifications to assume 
this office?
    Answer. In the 35 years that I have been on Active Duty in the Air 
Force, I have served in a range of positions and have enjoyed a variety 
of opportunities and experiences which helped prepare me to serve as 
Chief of Staff, if I am confirmed. During that time I have been 
privileged to serve with and learn from a host of exceptional service 
men and women, including members of our sister Services and many in 
joint positions of trust.
    Prior to my current assignment I served in Joint Staff positions 
that involved direct and frequent contact with the Secretary of 
Defense, Chairman of the Joint Chiefs of Staff, combatant commanders, 
and other Service Chiefs on an array of major issues confronting our 
Nation and our military.
    As the TRANSCOM commander, I have been on the ``receiving'' end of 
the efforts of Air Force leaders to organize, train and equip the great 
men and women of the Air Force. In addition, this position gave me a 
broad leadership perspective on the interaction of the Department of 
Defense, the combatant commands (COCOMs), and our Services in executing 
our National Military Strategy. These experiences and perspectives will 
be invaluable if I am confirmed to serve as Chief of Staff.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chief of Staff of the 
Air Force?
    Answer. If confirmed as the Chief of Staff I will need a complete 
understanding of the issues and challenges facing the Air Force. I will 
work closely with the Secretary of the Air Force to identify, assess, 
and address these challenges and to ensure the readiness and relevance 
of our Air Force and the safety and well-being of our people. I will 
strive every hour of every day to ensure I am prepared to help lead the 
military service to which I have dedicated my life's work.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Chief of Staff of the Air Force?
    Answer. The next Chief of Staff must restore the national trust and 
confidence in the U.S. Air Force to organize, train, and equip forces 
proficient across the spectrum of peacetime and wartime missions. In 
order to accomplish this, we must reinvigorate our nuclear enterprise, 
refine and adapt our ways and means for winning today's irregular 
fight, take good care of airmen and their families, and prepare our 
organizations, training, and equipment for an uncertain future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will immediately focus on implementing 
recommendations of the various reports and studies on the Air Force 
nuclear enterprise. I will ensure that we take proper action with 
respect to the findings detailed in the Donald Report, the Welch 
report, the Blue Ribbon Review, and the forthcoming Schlesinger report. 
Additionally, the other major challenges we face in the Air Force are 
similar to the ones facing the other Services: managing the competing 
imperatives of current readiness versus longer term modernization, 
instituting continuous process improvements and caring for people. If 
confirmed, I expect to be heavily engaged with the Office of the 
Secretary of Defense (OSD), the Services, combatant commanders, and 
Congress to address these challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Air 
Force?
    Answer. The most serious problem facing our Service is the 
restoration of trust and confidence in the U.S. Air Force. To do this 
we must work with our joint and coalition partners to fight and win 
today's irregular conflict while maintaining excellence across the 
spectrum of peacetime and wartime operations, especially our nuclear 
and ISR forces, and in our acquisition functions. The Air Force remains 
committed to providing Global Vigilance, Reach, and Power for and with 
our joint partners.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. We face immediate challenges today, and there are 
significant challenges ahead. If confirmed, I will prioritize and focus 
on these concerns and develop solutions for the nuclear enterprise, ISR 
and acquisition in the near term, others to follow.

                               PRIORITIES

    Question. If confirmed, what broad priorities will you establish?
    Answer. My priorities are: (1) reinvigorating the Air Force nuclear 
enterprise, (2) partnering with the joint and coalition team to win 
today's fight, (3) developing and caring for our airmen, and (4) 
modernizing our organizations, training and equipment for 21st century 
challenges. If confirmed, my emphasis will be on providing Total Force 
Global Vigilance, Reach, and Power for the joint team.

                          HEALTH BENEFIT COSTS

    Question. The cost of the Defense Health Program, like the cost of 
medical care nation-wide, is escalating rapidly.
    If confirmed, how would you approach the issue of rising personnel 
costs, including health care costs, as a component of the annual Air 
Force budget?
    Answer. Over the past 10 years, my sense is we have worked 
diligently to streamline our medical infrastructure and take advantage 
of advancements in the field of medicine. This has resulted in 
rightsizing many of our facilities without compromising the care we 
provide our airmen and their families. It hasn't been pain free, but in 
my own experience at Scott AFB, it is working. We currently are 
leveraging strategic partnerships with civilian trauma centers, 
university medical centers, the VA, and other DOD facilities such as 
Landstuhl to provide the broadest range of clinical opportunities for 
our entire medical team. I understand we have maintained our ability to 
support the Air Force mission, broadened the scope of practice for our 
health care professionals, and ensured our beneficiaries received the 
highest quality care. Our medical coverage at Balad and Bagram on 
behalf of the joint team reflects the quality and conviction of our 
medical professionals.
    One of our top priorities is to take care of our airmen and their 
families. As a retention force, quality of health care is of critical 
concern to our airmen and any degradation of benefits or service will 
hurt our recruiting and retention. I fully expect to properly budget 
for all appropriate personnel pay and health care costs in our PB 
submission.

                               LEADERSHIP

    Question. The resignation of the Secretary of the Air Force and the 
retirement of the Chief of Staff of the Air Force resulted from a 
failure of leadership related to nuclear safety. There have also been a 
number of other problems relating to administrative, acquisition and 
operational matters that point to a failure of leadership and lack of 
accountability.
    If confirmed, what plans do you have to restore confidence in the 
uniformed leadership of the Air Force to deal with these problems?
    Answer. Air Force core values--Integrity First, Service before 
Self, and Excellence in All We Do--will see us through this critical 
transition as we recommit ourselves to the sacred trust of this great 
Nation. If confirmed, I will follow these core values and hold myself 
and our airmen accountable as we restore our Nation's confidence. I 
will expect Air Force leaders to embrace and enforce accountability, 
especially in the focus areas of our nuclear enterprise, winning 
today's fight, and Air Force acquisition programs. We will match our 
words with our actions. In doing so, we will achieve our priorities as 
well as reclaim and uphold the reputation which has sustained our Air 
Force through the years.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Question. The airborne ISR assets developed and operated by the Air 
Force form an indispensable part of the Nation's overall intelligence 
architecture. These assets are often referred to as high demand, low 
density systems because of the extensive number of requirements and 
high operational tempo on their systems and crews.
    In your view, does the Air Force have sufficient airborne ISR 
assets to meet current and projected requirements?
    Answer. The Air Force is striving to meet current ISR demand by 
rapidly increasing actual numbers of ISR platforms, integrating 
nontraditional ISR means, and establishing mechanisms to improve 
analysis, processing, targeting, and systems to expand ISR 
dissemination. For example, I understand the Air Force is currently 
increasing combat air patrols (CAPs) of our unmanned airborne systems 
(UAS). Our JROC-approved UAS requirement is 21 CAPs, and we are already 
flying 26 today to meet the additional needs of the combatant 
commanders. We are further increasing CAPs to 31 by December 2008. 
Continued production will increase the density of these assets but 
demand will continue to be high. We will find ways to satisfy this 
demand both in capability terms and, importantly, execute the function 
in a manner that meets supported commander expectations.
    Question. What changes would you recommend, if confirmed, to 
current plans for the development and acquisition of airborne ISR 
platforms? Will these changes remove ISR platforms from the ``high-
demand/low-density'' category?
    Answer. I believe we need to move away from the notion of discrete 
ISR operations in separate domains and focus on integration of ISR 
capabilities to meet current and future ISR demand. This includes 
integrating nontraditional ISR capabilities such as targeting pods and 
sensors on fighters, new UAVs, exploring the potential of airships with 
sensors, and then merging the ISR from all sources in networks that can 
be accessed by any warrior.
    Question. Secretary Gates has publicly complained that the Air 
Force has not put sufficiently high priority on fielding unmanned 
aerial vehicle (UAV) to provide ISR support for the forces operating in 
Iraq and Afghanistan.
    If confirmed, what steps would you take to ensure that the Air 
Force answers Secretary Gates' concerns and provides greater priority 
to providing ISR support of field operations?
    Answer. I would ensure that our Air Force ISR experts continue to 
work closely with the supported commanders and the recently-established 
OSD ISR Task Force. By increasing the number of MQ-9 vehicles, pursuing 
the ``Liberty Ship'' construct for acquisition of more ``light'' manned 
ISR aircraft, and accelerating the development of the Wide Area 
Airborne Surveillance sensor system, the Air Force is working very hard 
to get more ISR capability to the combatant commanders in support of 
ongoing operations. If confirmed, this will have my personal attention 
from day one.
    Question. The Air Force has indicated that the limiting factor in 
accelerating the fielding of UAV assets to provide ISR support for 
field operations has been the availability of trained operators, who, 
under current Air Force policy, must be rated pilots.
    If confirmed, will you review the necessity for requiring rated 
pilots for the operation of ISR assets?
    Answer. I'll need time to assess the arguments. With respect to who 
flies UAS, the Air Force has both non-rated enlisted operators as well 
as rated officer pilots accomplishing that function. The level of 
responsibility involved and the flight regime of the UAS system 
influences the appropriate level of qualification required. For 
instance, UAS that operate at the local level, versus theater level, 
are operated by both USAF and U.S. Army non-rated personnel.
    Multi-mission, weapons delivery capable UAS such as MQ-1 Predator 
and MQ-9 Reaper, are part of a complex kill chain. To complete that 
kill chain often involves real-time command and control of lethal 
assets, and time-sensitive decision making for the delivery of ordnance 
in closely packed, dense environs, where the enemy is purposely hiding 
or shielding his whereabouts, and where collateral damage assessments, 
weaponeering calculations, and sensitive intelligence are necessary for 
making a targeting decision. Qualified rated pilots generally have the 
training and experience that is crucial to the success of this effort. 
Finally, the Air Force operates high and medium altitude UAS in and 
through positive-control airspace--by FAA and ICAO rules--that 
currently requires an instrument-qualified pilot. It may well be that a 
blend of rated and non-rated operators makes the most sense. If 
confirmed, I will come to a conclusion on this issue quickly.

              TRICARE FEE INCREASES FOR MILITARY RETIREES

    Question. In its fiscal year 2009 budget request, the Department of 
Defense assumed $1.2 billion in cost savings based on implementing 
increases in TRICARE costs for certain beneficiaries, including higher 
enrollment fees for military retirees and their families.
    What is your understanding of the Department's proposals for 
changes in TRICARE fees for retired airmen, and, if they are 
implemented, what do you see as the likely impact of these changes on 
the Department of the Air Force?
    Answer. I am told the Air Force supports the findings and 
recommendations of the Task Force on the Future of Military Health Care 
and will continue to work with our counterparts to find responsible, 
equitable adjustments to TRICARE fees that maintain commitments 
previously made to our retirees.
    Question. What is your personal view of the justification for 
increases in TRICARE enrollment fees for retirees, and are there 
alternatives to such increases you would recommend if confirmed?
    Answer. As health care costs continue to rise we anticipate 
increasing pressure on other vital programs if we cannot control costs. 
I am not an expert in this discipline but, if confirmed, will quickly 
avail myself of information related to alternative means to assure 
availability of services at affordable cost.

               INDEPENDENCE OF THE JUDGE ADVOCATE GENERAL

    Question. What are your views about the responsibility of the Judge 
Advocate General of the Air Force to provide independent legal advice 
to the Chief of Staff and the Air Staff, particularly in the areas of 
military justice and operational law?
    Answer. I believe it is critical that the CSAF receive independent 
legal advice from his senior uniformed judge advocates. Our senior 
uniformed lawyers bring a wealth of experience and perspective shaped 
by years of working with commanders in the field. Pursuant to 10 U.S.C. 
Sec. Sec. 8031 and 8037, the Judge Advocate General is the legal 
advisor of the Secretary of the Air Force and of all officers and 
agencies of the Department of the Air Force. TJAG also responds to CSAF 
direction and directs and supervises the Judge Advocate General's Corps 
in providing legal advice and related services to commanders, agencies, 
and people Air Force-wide. TJAG's ability to provide independent legal 
advice is not only statutorily guaranteed, it is important to Air Force 
senior leader decision making. Senior leaders are better equipped to 
make the best decisions when they are aware of both judge advocate 
advice and the advice from the Office of the General Counsel.
    Question. What are your views about the responsibility of Staff 
Judge Advocates (SJAs) throughout the Air Force to provide independent 
legal advice to military commanders in the field and throughout the Air 
Force establishment?
    Answer. SJAs are essential to the proper functioning of both 
operational and support missions. SJAs have a major responsibility to 
promote the interests of a command by providing relevant, timely, and 
independent advice to commanders, and this independence is reflected in 
statute (10 U.S.C. Sec. 8037(f)(2). Commanders are required by statute 
(10 U.S.C. Sec. 806) to communicate with their SJAs on issues related 
to military justice matters, which is critical to disciplined mission 
execution. In addition, commanders and other leaders rely on their 
staff judge advocates for advice on all types of legal and policy 
matters. SJAs understand the rhythm; they understand the commander's 
thought process; they know what his or her priorities are; and they 
understand what is happening in the field. They can offer advice and 
are somewhat independent of other policy concerns that might apply, so 
there is no preemption of the thought process. I think that it is very 
important, that commanders continue to receive uniformed legal advice.

                 AIR FORCE FUTURE TOTAL FORCE PLANNING

    Question. What do you consider to be the most significant barriers 
to effective integration of Air Force Reserve and Active component 
personnel and units?
    Answer. The Air Force has always operated as a Total Force, 
operating seamlessly in peacetime as well as war. In fact, the highly 
successful Classic Associate model has been in use for almost 40 years 
and is the baseline as we continue to optimize what each component 
brings to the fight.
    Legally, title 10 and title 32 of United States Code have presented 
some of the more difficult challenges to the Total Force mission. The 
National Defense Authorization Act for Fiscal Year 2007 has helped 
knock down many of the barriers between title 10 Federal and title 32 
State chains of command impeding successful integration. Continued 
discussion of legislative and policy changes are occurring and will 
need to continue to ensure that the Air Force is able to operate as a 
Total Force with the most effective use of resources.
    Question. What do you consider to be the most appropriate and 
achievable goal for integrating units of the Air National Guard into 
the operational missions, including homeland defense missions, of the 
U.S. Air Force?
    Answer. The Guard and Reserve continue to be full partners in Total 
Force Integration (TFI) and will be involved in all new missions as 
they come on line. In fact, Air National Guard airmen are flying the 
first operational F-22s as part of a classic associate unit at Langley 
AFB. They are also performing high tech emerging missions: operating 
Predators, flying satellites, and processing battlefield intelligence 
which is providing direct support to the joint warfighter. We are 
integrating our Guard and Reserve components into many new weapon 
systems as well as continuing to explore ways to better associate the 
components in our enduring missions, capitalizing on the tremendous 
experience levels resident in the Guard and Reserve. We are standing up 
a number of classic, active, and ARC associate units in a variety of 
missions, stationing inexperienced Active Duty members at Guard and 
Reserve locations to be trained by seasoned pilots and maintainers. Of 
current note, Air National Guard and Air Force Reserve airmen help 
protect the homeland through the aerial firefighting capability they 
provide in cooperation with the U.S. Forest Service. Every Air Force 
mission and platform can benefit from the experience and knowledge of 
our citizen airmen and the community connection they bring to the Air 
Force.
    Question. What role and mission do you expect the Air Force Reserve 
to perform now and in the future?
    Answer. In our Total Force Air Force we consider the Air National 
Guard and the Air Force Reserve to be equal partners and as such the 
previous answer applies to this question also.
    Question. How would you assess the progress being made in further 
integrating the Air Force Reserve into the operational mission of the 
Air Force?
    Answer. Integration of both the Air Force Reserve and the Air 
National Guard into operational missions continues to go very well. In 
fact, the first Associate unit was an Air Force Reserve unit back in 
1968. Over the past 4 years we have expanded from 6 to over 130 Total 
Force Initiatives and developed additional organizational constructs. 
The Air Force has formalized the Total Force Integration process 
through official policy, guidance and oversight. These efforts have 
accelerated the transformation to a smaller, more capable, and more 
affordable Air Force composed of Regular, Guard, and Reserve airmen 
that magnify the unique assets of each component.

                         AIR FORCE END STRENGTH

    Question. The Secretary of Defense recently announced he would halt 
the reduction in Air Force Active Duty end strength, and keep the 
Active Air Force at 330,000. For fiscal year 2008, Congress authorized 
an Active-Duty Air Force end strength of 329,563 and for fiscal year 
2009, the Department requested, and budgeted for, an Active-Duty end 
strength of 316,600.
    How does the Air Force plan to pay for the extra end strength?
    Answer. In the near-term, the Air Force is halting the previously 
planned drawdown. By stopping the drawdown in fiscal year 2008, force 
shaping initiatives, such as Voluntary Separation Pay, will not be 
needed in fiscal year 2009 as originally budgeted. The Air Force will 
apply those funds to cover costs associated with fiscal year 2009 
manpower increases. The long-term manpower increases supporting 
ongoing, new and emerging missions are being addressed in the fiscal 
year 2010 Program Objective Memorandum.
    Question. Does the Air Force plan to formally request Congress to 
authorize an Active-Duty Air Force end strength of 330,000 for fiscal 
year 2009, or does it plan to rely on its authority to suspend end 
strength limitations in time of war or national emergency?
    Answer. The Air Force included in its fiscal year 2009 Unfunded 
Priority List (UPL) to Congress a request for funding end strength at 
330,000 in fiscal year 2009. If funded, then Air Force expects to 
receive authorization, if not then the Air Force will exercise its 
authority to suspend end strength limitations in time of war and will 
readdress the program with the Department and Congress in the fiscal 
year 2010 cycle.
    Question. Are there any increases to the Air Force Reserve or Air 
Guard planned in addition to the increases in the Active component?
    Answer. Yes, there is a commensurate increase to Air Force Reserve 
end strength planned. We have worked extensively across our staffs to 
ensure we are adding back the correct mix of part-time and full-time 
reservists. I understand the Air Force Reserve proposes to increase end 
strength by 7,095 military personnel to a total of 74,795 by fiscal 
year 2015. This must be a total force solution as the Regular and 
Reserve components continue to associate over a wide variety of mission 
sets creating greater efficiencies for the total force.
    There are currently no plans to increase Air National Guard (ANG) 
end strength. As part of their planned reductions, the ANG elected to 
accept budget offsets versus manpower reductions. While this offered a 
temporary solution, the budgetary offsets could have impact on overall 
readiness and, therefore, require continuing management attention.
    Question. Air Force leaders said earlier this year that the 
reductions in end strength, even to 316,600, were not enough to allow 
the Air Force to realize its recapitalization goals.
    How does keeping Air Force Active end strength at 330,000 impact 
recapitalization?
    Answer. In 2006 we initiated a 40,000 reduction in Air Force end 
strength in order to fund recapitalization of our aging weapons 
systems. This action was partially successful, but based on loss of 
buying power and increases in personnel costs we have not been able to 
reach the needed levels of recapitalization to turn the corner on the 
increasing average age of our fleets. The Air Force was on a drawdown 
path to reach 316,000 by the end of fiscal year 2009. The drawdown halt 
will keep us at 330,000, but the content in people and skill sets 
between the targeted 316,000 and the 330,000 requires adjustment to 
meet current and new mission requirements. Some of these requirements 
are a result of additional TOA (fiscal year 2010-2015) provided to the 
AF for recapitalization. Other added manpower requirements include 
corrective actions associated with our nuclear enterprise.

                             TRANSFORMATION

    Question. If confirmed, you would play an important role in the 
process of transforming the Air Force to meet new and emerging threats.
    What do you believe should be the goals for Air Force 
transformation?
    Answer. I have two near-term goals. First, we must act quickly and 
rigorously to implement the improvements in training, procedures, 
schooling, and organization required by the Nuclear Task Force and the 
Secretary of Defense to restore the integrity and credibility of the 
Nuclear Enterprise. I expect to see rapid and substantial improvement 
in this area.
    Second, in light of the Secretary of Defense's views, as well as my 
own, we must assess and implement quickly the measures needed to 
improve our support to the joint warfighters in Iraq and Afghanistan. 
We have already done a good deal, as evidenced by our increased UAS 
assets and the further increases programmed to come on line within the 
fiscal year 2010 FYDP. But, we have to be aggressive in exploring every 
avenue to further improve and provide more support in the conflicts we 
are waging right now. It is my personal view that being adaptive now 
will serve us well as other adversaries and challenges emerge.

                 SEXUAL ASSAULT PREVENTION AND RESPONSE

    Question. The Department of the Air Force has implemented changes 
in policy and procedures aimed at preventing and responding 
appropriately to incidents of sexual assault.
    What is your view of the appropriate role for, and actions that 
should be taken by, senior military and civilian leaders in the 
Secretariat and the Air Force staff in overseeing the effectiveness of 
implementation of new policies relating to sexual assault?
    Answer. Senior Air Force leaders, including the Secretary of the 
Air Force and me, form the leadership team that must set the tone for 
the rest of the institution: sexual assault is criminal behavior that 
cannot and will not be tolerated. It is a personal tragedy to the 
victim, her or his family and friends, and it affects our mission 
readiness. This is a multifaceted problem that will continue to have 
involvement by key Secretariat and Air Staff leaders: the Assistant 
Secretary for Manpower and Reserve Affairs, the General Counsel, the 
SAF Inspector General, the Deputy Chief of Staff for Personnel, the 
Judge Advocate General, the Surgeon General and the Chief of Chaplains. 
In the Air Force, it is a commander-focused program. At each Wing, the 
Sexual Assault Response Coordinator reports to the Vice Wing Commander. 
If confirmed, I will ensure that, collectively, our senior leaders 
continue to promote our programs to ensure they are resourced and 
implemented effectively. In short, sexual assault is incompatible with 
our military mission.

                        UNIFIED MEDICAL COMMAND

    Question. The Department's 2005 Base Realignment and Closure 
recommendations include significant realignments in military medical 
capability and support the goal of achieving greater efficiency through 
joint organizational solutions. The proposed recommendations regarding 
Walter Reed National Military Medical Center, as well as other joint 
medical centers in Landstuhl, Germany, and San Antonio, TX, are based 
on the assumption that staffing in the future will be joint with 
personnel from all three military departments. While various studies 
have been done regarding the concept and feasibility of establishing a 
joint military medical command, very little progress has been made on 
implementing such a command.
    Do you consider a joint military medical command to be warranted 
and feasible?
    Answer. We take pride in being part of a joint team and building 
ever greater interoperability between the Services. Our Air Force 
medical personnel are a key part of the Joint Theater Trauma System in 
Operation Iraqi Freedom and Operation Enduring Freedom . . . the most 
effective trauma system in the history of military medicine. Air Force, 
Army, and Navy medics are working together to save the lives of 
soldiers, sailors, airmen, and marines at unprecedented rates in the 
face of the most severe wounding patterns in the history of warfare. At 
Landstuhl Regional Medical Center, Air Force and Navy medical personnel 
have been fully incorporated into one of our busiest military hospitals 
at home or abroad. We are fully supportive of joint medical 
capabilities and do not see a Joint or Unified Medical Command as 
necessary to accomplish what is already being done. Such a command 
would add overhead and incur additional costs with an uncertain return 
on that investment.
    Question. What functions, in your view, are unique to the Air Force 
and should remain within the Air Force management structure?
    Answer. The Air Force Medical Service is a key component of the Air 
Force's ability to meet title 10 responsibilities in assuring the 
health and well being of our airmen. Air Force medics work directly for 
their Line commanders in support of our Wing missions worldwide. Wing 
commanders are directly accountable to meet the mission and ensure the 
health of the force is preserved and sustained.
    Air Force medical capabilities presented to the combatant 
commanders in support of the joint warfight are key elements of the 
``enroute care system.'' This includes the resuscitative trauma care in 
our Air Force theater hospitals, the aeromedical staging capability and 
the air evacuation and critical care aeromedical transport teams. All 
medical forces both home station and deployed are essential to the Air 
Force's ability to prosecute our expeditionary mission in support of 
the AEF rotations and combatant commanders' tasks.
    Question. With or without a unified medical command, what steps 
would you take, if confirmed, to improve joint medical readiness 
requirements in support of contingency operations?
    Answer. We can take great pride in the work our Air Force, Army and 
Navy medics are doing at home and deployed, but there is always room to 
improve. Sharpening and refining joint doctrine is essential to 
improving the interoperability and interdependence of our medical 
forces. The enabling platforms such as logistics, information 
management, education/training and research and development offer 
significant opportunity to improve our joint and interoperable 
capabilities. I will continue to work with my Service counterparts and 
combatant commanders to ensure interoperability. Our Air Force medics 
will remain fully supportive of joint medical requirements, planning, 
and training and will continue to fill leadership roles within the 
joint community.

                       AIRCRAFT RECAPITALIZATION

    Question. At times, approximately one third of the current Air 
Force aircraft inventory has been under some type of flight 
restriction, mainly due to aging aircraft problems.
    If confirmed, what steps would you take to ensure that the Air 
Force recapitalizes its aircraft inventory and how would you prioritize 
the recapitalization effort?
    Answer. The Air Force would continue to analyze emerging threats 
affecting warfighters to determine what is needed to sustain the force, 
to modernize when necessary, and to recapitalize ensuring we can fight 
the future fight. Currently, the average age of Air Force's aircraft 
inventory is 24 years with some nearing 50 years. Our goal is reduce 
that average to 15 years by 2030. To maintain the current average 
requires the Air Force to acquire 165 aircraft per year, and, per the 
fiscal year 2009 President's budget, we will be able to acquire only 
115 aircraft per year. That will mean that the average age of Air 
Force's inventory will grow to 27 years by 2020. The Defense 
Department's revised fiscal guidance for the FYDP beginning in fiscal 
year 2010, authorized an approximately $5 billion boost for our 
recapitalization efforts, and that will certainly help.
    Our priority is to bring F-35s into the Air Force as swiftly as 
possible. The additional resources we have received will be used in 
part to increase the F-35s annual production rate. Of equal priority in 
the near term, we must replace our aging tankers promptly, consistent 
with Under Secretary Young's recent testimony. We will continue to 
modernize our space-based communications such as WGS, AEHF, and TSAT. 
Our ISR portfolio will continue to grow and mature. The Air Force will 
rapidly acquire increasingly unmanned ISR platforms to meet the growing 
demand of the combatant commanders.

                        AIR FORCE BUDGET REQUEST

    Question. In recent years, the Air Force budget request has not 
included funding requests for various aircraft, including C-17 and F-
22, but these items ranked high on the Air Force's UPLs. Some have 
suggested that the Air Force deliberately declined to include funding 
for such aircraft, relying instead on Congress to add funding for them.
    If confirmed, what actions would you take to ensure that the Air 
Force budget includes those items that you believe the Air Force needs?
    Answer. I would continue to work the delicate balance between the 
priorities of winning the global war on terrorism and preparing for 
tomorrow's fight. I am pleased, based on what I have read, with the 
direction of our fiscal year 2010 POM, particularly that we were able 
to bolster the nuclear enterprise, support the global war on terrorism, 
take good care of our people and make significant progress towards 
recapitalization of our aging fleet. The additional topline we are 
expecting will help greatly to meet our manpower and recapitalization 
goals. We will continue to work closely with OSD to pursue these goals. 
But, as a consistent practice, if we truly wish for a program to be 
funded, we will fund it within the Air Force budget.

                              JOINT BASING

    Question. The 2005 base realignment and closure commission 
directed, at the request of the Department of Defense, the 
establishment of 12 joint bases. Nine of these recommendations involve 
the Air Force.
    Did the Department of the Air Force support or oppose this 
recommendation when it was being formulated inside the Department of 
Defense, prior to the transmission of the Secretary of Defense's 
recommendations to the commission?
    Answer. I am told the Air Force supported and continues to support 
the goals of joint basing. The Air Force position has been and 
continues to be that we will achieve cost efficiencies without 
adversely impacting mission capability and quality of life. While 
complex and emotional endeavors, I believe we can attain the benefits 
and promise of joint basing with minimum disruption to mission and 
quality of life.
    Question. Does the Air Force support or oppose this joint basing 
effort today?
    Answer. The Air Force fully supports joint basing and is committed 
to making it a success.
    Question. Does the Air Force support joint basing in cases where 
the Air Force will not be the lead Service for the joint base?
    Answer. Yes. To accomplish this, we advocated for and in 
conjunction with the other Services and OSD, established installation 
support common output level standards. Our airmen, soldiers, sailors, 
marines, DOD civilians, and their families will benefit from efficient, 
common, and consistent installation support services. Such standards 
will ensure the Air Force and our sister Services continue to enjoy the 
level of installation support services their people deserve.
    Question. What concerns does the Air Force have about establishing 
joint bases?
    Answer. The Air Force remains committed to ensuring that all bases, 
joint or otherwise, maintain their capability to perform its missions 
and provide consistent standards of support for all warfighters and 
their families. Ideally, joint bases would be so efficient and 
effective that an assignment to a joint base would be a highlight for 
every servicemember.
    Question. What effort is the Air Force making inside the Department 
of Defense, at both the senior and working group levels, to find 
solutions for these concerns?
    Answer. The Air Force has a long and successful history of working 
toward common goals in a joint environment to guarantee success, each 
joint base should be required to provide a suitable setting for all of 
its assigned personnel, their families, and other parties within the 
local communities our bases support. To accomplish this, the Air Force 
successfully advocated for the establishment of 265 common joint base 
quality of life standards that are the right standards for all 
Services.

                    AIR FORCE SCIENCE AND TECHNOLOGY

    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Air Force 
missions?
    Answer. A critical Air Force priority is to recapitalize and 
modernize our air and space capabilities, while advancing new 
cyberspace capabilities. Innovative Science and Technology (S&T) 
efforts have and will continue to play an essential role towards this 
end. Drawing from national strategy followed by Guidance for the 
Development of the Force, the Air Force Strategic Plan, and in concert 
with the Air Force S&T Executive, I will provide direction that focuses 
and protects S&T investments that advance the state-of-the-art in areas 
critical to continued United States dominance of air, space, and 
cyberspace.
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Air Force 
needs?
    Answer. Based on what I know, yes, the Air Force's current S&T 
investment strategy of maintaining a balance between basic research, 
applied research, and advanced technology development is appropriate to 
meet current and future Air Force needs.
    Question. If confirmed, what role would you play in ensuring 
research priorities that will meet the needs of the Air Force in 2020?
    Answer. Having oversight of the Air Staff and Air Force Major 
Commands, and as a member of the Joint Chiefs of Staff, I ultimately 
play an important role in the process of identifying future 
capabilities critical to continued United States dominance of air, 
space, and cyberspace. It is vital that we understand and advance those 
game changing technologies most critical to today's fight and the 
emerging future threats. As stated before, I will draw upon national 
strategy and the Department's Guidance for the Development of the Force 
to establish research priorities supporting both near- and far-term 
force needs.
    Question. In the face of rising acquisition costs for programs such 
as the Joint Strike Fighter, and programs to support space operations, 
if confirmed, how do you plan to ensure the protection of funding for 
long-term science and technology investments?
    Answer. The S&T Program is a key element in making mature 
technologies available for transition into development programs. The 
S&T Program provides a strong foundation for reducing risk and costs. 
As such, I will provide direction that focuses and protects S&T 
investments that mature and advance the state-of-the-art in areas 
critical to continued United States dominance of air, space, and 
cyberspace.

                          TECHNICAL WORKFORCE

    Question. The Air Force Research Laboratory relies on a strong 
technical workforce to conduct research for development of new weapons 
systems, platforms, and capabilities to meet its mission of: ``leading 
the discovery, development, and integration of affordable warfighting 
technologies for our air and space force.''
    Are you concerned about the current or future supply of experts in 
defense critical disciplines, particularly personnel with appropriate 
security clearances, to hold positions in defense laboratories?
    Answer. I'm always concerned about the supply of experts in the 
critical defense disciplines needed in our laboratory and elsewhere in 
our acquisition enterprise. Today, the lab is able to meet its needs; 
however, given the current state of U.S. Science, Technology, 
Engineering and Math (STEM) resources, I expect this will become more 
difficult over time. Availability of technical talent will remain a key 
issue in and out of government.

               AIR FORCE TEST AND EVALUATION CAPABILITIES

    Question. What do you feel are the biggest deficiencies in Air 
Force test and evaluation capabilities?
    Answer. Air Force test and evaluation must continue to develop test 
capabilities that keep pace with the development of our technically 
complex weapon systems. We need to strive to be efficient with our 
resources and at the same time responsive in meeting our test and 
evaluation requirements.
    Question. What steps will you take to ensure that the Air Force has 
a robust testing infrastructure and qualified test workforce?
    Answer. The Air Force will work with the Director of Operational 
Test and Evaluation, the Director of the Test Resource Management 
Center, the Services and other DOD agencies, and industry to help shape 
the future of our Nation's infrastructure and workforce. We will employ 
proven methodologies, like the Air Force Smart Operations for the 21st 
Century program, to develop efficiencies; support programs to recruit, 
train, and retain the necessary workforce; and focus our test 
infrastructure on supporting the current and future needs of the 
acquisition community and broader national interests.

                   GENERAL OFFICER MANAGEMENT ISSUES

    Question. Incidents of misconduct or substandard performance and 
findings of inspectors general and other command-directed 
investigations are documented in various ways in each of the Services. 
Procedures for including and forwarding adverse and alleged adverse 
information in connection with the promotion selection process are set 
forth in title 10, United States Code, and in DOD Instruction 1320.4.
    How is the Air Force ensuring compliance with requirements of law 
and regulation regarding review of adverse information?
    Answer. The Air Force is required by law and DOD policy to present 
all adverse information of a credible nature to general officer 
promotion and Federal recognition boards. Upon receipt of the names of 
officers meeting a general officer promotion or Federal recognition 
board, SAF/IG initiates a review of Air Force, DOD, and other 
government investigative files for potential adverse information. If 
substantiated adverse information is uncovered that does not already 
exist in the officer's selection record, a summary of the adverse 
information, plus any written comments from the officer, are placed in 
a senior officer unfavorable information file and attached to the 
officer's selection record. If the officer is selected for promotion or 
Federal recognition, this file stays with the officer's nomination 
package through its coordination with OSD, the White House, and the 
Senate. If unfavorable information is discovered about an officer after 
selected for promotion or Federal recognition that information will be 
presented to a promotion review board. The promotion review board will 
consider the adverse information and make a recommendation to the 
Secretary of the Air Force whether to continue to support the officer 
for appointment to the next higher grade. If the Secretary continues to 
support the officer, the information will be added to the nomination 
package.
    Question. What standards and procedures are in place in the Air 
Force to ensure that allegations of adverse information relating to a 
nominee for promotion are brought to the attention of the Department 
and the committee in a timely manner?
    Answer. The Air Force has procedures in place to ensure any adverse 
or potential adverse information is presented with the nomination 
packages. Prior to the promotion selection board the Air Force conducts 
an initial screening for adverse information. The Air Force performs 
additional such checks following the selection board, and every 60 days 
throughout the nomination process.
    For 1- and 2-stars, if there is substantiated adverse information, 
the selection board will review the information as part of the process 
and that information will be included in the nomination package. If 
allegations of adverse information arise after the board is complete 
the Air Force typically will separate the individual from the list 
until the investigation is complete and if necessary, command action is 
complete and then convene a promotion review board to determine if the 
individual should continue to be nominated for the next higher grade. 
The Air Force always includes substantiated adverse information with 
its nomination packages thru OSD to the Senate.
    For 3- and 4-star nominations, substantiated adverse information is 
included in the nomination packages and the Air Force performs adverse 
information checks every 60 days throughout the nomination process from 
OSD to the Senate.

                            READINESS LEVELS

    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. Our Nation's airmen are trained, equipped, ready, and are 
supporting joint force operations around the globe. The Air Force is 
constantly assessing lessons learned in operations, both combat and 
non-combatant, and making changes in how we train, equip, organize, and 
prepare our forces to better execute current and future operations. 
Whether integrating our ISR with ground operations to find the enemy, 
precisely delivering critical supplies or personnel to our joint 
partners, or increasing the number of air strikes against enemy 
positions, our airmen have continued to find ways to contribute to the 
effectiveness of the joint team.
    Question. What do you view as the major readiness challenges that 
will have to be addressed by the Air Force over the next 4 years, and, 
if confirmed, how will you approach these issues?
    Answer. High OPTEMPO combined with an aging fleet of aircraft and 
spacecraft continues to challenge readiness. We fly and maintain the 
oldest aircraft inventory in Air Force history. The Air Force has 
addressed aging aircraft issues by developing an overarching strategy 
for future fleet management. The Air Force has chartered the Air Force 
Fleet Viability Board to assess the viability of our inventories so 
that we posture ourselves to make the best informed modification, 
sustainment, and retirement decisions.
    In terms of stressed career fields impacted by a continuing high 
OPTEMPO, the Air Force actively tracks our stressed career fields and 
uses this data to focus on the specialties that require the most 
management intervention. Solutions we have put in place include Air 
Expeditionary Force (AEF) banding to better manage tempo in highly 
stressed air force specialties and alternate sourcing strategies to use 
other air force specialties to augment stressed career fields. We are 
also reducing stress on some career fields by adding additional 
manpower. For example, we've added additional battlefield airmen, 
combat weather and joint tactical air control personnel, to support 
U.S. Army modernization and transformation. We will look at other 
highly stressed career fields, such as Security Forces, Intelligence, 
and Explosive Ordnance Disposal and assess whether to increase their 
numbers of personnel.

              INVESTMENT IN FACILITIES AND INFRASTRUCTURE

    Question. Air Force Leadership recently stated in testimony, 
``MILCON is an essential enabler of Air Force missions; however, due to 
fiscal constraints, we must reduce funding and accept greater risk in 
facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment.''
    In your opinion, at what point is the reduction of funding for 
facilities and infrastructure too much of a risk for the Air Force?
    Answer. We've managed or mitigated risk by balancing our approach 
between Facility Sustainment, Restoration & Modernization, and MILCON 
accounts. Taking manageable risk in infrastructure is prudent given the 
Air Force's previous investment in infrastructure combined with our 
current investment in maintaining our facilities by increasing Facility 
Sustainment to 90 percent of DOD requirements and increasing 
Restoration & Modernization (R&M) by $160 million compared to fiscal 
year 2008. While these actions help us to manage risk in fiscal year 
2009, we will likely re-invest in infrastructure in fiscal year 2010 to 
ensure we preserve the capability of our bases--our Installation Weapon 
Systems.
    Question. If confirmed, would you support goals established by the 
Department of Defense for certain levels of funding dedicated to the 
recapitalization and sustainment of facilities?
    Answer. Yes. The Air Force supports the existing Department of 
Defense goal for Facility Sustainment by funding our program to at 
least 90 percent of the modeled requirement. We will support any 
Facility Recapitalization goal if and when it is developed because 
installations provide a critical capability to the Air Force--we fight 
from our bases, they are our Installation Weapon Systems.

                   FEE-FOR-SERVICE COMMERCIAL TANKERS

    Question. The Assistant Secretary of the Air Force for Acquisition 
testified last April that the Air Force is moving forward with a 
congressionally mandated plan to develop a Fee-For-Service Aerial 
Refueling Pilot Program. However, the Air Mobility Command Commander, 
General Arthur J. Lichte, has testified that he has questions ``with 
regard to the operational procedures, FAA requirements and 
certifications, and legal issues that come up.''
    In your view, is the Air Force doing everything it can to ensure 
the intent of Congress is carried out in implementing the fee-for-
service pilot program?
    Answer. The Air Force is providing the necessary groundwork to 
ensure the intent of Congress is carried out with respect to 
implementing the fee-for-service pilot program. The Air Force has 
already released a Request for Information and had dialogue with 
industry for concept refinement. A Request for Proposal (RFP) is 
planned to be released in first quarter fiscal year 2009, after which 
the Air Force anticipates receiving proposals from interested/qualified 
offerors. If executed, we anticipate industry will require 18-24 months 
to accomplish boom design, modification, and airframe integration.
    Question. What concerns, if any, do you have about the conduct and 
purpose of this pilot program?
    Answer. I do have some concerns regarding the funding and 
operational impacts of this program. There was no fiscal year 2008 
appropriation to accompany the National Defense Authorization Act for 
Fiscal Year 2008 direction, so the Air Force is working on 
reprogramming funds for the program in fiscal year 2008-2009. Unlike 
the Navy program which uses a probe and drogue refueling system, this 
program requires significant industry commitment and investment to 
develop and certify a commercial boom-equipped aircraft. A minimum of 
an additional 6 months will be required for boom system operation, 
aircrew certification, and receiver qualification. Once complete, we 
can conduct the pilot program in fiscal year 2012-2016.
    We will assess progress and ensure we meet program requirements in 
the yearly reports submitted to Congress.

                              UAV ROADMAP

    Question. In 2001, Congress established as a goal that by 2010 one-
third of the aircraft in the operational deep strike force should be 
unmanned. However, the recently issued Unmanned Systems Roadmap 2007-
2032 does not describe how it plans to achieve that goal, nor does it 
include striking targets as a key UAV role or mission in the future
    Given the varying positions the Air Force has held regarding 
unmanned combat air vehicles (UCAVs)--most recently removing itself 
from the joint UCAV program, do you see striking targets as a potential 
mission for UAVs? Why or why not?
    Answer. I understand that the Air Force fully supports using UAVs 
to conduct strike operations and is increasing current investments in 
this area to significantly enhance this capability. The Air Force is 
now fielding the MQ-9 Reaper as a follow-on to the MQ-1 Predator. The 
MQ-9 is a multi-role Unmanned Aerial System (UAS) whose roles include 
hunter/killer strike and ISR. The MQ-9 can carry up to 3000 lbs of 
weapons (15 times more than the Predator) and is currently deployed in 
both Iraq and Afghanistan.

                   NUCLEAR WEAPONS HANDLING INCIDENT

    Question. General Larry Welch, USAF (Ret.), Chairman of the Defense 
Science Board Task Force on Nuclear Weapons, testified earlier this 
year that the nuclear weapons handling incident which occurred in 
August 2007 resulted from long-term and systemic degradation of 
training and focus by the Air Force on the nuclear mission.
    Given the nature and severity of the incident, and General Welch's 
report, are you satisfied with the accountability actions taken within 
the Air Force thus far?
    Answer. The invaluable assessment by the Defense Science Board's 
Permanent Task Force on Nuclear Weapons Surety, led by General Welch, 
has had far-reaching impact on the Air Force, though it was not an 
assessment of personnel accountability related to the unauthorized 
munitions transfer.
    The Air Combat Command Commander Directed Investigation identified 
accountable individuals and a deliberate process followed resulting in 
a range of disciplinary actions. Subsequently, the Department of 
Defense Inspector General evaluated Air Force accountability actions 
related to this incident.
    Regarding the findings of the Donald Report involving the 
misshipment of Mk 12 forward sections to Taiwan, the accountability 
review process is not complete and, if confirmed, I will work with the 
Secretary of the Air Force to ensure proper accountability.
    All processes and procedures involving nuclear weapons are 
exacting. Perfection is the standard. There is no room for incomplete 
knowledge or substandard performance. Precision, compliance, personal 
responsibility and enforced accountability are foundational to success 
in this vital mission area.
    Question. There are over $100 million in ``unfunded requirements'' 
related to the Blue Ribbon Review of the August 2007 incident on the 
Air Force's unfunded priorities list for fiscal year 2009.
    What actions would you expect to take, if confirmed, to modify this 
list and seek reprogramming authority?
    Answer. If confirmed, I will evaluate the status of these 
associated unfunded requirements and take appropriate action, to 
include modifying the list, securing needed funding within our program 
and seeking reprogramming authority, if necessary.

        AIR FORCE ABILITY TO RESPOND TO WORLDWIDE CONTINGENCIES

    Question. What impact, if any, do you see on the Air Force's 
ability to respond to worldwide contingencies as a consequence of the 
demands of current operations in Iraq and Afghanistan?
    Answer. The Air Force is organized, trained, equipped, and prepared 
to rapidly, flexibly, and precisely respond to worldwide contingencies. 
The Air Force has capabilities and manpower with specialized skills in 
high demand in Iraq and Afghanistan, such as airlift; ISR capabilities; 
explosive ordnance disposal; and security forces. Additional 
requirements in these areas will require the Secretary of Defense to 
allocate forces between Iraq, Afghanistan, in place Homeland Defense 
and global support missions, and another worldwide contingency.
    Question. How much additional risk is the United States assuming in 
this regard?
    Answer. The Air Force is fully supporting the Secretary of Defense 
and combatant commanders with in place and expeditionary forces. We 
have major commands and Component Numbered Air Forces who support all 
the Functional and Geographic Combatant Commanders in planning and 
executing operations. We use an AEF process to manage tempo and enable 
rapid and tailored responses to homeland and worldwide contingencies. 
For the Air Force, my sense is the risk is manageable.

             ``IN LIEU OF'' AIRMEN IN IRAQ AND AFGHANISTAN

    Question. The Air Force has provided significant ``in lieu of'' 
(ILO) ground forces to support operations in Iraq and Afghanistan.
    Are you satisfied with the type and amount of ground combat 
training and preparation airmen assigned these support missions are 
receiving before deploying?
    Answer. We are confident that AEF airmen are receiving the required 
training to perform their AEF mission. The Air Force has developed Tier 
1, Tier 2, and Tier 3 expeditionary training policy, guidance and 
curriculum standards to ensure our airmen are ready to accomplish their 
missions in the combat environment. Tier 1 training provides 
expeditionary skills for all airmen and is delivered through 
accessions, initial functional training, and in the foundational 
training curriculum for basic training. Air Education and Training 
Command has added 8.5 hours of training to Basic Military Training and 
is developing Common Battlefield Airman Training (CBAT) for select 
career fields.
    To ensure every deploying Airman can achieve the same level of 
basic competencies in contingency skills, the Air Force developed Tier 
2 ``deployment-ready'' standardized training. Expeditionary Combat 
Skills (ESC) includes weapons and body armor training and a field 
exercise to demonstrate their skills.
    Advanced Expeditionary Skills Training (Tier 3) is enhanced 
predeployment training for select mission-ready airmen as determined by 
deployment location, threat assessment, specific mission, duty 
assignment, role, operation or special requirement. The Air Force 
offers a wide variety of predeployment expeditionary training courses 
and 60+ air mobility resident/web-based courses to Air Force, joint and 
coalition personnel to include Eagle Flag Exercise and Air Advisor 
training. Additionally, our airmen selected for ILO taskings are 
collectively trained alongside soldiers, sailors, and marines by the 
same combat skills training instructors and develop into cohesive teams 
at Army power projection platforms before deploying down range.
    Lastly, the Air Force has established the Training and Equipment 
Review Board (TERB) to monitor the effectiveness of our training and 
modify that training to meet the gaining commander's needs, to ensure 
airmen can operate and survive in their deployed environment.
    Question. Are these airmen getting the right equipment necessary to 
operate in that environment, particularly force protection equipment?
    Answer. This question specifically references the approximately 
12,000 airmen who deploy annually in the ILO category. Yes, personnel 
are receiving the necessary force protection equipment to include the 
Advanced Combat Helmet and the Interceptor Outer Tactical Vest with 
Level IV Enhanced Small Arms Protective inserts.
    Question. What have been the effects of these manpower requirements 
on morale and readiness of airmen, and do you believe that Air Force 
leaders have been effective in communicating the importance of the 
mission to their personnel?
    Answer. In general, I don't think we have sufficiently celebrated 
the contribution of our airmen performing non-traditional roles. The 
term ILO is itself, at least in some sense, pejorative. Those who have 
performed this duty are rightly proud of their service. If confirmed, I 
will work to ensure that the Air Force recognizes and properly honors 
nontraditional performance of duty in the ongoing global war on 
terrorism.

                          JOINT CARGO AIRCRAFT

    Question. In June 2006, the Army and Air Force signed a memorandum 
of understanding regarding the merger of two separate small cargo 
aircraft programs into the Joint Cargo Aircraft (JCA), a plane that 
will be smaller than the Air Forces C-130, but larger than the Army's 
C-23 Sherpa.
    In your view, is there a roles-and-missions redundancy between the 
Army and the Air Force with respect to the JCA?
    Answer. No. There are valid direct support lift requirements that 
call for Service organic fixed wing aircraft to meet a ground 
commander's need for Time Sensitive/Mission Critical (TS/MC) delivery 
of passengers and cargo.
    Question. What changes to this program, if any, would you 
recommend?
    Answer. Based on what I know, and prior exposure at the U.S. 
TRANSCOM, the Air Force supports the program of record.

              COMBAT SEARCH AND RESCUE HELICOPTER (CSAR-X)

    Question. After Boeing won the contract for development of the Air 
Force's next generation combat search and rescue helicopter, the 
Lockheed and Sikorsky corporations protested the award to the 
Government Accountability Office (GAO) and prevailed.
    What is your understanding of the Air Force's way ahead on the 
CSAR-X program?
    Answer. The Air Force amended the RFP to accommodate the GAO 
findings. The road ahead includes receiving final proposals based on 
ongoing discussions, finalizing our evaluation, and making the source 
selection decision. I understand the Air Force anticipates a fall 2008 
contract award with full OSD (AT&L) program review prior to award.
    Question. What is your understanding of the Air Force's ability to 
achieve its goal of initial operating capability (IOC) by 2012?
    Answer. The RFP amendment #6 was issued on 22 April 2008. In this 
amendment the IOC was changed to a period of time. The first quarter of 
fiscal year 2013 is the desired IOC and the fourth quarter of fiscal 
year 2014 is the required IOC date.

                        AIR FORCE CYBER COMMAND

    Question. The Air Force established a provisional Cyber Command in 
September 2007 with the mission of training and equipping forces to 
conduct sustained global operations in and through cyberspace, fully 
integrated with air and space operations.
    How do you envision Cyber Command integrating and interacting with 
the Department and the other Services?
    Answer. Cyber Command, if permanently established, will provide 
forces, in coordination with our joint partners and the Department, to 
combatant commanders to protect and defend U.S. interests in the cyber 
domain at home and abroad.
    Question. What is your understanding of when a permanent 
headquarters will be established?
    Answer. The headquarters will declare IOC by October 2008 using 
distributed locations. The Air Force is studying a list of potential 
permanent basing locations with an expected final decision in fiscal 
year 2009.
    Question. How do you see the mission of the Cyber Command 
integrated into title 10?
    Answer. Air Force Cyber Command's (AFCYBER) primary mission will be 
to organize, train, and equip Air Force cyberspace forces to support 
joint operations. The Command will also be responsible for protecting 
Air Force networks. To that end, AFCYBER will be the Air Force's lead 
advocate for cyberspace capabilities, and will drive related Air Force 
education and training.

             AIR FORCE IMPLEMENTATION OF ``FAMILIES FIRST''

    Question. United States TRANSCOM has made great progress in 
implementing the promise of the ``Families First'' program, aimed at 
modernizing the system for moving household goods of servicemembers and 
their families pursuant to permanent change of station orders. One of 
the greatest challenges has been to replace the legacy Transportation 
Operational Personal Property Standard System (TOPS) with the web-based 
Defense Personal Property System (DPS).
    How would you assess the status of implementation of the Families 
First Program and DPS in the Air Force?
    Answer. The Air Force is committed to the development and fielding 
of DPS, the automated system for Families First and replacement system 
for TOPS. The Air Force continues to work with USTC J5/4 and J6, SDDC, 
and the services to provide subject matter expertise for testing and 
business rule development. We are encouraged by recent developments, 
new timelines, and increasing momentum in the program. We consider DPS 
to be heading in the right direction and standby for implementation in 
the fall of 2008.
    Question. What do you view as the most significant challenges that 
remain in the Air Force to ensuring that DPS and the modernized 
Families First system for contracting for the movement of household 
goods and responding to claims for damaged and missing property is 
successfully put into effect?
    Answer. We believe the most significant challenge is the return 
rate of customer satisfaction surveys. These surveys are vital to the 
new program and if inputs are not received customer feedback will not 
be available for program analysis and the carriers will not be aware of 
deficiencies. We have worked to market the importance of the surveys 
with all concerned through a number of media sources in the Air Force. 
We will continue to encourage customers to return surveys so course 
corrections can be made. We will make use of available authority to tie 
full replacement value reimbursements to submission of the customer 
satisfaction survey.

                   AIR FORCE ACQUISITION SYSTEM FLAWS

    Question. Over the last 4 years, GAO protests have resulted in the 
reversal of a number of significant Air Force contract award decisions, 
including award decisions on the KC-X tanker replacement contract; the 
Combat Search and Rescue Helicopter Replacement Program (CSAR-X) 
contract; the C-130 Avionics Modernization Program (AMP) contract; the 
Small-Diameter Bomb contract; the Thunderbird video contract; and a 
contract for F-15 training simulators.
    Do you believe that there are significant problems in the Air Force 
acquisition system today?
    Answer. These examples, while significant, need to be viewed in the 
context of the thousands of contracts the Air Force successfully 
executes every year. Nonetheless, confidence in our processes is 
lacking and we have to recommit to excellence in acquisition at every 
level and every discipline. This includes improved workforce 
management, training and job enrichment; maintaining a balance of 
civilian and military expertise across the enterprise; and attracting 
additional, proven engineering and management talent in supervisory 
roles.
    Question. If so, what are those problems and how would you propose 
to address them?
    Answer. See above.
    Question. If not, why do you believe that the Air Force has been 
the subject of so many adverse bid protest decisions?
    Answer. Although I believe that the Air Force acquisition system is 
not fatally flawed, I agree there are opportunities for improvement. 
Weapon systems require complex, in-depth evaluations across many 
functional areas against both objective and subjective criteria; we 
continue to examine processes and factors to arrive at fair evaluation 
of these highly complex proposals to protect the interests of our 
warfighter and the taxpayer. Representative actions outlined in the 
previous question apply.

                     ACTIONS OF AIR FORCE OFFICIALS

    Question. Over the last several years, senior Air Force officers 
are alleged to have advocated the funding of a number of programs that 
were not included in the President's budget and for which there was no 
currently validated joint requirement. These programs include the 
procurement of additional C-17s, the continuation of the C-130J multi-
year contract, and the multi-year procurement of additional F-22 
aircraft. Senior Air Force officers are also alleged to have advocated 
a legislative proposal that would overturn a decision of the Base 
Realignment and Closure Commission relative to Joint Basing.
    What is your view of the propriety of efforts by senior Air Force 
officers to advocate the funding of programs that are not included in 
the President's budget and for which there is no currently validated 
joint requirement?
    Answer. Other than those occasions when individuals appear before 
appropriate committees of Congress and are asked to give their personal 
views, the military services cannot function effectively and credibly 
if senior officers advocate for programs or funding of requirements 
that are not a part of the President's budget.
    Question. If confirmed, what steps, if any, would you take to curb 
such efforts?
    Answer. If confirmed as Chief of Staff, I would work closely with 
the Secretary of the Air Force both to foster a healthy debate within 
the Air Force on the allocation of valuable resources and to ensure an 
understanding that only established processes and procedures for 
advocating program funding and priorities outside the Air Force will be 
used. As a consistent practice, if we truly wish for a program to be 
funded, we will fund it within the Air Force budget.

                           DEFENSE BUDGETING

    Question. On January 27, 2008, the Washington Post reported on 
internal Air Force briefing slides, called ``CSAF 2008 Leadership Forum 
Strategic Communication Update,'' which included statements that: ``the 
Air Force is targeting the other Services;'' the ``Budget Battle'' is a 
``Zero Sum Gain'' and a ``Non-Permissive Environment;'' and ``some 
Services are going to win and some are going to lose.''
    What is your view of these briefing slides and the views that they 
appear to be intended to communicate?
    Answer. I am told the 2 slides that appeared in the Washington Post 
were part of a larger 10-slide internal briefing to Air Force retired 
senior leadership, to inform them of a Communication Campaign Plan 
underway to better plan and execute the message about the Air Force's 
contribution to national security, and to encourage their 
participation.
    Articulating the Air Force contribution to national security and 
share of defense resources is an appropriate institutional effort for 
the Air Force. All Services and DOD agencies, to a greater or lesser 
extent, engage in similar activities. But, it is my view that the net 
result is a joint force capability tied to the highest priority needs 
of the Department of Defense. That, in my mind, is not zero sum for any 
participant.

               CHIEF OF STAFF UNFUNDED REQUIREMENTS LISTS

    Question. The so-called ``wish lists'' that have resulted from 
Congress's request for Service input on where to allocate funds added 
to the national defense budget have mostly proven to be an effective 
means of ensuring that such funds are apportioned appropriately in 
terms of what is best for the national interest. However, the Air Force 
Chief of Staff's fiscal year 2009 UPL includes 152 programs and 
activities totaling $18.75 billion--far in excess of amounts listed by 
any of the other military Services. The Air Force's UPL has more than 
four times the number of items that are on the Army list--at five times 
the cost, eight times the number of items that are on the Navy list--at 
five times the cost, and seven times the number of items that are on 
the Marine Corps list--at more than six times the cost.
    If confirmed, will you examine how the Air Force determines the 
Chief of Staff's UPL and take appropriate steps to ensure that in the 
future the Air Force provide lists to Congress that are limited to the 
items of greatest importance to the Air Force?
    Answer. As Chief of Staff of the Air Force, if confirmed, I will 
continue to fund our most critical requirements in the President's 
budget. Furthermore, while recognizing that Service needs nearly always 
exceed the funds available, I understand the value in providing a more 
focused unfunded list to Congress. If Congress continues to offer the 
Services a chance to submit UPLs in the future, I will use that 
opportunity to submit a list highlighting our highest priority unfunded 
needs.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Staff of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic communications, in a timely manner when requested by a duly 
constituted committee, or to consult with the committee regarding the 
basis for any good faith delay or denial in providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                      STRATEGIC POSTURE COMMISSION

    1. Senator Levin. General Schwartz, Congress established the 
Commission on the Strategic Posture of the United States in the 
National Defense Authorization Act for Fiscal Year 2008. The Commission 
is chaired by former Secretary of Defense William Perry and is tasked 
to make recommendations on the future strategic posture of the United 
States including the nuclear posture. Will you cooperate fully with the 
Commission and the various working groups established by the 
Commission?
    General Schwartz. Yes. Full cooperation is exactly what I will 
ensure this commission receives from my office and the Air Force at 
large.

                  RELIGIOUS ACTIVITY IN THE AIR FORCE

    2. Senator Levin. General Schwartz, in June 2005, the Headquarters 
Review Group Concerning the Religious Climate at the U.S. Air Force 
Academy found ``a religious climate [at the Air Force Academy] that did 
not involve overt religious discrimination, but a failure to fully 
accommodate all members' needs and a lack of awareness over where the 
line is drawn between permissible and impermissible expression of 
beliefs.'' As a graduate of the Academy, you are aware of the influence 
of instructors, officers, and upper class cadets over junior cadets to 
conform in order not to jeopardize their military careers. What is the 
current status of policies and programs at the Air Force Academy to 
reinforce the religious liberty rights of each cadet, chaplain, and 
commander?
    General Schwartz. The Superintendent, United States Air Force 
Academy, established in October 2005 that ``Respect for Human Dignity'' 
is the overarching and foundational policy for all activities across 
the Academy. The United States Air Force Academy remains officially 
neutral regarding religious beliefs, neither officially endorsing nor 
disapproving any faith belief or absence of belief. The Air Force 
Academy's policy mirrors those of the entire United States Air Force: 
to accommodate free exercise of religion and other personal beliefs, as 
well as freedom of expression while not endorsing any religion or 
belief over any others. Academy leaders, instructors, officers, and 
upper class cadets are trained and educated on their duties to ensure 
that requests for religious accommodation are welcomed and dealt with 
as fairly and consistently as practicable, through their commands and/
or areas of responsibility. Every basic cadet that enters the United 
States Air Force Academy is trained on religious tolerance and the 
accommodations and venues the Academy offers for different faiths. In 
addition to the training provided to all basic cadets, the upper class 
cadets and every permanent party member are required to complete 
religious toleration and awareness training.
    Leaders at every level, whether at the Air Force Academy or any 
other place in the Air Force, bear a special responsibility to ensure 
their words and actions cannot reasonably be construed to be officially 
endorsing nor disapproving any faith belief or absence of belief. In 
official circumstances or when superior/subordinate relationships are 
involved, superiors need to be sensitive to the potential that personal 
expressions may appear to be official or have undue influence on their 
subordinates. Subject to these sensitivities, superiors enjoy the same 
free exercise rights as all other airmen.
    Bottom line: All Air Force personnel have an obligation to keep the 
workplace professional in all cases, and our commanders throughout the 
entire Air Force understand that the religious liberty rights of each 
person are part of what they have taken an oath to defend.

    3. Senator Levin. General Schwartz, if you are confirmed, what is 
your commitment to promoting acceptance of religious diversity at the 
Air Force Academy and throughout the Air Force?
    General Schwartz. The very foundation of each of our Air Force's 
core values (Integrity First, Service Before Self, and Excellence in 
All We Do) is respect . . . respect for oneself and each other. This 
respect includes each airman's personal beliefs. Our airmen are 
Protestants, Jews, Catholics, Muslims, Buddhists, and many others, 
while some are Atheists and Agnostic, but all are airmen and all 
deserve respect. The right to worship or not to worship is enshrined in 
our Constitution. Additionally, operational necessity drives the 
importance of respect, because it enhances the trust that binds us 
together and that trust is critical to combat effectiveness.
    We must, however, avoid any perception that could imply our Air 
Force supports any one religion over another or religion over no 
affiliation. This does not mean we must exclude religion from our 
professional lives. Free, open, and respectful discussion of our 
beliefs and our differences, including religious diversity, is 
valuable. But there is a time and place for such discussions--we must 
be sensitive and act accordingly to the fact that individuals have 
different beliefs. These discussions must be learning experiences, not 
attempts to force a particular point of view, and they must never imply 
Air Force sponsorship or disapproval of a particular belief. In fact, 
this diversity allows us to better understand each other and our 
varying needs and as an expeditionary Air Force, understanding our own 
diverse beliefs helps us better understand those of our allies and 
hosts around the world.
    Leadership (to include commanders, supervisors, and first 
sergeants) must remain sensitive that their positions lend greater 
authority to their words and as such, it's critical they be 
particularly careful when discussing religious issues and opinions with 
subordinates. As we speak to airmen, we must be inclusive rather than 
exclusive and use these situations to lighten the bonds and cohesion 
rather than promote a specific belief. Circumstances of each situation 
will be unique and our Chaplains and Staff Judge Advocates are 
available to provide advice. Ultimately, I will continue to emphasize 
acceptance of religious diversity and I will rely on our commanders' 
good judgment and the broad range of options available to them to get 
this right for our airmen and their families.

                         AIR FORCE END STRENGTH

    4. Senator Levin. General Schwartz, the Air Force previously 
announced that it was not going to reduce end strength to the 
previously planned level of 316,000; rather it was going to maintain an 
end strength of 330,000. We understand that the Air Force plans to use 
available funds in fiscal year 2009 to support this level of end 
strength even though the funds for this level were not requested in the 
fiscal year 2009 budget request. What is the plan to identify the 
source of the funds to sustain the 330,000 end strength in fiscal year 
2009?
    General Schwartz. The Air Force is committed to fund the 330,000 
end strength requirement within existing fiscal year 2009 funding. This 
funding will almost exclusively come from two sources. First, by 
stopping the drawdown in fiscal year 2008, the fiscal year 2009 funding 
that was originally programmed for force shaping initiatives, such as 
Voluntary Separation Pay will be freed up. Second, end strength at the 
beginning of fiscal year 2009 will be lower than originally planned, 
which will free up additional funding.

    5. Senator Levin. General Schwartz, this 330,000 end strength level 
is also not sustained in the out year budget request. In your answers 
to the advance policy questions, however, you indicate that this out 
year funding shortfall will be fixed in the fiscal year 2010 budget 
request. How do you intend to fix this problem and where will the 
additional funds come from?
    General Schwartz. The Air Force intends to address this issue 
within the context of the fiscal year 2010 program review deliberations 
with the Office of the Secretary of Defense (OSD). At present, the Air 
Force has established an OSD/Air Force End Strength Issue Team to 
formally address any funding shortfall concerns.

    6. Senator Levin. General Schwartz, will this be an increase to the 
previously planned Air Force top line or will reductions be made to 
procurement or other investment accounts?
    General Schwartz. We will work with OSD to find the appropriate 
resources to fund our 330,000 end strength requirement. Until this 
review is complete, we will not know if the funding will be from 
additional top line or from realigning funds within the current Air 
Force top line.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

              TEST AND EVALUATION AT EGLIN AIR FORCE BASE

    7. Senator Bill Nelson. General Schwartz, prior Air Force 
leadership halted all consideration of realigning Developmental Test 
and Evaluation Center (DTEC) leadership under a single center at 
Edwards Air Force Base (AFB). This was due in large part to the major 
base realignment and closure (BRAC)-mandated realignments taking place 
at Eglin AFB and the need for further study into the effects of a 
potential leadership shift. What is your position on any future 
reorganization of Air Force Developmental Test and Evaluation as it 
pertains to Eglin AFB?
    General Schwartz. The Air Force Developmental Test and Evaluation 
Center (AFDTEC) construct does not affect personnel or locations of 
testing and would not impact the integration of the multi-Service F-35 
training mission and the Army 7th Special Forces Group into the Eglin 
range and base infrastructure. Instead, alignment with AFDTEC (located 
at Edwards AFB, CA) would normalize command lines by adjusting the 
reporting chain for three Commanders: the Arnold Engineering and 
Development Center, 46th Test Wing, and 412th Test Wing Commanders. The 
AFDTEC concept is similar to the current Army model instituted in 1999 
and has the potential to increase the effectiveness and efficiency of 
Air Force test operations.
    No implementation would occur until the Air Force conducted 
appropriate preparation and notification activities.

    E-8C JOINT SURVEILLANCE AND TARGET ATTACK RADAR SYSTEM & MP-RTIP

    8. Senator Bill Nelson. General Schwartz, the Air Force lists 
Multi-Platform Radar Technology Insertion Program (MP-RTIP) in the 
fiscal year 2009 Unfunded Requirements List, and General Moseley was 
supportive of putting the improved technology, as an interim measure, 
on the E-8C until a suitable next-generation aircraft platform is 
selected. Understanding the Air Force's significant budget pressures, 
the MP-RTIP technology is, nevertheless, a critical and needed 
capability for the ground, sea, and air warfighters due to its ability 
to cue other strike assets and detect enemy weapons. What is your plan 
to continue these development efforts, including appropriate funding to 
put MP-RTIP on the E-8C aircraft?
    General Schwartz. Development of a small MP-RTIP sensor is ongoing 
to provide enhanced capabilities for the Global Hawk. The Air Force is 
evaluating the most viable platform to carry a larger, Wide Area 
Surveillance (WAS) variant of the MP-RTIP sensor as was previously 
planned for the E-10. Although WAS risk reduction activities were 
suspended in March 2008, funding appropriated in the fiscal year 2008 
supplemental will allow the Joint Surveillance and Target Attack Radar 
System (JSTARS) and MP-RTIP programs to resume risk reduction and 
technology maturation related to the sensor, Operation and Control 
(O&C) of the sensor, and platform integration, including potential 
fielding on JSTARS or other large aircraft.

                     AIR FORCE NUCLEAR COORDINATOR

    9. Senator Bill Nelson. General Schwartz, a new position has been 
created in the Air Force to serve as the central coordinator for Air 
Force Nuclear issues. What is your vision for this new position?
    General Schwartz. The Director of Nuclear Operations, Plans, and 
Requirements (A3/5N) was created in response to the recommendations of 
the Blue Ribbon Review and the Defense Science Board reports that 
stemmed from the B-52 incident in August 2007. ``The Air Force Chief of 
Staff should establish an office within A3/5 in the Air Staff headed by 
a flag officer whose daily business is the nuclear enterprise.'' (DSB 
report) This reorganization was made to overcome fragmentation on the 
air staff and unify staff focus on the nuclear mission.
    This organization represents the Air Force to the Joint Staff, OSD, 
Department of Energy, the National Security Council, national 
laboratories as well as STRATCOM. It also is point of entry to the air 
staff for our Major Commands on all nuclear issues.
    The directorate impacts nuclear career field development and 
training; assesses nuclear employment and concepts; integrates nuclear 
capabilities into Air Force and joint planning, operations and 
exercises while advocating for nuclear safety, security and operational 
capability.
    Air Force success in the nuclear mission area depends upon 
sustained leadership focus and attention at all levels, all the time. 
This office will serve the Secretary and the Chief well by keeping 
nuclear issues in the forefront of our daily battle rhythm.

    10. Senator Bill Nelson. General Schwartz, what responsibility and 
authority will it have?
    General Schwartz. If confirmed, I will evaluate the authorities of 
this office and ensure my vision of constant vigilance of the nuclear 
mission across the Air Force nuclear enterprise is achieved and that 
Air Staff focus is assured.
    There may be requirements for further adjustments to our current 
organizational structures supporting the nuclear mission area. A 
critical measure in this end-to-end assessment is to ensure unambiguous 
linkage between field operations, sustainment and policy.

                        MISSILE INDUSTRIAL BASE

    11. Senator Bill Nelson. General Schwartz, in fiscal year 2009, for 
the first time the U.S. will no longer have intercontinental ballistic 
missiles (ICBMs) in production, or active plans for a future 
replacement. Have you thought about any plans to sustain this 
industrial base to ensure the U.S. could meet any future production 
capability for a land-based strategic deterrent?
    General Schwartz. The U.S. ICBM production concluded with 
Peacekeeper in the early 1990s. Since that time, the ICBM industrial 
base has supported various modernization efforts for the deployed ICBM 
fleet. By exercising unique strategic missile skills, the current ICBM 
Demonstration/Validation program is one of the several avenues which 
will help bridge the gap between the completion of the ICBM 
Modernization programs and the beginning of a follow-on ICBM or 
Minuteman III life extension program.
    The Air Force is also currently working, in response to Senate 
Report 110-155, to provide a ``Report on ICBM Industrial Base 
Capabilities to Maintain, Modernize, and Sustain Minuteman III through 
2030 and Provide a Replacement Land-Based Strategic Deterrent System 
After 2030,'' which will address these issues in greater detail. This 
report is due to Congress in August 2008.

                            SPACE PROTECTION

    12. Senator Bill Nelson. General Schwartz, protecting our space 
assets is an important mission of the Air Force as well as the National 
Reconnaissance Office (NRO). To that end Congress has required a joint 
space protection be developed. The Air Force and the NRO have recently 
established a joint protection program. Will you ensure that this 
program is adequately funded including the highest priority of ensuring 
that the U.S. has adequate space situational awareness (SSA)?
    General Schwartz. Given our national dependence on our space 
systems, Space Protection and SSA continue to be of great concern to 
the Air Force. The joint AFSPC/NRO Space Protection Program was 
established to preserve national security space effects through an 
integrated strategy to articulate vulnerabilities, assess threat 
impacts, identify options and recommend solutions leading to 
comprehensive space protection capabilities. Once determined, these 
solutions will then be implemented to provide the most cost effective 
capability for protecting the space environment.
    As I understand it, AFPSC conducted a Best Value Architecture Study 
for SSA to determine where the near/far-term investments in SSA should 
occur. Based on these results, they determined that first we have to do 
a better job in exploiting the data we already have. This means in the 
near-term fusing the data to obtain more precise and accurate 
information we can use efficiently. Second, they determined we need to 
increase our sustainment efforts to support the infrastructure and 
systems keeping those sources of data online. Finally, we need to look 
at developing better/more sensors to improve our capabilities in the 
far-term.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                           AIR NATIONAL GUARD

    13. Senator Clinton. General Schwartz, the Air Force is now 
developing the Program Objective Memorandum (POM) for fiscal year 2010; 
with the new guidance from the Secretary of Defense to protect end 
strength as well as re-examine the proposed modernization accounts to 
meet the needs of the Total Force, what are your plans to ensure in the 
POM the adequate capitalization of the Air National Guard from its 
equipment, personnel, and sustainment perspectives?
    General Schwartz. The Air Force's budget submission included a 
detailed review of all applicable guidance, and is the result of a 
careful review of Total Force modernization, personnel and sustainment. 
The Air Force remains committed to Total Force Integration and in the 
2010 POM will expand on the progress we have made to integrate the Air 
National Guard and Air Force Reserve Forces into the Total Force in all 
areas including equipment, personnel, and sustainment.

          INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE (ISR)

    14. Senator Clinton. General Schwartz, Secretary Gates has stressed 
the importance of the Air Force providing a more robust ISR to the 
warfighter. How will you enable the Air Force to meet the Secretary's 
objectives, and within what time frame will you be able to do so?
    General Schwartz. The Air Force has been responsive to the war in 
Iraq and Afghanistan by innovating means to rapidly put ISR data 
directly into the hands of our joint and combined force at all levels. 
For example, the Air Force fielded 4,000 remotely operated video 
enhanced receivers that allow ground forces to directly receive UAS 
pictures; accelerated MQ-1 Predator operations well beyond the DOD-
directed program of record; and introduced the MQ-9 Reaper into combat 
a year ahead of schedule. We continue to field more UAS capability at 
maximum capacity with near term focus, and we're proud of the dedicated 
airmen around the globe who are making this happen.
    The original Predator UAS requirement was 21 CAPs by 2010, but the 
Air Force is currently flying 26 CAPs today, and planning to further 
increase Predator CAPs to 31 by December 2008. The Air Force is pushing 
ISR capability into the field as soon as it becomes available. We have 
issued a request for proposal for new UASs, and we are shifting our UAS 
procurement from the older MQ-1 to the more capable MQ-9. When equipped 
with the new wide area airborne surveillance pod, our MQ-9 UASs will be 
able to provide 30 to 60 times more capability than a single MQ-1 
Predator.
    In addition, the Air Force has pushed legacy ISR ``workhorses''--
the U-2s, RC-135s, and JSTARS--to the maximum tempo possible to get as 
much collection capability to the fight as possible. We are also 
embedding ISR liaison teams at division and brigade combat team levels 
to tailor ISR capabilities for the specific tactical fights of these 
units. Further, we are also capitalizing on important technical 
advances in our ISR analysis enterprise, to turn data into actionable 
intelligence. These advances-coupled with upgrades to our Distributed 
Common Ground System (DCGS--our primary imagery analysis capability) 
and increased efficiency through reachback to continental United States 
resources--ensure that joint warfighters get the maximum ISR support 
possible.
    Finally, the Air Force is working as part of the Secretary of 
Defense's ISR Task Force to push even more ISR capability to the fight 
in the near term, through both additional buys of equipment (such as 
RC-12 aircraft tailored to the irregular warfare fight) and creative 
concepts that will add value in the near term. The Air Force and our 
airmen are committed to winning the current fight, and our ISR posture 
reflects that commitment.

                               C-5 FLEET

    15. Senator Clinton. General Schwartz, the recently signed Iraq 
Supplemental Appropriations bill included 15 additional C-17s for the 
Air Force to meet its strategic airlift requirements. The Air Force has 
continued to state its need to balance the cost of sustaining the C-5 
fleet with ensuring modern strategic air lifters are available to meet 
global needs. Please articulate what the Air Force sees as the need for 
additional C-17s, as well as the relationship of that need with the C-5 
fleet.
    General Schwartz. Our first priority is always to provide the best 
overall airlift capability to the joint warfighter. There are two 
issues with respect to the proper balance between the C-5s and C-17s 
that comprise our strategic airlift fleet. The first is the total 
number of tails. The current requirement of 299 tails was set by the 
2007 NDAA, and this requirement as outlined in the fiscal year 2009 
program of record for strategic airlift is 190 C-17s, 52 C-5Ms, and 59 
C-5As.
    The second issue is the minimum number of million ton miles per day 
(MTM/D) available in our total fleet. During Nunn-McCurdy 
certification, the JROC validated a requirement for 33.95 MTM/D of 
organic strategic airlift (C-5s and C-17s). A fleet of 190 C-17s and 
111 C-5s does not meet the 33.95 MTM/D goal. The addition of 15 C-17s 
in the Global War on Terrorism Supplemental bill allows the Air Force 
to meet the 33.95 MTM/D requirement. A fleet of 205 C-17s and 111 C-5s 
meets both these requirements and is aligned with objectives sought by 
the TRANSCOM Commander and cited in the USD(AT&L) Nunn-McCurdy 
Acquisition Decision Memorandum (ADM).
    The Air Force continues to review options for the modernization and 
retirement of portions of the C-5A fleet. The C-17 has proven itself to 
be a highly reliable and versatile strategic airlift platform that will 
serve the Nation well across the full range of military operations. We 
will continue to analyze the overall requirement and make sure we 
maintain the proper balance in our fleet. The ongoing Mobility 
Capabilities Requirements Study 2016, with informal results available 
in the spring of 2009, is the next big force design milestone.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                   FEE-FOR-SERVICE COMMERCIAL TANKERS

    16. Senator McCain. General Schwartz, in your advance policy 
question responses you state, ``The Air Force is providing the 
necessary groundwork to ensure the intent of Congress is carried out 
with respect to implementing the fee-for-service pilot program. The Air 
Force has already released a Request for Information and had dialogue 
with industry for concept refinement. A Request for Proposal is planned 
to be released in first quarter fiscal year 2009, after which the Air 
Force anticipates industry will require 18-24 months to accomplish boom 
design, modification, and airframe integration.'' Understanding the 
final fee-for-service air refueling RFP is planned the first quarter 
fiscal year 2009, please provide the committee with the anticipated 
date for the draft RFP. In addition, please provide the anticipated 
pilot program contract award date.
    General Schwartz. The planned date for the draft RFP will be 45 
days prior to final RFP release and anticipated no later than 15 
November 2008. The planned contract award date, pending successful 
completion of competitive source selection, is anticipated no later 
than 12 months after receipt of proposals or approximately second 
quarter fiscal year 2010. This will begin the industry funded boom 
integration and certification effort which is required prior to start 
of the 5-year evaluation period.

    17. Senator McCain. General Schwartz, in your advance policy 
question responses you stated that you have some concerns regarding 
``operational impacts of this program.'' Please elaborate on the 
specific operation impacts of concern. Do you believe any of these 
concerns are insurmountable?
    General Schwartz. I have concerns regarding the ``negative 
training'' aspects of Air Force aircraft refueling behind a ``non-
standard'' Air Force tanker. I also have concerns with implementing an 
operational construct that requires integration of commercial boom/
receptacle equipped refueling aircraft that have not yet been 
developed, so I want to proceed cautiously. Finally, there is concern 
with the potential cost of this fee-for-service pilot program that is 
not currently budgeted. None of these concerns is insurmountable.

    18. Senator McCain. General Schwartz, given the success of the U.S. 
Navy commercial fee-for-service aerial refueling program since 2001, 
the committee does not foresee any impediments to the feasibility of 
executing a commercial fee-for-service Air Force pilot program to 
demonstrate and validate Air Force air refueling in the mission areas 
identified in the National Defense Authorization Act for Fiscal Year 
2008, pending industry ability to provide boom capable aircraft. Please 
confirm to the committee that the Air Force fee-for-service RFP will 
specifically demonstrate ``a pilot program on commercial fee-for-
service air refueling support for the Air Force'' as required in 
section 1081 of the National Defense Authorization Act for Fiscal Year 
2008, and will not require passenger and cargo capability.
    General Schwartz. The Air Force intends to execute the pilot 
program as directed in section 1081 of the National Defense 
Authorization Act for Fiscal Year 2008. Section 1081 requires that all 
tanker mission areas be evaluated and specifically lists Aeromedical 
Evacuation as a mission area to include in the pilot program 
evaluation. Additionally, we do not believe that the Navy's experience 
with a probe and drogue solution is an indicator of the challenges we 
will have with a boom solution. We expect that industry will find it 
more difficult to field the boom technology on derivative aircraft and 
obtain FAA certification.
                                 ______
                                 
               Questions Submitted by Senator John Warner

              INVESTMENT IN FACILITIES AND INFRASTRUCTURE

    19. Senator Warner. General Schwartz, on the issue of the risk 
taken in recent years by the Air Force on investments in facilities and 
infrastructure which we posed to you in the advance policy questions, I 
was encouraged by your acknowledgement in answers provided to this 
committee that the Air Force ``will likely re-invest in infrastructure 
in fiscal year 2010 to ensure we preserve the capability of our bases--
our Installation Weapon Systems.'' In what areas of facilities and 
infrastructure do you perceive to have the most critical risk?
    General Schwartz. There is no single ``most'' critical area of 
risk. The risk we have had to take in facilities and infrastructure is 
broad and varies according to the need of each installation. We balance 
this risk across all installations by building our investment program 
from the bottom up, with wing commanders defining the needs of their 
installation. The Air Force has, however, given additional attention to 
single enlisted member living accommodations.

    20. Senator Warner. General Schwartz, will the reinvestment you 
have proposed include an increase in the amounts proposed for facility 
repairs and new construction?
    General Schwartz. Yes, we intend to increase our investment in the 
facility repairs and new construction in the fiscal year 2010 program 
and across the fiscal year 2011-2015 FYDP. The Air Force is currently 
vetting our fiscal year 2010-2015 POM through the corporate structure. 
We will know the exact level of investment in these areas after the 
final review and approval of our budget by OSD in December 2008.

    21. Senator Warner. General Schwartz, if so, do you have an idea of 
priorities you will propose for this increased investment?
    General Schwartz. The need of MILCON investment is across all 
facilities type, such as operational, training, maintenance hangars, 
R&D, and quality of life. MILCON projects included in the program wilt 
be based on individual project merits, meeting Air Force priorities, 
and staying within our top line constraints. The Air Force has, 
however, given additional attention to single enlisted member living 
accommodations.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

           JOINT SURVEILLANCE AND TARGET ATTACK RADAR SYSTEM

    22. Senator Chambliss. General Schwartz, Congress appropriated $16 
million in the Fiscal Year 2008 Defense Appropriations Act (H.R. 3222) 
to demonstrate the Senior Year Electro-optical Reconnaissance System 
(SYERS) electro-optical sensor on the E-8 JSTARS in support of the 
requirement for a combat identification (CID) capability on JSTARS, to 
reduce the sensor-to-shooter timeline. I understand the Air Force has 
issued an urgent operational need for a stand-alone CID capability on 
E-8C JSTARS. In light of the Secretary of Defense's call for more 
intelligence, reconnaissance, and surveillance capabilities to support 
the warfighter, what are the Air Force's plans for expeditiously 
executing this demonstration program so that the E-8C JSTARS platform 
can more effectively and efficiently prosecute targets of interest in 
the war in Iraq and Afghanistan?
    General Schwartz. The JSTARS program office has researched how the 
$16.0 million SYERS congressional add could best be utilized. The 
program office concluded the most reasonable approach is to conduct a 
feasibility study to determine how to install and employ SYERS on 
JSTARS without hindering other systems and to accurately estimate the 
costs associated with the effort. The JSTARS program office awarded the 
contract on 11 July 2008 to initiate the feasibility study. The study 
is expected to take approximately 4 months.

    23. Senator Chambliss. General Schwartz, the current TF-33-102C 
engines on the JSTARS do not satisfy desired safety margins or meet 
operational needs, and also limit JSTARS' operational parameters. I am 
pleased that the Air Force has contracted for the first two ship sets 
to re-engine the JSTARS aircraft. Re-engining the JSTARS fleet will 
increase mission efficiency as well as significantly reduce maintenance 
and fuel costs. Given the expected savings and increased capability 
that new engines will provide to this critical high demand asset, can 
you provide your assurance of the Air Force's commitment to fully re-
engine the JSTARS fleet?
    General Schwartz. The JSTARS program office awarded an 
Undefinitized Contract Action for the first two ship sets in May 2008, 
with deliveries scheduled for November-December 2010. The fiscal year 
2009 President's budget funds retrofit of 10 aircraft out of 17. 
Funding for the remaining seven operational aircraft remains an Air 
Force Priority and is being considered in the fiscal year 2010 POM 
process within the Department of Defense.
                                 ______
                                 
    Questions Submitted by Senator Max Baucus and Senator Jon Tester

                       UNIT/INVENTORY RETIREMENTS

    24. Senator Baucus and Senator Tester. General Schwartz, the Air 
Force's General Counsel has determined that the Air Force may retire an 
aircraft squadron as soon as a BRAC direction to establish a squadron 
is achieved. Under the General Counsel's definition, the term 
``establish'' includes the assignment of personnel and construction of 
military construction (MILCON) necessary for the unit's operation. Do 
you believe it is an efficient use of taxpayer dollars to retire a 
squadron when the Air Force has spent scarce funds to assign personnel 
and conduct MILCON activities for that squadron?
    General Schwartz. The situation you describe results from BRAC 
decisions that directed changes to the Air Force's force structure 
plan. Changing mission requirements and follow-on analyses have 
identified additional options to consolidate aircraft by type and 
location to maximize combat capability and achieve efficiencies in our 
operations. If confirmed, we will review those mission assignments 
directed by the 2005 BRAC legislation, and subsequent POM and budgetary 
decisions to assure we are making the very best use of taxpayer 
resources.

    25. Senator Baucus and Senator Tester. General Schwartz, 
understanding the need for the Air Force to retain discretion to move 
or retire units as needed to organize, train, and equip, do you believe 
that it is consistent with the spirit and intent of BRAC law to move or 
retire Air Force units within a year or 2 of their BRAC-required 
establishment?
    General Schwartz. As the Secretary implies, time does not stand 
still. New force structure and other military requirements have arisen 
since the Department of Defense and the BRAC Commission made their 
recommendations in 2005. In a fiscally constrained environment, the 
movement or retirement of any Air Force unit will be carefully 
considered. Adjusting Air Force units where necessary to better meet 
current and future needs should be considered an appropriate use of 
public resources.

    26. Senator Baucus and Senator Tester. General Schwartz, please 
describe your understanding of the Air Force's plans to reduce the F-15 
aircraft inventory. What in your view is the strategic and operational 
risk associated with this reduction in the near- and mid-term as well 
as the potential impact on pilot readiness, especially in the Air 
National Guard. Is this risk acceptable? At what level is it 
unacceptable? A classified reply is acceptable for the questions 
relating to risk level.
    General Schwartz. The Air Force's long-range plan is to ramp down 
the F-15 force to 177 aircraft and base them with Total Force 
Integration (TFI) units. The impact to risk and readiness with respect 
to a reduction in force structure is being evaluated. However, based on 
proposed F-15 force structure and the TFI construct, preliminary 
analysis shows there will be no impact to pilot readiness and risks are 
acceptable.

    27. Senator Baucus and Senator Tester. General Schwartz, if 
confirmed, will you rapidly re-examine all scenarios under 
consideration by the Air Force for inclusion in the fiscal year 2010 
POM that proposes to move or retire aircraft and units that were 
established by the 2005 law? Will you share with Congress your 
assessment, including analysis of costs or savings associated with 
these moves or retirements?
    General Schwartz. If confirmed, we intend to perform a thorough 
review of the Air Force's fiscal year 2010 POM submission to ensure 
compliance with BRAC implementation. We will identify in our fiscal 
year 2010 budget submission any BRAC implementation issues that may 
arise, and will discuss these issues with Congress as appropriate.
                                 ______
                                 
    [The nomination reference of Gen. Norton A. Schwartz, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 10, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chief of Staff, 
United States Air Force, and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 8033 and 601:

                             To be General

    Gen. Norton A. Schwartz, USAF.
                                 ______
                                 
    [The biographical sketch of Gen. Norton A. Schwartz, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of Gen. Norton A. Schwartz, USAF
    General Norton A. Schwartz is Commander, U.S. Transportation 
Command (TRANSCOM), Scott Air Force Base, IL. U.S. TRANSCOM is the 
single manager for global air, land, and sea transportation for the 
Department of Defense.
    General Schwartz attended the U.S. Air Force Academy and graduated 
in 1973. He is an alumnus of the National War College, a member of the 
Council on Foreign Relations, and a 1994 Fellow of Massachusetts 
Institute of Technology's Seminar XXI. He has served as Commander of 
the Special Operations Command-Pacific, as well as Alaskan Command, 
Alaskan North American Aerospace Defense Command Region, and the 11th 
Air Force. Prior to assuming his current position, General Schwartz was 
Director, the Joint Staff, Washington, DC.
    General Schwartz is a command pilot with more than 4,200 flying 
hours in a variety of aircraft. He participated as a crewmember in the 
1975 airlift evacuation of Saigon, and in 1991 served as Chief of Staff 
of the Joint Special Operations Task Force for Northern Iraq in 
Operations Desert Shield and Desert Storm. In 1997, he led the Joint 
Task Force that prepared for the noncombatant evacuation of U.S. 
citizens in Cambodia.
                                 ______
                                 
       Resume of Career Service of Gen. Norton A. Schwartz, USAF
Education:

1973......................................  Bachelor's degree in
                                             political science and
                                             international affairs, U.S.
                                             Air Force Academy, Colorado
                                             Springs, CO.
1977......................................  Squadron Officer School,
                                             Maxwell Air Force Base, AL.
1983......................................  Master's degree in business
                                             administration, Central
                                             Michigan University, Mount
                                             Pleasant
1984......................................  Armed Forces Staff College,
                                             Norfolk, VA.
1989......................................  National War College, Fort
                                             Lesley J. McNair,
                                             Washington, DC.
1994......................................  Fellow, Seminar XXI,
                                             Massachusetts Institute of
                                             Technology, Cambridge



Assignments:

August 1973-September 1974................  Student, undergraduate pilot
                                             training, Laughlin Air
                                             Force Base, TX.
October 1974-January 1975.................  Student, C-130 initial
                                             qualification training,
                                             Little Rock Air Force Base,
                                             AR.
February 1975-October 1977................  C-130E aircraft commander,
                                             776th and 21st tactical
                                             airlift squadrons, Clark
                                             Air Base, Philippines.
October 1977-December 1977................  Student, Squadron Officer
                                             School, Maxwell Air Force
                                             Base, AL.
December 1977-October 1979................  C-130E/H flight examiner,
                                             61st Tactical Airlift
                                             Squadron, Little Rock Air
                                             Force Base, AR.
October 1979-November 1980................  Intern, Air Staff Training
                                             Program, Office of the
                                             Deputy Chief of Staff for
                                             Plans, Operations, and
                                             Readiness, Headquarters
                                             U.S. Air Force, Washington,
                                             DC.
November 1980-July 1983...................  MC-130E flight examiner, 8th
                                             Special Operations
                                             Squadron, Hurlburt Field,
                                             FL.
July 1983-January 1984....................  Student, Armed Forces Staff
                                             College, Norfolk, VA.
January 1984-April 1986...................  Action officer, Directorate
                                             of Plans, Office of the
                                             Deputy Chief of Staff for
                                             Plans and Operations,
                                             Headquarters U.S. Air
                                             Force, Washington, DC.
May 1986-June 1988........................  Commander, 36th Tactical
                                             Airlift Squadron, McChord
                                             Air Force Base, WA.
August 1988-June 1989.....................  Student, National War
                                             College, Fort Lesley J.
                                             McNair, Washington, DC.
July 1989-July 1991.......................  Director of Plans and
                                             Policy, Special Operations
                                             Command Europe, Patch
                                             Barracks, Stuttgart-
                                             Vaihingen, Germany.
August 1991-May 1993......................  Deputy Commander for
                                             Operations and Commander,
                                             1st Special Operations
                                             Group, Hurlburt Field, FL.
May 1993-May 1995.........................  Deputy Director of
                                             Operations, later, Deputy
                                             Director of Forces, Office
                                             of the Deputy Chief of
                                             Staff for Plans and
                                             Operations, Headquarters
                                             U.S. Air Force, Washington,
                                             DC.
June 1995-May 1997........................  Commander, 16th Special
                                             Operations Wing, Hurlburt
                                             Field, FL.
June 1997-October 1998....................  Commander, Special
                                             Operations Command,
                                             Pacific, Camp H.M. Smith,
                                             HI.
October 1998-January 2000.................  Director of Strategic
                                             Planning, Deputy Chief of
                                             Staff for Plans and
                                             Programs, Headquarters U.S.
                                             Air Force, Washington, DC.
January 2000-September 2000...............  Deputy Commander in Chief,
                                             U.S. Special Operations
                                             Command, MacDill Air Force
                                             Base, FL.
September 2000-October 2002...............  Commander, Alaskan Command,
                                             Alaskan North American
                                             Aerospace Defense Command
                                             Region and 11th Air Force,
                                             Elmendorf Air Force Base,
                                             AK.
October 2002-October 2004.................  Director for Operations, the
                                             Joint Staff, Washington,
                                             DC.
October 2004-August 2005..................  Director, the Joint Staff,
                                             Washington, DC.
September 2005-present....................  Commander, U.S.
                                             Transportation Command,
                                             Scott Air Force Base, IL.



Flight information:
    Rating: Command pilot.
    Flight hours: More than 4,200.
    Aircraft flown: C-130E/H, MC-130E/H/P, HC-130, AC-130H/U, YMC-130, 
MH-53, and MH-60.

Major awards and decorations:
    Defense Distinguished Service Medal with oak leaf cluster
    Distinguished Service Medal
    Defense Superior Service Medal with oak leaf cluster
    Legion of Merit with two oak leaf clusters
    Defense Meritorious Service Medal
    Meritorious Service Medal with two oak leaf clusters
    Air Force Commendation Medal with oak leaf cluster
    Army Commendation Medal

Effective dates of promotion:

Second Lieutenant...................................       June 6, 1973
First Lieutenant....................................       June 6, 1975
Captain.............................................       June 6, 1977
Major...............................................   November 1, 1982
Lieutenant Colonel..................................      March 1, 1985
Colonel.............................................   February 1, 1991
Brigadier General...................................    January 1, 1996
Major General.......................................      March 4, 1999
Lieutenant General..................................  Janurary 18, 2000
General.............................................    October 1, 2005


                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Norton A. 
Schwartz, USAF, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Norton A. Schwartz.

    2. Position to which nominated:
    Chief of Staff, United States Air Force.

    3. Date of nomination:
    July 10, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 14, 1951; Toms River, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Suzanne E. (Ptak) Schwartz.

    7. Names and ages of children:
    None.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    - Air Force Academy Association of Graduates (member)
    - Air Force Academy Athletic Association (member)
    - Air Force Academy Society of Washington, DC (member)
    - Air Force Association (member)
    - Air Force Sergeants Association (member)
    - Air Commando Association (member)
    - Airlift/Tanker Association (member)
    - National War College Alumni Association (member)
    - National Defense Transportation Association (member)
    - Order of Daedalians (member)
    - Military Officers Association of America (member)
    - Council on Foreign Relations (member)
    - Concord Village Homeowners Association (member)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    - United Seamen's Service Admiral of the Ocean Seas
    - National Defense Transportation Association Leadership Award
    - Massachusetts Institute of Technology Seminar XXI (Air Force 
Fellow)
    - Air Commando Association Hall of Fame
    - Toms River High School Hall of Fame

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power.
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                     Gen. Norton A. Schwartz, USAF.
    This 12th day of June, 2008.

    [The nomination of Gen. Norton A. Schwartz, USAF, was 
reported to the Senate by Chairman Levin on July 31, 2008, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 1, 2008.]
                              ----------                              

    [Prepared questions submitted to Gen. Duncan J. McNabb, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I have served the majority of my Air Force career under 
Goldwater-Nichols provisions and have had ample opportunities to 
observe the implementation and the beneficial effects of Goldwater-
Nichols reform on all Services, including the Air Force. I am also a 
product of the joint education system that stemmed from that 
legislation. I completely agree with the goals of those defense 
reforms; they remain essential to the effective employment of our 
Nation's military forces. Most importantly, these reforms have yielded 
a demonstrated improvement in the joint warfighting capabilities of the 
United States Armed Forces. I realize that any legislation enacted 2 
decades ago, in the context of the Cold War, might need to be modified 
to reflect the current national security environment. I also realize 
that some members of this committee are hard at work on what is widely 
known as Goldwater-Nichols II. If confirmed as a joint commander, I 
will work closely with the Secretary of Defense, my counterparts across 
the joint community, and other senior leaders, as well as Congress, to 
make sure that this seminal legislation continues to be suitable for 
the challenges our Nation faces.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed as the Commander of United States 
Transportation Command (TRANSCOM), I look forward to the opportunity to 
further explore and assess Goldwater-Nichols from the vantage point of 
a Joint Combatant Commander.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, U.S. TRANSCOM?
    Answer. The mission of the Commander, United States TRANSCOM is to 
provide air, land, and sea transportation for the Department of Defense 
(DOD), in peace and war. The Commander relies on his Component 
Commands--Air Mobility Command (AMC), Military Sealift Command (MSC), 
and the Military Surface Deployment and Distribution Command (MSDDC)--
to accomplish this mission. The Commander also has the Distribution 
Process Owner (DPO) mission to improve the worldwide DOD distribution 
system. As DPO, the Commander works closely with the Defense Logistics 
Agency and the Services to identify inefficiencies, develop solutions 
and implement improvements throughout the end-to-end distribution 
system. The U.S. TRANSCOM team blends Active and Reserve Forces, 
civilian employees, and commercial industry partners to provide the 
mobility forces and assets necessary to respond to the full range of 
military operations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My career in operational and strategic lift, including 
Commander of the Tanker Airlift Control Center (TACC), service as Joint 
Staff Director for Logistics (DJ4) and as Commander, AMC, qualifies me 
for this challenging assignment. My most recent experience as Vice 
Chief of the United States Air Force and my ongoing interactions with 
the entire joint community, most specifically the Chairman and Vice 
Chairman, and the Army, Navy and Marine Vice Chiefs, as well as my 
service as a member of the Joint Requirements Oversight Council (JROC) 
add to my qualifications.
    If confirmed, I will be honored to lead the men and women of U.S. 
TRANSCOM as they continue--as true joint warfighters--to transform the 
logistics backbone that TRANSCOM provides the Nation and its allies in 
peace, crisis, and war.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. TRANSCOM?
    Answer. As Commander, I need a complete understanding of current 
Defense Department and national transportation issues, including the 
challenges facing the commercial transportation industry and our 
national partners upon whom we so heavily rely. I will strive every 
hour of every day to ensure I am prepared for this critical duty.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. TRANSCOM to 
the following offices:
    The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has full power and 
authority to act for the Secretary of Defense when serving as his 
designated representative. As such, the Commander, U.S. TRANSCOM, will 
report to and through the Deputy Secretary when serving in that 
capacity.
    Question. The Under Secretaries of Defense.
    Answer. Under Secretaries of Defense coordinate and exchange 
information with DOD components, including combatant commands, which 
have collateral or related functions. In practice, this coordination 
and exchange is normally routed through the Chairman of the Joint 
Chiefs of Staff. If confirmed as a combatant commander, I will act 
accordingly.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by title 10 as the principal 
military advisor to the President and Secretary of Defense. The 
Chairman serves as an advisor and is not, according to the law, in the 
chain of command, which runs from the President through the Secretary 
to each combatant commander. The President directs communications 
between himself and the Secretary of Defense to the combatant 
commanders via the Chairman of the Joint Chief of Staff. This keeps the 
Chairman fully involved and allows the Chairman to execute his other 
legal responsibilities. A key responsibility of the Chairman is to 
speak for the combatant commanders, especially on operational 
requirements. If confirmed as a Commander, I would keep the Chairman 
and the Secretary of Defense promptly informed on matters for which I 
would be personally accountable.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory authorities and 
obligations of other members of the Joint Chiefs of Staff. 
Additionally, he chairs the Joint Requirement Oversight Committee--a 
critical function and a product of the Goldwater-Nichols Act. When 
performing duties as the acting Chairman, the Vice Chairman's 
relationship with the combatant commanders is exactly the same as that 
of the Chairman. If confirmed, I will assist the Vice Chairman to 
execute the duties prescribed by law or otherwise directed by Secretary 
of Defense or the Chairman of the Joint Chiefs of Staff.
    Question. The Director of the Joint Staff.
    Answer. The Director of the Joint Staff assists the Chairman in 
managing the Joint Staff. The Director of the Joint Staff does not fall 
within the combatant commander's chain of command; however, he enables 
important decisions to be made as the combatant commander's staff 
interacts with the Joint Staff.
    Question. The Secretaries of the Military Departments.
    Answer. Close coordination with each Service Secretary is required 
to ensure that there is no infringement upon the lawful 
responsibilities held by a Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs. As members of the Joint Chiefs of Staff, 
the Service Chiefs have a lawful obligation to provide military advice. 
The experience and judgment the Service Chiefs provide is an invaluable 
resource for every combatant commander. If confirmed as Commander, U.S. 
TRANSCOM, I will pursue an open dialogue with the Service Chiefs and 
the Commandant of the U.S. Coast Guard.
    Question. The other combatant commanders.
    Answer. If confirmed, I will encourage open dialogue with the other 
combatant commanders to foster trust and build mutual support. Today's 
security environment requires us to work together to execute U.S. 
national policy.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. TRANSCOM?
    Answer. Looking ahead, I see two major challenges for U.S. 
TRANSCOM. The first is to preserve the viability of our commercial 
transportation partnerships-Civil Reserve Air Fleet (CRAF) and 
Voluntary Intermodal Sealift Agreement (VISA), in an era of high oil 
prices, industry consolidation and, at some point in the future, a 
post-Operation Iraqi Freedom (OIF)/Operation Enduring Freedom (OEF) 
environment with a significantly reduced business base. The second is 
to ensure we have the appropriate global en route infrastructure to 
support future force projection and sustainment as we shift to a 
smaller overseas military presence with more deployments from U.S. 
bases. In the near term, I am mindful of balancing worldwide mobility 
requirements and supporting our ongoing deployment, redeployment and 
distribution operations in Central Command (CENTCOM).
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. The CRAF and VISA programs are key components of the 
Nation's ability to project combat power. To that end I will ensure 
that I maintain a strong relationship with our industry partners, that 
I am mindful of the trends affecting the airline and sealift industries 
and that our contracts with our commercial partners deliver what the 
Nation needs. If confirmed I will also work closely with your staffs 
for any legislative support we believe is necessary to ensure the 
future viability of these programs. With respect to global en route 
infrastructure, I will work with the Office of the Secretary of Defense 
(OSD), the Joint Staff, the Combatant Commands, and the Services to 
maintain the existing en route network, and to ensure we make the 
necessary investments to expand strategic reach into emerging areas of 
interest, such as Africa, South America, and Southeast Asia.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish?
    Answer. If confirmed, I look forward to opportunities to explore 
and assess the challenges confronting U.S. TRANSCOM. Initially my 
priorities will be to ensure a viable surge capability for the 
deployment, sustainment, and redeployment of the Nation's military 
forces at a time when our commercial transportation partners are facing 
high oil prices and industry consolidation. I'll also work to preserve 
appropriate global en route infrastructure to support force projection 
and sustainment.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander, U.S. TRANSCOM?
    Answer. The first challenge is to continue to build a single 
unified Joint Deployment and Distribution Enterprise (JDDE). Unified 
enterprise efforts will enhance delivery of forces and sustainment to 
the Joint Force Commander, link the joint force to the DOD supply chain 
and improve trust and confidence in the distribution system. The second 
challenge is to balance our engagement with industry partners to keep 
this vital commercial capacity viable in time of need and to maintain 
military readiness. We must continue to incentivize our industry 
partners to maintain a robust commercial surge capability. At the same 
time, we must sufficiently employ our military assets to maintain their 
readiness. Managing the balance between industry and readiness will be 
especially challenging in a post-OEF/OIF world.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will prioritize these concerns and then 
define specific actions, time lines and solutions to build a unified 
JDDE and find a balance between military readiness and industry 
partnerships.

                       DISTRIBUTION PROCESS OWNER

    Question. In September 2003, following a review of logistics 
operations for Operation Iraqi Freedom, the Secretary of Defense 
designated the Commander, U.S. TRANSCOM, the Distribution Process Owner 
(DPO). As the DPO, U.S. TRANSCOM was tasked to improve the overall 
efficiency and interoperability of distribution related activities--
deployment, sustainment, and redeployment support during peace and war.
    What is your understanding of U.S. TRANSCOM's responsibilities as 
the DPO?
    Answer. The mission of U.S. TRANSCOM as the DPO is two-fold: first, 
to coordinate and oversee the DOD distribution system to provide 
interoperability, synchronization and alignment of DOD wide, end-to-end 
distribution; and, second, to develop and implement distribution 
process improvements that enhance the Defense Logistics and Global 
Supply Chain Management System.
    Question. What is your assessment of the progress U.S. TRANSCOM has 
made in improving the distribution process?
    Answer. The Command has made significant progress in transforming 
DOD distribution. U.S. TRANSCOM established a JDDE Community of 
Interest comprised of U.S. TRANSCOM and National Partners to develop a 
governance structure and measure performance framework, and to 
implement DOD distribution improvements. U.S. TRANSCOM now measures 
global DOD distribution performance from end-to-end using combatant 
commander defined measures of success. They then use those measures to 
make process improvements which increase distribution precision and 
reliability and decrease cost. For example, simple process changes in 
how ocean containers are booked has resulted in a 20 percent increase 
in velocity to the CENTCOM AOR. Likewise, network changes and process 
improvements in the U.S. European Command (EUCOM) have resulted in a 42 
percent reduction in over-ocean costs and a 22 percent reduction in 
channel air costs with improved delivery times to the customers. 
Finally, improved coordination as a result of DPO initiatives since 
2003 has achieved Total Validated Cost Avoidances of $1.9 billion.
    Question. Do you believe that the current systems needs any changes 
to enhance the ability of U.S. TRANSCOM to execute the responsibilities 
of the DPO?
    Answer. I believe the Commander of U.S. TRANSCOM has the necessary 
authorities to execute his responsibility as the DPO. If confirmed, I 
will continue to build on the hard work and successes achieved to date. 
I will also find new areas in the DOD supply chain that emphasize a 
total cost management view, that balance inventory costs with 
transportation costs and achieve best value for the warfighter.

                           STRATEGIC AIRLIFT

    Question. The longstanding requirement for strategic airlift has 
been set at a level of 54.5 million ton-miles a day (MTM/D).
    Based on your experience, do you perceive a continuing shortage in 
intertheater airlift?
    Answer. The requirement for 54.5 MTM/D of combined organic and 
commercial capacity was set by the Mobility Requirements Study 2005 
(released in 2000). Since then, the Mobility Capability Study (MCS) 
released in 2005 identified a range of 292-383 organic strategic lift 
aircraft necessary to meet the National Military Strategy in 2012. 
Furthermore during the C-5 Reliability Enhancement and Re-engining 
Program (RERP) Nunn-McCurdy process, the Joint Requirements Oversight 
Committee took this one step further and certified 33.95 MTM/D as the 
organic portion of the requirement necessary to satisfy the MCS. Based 
on this 33.95 MTM/D requirement, I do not currently perceive there to 
be a shortage of inter theater airlift assuming we resource 205 C-17s, 
52 RERP modified C-5Bs, and 59 Avionics Modernization Program modified 
C-5As. The upcoming Mobility Capabilities and Requirements Study 2016 
(MCRS-16) will analyze whether or not the 33.95 MTM/D requirement is 
still valid.

                    STRATEGIC AIRLIFT MODERNIZATION

    Question. Two years ago, you produced a briefing talking about the 
possibility of retiring some C-5A aircraft and buying a like number of 
C-17 aircraft to replace them. This briefing, which was called the 
``30/30 Plan,'' followed on the heels of senior Air Force officers' 
suggestions that the so-called worst actors in the C-5A fleet were not 
worth fixing or upgrading. This number of C-5A aircraft was estimated 
to be some 30 aircraft.
    In making his certification following the Nunn-McCurdy breach of 
the C-5 RERP, Under Secretary Young evaluated this 30/30 option and 
found that this alternative was both more expensive and less able to 
meet the current requirement for strategic airlift than the existing 
force.
    Did you, in your position as Commander of the AMC, support the 
``30/30 Plan?'' If so, why?
    Answer. The ``30/30 Plan'' started as a ``what if drill'' at SECAF 
direction of what options we had if cost growth of the C-5 RERP drove a 
Nunn-McCurdy breach. The Nunn-McCurdy process would require developing 
alternatives to fully RERPing the whole C-5 fleet (111 aircraft) to 
meet overall strategic lift requirements. The drill was to see if 
payback was feasible and the needed capability was satisfied if we 
recapitalized older C-5As with C-17s. The plan appeared to have merit 
and I supported further exploration. We found that there was potential 
for payback in life cycle costs in the out years. However, neither AMC 
nor the AF could afford the upfront bill and the SECAF and CSAF did not 
make it part of their 09-13 Program Objective Memorandum (POM) 
submittal to OSD.
    Question. Do you agree with Secretary Young's testimony on this 
plan?
    Answer. Yes, I do agree with Secretary Young's decision to RERP the 
C-5Bs. By this time (post Nunn-McCurdy), the JROC had established 33.95 
MTM/day as the minimum capacity for all N-M options to be measured 
against. This was in addition to the MCS requirement for 292-383 and 
NDAA 2007 language mandating the Air Force maintain a minimum 299 
strategic lift aircraft. Mr. Young had a very collaborative process and 
chose the best option to meet all these requirements.

                           STRATEGIC SEALIFT

    Question. Strategic sealift has always played a significant role in 
providing support to our forces overseas. Typically, we have seen 
strategic sealift delivering 95 percent of the equipment transported to 
overseas contingencies.
    Are there any initiatives that you believe are necessary, if 
confirmed, in the area of strategic sealift?
    Answer. If confirmed, I will work with the U.S. Navy and our 
commercial sealift partners to develop initiatives such as Joint 
Seabasing and Joint High Speed Vessels, which may play a role in 
enhancing strategic sealift. Strategic Sealift continues to play a 
vital role in the transportation of equipment and supplies for the DOD. 
The MSC, the MSDDC, and U.S. Maritime Administration, working in 
partnership with the U.S. maritime industry, have done a superb job at 
meeting the performance requirements of strategic sealift as we execute 
OEF and OIF and support other military missions around the globe. 
Current initiatives, in particular the Maritime Security Program, help 
ensure the viability of the U.S. flag maritime industry. I look forward 
to the results of the Mobility Capabilities Requirement Study to define 
required changes in capability needed by the military to transport 
equipment and supplies in the future.

                        CIVIL RESERVE AIR FLEET

    Question. With the expansion of military operations since September 
11, 2001, the Air Force's mobility requirements have increased. The Air 
Force has in the past, and may very well in the future, rely heavily on 
the Civil Reserve Air Fleet (CRAF) to supplement its organic airlift.
    Do the changes in the commercial airline industry, characterized by 
bankruptcies and a move toward smaller and shorter-range aircraft, 
bring into question the future viability of the CRAF system?
    Answer. While it's true that the industry is trending toward 
smaller aircraft for domestic service, several recent studies indicate 
that the airline industry will continue to provide sufficient numbers 
of large, long-range aircraft to meet our defense needs. However, the 
current trends in the U.S. commercial air industry are worrisome. The 
sudden jump in fuel costs has negatively impacted the industry and our 
CRAF partners as well. I am particularly concerned about the state of 
the passenger charter segment, the carriers who perform the bulk of our 
day-to-day personnel missions. If confirmed, I will work closely with 
this committee on legislative support like the CRAF Assured Business 
proposal currently under consideration by your staff. I will also work 
with our CRAF partners to ensure the business relationships are solid 
and the contracts support DOD requirements.

                       JOINT COMMAND AND CONTROL

    Question. Initial reporting from recent military operations 
indicate joint command and control capabilities have greatly improved 
in recent years.
    What is your assessment of the performance of U.S. TRANSCOM's 
global and theater command and control (C2) systems?
    Answer. U.S. TRANSCOM's global C2 systems work remarkably well, as 
evidenced by our timely support of warfighter requirements.
    Question. What interoperability challenges remain between service-
to-service and service-to-joint C2 systems?
    Answer. An immediate challenge is to improve information exchanges 
across the various classification boundaries and between Services and 
combatant commanders, while simultaneously improving information 
sharing with our commercial and coalition partners. Information sharing 
is crucial to successful and safe mission accomplishment, but there are 
clear and dangerous security risks that require constant attention.
    Finally, to enhance service-to-joint C2 systems, we are identifying 
key processes and information technology solutions that best integrate 
service unique or stand-alone applications to enhance the delivery of 
timely, accurate, and complete data. The U.S. TRANSCOM team is working 
with our commercial partners and individual services to ensure these 
interoperability risks are mitigated. If confirmed, I will maintain 
U.S. TRANSCOM's superior service to our customers, and most 
importantly, our warfighters.
    Question. What role should the U.S. TRANSCOM Commander play in 
ensuring the development of reliable, interoperable, and agile C2 
systems?
    Answer. As DPO, the U.S. TRANSCOM Commander must play a pre-eminent 
role in the integration of C2 systems across boundaries and domains 
from one end of the distribution chain to the other. Commercial 
partners, Defense Logistics Agency, Joint Staff, combatant commanders, 
Services, and coalition partners all have unique logistics systems that 
serve their mission.
    If confirmed, I will work with distribution partners and customers 
to make C2 improvements which will allow secure and unconstrained 
sharing of information across these domains. This is a clear challenge, 
but necessary, if we are to maximize the combat multiplying effects of 
logistics for the warfighter.

                       NUCLEAR WEAPONS MANAGEMENT

    Question. Recently the Air Force has experienced several failures 
in its stewardship of nuclear weapons including the unauthorized 
transfer of nuclear weapons from Minot to Barksdale and the shipment of 
nosecones to Taiwan.
    As Vice Chief of Staff, did you play any role in supervising 
nuclear security, and command and control, and have you played any role 
in implementing corrective actions in response to the various reports 
and recommendations of these incidents?
    Answer. Yes.
    Question. If yes, please explain what role you played in each 
circumstance.
    Answer. I assumed my position soon after the unauthorized munitions 
transfer back in September 2007.
    I played no role in nuclear surety supervision or command and 
control regarding the unauthorized transfer of weapons from Minot to 
Barksdale or the shipment of nosecones to Taiwan. As both Vice Chief 
and now acting Chief, I am deeply involved in implementing actions and 
initiatives to respond to recommendations of the various reports and 
studies on the Air Force Nuclear Enterprise. For example, I supported 
the CSAF creation of the Air Force Blue Ribbon Review. This was an 
independent review that looked across the entire AF Nuclear Enterprise. 
Out of that review, we took the initial steps to begin shifting 
resources to meet pressing requirements and address shortfalls we have 
identified. More work needs to be done--and that work is ongoing.
    I also oversaw the revision of the Air Force Nuclear General 
Officer Steering Group charter to broaden the membership and increase 
the level of leadership chairing the group to a three-star. The Air 
Force depends on this body to oversee the range of corrective actions 
underway and ensure the broadest application of best practices across 
the Air Force Nuclear Enterprise. This entity, which includes more than 
20 active duty general officers plus SES, is a vital component to the 
oversight of the Air Force Nuclear Enterprise.
    Most recently, at the direction of the acting Secretary of the Air 
Force, I stood up the Air Force Nuclear Task Force whose 
responsibilities include:

        -  Coordinating and synchronizing the ongoing implementation of 
        specific actions underway in response to the Minot/Barksdale 
        and Taiwan incidents.
        -  Developing in coordination with STRATCOM, other DOD 
        components and interagency partners, a strategic roadmap to 
        rebuild and restore capabilities and confidence in our 
        stewardship of the Air Force Nuclear Enterprise.
        -  Undertaking an organizational review to assess and recommend 
        options for alternative assignments of responsibility and/or 
        command arrangements.
        -  Serving as Air Force focal point for coordination with and/
        or support to other nuclear-related panels, commissions or 
        review groups outside the Air Force.

    There is much work completed and even more underway, all benefiting 
from engaged leadership at all levels and dedicated airmen who are 
absolutely committed to this vital mission.

                         AEROMEDICAL EVACUATION

    Question. Following the cancellation of the C-9A aircraft for 
medical evacuation in 2003, the AMC adopted a new operational approach 
to its worldwide mission of aeromedical evacuation. The new concept 
employs other airlift, such as cargo and aerial refueling aircraft, for 
the air evacuation of wounded and ill patients. The committee has 
concerns about the level and quality of aeromedical evacuation support 
for our severely injured or ill personnel.
    If confirmed, how would you ensure that the highest quality 
standard of aeromedical evacuation is provided for severely wounded and 
ill patients?
    Answer. The transition to designated (vs. dedicated) aeromedical 
evacuation aircraft has transformed our global patient movement 
capability. This concept allows different aircraft to be rapidly 
configured for patient movement out of combat zones, a capability not 
offered by the C-9A. It includes newly designed patient support pallets 
and allows critical care teams to do intensive care of our wounded in 
flight if required. We have received tremendous support for this 
initiative across the board, including Congress. During 2007, over 
11,000 patients--of which 2,700 were battle injuries--were moved to 
definitive care. Those patients categorized as urgent or priority were 
moved within 12-24 hours. Along with other medical improvements, this 
timely movement has resulted in dramatically increased survival rates 
from combat injuries. If confirmed, I would continue to ensure the 
highest quality of care for our wounded and ill patients.

                        RESEARCH AND DEVELOPMENT

    Question. U.S. TRANSCOM's budget includes funding for a research 
and development activity designed to allow for examination and 
improvement of the entire supply chain as part of U.S. TRANSCOM's role 
as DPO.
    What are the major capability gaps related to U.S. TRANSCOM's 
mission that need to be addressed through research and development 
efforts?
    Answer. The major capability gaps are:

        <bullet> Deployment and Distribution Velocity Management--
        Targeting optimized throughput at the nodes and through the 
        conduits of the deployment and distribution supply chains, from 
        origin to point of use and return.
        <bullet> Cross Domain Planning--Improving decisionmaking and 
        collaboration within the supply chain, from the planning stage 
        to real-time execution and retrograde operations.
        <bullet> End-to-End Visibility--Providing end-to-end visibility 
        of all aspects of the projection and sustainment of forces and 
        equipment to enable operations.
        <bullet> Distribution Planning and Forecasting--Providing 
        distribution planning, based on an understanding of aggregated 
        customer requirements, for optimizing the end-to-end 
        distribution process.
        <bullet> Joint Transportation Interface--Synchronizing, through 
        information exchange, strategic/theater delivery capabilities 
        to meet increasingly dynamic customer needs.
        <bullet> Distribution Protection/Safety/Security--Providing the 
        appropriate security in a timely manner during deployment and 
        distribution operations.

    Question. What unique processes and technologies do you feel U.S. 
TRANSCOM needs to develop through its own program and investments?
    Answer. U.S. TRANSCOM's research, development, test, and evaluation 
(RDT&E) projects should focus on processes and technologies to address 
challenges including:

        <bullet> Command, Control, Computers, and Communications 
        Information Operations--global C3 to include en route 
        communications that support Joint Deployment Distribution 
        Operations Centers, Port Opening Capabilities, Director of 
        Mobility Forces, Very Important Personnel (VIP) airlift; 
        requirements visibility, assessment, and planning; end-to-end 
        in-transit visibility and improving container management.
        <bullet> Mobility Air Forces All Weather Capability--next-
        generation joint precision airdrop system and autonomous 
        landing and refueling.
        <bullet> Defensive Systems--mobility asset protection to 
        include protecting/mitigating risks of chemical, biological, 
        radiological, and nuclear threats.
        <bullet> Transportation and Connector Systems--synchronize 
        strategic/theater delivery capabilities. Physical and command 
        and control continuity in the DOD supply chain; optimize flow 
        in the supply chain; improved visibility and synchronization 
        with commercial lift providers.
        <bullet> Fossil Fuel Dependency--collaborate with DOD and 
        industry research for alternative solutions.

    Question. How will you work with other research and development 
organizations to ensure that U.S. TRANSCOM's current and future 
capability gaps are addressed?
    Answer. Nearly 75 percent of U.S. TRANSCOM RDT&E projects are 
collaboratively funded and most of our efforts result in tangible 
improvements in the hands of the warfighter within 2 to 3 years. The 
command uses annual announcements to solicit national and Service 
laboratories, as well as industry proposals. The proposals are vetted 
throughout the Joint Deployment and Distribution Enterprise for 
concurrence. If confirmed, I will continue U.S. TRANSCOM's program of 
collaborative partnership with the Services, Defense Logistics Agency, 
the combatant commanders and Joint Staff to identify, validate and 
recommend RDT&E projects to explore emerging technologies to close 
logistics gaps.

                         TECHNOLOGY PRIORITIES

    Question. Serving the needs of the combatant commanders both in the 
near-term and in the future is one of the key goals of the Department's 
science and technology executives, who list outreach to commanders as 
an activity of continued focus.
    What do you see as the most challenging technological needs or 
capability gaps facing U.S. TRANSCOM in its mission to provide air, 
land, and sea transportation to the DOD?
    Answer. Certainly, mitigating fossil fuel dependency is of utmost 
concern. As previously mentioned, there is a collaborative effort to 
identify capability gaps to determine the top technical and operational 
challenges (listed above) facing the distribution community. If 
confirmed, I will continue to address these gaps and shift resources as 
necessary to meet the most critical need. Additionally, I would look at 
such critical areas as information security and assurance as well as 
new cyber technologies to ensure greater efficiency and mission 
accomplishment.
    Question. What would you do, if confirmed to make your technology 
requirements known to the department's science and technology community 
to ensure the availability of needed equipment and capabilities in the 
long term?
    Answer. If confirmed, I will focus my efforts on the transitioning 
of successful technologies. I would continue to involve the JDDE in 
recommending technology investments, agreements with various Service 
labs, and annual announcements. I will continue U.S. TRANSCOM's 
practice of advertising its RDT&E efforts by: (1) briefing projects to 
the Functional Capability Board community; (2) documenting efforts 
within Director Defense Research & Engineering R&D documents (e.g. 
Joint Warfighter Science & Technology Plan); (3) participation in 
government and industry sponsored technology symposiums; and (4) 
technology exchange visits with Service and national laboratories.

                         TECHNOLOGY TRANSITION

    Question. U.S. TRANSCOM has been active in the Advanced Concept 
Technology Development (ACTD) process.
    What are your views on the ACTD process as a means to spiral 
emerging technologies into use to confront changing threats and to meet 
warfighter needs?
    Answer. I fully support the Department's ACTD program and believe 
it continues to be the joint community's best opportunity to quickly 
leverage mature technology to meet warfighter needs.
    Question. What steps will you take, if confirmed, to enhance the 
effectiveness of technology transition efforts within your command and 
in cooperation with other Services and defense agencies?
    Answer. If confirmed, I will push rapid technology transition to 
ensure we get the maximum return on our RDT&E investments. 
Specifically, I will include the Services, the COCOMs, the JDDE 
partners, OSD, and the Joint Staff in the project selection process to 
ensure buy-in and avoid unnecessary duplication of effort. Finally, I 
will ensure that proposals have a program of record for transition 
identified and that rapid fielding is emphasized from day one.

                             FAMILIES FIRST

    Question. For over 10 years, U.S. TRANSCOM and its subordinate 
command, Surface Deployment and Distribution Command, have been working 
to improve the process of moving servicemembers' household goods and 
gaining the support of the transportation provider industry for needed 
changes. Implementation of the new system--``Families First''--uses a 
``best value'' approach to contracting with movers that focuses on 
quality of performance, web-based scheduling and tracking of shipments, 
servicemember involvement throughout the moving process, and a claims 
system that provides full replacement value for damaged household 
goods. Successful implementation of this system depends on replacement 
of the legacy Transportation Operational Personal Property Standard 
System (TOPS) with the web-based Defense Personal Property System 
(DPS).
    What is your understanding of the status of TOPS and the progress 
that has been made in implementing the DPS?

        <bullet> TOPS is a 20 year old system that is at the end of its 
        life cycle and has both technical and information security 
        issues.
        <bullet> DPS will begin shipments at 18 selected Personal 
        Property Shipment Offices on or about September 10, 2008. Full 
        deployment to the remaining sites will follow by December 3, 
        2008 after completion of a new rate filing by Industry. TOPS 
        will be decommissioned by April 30, 2009.

    Question. What do you view as the most significant challenges that 
remain in fully implementing DPS?
    Answer.

        <bullet> Training is critical to system success. As part of DPS 
        rollout, we must continue to provide worldwide training to the 
        Services personnel.
        <bullet> We have work remaining to mature the DPS system and 
        Personal Property business processes for next summer's peak 
        season.
        <bullet> Industry buy-in to provide full replacement value 
        (FRV) for household goods that remain in storage for extended 
        periods and are handled by multiple industry partners remains a 
        challenge.

    Question. What is your assessment of the success in implementing 
the requirement for FRV for damaged or missing household goods claims?
    Answer.

        <bullet> FRV has been successfully implemented across the 
        Services, and is now in place for all modes of shipments in 
        support of Families First.

    Question. What is your assessment of the adequacy of the response 
rate on customer satisfaction surveys as a method for identifying best 
and worst performers?
    Answer. Customer Satisfaction Survey response rates are 20 percent. 
It is clear the survey response rates are key to ensuring only quality 
service providers participate in the program. To that end, if 
confirmed, I will work closely with the Service Chiefs to increase the 
response rate.
    Question. If confirmed, what role would you play in ensuring that 
Families First is fully funded and implemented and would you make every 
effort to ensure this program is successful in meeting its goals?

        <bullet> If confirmed, I will leverage DPS to continue to 
        improve our business processes for household goods and 
        services.
        <bullet> I will continue General Schwartz's efforts and fully 
        fund the DPS program as an Information Technology enabler of 
        Families First. Families First remains a team effort among U.S. 
        TRANSCOM, the Service components and industry, and I will 
        continue our close partnership to ensure success.

                   FEE-FOR-SERVICE COMMERCIAL TANKERS

    Question. The Assistant Secretary of the Air Force for Acquisition 
testified last April that the Air Force is moving forward with a 
congressionally-mandated plan to develop a Fee-For-Service Aerial 
Refueling Pilot Program. However, the AMC Commander, General Arthur J. 
Lichte, has testified that he has questions ``with regard to the 
operational procedures, FAA requirements and certifications, and legal 
issues that come up.''
    In your view, is the Air Force doing everything it can to ensure 
the intent of Congress is carried out in implementing the fee-for-
service pilot program?
    Answer. The Air Force is providing the necessary foundation to 
ensure the intent of Congress is carried out with respect to studying 
the fee-for-service pilot program. The Air Force has already released a 
Request for Information and had dialogue with industry for concept 
refinement. A Request for Proposal is planned to be released in first 
quarter fiscal year 2009, after which the Air Force anticipates 
receiving proposals from interested/qualified offerors. If executed, we 
anticipate industry will require 18-24 months to accomplish boom 
design, modification, and airframe integration.
    Question. What concerns, if any, do you have about the conduct and 
purpose of this pilot program?
    Answer. I do have some concerns regarding the funding and 
operational impacts of this program. There was no fiscal year 2008 
appropriation to accompany the National Defense Authorization Act for 
Fiscal Year 2008 direction, so the Air Force is working on 
reprogramming funds for the program in fiscal year 2008-2009. Unlike 
the Navy program which uses a probe and drogue refueling system, this 
program requires significant industry commitment and investment to 
develop and certify a commercial boom-equipped aircraft. A minimum of 
an additional 6 months will be required for boom system operation, 
aircrew certification, and receiver qualification. Once complete, we 
can conduct the pilot program in fiscal years 2012-2016.
    We will assess progress and ensure we meet program requirements in 
the yearly reports submitted to Congress.

        AIR FORCE ABILITY TO RESPOND TO WORLDWIDE CONTINGENCIES

    Question. What impact, if any, do you see on the Air Force's 
ability to respond to worldwide contingencies as a consequence of the 
demands of current operations in Iraq and Afghanistan?
    Answer. Our airmen have been vital to the success of the Joint team 
in the global war on terrorism, and have also provided global 
deterrence and assured our friends. The Air Force is organized, 
trained, equipped, and prepared to respond rapidly, flexibly, and 
precisely to worldwide contingencies. The Air Force has capabilities 
and manpower with specialized skills in high demand in Iraq and 
Afghanistan, such as strike, airlift, aeromedical evacuation, 
intelligence, surveillance, reconnaissance, explosive ordnance 
disposal, and security forces. Our airmen are honored to do their part, 
but our wartime tempo has had its effect on our people and our 
equipment. The high operations tempo accelerates the effects of aging 
on our inventory and erodes some skills necessary for future success. 
Despite these challenges, we are committed to our Nation's defense and 
to the entire joint team, and we will keep our Air Force relevant, 
capable, and sustainable.
    Question. How much additional risk is the United States assuming in 
this regard?
    Answer. The Air Force is fully supporting the Secretary of Defense 
and combatant commanders with expeditionary and in place forces. Our 
Major Commands and Component Numbered Air Forces fully support all the 
Functional and Unified combatant commanders in planning and executing 
operations. We use an AEF process to manage operational tempo and 
enable rapid and tailored responses to worldwide contingencies as well 
as protecting the homeland through Operation Noble Eagle. Our forces 
engaged in combat today are fully ready to perform their missions, but 
our future full spectrum readiness and dominance are at risk unless we 
continue to reset the force and recapitalize our aging fleet. We must 
continue to ensure the U.S. military is capable of setting conditions 
for America's success against emerging threats in an uncertain future.

                          JOINT CARGO AIRCRAFT

    Question. In June 2006, the Army and Air Force signed a memorandum 
of understanding regarding the merger of two separate small cargo 
aircraft programs into the Joint Cargo Aircraft (JCA), a plane that 
will be smaller than the Air Forces C-130, but larger than the Army's 
C-23 Sherpa.
    In your view, is there a roles-and-missions redundancy between the 
Army and the Air Force with respect to the JCA?
    Answer. No. There are valid direct support lift requirements that 
call for Service Organic fixed wing aircraft to meet a ground 
commander's need for Time Sensitive/Mission Critical (TS/MC) delivery 
of passengers and cargo.
    Question. What changes to this program, if any, would you 
recommend?
    Answer. I support the program of record. However, if confirmed, I 
will take a hard look at lessons-learned from OEF and OIF to ensure the 
JCA is employed to support both the time sensitive needs of the Army 
and to maximize its utility to other users in theater. To that end, we 
will look at changes in doctrine and supporting capabilities to ensure 
the JCA can be used in multiple roles no matter which Service operates 
the aircraft.

  ACQUISITION OF SENIOR LEADERSHIP IN-TRANSIT CONFERENCE CAPSULES AND 
                    SENIOR LEADER IN-TRANSIT PALLETS

    Question. Since 2006, the AMC has pursued two programs to upgrade 
the level of accommodations for senior Air Force and Pentagon officials 
while in-transit on aircraft. These two programs are known as the 
Senior Leadership In-Transit Conference Capsule (SLICC) and Senior 
Leader In-Transit Pallet (SLIP). Currently the Air Force is seeking 
several million dollars in global war on terrorism supplemental funding 
for these programs.
    Do you believe that these upgrades to senior leadership travel 
quarters are a legitimate use of global war on terrorism funding?
    Answer. The global war on terrorism has raised new requirements 
across the board. Specifically, in the wake of September 11, there has 
been an ever-growing demand for Senior Leader transportation across the 
globe--especially into Iraq, Afghanistan, and other theaters of the 
global war on terrorism. Our efforts were aimed at responding as 
quickly and efficiently as possible to growing COCOM and senior 
leadership requirements, optimizing both dedicated aircraft and 
leveraging the existing air bridge whenever possible. Indeed, I started 
this initiative when I was the DJ-4 on the Joint Staff. My goal was to 
increase efficiency in the utilization of scarce assets, while safely 
accomplishing the mission. The concept was to take one to two pallet 
positions on an already tasked aircraft, integrating Senior Leader 
transport into pre-assigned missions. These missions could be from the 
continental United States or use prepositioned assets in theater to 
transport leaders who came by dedicated assets that did not have 
required defensive systems. By having these assets in theater, we could 
also take advantage of commercial flights into theater. Upon taking 
over as AMC/CC, I directed the development of prototypes that were 
built to the standards of Very Important Person Special Airlift Mission 
(VIPSAM) aircraft. At this point we have a prototype SLIP and just 
delivered the first operational pallet. We also have the prototype 
SLICC in development. These were done using baseline funding. We still 
need to complete operational test and evaluation of the systems to 
validate they meet the requirements.
    Question. In your view are these emergency or time-critical 
requirements?
    Answer. While these are not emergency requirements in the 
traditional sense of the word, the need stems from the increased demand 
levied in the context of global war on terrorism. There is less of an 
urgent need now because, thanks to the efforts of Congress, more of the 
dedicated airlift aircraft have been equipped with the necessary 
defensive systems to fly senior leadership into higher threat areas.
    Question. Do you support these expenditures?
    Answer. The Air Force funded the development of these protoypes 
through baseline funding in February 2007.
    Question. Have you determined this to be a priority within AMC?
    Answer. When I was the AMC/CC, I thought the concept warranted the 
investment for prototyping and further evaluation. I'm confident that 
this requirement is being vetted through the normal resource allocation 
process within the Air Force and OSD.
    Question. Have you ensured that expenditures on SLICCs and SLIPs 
are reasonable and limited to only necessary costs?
    Answer. Yes, the driving force behind this entire initiative was 
efficiency and cost savings. The prototypes were designed and built to 
the same standards as the existing VIPSAM fleet. Careful attention was 
given to scaling the requirements to maximize security, communications 
and the ability to work enroute, while adhering to FAA safety 
standards.

                     ACTIONS OF AIR FORCE OFFICERS

    Question. Over the last several years, senior Air Force officers 
are alleged to have advocated the funding of a number of programs that 
were not included in the President's budget and for which there was no 
currently validated joint requirement. These programs include the 
procurement of additional C-17s, the continuation of the C-130J multi-
year contract, and the multi-year procurement of additional F-22 
aircraft. Senior Air Force officers are also alleged to have advocated 
a legislative proposal that would overturn a decision of the Base 
Realignment and Closure Commission relative to Joint Basing.
    What is your view of the propriety of efforts by senior Air Force 
officers to advocate the funding of programs that are not included in 
the President's budget and for which there is no currently validated 
joint requirement?
    If confirmed, what steps, if any, would you take to curb such 
efforts?
    Answer. Our Nation was founded on the principle of civilian control 
of the military. That includes supporting the President's budget and 
legislative programs. Other than those occasions when individuals 
appear before appropriate committees of Congress and are asked to give 
their personal views, the military services cannot function effectively 
and credibly if senior officers advocate for programs or funding of 
requirements that are not a part of the President's budget. I am keenly 
aware of the responsibility I and others have to fully support the 
President's budget and provide candid, honest information to our 
superiors. That would include responding accurately to questions from 
Congress. If confirmed I would ensure that members of my command 
understand the responsibility to fully support the President's budget 
and always put answers in that context whether discussing present or 
future plans/requirements.

                           DEFENSE BUDGETING

    Question. On January 27, 2008, the Washington Post reported on 
internal Air Force briefing slides, called ``CSAF 2008 Leadership Forum 
Strategic Communication Update,'' which included statements that: ``the 
Air Force is targeting the other Services;'' the ``Budget Battle'' is a 
``Zero Sum Game'' and a ``Non-Permissive Environment;'' and ``some 
Services are going to win and some are going to lose.''
    What is your view of these briefing slides and the views that they 
appear to be intended to communicate?
    Answer. The two slides that appeared in the Washington Post were 
part of a larger 10-slide internal briefing to Air Force retired senior 
leadership, to inform them of a Communication Campaign Plan underway to 
better plan and execute the message about the Air Force's contribution 
to national security, and to encourage their participation.
    Competition for funding is inherent in the Federal budgetary 
process; therefore, it does not seem unusual for the Air Force to 
communicate its contribution to National Security to obtain its share 
of defense resources. All Services and agencies engage in similar 
activities. If confirmed, my focus as the Commander of U.S. TRANSCOM, 
will be on joint strategic mobility and distribution programs which 
span all Service budgets.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. TRANSCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                       STRATEGIC AIRLIFT PROGRAMS

    1. Senator Levin. General McNabb, in response to the advance policy 
questions, you mentioned the requirement of having enough organic 
airlift aircraft to meet the 33.95 million ton-miles per day (MTM/D) 
requirement. You also said that the current program of 205 C-17s, 52 
Reliability Enhancement and Re-engining Program (RERP) modified C-5Bs, 
and 59 Avionics Modernization Program (AMP) modified C-5As would meet 
that goal. Do you have reservations that the 33.95 MTM/D requirement is 
understated? If so, why?
    General McNabb. Based on analysis completed to date, the 33.95 MTM/
D requirement is adequate. Looking ahead, however, the Department's 
Mobility Capabilities and Requirements Study 2016, as well as a 
congressionally-directed analysis of airlift requirements and force 
mix, might develop a different MTM requirement. These studies are 
considering several new factors including revised Defense Planning 
Scenarios, emerging over-sized and out-sized requirements such as the 
Army's Future Combat System, the reduction of our overseas footprint, 
Army and Marine troop-strength increases, and the standup of Africa 
Command (AFRICOM).

    2. Senator Levin. General McNabb, if the Department were to decide 
that the total strategic airlift requirements (organic airlift plus 
commercial partners participating in the Civil Reserve Air Fleet (CRAF) 
program) were larger, what would be the best way of meeting those 
needs?
    General McNabb. This answer is based on understanding exactly how 
and why the requirement has changed. For example, if the new 
requirement relates to over-sized and out-sized capacity, then the 
solution might lie within our organic fleet, since this capability is 
generally not available in CRAF. If increased passenger or bulk cargo 
movement drive the requirement, our CRAF partners could likely provide 
an adequate solution. In general, the best way to meet the Nation's 
continuing strategic airlift requirement is through our proven DOD 
capabilities backed up with an effective pool of commercial capacity to 
meet both peacetime surge requirements and support full mobilization.

    3. Senator Levin. General McNabb, should we be concerned about the 
balance of capacity between our commercial partners in the CRAF program 
and the Air Force's organic capability?
    General McNabb. I believe the balance of organic and commercial 
capacity is correct, but I do have concerns about CRAF and our organic 
capability. On the CRAF side, we need to review the economic health of 
that program in light of likely trends in the national security 
environment as well as in the airline industry. Once this review is 
complete, we need to make appropriate changes in our business 
relationships and contracts with CRAF partners to ensure peacetime, 
surge, and mobilization requirements will be met. On the organic side, 
we must realize the programmed C-5 reliability improvements and the buy 
of C-17s because both are critical to meeting our strategic lift 
requirements.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                  C-27J SPARTAN, JOINT CARGO AIRCRAFT

    4. Senator Bill Nelson. General McNabb, the Air Force will augment 
its fleet of intratheater transports and Air Force Special Operations 
Command, with U.S. Special Operations Command, will supplement its 
fleet of support aircraft with the C-27J. The Air Force's initial order 
is for 24 aircraft, but it has projected a need for 70 to 100 more in 
future years. If confirmed, how will you support the Air Force's 
efforts to procure the C-27J for the intratheater mission?
    General McNabb. We will take into account lessons-learned from 
Operation Enduring Freedom, Operation Iraqi Freedom, and other recent 
operations to ensure that the C-27J supports the needs of all customers 
in the theater. Initial Air Force analysis indicates that the U.S. Air 
Force primary intratheater General Support mission may best be met with 
additional C-130J aircraft. However, there are other Direct Support and 
General Support missions such as homeland defense, disaster relief, 
medical evacuation, reducing convoy vulnerability to improvised 
explosive devices, or AFRICOM support that may drive the need for 
additional Joint Cargo Aircraft (JCA). Evaluating JCA capabilities 
across the full range of military operations will point the way to the 
optimal fleet mix which will maximize airlift efficiency across all 
platforms. A RAND analysis to address the broader set of missions is 
underway and will conclude by the end of 2008.

    5. Senator Bill Nelson. General McNabb, explain how you will work 
with the Army to develop a comprehensive plan to provide inter- and 
intratheater lift in support of all military operations and 
contingencies.
    General McNabb. I fully support all initiatives that embrace 
Service partnerships to enhance joint effectiveness and minimize 
unnecessary redundancy.
    U.S. Transportation Command (TRANSCOM) is leading a comprehensive 
Mobility Capability Requirements Study to evaluate all Joint Force 
Commander movement requirements and the necessary military and 
commercial capacity to satisfy those needs. The study will conclude in 
May 2009, and it incorporates Army requirements for intertheater and 
intratheater deployment as well as distribution support for movement to 
the point of need.
    The Air Force and the Army operate airlift capabilities in close 
proximity in intratheater airlift. If confirmed, I will ensure the Air 
Force and Army cooperate to maximize the utility of theater airlift 
assets. U.S. TRANSCOM is currently co-leading a Roles and Missions 
review of intratheater airlift operations with a focus on the JCA.
    The results of these efforts will improve joint synergy and 
effectiveness while minimizing duplication of effort. Their focus is 
the traditional division of General Support provided by the Air Force 
through a common-user airlift service and Direct Support conducted by 
the Services with organic aviation assets to meet the time sensitive 
and mission critical needs. The C-27J offers short field performance 
for Direct Support operations while providing significant payload and 
range to accomplish theater-level General Support missions. Given the 
C-27J's significant capability to accomplish both General Support and 
Direct Support mission sets, we must provide the Joint Force Commander 
the ability to swing from one mission area to the other regardless of 
the Service assignment of the Joint Cargo Aircraft. This is 
accomplished through shared visibility and management of movement 
requirements as well as the ability to use available airlift capacity.

                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                           AIR NATIONAL GUARD

    6. Senator Clinton. General McNabb, the Air Force is now developing 
the Program Objective Memorandum (POM) for fiscal year 2010; with the 
new guidance from the Secretary of Defense to protect end strength as 
well as re-examine the proposed modernization accounts to meet the 
needs of the Total Force, what are your plans to ensure in the POM the 
adequate capitalization of the Air National Guard from its equipment, 
personnel, and sustainment perspectives?
    General McNabb. If confirmed as U.S. TRANSCOM commander, I will 
have a very limited role in the Air Force's POM submissions. The Air 
Force's budget submission included a detailed review of all applicable 
guidance as well as a careful review of Total Force modernization, 
personnel, and sustainment. The Air Force remains committed to Total 
Force Integration and in the 2010 POM will expand on the progress we 
have made to integrate the Air National Guard and Air Force Reserve 
Forces into the Total Force in all areas including equipment, 
personnel, and sustainment.

          INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE (ISR)

    7. Senator Clinton. General McNabb, Secretary Gates has stressed 
the importance of the Air Force providing a more robust ISR to the 
warfighter. How will you enable the Air Force to meet the Secretary's 
objectives, and within what timeframe will you be able to do so?
    General McNabb. We are working as part of the Secretary's ISR Task 
Force to push even more ISR capability to the fight in the near-term 
through additional buys of equipment (such as RC-12 aircraft tailored 
to irregular warfare) and creative concepts that will add quantitative 
and qualitative value in the near-term. The Air Force and our airmen 
are committed to winning the current fight. Our ISR posture reflects 
that commitment.
    The Air Force has adapted traditional capabilities to Joint Force 
Commander requirements by fielding innovative ISR solutions. For 
example, the Air Force invented and fielded 4,000 Remotely Operated 
Video Enhanced Receivers that allow ground forces to directly receive 
UAS pictures. We have accelerated MQ-1 Predator operations well beyond 
the DOD-directed program of record. We also introduced the MQ-9 Reaper 
into combat a year ahead of schedule. We continue to field more UAS 
capability at maximum capacity with near-term focus, and we're proud of 
the dedicated airmen around the globe who are making this happen. 
General David Petreaus recently attested, ``Predator teams have just 
been doing unbelievable work down there [International Zone] and in 
Baghdad as well. I think there's some path-breaking work ongoing 
here.''
    The DOD-approved Predator UAS requirement is 21 Combat Air Patrols 
(CAPs) by 2010. The Air Force is already flying 26 today, and we will 
further increase Predator CAPs to 31 by December 2008. We are pushing 
ISR capability into the field as soon as it becomes available. We have 
issued a request for proposal for new UASs, and we are shifting our UAS 
procurement from the older MQ-1 to the more capable MQ-9. When equipped 
with the new Wide Area Airborne Surveillance pod (WAAS), our MQ-9 UASs 
will be able to provide 30 to 60 times more capability than a single 
MQ-1 Predator.
    In addition, we have pushed our legacy ISR ``workhorses''--U-2s, 
RC-135s, and JSTARS--to the highest possible tempo to get as much 
capability to the fight as possible. Although still in development and 
procurement, our Global Hawk UAS is already a prized capability that is 
also deployed to the fight at the highest rate possible. To ensure that 
our ground partners are able to leverage Air Force ISR systems, we have 
embedded ISR liaison teams at the division and brigade levels to work 
hand-in-glove with ground commanders and with our battlefield airmen in 
tailoring ISR capabilities for specific tactical fights. Further, we 
have capitalized on technical analysis advances to accommodate rapidly 
growing collection capabilities and turn data into actionable 
intelligence. In light of these advances, we have reorganized globally 
through reachback for even more potency and efficiency through the 
Distributed Common Ground System (DCGS)--our primary imagery analysis 
capability. This global approach provides real time flexibility and 
ensures that our warfighters get the maximum value from ISR collection 
and data.

                               C-5 FLEET

    8. Senator Clinton. General McNabb, the recently signed Iraq 
Supplemental Appropriations bill included 15 additional C-17s for the 
Air Force to meet its strategic airlift requirements. The Air Force has 
continued to state its need to balance the cost of sustaining the C-5 
fleet with ensuring modern strategic air lifters are available to meet 
global needs. Please articulate what the Air Force sees as the need for 
additional C-17s, as well as the relationship of that need with the C-5 
fleet.
    General McNabb. Our first priority is always to provide the best 
overall airlift capability to the joint warfighter. There are two 
issues with respect to the proper balance between the C-5s and C-17s 
that comprise our strategic airlift fleet. The first is the total 
number of aircraft. The current requirement of 299 aircraft was set by 
the 2007 National Defense Authorization Act, and this requirement as 
outlined in the fiscal year 2009 program of record for strategic 
airlift is 190 C-17s and 111 C-5s.
    The second issue is the minimum number of MTM/D available in our 
total fleet. During Nunn-McCurdy certification, the JROC validated a 
requirement for 33.95 MTM/D of organic strategic airlift (C-5s and C-
17s). The recent Nunn-McCurdy acquisition decision memorandum signed by 
John Young, USD(AT&L), results in a fleet of 205 C-17s, 52 Reliability 
Enhancement Reengined Program (RERP) modified C-5s, and 59 Avionics 
Modernization Program (AMP) modified C-5As. This fleet mix meets both 
requirements and is aligned with objectives sought by the U.S. TRANSCOM 
commander and the JROC.
    The Air Force continues to review options for the modernization and 
retirement of portions of the C-5A fleet. The C-17 has proven itself to 
be a highly reliable and versatile strategic airlift platform that will 
serve the Nation well across the full range of military operations. We 
will continue to analyze the overall requirement and make sure we 
maintain the proper balance in our fleet. The ongoing Mobility 
Capabilities Requirements Study 2016, with informal results available 
in the spring of 2009, is the next big milestone in this continuing 
analysis.
                                 ______
                                 
   Questions Submitted by Senator John McCain and Senator John Warner

               SENIOR LEADER IN-TRANSIT COMFORT CAPSULES

    9. Senator McCain and Senator Warner. General McNabb, according to 
Air Force documents, the requirement for Senior Leader In-Transit 
Comfort Capsules (SLICC) was added as an in-scope task order to the 
Agile Eagle Program--an indefinite delivery/indefinite quantity 
contract managed by the Air Force Research Laboratory under the Air 
Force Materiel Command at Wright-Patterson Air Force Base. The Agile 
Eagle contract was expressly for the ``design, development, 
fabrication, testing and upgrading'' of ``Specialized Airborne 
Communications Packages.'' The Agile Eagle Program ``called 
specifically for communications packages with multiple-channel/
multiple-path satellite communications and comprehensive airborne 
networking capability into an existing communications facility.'' Is 
SLICC a new start program?
    General McNabb. SLICC is a new start program. Congress was notified 
of the new start in January 2007.

    10. Senator McCain and Senator Warner. General McNabb, please 
explain how the SLICC task order is in-scope to the Agile Eagle 
contract for ``Specialized Airborne Communications Packages?''
    General McNabb. The SLICC is in-scope to the Agile Eagle contract 
for ``Specialized Airborne Communications Packages'' in that it was 
intended to be used in conjunction with the Steel Eagle Command and 
Control Module (CCM) to provide the end user with worldwide, secure 
communications and networking capabilities such as secure video 
teleconferencing and other advanced networking operations. The 
Conference Eagle Module was an existing Contract Line Item Number on 
the Agile Eagle contract for an accompanying capsule for the Steel 
Eagle CCM to provide the user with a dedicated work/rest travel 
compartment. The SLICC meets the same capabilities, allowing a task 
order to be executed within that contract.

    11. Senator McCain and Senator Warner. General McNabb, according to 
e-mails provided to the Senate Armed Services Committee and the 
attached March 26, 2008 ``SLICC/SLIP Financial Update'' by the Air 
Force Research Laboratory, in June 2007 the ``AMC request to implement 
`worldclass' interior and changes to berthing module shelter and 
seating components,'' led to cost increases of at least $493,000. 
(Please see attachment). As you were the Commander of Air Mobility 
Command (AMC) at the time of these changes, how can you answer, as you 
did, in your advance policy questions, that you ensured expenditures on 
the SLICC program are ``reasonable and limited to only necessary 
costs?''
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General McNabb. Costs presented in November 2006 were initial 
estimates by the Air Force Research Lab. Since then, costs have been 
generated to: (1) cover airworthiness testing from modifying the 
original design from a communications module to a conference working 
space; (2) cover nonrecurring engineering to modify the SLICC design to 
a ``two capsule'' configuration; and (3) to meet current DV fleet 
appearance standards.

    12. Senator McCain and Senator Warner. General McNabb, what role 
did you play in determining the furnishings of SLICCs?
    General McNabb. In June 2006, I approved a broad statement of 
requirements for the SLICC as part of the Operational Requirements 
document, and in May 2007, I approved the selection of the original 
colors for the SLICC.

    13. Senator McCain and Senator Warner. General McNabb, in your 
answers to the advance policy questions, you stated ``the driving force 
behind this entire initiative was efficiency and cost savings.'' 
However, according to the attached ``AF Form 1768,'' entitled ``Staff 
Summary Sheet'' signed by you in June 2006, the AMC requirements 
validated under your command were for ``reclining first-class airline 
seats incorporating integral foot rests,'' ``a couch capable of seating 
at least two adults (three desired),'' ``a `flat panel' monitor (TV 
screen)'' with a ``diagonal measurement of at least 37 inches,'' ``a 
full length mirror,'' ``internal illumination level [that] will 
automatically adjust to ambient lighting levels,'' ``independent 
heating and cooling'' units, and ``aesthetically pleasing'' walls, 
ceilings and carpets. (Please see attachment). Is this the description 
of a project where cost savings are the driving force?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General McNabb. SLICC was designed to leverage a large portion of 
our current and future cargo and refueling fleet at a fraction of the 
cost of purchasing new dedicated VIP aircraft. The original 
requirements defined in June 2006 were intended to provide a work and 
rest area suitable for the national leaders who would be authorized to 
use the SLICC. These include senior civilian members of the executive 
branch, Members of Congress, and selected senior military flag 
officers. SLICC requirements reflect the same standards present in our 
existing fleet of VIP aircraft in a much smaller package. Further, 
although cost savings were a major consideration for the SLICC concept, 
it was not the only factor driving design. The design was a function of 
maintaining the current DV fleet standards given the intended 
occupants, providing FAA-certified materials to allow carriage on the 
KC-10, and an overriding need to ensure occupant safety and security.

    14. Senator McCain and Senator Warner. General McNabb, why was the 
``first class seating'' in SLICCs reupholstered from brown leather to 
blue leather? General Robert H. McMahon told the Washington Post that 
``it was probably because blue would not show dirt as much as tan or 
brown would.'' Is this correct?
    General McNabb. Neither General McMahon nor I were assigned to AMC 
when the change in color was made. General McMahon was speculating when 
he answered the Washington Post reporter. His response was incorrect. 
AMC made the color change to match the interior of the KC-10, a primary 
carrier of the SLICC, and to match the color of the other seat pallets 
that are used to move personnel on cargo aircraft.

    15. Senator McCain and Senator Warner. General McNabb, in your 
advance policy questions you stated that when you were the AMC 
Commander, you were confident that this requirement was being vetted 
through the normal resource allocation process within the Air Force and 
the Office of the Secretary of Defense (OSD). However, the Committee 
understands that this program was not vetted through the normal 
resource allocation process within OSD, but that the Air Force 
reprogrammed $3.5 million of fiscal year 2006 baseline dollars for the 
initial SLICC. Which statement is correct?
    General McNabb. In my answers to the advance policy questions I 
stated that the concept warranted the investment in prototyping and 
further evaluation. To initiate this effort, the Air Force submitted a 
new start through OSD to the four Defense Committees for approval and 
identified baseline funding of $3.5 million for the required 
prototyping. Funding for any assets beyond the prototype is being 
vetted through the normal resource allocation process within the AF and 
OSD.

    16. Senator McCain and Senator Warner. General McNabb, during your 
tenure when you were AMC Commander, the estimated cost of each SLICC 
grew from $1.7 million in November 2006 to $2.7 million in June 2007--a 
66-percent cost increase in less than 2 years. Do you still think the 
SLICC is a cost effective program? How do you explain this 
mismanagement under your command?
    General McNabb. SLICC was designed to leverage a large portion of 
the current and future cargo and refueling fleet at a fraction of the 
cost of purchasing new dedicated VIP aircraft and associated flying 
hours, crews, maintenance personnel, and support equipment. Keeping the 
required size as small as possible was critical. For instance, if we 
had seats that allow our senior leaders to rest, we could modify the 
berthing requirement and reduce the size of the couch. The growth in 
cost of the prototype over the timeframe identified was due primarily 
to modifying the SLICC from a single capsule for both working and 
berthing to a dual capsule design with separate capsules for working 
and for berthing. The flexibility to tailor the package for shorter 
trips would free up space for other needs. This change in design 
provided for greater acquisition flexibility when procuring production 
SLICCs, and for greater operational flexibility depending upon the size 
of the travel group. It also would allow us to take better advantage of 
theater assets without the need to position or deposition dedicated VIP 
aircraft to meet theater requirements.

    17. Senator McCain and Senator Warner. General McNabb, under your 
tenure as AMC Commander and later as Air Force Vice Chief of Staff, on 
three occasions, the Air Force requested to use global war on terrorism 
funds for the SLICC program. Is it not true that it is only because 
Congress has rejected these expenditures that no war supplemental funds 
have yet been used for SLICC?
    General McNabb. Yes, this is true. However, the Air Force's sole 
request for global war on terrorism funding was submitted as part of 
the Department of Defense's fiscal year 2008 global war on terrorism 
request. OSD and the Office of Management and Budget supported this 
request. The Air Force believed this to be a valid global war on 
terrorism requirement due to the increased demand for flying and 
protecting senior U.S. Government officials traveling in and out of 
high threat areas. While the Air Force requested the use of global war 
on terrorism funding for this requirement, there was never an intention 
to use global war on terrorism funds without the approval of Congress.

    18. Senator McCain and Senator Warner. General McNabb, why did the 
Air Force continue to request funding SLICCs under the Fiscal Year 2008 
Global War on Terrorism Supplemental, given that you acknowledged in 
your response to the advance policy questions that ``There is less of 
an urgent need now. . .?''
    General McNabb. SLICC was developed to address the growing gap 
between DV lift requirements and lift capability in the wake of 
September 11. One key requirement was to provide nondescript DV 
transportation capability into high threat environments to ensure their 
safety and security. Although congressional support for defensive 
systems on large aircraft helped reduce the total SLICC requirement, it 
did not address the enduring need for nondescript movement. This is 
especially important given the proliferation of threats such as 
manportable surface-to-air missiles (manpads). As a result, SLICC 
remains a needed capability.

    19. Senator McCain and Senator Warner. General McNabb, how is the 
expenditure of global war on terrorism funds for SLICCs helping the 
troops on the ground?
    General McNabb. Congress denied the use of global war on terrorism 
funds to meet this requirement, however it is very important for our 
national military and civilian leaders to assess theater progress first 
hand, and it is very motivating for the troops on the ground to see 
their leaders. Leaders strive to maximize their time on the ground with 
the troops, and SLICC would allow them to take full advantage of their 
en route time to work and rest.

    20. Senator McCain and Senator Warner. General McNabb, is it not 
true that senior leaders go where they are needed or ordered, whether 
they are flying coach or first class?
    General McNabb. Absolutely true. Senior military and civilian 
leaders below the equivalent rank of four stars routinely travel on 
commercial aircraft, usually in coach. Senior leaders at or above four 
star equivalent are ``required users'' of military aircraft for travel 
purposes as directed by the Secretary of Defense in DOD Directive 
4500.56.
                                 ______
                                 
               Questions Submitted by Senator John Warner

               EN ROUTE STRATEGIC MOBILITY INFRASTRUCTURE

    21. Senator Warner. General McNabb, I noticed from your answers to 
the advance policy questions submitted to you by the Committee that you 
list as one of your major challenges to ``ensure we have the 
appropriate global en route infrastructure to support future force 
projection and sustainment as we shift to a smaller overseas military 
presence with more deployments from U.S. bases.'' The global reach of 
our Nation's Armed Forces depends on the physical infrastructure of 
ports, airfields, rail, and other lines of logistics worldwide to be 
able to transport military personnel and equipment. How would you 
assess the capability of the en route mobility infrastructure to 
support new requirements as a result of the global realignment of the 
stationing of U.S. forces and the growth of our Nation's ground forces?
    General McNabb. In general terms, I am confident in U.S. TRANSCOM's 
ability to project the Nation's combat power along an east-west axis. 
As operations in U.S. Central Command illustrate, we have significant 
worldwide capabilities in terms of airfields, seaports, roads, and 
associated infrastructure. We are also continuously working to improve 
that infrastructure to increase the velocity across the transportation 
enterprise. I am less confident about our abilities to project power 
south into emerging areas of interest in Africa and South America. If 
confirmed I will make it a priority to: (1) preserve and optimize the 
existing network of infrastructure; and (2) work with the combatant 
commanders and DOD to determine future infrastructure requirements.

    22. Senator Warner. General McNabb, are there any specific areas of 
concern regarding en route infrastructure you would want to address?
    General McNabb. I am most immediately concerned about our ability 
to reach locations in South America and Africa.

    23. Senator Warner. General McNabb, how would you propose 
addressing them?
    General McNabb. If confirmed, I will continue to make maximum use 
of DOD's study efforts, like the Mobility Capability and Requirements 
Study, to validate current and define emerging infrastructure 
requirements. I will work closely with the other combatant commanders 
so we can efficiently and effectively meet their warfighting 
deployment, employment, sustainment, and redeployment needs. In 
addition, I would continue to leverage U.S. TRANSCOM's Global En Route 
Infrastructure Committee structure. This committee includes members 
from each of the Geographic Combatant Commanders and meets to define 
and prioritize worldwide mobility infrastructure requirements. Those 
prioritized requirements are then passed to the Services for 
programming and become part of U.S. TRANSCOM's Integrated Priority 
List.
                                 ______
                                 
    [The nomination reference of Gen. Duncan J. McNabb, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 10, 2008.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Gen. Duncan J. McNabb, USAF
                                 ______
                                 
    [The biographical sketch of Gen. Duncan J. McNabb, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch by Gen. Duncan J. McNabb, USAF
    General Duncan J. McNabb is Vice Chief of Staff, Headquarters U.S. 
Air Force, Washington, D.C. As Vice Chief, he presides over the Air 
Staff and serves as a member of the Joint Chiefs of Staff Requirements 
Oversight Council and Deputy Advisory Working Group. He assists the 
Chief of Staff with organization, training, and equipage of more than 
710,000 Active-Duty, Guard, Reserve, and civilian forces serving in the 
United States and overseas.
    General McNabb graduated from the U.S. Air Force Academy in 1974. A 
command pilot, he has amassed more than 5,400 flying hours in transport 
and rotary wing aircraft. He has held command and staff positions at 
squadron, group, wing, major command and Department of Defense levels. 
During Operations Desert Shield and Desert Storm, General McNabb 
commanded the 41st Military Airlift Squadron, which earned Military 
Airlift Command's Airlift Squadron of the Year in 1990. The General 
commanded the 89th Operations Group, overseeing the air transportation 
of our Nation's leaders, including the President, Vice President, 
Secretary of State and Secretary of Defense. He then served as 
Commander of the 62nd Airlift Wing. The wing's performance in 1996 
earned the Riverside Trophy as the 15th Air Force's outstanding wing.
    He also commanded the Tanker Airlift Control Center where he 
planned, scheduled, and directed a fleet of more than 1,400 aircraft in 
support of combat delivery and strategic airlift, air refueling, and 
aeromedical operations around the world. Most recently, General McNabb 
was the Commander of Air Mobility Command, where he led 134,000 total 
force airmen in providing rapid global mobility, aerial refueling, 
special airlift and aeromedical evacuation for America's Armed Forces.
    General McNabb's staff assignments have been a variety of planning, 
programming and logistical duties. These include serving as the Deputy 
Chief of Staff for Plans and Programs on the Air Staff and Chairman of 
the Air Force Board having oversight of all Air Force programs. He also 
served as the Director for Logistics on the Joint Staff where he was 
responsible for operational logistics and strategic mobility support to 
the Chairman of the Joint Chiefs of Staff and the Secretary of Defense.
                                 ______
                                 
        Resume of Career Service of Gen. Duncan J. McNabb, USAF
Education:

1974......................................  Bachelor of Science degree,
                                             U.S. Air Force Academy,
                                             Colorado Springs, CO.
1977......................................  Distinguished graduate,
                                             Squadron Officer School,
                                             Maxwell Air Force Base, AL.
1983......................................  Air Command and Staff
                                             College, by correspondence
1984......................................  Master of Science degree in
                                             international relations,
                                             University of Southern
                                             California, Los Angeles, CA
1993......................................  Industrial College of the
                                             Armed Forces, Fort Lesley
                                             J. McNair, Washington, DC.
1994......................................  Air War College, by
                                             correspondence
1995......................................  Program for Senior Officials
                                             in National Security, John
                                             F. Kennedy School of
                                             Government, Harvard
                                             University, Cambridge, MA.
1998......................................  Executive Program for
                                             General Officers of the
                                             Russian Federation and the
                                             United States, John F.
                                             Kennedy School of
                                             Government, Harvard
                                             University, Cambridge, MA.
2000......................................  National Security
                                             Decisionmaking Seminar,
                                             Center for Strategic
                                             Education, The Paul H.
                                             Nitze School of Advanced
                                             International Studies,
                                             Johns Hopkins University,
                                             Washington, DC.



Assignments:

June 1974-May 1975........................  Student, undergraduate
                                             navigator training, Mather
                                             Air Force Base, CA.
August 1975-April 1978....................  Instructor navigator, 14th
                                             Military Airlift Squadron,
                                             Norton Air Force Base, CA.
April 1978-April 1979.....................  Airlift director, 63rd
                                             Military Airlift Wing,
                                             Norton Air Force Base, CA.
April 1979-April 1980.....................  Student, undergraduate pilot
                                             training, Williams Air
                                             Force Base, AZ.
August 1980-August 1983...................  Instructor pilot and chief
                                             pilot, 14th Military
                                             Airlift Squadron, Norton
                                             Air Force Base, CA.
August 1983-July 1984.....................  General's aide, Air Force
                                             Inspection and Safety
                                             Center, Norton Air Force
                                             Base, CA.
July 1984-June 1986.......................  Chief, Plans Integration
                                             Branch, Headquarters MAC,
                                             Scott Air Force Base, IL.
June 1986-June 1988.......................  Aide to the Commander, U.S.
                                             Transportation Command and
                                             MAC, Scott Air Force Base,
                                             IL.
June 1988-November 1990...................  Chief pilot, later,
                                             operations officer, 17th
                                             Military Airlift Squadron,
                                             Charleston Air Force Base,
                                             SC.
November 1990-January 1992................  Commander, 41st Military
                                             Airlift Squadron,
                                             Charleston Air Force Base,
                                             SC.
January 1992-August 1992..................  Deputy Group Commander,
                                             437th Operations Group,
                                             Charleston Air Force Base,
                                             SC.
August 1992-June 1993.....................  Student, Industrial College
                                             of the Armed Forces, Fort
                                             Lesley J. McNair,
                                             Washington, DC.
July 1993-June 1995.......................  Chief, Logistics Readiness
                                             Center, the Joint Staff,
                                             Washington, DC.
July 1995-July 1996.......................  Commander, 89th Operations
                                             Group, Andrews Air Force
                                             Base, MD.
July 1996-July 1997.......................  Commander, 62nd Airlift
                                             Wing, McChord Air Force
                                             Base, WA.
August 1997-June 1999.....................  Commander, Tanker Airlift
                                             Control Center,
                                             Headquarters Air Mobility
                                             Command, Scott Air Force
                                             Base, IL.
June 1999-December 1999...................  Deputy Director of Programs,
                                             Office of the Deputy Chief
                                             of Staff for Plans and
                                             Programs, Headquarters U.S.
                                             Air Force, Washington, DC.
December 1999-April 2002..................  Director of Programs, Office
                                             of the Deputy Chief of
                                             Staff for Plans and
                                             Programs, Headquarters U.S.
                                             Air Force, Washington, DC.
April 2002-July 2004......................  Deputy Chief of Staff for
                                             Plans and Programs,
                                             Headquarters U.S. Air
                                             Force, Washington, DC.
August 2004-October 2005..................  Director for Logistics, the
                                             Joint Staff, Washington,
                                             DC.
October 2005-September 2007...............  Commander, Headquarters Air
                                             Mobility Command, Scott Air
                                             Force Base, IL.
September 2007-present....................  Vice Chief of Staff,
                                             Headquarters U.S. Air
                                             Force, Washington, DC.



Flight information:
    Rating: Command pilot, navigator.
    Flight hours: More than 5,400.
    Aircraft flown; T-37, T-38, C-141, C-17, C-21, C-20, and UH-IN.

Major awards and decorations:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with oak leaf cluster
    Defense Meritorious Service Medal
    Meritorious Service Medal with oak leaf cluster
    Joint Service Commendation Medal
    Air Force Commendation Medal with two oak leaf clusters
    Air Force Achievement Medal
    Combat Readiness Medal with oak leaf cluster
    National Defense Service Medal with two bronze stars
    Armed Forces Expeditionary Medal
    Southwest Asia Service Medal with two bronze stars
    Global War on Terrorism Service Medal
    Humanitarian Service Medal
    NATO Medal (Former Republic of Yugoslavia)
    Kuwait Liberation Medal (Kingdom of Saudi Arabia)
    Kuwait Liberation Medal (Government of Kuwait)

Other achievements:
    Commander's Trophy, Undergraduate Pilot Training, Air Training 
Command
    Orville Wright Award for outstanding UPT graduate, Order of 
Daedalians
    Order of the Sword, AMC

Effective dates of promotion:

Second Lieutenant...................................       June 5, 1974
First Lieutenant....................................       June 5, 1976
Captain.............................................       June 5, 1978
Major...............................................    October 1, 1985
Lieutenant Colonel..................................       June 1, 1989
Colonel.............................................    January 1, 1993
Brigadier General...................................      July 27, 1998
Major General.......................................  February 26, 2001
Lieutenant General..................................     April 19, 2002
General.............................................   December 1, 2005


                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring advice and consent of the Senate to complete a form 
that details the biographical, financial, and other information 
of the nominee. The form executed by Gen. Duncan J. McNabb, 
USAF, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Duncan J. McNabb.

    2. Position to which nominated:
    Commander, United States Transportation Command.

    3. Date of nomination:
    July 10, 2008.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 8, 1952; Shaw Field, SC (Shaw AFB).

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Worden McNabb (Maiden Name: Worden).

    7. Names and ages of children:
    Kathryn W. Cochran, 25; Duncan J. McNabb, Jr., 24; Marvie L. 
McNabb, 22..

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None, in addition to service record.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business, 
enterprise, educational or other institution.
    Board of Directors, Sam Fox Association (89th Airlift Wing, Andrews 
Air Force Base, MD; an association of present and former Andrews Air 
Force Base personnel).
    Member of the Nominating Committee for National Airlift and Tanker 
Association.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Associate of Graduates (AOG), USAF Academy, served as President of 
National Chapter AOG, Washington, DC
    Order of Daedalians (served as Flight Captain, Gateway Flight 26, 
Scott AFB, IL)
    Member of the Nominating Committee for National Airlift and Tanker 
Association
    Sergeants Association
    Air Force Association
    Armed Forces Escape and Evasion Society
    Board of Directors, Sam Fox Association (89th Airlift Wing, Andrews 
AFB, MD; an association of present and former Andrews AFB personnel)
    Logistics Officer Association (LOA)
    National Defense Transportation Association

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Distinguished Graduate, Squadron Officer School.
    Undergraduate Pilot Training Outstanding Graduate (Commander's 
Trophy).
    Daedalians' Orville Wright Award, Outstanding Undergraduate Pilot 
Training Graduate in the Air Force.
    Commander, 41st Military Airlift Squadron; Air Mobility Command's 
Airlift Squadron of the Year, 1990.
    Commander, 62d Airlift Wing; Riverside Trophy for Outstanding Wing 
in 15th Air Force, 1996.
    Air Mobility Command's Public Affairs Achievement Award, 1996.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Duncan J. McNabb.
    This 11th day of June, 2008.

    [The nomination of Gen. Duncan J. McNabb, USAF, was 
reported to the Senate by Chairman Levin on July 31, 2008, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 1, 2008.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20----.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:

    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20----.

                                 <all>
      

</pre></body></html>
